<html>
<title> - S. Hrg. 112-403 TEN YEARS AFTER 9/11</title>
<body><pre>[Senate Hearing 112-403]
[From the U.S. Government Publishing Office]



 
                                                        S. Hrg. 112-403

                      TEN YEARS AFTER 9/11 -- 2011

=======================================================================

                                HEARINGS

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        AND GOVERNMENTAL AFFAIRS

                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

       A REPORT FROM THE 9/11 COMMISSION CHAIRMEN--MARCH 30, 2011

         IS INTELLIGENCE REFORM WORKING?--PART I--MAY 12, 2011

         IS INTELLIGENCE REFORM WORKING?--PART II--MAY 19, 2011

        NEXT STEPS FOR SECURING RAIL AND TRANSIT--JUNE 22, 2011

               PREVENTING TERRORIST TRAVEL--JULY 13, 2011

           IMPROVING EMERGENCY COMMUNICATIONS--JULY 27, 2011

 SUCCESSFUL REFORMS AND CHALLENGES AHEAD AT THE DEPARTMENT OF HOMELAND 
                      SECURITY--SEPTEMBER 7, 2011

                   ARE WE SAFER?--SEPTEMBER 13, 2011

        A STATUS REPORT ON INFORMATION SHARING--OCTOBER 12, 2011

        PROTECTING AGAINST BIOLOGICAL THREATS--OCTOBER 18, 2011

          THE NEXT WAVE IN AVIATION SECURITY--NOVEMBER 2, 2011

                               ----------                              

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
67-123                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada *
JON TESTER, Montana                  ROB PORTMAN, Ohio
MARK BEGICH, Alaska                  RAND PAUL, Kentucky
                                     JERRY MORAN, Kansas **

                  Michael L. Alexander, Staff Director
       Beth M. Grossman, Deputy Staff Director and Chief Counsel
   Mary Beth Schultz, Associate Staff Director and Chief Counsel for
              Homeland Security Preparedness and Response
   Gordon N. Lederman, Associate Staff Director and Chief Counsel for
                  National Security and Investigations
           Christian J. Beckner, Associate Staff Director for
              Homeland Security Prevention and Protection
                     Troy H. Cribb, Senior Counsel
                       Jeffrey D. Ratner, Counsel
           Jason M. Yanussi, Senior Professional Staff Member
              Seamus A. Hughes, Professional Staff Member
              Aaron M. Firoved, Professional Staff Member
             Elyse F. Greenwald, Professional Staff Member
                  Alfred Cumming, Senior Investigator
                   Robert H. Bradley, Staff Assistant
               Nicholas A. Rossi, Minority Staff Director
              Molly A. Wilkinson, Minority General Counsel
   Brendan P. Shields, Minority Director of Homeland Security Policy
                  Luke P. Bellocchi, Minority Counsel
        Eric B. Heighberger, Minority Professional Staff Member
          Jared F. Golden, Minority Professional Staff Member
          Heather E. Raiti, Minority Professional Staff Member
         Scott K. Lemasters, Minority U.S. Coast Guard Detailee
                  Trina Driessnack Tyrer, Chief Clerk
                 Patricia R. Hogan, Publications Clerk
                    Laura W. Kilbride, Hearing Clerk

                                      * Senator Ensign resigned on May 
                                         3, 2011.
                                     ** Senator Moran joined the 
                                         Committee on May 11, 2011.
                            C O N T E N T S

                                 ------                                
                                                                   Page

                       WEDNESDAY, MARCH 30, 2011

Opening statements:
    Senator Lieberman............................................     1
    Senator Collins..............................................     4
    Senator McCain...............................................     6
    Senator Akaka................................................    18
    Senator Carper...............................................    20
Prepared statements:
    Senator Lieberman............................................   359
    Senator Collins..............................................   361

                               WITNESSES

Hon. Thomas H. Kean, Former Chairman of the National Commission 
  on Terrorist Attacks Upon the United States....................     6
Hon. Lee H. Hamilton, Former Vice Chairman of the National 
  Commission on Terrorist Attacks Upon the United States.........     9

                     Alphabetical List of Witnesses

Kean, Hon. Thomas H.:
    Testimony....................................................     6
    Prepared statement...........................................   364
Hamilton, Hon. Lee H.:
    Testimony....................................................     9
    Prepared statement...........................................   364

                                APPENDIX

Letter to the President of the United States, dated April 8, 
  2011, submitted for the Record by Senator Lieberman............   387
Responses to post-hearing questions for the Record from:
    Mr. Kean and Mr. Hamilton....................................   389

                         THURSDAY, MAY 12, 2011

Opening statements:
    Senator Lieberman............................................    31
    Senator Collins..............................................    32
Prepared statements:
    Senator Lieberman............................................   395
    Senator Collins..............................................   398

                               WITNESSES

Hon. Jane Harman, Former Representative from California and Chair 
  of the Subcommittee on Intelligence, Information Sharing, and 
  Terrorism Risk Assessment......................................    34
Hon. Michael V. Hayden, Former Director of the Central 
  Intelligence Agency and Former Director of the National 
  Security Agency................................................    37
John C. Gannon, Former Deputy Director for Intelligence at the 
  Central Intelligence Agency....................................    40

                     Alphabetical List of Witnesses

Gannon, John C.:
    Testimony....................................................    40
    Prepared statement...........................................   406
Harman, Hon. Jane:
    Testimony....................................................    34
    Prepared statement...........................................   400
Hayden, Hon. Michael V.:
    Testimony....................................................    37
    Prepared statement...........................................   403

                         THURSDAY, MAY 19, 2011

Opening statements:
    Senator Lieberman............................................    59
    Senator Collins..............................................    60
    Senator Brown................................................    69
    Senator Carper...............................................    71
Prepared statements:
    Senator Lieberman............................................   412
    Senator Collins..............................................   414

                                WITNESS

Hon. Dennis C. Blair, Former Director of National Intelligence:
    Testimony....................................................    61
    Prepared statement...........................................   416

                        WEDNESDAY, JUNE 22, 2011

Opening statements:
    Senator Lieberman............................................    83
    Senator Collins..............................................    85
    Senator Paul.................................................   101
    Senator Landrieu.............................................   104
    Senator Carper...............................................   111
Prepared statements:
    Senator Lieberman............................................   436
    Senator Collins..............................................   438
    Senator Landrieu.............................................   440

                               WITNESSES

Hon. John S. Pistole, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security...........    87
Hon. Peter J. Boynton, Commissioner, Connecticut Department of 
  Emergency Management and Homeland Security.....................    90
Stephen E. Flynn, Ph.D., President, Center for National Policy...    93

                     Alphabetical List of Witnesses

Boynton, Hon. Peter J.:
    Testimony....................................................    90
    Prepared statement...........................................   450
Flynn, Ph.D., Stephen E.:
    Testimony....................................................    93
    Prepared statement...........................................   454
Pistole, Hon. John S.:
    Testimony....................................................    87
    Prepared statement with an attachment........................   442

                                APPENDIX

Brian Michael Jenkins, Director, National Transportation Security 
  Center of Excellence, Mineta Transportation Institute, document 
  submitted for the Record by Senator Lieberman..................   462
Responses to post-hearing questions for the Record from:
    Mr. Pistole..................................................   467
    Mr. Boynton..................................................   485
    Mr. Flynn....................................................   491

                        WEDNESDAY, JULY 13, 2011

Opening statements:
    Senator Lieberman............................................   117
    Senator Collins..............................................   120
    Senator Paul.................................................   136
    Senator Brown................................................   141
Prepared statements:
    Senator Lieberman............................................   493
    Senator Collins..............................................   496

                               WITNESSES

Hon. Rand Beers, Under Secretary, National Protection and 
  Programs Directorate, U.S. Department of Homeland Security.....   122
Hon. Janice L. Jacobs, Assistant Secretary, Bureau of Consular 
  Affairs, U.S. Department of State..............................   124
Hon. David F. Heyman, Assistant Secretary, Office of Policy, U.S. 
  Department of Homeland Security................................   127

                     Alphabetical List of Witnesses

Beers, Hon. Rand:
    Testimony....................................................   122
    Prepared statement...........................................   499
Heyman, Hon. David F.:
    Testimony....................................................   127
    Prepared statement...........................................   530
Jacobs, Hon. Janice L.:
    Testimony....................................................   124
    Prepared statement...........................................   506

                                APPENDIX

Responses to post-hearing questions for the Record from:
    Mr. Beers and Mr. Heyman.....................................   542
    Ms. Jacobs...................................................   568

                        WEDNESDAY, JULY 27, 2011

Opening statements:
    Senator Lieberman............................................   151
    Senator Collins..............................................   154
    Senator Brown................................................   170
Prepared statements:
    Senator Lieberman............................................   594
    Senator Collins..............................................   597

                               WITNESSES

Gregory Schaffer, Acting Deputy Under Secretary, National 
  Protection and Programs Directorate, U.S. Department of 
  Homeland Security..............................................   157
Michael D. Varney, Statewide Interoperability Coordinator, 
  Connecticut Department of Emergency Services and Public 
  Protection.....................................................   159
Robert P. McAleer, Director, Maine Emergency Management Agency...   161
Charles H. Ramsey, Police Commissioner, Philadelphia Police 
  Department.....................................................   164

                     Alphabetical List of Witnesses

McAleer, Robert P.:
    Testimony....................................................   161
    Prepared statement with an attachment........................   616
Ramsey, Charles H.:
    Testimony....................................................   164
    Prepared statement...........................................   627
Schaffer, Gregory:
    Testimony....................................................   157
    Prepared statement...........................................   599
Varney, Michael D.:
    Testimony....................................................   159
    Prepared statement...........................................   611

                                APPENDIX

Responses to post-hearing questions for the Record from:
    Mr. Schaffer.................................................   630

                      WEDNESDAY, SEPTEMBER 7, 2011

Opening statements:
    Senator Lieberman............................................   179
    Senator Collins..............................................   181
    Senator Akaka................................................   193
    Senator Pryor................................................   195
    Senator Carper...............................................   197
Prepared statements:
    Senator Lieberman............................................   641
    Senator Collins..............................................   644

                               WITNESSES

Hon. Jane Holl Lute, Deputy Secretary, U.S. Department of 
  Homeland Security..............................................   183
Hon. Eugene L. Dodaro, Comptroller General of the United States, 
  U.S. Government Accountability Office, accompanied by Cathleen 
  A. Berrick, Director, Homeland Security and Justice Issues, 
  U.S. Government Accountability Office..........................   185

                     Alphabetical List of Witnesses

Dodaro, Hon. Eugene L.:
    Testimony....................................................   185
    Prepared statement with an attachment........................   660
Lute, Hon. Jane Holl:
    Testimony....................................................   183
    Prepared statement...........................................   647

                                APPENDIX

Report to Congressional Requesters titled, ``Department of 
  Homeland Security: Progress Made and Work Remaining in 
  Implementing Homeland Security Missions 10 Years after 9/11,'' 
  submitted by Mr. Dodaro........................................   689
Responses to post-hearing questions for the Record from:
    Ms. Lute.....................................................   894

                      TUESDAY, SEPTEMBER 13, 2011

Opening statements:
    Senator Lieberman............................................   207
    Senator Collins..............................................   208
    Senator Brown................................................   224
    Senator Carper...............................................   227
    Senator Johnson..............................................   230
    Senator Moran................................................   232
    Senator McCain...............................................   233
    Senator Akaka................................................   236
    Senator Paul.................................................   238
    Senator Levin................................................   241
Prepared statements:
    Senator Lieberman............................................   912
    Senator Collins..............................................   914
    Senator Moran................................................   917

                               WITNESSES

Hon. Janet A. Napolitano, Secretary, U.S. Department of Homeland 
  Security.......................................................   211
Hon. Robert S. Mueller III, Director, Federal Bureau of 
  Investigation, U.S. Department of Justice......................   214
Hon. Matthew G. Olsen, Director, National Counterterrorism 
  Center, Office of the Director of National Intelligence........   216

                     Alphabetical List of Witnesses

Mueller III, Hon. Robert S.:
    Testimony....................................................   214
    Prepared statement...........................................   943
Napolitano, Hon. Janet A.:
    Testimony....................................................   211
    Prepared statement...........................................   918
Olsen, Hon. Matthew G.:
    Testimony....................................................   216
    Prepared statement...........................................   955

                                APPENDIX

Anti-Defamation League, letter dated September 14, 2011, with an 
  attachment.....................................................   966
Margaret Huang, Executive Director, Rights Working Group, 
  prepared statement.............................................   981
Hon. John D. Rockefeller IV, a U.S. Senator from the State of 
  West Virginia, prepared statement..............................   994
Responses to post-hearing questions for the Record from:
    Secretary Napolitano.........................................   996
    Mr. Mueller..................................................  1045
    Mr. Olsen....................................................  1053

                      WEDNESDAY, OCTOBER 12, 2011

Opening statements:
    Senator Lieberman............................................   253
    Senator Collins..............................................   255
Prepared statements:
    Senator Lieberman............................................  1061
    Senator Collins..............................................  1063

                               WITNESSES

Hon. John E. McLaughlin, Distinguished Practitioner-In-Residence, 
  Paul H. Nitze School of Advanced International Studies, Johns 
  Hopkins University.............................................   257
Hon. Thomas E. McNamara, Adjunct Professor, Elliott School of 
  International Affairs, George Washington University............   260
Cathy L. Lanier, Chief of Police, Metropolitan Police Department, 
  District of Columbia...........................................   262
Ronald E. Brooks, Director, Northern California Regional 
  Intelligence Center............................................   264
Jeffrey H. Smith, Partner, Arnold and Porter.....................   267

                     Alphabetical List of Witnesses

Brooks, Ronald E.:
    Testimony....................................................   264
    Prepared statement...........................................  1085
Lanier, Cathy L.:
    Testimony....................................................   262
    Prepared statement...........................................  1078
McLaughlin, Hon. John E.:
    Testimony....................................................   257
    Prepared statement...........................................  1065
McNamara, Hon. Thomas E.:
    Testimony....................................................   260
    Prepared statement...........................................  1073
Smith, Jeffrey H.:
    Testimony....................................................   267
    Prepared statement...........................................  1107

                                APPENDIX

Eileen R. Larence, Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office, prepared 
  statement......................................................  1115
Responses to post-hearing questions for the Record from:
    Mr. McLaughlin...............................................  1134
    Mr. McNamara.................................................  1136
    Ms. Lanier...................................................  1137
    Mr. Brooks...................................................  1139
    Mr. Smith....................................................  1142

                       TUESDAY, OCTOBER 18, 2011

Opening statements:
    Senator Lieberman............................................   281
    Senator Collins..............................................   284
    Senator Akaka................................................   300
Prepared statements:
    Senator Lieberman............................................  1144
    Senator Collins..............................................  1147

                               WITNESSES

Hon. Tara J. O'Toole, Under Secretary for Science and Technology, 
  U.S. Department of Homeland Security...........................   286
Hon. Alexander G. Garza, Assistant Secretary for Health Affairs 
  and Chief Medical Officer, U.S. Department of Homeland Security   289
Hon. Nicole Lurie, Assistant Secretary for Preparedness and 
  Response, U.S. Department of Health and Human Services.........   291
Vahid Majidi, Ph.D., Assistant Director, Weapons of Mass 
  Destruction Directorate, Federal Bureau of Investigation, U.S. 
  Department of Justice..........................................   294
Thomas V. Inglesby, M.D., Director and Chief Executive Officer, 
  Center for Biosecurity, University of Pittsburgh Medical Center   307
Robert P. Kadlec, M.D., Former Special Assistant to the President 
  for Homeland Security and Senior Director for Biological 
  Defense Policy.................................................   310
Jeffrey Levi, Ph.D., Executive Director, Trust for America's 
  Health.........................................................   312

                     Alphabetical List of Witnesses

Garza, Hon. Alexander G.:
    Testimony....................................................   289
    Prepared statement...........................................  1161
Inglesby, M.D., Thomas V.:
    Testimony....................................................   307
    Prepared statement...........................................  1196
Kadlec, M.D., Robert P.:
    Testimony....................................................   310
    Prepared statement...........................................  1205
Levi, Ph.D., Jeffrey:
    Testimony....................................................   312
    Prepared statement...........................................  1213
Lurie, Hon. Nicole:
    Testimony....................................................   291
    Prepared statement...........................................  1167
Majidi, Ph.D., Vahid:
    Testimony....................................................   294
    Prepared statement...........................................  1186
O'Toole, Hon. Tara J.:
    Testimony....................................................   286
    Prepared statement...........................................  1150

                                APPENDIX

Responses to post-hearing questions for the Record from:
    Dr. Garza....................................................  1219
    Dr. Lurie....................................................  1220

                      WEDNESDAY, NOVEMBER 2, 2011

Opening statements:
    Senator Collins..............................................   323
    Senator Lieberman............................................   329
    Senator Paul.................................................   330
    Senator Akaka................................................   335
    Senator Pryor................................................   336
    Senator Moran................................................   351
    Senator Landrieu.............................................   353
    Senator Carper...............................................   356
Prepared statements:
    Senator Lieberman............................................  1224
    Senator Collins..............................................  1226
    Senator Landrieu.............................................  1228

                               WITNESSES

Hon. John S. Pistole, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security...........   325
Roger J. Dow, President and Chief Executive Officer, U.S. Travel 
  Association....................................................   340
Kenneth J. Dunlap, Global Director, Security and Travel 
  Facilitation, International Air Transport Association..........   343
Charles M. Barclay, President, American Association of Airport 
  Executives.....................................................   345

                     Alphabetical List of Witnesses

Barclay, Charles M.:
    Testimony....................................................   345
    Prepared statement...........................................  1285
Dow, Roger J.:
    Testimony....................................................   340
    Prepared statement...........................................  1235
Dunlap, Kenneth J.:
    Testimony....................................................   343
    Prepared statement...........................................  1278
Pistole, Hon. John S.:
    Testimony....................................................   325
    Prepared statement...........................................  1230

                                APPENDIX

``A Better Way,'' a report submitted by Mr. Dow, U.S. Travel 
  Association....................................................  1241
Gregory Principato, President, Airports Council International-
  North America, prepared statement..............................  1292
Donald Lee Moak, President, Air Line Pilots Association 
  International, letter submitted for the Record.................  1297
Nicholas E. Calio, President and CEO, Air Transport Association, 
  letter submitted for the Record................................  1301
Marcus W. Flagg, President, Federal Flight Deck Officers 
  Association, prepared statement................................  1303
Responses to post-hearing questions for the Record from:
    Mr. Pistole..................................................  1311
    Mr. Dow......................................................  1332
    Mr. Dunlap...................................................  1337
    Mr. Barclay..................................................  1342

                       ACRONYMS AND ABBREVIATIONS

9/11--September 11, 2001
9/11 Commission--National Commission on Terrorist Attacks Upon 
  the United States
AAAE--American Association of Airport Executives
AIT--Advanced Imaging Technology
AOR--area of responsibility
APEC--Asia-Pacific Economic Cooperation
APIS--Advance Passenger Information System
AQ--al-Qaeda
AQAP--al-Qaeda in the Arabian Peninsula
ASAC--Aviation Security Advisory Committee
ASP--Advanced Spectroscopic Portal
ASPR--Assistant Secretary for Preparedness and Response
ATA--Air Transport Association of America
ATF--Bureau of Alcohol, Tobacco, Firearms and Explosives
ATR--Automated Target Recognition
BARDA--Biomedical Advanced Research Development Authority
BASE--Baseline Assessment for Security Enhancement
BIDP--Border Interoperability Demonstration Project
BRIDGES--Building Respect in Diverse Groups to Enhance 
  Sensitivity
BSL--biosafety level
BTRA--Biothreat Risk Assessment
CAARS--Cargo Advanced Automated Radiography System
CBP--U.S. Customs and Border Protection
CBRN--chemical, biological, radiological, and nuclear
CCTV--closed caption television
CDC--Centers for Disease Control and Prevention
CEO--Chief Executive Officer
CIA--Central Intelligence Agency
CINCPAC--Commander in Chief Pacific Command
CIO--Chief Information Officer
CIS--Citizenship and Immigration Services
CLASS--Closed Loop Artillery Simulation System
CMS--Centers for Medicare and Medicaid Services
CNN--Cable News Network
COML--Communications Unit Leader
COMT--Communications Technician
CRS--Congressional Research Service
CTAB--Counterterrorism Advisory Board
CTC--Counterterrorism Center
CUI--Controlled Unclassified Information
CVE--Countering Violent Extremism
DARPA--Defense Advanced Research Projects Agency
DCA--Ronald Reagan Washington National Airport
DCI--Director of Central Intelligence
DCIA--Director of the Central Intelligence Agency
DEA--Drug Enforcement Administration
DHS--U.S. Department of Homeland Security
DNA--deoxyribonucleic acid
DNA--Defense Nuclear Agency
DNDO--Domestic Nuclear Detection Office
DNI--Director of National Intelligence
DOD--U.S. Department of Defense
DOJ--U.S. Department of Justice
DOT--U.S. Department of Transportation
DTRA--Defense Threat Reduction Agency
ECPC--Emergency Communications Preparedness Center
EMS--emergency medical services
EO--Executive Order
EOC--Emergency Operations Center
EPA--Environmental Protection Agency
ESTA--Electronic System for Travel Authorization
ER--emergency room
FAA--Federal Aviation Administration
FAMS--Federal Air Marshal Service
FBI--Federal Bureau of Investigation
FCC--Federal Communications Commission
FDA--Food and Drug Administration
FEMA--Federal Emergency Management Agency
FISA--Foreign Intelligence Surveillance Act
FOUO--For official use only
FTA--Federal Transit Administration
GAO--U.S. Government Accountability Office
GETS--Government Emergency Telecommunications Service
Haz-Mat--hazardous material
HHS--U.S. Department of Health and Human Services
HIDTA--High Intensity Drug Trafficking Area
HIG--High-Value Interrogation Group
HIV/AIDS--human immunodeficiency virus/acquired immunodeficiency 
  syndrome
HSDN--Homeland Secure Data Network
HVAC--heating, ventilation, and air conditioning
HVE--homegrown violent extremist
I&A--Intelligence and Analysis
IAFIS--Integrated Automated Fingerprint Identification System
IATA--International Air Transport Association
IC--intelligence community
ICAO--International Civil Aviation Organization
ICD--International Classification of Diseases
ICE--U.S. Immigration and Customs Enforcement
ID--identification
IDENT--Automated Biometrics Identification System
IECGP--Interoperable Emergency Communications Grant Program
IED--improvised explosive device
IG--Inspector General
IMF--International Monetary Fund
INA--Immigration and Nationality Act
IPAWS--Integrated Public Alert and Warning System
IRTPA--Intelligence Reform and Terrorism Prevention Act of 2004
ISE--Information Sharing Environment
IT--information technology
ITACG--Interagency Threat Assessment and Coordination Group
IWN--Intergrated Wireless Network
JTTF--Joint Terrorism Task Force
JSOC--Joint Special Operations Command
LAPD--Los Angeles Police Department
LTTE--Liberation Tigers of Tamil Eelam
LWIN--Louisiana Wireless Information Network
MCCA--Major Cities Chiefs Association
MOU--memorandum of understanding
MPD--Metropolitan Police Department
MSCOMMNET--Maine State Communications Network
MTA--Metropolitan Transportation Authority
Navy SEALS--Navy Sea, Air, and Land Teams
NBAF--National Bio- and Agro-Defense Facility
NBIC--National Biosurveillance Integration Center
NBIS--National Biosurveillance Integration System
NCIC--National Crime Information Center
NCR--National Capital Region
NCS--National Communications System
NCSWIC--National Council of Statewide Interoperability 
  Coordinators
NCTC--National Counterterrorism Center
NECP--National Emergency Communications Plan
NGA--National Geospatial-Intelligence Agency
NICS--National Instant Criminal Background Check System
NID--National Intelligence Director
NIEM--National Information Exchange Model
NIH--National Institutes of Health
NIST--National Institute of Standards and Technology
NIP--National Intelligence Program
NPPD--National Protection and Programs Directorate
NSA--National Security Agency
NSC--National Security Council
NSI--National SAR Initiative
NSSE--National Special Security Event
NYPD--New York Police Department
ODNI--Office of the Director of National Intelligence
OEC--Office of Emergency Communications
OHA--Office of Health Affairs
OIG--Office of the Inspector General
OIP--Office of Infrastructure Protection
OMB--Office of Management and Budget
OPCON--Operations Control
OPM--Office of Personnel Management
PAG--Policy Advisory Group
PAHPA--Pandemic and All-Hazards Preparedness Act
PATRIOT Act--Uniting and Strengthening America by Providing 
  Appropriate Tools Required to Intercept and Obstruct Terrorism 
  Act of 2001
PD-DNI--Principal Deputy, Director of National Intelligence
PDB--President's Daily Brief
PERF--Police Executive Research Forum
PETN--pentaerythritol tetranitrate
PHEMCE--Public Health Emergency Medical Countermeasure Enterprise
PNR--passenger name record
PSA--Public Safety Alliance
PSA--public service announcement
PSI--Permanent Subcommittee on Investigations
R&D--Research and Development
RF--radio frequency
RFP--request for proposal
RSO--Regional Security Office
S&T--Science and Technology Directorate
SAFECOM--Emergency communications program of DHS
SAR--suspicious activity reporting
SENTRI--Secure Electronic Network for Travelers Rapid Inspection
SEVIS--Student and Exchange Visitor Information System
SIV--Special Immigrant Visa
SPECTRUM Act--Strengthening Public-Safety and Enhancing 
  Communications Through Reform, Utilization, and Modernization 
  Act
SPP--Screening Partnership Program
SWIC--Statewide Interoperability Coordinator
TACON--tactical control
TASC--Transformation and Systems Consolidation
TEKS--Texas Essential Knowledge and Skills
TIC--Tactical Interoperable Communications
TIP--Terrorist Interdiction Program
TSA--Transportation Security Administration
TTIC--Terrorist Threat Integration Center
TTP--Tehrik-i-Taliban Pakistan (Pakistani Taliban)
TWIC--Transportation Worker Identification Credential
UASI--Urban Areas Security Initiative
UPMC--University of Pittsburgh Medical Center
UPS--United Parcel Service of America, Inc.
US-CERT--U.S. Computer Emergency Readiness Team
USCIS--U.S. Citizenship and Immigration Services
USDA--U.S. Department of Agriculture
USDI--Under Secretary of Defense for Intelligence
USA PATRIOT Act--Uniting and Strengthening America by Providing 
  Appropriate Tools Required to Intercept and Obstruct Terrorism 
  Act of 2001
US-VISIT--U.S. Visitor and Immigrant Status Indicator Technology
VA--Department of Veterans Affairs
VHF--very high frequency
VIPR--Visible Intermodal Prevention and Response
VRVK--visa revoked
VSP--Visa Security Program
VSU--Video Security Unit
WHO--World Health Organization
WIN--Wireless Interoperable Network
WMD--weapons of mass destruction


    TEN YEARS AFTER 9/11: A REPORT FROM THE 9/11 COMMISSION CHAIRMEN

                              ----------                              


                       WEDNESDAY, MARCH 30, 2011

                            United States Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Carper, Collins, and 
McCain.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. Thank you all for being 
here.
    The attacks on America by Islamist terrorists on 9/11 took 
place almost a decade ago, but the memories of that day are 
still searing. The attacks ended thousands of lives, changed 
families forever, and forced our country into another worldwide 
war.
    We all remember that morning, and I know we will until the 
moment we leave Earth. The Nation watched on television as 
those extraordinary mighty twin towers of the World Trade 
Center collapsed into a pile of smoking rubble, taking so many 
innocent lives with them.
    American Airlines Flight 77 smashed into the Pentagon and 
set it ablaze. And in the fields near Shanksville, 
Pennsylvania, we saw the smoldering crash of United Flight 93, 
whose brave passengers had fought to retake the plane from the 
terrorists who had targeted Washington, DC--probably targeted 
this very place where we are, Capitol Hill--and by their 
heroism saved hundreds if not thousands of additional lives.
    But even as we mourned--and we did--we began to ask--and 
when I say ``we,'' I mean not just those of us privileged to 
serve here, but people throughout the country and particularly 
the families of those who were lost on 9/11--how those attacks 
could have happened and what could we do to make sure to the 
best of our ability that nothing like that ever happened again. 
And so we created the 9/11 Commission to investigate what did 
happen on 9/11. What were the flaws in our homeland security 
and what could we do to protect our Nation against another such 
attack from Islamist terrorists or anyone else who would want 
to carry out such a dreadful act?
    Coming to the leadership of that Commission were two 
extraordinary Americans--gifted, able, and extremely 
patriotic--Governor Tom Kean and Congressman Lee Hamilton. We 
are really privileged to have them with us as our witnesses 
today.
    The Commission they led and its staff reviewed 2.5 million 
pages of documents, interviewed 1,200 individuals in 12 
countries--including every relevant senior official of both the 
Clinton and Bush Administrations--and held 19 days of public 
hearings across the country with 160 witnesses testifying.
    The Commission's recommendations were sweeping and they 
were definitive. They were not just general conclusions, but 
they were specific recommendations for both immediate actions 
we needed to take to defend ourselves against further attack, 
but also long-term actions we could take to blunt the 
terrorists' message and dry up their recruitment.
    In response to the Commission's recommendations, this 
Committee authored--and I am honored to see that not only 
Senator Collins is here but also Senator McCain, three of the 
four original sponsors of the legislation--the Intelligence 
Reform and Terrorism Prevention Act of 2004 that adopted not 
all but most of the recommendations of the 9/11 Commission, 
including the creation of a Director of National Intelligence 
and the National Counterterrorism Center, which I thought, and 
I believe the Commission thought, were the two most substantial 
and significant recommendations for change it was making.
    That Act was the most sweeping reform of our government's 
intelligence apparatus and, together with the adoption of the 
Homeland Security Act a couple years before, represented the 
most significant changes in our governmental framework since 
the end of World War II.
    This Committee was privileged to be deeply involved in 
drafting these and other pieces of counterterrorism legislation 
to implement the Commission's recommendations and further 
strengthen our security against terrorism.
    But a lot of the hard work in identifying, recommending, 
and then adopting the specific reforms was done by the two 
gentlemen who are testifying before us today: Then the Chairman 
and Vice Chairman of the 9/11 Commission, now the co-chairmen 
of its successor, the Bipartisan Policy Center's National 
Security Preparedness Group. I thank Mr. Kean and Mr. Hamilton 
for being here today, for their hard work and dedication to 
public service throughout their lives, and for providing our 
Nation with a most compelling reminder of how much we can 
accomplish in public life when we put party labels aside and 
work together for the national good.
    Today, in the exercise of our Committee's responsibility to 
constantly evaluate and investigate our homeland defenses, and 
also mindful of the approaching 10th anniversary of the 9/11 
attacks, we are beginning a series of oversight hearings on all 
that we attempted to accomplish after 9/11. Today we are very 
privileged to have Governor Kean and Congressman Hamilton here 
to help us begin our review with their opinion of the state of 
America's homeland security. We have already scheduled four 
more subject matter hearings for May, June, and July that will 
look, among other things, at the Office of the Director of 
National Intelligence, the effectiveness of our aviation 
security reforms, what we have done to try to keep terrorists 
out of the United States, and how we are progressing on the 
goal that we all said we had to improve, which is emergency 
communications among law enforcement and associated personnel.
    I want to say how grateful I am for the prepared testimony 
that the two of you have submitted to the Committee, which will 
be included in full in the record. You have touched on some of 
the concerns that the Committee has and will deal with in 
coming hearings. One of the most significant is with regard to 
the Director of National Intelligence and how that office has 
done and whether it needs further support to help it achieve 
the goals that you had for it. Personally, I believe it is 
essential to have a strong Director of National Intelligence 
who can marshall the full capabilities of the intelligence 
community.
    I am encouraged by some of the recent changes that the 
current DNI, General James Clapper, has carried out toward 
further integration, but I must say I am also concerned about 
some of the continuing bureaucratic resistance from other 
components of the intelligence community, which, under our 
vision and I believe yours, were supposed to be under the 
supervision of the DNI. I know from your testimony that you 
both share some of those concerns, and I am interested in 
hearing your comments on those.
    I note with appreciation that you have also talked about 
the importance of moving more rapidly toward better 
interoperable communication systems and that one of your 
recommendations is that we set aside the so-called D Block of 
the broadband spectrum for funding those public safety 
improvements. Senator McCain and I sponsored legislation to 
accomplish that in the last session, and we are working to 
introduce a similar bill in this session.
    So to summarize an awful lot very briefly, I would say that 
since the 9/11 Commission reforms were adopted, we have seen a 
very significant improvement in our homeland security. We have 
had many victories in our battles with terrorists, many plots 
broken and attacks planned against America thwarted. We have 
also had some close calls such as the case of the Christmas Day 
bomber and the other case of the Times Square bomber. And we 
have had some tragic failures like the homegrown radical 
Islamist Major Nidal Hasan who murdered 13 Americans at Fort 
Hood.
    So we want to continue to learn from our successes and our 
failures, and that is the intention of this series of hearings 
that we are beginning today.
    May I say finally that we are very proud and grateful to be 
joined this morning by some family members of 9/11 victims who 
went on to become leading advocates for the creation of the 9/
11 Commission and the implementation of its recommendations and 
have continued to play a wonderful oversight role in that work. 
Mary Fetchet and Carie Lemack are two of the most likable pests 
we have around Capitol Hill. [Laughter.]
    Really, I would say lovable and committed. The Commission 
would not have been created without their advocacy. We would 
not have passed its legislative recommendations without their 
most effective lobbying. And its implementation would not be as 
good as all of us want it to be if they had not stayed on duty 
as they have. So I cannot thank you enough. I know I speak for 
everybody on the Committee when I express my gratitude and 
admiration for your personal strength, your skill, and your 
continuing commitment to America's homeland security.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    This year, we will commemorate the worst attack ever on the 
United States. In doing so, we must ask ourselves, ``Are we 
safer?'' Or are we just safer from the tactics that terrorists 
already have tried?
    Is our intelligence community better at fitting together 
these complex puzzle pieces? Or have we just been lucky? Are we 
anticipating the next threat, such as a cyber attack or the use 
of poisons? Or are we just looking backward, reacting to 
previous plots?
    Undoubtedly, compared to where we were on September 10, 
2001, we have greatly improved the framework for information 
sharing among our intelligence and law enforcement agencies. 
But sometimes it has been an inept bomb maker or a faulty fuse 
that has spared American lives.
    Once again, the two extraordinary leaders of the landmark 
9/11 Commission, Mr. Hamilton and Mr. Kean, are appearing 
before our Committee as we evaluate our progress in securing 
our Nation. In September of last year, their ``Assessing the 
Terrorist Threat'' report warned of an increasingly wide range 
of U.S.-based militants who do not fit any particular ethnic, 
economic, educational, or social profile.
    The American melting pot, the report said, ``has not 
provided a firewall against the radicalization and recruitment 
of American citizens and residents, though it has arguably 
lulled us into a sense of complacency that homegrown terrorism 
could not happen in the United States.''
    This report correctly called 2009 a watershed year in U.S.-
based terrorist plots, with 43 American citizens or residents 
aligned with violent Islamist extremists charged or convicted 
of terrorist crimes in that year alone.
    This Committee first sounded the alarm about home-based 
terrorism 5 years ago and has held 15 hearings on this topic. 
We found that individuals within our country, in both our 
prison system and our communities, are being inspired by al-
Qaeda's violent ideology to plan and execute attacks, often 
acting as ``lone wolves'' without direct orders or ties to al-
Qaeda.
    As Senator Lieberman has indicated, the Intelligence Reform 
and Terrorism Prevention Act of 2004, which we authored, did 
much to improve the management and performance of our 
intelligence, homeland security, and law enforcement agencies. 
This most sweeping reform of our Nation's intelligence 
community since just after World War II would not have happened 
without the leadership of our witnesses and the advocacy of the 
families of the victims. The resulting increased collaboration 
and information sharing have helped our Nation prevent numerous 
attacks.
    There have been untold successes. In many cases, the 
intelligence community and law enforcement have quietly 
connected the dots and thwarted plots. In other cases, alert 
citizens have reported suspicious behavior to the authorities 
just in time.
    Challenges still remain, however. We continue to see 
troubling examples of the pre-9/11 stovepiped mindset from some 
of our intelligence and law enforcement officers. For example, 
as documented in our Committee's recent report on the Fort Hood 
attack, the Army and the FBI collectively had ample information 
to have detected Major Hasan's radicalization to violent 
Islamist extremism, but they failed to act on the many red 
flags signaling that he had become a potential threat.
    Major Hasan and others seem to find motivation and ideas 
online. Technology is transforming our culture, our economy, 
and our world in many beneficial ways. Yet we must also be 
alert to the fact that terrorists are seeking to exploit the 
Internet's potential as well. We have recently witnessed that 
the Internet can serve as a platform for extremist propaganda 
on the one hand and peaceful revolution on the other.
    Other Commission recommendations have not yet come to 
fruition, and, of course, the most obvious example of that is 
Congress' failure to reform itself. But there are others as 
well. We must make more progress, as the Chairman has 
indicated, in enhancing first responder communications.
    Gaps also remain at our borders and in our cargo inspection 
systems. As the news today indicates, the potential to plant an 
explosive somewhere within the millions of pieces of air cargo 
shipped around the world each day is a real vulnerability.
    It is also troubling that the Border Patrol does not have 
the ability to detect illegal activity across approximately 
three-quarters of the Northern Border. DHS must continue to 
work to find a balance that opens our border to our friends 
while closing it to those who would do us harm.
    Nevertheless, there have been real accomplishments: The 
biometric system for screening foreign nationals seeking to 
enter the United States, the creation of a consolidated 
terrorist watchlist, and the dedicated DHS and State and local 
law enforcement employees all deserve recognition.
    But even in these areas of progress, improvements are 
needed. Biometric screening must be expanded to include foreign 
nationals leaving the United States. Screening technology must 
be improved to keep up with changing threats and to ensure that 
the safest possible screening equipment is deployed.
    I hope that this year we can expand protection against 
lawsuits for citizens who report suspicious behavior indicating 
potential terrorist activity. We must also pass legislation to 
ensure that key U.S. intelligence officials are consulted 
following a foreign terrorist's detention in the United States. 
That did not happen in the case of Abdulmutallab.
    And, finally, I continue to have deep concerns that this 
Administration refuses to acknowledge that violent Islamist 
extremism is the ideology that fuels such attacks. The 
Administration should have an overarching national strategy to 
counter this growing threat within our own country.
    Ten years ago, nearly 3,000 lives were lost on that 
terrible day. We cannot become complacent or let our guard down 
when every single intelligence briefing that I have ever 
attended always warns that the enemy remains determined to 
attack our country. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins, 
for that excellent statement. Normally we limit opening 
statements to the Chairman and the Ranking Member on the 
Committee, but Senator McCain was, as you two know, the 
original sponsor of the legislation that created the 9/11 
Commission, so, Senator McCain, I would invite you to make an 
opening statement if you would like.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. I would just briefly like to thank our 
witnesses. I think what they did was one of the reasons why 
this country has not been attacked since 9/11. They are two 
dedicated public servants, an example of bipartisanship, and I 
think it is very appropriate that on the 10-year anniversary, 
we get their continued input. Thank you again for your service 
to the country.
    Chairman Lieberman. Thank you, Senator McCain.
    Before we go to the witnesses, I just want to briefly 
introduce Charles Dowd, Deputy Chief of the New York Police 
Department for Communications. He has been a very strong 
proponent of allocating the D Block to public safety, and we 
appreciate the fact that he is committed enough to this that he 
is here in the room today.
    Governor Kean, welcome, and we look forward to your 
testimony now.

  TESTIMONY OF HON. THOMAS H. KEAN,\1\ FORMER CHAIRMAN OF THE 
NATIONAL COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES

    Mr. Kean. Thank you very much, Mr. Chairman and Senator 
Collins. We are very pleased to have the opportunity to be here 
with you once again today. Nobody has been more important than 
you all have been at the center of defending this country from 
the terrorist threat that we face. We are deeply grateful for 
your sustained support of our 9/11 Commission recommendations 
and your leadership in continuing to reform our national 
security institutions. Over the last decade, you have done much 
to ensure that we are taking the difficult steps necessary to 
confront this determined enemy and protect Americans, our 
allies, and, for that matter, people throughout the world.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Kean and Mr. Hamilton 
appears in the Appendix on page 364.
---------------------------------------------------------------------------
    Today, we are appearing in our capacity as co-chairmen of 
the Bipartisan Policy Center's National Security Preparedness 
Group. That is the successor organization to the 9/11 
Commission. Drawing on a strong roster of national security 
professionals, we work as an independent, bipartisan group to 
monitor the implementation of the 9/11 Commission's 
recommendations and to address other emerging national security 
issues.
    Let me begin by describing the changes in our government 
since 9/11, the current threat, and perhaps updating you on 
some of our Commission's recommendations. Lee Hamilton will 
then continue assessing the status of the implementation of a 
number of these recommendations.
    So now nearly 10 years after the tragic 9/11 attacks and 7 
years since we finished our report, it really is, as the 
Committee has decided, a very appropriate time to see just 
where we are in national security reform and how we are doing.
    The terrorist attacks, as everybody knows, had a profoundly 
dramatic impact on our government, on the private sector, and, 
for that matter, on our daily lives. The suddenness of that 
attack on American soil and the loss of so many lives I think 
made a lot of us feel vulnerable in our homes and caused us to 
question whether or not our government was properly organized 
to protect us from this kind of lethal threat. The economic 
damage resulting from the attacks was severe. Businesses in all 
sectors have adapted in one way or another to this new reality.
    Over the past 10 years, our government's response to the 
challenge of transnational terrorism has been equally dramatic. 
We have created major new institutions--the Department of 
Homeland Security, Cyber Command, and in 2004, with the 
leadership of Senator Collins and Lieberman, Congress created 
the Office of the Director of National Intelligence and the 
National Counterterrorism Center to make sure we had a unity of 
effort in the intelligence community.
    Now, despite all this progress, some major 9/11 Commission 
recommendations still remain unfulfilled, and we would suggest 
today that these require urgent action because the threat from 
al-Qaeda, related terrorist groups, and individual adherents to 
violent Islamist extremism persists to this day.
    Al-Qaeda and related terrorist groups continue to pose a 
serious threat to all of us. Al-Qaeda Central has been 
diminished, but its leadership, Osama bin Laden and al-
Zawahiri, as we know, are still at large. Although a 
devastating 9/11-type attack we believe is less likely, the 
threat is more complex and diverse than at any time in the last 
decade. Al-Qaeda and its allies continue to have the intent and 
the reach to kill dozens or even hundreds of Americans in a 
single attack. There is a high risk of attacks, but we believe 
that they will likely be smaller.
    A key change in recent years is the increasingly prominent 
role that a number of U.S. citizens and residents have taken in 
the leadership of al-Qaeda and aligned groups.
    Another development is the increasing diversification of 
the types of U.S.-based jihadist militants. Some are 
individuals inspired to engage in attacks on their own while 
others have been actively recruited by overseas terrorist 
groups. Indeed, these would-be jihadists do not fit any 
particular ethnic, economic, educational, or social profile. 
The operations they mount, or attempt, range from shootings, to 
car bombs, to suicide attacks, to in-flight bombings of 
passenger aircraft.
    We have seen a pattern of increasing terrorist recruitment 
of American citizens. In 2009, there were two actual terrorist 
attacks on our soil. You referenced the Fort Hood shooting, 
which claimed the lives of 13 people, and one U.S. military 
recruiter was killed, another wounded, in Little Rock, 
Arkansas. Many counterterrorism experts talk about 2010 and 
name it the ``year of the homegrown terrorist.'' Self-
radicalization is an alarming development.
    Our group issued a report, as you have mentioned, last fall 
on radicalization, and we are going to follow up this spring 
with a set of recommendations for dealing with this important 
and very sensitive problem.
    We also face new threats, like the discovery in October 
2010 of explosives packed in toner cartridges, addressed to 
synagogues in Chicago, and shipped on FedEx and UPS cargo 
flights from Yemen.
    The cyber threat is also increasingly severe and poses a 
real danger to our critical infrastructure. Defending the 
United States against such attacks must be an urgent priority.
    So we would like to offer our assessment today of where the 
government is in implementing 9/11 Commission recommendations.
    On emergency preparedness, we have made some progress 
toward establishing a unity of command--in other words, one 
person responsible for coordinating efforts in a disaster. But 
having said that, our recommendations are still a long way from 
being fully implemented. We have found too many community 
leaders and first responders who have mentioned to us that many 
metropolitan areas still have not solved the problem of having 
a unified command structure. Moreover, it is unacceptable that 
the government still has not allocated the additional 10 
megahertz of radio spectrum, the D Block that you mentioned, to 
public safety so that our first responders can communicate with 
each other in a disaster.
    Now, I recognize the efforts and the leadership that you 
have shown through your bill. I believe the President supports 
such a recommendation, and Congress needs to act.
    There have been improvements in transportation security, 
but technology still lags in screening passengers for weapons 
concealed in their bodies and for detecting explosives 
contained in bags. The GAO continues to find holes in virtually 
every single security layer that we establish.
    Border security remains a top national security priority as 
terrorists continue to exploit our border vulnerabilities to 
gain entry into the United States. Several attempted attacks 
over the past 2 years were perpetrated by terrorists who could 
have been detected by the U.S. immigration system. We require a 
more streamlined terrorist watchlisting capability and better 
sharing of information between intelligence agencies and 
immigration authorities.
    One area of progress is the deployment of the biometric 
entry system known as US-VISIT. We still lack, however, any 
comprehensive exit system. We do not know, in other words, when 
people leave the country. The Commission recommends that the 
government standardize secure identification and the Federal 
Government should set standards for the issuance of birth 
certificates and driver's licenses.
    The REAL ID Act established these standards by statute. 
About one-third of the States have complied with this first-
tier benchmark. The deadlines for compliance have been pushed 
back now twice. Delay in compliance creates real vulnerability 
and makes us less safe. We would ask that no further delays 
should be authorized.
    Now I will ask my friend and partner, a man I admire as 
much as anybody in this country, Lee Hamilton, to continue.

 TESTIMONY OF HON. LEE H. HAMILTON,\1\ FORMER VICE CHAIRMAN OF 
 THE NATIONAL COMMISSION ON TERRORIST ATTACKS UPON THE UNITED 
                             STATES

    Mr. Hamilton. Thank you, Mr. Kean. Good morning.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Kean and Mr. Hamilton 
appears in the Appendix on page 364.
---------------------------------------------------------------------------
    I want to begin simply by endorsing what Mr. Kean has said 
with regard to the leadership not only of this Committee but 
specifically of the three Senators in front of me. I can 
remember coming to your offices shortly after the 9/11 
Commission report was made. Mr. Kean and I spoke to each one of 
you. You were very courteous and receptive. But beyond that, 
you acted with genuine political leadership, and the country is 
very grateful to you.
    I think there are a lot of reasons why the 9/11 Commission 
had a favorable response, but two of them: First, the families 
who gave sustained, sophisticated support for our 
recommendations; second, specifically the political leadership 
embodied by the three of you was just really quite 
extraordinary. And Mr. Kean and I are very grateful to you for 
what you have done. And when the Chairman a moment ago outlined 
your continuing hearings and investigations, I was immensely 
pleased to hear that because I think having been on the inside 
and on the outside, you have powers that we do not have in 
terms of getting people before you to provide tough oversight, 
and that continuing effort by this Committee is just hugely 
important because, as we will say often this morning, so much 
more needs to be done.
    With respect to intelligence reform, the DNI has made 
progress in several areas: Increased information sharing, 
improved cooperation among agencies and of the analysis of 
intelligence, and sharpened collection priorities. Genuine 
progress, no doubt about it. Still, it is not clear to us that 
the DNI is the driving force for intelligence community 
integration that the Commission envisioned.
    Some ambiguity probably remains with respect to the DNI's 
authority over budget and personnel, although that can be 
disputed, I guess. Strengthening the DNI's position would 
advance the unity of intelligence effort that we think is still 
very much needed.
    I do not anticipate new legislation--you would know more 
about that than I on this subject--in the very near future. So 
we have to live with the statute that we have for an extended 
period of time. It may very well be that in the future some 
legislation could fortify the office.
    Repeated indication from the President that the DNI is the 
unequivocal leader of the intelligence community, I think, 
would be greatly helpful.
    The FBI has gone through dramatic change. I think it is 
moving in a positive direction, but in some sense incomplete. 
It has had, I believe, very strong leadership from Director 
Robert Mueller. It shifted resources to collect and analyze 
intelligence to prevent terrorism. That is an enormous cultural 
change, as you all know, away from its former focus strictly on 
law enforcement. Its progress has been significant but uneven.
    The Fort Hood shootings highlight the lingering problems. 
Your report, which I have looked over quickly, has spelled that 
out, I think, in a very persuasive and compelling way.
    Analysts do not appear to be driving intelligence within 
the FBI, nor have they achieved status on a par with the 
special agents who traditionally rise to management of the 
Bureau.
    FBI headquarters components did not play a direct role in 
analyzing the threat posed by the person who later allegedly 
did the shootings. There were miscommunications, as Senator 
Collins has indicated in her opening statement, between the 
field offices, so the shift taking place within the FBI is 
still very much a work in progress. Congress needs to continue 
to help the FBI with its difficult transformation.
    The CIA has improved its intelligence analysis and removed 
barriers between its analysts and operations officers. Our 
sense is that there has been more talk than action with respect 
to improvement in the CIA's human operations.
    Acquiring well-placed sources is very difficult business, 
particularly in closed societies and among close-knit terrorist 
cells. More money and more personnel do not necessarily result 
in better agents.
    While the CIA has attempted to recruit officers qualified 
in the languages of the greatest interest, that, too, is very 
hard. Part of the problem is that young people in our country, 
with some exceptions, of course, do not gain proficiency in 
foreign languages. Congress can help on that.
    The CIA then must continue to rebuild. It will require 
strong support from Congress and the Executive Branch. We want 
the Agency to take calculated risks to protect the country. 
Congressional oversight must be depoliticized so that when the 
Agency fails, as it occasionally will, it is not 
inappropriately blamed for taking the necessary risks.
    Improving information sharing across the Federal Government 
and with State and local authorities was a major 
recommendation. In some ways, I think the government is doing 
better. The Joint Terrorism Task Forces and Fusion Centers 
across the country have certainly improved information sharing. 
The National Counterterrorism Center has analysts and other 
officers from all agencies of the intelligence community 
working side by side and sharing information with their home 
organizations.
    There have been some failures, as has already been 
indicated. There is no question that WikiLeaks' unauthorized 
publication of sensitive government documents has raised some 
genuine and real concerns. Those are legitimate. But the need 
to share information we think still remains highly important, 
and we should not backslide on that.
    Congress has to help the government strike the right 
balance between the need to protect unauthorized disclosures 
and the need to share information to defend ourselves against 
the threats we face.
    Among our major disappointments has been that the 
Administration has not empaneled the Privacy and Civil 
Liberties Oversight Board. This was a major recommendation very 
strongly supported by all the Commissioners.
    I am informed--I am not sure I am quite up to date on 
this--that the Administration has nominated two individuals for 
the panel. I know one of them personally. As far as we know, 
they have not yet been confirmed, and the panel certainly has 
not met. The Administration, I believe, needs to push this on a 
priority basis because that board has a lot to do, and I think 
this Committee can be helpful in pushing the Administration.
    We are equally disappointed that Congress has not reformed 
itself along the lines we recommended. We recommended that 
Congress create a Joint Committee on Intelligence or create 
House and Senate committees with combined authorizing and 
appropriation powers. Those recommendations may be a bridge too 
far.
    Last week, the Chairman of the House Intelligence Committee 
announced a decision to include three members of the House 
Appropriations Committee to participate in House Intelligence 
Committee hearings and briefings. That appears to us to be a 
positive step, but obviously there is more to do.
    Oversight of the Department of Homeland Security is 
fractured. That massive Department will be better integrated if 
there is better integrated oversight. I know the concerns you 
have expressed about that. It is in our country's security 
interest that Congress make committee reform a priority.
    Preventing the spread of nuclear weapons must be a national 
priority. The Administration hosted a major nonproliferation 
summit last year and announced a new initiative to secure all 
nuclear materials by 2013. It plans to spend $14.2 billion over 
the next 5 years to secure nuclear and radiological materials.
    May I say outside my statement that because of other 
responsibilities I have dealing with nuclear power, I have 
recently had the occasion to listen to some highly qualified 
people within our government, and I believe the access to 
nuclear materials and the ability to use those materials and to 
explode them is much greater than people generally think. And 
so I hope the Congress will keep a hard, sharp focus on this 
question of nuclear proliferation. I know there are some 
suggestions to cut some of these important programs. Money is 
not everything here, but we must not weaken or underfund what 
President Bush and President Obama have both said is the 
highest priority security need.
    Now, at the outset of his Administration, President Obama 
issued Executive Orders that brought the United States into 
line with international norms for the treatment of detainees. 
That fulfilled part of our recommendation. We believe there is 
a conflict between the rule of law and holding detainees 
indefinitely without resolving their cases. Both Presidents 
Bush and Obama have really wrestled with this problem. It is a 
tough one. President Obama took a step forward by requiring 
periodic reviews of the status of detainees, but there is an 
awful lot more to do. The Congress and the Executive Branch 
simply have to agree on a statutory base to give us a 
comprehensive approach to dealing with the detainees.
    Congress and the Executive Branch need to agree on the 
rules of evidence and the procedures that should be applied in 
determining how to deal with these detainees. I do not think 
this is a problem that can just simply go on and on and on. You 
need a statutory basis--and I do not suggest it is easy to 
reach it--on how to deal with these potentially very dangerous 
detainees.
    We had a number of foreign policy recommendations in the 
report. Events today in the Middle East and North Africa 
clearly indicate that the region is in a state of upheaval, and 
it is quite unclear to any of us how it will emerge.
    We addressed the role that U.S. foreign policy plays in 
counterterrorism, but we did it, to be honest about it, with 
considerable modesty. We believe that although the countries 
share a common religion, their people have many cultural, 
national, ethnic, and tribal differences, and therefore, we 
have to deal with them on a country-by-country basis. We want 
our country always to advance its core values, but a pragmatic 
approach for each country, one that supports an agenda of 
opportunity for the Islamic world, we think is necessary.
    So, to conclude, significant progress has been made since 
9/11, and our country is undoubtedly more secure. Yet important 
9/11 Commission recommendations remain to be implemented, and 
over the next few years, a lot of heavy lifting still needs to 
be done.
    As Mr. Kean mentioned just a moment ago, the fact that we 
have not resolved this radio spectrum problem and have not 
resolved the unity of command is just really distressing to us. 
Those are two no-brainers with regard to the safety and 
security of the country. Some progress has been made in both 
areas, but not nearly enough.
    Congress has resisted reorganizing its own institutions, 
and streamlining congressional oversight of the intelligence 
community and the Department of Homeland Security would go far 
toward advancing unity of effort in the intelligence community 
and within DHS.
    Also the DNI needs a clear-eyed appraisal. I think it is 
functioning reasonably well. Likewise the FBI. We have concerns 
about each, and our goal really should be to strengthen both 
the DNI and the FBI.
    The terrorist threat will be with us far into the future, 
demanding that we be ever vigilant. Our national security 
departments require strong leadership and attentive management 
at every level to ensure that all parts are working well 
together and that there is innovation and imagination. Our 
agencies and their dedicated workforces have gone through much 
change, and we commend them for their achievements in 
protecting the American people. But there is a tendency toward 
inertia in all bureaucracies, and vigorous congressional 
oversight is just imperative to ensure that they remain 
vigilant and continue to pursue needed reforms.
    So our task is challenging and difficult. We constantly 
have to assess our vulnerabilities and anticipate new and 
evolving lines of attack. We have done a lot. We can look back 
with some satisfaction, but there is an awful lot more to do.
    We are very grateful to you for the opportunity to testify 
before this Committee, which has provided longstanding 
leadership on these issues, and we will do our best now to 
respond to your questions.
    Chairman Lieberman. Thank you both for those thoughtful 
opening statements. I think you really helped us get some 
perspective on where we have come in the last several years, 
certainly since 2004, when the 9/11 Commission Act was enacted. 
But you have also given us a clear statement of unfinished 
business and priorities for the future, and I appreciate that.
    Before I begin my questioning, I want to note the presence 
since we began of Abraham Scott, whose wife, Janice, died at 
the Pentagon on 9/11, and he is another one of those family 
members who have continued in the battle to do everything they 
can to make sure nothing like this happens again.
    I thought both of you summarized well where we have come 
and also noted that the steps we have taken to improve our 
homeland security, including those very significant steps that 
were part of your recommendations that we adopted, have 
strengthened our security, but that the nature of the threat 
has changed. We can never say never, but certainly our defenses 
against a sophisticated 9/11-type attack are way up and, 
therefore, the prospects of that happening are down, thank God.
    There is a high risk right now of smaller attacks than 9/
11, particularly of attacks that come from within the country 
because that has become a focus of al-Qaeda and all the other 
international Islamist terrorist groups.
    I wanted to begin by asking you, Governor Kean, just to 
talk a little bit more about the inadequacy of unity of command 
at this point and what you think we can do about it.
    Mr. Kean. Well, this was one of the real problems on 9/11. 
Who was in charge?
    Chairman Lieberman. Right.
    Mr. Kean. And so our recommendation very strongly to all 
communities has been there has to be one leader. Now, New York 
City made a lot of progress in that regard by putting 
everything under the police department. Some cities have 
followed that pattern and some have not, and so there are still 
a number of communities, some of them fairly sizable, where 
people tell us there is still that question. If something 
really happens, who is in charge?
    Businesses have made more progress. I think almost all 
major businesses I know now have somebody who is in charge if 
something happens. They know what they should do. They know 
where employees ought to go. All that is in place in a lot of 
major businesses. But in communities, not as yet, and we think 
it is a very serious problem and one that we have to address 
and make it, as best we can, a requirement that somebody be in 
charge.
    Chairman Lieberman. Well, I am really interested that you 
have focused on the local or metropolitan level, and I think we 
have to do some thinking about that to see whether we cannot 
create some requirement or incentive to bring about that unity 
of command at the local level, perhaps by making it a condition 
of some of the homeland security or other grants.
    Let me take you to the national level. I am reading from 
Section 13.1 of the Commission's report on Unity of Effort 
Across the Foreign-Domestic Divide, and this section of the 
report notes specifically that during the Commission's 
hearings, members of the Commission often asked, ``Who is the 
quarterback? The other players are in their positions doing 
their jobs. But who is calling the play that assigns the roles 
to help them execute as a team?''
    To respond to this need, in my interpretation of the 
Commission's report, you recommended creating a National 
Counterterrorism Center with the responsibility to develop 
counterterrorism plans that integrate all the instruments of 
national power, and that was, I think, one of the most 
significant recommendations and one of the most significant 
components of our legislation.
    So as you look back nationally now, are you satisfied there 
is clarity and unity of command at the national level and that 
we now have a quarterback? And is it the National 
Counterterrorism Center?
    Mr. Kean. Well, it is the National Counterterrorism Center 
and, of course, the DNI.
    Chairman Lieberman. Right.
    Mr. Kean. In combination. They are the quarterback. Now, 
whether they are being implemented as the quarterback, whether 
or not they really have the power that you intended when you 
wrote the law and that we intended when we made 
recommendations, I do not know.
    Chairman Lieberman. Yes.
    Mr. Kean. Because the signals sometimes are mixed. And we 
have to have unity of effort in that regard. We have to have 
the quarterback. And I would suggest that you would probe that 
area and find out whether or not the quarterback is in place 
and whether or not the quarterback has the powers that you 
intended him to have in the legislation.
    Chairman Lieberman. There is no question that the National 
Counterterrorism Center has created unprecedented cooperation 
between components of our security and intelligence 
communities. In that sense, the dots are all on the same board 
now. One of the problems, I say in passing, that we have noted 
in some of our earlier hearings and it was a cause of some of 
the cases that we have studied that were not as we would want 
is that the problem now is there are so many dots on the same 
board that it is hard in real time to separate them out to 
connect the ones that ought to be connected, but they are not 
on separate boards anymore.
    Mr. Hamilton. Mr. Chairman, may I say a word about it?
    Chairman Lieberman. Yes, please.
    Mr. Hamilton. You have two problems there. You have raised 
both of them. One is the scene of the disaster.
    Chairman Lieberman. Right.
    Mr. Hamilton. And there it is kind of a no-brainer, too, 
for me anyway, that someone has to be in charge. Now, that 
creates difficult political problems because the governor wants 
to be in charge, the mayor wants to be in charge, county 
officials want to be in charge. And that is the reason it has 
not been resolved because the politicians are unwilling to 
address the question because it is a tough one to say who is in 
charge.
    Now, I do not know whether that barrier can be overcome or 
not, but in terms of saving lives, it is an easy question to 
answer. You have to have one person making decisions with 
regard to sanitation, public health, food, housing, and 
transportation.
    Chairman Lieberman. Right.
    Mr. Hamilton. They have to make thousands of decisions 
within a matter of a few hours, really, at these scenes. And if 
you have confusion of command at that locale, you lose 
additional lives.
    So that is why we think it is an important matter. I really 
do not know how well different metropolitan areas around the 
country have addressed this problem, but I am very uneasy about 
it, and I do not really think it has been solved in most areas.
    Now, the second problem relates to a unity of effort in the 
Administration, which is the broader question.
    Chairman Lieberman. Right.
    Mr. Hamilton. Who is the quarterback? I follow this 
reasonably carefully. I do not pretend to know everything about 
it. I do not know who the quarterback is. And I will give you 
my impression. My impression is that the number one official 
within the White House is John Brennan on these matters. That 
makes me a little uneasy--not because of him. He is an 
extremely dedicated, important, capable man. But he is right in 
the center of the policy world at the White House. He is not 
removed from it like I generally want intelligence officials to 
be. And so I am not sure whether he is the right person to do 
it. But if he is, then it seems to me there ought to be a very 
clear designation that he is in charge of homeland security and 
counterterrorism.
    Today, quite frankly, from where I sit, it looks to me like 
a number of different people are involved in it, including Mr. 
Brennan, including the Director of National Intelligence, 
including the DHS Secretary and several others. I do not know 
who the quarterback is, and I can identify the Commissioners 
who raised that question all the time in the meetings we had, 
Mr. Kean.
    Mr. Kean. That is right.
    Mr. Hamilton. My guess is those same Commissioners would be 
raising the same question today, who is the quarterback?
    Chairman Lieberman. That is very helpful commentary, and I 
agree with you that we have the combination--and I am 
simplifying here--of the critical role of intelligence in 
counterterrorism and homeland security, but also then the other 
roles, which are different, of preparedness and prevention and 
response. And I agree with you, Mr. Hamilton, that the top 
person today in our government is John Brennan, the Deputy 
National Security Adviser for Homeland Security and 
Counterterrorism. And, again, I have great respect for his 
ability, etc. Whether that is the right place for that role to 
be is an important question.
    Mr. Hamilton. The President should have the right to 
organize his White House he wants to organize it.
    Chairman Lieberman. Right.
    Mr. Hamilton. And maybe the President is comfortable with 
this.
    Chairman Lieberman. Yes.
    Mr. Hamilton. As an outsider here, who looks at it fairly 
carefully, it is not clear to me that the lines of authority 
are precise.
    Chairman Lieberman. Yes, and I think you have quite 
accurately identified the key players. It is the Secretary of 
Homeland Security, the Director of National Intelligence, the 
Director of the National Counterterrorism Center. And, of 
course, there are others--the FBI Director----
    Mr. Hamilton. Yes.
    Chairman Lieberman. But more than anyone else, Mr. Brennan 
seems to us day to day to be coordinating that effort. There 
are different roles here, although you could pick one of those 
other players and make that person the coordinator. It might be 
the Secretary of Homeland Security who has both operating and 
intelligence authority. You have given us a good charge for our 
review during this year.
    My time is up. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Let me pick up on this very issue of who is in charge. To 
me, it was very clear when we passed the Reform Act in 2004 
that we wanted the DNI to be in charge. That is why we created 
this new quarterback position. And yet I completely agree with 
Congressman Hamilton that in this particular Administration, 
the person who is in charge is Mr. Brennan at the White House. 
And putting aside his enormous capabilities, which we all agree 
to, the problem with that situation is there is no 
accountability to Congress. It is a member of the President's 
staff, so we cannot call Mr. Brennan to testify before us. We 
cannot hold him accountable for decisions. And I think that is 
another very big problem.
    The other area of confusion of command, as Congressman 
Hamilton has said and Governor Kean well knows, is when a 
disaster strikes or there is a crisis situation. And we saw 
this with Abdulmutallab where there was tremendous confusion 
over who was in charge and who should make decisions. In that 
case, it ended up being the Attorney General who made the 
decision on how to treat Abdulmutallab without any consultation 
whatsoever with the DNI, the Director of the National 
Counterterrorism Center, the Secretary of Homeland Security, or 
any top intelligence official on whether or not Abdulmutallab 
should be questioned about whether there were further plots, 
and that was a lost intelligence opportunity.
    Are these problems that we can fix through legislation? Or 
are they problems that depend on an individual President 
setting up who is truly going to be in power?
    The reason I ask this question is when I go back and review 
the language creating the DNI, it is pretty strong language. 
Now, we tried to get it to be even stronger in the area of 
personnel, but in fact, the DNI has strong authority to set 
priorities for the intelligence community, to oversee the 
budget formulation, to make some personnel decisions.
    Is this really a case where we need to strengthen the law? 
Or is it a case where the President needs to empower the person 
we intended to be empowered? I would like to hear from both of 
you in either order on this question.
    Mr. Hamilton. I think the latter--the President has to step 
in here. Now, any law, as we all know, can be strengthened. But 
as I suggested, this law is not going to be changed in the 
immediate future. It took you several years to get it on the 
statute books, so maybe in the future it will be clarified. 
But, Senator Collins, I basically agree with your comment that 
there is sufficient authority in present law. We envisioned, of 
course, that the DNI would be the central powerful driver of 
the intelligence community. I do not think he has been.
    Now, I want to say here, too, you know I have known all of 
these men that have held that position. It is a very tough 
position. We have had very good men in that position. They 
really have been quite strong. But that line of authority is 
not as clear as it should be, and so I think given the 
circumstances that you now have, your second choice, that is, 
the President has to step in and make it very clear with regard 
to his authority in the intelligence community, over budget and 
over personnel and over transfer of funds within the budget. 
And so far as I can see, that really has not been done.
    Now, having said that, the DNI deals with some pretty 
powerful players--the Secretary of Defense, the CIA Director--
and if they get a decision within the bureaucracy they do not 
like, they will go directly to the President. Fair enough. So 
the DNI may have authority and he may try to exercise it, but 
he has to exercise that authority with extraordinary skill and 
discretion. And these are all major players within the 
Administration, and so that power has to be very skillfully 
exercised.
    But I personally think the system is going to work a lot 
better if you have someone at the top of it who is the driving 
force, who is recognized as the center of power, who has the 
authority, and obviously has to have the support of the 
President, to do the things that need to be done to get unity 
of effort.
    Senator Collins. Thank you. Governor Kean.
    Mr. Kean. Yes, I remember when the bill was going through. 
It was weakened a bit in the House, and I remember talking to 
Mr. Hamilton about it at the time, and he said, ``Do not worry 
because in the end it is the President. And if the President 
gives the DNI the authority, the DNI will be just the way you 
want it to be. If not, the law is not going to help.'' And that 
is where we are.
    My own belief is the law says the DNI ought to be the top 
intelligence operative, I think it will work better that way, 
and that is probably how it ought to be. But if this President 
wants somebody else, then my only recommendation would be that 
he make that clear and that both publicly and within the 
Administration everybody knows where the lines of authority 
are, and if somebody else is going to be in full charge, let us 
say who that person is, and then everybody knows, because the 
worst thing of all is a vacuum or confusion or lines that are 
not clear. The President is the only one who can make those 
lines clear, and the President is the only one who could make 
it happen.
    Senator Collins. I agree that the President's response is 
absolutely clear and needs to be clearer here, and that if the 
President does not empower the DNI, we can write all the 
language in the world, and the DNI is not going to truly be in 
charge. But I also remain very concerned about the lack of 
accountability to Congress and the public when it is a member 
of the President's staff who is running the intelligence 
community.
    Mr. Hamilton. I just want to support what you said. I think 
that is terribly important.
    Mr. Kean. Very important.
    Mr. Hamilton. The person who is in charge, whoever it is, 
ought to be accountable to Congress at all times. That is just 
fundamental, it seems to me, to the way this place ought to 
operate.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins. Of 
course, I agree with you, and it strikes me that ultimately the 
DNI has ample authority--not as much as any of us wanted, but 
ample authority in the current statute, but it really requires 
the President to make clear that the DNI is the person in 
charge of the intelligence community.
    We all expected that coming in as a new position to oversee 
existing agencies, which have a real life of their own and a 
constituency of their own, would be difficult. And it is 
interesting that General James Clapper--really to just amplify 
a bit on what I said in my opening statement--I think because 
of his background in the military and credibility at the 
Pentagon, has actually negotiated an agreement with Secretary 
Robert Gates, which will enable the DNI to have much more 
authority with regard to intelligence budgeting, 
appropriations, than was the case at the beginning of the 
office, and that is good.
    The question of who is on top overall in the 
counterterrorism effort is a complicated one because there is 
not only the intelligence community but all the others--the 
operators, the preventers, and the responders. But I, again, 
agree that it has to be somebody at the top--nothing negative 
about Mr. Brennan--who is accountable to Congress and the 
public. And we have to think about how to deal with that 
problem.
    Mr. Kean. Yes, I think that is very important. When we 
first talked about the position, I think what we envisioned was 
a man or woman who would step into that position and stay 5 or 
6 years and develop the position, strengthen it and all of 
that. We have had this rotating door, really, of very good 
people, but in and out.
    Chairman Lieberman. Right.
    Mr. Kean. And that has been one of the problems with the 
DNI, and hopefully we have one now who will stay for a while.
    Chairman Lieberman. I hope. Thank you. Next in order of 
arrival, Senator Akaka and then Senator Carper.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman, for 
holding this hearing, and I would like to welcome Governor Kean 
and Congressman Hamilton, and thank you for being here today.
    Although many of the information-sharing and intelligence 
shortfalls that the 9/11 Commission identified have been 
addressed, critical work remains to ensure that we have an 
agile and well-coordinated response to terrorist threats, and 
you have been discussing this. Supporting our Federal workers 
at DHS, the intelligence community, and other agencies who make 
daily sacrifices to keep us safe is essential to this effort. 
Additionally, we must never lose sight of the privacy and civil 
liberties implications of our efforts to protect the Nation. In 
particular, I agree with our witnesses' comments that the 
Privacy and Civil Liberties Oversight Board must be set up 
immediately.
    Congressman Hamilton, as you know, I believe that GAO could 
assist our efforts to strengthen oversight of the intelligence 
community. In response to my question in 2007, you stated that 
GAO should have the same authorities within the intelligence 
community as it has in other agencies. Key principles of my 
Intelligence Community Audit Act were included in the 
Intelligence Authorization Act last year. Under this 
legislation, the Director of National Intelligence must issue a 
directive to facilitate GAO audits and evaluations of the 
intelligence community.
    What elements should be included in the DNI directive to 
promote effective oversight?
    Mr. Hamilton. Senator, I am not sure I understand the 
question. What elements should the DNI insist upon for 
oversight?
    Senator Akaka. To include in the directive to promote 
effective oversight.
    Mr. Hamilton. The DNI's oversight of the intelligence 
community or congressional oversight?
    Senator Akaka. Well, either one.
    Mr. Hamilton. Well, I am not sure I have the thrust of the 
question in mind, but I am deeply impressed that only you folks 
in the Congress can effectively oversee the intelligence 
community. The press does not know what is going on. Those of 
us outside Congress do not have the information that you have 
and your staffs have about what is going on. So unlike most 
other areas of our government, the only really effective 
independent oversight of the intelligence community can come 
from the Congress.
    Now, you have the President's Intelligence Advisory Board. 
I serve on that. But they are all appointed by the President, 
and they are not really an independent group. So in all of the 
recommendations we made, we thought that the strengthening and 
persistence of congressional oversight was just absolutely 
critical to the success of the implementation of the 
recommendations.
    Now, I know that there is a lot of internal oversight that 
takes place within each agency, and I think within the DNI's 
office as well, and that can be important to oversee it. But 
that is not an independent oversight. That can only come from 
Congress. I support giving the GAO ample powers to review the 
intelligence community, and I agree with you, Senator Akaka, 
that GAO should have a key role. The DNI should issue 
directives to intelligence agencies requiring their cooperation 
with GAO.
    I do want to pick up on your observations about the Privacy 
and Civil Liberties Oversight Board because this has been a 
source of enormous frustration to Mr. Kean and to me. I just 
cannot figure it out. I do not know what President Bush and 
President Obama think. They just have not put an effective 
board in place, and I cannot understand why.
    Now, this is urgently needed because in homeland security 
and intelligence matters, you have greatly accelerated 
surveillance. All kinds of provisions are written into the law 
that expand the powers of the FBI and the intelligence 
agencies, understandably in most cases, I think, to check on 
what the American people are doing. And I think somebody needs 
to be out there to keep their eye on these folks in a very 
aggressive way because the security people within an agency 
almost always win the arguments, and you need an independent 
source to really keep your eye on them.
    So we favored a strong, robust oversight of civil liberties 
and privacy with the power to issue subpoenas and a power to 
call people in front of them and keep a watchful eye because I 
think there has not been enough attention to the question of 
civil liberties and privacy in general with regard to homeland 
security.
    Mr. Kean. I might just add that Mr. Hamilton is right. 
Nothing has frustrated me more, of almost all our 
recommendations, than the lack of progress on civil liberties 
and the board, and I do not know what problems the 
administrations have with the bill that you passed. But if 
there is a problem with it, if there is something wrong with 
the structure, if they think it is intrusive or something, then 
tell us and maybe you will change it. But to not appoint 
members and to be almost 2 years into an administration which 
has not even nominated enough members to make a quorum is 
frustrating and makes no sense to me and leaves a big hole in 
what we should be doing.
    So again, I do not understand it. I am frustrated by it. 
But if there is a problem, I wish they would tell us what the 
problem is.
    Senator Akaka. Thank you for those observations. I really 
agree with you that we need to set that up immediately.
    Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Akaka. Senator Collins 
and I were talking. We can address a letter to the White House 
to ask what is going on here because I do not think there is 
any policy or ideological opposition to the board. I suppose it 
is always possible that there are elements within the 
intelligence community that do not like the idea, but I 
actually have not heard that either. I think we will address a 
letter right away and see if we can get you a response.\1\
---------------------------------------------------------------------------
    \1\ The letter referenced by Chairman Lieberman appears in the 
Appendix on page 387.
---------------------------------------------------------------------------
    Mr. Hamilton. Thank you.
    Mr. Kean. Thank you very much.
    Chairman Lieberman. Next is Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman.
    Mr. Chairman, we have gathered before us today two of my 
very favorite people in public life: Mr. Kean, a great governor 
of New Jersey, our neighbor across the Delaware River, and 
someone for whom we have huge respect in our State; and Mr. 
Hamilton with whom I was privileged to serve for 10 years. I 
was privileged to think of him as one of my mentors. And it is 
just great to see both of you still so active, vibrant, and 
contributing on so many different levels.
    About once a month I am asked what is wrong in Washington, 
and one of the things I always talk about is the lack of 
trust--sometimes a lack of trust between parties, sometimes a 
lack of trust between the Executive and Legislative branches, 
sometimes a lack of trust between Committee chairs and ranking 
members, and this Committee is an example of what you can get 
done when you have a trusting relationship, with Senators 
Lieberman and Collins.
    Every month I talk about the trust that the two of you 
developed when you assumed your positions as the leaders of the 
9/11 Commission and how you provided an example through that 
trust to the other members of the Commission and achieved 
extraordinary consensus and came to us and enabled us, with 
your leadership, to reflect and to follow that example. So I 
just wanted to lead off by saying that.
    I am fortunate to chair a subcommittee of this Committee. 
It has a long name, but it is called Federal Financial 
Management for short. We poke in almost every nook and cranny 
of the Federal Government to see if there are ways that we can 
get better results for less money.
    In this hearing room yesterday, we heard from, among 
others, the Department of Defense and GAO, and we were looking 
at the GAO report that came out yesterday that cited major 
weapon systems cost overruns for 2010 of $402 billion, up from 
$42 billion a decade earlier. In this room, we have had 
hearings in the last month on improper payments--not fraud, but 
just mistakes, overpayments for the most part. We have a new 
number for improper payments for last year--$125 billion--not 
counting the Department of Defense, and not counting the 
Medicare prescription drug program.
    We have had hearings on surplus property. We have thousands 
and thousands of pieces of surplus property we do not use, we 
need to get rid of, and they are just a burden on us, $300 
billion, plus tax gap monies that are owed and not being 
collected. Those are the kinds of things we focus on in this 
room.
    With that spirit of trying to change the culture around 
here or at the Department of Defense or in the Legislative or 
Executive Branch throughout the Federal Government, to move 
from what I call a culture of spendthrift to a culture of 
thrift, would you join with us today maybe just to think about 
it and then to come back to us in writing? I know there are 
things we are doing, entitlement programs, we have had many 
hearings on those as well, and domestic discretionary spending 
programs and defense programs, things that we are doing where 
we can get a better result for less money or a better result 
for not a lot more money. With that spirit in mind, can you 
just think out loud with us for a minute or two here today 
about if there is some way that we can get a better result in 
this area of national security and homeland security without 
spending more money or even spending a little bit less?
    Mr. Hamilton. Well, no, my impression, Senator, is in the 
area of homeland security and intelligence--I know this is not 
the Intelligence Committee--the whole question of cost 
effectiveness rarely arises.
    Senator Carper. That is true.
    Mr. Hamilton. We have been set on a course, for 
understandable reasons, since 9/11 to create enormous increases 
in intelligence budgets and a massive new Department, DHS, and 
everybody has hit the full-speed-ahead button. I do not have 
the specific figures, but you have had an enormous increase in 
the total amount of money spent in intelligence just in the 
last few years, for reasons we all understand.
    So when you began your comments on cost effectiveness, 
getting better results for less money, my response was, 
``Bravo,'' because I think you need a hard-headed business 
attitude, if you would, in this area, which has been totally 
absent for 10 years. There is probably a little exaggeration in 
what I have just said, but I think cost effectiveness here 
would be important and making these fellows come in who head 
these agencies and not only hold their feet to the fire with 
regard to homeland security and stopping terrorist attacks, but 
making sure this money is being wisely spent. It makes a lot of 
sense to me. So I think you perform an enormously important 
service as you push the whole business of cost effectiveness.
    Senator Carper. All right.
    Mr. Kean. I think there is no question, whether it is 
public or private sector, if you ramp up as fast as we felt we 
had to ramp up after 9/11, you are going to have problems. You 
are going to overspend. You are going to waste some money. And 
I am sure that has been done. Spending on non-military 
intelligence, that number is now public. I guess the military 
intelligence spending is not public yet. I assume, combined, we 
are somewhere around $80 billion, I would guess. And that is a 
lot of money, and a lot of it ramped up in a great hurry. So I 
think what you are doing is very important. We need not only to 
do this well, we need to do it efficiently.
    Senator Carper. If I could, I am just going to ask you two 
to think about this for a while and maybe respond on the record 
after you have given it some more thought.
    One last question, if I may, Mr. Chairman.
    Chairman Lieberman. Please.
    Senator Carper. Going back to the early 1990s, we have seen 
a couple of countries come back and forth across our radar 
screen. They include Somalia and Yemen. Both countries have 
been in almost perpetual decline for, it seems like, a couple 
of decades. And as a result, we have seen two very different 
dangerous groups that are proving a clear and present danger to 
our country. They are al-Shabaab from Somalia and al-Qaeda from 
the Arabian Peninsula operating in Yemen. Both have been 
directly and indirectly responsible for the December 25th 
Christmas Day bombing attempt, the Fort Hood attacks, and 
Alabama and Minnesota terrorism cells. And it is clear that if 
these two countries implode, they will not only pose a more 
severe threat to us, but maybe to the rest of the world.
    Could either of you please describe your thoughts on the 
threat that these groups pose to the United States and if our 
Federal Government is doing enough to prevent these two 
specific terrorist groups from growing into a more powerful 
global entity?
    Mr. Kean. You are right. It is interesting how this 
business has evolved. Years ago, we used to worry about urban 
areas and powerful countries and so on. Those were the threat. 
Now it is the ungoverned areas of the world. It is the wild 
areas. It is the areas where there does not seem to be any kind 
of legitimate authority where these organizations develop. And 
I think beyond even Yemen and Somalia, we do not know what is 
happening now in that area of the world in some other 
countries. We do not know what is going to happen if and when 
Gaddafi falls and how tribal that will become. We do not know 
what is going to happen in some of these other areas that may 
or may not disintegrate into these kind of areas.
    So this has to continue to be our priority, and with the 
government of Yemen collapsing, it is going to be worse before 
it gets better. I know we are not doing enough--I know we are 
concentrating on it. I know the intelligence communities are 
working hard to learn what they can learn. We still do not have 
enough people, enough boots on the ground, the boots of 
intelligence people on the ground in those areas. We are 
depending on other intelligence agencies in that part of the 
world, which now may not be able to give us that information 
anymore because of what has gone on with their governments.
    So it is a continuing and very serious problem, and we have 
to be ready to address not only those two areas, but other 
areas that may develop.
    Senator Carper. Thank you. Congressman Hamilton.
    Mr. Hamilton. Well, I think you have put your finger on 
maybe the most difficult problem with regard to protecting 
ourselves from threats from abroad. You have governments in 
these countries that really do not govern throughout the 
country. You have all kinds of tribal, ethnic differences. It 
is a very hard problem.
    I think we have to work as a Nation on developing the 
capabilities to deal with these countries, and I must say I am 
not quite sure how I would spell out those capabilities. 
Supporting the government is often done to try to ensure 
stability, but we have surely seen the limits of that in recent 
years.
    So I think we just have to develop the expertise for these 
countries and figure out on an ad hoc basis with each one of 
them what kind of capabilities exist within the country to 
counter the extremist groups. If you have a government that is 
reasonably stable, reasonably competent, then you have to work 
with that government for sure. And if you do not have a stable, 
competent government, then we may have to insert capabilities 
ourselves. You cannot generalize here too much. But the kind of 
plots we had that went with the FedEx and UPS packages that 
were sent into the United States that originated, I think, in 
Yemen indicate to us the challenges that we confront. You have 
to have a multi-layered approach, obviously, to deal with these 
threats, not just in-country but trying to stop it when it is 
in transport, whatever the threat may be.
    We described in our report the evolving nature of the 
threat, and this is, among other things, exactly what we meant, 
and it is a formidable challenge for us.
    Mr. Kean. You cannot do it in a public hearing, but when 
you have your private hearings with members of the intelligence 
community, I would ask: Have our sources of information been 
compromised and how much? Where did we find out the information 
we have used to stop some plots? We received information from 
various governments. Was it the Egyptian government? And can we 
still depend on them for that information?
    Did we get information out of even Libya? Which, obviously, 
we cannot count on anymore. A lot of those people who were 
working with us probably are not working with us or do not have 
the ability to work with us today, and if we are losing those 
sources of information, what are we going to do about it?
    Senator Carper. Good. Thank you for those responses.
    Mr. Hamilton. I think the Afghanistan experience should 
tell us not to ignore these countries as difficult as it may 
be. So if we have intelligence that in Yemen or in Somalia 
there are groups that are plotting against the United States or 
our allies in some way, then I think we have to get our brains 
together and figure out the best way to do it. And depending on 
the strength of the intelligence, you may want to use drones; 
you may want to use special operation forces. Your preference 
would be to have the local government deal with it. But if the 
local government does not deal with it, then we have to take a 
position that it is a threat to our national security and we 
have to deal with it.
    Senator Carper. All right. Thank you for those comments.
    Mr. Chairman, you have been very generous with the time.
    Chairman Lieberman. No, not at all.
    Senator Carper. I just want to say again to both of you, 
thanks so much for your continued leadership and for being an 
inspiration to us all.
    Mr. Kean. Thank you.
    Chairman Lieberman. Thanks, Senator Carper. Excellent 
questions.
    Governor Kean and Congressman Hamilton, I have a few more 
questions myself.
    We have talked about the evolving nature of the threat, and 
I know that we agree that one of the most significant 
developments in terms of the Islamist terrorist threat since 9/
11 has been the homegrown radicalization and self-
radicalization. It may have existed in some way before 9/11, 
but not really in an observable or consequential way, and we 
have seen it over and over again now in cases that have 
existed, including the two that you mentioned, Governor Kean, 
in 2009, in which successful terrorist attacks were carried 
out, both the Bledsoe case in Arkansas and the Hasan case at 
Fort Hood. Those were both homegrown, self-radicalization 
cases. In the case of Bledsoe, he did go to Yemen for a while. 
It is not totally clear who he connected with there, but he was 
radicalized here.
    By coincidence, just this morning I was informed by my 
staff that last night the most recent edition of a magazine 
called ``Inspire,'' the fifth edition, which is published by 
al-Qaeda in the Arabian Peninsula, appeared. It is quite 
remarkable, very slick, printed in English, published in 
English, so aimed at an English-speaking audience, including 
here in America. Perhaps we should take this as some kind of 
compliment, if you will, that we have built up our perimeter 
defenses, you might say, to protect the homeland such that our 
foreign enemies are now trying to develop within our country 
people who can carry out terrorist attacks.
    Anyway, we have held a number of hearings and made some 
recommendations about this. It is a complicated problem because 
unlike 9/11, which we should have detected and stopped, very 
often these are people operating as so-called lone wolves. So I 
know that your National Security Preparedness Group has focused 
on this problem. I wanted first to thank you for that and say 
how much I appreciate it. I know you have described the 
problem, and as you mentioned, there will be recommendations 
coming this spring. I just wanted to give you the opportunity 
to comment on this new, very significant threat element in our 
attempts to protect the homeland. I do not want you to pre-empt 
your recommendations, but is there anything you would like to 
say about what more you think the government ought to be doing 
to stop the problem.
    Mr. Kean. Well, it is extraordinarily difficult because as 
you say, our defenses, based on our recommendations in many 
cases and on your work, have been to stop people like the 9/11 
co-conspirators from coming in from other countries and doing 
us harm. Those defenses are not adequate when the dangers come 
from somebody who is an American citizen, with an American 
driver's license, an American passport, and all of that. They 
are inspired, a lot of these people, from the Internet.
    One of the missing pieces that we never quite nailed down 
in the 9/11 report was whether or not anybody in this country 
supported or helped the terrorists in any way, though we had a 
suspicion al-Awlaki might have. And we mentioned in our report 
that we lacked the staff and the time to really dig into it 
further, but he was very suspicious, as were his contacts. 
Well, he is now gone, of course, and has become one of the 
people who is recruiting from overseas. So he has a definite 
connection to even the 9/11 hijackers.
    Chairman Lieberman. Correct.
    Mr. Kean. So we think it is a terrible problem, a difficult 
problem, though we are not talking about a lot of people. We do 
not believe there is enormous radicalization taking place. It 
is a very small number of people. But these people, many of 
whom do not look like your traditional terrorists and have 
American passports, present the greatest danger right now, and 
we think there ought to be a real effort and a real dedication 
by our intelligence communities to implement a strategy to deal 
with it. And I am not sure that is in place as yet.
    Mr. Hamilton. Obviously it is a lot better to stop 
terrorist attacks before they happen and prevent people from 
being injured. Our group is working on a radicalization report, 
which we hope will have some recommendations for you before too 
many weeks go by.
    Chairman Lieberman. Good.
    Mr. Hamilton. Two or three things come to mind. One is, 
this is a good illustration of how important it is to work with 
State and local officials. In my own experience in my State, I 
have seen communities that have reached out to the Islamic 
community and those that do not. Community leadership makes a 
difference here, and that community leadership knows their 
community better than anybody else, and I think it is very 
important for Federal officials--and I know it is not easy 
because there are so many communities in the country--to 
strengthen their State and local contacts in order to better 
prevent radicalization.
    Second, I think there has to be a clear outreach to the 
Islamic community leadership. I know there are some 
controversial aspects to this, but most of the Islamic leaders 
with whom I have had any contact want to help.
    Chairman Lieberman. Right.
    Mr. Hamilton. And believe you me, they know their 
communities--not perfectly but pretty well. And so good liaison 
with those people is very important.
    We have a representative today from the NYPD, and he would 
know much more about this than I, but I am impressed with the 
way the NYPD has contacted various communities within the New 
York City region and has reached out to try to understand those 
communities better.
    Look, the people who cause you trouble are young men, for 
the most part, so they are the keys for you. Now, maybe not 
exclusively but for the most part. And the community leadership 
has to understand their own young people in a sense. And I 
think the NYPD has set an example of contacts that other 
metropolitan areas could follow.
    The other thing we talked about earlier, I guess, is the 
coordination of the effort within the Federal Government. If 
you ask the question today who is in charge of dealing with 
homeland radicalization in our government, I do not think I 
could answer that. Maybe someone from the government can, but 
it is not very clear to me who it is. But there ought to be 
somebody in charge.
    Chairman Lieberman. I agree. We have asked that question, 
and the answer we received was that the Director of the 
National Counterterrorism Center is in charge. But that 
surprised us, frankly, and there is an attempt to try to 
organize this better and a recognition that this is a real 
problem. But we will benefit from your recommendations greatly, 
and I look forward to them.
    Mr. Hamilton. Well, they need operational responsibility.
    Chairman Lieberman. That is the problem, and interestingly 
enough--and this now goes back a while, maybe 2 years ago, so 
it is somewhat dated--we had a hearing with some leaders of the 
Muslim-American community, and we asked, Is there any agency of 
the Federal Government that has done outreach to your community 
or which has done the most? And to me the surprising answer we 
received was, yes, the FBI through its State offices had been 
reaching out quite a lot and had some communication.
    But, Mr. Hamilton, the NYPD sets the standard here. This is 
not inexpensive. It is labor intensive. Maybe because they were 
so traumatized by 9/11, they have committed a lot of resources, 
and they have excellent communications with the Muslim-American 
community. I think the LAPD does a good job, too, but then 
there are some places in the country with significant Muslim-
American communities where my impression is that the outreach 
and communication from local law enforcement is slim to none, 
and that is a dangerous situation. So we look forward to your 
recommendations on that.
    Senator Collins mentioned something at the beginning, and I 
am just going to do it quickly because I know we are both 
concerned about this, and this is to come back to your report. 
You did a great service by identifying the enemy here and 
saying, yes, it was al-Qaeda. But more broadly, it is an 
ideology, which is violent Islamist extremism. That is what 
inspired the attacks of 9/11 and has continued to inspire this 
myriad of attacks large and small since then. And I thought you 
made a substantial contribution when you said, ``We are not 
fighting terrorism, some generic evil.'' We are fighting an 
ideology, if you will, a corruption of a theology. You also 
said, ``Our strategy must match our means to two ends: 
Dismantling the al-Qaeda network and prevailing in the longer 
term over the ideology that gives rise to Islamist terrorism.'' 
That is a direct quote from your report. Talk about 
frustration. We have been so frustrated that the Administration 
continues to resist identifying the ideology, preferring 
instead to say that we are in a conflict with violent 
extremism. Well, it is violent extremism, but it is a 
particular kind of extremism.
    In our report on the Fort Hood attack by Hasan, we pointed 
out that the Defense Department has even tried at one point to 
characterize the threat represented by the Fort Hood attack as 
workplace violence. But, of course, it was a lot more than 
that.
    So, I guess I understand what is going on here. Somebody 
thinks that if we use the term ``Islamist extremism'' it is 
offensive to Muslims. But I think it is quite the opposite 
because we are talking about, as you said, Mr. Kean, a very 
small group within a larger community, certainly here in 
America, of people who are followers of Islam, not Islamist 
extremism.
    Anyway, I invite a response to this continuing problem.
    Mr. Kean. Well, we worked on that one. We worked on how to 
characterize it. We had debates on the Commission about it, and 
we did research.
    Chairman Lieberman. Right.
    Mr. Kean. For instance, some people suggested ``jihadist.'' 
Well, jihadist has some good connotations, too, in the Muslim 
world.
    Chairman Lieberman. Right.
    Mr. Kean. And so we rejected a lot of these terms. 
``Islamist'' does not, and Islamist extremism is what it is. 
And I think words are important and language is important, and 
I think naming the enemy is important. And Islamist extremism 
is as good a term as we have been able to find for actually 
identifying what the problem is and who the people are. And I 
think everything from our research shows that the community 
itself accepts that term.
    Chairman Lieberman. I appreciate that answer. I have 
continued to use the term that you used because ``Islamist'' 
makes the point that a political ideology has exploited a 
religion. It is not Islam.
    Let me ask the last question. The Commission made a great 
series of recommendations. We were successful in almost every 
one of them of substance, certainly the major ones, in 
convincing and wrestling part of the bureaucracy to accept what 
you were recommending, but also our colleagues, except when it 
came to congressional oversight. And this was very 
disappointing. And then Senator Collins and I, who are very 
stubborn people, I will say, normally do not yield, but the 
reaction had been so overwhelming that we pulled back a bit. I 
think that Mary Fetchet and Carie Lemack are ready to take up 
this battle again, and I think it is worth trying to do it 
because the truth is the oversight in Congress is much too 
diffuse and overlapping, and the consequence of that is that we 
are taking much too much time of the executives, particularly 
in the Department of Homeland Security. So I wanted to ask you 
if you have any thoughts about how to go at this again and 
about whether there is a way in which we can prioritize this. 
We tried to do a lot at the outset, and we got totally 
defeated. But just give me your thoughts about whether you 
think it still is a problem--I assume you do--and whether you 
have any tactical suggestions about how we might take this up 
again, knowing that these two irresistible forces are about to 
focus on this.
    Mr. Kean. Mr. Hamilton mentioned why congressional 
oversight is so important and why it has to be effective 
because you are the only oversight there is, really, because 
the rest of us cannot know the information that you know when 
you are doing your oversight. And only you can say how 
effective it is. If Administration officials are really 
forthcoming in the way that they have to be when they talk to 
you, and if you really feel that you get every answer you want 
and that the oversight is effective, that is great. But we 
thought that it would be much more effective in a number of 
ways.
    Interestingly enough, we have asked every Director of 
Homeland Security we have met: What can we do for you, how can 
we help you? Their first response is, Can you do something 
about congressional oversight?
    Chairman Lieberman. That is important
    Mr. Kean. Because I think it is between 80 and 90 
committees now that they have some responsibility for, and they 
all say they are spending as much time testifying in some cases 
when they should be protecting us all. And preparing 
congressional testimony takes time, and it takes time 
testifying, and they are doing a lot of it. So that is 
extraordinarily important, and giving the Intelligence 
Committee some fiscal responsibility, so if the Administration 
is not paying attention, it will pay attention, is also, we 
think, very important. So we think it was a top priority when 
we recommended it. We think it is still a top priority, and 
anything that increases your ability to oversee these 
intelligence agencies and make them perform is a step toward 
protecting the country and we think a very important step.
    Chairman Lieberman. Mr. Hamilton, do you have any thoughts 
about this?
    Mr. Hamilton. Well, let me make two points. One, going back 
to your earlier question, how do you deal with Islamist 
extremism, your comments are well taken. ``Know your enemy'' is 
the first rule of fighting anybody, and I sometimes think we 
have a good bit of confusion on who the enemy is.
    On the positive side, I want to say that in the war of 
ideas, I think we have made some progress, and the progress is 
that al-Qaeda is having a hard time. They are identified as 
being a violent organization that kills a lot of their own 
people, and I think we are making some progress there.
    Chairman Lieberman. Right.
    Mr. Hamilton. And it is important progress because they 
have not rallied the masses to their support. So that needs to 
be said, but your basic point is very much on target.
    The second point on the Congress--I think things happen in 
the Congress when the leadership does it, and they do not 
happen when the leadership does not. My perspective is a little 
more from the House, obviously, than from the Senate. And I 
wonder whether or not the key national security officials--the 
DHS Secretary, the intelligence officials, and so forth--have 
been able to sit down in a congenial environment to discuss 
this problem with the leadership of both the minority and the 
majority parties. It is such an obvious thing that you weaken a 
department like the DHS when you have all the time that they 
have to spend--you have referred to--testifying. And so I think 
we need to focus our attention on the leadership of the bodies. 
They have to understand that this is a national security 
problem. They are not dealing here with a political problem and 
domestic consequences. They are dealing with trying to improve 
the national security of the United States, putting it on a 
firmer basis. I was told at one time that every single Senator 
sits on some committee dealing with homeland security 
oversight.
    Chairman Lieberman. You are probably right.
    Mr. Hamilton. I do not know if that is exactly right or 
not, but it is pretty close to it, and if it is, it is an 
absolute absurdity. But that is not the problem. The problem is 
you are undermining the effectiveness of homeland security. So, 
Senator, I just do not know any way to get at it except 
impressing upon the leadership the necessity of doing this for 
the national security interests of the United States. And the 
leadership has enormous problems in both bodies, but if I may 
be so blunt, they tend to look at so many of these problems as 
an internal political problem they have to solve in order to 
maintain their position in the caucus leadership. I am not 
naive about that. But this is a different quality problem, I 
believe, and we have to get that across to both party 
leaderships.
    Chairman Lieberman. That is very helpful and something for 
us to work on because the truth is the leaders have not made an 
attempt at this with everything else going on since the 
legislation was first considered in 2004, and the truth is they 
did not make much of an attempt at it then, really hardly any 
attempt, because they were working so hard at getting the rest 
of the legislation passed, that this was why take on this 
fight. And it is also true that the people who have the most 
interest in seeing this fixed, which is the leadership of the 
Homeland Security Department, in some sense the DNI, always 
have other priorities.
    Mr. Hamilton. Sure.
    Chairman Lieberman. It may be the immediate budget 
priority. It may be a legislative priority. But we have to work 
together to make another try at this, and I agree, it has to 
come from the leadership. I thank you for that.
    When you were talking both about the reaction of the Muslim 
community but also about al-Qaeda and the ideology, it struck 
me that we should at least note that in the last few months 
there has been this remarkable development in the Arab world, 
in the Islamic world that is directly relevant to what we are 
talking about. I know that people say, well, where are the 
moderate voices within the Muslim world? Well, the truth is 
that, though we have not, I think, seen it that way, what 
happened in Tunisia and Egypt is really a very loud outcry by--
they are not just moderate. They are not focused on religion. 
There may be some who are focused on religion in the movements, 
but the leaders in both cases--I had the opportunity with 
Senator McCain to visit about a month ago both countries--are 
very focused on political freedom, economic opportunity, and 
essentially getting their countries into the modern world. And 
they view Islamist extremism as regressive.
    Now, some of them are religious, of course, but that is 
quite different, as we were saying before, and in some sense--I 
know this is hopeful thinking, optimistic thinking--what is 
happening now I think is a profound repudiation of the ideology 
of Islamist extremism, much more widespread than any of us are 
capable of. So that is a final statement by me.
    I do not know if either of you want to comment on that.
    Mr. Hamilton. You articulated it much better than I did, 
but I think that is a hugely important development.
    Mr. Kean. Yes.
    Chairman Lieberman. And I think it really cries out to us 
to do whatever we can to be supportive.
    Mr. Hamilton. That is right.
    Chairman Lieberman. These are very proud movements. 
Ultimately, the people in Tunisia and Egypt, and hopefully in 
Libya soon, will determine their own destiny. But they may need 
some technical assistance and economic support. They are 
looking for investment from the United States. I think finally 
you will both get a kick out of hearing that when Senator 
McCain and I were in Tunisia, we met with a group of the 
leaders of the uprising there, and one of them said to us, 
``Senators, we want to ask you if you could help us to get one 
American who we would most like to come and speak to us here in 
Tunisia.'' And I thought to myself, ``Now, who is this going to 
be?'' And the answer: Mark Zuckerberg. [Laughter.]
    Mr. Kean. Really? Modernity.
    Chairman Lieberman. Well, first off, he represented the new 
world of telecommunications, but in some sense, Facebook had 
provided them with what I might call the weapons in their 
peaceful revolution. It is quite remarkable.
    Mr. Kean. Well, that is a wonderful story.
    Chairman Lieberman. Yes, I am very hopeful.
    I cannot thank the two of you enough for everything you 
have done and your testimony. It has been very specifically 
helpful to focus our review that will go on for the rest of 
this year. We are going to keep the record of the hearing open 
for 15 days for additional questions and statements.
    Thank you again very much. The hearing is adjourned.
    [Whereupon, at 12 p.m., the Committee was adjourned.]


      TEN YEARS AFTER 9/11: IS INTELLIGENCE REFORM WORKING? PART I

                              ----------                              


                         THURSDAY, MAY 12, 2011

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:36 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Collins, and Brown.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
afternoon and thanks to all of you, particularly our three 
witnesses, for being here.
    This is one in a series of hearings our Committee is doing 
this year as we approach the 10th anniversary of the attacks 
against America on September 11, 2001, and the purpose of these 
hearings is to examine how well the national security reforms 
implemented in the wake of 9/11 are working.
    This particular hearing, of course, is being held in the 
aftermath of a spectacularly successful collaboration between 
our intelligence and military agencies that resulted in 
locating and killing Osama bin Laden, the al-Qaeda leader who 
presided, of course, over the 9/11 attacks on America.
    This success required intense and focused cooperation among 
key intelligence agencies and the Defense Department, as well 
as other related agencies throughout our government.
    Each organization, as we go back and are debriefed on this 
mission, brought its distinct assets and expertise to bear on 
the mission, which was to locate Osama bin Laden and then to 
capture or kill him. And when it comes to intelligence, 
sufficient material was brought together to reach informed 
conclusions with a level of confidence that enabled the 
President of the United States to make a tough call, but one 
that he felt the evidence enabled him to make decisively, that 
resulted in this remarkable success.
    I do not believe that all of this would have happened 10 
years ago. In fact, in the 9/11 Commission report, the authors 
expressed frustration that, as they reviewed our government at 
that time, no one was actually in charge of the hunt for Osama 
bin Laden, which symbolized to the Commission the dysfunction 
and disunity that they concluded contributed to the 9/11 
attacks in the first place.
    In response to the 9/11 Commission's criticisms, this 
Committee drafted and Congress passed the Intelligence Reform 
and Terrorism Prevention Act of 2004. There was then, and there 
is still today, another body of Congress called the House of 
Representatives, and there was another committee there that 
drafted similar legislation, headed at the time by one of our 
three witnesses, Congresswoman Harman. It results in the most 
sweeping intelligence reform since the creation of the Central 
Intelligence Agency after the Second World War.
    I think the most important reform in the 2004 Act was the 
creation of the Office of the Director of National 
Intelligence, with the aim of bringing together and 
coordinating the efforts of our 16 intelligence agencies and 
offices under one leader to make sure they work toward the 
single goal of collecting and analyzing intelligence to better 
protect our national security. So the purpose of the hearing 
today really is to take a look at how the ODNI is doing.
    I am going to include the rest of my statement in the 
record except to say that I feel particularly grateful that we 
have the witnesses that we have before us today, really three 
people who are particularly well prepared to assist us in 
answering the questions we are posing, which is how has the 
ODNI done and what improvements, if any, by statute or 
regulation are necessary.
    First, as I mentioned, former Representative Jane Harman 
was the Ranking Member of the House Permanent Select Committee 
on Intelligence, where she worked closely with us, as I said, 
on the 2004 Act. She later chaired the House Homeland Security 
Committee's Subcommittee on Intelligence, Information Sharing, 
and Terrorism Risk Assessment, and has now gone on to be the 
head of the Wilson Center, at which she is already doing a 
great job.
    General Michael Hayden, former Director of the Central 
Intelligence Agency, former Director of the National Security 
Agency, and former Principal Deputy Director of National 
Intelligence, really a great, if I may say so, national asset, 
always a help to this Committee in its deliberations.
    And John Gannon, former Assistant Director of Central 
Intelligence for Analysis and Production and really one of our 
Nation's top experts on intelligence analysis.
    We thank all of you for coming today. We look forward to 
your testimony about where we are and where we need to go to 
ensure that our intelligence community consistently performs at 
the high levels, the kind of levels that we saw demonstrated in 
the hunt for and taking down of Osama bin Laden.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    I am going to follow the Chairman's lead and also do only 
an abbreviated version of my opening statement. Let me begin by 
echoing his comments about the distinguished panel that we have 
before us today. I, too, am particularly delighted to see 
former Representative Jane Harman here with us. As the Chairman 
has indicated, she was one of the four authors of the 2004 
Intelligence Reform and Terrorism Prevention Act and worked 
very closely with us through extraordinarily intensive 
negotiations that spanned several months. General Hayden has 
given so much work and effort to his country, and he also was a 
key behind-the-scenes player as we drafted that bill. And, of 
course, as the Chairman has indicated, Mr. Gannon has had a 
stellar career in the intelligence community. I am confident 
that all three of our witnesses will help us do the evaluation 
that we are undertaking today.
    Last week's welcome news that Osama bin Laden was killed 
demonstrates exactly the kind of successful collaboration of 
intelligence and operations that we envisioned in reforming our 
capabilities and restructuring the intelligence community in 
the wake of the attacks on our country in 2001. This certainly 
was a great victory for our intelligence efforts and a great 
blow to al-Qaeda.
    But the fact remains that al-Qaeda is not going away, and 
that is why it is time for Congress to closely examine and 
build upon the successes that have emanated from the 
Intelligence Reform and Terrorism Prevention Act, identify any 
shortcomings, and work to correct them and to build in further 
reforms.
    As the Chairman has indicated, our 2004 law created the 
Director of National Intelligence and the National 
Counterterrorism Center to foster information sharing and 
collaboration among our security partners not only across the 
Federal Government but also at all levels of government.
    The DNI has made some concrete progress integrating the 16 
agencies in the intelligence community. I want to give just two 
examples of how that integration is taking place. They are not 
the kinds of examples that the public is generally aware of, 
but when you talk to those working in the intelligence 
community, these frequently come up.
    In 2008, the DNI rolled out the innovative ``A-Space,'' 
which is an intelligence analyst's Facebook. But instead of 
being used for social networking, our intelligence experts are 
posting, sharing, and asking each other about topical issues. 
They can collaborate with colleagues across agencies and around 
the world, allowing them to share leads and resources more 
easily than ever.
    A second example is the National Counterterrorism Center's 
creation of ``pursuit teams'' that map terrorist networks, 
track threats using information from across intelligence 
agencies to bridge the gaps between national and domestic 
intelligence and help to put the pieces of the intelligence 
puzzle together.
    These are just two examples of innovative ways that the 
stovepipes have been broken. I completely agree with the 
Chairman that I doubt that the kind of integrated operation 
that was successful in going after Osama bin Laden could have 
existed a decade ago. So I think that we have indeed made 
progress, and there are other examples as well. The arrests of 
Mr. Zazi and Mr. Headly are two other cases where the dots were 
connected.
    On the other hand, this Committee's investigation and 
report on the Fort Hood shootings showed that we still have a 
ways to go in other areas, particularly in information sharing 
between the Federal Bureau of Investigations and other members 
of the intelligence community. We concluded that the Department 
of Defense and the FBI collectively had sufficient information 
to have detected Major Hasan's radicalization to violent 
Islamist extremism, but that the Department of Defense and the 
FBI failed to act effectively together on the many red flags 
signaling that he had become a potential threat.
    So the bottom line is that almost 10 years since the 
attacks of September 11, 2001, and 7 years since our landmark 
legislation, our Nation is much safer, but we clearly are not 
yet safe. And that is why it is incumbent upon all of us to re-
evaluate the law and to look at where we are and where we need 
to go.
    Finally, let me just end with one comment that continues to 
be of concern to me. When we drafted the Intelligence Reform 
Act, we described the DNI as the quarterback that the 9/11 
Commission envisioned and that we intended. At our earlier 
oversight hearing, the two leaders of that Commission, Governor 
Kean and Representative Hamilton, made the point that some of 
the functions that we envisioned the DNI carrying out are, in 
fact, being done by John Brennan out at the White House. And 
that troubles me not due to any doubts about Mr. Brennan's 
capabilities, but because that structure undermines the 
statutory role of the DNI.
    So a basic question that we must ask is whether changes to 
the law are required or whether it is simply a matter of more 
fidelity to the spirit and the letter of the 2004 law in order 
to realize the potential of the DNI. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins. Well said.
    Congresswoman Harman, it is great to have you here on the 
other side of the table. Welcome back.

 TESTIMONY OF HON. JANE HARMAN,\1\ FORMER REPRESENTATIVE FROM 
   CALIFORNIA AND CHAIR OF THE SUBCOMMITTEE ON INTELLIGENCE, 
       INFORMATION SHARING, AND TERRORISM RISK ASSESSMENT

    Ms. Harman. Thank you, Mr. Chairman. I am not used to being 
on the other side of the table. You and I, Senator Collins, and 
Representative Pete Hoekstra were at the same table day and 
night as we crafted what is now called IRTPA, which I think is 
probably the worst acronym ever invented.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Harman appears in the Appendix on 
page 400.
---------------------------------------------------------------------------
    Again, it is a pleasure to testify with a good friend 
before dear friends and dedicated former colleagues who serve 
on one of the most important and bipartisan committees in the 
Senate. I now work in a bipartisan institution and pinch myself 
every day to be so lucky and to succeed our former colleague, 
Lee Hamilton, at that job. I am passionate about the topic of 
your hearing; intelligence and intelligence reform were the 
focus of my 17 years--which is 119 dog years--in the House of 
Representatives. I did not run an intelligence agency like Mike 
Hayden, and I was not a top analyst like John Gannon. But I did 
try to conduct, as you do, careful oversight over the 
intelligence function during my 8 years on the House 
Intelligence Committee and my 8 years on the House Homeland 
Security Committee.
    I agree with both of you that although 24, or perhaps more, 
heroic Navy SEALS deserve our Nation's gratitude for the 
capture and kill of the world's most wanted man last week, the 
information on which their mission was based derived, in most 
part, from the integration of people and ``ints'' achieved by 
the Intelligence Reform and Terrorism Prevention Act of 2004.
    We now have proof--I think we had some proof before, but we 
now have big-time proof that IRTPA works--that, at its best, 
our intelligence community can achieve the seamlessness that 
its authors, including me, dreamed of.
    In fact, my view is that had we not passed IRTPA and had we 
continued to operate the intelligence community using the 1947 
business model set out in the National Security Act, we would 
probably not have been able to thwart a number of plots or take 
down Osama bin Laden.
    Let me focus briefly on three issues: First, both of you 
have addressed the performance of the Director of National 
Intelligence. By the way, I take credit for the name of DNI. 
Originally, it was supposed to be National Intelligence 
Director, which I thought sounded like a bug.
    Chairman Lieberman. It is interesting. I take credit for 
that, too. [Laughter.]
    We probably had the same thought.
    Senator Collins. And I am the one who actually did it. 
[Laughter.]
    Ms. Harman. It was a good start.
    Chairman Lieberman. I think we can all agree that Pete 
Hoekstra had nothing to do with it. [Laughter.]
    Ms. Harman. Moving along, second, let me talk about 
something Senator Collins mentioned, which is the role of 
domestic intelligence agencies and, third, some ongoing issues 
involving congressional oversight--of course, not involving the 
two of you.
    As for the DNI, I think the DNI continues to be a work in 
progress. Congress intended her or him to be a joint commander. 
A quarterback is a good analogy, but I recall our modeling this 
after the Goldwater-Nichols law that created the joint command 
across four military services, and it works very well, I 
believe, at DOD. So we envisioned a joint commander, not a huge 
bureaucracy by a joint commander across 16 intelligence 
agencies--far more than a coordinator, and a job that clearly 
required leadership skills.
    IRTPA is not perfect, but I believe it contains adequate 
authorities to give the DNI the necessary leverage she or he 
needs to get the job done. I have often said that the function 
is 50 percent law and 50 percent leadership.
    Congress intended, as I think both of you said, that the 
DNI serves as the principal intelligence adviser to the 
President. Those authorities were, I think, clarified and 
enhanced when the President, President Bush, issued Executive 
Order 12333, and that was the intention of Congress and clearly 
the intention of President Bush as well. This has never really 
happened. I believe that during the Bush Administration, Vice 
President Cheney was the principal intelligence adviser, and as 
Senator Collins said, during this Administration, John Brennan, 
the counterterrorism coordinator in the White House, is the 
principal intelligence adviser. In my view, neither President 
has adequately valued the DNI role, nor has either President 
made an adequate effort to support the mission. This is 
something I think Congress and those of us who agree with 
Congress should push harder on. It is not to diminish the 
reputation and power of the people in the White House who have 
assumed the role, but we established a person who is confirmed 
by Congress and accountable to Congress to take that job, and I 
think we should push harder to make certain that person 
actually has the full job.
    Let me raise a few issues that I think are important that 
the DNI is addressing.
    First, DNI James Clapper has suggested--and I would urge 
that this happen--that the National Intelligence Program be 
taken out of the Defense Department and added to the DNI's 
budget. I think that this will achieve more efficiency and 
promote more accountability.
    Second, I think the issue of right-sizing the DNI staff is 
being handled well, and we should move on to other topics. We 
should also, by the way, reduce the use of outside contractors.
    Third, when General David Petraeus moves to the CIA role, 
and CIA Director Leon Panetta becomes the Secretary of Defense, 
hopefully we will finally cement a good working relationship 
between the CIA Director and the Secretary of Defense. This was 
impossible in 2004 because the Secretary of Defense Donald 
Rumsfeld implacably opposed the law and the then-Chairman of 
the House Armed Services Committee, Duncan Hunter, also did. We 
had to work around them to achieve what we did, and I thought 
it was pretty darn good.
    And, finally DNI Clapper urges that we reduce the number of 
reports to Congress. I know how those reports get into 
statutes, and I know what they mean politically to the members 
who add them. But I think consolidating them will save time and 
resources and enhance the focus on the mission.
    I want to keep to my time, so let me just move to another 
subject, and that is, our domestic intelligence agencies. I 
think, as Senator Collins said, that there are ongoing problems 
with vertical intelligence sharing. This is going better, 
especially because you are doing some great oversight. I think 
that the Fort Hood massacre, as you said, could have perhaps 
been prevented if there had been better collaboration between 
DOD and the FBI, and the especially weak player is the 
intelligence and analysis function in the Department of 
Homeland Security. We need much more work, and I want to thank 
your staff and you for the work you did on helping to pass the 
reducing overclassification bill last year, which was signed 
into law by President Barack Obama in October.
    Finally, on congressional oversight, this Committee, your 
Committee, has far more jurisdiction than its House counterpart 
on which I served for 8 years. But I do not believe either 
committee in the Senate or House has adequate jurisdiction. We 
know why this happens. No one wants to give up any 
jurisdiction. But I actually think that reorganizing this 
function in the Congress would, one, carry out a strong 
recommendation of the 9/11 Commission; but also, two, give us a 
much better shot of providing the oversight necessary to be 
sure that the intelligence community will get the job done and 
help us protect our homeland.
    I agree with Senator Collins that while last week's news is 
fabulous, it will not diminish the threats to our homeland, and 
it probably will not diminish the potency of al-Qaeda, although 
that potency I believe will now move from Pakistan to other 
places like Yemen, where al-Qaeda in the Arabian Peninsula, is 
emerging, in my view as the part of al-Qaeda that is doing the 
most work both to inspire and train people to attack us in the 
homeland.
    Let me finally conclude by saying that there is no way to 
make our homeland 100 percent safe. What we can do is minimize 
risk, and we are doing that. We need to constantly re-evaluate 
the threats against the United States and to prioritize our 
investments. We are not making a lot more brain cells. Those 
that we have have to be applied against the top threats, and 
surely we are in a resource crunch, and our resources must be 
carefully marshaled.
    Let me close by recognizing the heroically brave women and 
men of our intelligence community who put their lives on the 
line every day for our country--often in austere places around 
the world, living apart from their families. Surely CIA 
Director Panetta, DNI Clapper, President Obama, some Members of 
Congress, and others, should take a lot of credit for last 
week's activities. But the true heroes were those in the field, 
not just the Navy SEALs but those in the field who put together 
the clues that led to the information, that tracked the 
couriers, that found the house, that found Osama bin Laden, and 
they deserve our heartfelt thanks. Thank you.
    Chairman Lieberman. Hear, hear. Thank you. And if I may, 
that gave the President a sufficient level of confidence in the 
information he had to order that the raid occur. Thank you for 
that excellent statement.
    General Hayden, it is great to welcome you back. Thank you 
for being here, and we look forward to your testimony now.

TESTIMONY OF HON. MICHAEL V. HAYDEN,\1\ FORMER DIRECTOR OF THE 
CENTRAL INTELLIGENCE AGENCY AND FORMER DIRECTOR OF THE NATIONAL 
                        SECURITY AGENCY

    General Hayden. Thank you very much, Mr. Chairman. Good to 
see all of you again.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Hayden appears in the 
Appendix on page 403.
---------------------------------------------------------------------------
    Let me begin by attempting to scope the problem. We 
sometimes look as if we are trying to repair a community that 
was totally dysfunctional, and what I want to describe is I 
think what the legislation attempted to do was to balance two 
things, both of which are virtues, and two things which any 
complex organization has to balance, and that is, simply the 
unity of effort for the whole and autonomy of action for the 
parts. And both of those are good things. Both need to be 
protected. And I think the macro judgment was that we were more 
than a brick shy of a load when it came to unity of effort for 
the whole, and that was the intent of the legislation.
    The real problem is, I think, what we are trying to do is 
to build what some of our younger analysts and case officers 
would describe as a networked organization, which very 
frequently looks and acts like it is leaderless or has many 
leaders. And, unfortunately, the only way we can get from here 
to there is to actually have very strong leadership in order to 
create this kind of organization.
    And so what the Nation decided and what you sponsored and 
fostered in 2004 was another path to that balance, not the DCI 
path but the DNI path.
    I think those of us in the community were a bit nervous 
about that. We were quite busy at the time. We actually thought 
that the DCI had some real authorities and did provide a fair 
amount of glue. But even those of us who had our doubts 
recognized that if we needed more glue, if we needed more unity 
of effort, the then current model, the DCI, was probably going 
to be inadequate simply because the DCI had full-time day work 
as the Director of the CIA, and it would be very hard for 
anyone, almost superhuman, to reach above that role and both 
psychologically and physically play the role of coaching the 
entire community.
    But you had a real daunting challenge on your hands because 
whatever glue we had in 2004, whatever centripetal forces we 
were able to create in the community, came from the fact that 
the head of the community, the DCI, also headed the CIA, and 
that ``C'' still meant ``central'' and that he was in that core 
position inside the community. And, of course, the decision was 
made, whatever else the DNI was going to be, he was not even 
going to have his office at Langley let alone run the CIA. So 
you really had a difficult challenge to pull us out of this 
course, put us on another, and put enough bricks in his 
backpack that he had enough authority to get beyond what the 
old model had provided us.
    Beyond that, as existentially difficult as that was, this 
has actually been harder than it should have been. We were at 
war, and, therefore, it is kind of hard to restructure when 
your daily operations tempo is so important. But there is 
another, I think more subtle challenge because we are at war. 
Three or four of those really big organizations that you care a 
lot about, and most of whose first initials are ``N,'' are 
actually in the Department of Defense. As mentioned, I was the 
Director of NSA, and I would not say we were schizophrenic, but 
we did have a duality in our personality. We were the National 
Security Agency, but we were also directed to act as a combat 
support agency.
    In many ways, your law was trying to strengthen the 
national character, to bring folks, organizations under the 
Director of National Intelligence. It is inevitable that after 
9 years of war, the combat support character of those 
organizations becomes more and more dominant. There is nothing 
wrong with that. That is actually a good thing. We would all 
agree, we would all foster it. But it is not quite a 
convergence with the course of action that you set out in terms 
of strengthening the DNI.
    There are other things that made this harder. We have had 
four DNIs in 6 years. That cannot help. We have had four DCIAs 
in 6 years. That cannot help either. I think one of the most 
powerful phrases in your legislation was the role you gave to 
the DNI to recommend the DCIA to the President. I just told you 
we have had four and four. I can think of only one example 
where the DNI actually recommended the head of the CIA to the 
President of the United States, and that was John Negroponte 
recommending me to be DCIA instead of his Deputy, and we 
overlapped for only 6 months after I took that job. That is 
actually pretty important.
    And, finally--and I am fearful of being too self-
referential here--my old job, the PD-DNI, the Principal Deputy, 
I think is really important because those two tasks you gave 
the DNI, senior intelligence adviser to the President and 
smooth functioning of the intelligence community, those are 
really hard. And that deputy function is really important. For 
over half the life of this legislation, that deputy position 
has been vacant. That has real impact on, I think as you said, 
Senator Collins, effecting the intent of the law rather than 
trying to change the legislation.
    Now, all that said, I think there has been some really good 
news with regard to the DNI. It exists and is accepted, and, 
frankly, in 2005, when I was Principal Deputy, that was not a 
given throughout the community.
    The NCTC has already been mentioned as a signal success, 
and I think that is right, and there will probably be questions 
on it as we go further.
    Imagine, if you will, trying to create the NCTC, which 
fundamentally is characterized by the mingling of foreign 
intelligence with domestic law enforcement. Try to picture that 
if it reported not to the DNI, but if it reported to the DCI, 
who was also the head of CIA, and therefore, was your foreign 
espionage chief. American political culture would have rejected 
that like a foreign object. And so the DNI structure has 
actually enabled the success of the NCTC.
    The DNI has also kind of thrown his body from time to time 
in front of really big trains. I can recall Director Mike 
McConnell spending about 18 months on legislation with which 
you are all familiar--FISA reform. That could not have been 
done by any sitting Director of NSA. Only the DNI could have 
brought the gravitas of the community to that discussion.
    This again sounds a bit personal, but it is very real. 
Every day I was a DCIA, I thanked God there was a DNI. I had no 
idea how anybody could be a DCIA and also be head of the 
American intelligence community. You talked about the recent 
success and used the term ``quarterback.'' I think I am a 
little more comfortable with the term ``coach'' to describe the 
DNI. And I think it is clear--I was not on the inside, but from 
all the accounting, I think it is clear that Director Panetta 
was the quarterback for this effort.
    There is an echo of that--if you recall al-Kibar, the 
Syrian nuclear reactor in eastern Syria that was ultimately 
destroyed. When that came up, Director McConnell and I worked 
very closely, but he, in fact, empowered me to act on behalf of 
him because this was at the operational level. And I do not 
know that we want the DNI routinely playing at that level.
    There are other things the DNI has set in motion. Sharing 
in something that is called ICD File 502, which sounds like 
coded language to most folks in the room, but it is a process 
which allows over time the bureaucracies to more readily, more 
facilely share information. Joint duty is another thing that 
has been set in motion and that over time will change the 
culture of the community. Not possible without the current 
structure.
    There probably are some tinkerings in the law that someone 
might consider. I will not suggest any. I think that should 
come out of the sitting DNI. But some things that come to mind, 
if there is anything you need to do to get the National 
Intelligence Program more fully under the DNI and out of the 
DOD budget, if there is some legal impediment I am not aware 
of, that is probably a very good thing.
    We have already mentioned that we are cooperating pretty 
well east to west at the national level. But the new threat is 
going to require more cooperation north to south. And how 
better do we share between national, State, local, and tribal 
assets? I do not know that there are legal impediments, but if 
there are, I think that would be a great help.
    All that said, I think I agree with something that both of 
you suggested. We are going to succeed or fail more on 
intangibles than we are on the precise letter of the law, as 
important as that is. The three intangibles that most come to 
mind to me are:
    First, the personality of the DNI. That really matters, who 
that person is.
    Second is the relationship of the DNI with the DCIA. That 
has got to work. My shorthand is the DNI owes the DCIA room to 
run, and the DCIA owes the DNI total transparency.
    Then finally, as already suggested, whatever shortcomings 
there may be in the law, everything is fixed if the DNI is--and 
everyone knows him to be--the President's senior intelligence 
adviser without question.
    Thank you very much, and I look forward to your questions.
    Chairman Lieberman. Thanks very much, General Hayden. That 
was great.
    Mr. Gannon, thanks again for being here and please proceed.

  TESTIMONY OF JOHN C. GANNON,\1\ FORMER DEPUTY DIRECTOR FOR 
        INTELLIGENCE AT THE CENTRAL INTELLIGENCE AGENCY

    Mr. Gannon. Thank you very much, Mr. Chairman. I will also 
summarize the statement I provided for the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gannon appears in the Appendix on 
page 406.
---------------------------------------------------------------------------
    In my view overall, the performance of the U.S. 
Intelligence Community has improved dramatically since 9/11. 
Analytic and operational tradecraft have advanced 
significantly. Performance in counterterrorism programs has 
reached the highest standard of professionalism and dedication. 
The application of technology has broadened, deepened, and 
accelerated. Interagency collaboration, especially in support 
of the warfighter, has improved markedly. And progress toward a 
more distributed model of intelligence support to users 
anywhere in the world is palpable and encouraging. The fusion 
of intelligence, the synergy of well-trained people and 
advanced technology, and the interagency teamwork in 
Afghanistan and Iraq are at their highest level ever--a level 
that seemed unattainable when I left government.
    The creation of the DNI has contributed significantly to 
this progress, but other leaders and individual agencies--with 
administration and congressional support--also have taken 
impressive steps on their own. The Department of Defense won 
congressional approval to establish in 2002, the position of 
Under Secretary of Defense for Intelligence to improve 
management of its considerable intelligence assets and 
programs. Most significantly, in my view, the Secretary of 
Defense elevated the authority and boosted the budget of the 
Joint Special Operations Command to provide in the field a 
strong coalescing leadership, a clear chain of command, and a 
powerful authority to coordinate focused requirements for 
intelligence collection and analysis. I would risk the outside 
judgment that the cooperation of CIA, including its 
Counterterrorism Center, with the JSOC has never been closer or 
more effective. While there is always room for improvement in 
the intelligence business, the strong, collaborative 
performance of our agencies ``down range'' today is 
unprecedented and a source of justifiable pride for the 
intelligence community.
    The domestic picture, in my view, is mixed. The key 
difference with ``down range'' is that there is no JSOC 
counterpart in the homeland to integrate intelligence processes 
and products. The FBI has built an impressive intelligence 
infrastructure and has shifted significant resources, once 
wholly devoted to law enforcement, to domestic intelligence 
collection and analysis. The National Counterterrorism Center 
has made significant progress in integrating foreign and 
domestic intelligence and analysis. The Department of Homeland 
Security, with its 22 constituent agencies sometimes taking 
initiative on their own, has made commendable strides in border 
security and some, but uneven, progress in sharing threat-based 
information and coordinating policy with State and local 
governments and the private sector. Overall, however, domestic 
agencies do not show the strong unity of effort that is evident 
in theaters of conflict abroad. Domestic intelligence and 
security is a much slower work in progress.
    The DNI should be seen as a leader with explicit 
responsibilities for clearly defined oversight of IC 
performance, for the development and application of interagency 
program standards, and for the implementation of the National 
Intelligence Program. We are not yet there, in my view. I 
believe, however, we can do much better. We should recall that 
the IRTPA was passed into law after decades of debate about the 
inability of successive DCIs to manage the intelligence 
community. The IC today is challenged by historic geopolitical 
change, a globally dispersed threat environment, and a 
technological revolution that is enabling even minor 
adversaries to hurt us as never before. The DNI has the 
potential to help agencies to achieve a unity of effort in this 
challenging environment.
    To be optimized, the DNI roles and responsibilities should 
be tied clearly to defensible IC strategic priorities and 
requirements. The DNI's leadership must be authoritative with 
regard to these IC-wide priorities but not intrusive in agency-
specific matters. It must recognize the distributed and 
networked nature of intelligence support around the world 
today. And, most importantly, in my view, the incumbent must 
have the visible and sustained backing of both the White House 
and the Congress, and it is questionable whether the DNI has 
this now. This in my judgment has been a major obstacle to 
progress.
    The DNI may need additional authorities. I believe his 
management of the NIP, for example, would be strengthened if it 
were moved from the defense budget to the ODNI. In a period of 
tightening budgets, he will need clearer authorities and 
powerful top cover to evaluate and prioritize key programs for 
growth, reduction, and elimination, a role he has a unique 
potential to perform.
    At this juncture, however, rather than simply add 
authorities, I believe it would be more useful in a period of 
IC leadership transition to take a step back and consider ways 
to get the intelligence community, White House, and 
congressional priorities aligned to enable and support the DNI 
on this hazardous mission.
    I would cite several priority areas in addition to the NIP 
management and cross-agency program evaluation on which the DNI 
is uniquely positioned to help improve IC performance and 
enhance U.S. national security:
    Balancing strategic versus tactical collection and 
analysis, which in my view has gone too far in the tactical 
direction.
    Equipping trained analysts for the Information Age, meaning 
giving them greater and full Internet access to social media 
and to outside experts, which I think is essential against the 
challenges we face today.
    Strengthening commitment to science and technology in an 
era when we are subject more than ever to technological 
surprise.
    Enhancing training and education for the intelligence 
profession--that is, with a curriculum that codifies and 
conveys the body of knowledge that defines the intelligence 
profession itself.
    Adapting security and counterintelligence to the 21st 
Century, pursing the benefit from innovation and avoiding the 
costs of doing it the old way.
    And continued promotion of information sharing across all 
the agencies, and improving intelligence community procurement 
strategies and policies as well as improving government 
contract management overall.
    I am glad to say that the DNI is working on all these 
important priorities, but in my judgment, he will need help to 
deliver the best results. And it should matter to all of us 
that he succeeds.
    Thank you.
    Chairman Lieberman. Thank you, Mr. Gannon. Your statement 
and the others prepared will be part of the record, and we 
appreciate the time and thought that you gave to your 
statements.
    We will do a 7-minute round of questions here.
    General Hayden, I think I want to start with you, picking 
up on one thing you said, reminding us that the DNI has two 
major functions: One is to be the senior intelligence adviser 
to the President, and the other is to be, whatever term we 
choose, coach, manager, leader, quarterback, of the 
intelligence community.
    You have been pretty close to the functioning of the DNI 
since it came into effect, and first I want to say that you are 
absolutely right. One of the shortcomings over the last period 
of time, which is not in the law but in its implementation, is 
that for too long the Principal Deputy position at the DNI has 
been vacant, and that really means that either we are putting 
these two functions in a very burdensome way on the DNI 
himself, or he is not going to be able to do the two. And 
either he is going to do both not as well as it should be done, 
or he is going to fail in one or not do as well as he should.
    How would you assess the function of the DNI as the senior 
intelligence adviser to the President in practice? You talked 
about this a little before. The CIA is a big agency with a lot 
of history and a lot of assets, so that is the muscle they 
have. But from what you know, to the extent you can talk about 
it from the inside, has the DNI actually ended up being, since 
we created the position, the senior intelligence adviser to the 
President?
    General Hayden. I think it has gone back and forth. It is 
very much dependent upon the personality of the President and 
the personality of the DNI.
    The first thing is the DNI has to choose where he is going 
to shift his weight. Does he shift it downtown? I mean, that 
is, frankly, how to draw the picture. Or does he shift it back 
out at headquarters?
    There is an incredibly powerful gravitational pull 
downtown, and that is not out of pride from the DNI. That is 
out of the demand of the President and the National Security 
Council staff.
    My experience, to show you how difficult this was, I was 
generally always there--not in the morning briefings. That was 
generally a DNI show. But a lot of decisions get made at the 
Deputy's level, the Principal's level at the NSC, and I was 
almost always invited. And so I am there with Admiral 
McConnell. Literally, the President or Steve Hadley would say, 
``OK, the two Mikes, you go first.'' And Mike McConnell would 
talk, and then if I had anything to add, I would add. But we 
were both there.
    Admiral McConnell was really disadvantaged. I am sitting on 
top the Nation's premier analytical service. Admiral McConnell 
is up the road reading books. I am putting somebody in the back 
of the car with me explaining the details we are running down 
because I have the analytical staff to do that.
    Chairman Lieberman. Sure.
    General Hayden. So there is a bit of a tension there, a bit 
of an anomaly. But you have to work through it. Remember that 
transparency and freedom of action between the two? The DCIA 
and the DNI have to be friends, and the DNI does not get to do 
job two, which is smooth functioning of the community, unless 
everyone believes he is the one responsible for job one. He 
gains power for the second task from his performance of the 
first.
    Chairman Lieberman. I agree. Obviously we wanted the DNI to 
be the principal intelligence adviser to the President because 
the gathering of intelligence goes beyond the Central 
Intelligence Agency, even though it has the most personnel and 
the most assets in the community.
    Is the DNI's presence at the daily intelligence brief to 
the President critically important to this fact? I mean, that 
is not in the statute. Well, it is, actually, generally in the 
statute. But there is latitude.
    General Hayden. First of all, Mr. Chairman, this depends on 
the personality of the President. All presidents deal with this 
in a different way. President Bush was very interactive, was 
face to face, it was that human contact. I think President 
Obama is a bit more cerebral and likes printed material and so 
on.
    Chairman Lieberman. Right.
    General Hayden. So you have to accommodate the character of 
the President. But I do think it is very important--let me be 
very precise--that the DNI be represented in those morning 
briefings, either he or the Deputy. But on balance, I think it 
needs to be the DNI more often than not.
    Chairman Lieberman. Congresswoman Harman or Mr. Gannon, do 
you want to get into that discussion about the interplay of the 
senior adviser to the President and coordinator of the intel 
community? Ms. Harman.
    Ms. Harman. We have seen good stories and bad stories. 
There was a tension between DNI Dennis Blair and CIA Director 
Leon Panetta that wasted a lot of time about what you call 
people who are forward deployed in our embassies. I thought 
that was a stupid fight, I really did, and certainly nothing we 
imagined when we formed the law.
    It seems to me that, as I said in my testimony, the DNI 
role has never been adequately valued by either president 
during the time of the law, either President Bush or President 
Obama, and that is something we should push for.
    But, second, my term at the DNI is the joint commander. I 
think her or his job is to leverage the strengths of the other 
agencies. If you are a good CEO, you do not do all the work 
yourself. You help those underneath you understand the mission 
and perform their missions well, and then you pull it together, 
and that is what I see is the DNI role.
    Yes, I agree with General Hayden that being part of the 
President's daily brief is important, but I do not think the 
DNI personally has to do it every time. Again, letting other 
people shine and have that face time, too, is the sign of a 
secure leader.
    Chairman Lieberman. Right. You have said twice now that we 
ought to be pushing harder in the face of the fact that neither 
President who has had a DNI yet has used that DNI to the full 
extent that we hoped. Are you thinking additional statutory 
authority to the DNI? Or is it more trying to make the point to 
the President, if we could, that this is what we intended and 
this will serve him better?
    Ms. Harman. Yes, it is the latter. I think that to the 
extent that our law left any ambiguity--and, of course, as one 
of its authors, I thought it was quite swell--that was 
clarified by----
    Chairman Lieberman. But not without ambiguity.
    Ms. Harman. In the face of implacable opposition by two key 
people in the government at the time, I thought we did 
extremely well. But Executive Order 12333, issued by President 
Bush and supported at the time by then-Candidate Obama, as I 
recall, was an attempt to make even clearer that we intended 
the DNI to be the principal actor in intelligence.
    I mean, you cannot make a President rely on somebody in the 
chair, but as General Hayden has said, you can try to help 
forge the right chemistry between the President and this 
person. And you could also explain as Congress that the person 
accountable to Congress for the failures or successes is the 
DNI, not the Vice President of the United States or the 
principal counterterrorism officer in the White House.
    Chairman Lieberman. Mr. Gannon, do you want to get into 
this?
    Mr. Gannon. As the former Deputy Director of Intelligence 
who ran the PDB staff at CIA, I always regarded this daily 
access to the President of the United States as critical to the 
intelligence mission and absolutely essential to the role of a 
senior intelligence adviser to the President.
    By the way, I will add--and I think Mr. Hayden knows this 
well--that it takes tremendous analytic resources to perform 
this role successfully. The substantive role that one plays in 
the PDB forum is very different from the management roles in 
the intelligence community. All DCIs struggled with this 
tension, and all of them ultimately failed at trying to perform 
the two functions.
    But I think the problem with the DNI construct now is that 
the DNI does not have adequate analytic resources to serve him 
in the substantive role. What it takes to produce that book 
every day is a tremendous investment of resources and 
expertise, and they have to be serving the person who actually 
provides the briefing or whose deputy provides the briefing.
    Chairman Lieberman. So is the answer to try to provide more 
analytical resources to the DNI?
    Mr. Gannon. That would be my answer to the question, yes. I 
think if the DNI is going to continue to serve in that 
substantive role, he needs to have more resources to do the 
job.
    Chairman Lieberman. Because, otherwise, this will naturally 
move to the CIA because they have the analytical----
    Mr. Gannon. I think there would be a very strong 
gravitational pull in that direction.
    Chairman Lieberman. OK, thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    As I am listening to this debate, it reminds me that in 
Washington there are really three levers of power. One is your 
relationship with the President, and we have talked about the 
fact--and I agree with Representative Harman--that neither 
President Bush nor President Obama has fully valued the DNI as 
the principal adviser to the President the way we intended in 
the law. The second is control over personnel, and I want to 
come back to that with an example. And the third is control 
over budget.
    Now, each of you, I believe, made a budget recommendation 
to us. When we wrote the 2004 law, there was a huge dispute 
over whether the intelligence community's budget should remain 
with DOD and then be doled out, essentially, to the agencies or 
whether it should go through the DNI. And I think--but I want 
to clarify--that each of you are recommending more authority 
for the DNI in this area. So if I could first explore the 
budget issue and start with Representative Harman.
    Ms. Harman. Yes, moving the so-called NIP into the DNI's 
orbit is an active recommendation made by the current DNI, Jim 
Clapper, and I think it would be very helpful. I have not 
thought about whether that requires a change in the statute. I 
am not sure of that. I do not think we know--or what the answer 
is now? We do not know. Imagine that. We do not know.
    But I am one, as I said, who thinks that this is 50 percent 
law, 50 percent leadership, so I think we can accomplish a lot 
of what we are trying to achieve unless there is a bar in the 
statute by just getting, hopefully, this President to support 
DNI Clapper's recommendation.
    Chairman Lieberman. I have been advised that we have 
actually been in discussion with the DNI about whether there is 
a need for statutory action, and they are not sure. So they are 
coming back to us with an answer, and then we will reason 
together.
    Senator Collins. General Hayden.
    General Hayden. Yes, ma'am. You have some tension inside 
the law on the budget.
    Senator Collins. Yes.
    General Hayden. The verb you picked is great. ``Determine'' 
is what you decided. And then you have Section 1018, which says 
nothing in here infringes the prerogatives of the cabinet 
officers in which these organizations are located. I am not 
suggesting to go back in and use a wrench to change any of 
that, but to the degree you can in the process foster ``the DNI 
determines,'' I think that is a very positive thing.
    In terms of shifting the National Intelligence Program out 
of the DOD budget and into an independent account under the 
DNI, I think most people who look at that say it would actually 
strengthen his authorities in the execution year, which is not 
a bad thing. It may not do a whole lot in the planning or 
programming year. But in the execution year, which is where you 
kind of look around and say who is burning money at the rate 
they expected and who is not, and let me remind everybody, it 
was my money to begin with, that actually might be a very 
positive thing.
    Senator Collins. Mr. Gannon.
    Mr. Gannon. I agree with all that has been said. I think 
Jim Clapper has made a very persuasive case that I would have 
probably agreed with even before he made it. And I think in an 
era now of greater stress on the intelligence budget, I think 
it is important in real terms and also symbolically--that he 
have that budget control.
    Senator Collins. I was smiling as General Hayden was 
talking about the language because I remember how difficult it 
was and that we did want the DNI to be responsible for 
determining the budget. But in order to get the bill through, I 
think we did create a compromise or some lack of clarity in 
order to get the bill accomplished, which sometimes happens. So 
it will be interesting to see if we can perhaps clarify this.
    Let me turn to the personnel issue. As Representative 
Harman has mentioned, at the start of this current 
Administration, shortly after Leon Panetta was confirmed as the 
CIA Director, the DNI, Admiral Blair, issued a directive in 
which he claims the right to select an individual other than a 
CIA station chief to be the DNI's representative in foreign 
governments. And this built upon similar but far less public 
efforts that were undertaken by previous DNIs Negroponte and 
McConnell as well.
    But this did blow up into a rather prominent public battle 
between the DNI and the CIA Director, and the unfortunate, in 
my view, outcome was the White House was forced to choose sides 
and sided with the CIA, which in many ways, in my view, 
undermined the DNI's ability in the whole area of personnel.
    Who should be in charge of the personnel in the 
intelligence community in terms of allocating assets? Mr. 
Gannon, we will start with you.
    Mr. Gannon. First of all, I think that the particular case 
that you are citing was badly handled. The outcome need not 
have been what it was. I believe that it could have been 
managed in a way that all parties to this conflict could have 
gone away with a much better feeling. But I think it ended up 
publicly undermining the DNI and doing a lot of damage to his 
effort to establish authority.
    I think that, because of the nature of the complicated and 
fast-moving global threat environment that our country now 
faces, the intelligence community needs to be able to move 
assets, including personnel, quickly and the DNI must have the 
authority to do this. I do not have the confidence to say how 
precisely this should be crafted into law, but I think the DNI 
is the appropriate leader to have this authority.
    Senator Collins. Thank you. General Hayden.
    General Hayden. Yes, ma'am. Admiral McConnell and I had 
that very issue for quite a while when we were in office and, 
unfortunately, just could not get it across the finish line. 
This is a very emotional issue for CIA, and I was doing my duty 
in terms of representing the Agency's views, and very 
frequently my senior staff would say, ``You need to take this 
to Mr. Hadley,'' or someone else in the White House. And my 
response was, ``Guys, we take this to the White House, we 
lose.'' I mean, there is no way the White House cannot support 
the DNI in this kind of issue.
    Now, frankly, I think the DNI was wrong. I think it should 
be the station chief. I think our foreign partners expect it to 
be the station chief. But the DNI has a right to be wrong 
without being overruled in such a public, humiliating way by 
the White House. So I agree with Mr. Gannon. It was a very bad 
thing.
    In terms of moving personnel around in general, falling 
back a little bit on the military model, commanders talk to 
commanders. All right? Commanders do not command troops inside 
other people's organizations. So I think the model we might 
want to think of is to make sure the DNI has the authority to 
demand capabilities of his component commands, and his 
component commands are NSA, NGA, CIA, but to leave those 
component commanders the freedom of movement to how they 
respond, how they create that capacity where the DNI wants it. 
But he fully should have the authority to demand capacity where 
he needs it.
    Senator Collins. That is a good distinction. Representative 
Harman.
    Ms. Harman. I strongly support that last point and also 
agree with Mr. Hayden's earlier point that the DNI should 
carefully pick her or his fights and hopefully pick the right 
fights. This was the wrong fight.
    All of this feeds the conversation we are having, we have 
been having from the start. I felt, again, given the implacable 
opposition by Secretary of Defense Rumsfeld and House Armed 
Services Chairman Duncan Hunter, that we did pretty well. We 
consulted closely with an unnamed source then in the Bush 
Administration to make sure we had adequate authorities for the 
DNI to build the budget, not just to execute the budget because 
moving money, providing money, is how you give somebody power. 
And I believe we had adequate authority there. That Section 
1018 was modified or clarified later by Executive Order 12333, 
so I am pretty confident that the budget authorities are OK.
    In terms of people, even people for the PDB, if I were the 
DNI, I would use assets that exist among the 16 intelligence 
agencies to help me do what is necessary there. There are 
excellent analysts at the CIA, as has been mentioned. John 
Gannon knows that extremely well. And they surely were very 
good at providing information leading up to the capture and 
killing of Osama bin Laden. So those assets can be used by the 
DNI. There is no prohibition against using them. They do not 
have to move to a different box. I think we should be done with 
moving boxes around, and we should insist that the DNI get the 
respect that person deserves and do the job by leveraging the 
assets of the agencies under her or his command.
    Senator Collins. Just one final comment, if you will 
indulge me. I also believe that if the intelligence community 
more fully adopts the joint model of the military where in 
order to advance your career you need joint service, that will 
help promote those kinds of exchanges and willingness to give 
up talented people as well.
    Ms. Harman. Senator Collins, that was in the law.
    Senator Collins. Oh, I know.
    Ms. Harman. Giving some points for joint service and trying 
to break down, as you said, the stovepipes and promote a need-
to-share culture instead of a need-to-know culture.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins.
    One of the other ways in which the law attempted to give 
the DNI authority in a way that would help him or her be a 
better manager or leader of the intelligence community was in 
the recommendation of personnel throughout the intelligence 
community.
    General Hayden, just as the beginning of a series of 
questions, you made, I think, a very good point, which is that, 
to the best of your knowledge, the only CIA Director who was 
actually recommended by the DNI was yourself. And in the other 
cases, I assume what you are saying is the name came from the 
President. And while the DNI may have formally put his name to 
the bottom of the letter recommending, that is the way it 
happened.
    General Hayden. That is my understanding, Senator, and, 
frankly, there is nothing wrong with that in an objective 
sense.
    Chairman Lieberman. Yes.
    General Hayden. But if you are going to establish that kind 
of relationship--if you have this ideal relationship between 
the DNI and the DCIA, starting off with the one owing nothing 
to the other for being in the position is not a disqualifier, 
but you are not getting out in front of the pack either.
    Chairman Lieberman. It makes it harder. You are absolutely 
right. Probably none of us here thinks that General Clapper 
came up with the idea of General Petraeus being the head of the 
CIA. [Laughter.]
    Not that he is opposed to it. I have talked to him about 
it. I am sure he is happy with it.
    This discussion is another piece of evidence, this one that 
we have just had, of the way in which the law can express an 
aspiration that the Congress has regarding something, but it 
all depends ultimately on how the people in the positions 
implement it.
    So acknowledging that piece of unaccustomed congressional 
humility, let me go on to ask you, one other idea that has been 
suggested to us as we take this look back at the DNI is that we 
ought to extend the authority of the DNI to approve--recommend 
and/or approve personnel throughout the intelligence community 
below the level of the head of the constituent agency, perhaps 
down to the second or third position in the agency.
    What do you all think about that? Let us start with Mr. 
Gannon.
    Mr. Gannon. I would think that is an idea whose time has 
not yet come. [Laughter.]
    Chairman Lieberman. General Hayden.
    General Hayden. No, that did not have any particular charm 
for me either, Senator.
    Chairman Lieberman. Yes. Representative Harman.
    Ms. Harman. I think there are higher priorities, like 
urging the President to fully stand up the Privacy and Civil 
Liberties Board, which is required under the law. I would go 
there before I would start an opportunity to pick new fights 
between the DNI and other agencies.
    Chairman Lieberman. Am I right in interpreting the reaction 
of you to be that actually consistent with what we have just 
said about the DNI relationship to the DCIA, the head of the 
constituent agency ought to be able to choose his own second 
and third people?
    Mr. Gannon. Yes.
    Chairman Lieberman. Just in terms of their ability to work 
together.
    Let us go back to this extraordinary experience we have 
just been through with the intelligence leading to the takedown 
of Osama bin Laden. The President designated the Director of 
the CIA, Director Panetta, under Title 50 to be in charge of 
this operation, even though in the end--and Leon Panetta both 
privately and publicly has gone out of his way to say that he 
then essentially delegated the final part of it to a Title 10 
force, which was the Special Operating Command under Admiral 
William McRaven.
    I suppose the first question I want to ask is whether, 
consistent with what we have been focused on today--I know this 
is second-guessing on a spectacular success, but whether the 
President, consistent with the intention of the law we are 
talking about, really should have designated the DNI to be in 
charge of the hunt for Osama bin Laden as opposed to the DCIA. 
Ms. Harman, do you want to start that? We will just go down the 
row.
    Ms. Harman. In organization chart terms, I think the answer 
to that is yes. I think this was a highly risky operation, and 
there were at least plausible reasons to designate someone 
else. I am just guessing that the President has worked longer 
with Director Panetta than he has with DNI Clapper on a 
personal basis and figured he not only brought a lot of the 
assets to the table in terms of preparing the information on 
which the special ops team acted, but he also had a strong 
relationship with Congress and, therefore, that made him 
probably the best guy, especially in the event that something 
went wrong. And so I think this was a call based on personal 
chemistry more than on an organization chart, and I do not 
fault the President for making it, and the result was 
spectacular.
    Chairman Lieberman. And it worked.
    Ms. Harman. Yes.
    Chairman Lieberman. General Hayden.
    General Hayden. All that is true and I agree with it, but I 
do not think it is exclusive. I think it is structural. It is 
just not personality based.
    If you do it under Title 50, it is a covert action. 
Executive Order 12333 says--the President can change this, but 
what it says right now is the only organization of the U.S. 
Government that conducts covert action is the Central 
Intelligence Agency. So I understand why that has gone in that 
direction.
    I think technically Director Panetta had what is called 
OPCON, which means he is ultimately responsible for it, but he 
gave Admiral McRaven and his troops TACON. It makes great 
sense. I cannot think of any other way of doing it.
    With regard to the DNI role in this--we actually had this 
discussion in the Bush Administration, and I know Congresswoman 
Harman has talked about needing more presidential oomph to the 
job. We actually got a fair amount from President Bush based on 
my recollection. We had a pretty serious debate about this 
role, and we went to the law, and the language in the law is 
that the DCIA reports to the DNI for all the activities of the 
Central Intelligence Agency. And that is the verb: ``reports.'' 
It is not ``authority,'' ``direction,'' or ``control,'' which 
are also English words that were available, but they were not 
chosen.
    The ultimate decision--and we had this discussion long 
before going to Abbottabad--is that the DNI has to have total 
transparency. But covert actions are so sensitive, so delicate, 
that the President--and I suspect this President--wants no one 
between him and the individual carrying out the covert action. 
And so in that sense the DNI is here to offer views as a member 
of the NSC and in an advisory role but not in that chain. We 
discussed this at great length. We really clearly did not want 
to make this two hops rather than one.
    Chairman Lieberman. Discussing, in other words, this kind 
of action.
    General Hayden. That is correct. Title 50 covert action.
    Chairman Lieberman. Right. And, again, because the CIA 
Director is in charge of the operators here.
    General Hayden. That is correct.
    Chairman Lieberman. Right. Mr. Gannon.
    Mr. Gannon. I have no problem with the way this transpired, 
and I do not think it really had any negative impact on the 
DNI's authorities.
    As a professional intelligence officer, I always regarded 
covert action as only partially an intelligence activity. It is 
supported by the National Intelligence Program, so the DNI 
should play a consultative role. But I think the accountability 
for covert action belongs so acutely to the President that 
there should not be any layers between him and the CIA 
Director.
    Chairman Lieberman. Again, if I may go over my time, I am 
going to ask you, Mr. Gannon, a somewhat related question. I 
was interested in your statement in your testimony that the 
intelligence community has moved to what you called a more 
distributed model of providing intelligence support in which a 
large number of intelligence agencies and offices provide 
direct support to policymakers and also work closely with the 
military--in fact, with troops on the ground--and that there 
could be a conflict between that model and having a strong 
central leadership. And I just want to ask you to develop that 
a little bit more.
    Is there necessarily a conflict there? Isn't there an 
argument that DNI should in any case be the leader ultimately 
responsible for building the distributed network and ensuring 
that it works properly and, of course, is ultimately 
accountable for its performance?
    Mr. Gannon. The direct answer to your question is I do not 
think there is necessarily a conflict. My point is that I think 
we do need to understand the evolution of the intelligence 
community to a more decentralized distributed model of 
intelligence support over the past several years. It is not 
going back.
    Back in the 1990s, when I was managing intelligence 
analysis there really was a preference for the national 
customer at CIA, and I could----
    Chairman Lieberman. Meaning, just to clarify?
    Mr. Gannon. The national customer means the cabinet-level, 
Washington-based policymaker with the President, the White 
House, at the top and----
    Chairman Lieberman. As opposed to the----
    Mr. Gannon. As opposed to the warfighter, the military 
establishment. So if I have a request for analytic support say 
at that time, from CINCPAC, I would probably respond with 
something like, ``Well, if you could wait a few days, I will 
get a sanitized version of the product to you.'' I saw in the 
1990s the environment change and the customer in the field 
became more demanding, partly because of the digital 
revolution--we actually could provide products in real time; 
and, second, because diplomats and military commanders abroad 
demanded that we do so. Admiral Dennis Blair, for example, was 
at CINCPAC, and he would say, ``Heck, no, I need it now. Look 
at the challenges that I face''--this is the post-Cold War 
period. I have multiple threats in my AOR. I need to have real-
time intelligence, and I need to have the best that you are 
giving to the President.''
    So what we saw then was a decentralization of intelligence 
support--CIA was less ``central'' and other agencies and 
sources of information played larger roles.
    In the prolonged Balkans conflict, we saw the demand was 
not only to get information out there in realtime, but to 
actually have intelligence capability in place in the field 
where folks there could levy intelligence requirements and get 
a timely, tailored response. That is what I was talking about 
with reference to the JSOC model in Afghanistan or about what 
Mike Hayden and I meant by the IC's networked environment. So 
my point is that I think we can sort of lighten up about how 
much we want a DNI to control. The distributed or networked 
system is working very well, and a DNI should be nurturing at a 
strategic level, not trying to control it at a tactical level. 
He should be looking for gaps to close to better enable it, to 
better resource it, and to grow capabilities for the 
intelligence. But I do not think there is any way we are going 
to get back to the old days when you had a centrally controlled 
system of intelligence support.
    Chairman Lieberman. Right. And I hear you saying that we 
should not try to get back to that, but----
    Mr. Gannon. No. It is just a question of----
    Chairman Lieberman [continuing]. The world has gone beyond 
that.
    Mr. Gannon. I think you can have a very successful 
authoritative DNI who is not worried about central control. By 
the way, I do not actually see a Secretary of Defense who has 
to worry about a lot of what goes on beneath them. A lot of the 
success we have had in Afghanistan and Iraq is because we have 
developed a distributed system of intelligence support, and 
that means we should not have an intrusive central authority 
getting in the way.
    Chairman Lieberman. That is great. Thank you. Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman.
    We have talked a lot about the DNI this afternoon. I want 
to get your assessment of the National Counterterrorism Center. 
I remember when President Bush, by Executive Order, created 
what was then called TTIC. It was the predecessor agency of 
NCTC, and I visited--I believe that Senator Lieberman was with 
me. I visited TTIC and I remember being struck by how young the 
analysts were and got the distinct impression that agencies 
sent over their least experienced analysts to the TTIC. By 
contrast, when we visited NCTC, the analysts seemed to be far 
more experienced, and there seemed to be competition to be 
assigned to the NCTC. Totally different.
    But that is my observation as a Senator. I would like to 
hear your views of NCTC. Has it been effective? Where does it 
need to go? And I will start with you, Mr. Gannon.
    Mr. Gannon. I think NCTC has been effective. I think it has 
grown from strength to strength. I think it is much better 
today than it was 2 or 3 years ago. I think it is doing a 
commendable job of integrating foreign and domestic 
intelligence and producing analysis for a much broader, really 
nationally based customer set.
    One issue which I think needs to be addressed by 
leadership--and I think it is a leadership issue--is the 
tension between NCTC and the CTC at CIA. I was actually around 
in 1986 when we created CTC. CTC and NCTC have different, 
equally valuable missions, and I do not think it is that 
difficult to appreciate. They need to support one another, but 
CTC is geared toward support for operations in the field, while 
NCTC has a mission to integrate foreign and domestic 
intelligence for the U.S. Government as a whole. It is not an 
intelligence collection or operations organization. Its primary 
role is analalytical.
    I think what has happened is that the CTC in the Washington 
domain is getting less recognition, less respect. I believe it 
deserves a tremendous amount of credit for what it has been 
able to do in providing analytic support to operations. I think 
the reputation it has in the field, if you talk to special 
operations people, for example, is very powerful. I do not 
think it has ever done better than it is doing now. So why 
would we want to see that organization in any way diminished 
because we have created a NCTC? I think you can have both of 
them and be glad for it.
    The rap against the CTC has been that it provides analysis 
in support of operations; it provides less direct support to 
the Washington community. Now we have the NCTC that can do that 
and does it well. NCTC has the responsibility that CTC does not 
have to do the integration of foreign and domestic 
intelligence. There has to be appreciation in the White House 
and in the Congress that there are distinct missions here, that 
both these organizations do well and their people have to be 
given credit for what they do. And my perception is that CTC is 
not getting the credit in the Washington environment that I 
think it deserves.
    Senator Collins. Thank you. General Hayden.
    General Hayden. Very briefly, I agree with everything that 
Mr. Gannon just said. I was asked this question in both the DNI 
role, Deputy, and head of CIA. What is the division of labor 
between the two? And one thought that is quickly tossed out but 
it is wrong is strategic and tactical. It is not. And what I am 
going to tell you now is not perfect. It is blurry. But I think 
as Mr. Gannon suggested, that is OK. It is a bit offense and 
defense. You turn to the NCTC first to deal with threats to the 
homeland and what needs to be done about it; hence, the more 
powerful blending of foreign and domestic intelligence and law 
enforcement.
    The CTC has its center of gravity on the offense. We are 
going after these people. We need to know where they are. And 
so I think we are blessed to have both. We are lucky to live in 
a Nation that has the resources that it can afford a little--I 
will call it ``redundancy,'' not duplication, or competitive 
analysis. But, fundamentally, they are different and they are 
focused on different things.
    Senator Collins. Thank you. Representative Harman.
    Ms. Harman. The Terrorist Threat Integration Center--yes, I 
know.
    Senator Collins. You remembered.
    Ms. Harman. I remembered. It was set up by President Bush I 
think out of frustration that the intelligence function of the 
Department of Homeland Security was taking so long to be 
established. And I think TTIC, which has now become the 
National Counterterrorism Center under our 2004 law, has served 
us extremely well. I understand this point, but I think our big 
threat now is attacks to our homeland, and the piece of this we 
need to nurture--and, in fact, it is doing well--is the NCTC.
    It is very ably led by Mike Leiter, who is a holdover from 
the Bush Administration, a very good call by President Obama to 
keep him there, and it along with something called the ITACG--
it is a group of police and first responders who come to 
Washington for a year and work at the NCTC--is preparing good 
product for local law enforcement so they know what to look for 
and what to do. NCTC plays an indispensable role in that 
regard.
    The other point I would make is that after the 
Abdulmutallab plot was finally foiled--that was not a great 
moment for our intelligence community--Mike Leiter set up 
something called ``pursuit teams.'' He discovered that there 
was no one in the U.S. intelligence community who had sole 
responsibility for detecting and piecing together disparate 
threat information. Talk about offense-defense. That is an 
offense we absolutely need in order to protect our homeland, 
and NCTC provides that. So I think we have room for both of 
these things.
    I think the weak actor in this picture is still the 
intelligence and analysis function at the Department of 
Homeland Security. In the Bush Administration, Charlie Allen 
had that job, and he was the legendary CIA Director of 
Operations who built, in my view, a kind of mini-CIA at DHS. I 
am not sure we needed it there, but I surely think we need more 
than what we now have there. In fact, it is kind of telling 
that Rand Beers, who is not the Director of I&A but is an Under 
Secretary of Homeland Security, has the portfolio for 
counterterrorism at the Department of Homeland Security, not 
the Director of Intelligence and Analysis.
    Senator Collins. Thank you.
    Is there any recommendation that you would like to make to 
us as we look to revise, if necessary, the 2004 Intelligence 
Reform Act? Mr. Gannon.
    Mr. Gannon. Well, I think we are in a period of transition 
in the leadership in the intelligence community, and this would 
be a great time, I think, to take a step back and talk with 
people who have been or still are in the saddle. Robert Gates 
is leaving. There is nobody who has more knowledge and more 
desire to make things work. He knows both the intelligence and 
defense communities intimately. I think Jim Clapper is a man 
who works very hard to collaborate work with others. I cannot 
imagine having a better DNI for the times we are in.
    So I'd suggest that you bring some of the folks who are 
leaving, have left, or are still in office, to talk about how 
best to proceed from where we are. Mr. Hayden is an example. 
Let us admit that we have the need to make the DNI position 
work. Let us recognize that we have a terrific guy in Jim 
Clapper and a very capable set of leaders today across the 
intelligence community. They all can help to drive us forward 
in a constructive direction.
    Senator Collins. Good idea. Thank you. General Hayden.
    General Hayden. I would be receptive to whatever the DNI 
brought you when he needs changes in law to go where he has to 
go. I do not think they will be numerous, but when they come, I 
think you can bet he needs them to get from here to there.
    But to echo what has been said at the table before, it is a 
lot more dependent on the individuals and taking full advantage 
of the law, and those informal structures that get so much done 
in such a complex kind of organization. And so I would keep a 
close watch on that, and if you do end up with, for want of a 
better word, pathologies in terms of process or personalities, 
then there is not enough history and there is not enough 
structure to overcome that. And, therefore, that is a danger 
sign of which we need to be aware.
    Senator Collins. Thank you. Representative Harman.
    Ms. Harman. I think the law is a good law, and it is 
working, and the people in the top positions are excellent. And 
we had an enormous success last week, and we have had other 
substantial successes over the last several years. We are 
getting better and better at this, building on the record of 
three administrations. The pursuit of Osama bin Laden started 
under the Clinton Administration when he was indicted, and a 
unit at the CIA was set up to pursue him. We did not get very 
far with that. The then-National Security Advisor's hair was on 
fire, but, alas, we did not get the job done. And through the 
Bush Administration and now the Obama Administration, with 
success of congresses, we are doing better. So I would kind of 
say that is in good shape.
    A piece of the law that has never really been implemented 
is the formation of a robust Privacy and Civil Liberties Board. 
I know both of you have written letters. In my last job I wrote 
letters. Two people at the top have now been designated by this 
Administration, but I do not think the board is filled out, and 
I am quite sure it does not function. And why does this matter? 
It is not just to check a box so the civil liberties community, 
which is a robust community, and should be, is happy. It is to 
make certain that there is full vetting of policies that affect 
our U.S. Constitution and the implementation of the FISA 
amendments that we all worked so hard on and the implementation 
of the Patriot Act, and perhaps new policies to deal with 
something I know you are both worried about, which is our 
vulnerability to cyber attacks.
    We want a group of knowledgeable people to screen these 
things and then to persuade an anxious public that the policies 
are a good idea. I was told today that the Patriot Act 
extension may be in trouble on the Hill in both parties because 
people do not understand why we need it. I think they would 
understand that better if there were a bipartisan Privacy and 
Civil Liberties Board to explain this.
    And the final point is that our vulnerability in the near-
term future is to our homeland, and that is why the NCTC 
matters, and that is why vertical information sharing matters. 
We have to think very carefully about the domestic intelligence 
space and how we are going to move forward and make sure that 
we do not trade off liberty for security. I do not think that 
is a zero sum game. I think we will either have both or we will 
have neither. And getting from here to there will depend on the 
watchdog that the three of us plus Pete Hoekstra insisted be in 
the 2004 law that has not yet been fully operational.
    Senator Collins. Thank you all. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    Just one more item that I want to take up with you while we 
have you here. My impression from the testimony, at least of 
Representative Harman and Mr. Gannon--using a term, General 
Hayden, that you used, ``unity of effort''--is that we do not 
have the unity of effort regarding domestic intelligence that 
we have regarding foreign intelligence.
    I know, Representative Harman, you have been critical--or 
you said Intelligence and Analysis at the Department of 
Homeland Security is not where it should be. I agree. I think 
Secretary Janet Napolitano is working on that, and they are 
getting better. But I wanted to invite any of you--and we will 
start with Mr. Gannon because you made this point. What is the 
problem in terms of unity of effort? You were not criticizing 
the FBI. You were admiring the improvements they have made in 
their counterterrorism. But what do we need to do? And does the 
DNI need additional authority or, again, is this one of those 
areas, as you said before, that the DNI, looking across the 
community, maybe this is an area that the DNI with the 
authority he has now ought to focus in on to make sure it works 
better?
    Mr. Gannon. I will make several points. I think you are 
dealing in the domestic arena with, frankly, new agencies, like 
the Department of Homeland Security. If you compare it to the 
Department of Defense or CIA, they have years of working on the 
foreign intelligence side and developing capabilities that are 
quite extraordinary. We do not have those capabilities 
domestically.
    On the FBI, I would actually have some criticism for where 
the Bureau is today. But I would also say that we 
underestimated the difficulty of transforming a law enforcement 
agency into an intelligence agency. If I had been at the CIA 
and they told me to transform it into a law enforcement agency, 
I would have been horrified. So I think we had to expect it was 
going to take some time.
    And then some of the constituent agencies of the Department 
of Homeland Security, they are doing their own thing, but they 
are also dealing with new missions. There is a lot of overlap 
in the perceived missions of domestic agencies. But I would 
also say that we have fragmented congressional jurisdiction 
that I think has been a real problem. There is not what I would 
call the ``adult supervision'' needed to encourage all these 
agencies to develop a common strategy, to establish clear roles 
and responsibilities, and then to measure their progress 
against the strategy.
    Chairman Lieberman. The adult supervision from Congress.
    Mr. Gannon. Yes.
    Chairman Lieberman. Yes. You are not calling us childish, 
are you? No, I know what you mean.
    Mr. Gannon. I was not talking about you.
    Chairman Lieberman. I know. [Laughter.]
    This is the most significant failure that we had in working 
to adopt the recommendations of the 9/11 Commission. We were 
really pretty good at reforming the Executive Branch, but when 
it came to reforming Congress, it just did not work.
    Mr. Gannon. On the national side, you have the CIA with 
years of practice with counterterrorism to bring forces 
together. You have JSOC now in the field, which really has 
become a focal point for driving intelligence collection and 
anlayses. There is no comparable gravitational pull on the 
domestic agencies to work collaboratively.
    Chairman Lieberman. Right, and as you said in your 
testimony, there is nothing like that.
    Mr. Gannon. You do not have any counterpart on the domestic 
side, and a lot of what is being done, including with the FBI, 
is a work in progress. I do not see an agressive or effective 
approach on the part of the Congress to really put quality 
measurement on what is going on.
    Chairman Lieberman. So what should be done about this? 
General Hayden.
    General Hayden. Well, first of all, let me just say I agree 
totally with everything that Mr. Gannon has just described. It 
is not bad people or lack of effort. This is very hard for us 
to do because we have not done it historically.
    Chairman Lieberman. Right.
    General Hayden. I recall your legislation sets up the FBI 
to be, in essence, a domestic intelligence service.
    Chairman Lieberman. Correct.
    General Hayden. And everyone says that is great in 2004, 
and in late 2008, Attorney General Michael Mukasey finally 
issues the FBI guidelines with regard to working the spaces 
between cases as a domestic intelligence service, and you saw 
how well that fit inside the popular political culture. It just 
unleashed a firestorm of criticism. So this is hard because we 
have not done it before and our political culture has a bit of 
a rejection for it.
    It brings us to the point that Congresswoman Harman brought 
up. You make people feel better if you have those mechanisms in 
place and working. You give a comfort level that this is being 
overseen as well.
    I guess to reinforce it, this is a very important if not 
the most important area of focus. The new flavor of threat--
homegrown, low threshold, self-radicalized, individual--puts a 
lot more weight on domestic as opposed to foreign and a lot 
more weight on law enforcement derived as opposed to 
intelligence derived. And if we do not begin to perfect our 
processes and organizations there, something bad will happen, 
and we will overreact and perhaps make it even worse.
    Chairman Lieberman. Yes. Well said.
    Go ahead, Representative Harman. I was going to ask you if 
you agree with what has been said and, if you do, whether this 
is a matter of trying to give new authority again to the DNI or 
just urging the DNI to focus in on domestic intelligence as one 
of the weaker links in our chain.
    Ms. Harman. I think the DNI has adequate authority. I think 
we need to have--and this is something you can do--a public 
debate about how to do this, not whether to do this. I think 
most people get it that the risk of homegrown terror is great. 
Maybe the harm from homegrown terror will not be as great as 
two towers in New York falling down and killing 3,000 people, 
but it is certainly possible--we all know this--that nuclear or 
radiological materials not only can be smuggled into this 
country, but certainly the radiological materials are already 
here and could be assembled into a dirty bomb, or several, and 
harm a lot of folks.
    But my point is that we need public buy-in. It is not just 
making people feel better, Mr. Hayden. At least that is my 
view. It is making them agree that our Constitution will be 
respected, and it must be; otherwise, the underpinnings of our 
country are gone, and we turn into something else, which I 
surely do not want us to do.
    We have not yet had a robust public debate about a 
comprehensive framework, new security framework in a post-9/11 
world. We have done it episodically. We amended the Patriot 
Act, which I supported. We did FISA amendments. We did surely 
intelligence reform. But we have not thought through how all 
the pieces fit together, and I do not know that we would agree, 
and I do not know that this is the best time for Congress to do 
this since there is an excess amount of partisanship in 
Congress at the moment. But if ever there was a time to give 
this Committee adequate jurisdiction to hold that debate and do 
broader legislation, not just moving boxes around for the DNI 
but really thinking about in a new world with 21st Century 
threats how should Americans living our values deal with 
detention, interrogation, and investigation of Americans on 
American soil; racial profiling or other activities that are 
anathema to some people; and how should we do this 
comprehensively. I think this is the time, and this is a huge 
service you could perform. I think the hearings you are holding 
right now are very helpful, and I am very happy to participate 
in one.
    But I would urge the Congress to play its role as a co-
equal branch of government--Congress writes the laws--and to 
thoroughly assess what is the right way with public buy-in to 
fill this domestic intelligence space.
    Chairman Lieberman. Thank you. That is an interesting place 
for us to come, but it does point to a kind of top of what 
needs to be done next, and it does relate, as you all have 
said, to the unique threat, which is to say we did not have 
homegrown domestic terrorism in our mind when we adopted the 
2004 act. It now becomes a very significant part of the threat 
that we face, and we are trying to do this in ways that are 
different, as you all said.
    For instance, DHS is trying to interact with State and 
local law enforcement, literally hundreds of thousands of 
people. I mean, they are obviously interacting with the 
leadership, but it is potentially a mighty force of gatherers 
of intelligence if you can do this well. And we are still 
feeling our way.
    I do not have any more questions. Senator Collins, do you?
    Senator Collins. No. Thank you.
    Chairman Lieberman. I want to thank the three of you. It 
has been a very valuable session for us. You have really 
brought to bear the quite remarkable and long experience that 
you have all had, and we are going to continue these hearings 
and then step back and decide whether we think there is any 
legislation to propose in this session of Congress to better 
achieve the purposes for which the original legislation was 
adopted or whether this is a matter where we ought to just 
agree on a report or even--in part public and in part maybe 
just to meet with some of the key players and say we have taken 
a look at this, and here is what we really think based on our 
inquiry you ought to be focused on now. It does not require a 
new law, but it does require attention and coordination.
    With that, I thank you. The record of the hearing will stay 
open for 15 days for any additional questions and statements.
    The hearing is adjourned.
    [Whereupon, at 4:15 p.m., the Committee was adjourned.]


     TEN YEARS AFTER 9/11: IS INTELLIGENCE REFORM WORKING? PART II

                              ----------                              


                         THURSDAY, MAY 19, 2011

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:33 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Carper, Collins, and Brown.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
afternoon. This is our second hearing on the topic ``Ten Years 
After 9/11: Is Intelligence Reform Working?'' This is part of a 
continuing series of hearings that our Committee is convening 
this year on how well the security reforms enacted after 9/11 
have protected our homeland, obviously with an eye on the 10th 
anniversary of 9/11 coming up.
    During our hearing last week, we explored a variety of 
issues related to intelligence reform. This hearing is really 
going to focus on a single big question, but with a lot of sub-
questions, and that is, does the Director of National 
Intelligence have the authority needed to lead our sprawling 
intelligence community as we want it to be led?
    We are very honored to have with us as our sole witness 
today the immediate past Director of National Intelligence, 
Admiral Dennis Blair.
    Admiral Blair is an extraordinarily talented and dedicated 
public servant who has had an exemplary career as a senior 
military commander and, of course, as a continuing consumer of 
intelligence before he overtook its production in one of 
Washington's, I would say, most challenging jobs--the Director 
of National Intelligence. Therefore, he is uniquely qualified 
to help us answer the questions we have about how the DNI has 
performed, and his willingness to testify I think is in keeping 
with Admiral Blair's lifetime of service to our country. So I 
thank you for being here today.
    This Committee created the DNI as part of the Intelligence 
Reform and Terrorism Prevention Act of 2004 at the 
recommendation of the 9/11 Commission, which concluded that 
basically no one was in charge of the U.S. intelligence 
community, and that this lack of leadership resulted in 
dysfunction and disunity that left us vulnerable to the attacks 
that occurred on 9/11.
    The nature of the threat has changed certainly from the 
post-Second World War period and the Cold War, and even since 
9/11 with the dispersion, in a way the metastasizing of the 
Islamist terrorist movement and also the development, for 
instance, of a very serious cyber threat to our security.
    In the midst of all that, our intention was that the DNI 
would bring the necessary unity of command and effort to our 16 
intelligence agencies.
    So we come together today to ask: On a day-to-day basis, 
does the DNI have the authorities needed to lead the 
intelligence community effectively? Does the DNI have the 
ability to forge the unity of effort across the community and 
achieve the level of integration that is necessary to meet the 
range of security challenges that our Nation faces and the 
range of needs for intelligence that various people in our 
government have?
    These are the overarching questions that I hope we will 
have the opportunity to pose to Admiral Blair today.
    With that, I am going to put the rest of my opening 
statement in the record \1\ and call on Senator Collins.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Lieberman appears in the 
Appendix on page 412.
---------------------------------------------------------------------------

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    The operation that tracked and killed Osama bin Laden 
demonstrates the kind of successful collaboration between our 
intelligence and operational capacities that we envisioned when 
we reformed our intelligence community in the wake of the 
attacks on our country on 9/11.
    This was undoubtedly a great victory for our intelligence 
efforts and a great blow to al-Qaeda. But the fact remains that 
al-Qaeda and other terrorist threats are not going away.
    That is why it is time for Congress to examine and build 
upon the successes since the Intelligence Reform and Terrorism 
Prevention Act was passed. That bill created the Director of 
National Intelligence. It is an opportune time to identify any 
shortcomings in that structure and work to correct them.
    I look forward to hearing from Admiral Blair about what 
worked during his tenure as DNI, what did not work, and what 
might be changed about the structure that we designed 7 years 
ago.
    I would note with great pride that Admiral Blair is a 
fellow Mainer--hailing from Kittery, Maine, the home of the 
Portsmouth Naval Shipyard. So either coming from a great Navy 
town or following five generations of naval officers perhaps 
preordained his career. We all hope that he has what we call a 
great Navy Day here as we hear from him about his experiences 
as the DNI as well as his recommendations now with the benefit 
of actual experience and 20/20 hindsight.
    Almost 10 years since September 11, 2001, and 7 years since 
our landmark legislation, we are safer as a Nation but not yet 
safe. Our intelligence community is stronger and more effective 
than ever before, but plenty of turf battles remain. During his 
tenure Admiral Blair was at the center of some unusually public 
disputes with the CIA.
    To help address lingering deficiencies in the intelligence 
community, the DNI must be the ``quarterback'' that the 9/11 
Commission envisioned and that we intended. At last week's 
hearing, General Hayden preferred the term ``coach.'' I will be 
interested to hear whether or not Admiral Blair believes the 
DNI has been empowered to fill this critical role, regardless 
of what you call it.
    At the first hearing in this series, the leaders of the 9/
11 Commission, Governor Thomas Kean and Representative Lee 
Hamilton, agreed that presidential adviser John Brennan is, in 
many respects, performing the role that we envisioned for the 
DNI when we authored the law; that troubles me, not due to any 
doubts about Mr. Brennan's capabilities, but because that 
choice, that structure undermines the statutory role of the 
DNI.
    We must ask, therefore, the fundamental question: Are 
changes in the law required in order to realize the potential 
of the DNI? Or is this simply a matter of more fidelity to the 
2004 law?
    Admiral Blair, thank you for being here today, and I look 
forward to hearing your testimony.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Admiral Blair, it is all yours. Thanks for being here.

   TESTIMONY OF HON. DENNIS C. BLAIR,\1\ FORMER DIRECTOR OF 
                     NATIONAL INTELLIGENCE

    Admiral Blair. Mr. Chairman and Senator Collins, thank you 
for inviting me here today. It is common to improve the 
effectiveness of government after some disaster or crisis, and, 
in fact, the Intelligence Reform and Terrorist Prevention Act 
of 2004 was born of 9/11, as you mentioned, Mr. Chairman. But I 
think that reform in the wake of success also has a history. 
Those who led the great victory of World War II knew that there 
were major improvements to be made in the national security 
organizations, and when the parades were over, they passed bold 
legislation to make the country safer.
---------------------------------------------------------------------------
    \1\ The prepared statement of Admiral Blair appears in the Appendix 
on page 416.
---------------------------------------------------------------------------
    So as we celebrate the brave, dogged, and brilliant work of 
those who found and attacked Osama bin Laden in his hideout, I 
believe that now is a similar time for bold laws to make this 
Nation's intelligence enterprise even more effective than it 
is.
    And as I look to our future national security challenges 
and opportunities, I am absolutely convinced that we need an 
intelligence community that operates under authorities that are 
relevant to the future, not to the past, an intelligence 
community that is organized on a rational basis, and an 
intelligence community that is integrated under a strong and 
competent Director of National Intelligence.
    I left the Administration a year ago frustrated with the 
lack of support for a strong DNI, but I was reluctant to appear 
publicly before this Committee where my comments could perhaps 
be miscast as sour grapes from the loser in some petty 
bureaucratic squabble. But I believe that the imperative of an 
integrated, effective intelligence community should transcend 
policy and politics and personalities. The country needs and 
deserves legislation that will establish the best intelligence 
capability possible, independent of officials and 
Administrations as they come and go. So let me use the rest of 
my introductory time to highlight the improvements that I 
believe are still needed.
    The objective is to make the structure of the intelligence 
community worthy of its people, whether in the CIA, NSA, NGA, 
FBI, DEA, DIA, the service intelligence organizations, along 
with the other seven intelligence elements of our government. 
These heroes, these people who are in those organizations, are 
every bit as dedicated, patriotic, and skilled as the members 
of the armed forces and first responders whose heroism inspires 
us and makes us proud. We owe them integrated leadership. So 
let me run down areas where I think we can do more.
    First, organization. Right now the Department of Defense 
and the intelligence community conduct operations together 
under separate authorities--Title 10 and Title 50. To be 
effective against dangerous, elusive, and quickly adversaries 
like al-Qaeda, drug cartels, outlaw States, a new title is 
needed authorizing joint interagency task forces that can bring 
to bear all the capabilities of both organizations under 
unified direction. We need a Title 60.
    Right now the structure of the Central Intelligence Agency, 
one of the most important of the agencies, is a kludge of one 
organization that collects human intelligence and conducts 
covert operations and another organization that provides all 
sorts of intelligence analysis, of which the greatest 
proportion is, in fact, provided by the NSA, a different 
agency. But the skills, procedures, competencies, and cultures 
of these two sub-organizations are very different, and their 
collocation yields little synergy and has major disadvantages.
    I recommend that the CIA be broken into an all-source 
analytical agency and a national clandestine service, each led 
by a career professional with a fixed term, each reporting 
separately to the Director of National Intelligence, and I 
recommend that some elements of the Defense Intelligence Agency 
performing all-source analysis on the one hand, human 
intelligence on the other hand, be added to those two new 
agencies.
    Moving to authorities, current legislation and 
constitutional precedents have little application to the 
Information Age, and the efforts that I observe to adopt them 
have been completely unsuccessful. The National Security Agency 
has the world's best ability to provide protection for the 
country's Internet domains, yet it is not securing the 
important dot-gov domain, which your computers use here in the 
Congress, and the vital infrastructure, the dot-com domain.
    An official responsible for cyber defense should be dual-
hatted, reporting to both the Secretary of Homeland Security 
and the Director of NSA with the responsibility for bringing 
NSA's capabilities to bear to protect these vital systems.
    Right now there is no legislation that clearly authorizes 
offensive cyber operations by the United States against enemies 
that use the Internet to threaten American lives and property. 
Extremist Web sites incite violence, provide practical bomb-
making advice. International drug cartels use the Internet to 
arrange deliveries of drugs and to purchase weapons. Foreign 
outlaw nations are making cyber plans that threaten vital 
interests. Yet because often these threats are carried out on 
American Internet servers or because there is a possibility of 
collateral damage from attack or because a hostile actor and 
illegal action has not yet occurred, the United States has no 
basis in current law for the sort of quick, effective action 
that we need against these threats. The country needs such 
legislation. It should include limitations related to the 
proportionality of what is being done, related to avoiding 
collateral damage. It needs oversight mechanisms in both the 
Executive and the Legislative Branches. But it must provide a 
basis for action commensurate with the threat.
    And, third, the authority of the DNI within the 
intelligence community. The intent of IRTPA was clear, and you 
have both stated it. I believe it was correct. The intelligence 
community needs a leader, an integrator not a coordinator. The 
intelligence community does not self-synchronize. Few 
organizations do. We learned that on 9/11. The White House has 
neither the staff nor the time to lead it, and it often 
approves misguided schemes, as this country has learned to its 
sorrow in past instances.
    The authority that the Congress intended for the DNI to 
exercise is not now intact. Currently, a portion of it has 
migrated back to the Director of CIA on the one hand and some 
to the National Security Council staff on the other hand. The 
result is a confusion of responsibilities, bureaucratic 
fiction, but, more important, potential gaps in intelligence 
that our adversaries can exploit.
    There are several legislative changes that I believe can 
strengthen the authority and the accountability of the DNI.
    First, personnel. In addition to naming or concurring with 
the appointments of the heads of the intelligence elements 
currently provided in IRTPA, the DNI should approve the 
appointments of second- and third-level officials within the 
intelligence elements. This authority will ensure that 
community-minded officers occupy the important posts where much 
of the real work of intelligence is done.
    Second, budget. The DNI's budget authorities in practice 
are strong in future budget years but relatively weak in the 
current fiscal year. He or she should have the authority to 
initiate reprogramming of funding from agency budgets to urgent 
and emerging unexpected objectives, for example, network 
security against new threats, or simply to higher-priority 
objectives or simply to programs that are not making the 
progress they should.
    So, in conclusion, Mr. Chairman and Ranking Member Senator 
Collins, the success against Osama bin Laden should not cause 
us to rest on our laurels. We are a long way from an integrated 
intelligence community smoothly interacting with the Department 
of Defense, the Department of Homeland Security, with 
integration being driven by a strong DNI and a competent staff, 
and I believe congressional action is indispensable to this 
goal.
    The reform of our intelligence community is an unfinished, 
vital piece of business. I find it reassuring that you see fit 
to keep this challenge alive and take seriously the progress we 
need to make, and I am happy to answer your questions.
    Chairman Lieberman. Thank you very much, Admiral. I 
appreciate what you said at the beginning, but honestly, no one 
listening to your statement or reading it could think you were 
here out of some sort of personal pique. The fact is we asked 
you, and the second is, listening to your statement, it is 
totally substantive, and truly it is exactly why we asked you 
because you are part of a very small group of people who have 
actually been the DNI. So you have that perspective, and 
obviously you bring to it everything else you have done in your 
career.
    We are going to do 7-minute rounds of questions.
    Let me ask you this question to begin with. It touches 
somewhat on something Senator Collins said. In the testimony 
last week, I was fascinated that at different points our 
witnesses--who were Jane Harman, General Hayden, and John 
Gannon--suggested that it may be as critical to accepting the 
goal of the strength and legitimacy of the DNI for there to be 
adequate support from the President--and to a somewhat lesser 
extent Congress in a different way--as it is to add on to the 
statutory authorities of the DNI. And I wonder what you think 
about that. It may not be an either/or question, but give me 
your sense of how important the non-statutory recognition and 
authority given for the office is.
    Admiral Blair. Senator Lieberman, I would agree with that 
observation that active support from the White House and the 
Congress makes it a lot easier for a director to fill in the 
gaps of authority in legislation, and that would be a good 
thing. However, I do not think that is a reason for the 
Congress not to continue to strengthen the intelligence 
community integration in a way that I think IRTPA was designed 
to do because as I mentioned, Administrations and personalities 
come and go, but it seems to me it is the responsibility of the 
legislation to establish that structure right in accordance 
with what we have learned over time.
    I think what we have learned over time--and this is not the 
only time that the Congress has attempted to integrate related 
but not really cooperating agencies. The National Security 
legislation of 1947 which brought the services together based 
on the results of World War II, the Goldwater-Nichols Act of 
1986, the creation of the Department of Homeland Security--
these things are always difficult to bring in children who 
think they are happy into an orphanage. That does not always go 
easily. But it takes persistence, and it takes a dedication to 
believing that this is the right thing. And I think Congress 
has a role.
    Right now there are two models of an intelligence community 
that we have seen in the last 5 years. One is one in which the 
Director of National Intelligence is expected to be able to 
integrate the community and to be responsible for that; another 
in which that authority is sort of spread around among people, 
and the White House picks and chooses what it will use.
    I think right now we see the model going toward that second 
model, which the group that is in the Executive Branch now 
believes. I think the first model is more correct, and I think 
that is what the Congress intended, and we need to continue to 
push that. And I think that 5 years into the DNI we had that--
well, we are actually 6 years now. We are making good progress, 
and we need to continue to ring that out.
    Chairman Lieberman. Good. Let me talk about some of the 
authorities that the DNI has and how they might be expanded, 
and then later on I would like to come back to some of your 
very interesting suggestions.
    The 2004 legislation gave budget authority to the DNI, and 
that authority includes having the final say over the 
intelligence community budget that is presented to the 
President; also certain authorities called, as you know, budget 
allocation and apportionment authorities related to how the 
intelligence community spends its budget during the fiscal 
year.
    In your prepared testimony, you called for the DNI to have 
increased ``comptrollership'' authorities so that agencies 
under the DNI could not seek to circumvent the DNI on budget 
issues. I want to ask how strong the authorities that the DNI 
has had over the budget have been in practice, at least 
certainly during your period of time, and whether you think the 
DNI has fully utilized those authorities over both budget 
development for future fiscal years and resource transfers 
during a fiscal year.
    Admiral Blair. Yes, sir, Senator Lieberman. I think there 
are two important background points. Firt, is the last 10 years 
have been a time of rising budgets for the intelligence 
community just as they have been for the Department of Defense. 
So the tough budget trade-offs have generally been taken care 
of by putting more money on them rather than by 
reprioritization. I think those times are coming to an end, and 
we will see budgets that are flat and perhaps even decreasing, 
and that will make this central ability to make trade-offs even 
more important.
    The second item was that just due to the number of tasks 
that faced the DNI early on, there was not a strong staff 
support structure for budget trade-offs. The equivalent of my 
experience was in the Department of Defense, the Program 
Analysis and Evaluation Office, the strong Comptroller at the 
Office of the Secretary of Defense had not been established. 
Those were coming into maturity while I was DNI, and I spent a 
great deal of time trying to strengthen them.
    So I found that I finally, toward the end of my time, had 
the tools to use the budget authorities, and let me give you 
two examples of the kind of things I am talking about, because 
they came up during my final months in the job.
    I came back from a trip to Afghanistan horrified by the 
lack of language ability that we had among our deployed 
officers in that country. I will not give you the numbers, but 
the number of Pashtu and Dari speakers was smaller than I 
thought was safe.
    As you know, language ability was in IRTPA from the 
beginning, and the agencies have been chugging along--it was 
time to say, ``all right, now, and we are going to move the 
money in, we are going to make it happen.'' That is the thing 
that I am talking about where well-meaning agencies were making 
their own priorities, that sort of allowed a national priority 
to drift down, and you needed to be able to punch it.
    Chairman Lieberman. Were you able to do that at that point 
with the authorities you have?
    Admiral Blair. At that point, we had the ``Come to mother'' 
conversation, and I was going to give them one more chance to 
do it themselves before I did it, and then I left. So that is 
where it stood.
    Chairman Lieberman. But you felt that you had the authority 
to carry that out if you needed it.
    Admiral Blair. I was going to find out. [Laughter.]
    That would have been the first one.
    Chairman Lieberman. Well, you were right, of course.
    Admiral Blair. And, I mean, the usual thing that I saw was 
what happened after the Detroit bombing in December 2009 by 
Umar Farouk Abdulmutallab. We had obvious problems in the 
search engines that were available to counterintelligence 
analyst that required banks of computers, different skills on 
different systems. And as you saw from the final reports, we 
missed some of those, and part of it was due to an analyst not 
being able to hit just one click to make a query and have the 
answer come back. It required a lot of skill, which busy people 
often do not have everything they need. What happened is we 
received more money to fix that problem, and my job was only to 
spread it out.
    Now, there were fairly decent battles on how to spread it 
out, and, each agency said, ``I am the one who ought to get the 
lion's share, and I do the work,'' and so on. But those are 
different problems from going in and carving it out and putting 
it on the thing, which is what I was talking about in terms of 
real comptrollership in which I was used to the Secretary of 
Defense's Comptroller being able to do routinely in the year of 
execution. So that is really what I am talking about in a 
sense.
    Chairman Lieberman. Understood. Well said. My time is up. 
Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Admiral Blair, you were just talking about Abdulmutallab 
and some of the problems that were exposed by that intelligence 
failure. I am curious. Were you consulted by the Attorney 
General on the decision to charge Abdulmutallab as if he were a 
criminal suspect?
    Admiral Blair. I was not consulted on that particular 
decision, Senator Collins, nor do I think I would have had much 
to add. I think the key role that the Director of National 
Intelligence plays is during the questioning phase of a suspect 
once apprehended or arrested. How much do we lean on 
intelligence gathering and how much do we lean on gathering 
material for prosecution which involves sort of a different set 
of protocols? And the most famous one that everybody talks 
about is the reading of Miranda rights and the provision of a 
lawyer and so on.
    On Abdulmutallab, I was not consulted on that either. As 
you all know from the hearing that we held here, that set of 
decisions was made by the agents at the scene, and it was not 
really supervised, and we did not have the High-Value 
Interrogation Group stood up well enough to be able to take 
that. But I believe strongly that is the point at which the 
Director of National Intelligence or his representative should 
make an input, and the goal is to be able to do both so that 
the Attorney General can make a decision: Military tribunal, 
Federal court, or nothing.
    If you have to make a trade-off, that is when you need to 
say, we are drilling ahead to get intelligence information, and 
we are going to back off on perhaps gathering evidence. And I 
think that is what I should be involved in.
    Senator Collins. I realize that we had gone through that 
issue before, but the reason that I brought it up again is I 
want to lay the predicate for my next question, which is: What 
is the role of the DNI when a terrorist suspect is apprehended? 
It seems to me that one of the first calls, if it is a surprise 
apprehension, should be to the DNI so that a search can be done 
immediately of all databases so that intelligence analysts and 
the HIG--which is now, I believe, set up--could be flown out to 
wherever they need to go. But I want to hear from you more what 
you see as the role. You were starting to get into that. I was 
not trying to relive who told what but, rather, for those who 
were not around when we explored that before, I wanted to lay 
the predicate.
    Admiral Blair. Yes, ma'am. The theme you will see 
throughout all of my testimony and my thinking that I have 
become passionately to believe is that we need to be able to 
quickly bring together the skills of anybody in government and 
many from outside of government who can apply their skill to 
it.
    So let us say that we on a surprise apprehend a member of 
al-Qaeda in the Arabian Peninsula. We should be able to get the 
best intelligence Yemen analysts, the best counterterrorist 
analysts and at the same time the best FBI interrogators, the 
best people in the FBI who have been working terrorism. There 
should be a structured process that they have a quick 
conversation. The different equities and the different 
approaches are laid out on the table. We have a decisionmaking 
process so that a call can be made in terms of that balance. 
And then under tremendous time pressures--minutes, hours at the 
most--the people on the scene go ahead and proceed in 
accordance with that guidance. And you have to have practiced 
it some first. These people cannot meet each other the first 
time when it is a real situation. And it is really setting up 
those procedures that can do it.
    My experience is that we have such good people across the 
board in law enforcement and the intelligence community that 
with general guidance from the top they can do the job 
perfectly. But there are certain key questions, and you hit a 
real one, the balance between gathering evidence and gathering 
intelligence, that need to be made at the top when there is a 
conflict. And I think in the case of Abdulmutallab, I think we 
had all the evidence that this guy had a bomb, tried to blow it 
up, which is all we needed. We did not need a lot of self-
incrimination in that category, and probably we should have 
leaned harder on intelligence throughout than we did, because 
we pretty much had a Federal conviction, I thought.
    So that is the kind of decision you need to make, and you 
need quick, practiced procedures to do it.
    Senator Collins. As I look at the DNI or, indeed, any 
position in Washington, there are really three levels of power: 
First is access to the President; second is authority over 
personnel; and third is control over the budget. And I would 
like to talk about those issues with you, starting with the 
personnel issue.
    Part of our concept was to try to have a Goldwater-Nichols-
like joint approach to service in the intelligence community, 
and I am sure it took the military an awful long time to 
embrace that. But now, at least from my outside perspective, 
the military really has largely embraced jointness.
    Where are we in the intelligence community as far as having 
that kind of joint approach where personnel is shared among 
agencies and where your ability to advance in your career in 
the intelligence community depends on joint service?
    Admiral Blair. Senator, I think your provisions of the 
IRTPA to that end were exactly right, and I think they are 
biting within the intelligence community. They are having 
effect. If I try to compare it to 5 years into the Goldwater-
Nichols Act, I would say it is sort of comparable in terms of 
the effect it is having. And it will take more time, but two 
trends really encourage me.
    First is, as I talk to people, the younger they are, the 
more they get it. Half of the heroes in the intelligence 
community joined after 9/11 for the right reasons, and they are 
naturally more prone to sharing. They do not carry all that 
baggage of bureaucratic prerogatives and all that we all grew 
up with, the past bureaucratic wars that we all thought were so 
important and which actually did not help the country much. And 
so as they age up and get into the jobs, I think the trends are 
good.
    The second one is that in the field--and you all have taken 
many visits out there. You walk into an intelligence center in 
Afghanistan, in Iraq, in just about any place in the world, you 
find people from NGA, NSA, CIA, and the armed forces in there 
working. If somebody has a piece of information, he is expected 
to contribute. So they are growing up in this atmosphere, and, 
again, as they bring that back stateside, all we have to do, I 
think, is provide them a modicum of structure so that you are 
not rewarded for bad behavior. You do not have to forget all 
that stuff you learned in the field. You ought to bring it back 
and use it, and it will take over.
    So I think we are headed in the right direction, but like 
you I am impatient at the scale. I mean, I thought we decided 
this. Let us get on with it.
    I think the next generation, the generation that is right 
on the cusp of leadership within the agencies is going to be 
quite more joint-minded, and if we can get the structures 
right, they will fall into it. What you have to realize is that 
you can be proud of your own agency, you can say, ``I am a CIA 
person,'' but you also need this pride in the team. You also 
need this pride in everybody doing well and you do well, too. 
And I think when you have not experienced it, you think the 
pride is a fixed amount. You know, if somebody else gets some, 
it subtracts some from what you have. And I think we found in 
the Armed Forces that both pride and effectiveness go up 
exponentially when you can sort of get over the hump of that 
jointness and working together. And I think we are headed that 
way, but the suggestion I made of putting special attention on 
second- and third-level people I think is of a piece with that 
and would just help it along.
    Senator Collins. Thank you. I think your point about the 
generational change is absolutely right, and I think we are 
seeing that with the use of technology and networking and 
sharing of databases, too, because that is just what the next 
generation does naturally.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins. The other 
thing I would add is that I hope that particularly since 9/11 
people within the intelligence community understand that they 
can come under great public, including congressional, criticism 
if in a look back it appears that one or another part of the 
community--including the military, but particularly the IC we 
are talking about--was not playing on the team, and as a result 
the team suffered, and therefore, they will suffer a kind of 
rebuke that perhaps they would not have at an earlier time.
    Senator Brown, it is all yours.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. Thank you. I know the vote started, so I 
just have a couple of quick questions.
    General Hayden testified last week that the IC needs to 
find the critical balance between freedom of action for the 
parts and the unity of the effort for the whole. Is that 
balance achievable, do you think, given the current structure 
of the IC? And in what ways can the relationship between the 
DNI and the heads of the 16 intelligence agencies be improved 
or strengthened?
    Admiral Blair. Senator, freedom of action, and what was the 
other pole of that dilemma?
    Senator Brown. The freedom of action for the parts and the 
unity of the effort as a whole. Is that balance achievable?
    Admiral Blair. I think it is very much achievable, and what 
you find is in the best organizations that achieve that 
balance, people come in as an expert in their own field, but 
they are more than just sitting there waiting to say, well, if 
you want a piece of human intelligence, I will gather that for 
you. If you want a piece of signals intelligence, I will gather 
it for you. They come in with an attitude of being able to 
contribute what they can do, and based on their much better 
understanding of what other people's problems are and what the 
total mission is, how they can contribute in ways perhaps that 
are not traditional. And I have just seen that work time and 
time again. When you form these teams, you bring people into 
them with the attitude that everybody needs to contribute all 
they can and maybe more, and then magic happens in that 
interaction. I have seen it in terms of our teams in the 
intelligence community that can gather intelligence against 
very difficult targets by using our wondrous collection 
capabilities in new ways. I have seen it in action teams. I 
think one of the most poignant things I saw was I was off 
visiting one of our bases in a very dangerous part of the 
world, and a young CIA case officer told me a story that she 
had been on her way to a meeting in a restaurant with an asset 
to recruit. A complete other agency monitoring the situation 
had picked up a warning of danger. They had been able to get a 
phone call to her. She turned around, did not go to the 
restaurant, life saved, lesson learned. And it is that kind of 
teamwork in the field that I think becomes the norm when you 
create an atmosphere in which it is expected and it is valued.
    Senator Brown. Thank you. And I want to say thank you for 
your service, too, in your position. I wanted to just mention 
that first.
    I know General Hayden testified last week that the creation 
of the Under Secretary of Defense for Intelligence, undermined 
Congress' attempt to strengthen the DNI because Secretary of 
Defense Donald Rumsfeld delegated his authority, direction, and 
control of the major defense intelligence agencies to the USDI. 
Can you describe your relationship with Secretary of Defense 
Robert Gates and the USDI? And does the role of the USDI hinder 
the DNI's ability to exert his authority over the 
counteroperations or future directions of the entire IC?
    Admiral Blair. That was not my experience, Senator Brown. I 
thought that General James Clapper as Under Secretary of 
Defense for Intelligence, and I, as DNI, worked very well 
together, and if he were sitting here, I am very confident he 
would say the same thing.
    I know Senator Lieberman was involved in some of the angst 
from the Department when IRTPA was written. I found it largely 
to have dissipated by the time that I had the honor of being 
DNI.
    I think there are two important reasons for this. First is 
the really important security challenges we face these days 
have so much of the military aspect mixed up with the non-
military aspect--economic, social, others--that the idea that 
you can sort of hive off a military aspect of a problem and 
say, well, that is for the Pentagon, this other stuff is for 
CIA, INR, the civilian groups, is long gone.
    If you look at our big problems--Afghanistan, terrorism, 
Iraq--the military aspects and the non-military aspects are all 
together, and you have to use your intelligence capabilities, 
whether they be signals intelligence, which happens to be 
collocated in DOD, or geospatial intelligence, which is sort of 
a hybrid, to look at the whole question. So we are driving 
toward this unity by just the nature of the problem.
    Second, the officers or civilians in the case of Letitia 
Long, who is now the head of NGA, have grown up in this joint 
era that we were discussing earlier, and they understand the 
advantages of teamwork and the synergies that can come from 
that. I did not have any stronger teammates in community 
integration than Admiral Robert Murrett at NGA, General Keith 
Alexander at NSA, and General Ronald Burgess at DIA. That 
leadership was strong, and the USDI in my observation was part 
of the team, also.
    So I did not see that, and I know it was the historical 
fault line, but it seems to have been helped. And, of course, 
Secretary Gates having had some piece of my job previously had 
a good understanding, and that helps, too.
    Senator Brown. Great. Well, thank you, sir. I appreciate 
it.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Brown.
    Incidentally, for the record, General Clapper has said 
exactly the same thing to me about how good a working 
relationship he had with you. These are interesting comparisons 
because this is a case where I think the personalities that 
were in these positions under Secretary Rumsfeld and perhaps 
the Secretary himself were part of the problem, if I can call 
it that, and as you said, correctly, Secretary Gates comes to 
his position, after having spent most of his public service in 
the intelligence community. But you must have known General 
Clapper before, so you had knowledge of each other and just a 
willingness to work together, and you did to the Nation's 
benefit.
    So it is interesting, as I have told you before, I think, 
Admiral, that during the legislative battles on the 
Intelligence Reform and Terrorist Prevention Act of 2004, the 
toughest ones were with the Defense Department about the 
changes we were trying to bring about strengthening DNI. And 
yet in practice, the tensions between the DNI and the DOD have 
been much less than were reflected at the legislative 
negotiating table. Without being specific at this moment, I 
would say that it was the opposite for other components of the 
IC.
    So I really apologize for having to break the flow. The 
vote is going on on an important judicial nomination, so I am 
going to ask that we stand in recess, and I will be back as 
soon as I can to continue the questioning. Thank you.
    [Recess.]
    Chairman Lieberman. The hearing will reconvene again.
    Is that a new staff member? Oh, that is Senator Carper. 
[Laughter.]
    Senator Carper, I can proceed with a round of questions, or 
I can call on you first, if you would like. It is up to you.
    Senator Carper. You are very kind. I would like to.
    Chairman Lieberman. Go right ahead because I have had one 
round. Again, I apologize, Admiral, for having to leave to 
vote. But I look forward to asking you some more questions.
    Senator Carper, thanks very much for being here.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you. I do have a question. Welcome, 
Admiral. I am a retired Navy captain, so I salute you, in more 
ways than one.
    I understand that today's intelligence reform hearing is 
focusing on whether the intelligence community is operating 
better, and if this question has already been asked, I 
apologize, but I am going to ask it anyway. And if you could 
respond, I would be grateful. But since the passage of the 
intelligence reform legislation in 2004, after the successful 
operation against Osama bin Laden--and as a Navy veteran of 23 
years, I salute our SEALs and everybody who was part of that 
operation. I said to my colleagues today at another meeting 
that while I think there is a sense of justice with respect to 
Osama bin Laden and hopefully some closure for a lot of the 
families who lost their loved ones on 9/11 and other attacks, 
the greater benefit is, I hope, going to be our ability to use 
the intelligence that we recovered to better protect folks here 
in this country and other countries as well who might also be 
at risk.
    But after the successful operation against Osama bin Laden 
and the thwarting of any number of terrorist attacks that were 
directed at our homeland and other places where we have 
interests during the last 9 years, I think that things are 
working better. I hope you do, too. I also believe we are in a 
safer place as a result of this reorganization that we put in 
place a number of years ago.
    Specifically, I was impressed with, I think, last week's 
remarks by the Secretary of Homeland Security, Janet 
Napolitano, on how intelligence information from the raid on 
Osama bin Laden's compound was almost immediately being shared 
throughout our intelligence community. I am not sure this would 
have happened as quickly or as smoothly before the work that 
has been done since 9/11. And while it is clear that 
institutional reorganizations are needed every now and then, 
without the President's national security leadership working 
together as a team, I think restructuring our Federal 
Government is only going to work partially.
    Here is my question, and it really centers on the 
relationship between the President, Deputy National Security 
Adviser Denis McDonough, Assistant to the President for 
Homeland Security and Counterterrorism John Brennan, and 
Director of National Intelligence James Clapper--and whether 
the Director of National Intelligence will ever work as it was 
intended to with the first two positions being usually 
confidants in close physical proximity to the President than 
the rest of the Federal Government's national security 
leadership. Would you just think about that for a moment and 
maybe share some thoughts with us on that?
    Admiral Blair. Yes, sir, Senator Carper. On the first 
observations you made, I agree completely. This was a very well 
done operation. What I think we need is to make that the norm, 
and I think it is understandable that we did well on that 
operation, the highest priority task that this Nation has had 
for the last 10 years in that area required deep personal 
involvement of the President, the high-level Cabinet officers 
themselves, and so on. So it is no surprise to me that we did 
well on that.
    What I think we need to do is to get that same interaction 
and legislatively mandate that same interaction and teamwork in 
order to get everything done that the intelligence community, 
the Department of Defense, and the Department of Homeland 
Security are involved in. And I think we have made strides, but 
I think we have a ways to go.
    On the question of the relationship between the DNI and the 
President versus his staff, this is what staff line 
relationships are all about. The President should get his 
advice from whoever he chooses to seek it from. He has staffers 
on his staff who are experts in defense, and I used to be on 
the national security staff as a commander in the Navy. 
Department of Homeland Security officers serve at the National 
Security Council staff. Outside experts are brought in. We all 
know how the advice of staff versus the responsibility of line 
officers should work, and I think that in the White House 
relationships with departments and with the intelligence 
community, just the same principles should apply. You should 
carry out your main actions and get the recommendations of 
those whom you appoint and whom the Senate confirms, and then 
you ought to use your staff to evaluate their recommendations 
and to check on how they are doing. And there will be tension 
between those two at times. You know, no good staff officer but 
thinks he can do a better job than this guy who has the job--
until he occupies that job and wisdom occurs. So these tensions 
are natural, but I think the formal structure should be that 
those responsible officials at the right level should be 
carrying out the job and be held responsible for it.
    Senator Carper. Thanks. Mr. Chairman, do I have time for 
one more question?
    Chairman Lieberman. Go right ahead.
    Senator Carper. Thank you, sir.
    I chair a subcommittee of this Committee that focuses on 
Federal financial management and a host of other areas. But one 
of the things that we try to do in the subcommittee, as the 
Chairman knows, is we try to look into every nook and cranny of 
the Federal Government and ask this question: Is it possible to 
get better results for less money, or is it possible to get 
better results for the same amount of money? We try to do that 
throughout the government. I sort of describe it as a culture 
change from a culture of spendthrift to more of a culture of 
thrift. It is a little bit like trying to turn an aircraft 
carrier. But we know if we try long enough and hard enough, we 
can turn aircraft carriers. So we can maybe even change the 
culture here.
    This Committee is really a great Committee to be on. 
Governmental affairs used to be almost our sole focus, and how 
to make the government work to get better results for less 
money. And now we have this other hat that we wear in homeland 
security, which is terribly important, but we have not 
forgotten what our bread and butter used to be.
    But a couple of weeks ago, I was returning from South Asia 
where I had been to, among other places, Pakistan, Afghanistan, 
and India, reviewing our regional counterterrorism strategy in 
Pakistan. One of the glaring success stories that was brought 
to my attention was how our intelligence community analysts and 
military specialists, both men and women, and special 
operations men and women, were sitting side by side each other 
and analyzing intelligence information. And I was very 
impressed with the cohesion that I saw on the ground.
    My question to you is simply that today whether this new 
approach is part of a broader counterterrorism strategy in the 
region? And then, second, are there lessons learned from your 
experiences that you can share with us that you would like to 
see our military and intelligence communities implement 
tactically?
    Admiral Blair. Yes, Senator. I think what you saw is just 
as good as you said it was, and I think it is a result of 10 
years of the same set of mid-level leaders in the intelligence 
agencies and in the Department of Defense, primarily special 
forces working together against al-Qaeda and its subordinates. 
These extraordinary leaders in all of these agencies and 
services have learned to cooperate at the local level.
    I would say they do that right now with the tolerance of 
the leadership, in some cases with the active support of the 
leadership, but there is not a structure that they can fall 
into naturally or that new people will fall into naturally when 
the urgency and the passion that 9/11 caused passes.
    So I recommended in my prepared testimony for this 
Committee that we form joint interagency task forces. Let us 
pick a place like Yemen where both military counterterrorism 
capabilities and intelligence community counterterrorism 
capabilities can be brought to bear. I would recommend forming 
a joint interagency task force. The boss of it could be, for 
example, a military officer and the deputy be an intelligence 
community professional or vice versa. I do not really much 
care, but they need to be qualified for the job and have 
experience and all of the tools. And then instead of this 
extraordinary cooperation which now occurs, you can have a 
unified effort in which the task force commander, after he has 
submitted a plan, has the authorities and can choose to use 
intelligence assets one way or military assets, and put them 
together, because what we found in our joint task forces in the 
Armed Forces is that you come up with new ideas when you put 
people together in one space with one mission, with a set of 
core competencies that are pretty extraordinary. They find 
different ways to do it. ``Oh, that is what you need? That is 
easy. We can help you out with that. Why don't we try this?''
    That sort of synergy comes much better by putting them 
together under one boss than it does by sitting there in their 
individual stovepipes, and with all the best will in the world 
and if the right people happen to be there, you can work out 
some of this stuff. But it is not institutionalized. The 
incentives are not right. The rewards are not right. There is a 
certain danger in cooperating. And so I vote for 
counterterrorism joint interagency task forces pointed at the 
key areas where we still face al-Qaeda and its affiliates.
    Senator Carper. Thank you so much for your responses and 
for that analysis. Thanks so much. Thanks for joining us today.
    Thanks, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Carper.
    Admiral Blair, let me approach the topic we have been 
talking about by sharing this analysis of our 2004 legislation, 
which is that it gave the DNI two major responsibilities: One 
was to be the leader of the intelligence community, and the 
second was to be the senior adviser on intelligence matters to 
the President. And I wanted to ask you both from what you know 
of your predecessors' and successors' experience and your own, 
one, just in terms of responsibility whether that is too much 
to ask of one person. Maybe I should leave it at that. But the 
second is a bit inconsistent with the first, in some ways 
following Senator Carper's question. Is it necessary for the 
DNI to be the senior intelligence adviser to the President in 
order for the DNI to have the credibility to be the leader of 
the intelligence community? Two different questions related to 
that same dual responsibility.
    Admiral Blair. Yes, sir. I think that the DNI can and 
should have both those responsibilities. I do not think the DNI 
can have the additional responsibility of directing the CIA. I 
mean, that was the hand that we dealt the DCI, as you will 
recall.
    Chairman Lieberman. Right.
    Admiral Blair. And integrating the community and advising 
the President, and I think it was extremely wise to cut those 
two off. But I also think that it is essential that leading the 
community and advising the President be combined in one person 
so that the advice can be realistic in terms of what it is the 
community can do, one; and, two, so that the Director, seeing 
the sorts of information the President needs, can turn around 
and say, ``Listen, we have got to work harder on Problem X. I 
see this one coming. It is important to the President. We are 
not there yet. Do it.''
    Sometimes people forget that the intelligence successes of 
today are due to a lot of work done over the last several 
years, really hard work of collection, integration, spending 
money in the right place, language capabilities, and personnel 
assignments. And unless you are the person who ensures that all 
of that happens well and direct some of it if it is not being 
done very well, you are not in a position really to tell the 
President how good the stuff that you are telling him is; 
otherwise, you are just taking some report from some analyst 
and parroting it to him, and you might as well have the analyst 
tell him directly.
    So I think this combination of being the one who has the 
responsibility for making the intelligence good and then 
passing it to the President is important. I found it was often 
as important to tell the President what we did not know and why 
we did not know it than telling him what we knew because making 
high-level decisions under conditions of uncertainty is what we 
really pay the President for. Sometimes I would tell the 
President, ``If I were perfect in intelligence, your job would 
not be very difficult. You would just ask me what is going to 
happen and choose the obvious course of action.''
    But it is that interaction of what the big intelligence 
machine can actually do, the burn that you need to do better so 
that when the President turns to you in a year and says, ``What 
is the situation with nuclear weapons in Country X?'' You have 
a good answer. That is essential to the DNI. So I do not think 
those two responsibilities can split up.
    And, finally, the DNI should have the political sense of 
what is important to the President over the long term. 
President Grant knew that he had to win a battle before the 
Emancipation Proclamation could come out, and so he won one. I 
mean, I fully accept that ultimately the will of the people 
expressed through their elections has to drive what we do. So 
you need to be close to the political sense in that sense, but 
not so close that you simply make all the mistakes that 
overpoliticized leaders of very difficult national security 
enterprises can make.
    Chairman Lieberman. Right. That was a good statement. You 
have to be mindful of the political realities that the 
President is facing, but also obviously tell the President the 
truth, as you see it.
    One of those little questions that always comes up: How 
important to the DNI's strength and credibility is it that the 
DNI himself be there at the daily intelligence briefing for the 
President?
    Admiral Blair. The approach I took--and it felt right for 
me and this President--was that I was responsible that the 
intelligence--the daily briefing of the President was correct, 
but I did not have to be the one to brief it every day. So I 
think it is the former responsibility that is the more 
important. And then I think that the President--a DNI needs to 
attend enough of those sessions so that he gets a sense from 
the President and his inner circle as to are the right 
questions being answered and so on, and he needs to do that, I 
think, on a fairly frequent basis. I would always receive a 
memo from the person who gave the briefing, here is what 
happened, here is what the President asked and so on. I mean, 
that is natural. But it is not quite the same as being there 
and seeing, we are just not hitting the mark on this one so we 
need to work on it better.
    So I think you need to be there for some of the time but 
not wear out your welcome.
    Chairman Lieberman. Last week, incidentally, at the hearing 
everybody agreed, including those who had had most of their 
experience at the CIA, that the DCI was an unsustainable 
position, it was too much, and that, therefore, creating the 
DNI made sense.
    I want to say in passing that General Michael Hayden said 
something interesting, which was that he thought that he was 
probably the only Director of the CIA who was nominated since 
we have had a DNI who was actually recommended by the DNI, and 
he thought that was not good. He was recommended because he 
knew Admiral Mike McConnell or Admiral McConnell chose him, but 
that the others had come up, as would naturally happen, through 
the White House. I do not know--unless you want to comment, but 
I was really saying that more to share it with you as an 
interesting historical observation.
    Admiral Blair. I just have one comment on that, if I could, 
Senator Lieberman.
    Chairman Lieberman. Go ahead.
    Admiral Blair. I strongly believe that the Director of the 
CIA, whether it be the CIA as we now know it or the CIA as I 
recommended it, with an analytical piece and a clandestine 
piece, should be a CIA professional that has come up through 
the ranks. I think the record shows that those who have done 
that have been some of the Directors of the Central 
Intelligence Agency that we think the most highly of their 
records.
    I think now that we have a DNI position, that is the 
position that you should put someone who should have some 
intelligence knowledge but does not necessarily have to have 
lived and breathed it all his or her life. But I think part of 
the confusion in roles that we now have is when you appoint two 
people to these two jobs, both of whom are sort of considered 
independently rather than one being a professional. We get some 
of the jostling that we have seen in recent times, and I think 
the political direction can be sent through the DNI, and we 
ought to have professional DCIAs.
    Chairman Lieberman. I think that is a big insight, and what 
it requires is a President having different visions of both 
roles and really recognizing that the DNI is the President's 
main personal intelligence adviser, and also in the President's 
interest, the leader of the community.
    General Hayden did not dwell on it, but when he made his 
statement, he included the incoming head of the CIA because 
there is no one in the world who thinks that General Clapper 
came up with the recommendation of General David Petraeus to 
head the agency--not that he is opposed to it, but your point 
is well taken.
    I want to ask you just to dig down a little bit deeper on 
it, and then I want to ask you about the split in the Agency 
that you recommend.
    Talk a little more about what the advantages are of having 
a career person at the head of either the CIA as it is now or a 
CIA in two parts.
    Admiral Blair. I think the main advantage, Mr. Chairman, is 
that you have someone who knows the organization. If you choose 
the right person, as you should, that person will have instant 
credibility and a following. I think with agencies whose jobs 
are specialized and difficult, you just cannot walk in and do 
them with a general purpose background, that the best leaders 
move their organizations a step further, to be more skilled, 
more unified, and able to do new things. And I think that is 
really best done by somebody who knows the organization.
    I am also influenced by what I saw at the CIA in that there 
are marvelous people there. I saw any one of four people in 
that Agency who I, had I had the chance, would have recommended 
to be the Director. You had four good chances, and you could 
have flipped a coin among them. So there are good people there 
who can do it. And if you have a DNI who is running the 
political top cover for them, then you can have your Director 
of the CIA being a professional just the way a uniformed 
military officer or a police chief is.
    Chairman Lieberman. Sure.
    Admiral Blair. I mean, that is what they do. And so I would 
say that is part of it.
    And, finally, as I said, as I looked back over the history 
of Directors of Central Intelligence, although there has been 
some brilliant work done by outside officers coming in, if you 
had to handicap the odds, those who were remembered as having 
done the best at a higher percentage rate are those who have 
the background. So that is really what I think the advantages 
are.
    Chairman Lieberman. Now go in a little bit deeper than you 
did in your opening statement about why separate the CIA into 
an analytic section or agency and a clandestine agency.
    Admiral Blair. Yes, Senator. Starting off with trying to 
clean the slate and letting us look at those two different 
functions, they are really quite different approaches. An 
analyst is skeptical, questioning, uses the academic skills and 
all. A case officer or an officer involved in covert operations 
has got to be positive, extemporaneous, flexible doing the job. 
So you have oil and water here in terms of the sort of people 
who do it.
    Until I guess about the early 1990s, of course, they were 
originally divided out at Langley. This tower was the analyst 
tower and this tower was the operators' tower. When they were 
thrown together and mixed up, there were some advantages. I 
think the main advantages were for the clandestine service, the 
operators, because it gave them a closer sense of what was 
required, and they could direct their efforts more to that. It 
taught them to become a little more reflective in what they 
were doing, not just where is the job, let us go do it, where 
is the door, I want to run through it. So there were certain 
advantages to that. And I would leave an analytical cadre in 
the national clandestine service in order to perform that 
function.
    But also over time the operator ethic prevailed at the 
Agency. Being the sort of active can-do people they are, they 
were the ones who pretty much set the tone for the Agency. And 
I think it, detracted somewhat from the analytical ability and 
made it difficult analytically at some times, especially when 
the analysis was not supporting the program that the action 
side was working on.
    In addition, if you look at where the intelligence comes 
from now--I do not have the figures right with me. They may 
well be classified. But the bulk of information comes from 
signals intelligence gathered by the NSA. So it is not that you 
have the all-source analyst next to the place where most of the 
intelligence is coming from. So I do not see any disadvantage 
to having this all-source analytical shop separate and then the 
clandestine service would be the specialists in human 
intelligence. They would feed it in. Signals intelligence comes 
in. Geospatial-intelligence comes in.
    In the same way, as you will recall, when the National 
Geospatial-Intelligence Agency was formed, intelligence 
analysts were taken out of the CIA, put together with the same 
skills from the Defense Mapping Service, and they were the 
functional experts on geospatial intelligence, and they now 
help the CIA just the way they help others. So it is sort of an 
analogous thing of having the functional division of the 
collectors fairly pure and the analysts together.
    Now, the danger in that thing is that people get back in 
their stovepipes and they do not cooperate, and that is where I 
think the DNI putting these mission management teams together 
with representation from all of these agencies is the norm.
    Just a final point. I think you will find that the United 
States is completely unusual in having this particular 
collection of skills. If you look in other countries--and it is 
not that we should be bound by other countries, but it is just 
sort of an interesting check of how it happened. It is more a 
product of our history than it is a product of how it is 
generally done around the world.
    Chairman Lieberman. I had not thought about this. There is 
a separation between the operators and the analysts in most of 
the foreign intelligence.
    Admiral Blair. Correct. In most foreign intelligence, they 
are separate.
    Chairman Lieberman. I must say that I had followed these 
things from a distance, but when I came here as a Senator and 
started understanding what the CIA was about, I was surprised 
at how many people I would interact with in briefings who I 
would call basically researchers. It was valuable research. 
They were becoming expert in a particular country. But most--
not all, but a lot of what they were doing was from open 
sources, and that is necessary. That is actually very 
important, but not what I think the public feels is the CIA. 
The public thinks of it as the operators and the clandestine 
workers. Those are two very interesting suggestions.
    Let me talk to you about another one that I think is 
interesting, and it does relate to the Osama bin Laden case, 
which is, as you indicated briefly in your opening statement, 
we have Title 10, which covers traditional military operations 
authorized by the President; then you have Title 50 covering 
intelligence and covert authorities. As you and I have 
discussed and is known, in the case of the Osama bin Laden 
search, the President gave the authority to the Director of the 
CIA, which was interesting, under Title 50--and Director Leon 
Panetta has been very open and enthusiastic about this. He 
called on the Joint Special Operations Command, Admiral William 
McRaven, operating under Title 10. So you make a very 
interesting and I think relevant suggestion here that we 
effectively need, as you said, a Title 60 for what you called 
joint integrated teskforces.
    So let me ask you to develop that a bit. I presume it comes 
from the fact that, as you said during these questions and 
answers, a lot of what intelligence operators are doing today 
is inherently joint, but these actions particularly are. So 
what would be the benefit of a Title 60?
    Admiral Blair. Sir, let me illustrate it first by a well-
known bad example since I think that is always instructive.
    Chairman Lieberman. Yes.
    Admiral Blair. If you recall, when we went into Afghanistan 
late in 2001 and CIA agents famously rode in rickety old 
Russian airplanes with bags of money between their legs, and 
when they got out, they started reaching their old contacts, 
paying them money, turning the Northern Alliance. Meanwhile, 
Secretary Rumsfeld was famously impatient that the special 
forces were not there yet. They were slow, they were getting in 
place ready to jump, and never again will DOD be second getting 
into one of these situations. There was explicit competition 
between those two groups to get in and do the same job. And 
then, tragically, when a number of CIA agents were killed with 
a group of Afghans who had been taken prisoner and the CIA 
officials were outnumbered and beaten to death, the military 
back-up for that was not readily available. And yet it is one 
country, one President, one Congress, one set of authorities.
    What we need to do is put the best capabilities of the 
Defense Department that applied to this problem together with 
the capabilities that the CIA can bring, integrating a staff so 
that you have knowledgeable direction, and then using 
everything, whether you are utilizing all of the skills that 
the CIA has developed in terms of working with foreign 
intelligence services--the CIA has a lot more budget 
flexibility than DOD does. In those situations I think it is 
very useful. But yet having the huge back-up logistics, 
planning capability, and fire power that the Department of 
Defense can bring to bear is also important.
    What I want for the country is let us do them both. Let us 
not have the President have to make a decision. Do I give this 
one to the CIA or do I give this one to the Department of 
Defense?
    Now, the other thing that has happened is that the 
definition of covert action under Title 50 has really changed 
since the Cold War when it was invented. It was basically to 
make actions deniable so that we could take lethal action 
against the Soviet Union and areas around the world. We could 
officially deny it. We would not risk escalation to World War 
III. If there was ever an operation which was less intended to 
be deniable than the raid 2 weeks ago on Osama bin Laden, I 
have no idea what it was. That does not pass, I do not think, 
anybody's traditional understanding of what a covert action is. 
We were going to do it. There were going to be soldiers 
involved. There were going to be sailors involved. The CIA was 
going to be involved. Five thousand people were probably 
involved in that operation from the very beginning, and we were 
going to do it. Why? Because it was a job that was not being 
done by a country that we could call on to do it, and we felt 
we had to do it ourselves.
    That is really the nature, I think, of the challenge we 
face now with al-Qaeda and its affiliates, drug cartels, outlaw 
operations of various kinds, even some outlaw countries. It is 
not the state boundaries Cold War that we invented plausible 
deniability to take care of.
    In addition, a lot of these campaigns go on for a long 
time, like our current campaign in Afghanistan, and, again, if 
there is a more publicized CIA action than drones in Pakistan, 
I do not know what that is. The CIA officers call reporters and 
tell them about what happened on a routine basis. So I think 
these definitions are getting in our way, not helping us.
    What they do set up is sort of a competition for who is in 
charge rather than a mechanism so that both sides can bring it 
to bear. So I am for doing it.
    Now, there are some very weighty questions involved. Title 
10 is part of what entitles soldiers to protection under the 
Geneva Convention and under Status of Forces Agreements. So 
Title 60 would have to be designed in a way that, yes, this is 
still a military action, these are still soldiers, if they are 
captured, so on and so on.
    Now, again, that provides some protection, but had one of 
the helicopters gone down in North Waziristan and the Haqqani 
tribe picked up some of our SEAL Team 6 people there, I doubt 
if they would have been much motivated by the Geneva 
Convention, and that is generally how it is in these 
situations.
    Similarly, who does this group report to and to whom is it 
accountable in Congress?
    Chairman Lieberman. Yes, I was thinking about that. In 
Title 50, there is a requirement for quite limited notification 
to Congress of covert action. Obviously, under Title 10, 
special operators are operating all the time with no 
notification for Congress. So how would you balance that?
    Admiral Blair. Within Title 60 I would say that both 
Intelligence Committees and Armed Services Committees need to 
be notified. There was one instance of a somewhat similar 
operation that I was involved in when I was in DNI, and we 
formed a joint briefing team. We went up and we talked to the 
leadership, both Houses, both parties, about a very sensitive 
operation that involved military and intelligence community 
actions. And, the world did not come to an end. They asked 
good, tough questions. We were able to answer them. I think we 
can do the notification part of it well.
    So I think we need ways to draw those capabilities together 
for the country.
    Chairman Lieberman. Who would be in charge of one of the 
joint task forces?
    Admiral Blair. I would look at it and say that you know 
this is a mixed set of skills here. On balance, is it 51 
percent intelligence and 49 percent military, or is it the 
other way around? And I would choose the lead commander on that 
basis. But the deputy I would make from the other discipline so 
that you have the two top people bring both sets of skills to 
bear. And also I would make sure that those two top people had 
qualifications and experience with operating with the other 
agencies, similar to the way we do it with joint commanders.
    Chairman Lieberman. Right.
    Admiral Blair. But I would mix them, and I would have the 
staff mixed so that you had all the skills available to spark 
that synergy and to keep from doing something stupid in either 
the intelligence or the military realm.
    Chairman Lieberman. Would the DNI be always involved in one 
of these joint task forces?
    Admiral Blair. I would say that his involvement would be 
comparable to that of the Secretary of Defense: Final approval 
for the plan, approval of the commander, and concurrence with 
the deputy. And then if you are a good DNI, just like if you 
are a good Secretary of Defense, if you have chosen good 
people, given them good direction, approved a good plan, you 
let them roll.
    I hand it to the current leadership for what I understood 
of what happened during those hours of the raid. They sat there 
and let the people who were right there make the decisions, and 
that is the way it ought to run.
    Chairman Lieberman. Yes. Those are very interesting ideas. 
I think I have, within the rules of the Geneva Convention, 
interrogated you enough today. Admiral, you have been extremely 
helpful, and Senator Collins and I talked about it briefly on 
the floor. You have given us some ideas. I am not quite sure 
what we are going to do from here. We may recommend some 
additional legislation if it makes sense; I think some of these 
really do require it. In other cases, we may issue a report and 
make recommendations to the President or to the DNI. But if you 
are willing, I reserve the right to reach out and just call you 
on the phone or ask you to come in and talk about the direction 
in which we are going, because the combination of your 
experiences in service of the country is really quite unique 
and very helpful. Also, you have had the independence now out 
of office to make some of the suggestions that people in office 
sometimes do not make. So this is what I have to look forward 
to after January 2013.
    Admiral Blair. I hope we can call on your wisdom after you 
leave that chair, too, Senator Lieberman.
    Chairman Lieberman. Thank you. You always can do it, 
whatever wisdom there is there. I thank you. I thank your wife 
for being here with you. I even thank my friend for decades, 
Arthur House, and your friend and counselor, for being here.
    We will keep the record of the hearing open for 15 days for 
any additional questions or statements, but, again, with great 
thanks to you for what you have contributed today.
    The hearing is adjourned.
    [Whereupon, at 3:18 p.m., the Committee was adjourned.]


                     SEE SOMETHING, SAY SOMETHING,



                      DO SOMETHING: NEXT STEPS FOR



                       SECURING RAIL AND TRANSIT

                              ----------                              


                        WEDNESDAY, JUNE 22, 2011

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:33 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Carper, Landrieu, Collins, and 
Paul.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. The hearing will come to 
order. Thanks very much to our witnesses for being here, and 
thanks for coming a bit earlier than we had planned to start 
the hearing. Senator Collins and I may be called to the Senate 
floor at 11 a.m. when a bill from our Committee is pending.
    Mr. Pistole, you will be happy to hear that this is a bill 
to reform the process by which nominations are made and 
considered by the Senate.
    Today, we have come together to discuss the security of our 
rail and transit systems and strategies for the future to 
improve the defense of these systems, which are historically 
open and, therefore, in the post-9/11 world, vulnerable.
    This hearing is being held as part of a continuing series 
of hearings and investigations our Committee has committed to 
do as we approach the 10th commemoration of the attacks against 
America on 9/11. But in this particular case, this hearing was 
also catalyzed by the reports from the raid on Osama bin 
Laden's compound in Abbottabad, Pakistan, which yielded 
documents indicating that Osama bin Laden continued to urge 
members of al-Qaeda to attack the rail sector of the United 
States, particularly on or about the 10th anniversary of 
September 11, 2001. Apparently, one of those documents included 
a plan to derail a train. Some of the analysts that we have 
talked to have concluded that the most likely form of such an 
attack would be multiple operatives acting independently 
against separate targets as part of a coordinated attack on the 
same system and, of course, usually at peak travel times. There 
has also been some reference to Osama bin Laden suggesting that 
these kinds of attacks might most dramatically occur on rail 
lines over valleys or bridges.
    In other words, this again made real the threat to our rail 
and transit systems, which we have lived with since 9/11 and, 
of course, we have seen carried out in other places like 
Mumbai--the first attack--Madrid, London, Moscow, and, of 
course, plans which were thwarted to attack rail systems right 
here in Washington, DC, and in New York City.
    In fact, the Mineta Transportation Institute \1\ issued a 
report that concluded that since September 11, 2001, 
worldwide--this is a stunning number--1,800 attacks have been 
carried out on surface transportation, mostly buses and trains, 
obviously not all of them major, causing over 3,900 deaths. 
Compare that to the 75 attacks carried out on airplanes and at 
airports that have caused about 160 deaths--157 to be exact.
---------------------------------------------------------------------------
    \1\ The document referenced by Chairman Lieberman appears in the 
Appendix on page 462.
---------------------------------------------------------------------------
    The other fact here is that 14 million people use mass 
transit systems in America every day. In Connecticut, the 
Metro-North New Haven Line is one of the busiest rail lines in 
our country. Speed, reliability, and convenience are obviously 
hallmarks of mass transit, and we support mass transit as part 
of broader societal goals. But with so many passengers at so 
many stations along so many paths, those systems are very 
difficult to secure.
    We certainly have not gone unsecured, and since 9/11, we 
have increased the presence of surveillance cameras, 
explosives-detecting dogs, roving security teams, and, of 
course, a greater public awareness. Secretary Janet Napolitano 
has energetically promoted--and Mr. Pistole also--the ``See 
Something, Say Something'' public education campaign because 
the security of our rail system really does hinge in large part 
on the awareness and actions of an observant citizenry.
    But a decade after 9/11, as one of our witnesses, Dr. Steve 
Flynn, correctly suggests, we need to move beyond ``See 
Something, Say Something,'' to ``Do Something.''
    Rail and transit security has been traditionally the 
primary responsibility of State and local law enforcement. 
However, the Transportation Security Administration has begun 
to play a critically important role. TSA has been working with 
State and local governments to improve rail and transit 
security. It now has 25 mobile security teams, known as Visible 
Intermodal Prevention and Response teams--one of the best 
acronyms that I think our government has--that it sends into 
the field. The President's fiscal year 2012 budget requests 12 
more such teams.
    TSA also has over 300 security inspectors working with 
local transit officials to assess the security of trains, 
platforms, and rail yards. But there is more that TSA, State 
and local governments, and transit agencies can and, I think, 
must do. Let me just mention a few.
    First, TSA really needs to fulfill a 2007 legislative 
requirement to develop uniform standards for rail and transit 
training programs for background checks for front-line 
employees and for transit agencies' security plans.
    Second, the Department of Homeland Security should step up 
its efforts to develop creative, non-intrusive transit security 
solutions, especially to detect improvised explosive devices, 
which history has shown are the weapons of choice for 
disrupting rail and transit systems. The Department of Homeland 
Security has a Science and Technology Directorate explicitly to 
achieve this, but specific R&D for rail and transit security 
innovations, in my opinion, has been much too limited.
    Third, TSA has to improve its intelligence sharing with 
State and local officials--it has come a long way, but it needs 
to come further--and also the private sector, to provide 
information that is both current and useful to them, that is, 
simplified and easier to manage.
    Fourth, all of the stakeholders in transit security need to 
be conducting more exercises to accustom rail and transit 
officials with the unique requirements of disaster prevention 
and response involving mass transit, particularly trains. So I 
hope that TSA and FEMA will continue to expand these exercises 
and that local and State authorities will become more proactive 
and ensure that employees at every level are involved.
    And fifth, we have to continue to work with passengers to 
make them full partners in securing our rail and transit 
systems, and that includes educating them about the risks, how 
to report suspicious activities, and how to respond should an 
attack occur.
    We have the Department of Homeland Security's Transit 
Security Grant Program through which approximately $1.8 billion 
in rail and transit security grant funds have been distributed 
since 2006. These funds are critically important to our State 
and local authorities, and that is why I feel that the House 
action to zero out these funds is just plain bad policy, and I 
hope we will be able to overturn that legislation here in the 
Senate.
    I do want to stress that our law enforcement and 
intelligence agencies have successfully thwarted plots against 
rail and transit systems, and we should not, in talking about 
what more we can do, pass over that without acknowledging 
really remarkable work. The 2009 plot by Najibullah Zazi to 
explode bombs in the New York subway system was disrupted by 
brilliant intelligence and law enforcement work. A threat to 
the D.C. Metro system just last year was similarly uncovered 
and stopped before anyone was hurt.
    So these are some of the subjects I want to take up with 
our witnesses. We really have the best in the field before us 
in the three witnesses, and I thank them for their commitment 
to strengthening the security of our rails and mass transit and 
for being with us today.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    First of all, it is a pleasure to welcome back to our 
Committee Administrator Pistole. It has been about a year since 
his confirmation, and I very much appreciate his commitment to 
strengthening the safety and security of our transportation 
infrastructure and our travelers.
    I am also pleased to welcome Commissioner Boynton here from 
Connecticut to lend his perspective from the State level and, 
of course, Stephen Flynn, who has testified before this 
Committee many times and provided us with his insights.
    As the Chairman has pointed out, today's hearing on rail 
and transit security is timely. Only a few days after our U.S. 
Navy SEALs raided Osama bin Laden's compound, the Department of 
Homeland Security and the FBI released an alert about rail 
security. The information was dated from early last year and 
was not connected to any particular city or rail line. 
Nevertheless, it demonstrated and reminded us that mass transit 
remains a terrorist target.
    The fact is, soon after 9/11, terrorists began targeting 
mass transit systems. In March 2004, 10 bombs exploded on four 
commuter trains heading into central Madrid. The attacks left 
191 people dead and 1,800 people wounded in what is regarded as 
the worst Islamist terrorist attack in European history.
    The United States has been subject to rail plots as well. 
Since 2004, our government has thwarted five terrorist plots 
against our Nation's transit and rail systems. Metro and subway 
stations in New York City, here in Washington, DC, and train 
tunnels between New York and New Jersey were the intended 
targets.
    While improvements have been made since 9/11, the challenge 
of securing rail and mass transit systems is enormous. As the 
Congressional Research Service reported in February, passenger 
rail systems, particularly subways, carry about five times as 
many passengers each day as the airlines over many thousands of 
miles of track, serving hundreds of stations that are designed 
for easy access by passengers. The vast network and sheer 
volume of riders make it impractical to conduct airline-type 
screening. Security at airports is the responsibility of the 
Federal Government, but security at subway, bus, and rail 
stations is largely under the jurisdiction of mass transit 
providers in partnership with State and local governments.
    It is vitally important, however, that the Federal 
Government act in concert with these local partners, helping to 
ensure that transit providers and local officials have the 
equipment and the training to plan for and to respond to 
terrorist threats while ensuring that taxpayer dollars are 
spent efficiently. I would note that the same CRS study says 
that much of the training is directed at response rather than 
prevention.
    In addition, Federal agencies must partner with State and 
local law enforcement to develop a process to identify and 
report suspicious activity and share that information 
nationally so that it can be analyzed to identify broader 
trends.
    The GAO recently reported that transit administrators and 
public transportation professionals currently receive security 
information from a variety of sources. Nearly 80 percent of the 
respondents used five mechanisms or more to receive security 
information. The GAO identified at least 21 mechanisms through 
which agencies can receive security-related information. The 
GAO noted that those interviews yielded a common desire that 
the information should be streamlined to reduce the volume of 
overlapping information that public transit agencies receive.
    As we work to improve and streamline information sharing, 
we need to remember that an alert citizenry remains our first 
line of defense against terrorist attacks, whether at 
transportation hubs or city parks or airports or in Times 
Square. A good example is how an alert street vendor, noticing 
smoke coming from a vehicle in Times Square, reported it to 
local law enforcement and thus helped to disrupt an attempted 
bombing. If not for this concerned citizen, the consequences 
could have been deadly.
    In 2007, Senator Lieberman and I co-authored a law that 
made it easier for alert citizens to report suspicious activity 
in the transportation sector indicating potential terrorist 
behavior without facing the threat of frivolous lawsuits. This 
year, we have reintroduced our See Something, Say Something 
bill to expand those protections to reports of such behavior in 
all sectors.
    The world is a safer place without Osama bin Laden, but we 
are not yet safe. We are better prepared for terrorist attacks 
across all modes of transportation, but the fact remains that 
future attacks, at least attempted attacks, are certain. The 
enemy continues to innovate and probe our defenses.
    Administrator Pistole and I recently spoke at a forum 
conducted by the U.S. Chamber of Commerce about these 
challenges. One of our greatest assets is the spirit of 
innovation and flexibility that is fostered when we partner 
with the private sector, State and local governments, and local 
law enforcement officials. We are able to benefit from their 
eyes, ears, and ideas.
    I thank our witnesses for being here, and I look forward to 
the discussion today.
    Chairman Lieberman. Thanks very much, Senator Collins.
    I thank Senator Paul and Senator Carper for being here. We 
will go now to Administrator Pistole. John Pistole has spent 28 
years in the service of our government. We talk a lot about 
service in the military, but people like Administrator Pistole 
have served our country with great effect--we appreciate it--
most of that with the FBI and now with the TSA. So we look 
forward to your testimony.

     TESTIMONY OF HON. JOHN S. PISTOLE,\1\ ADMINISTRATOR, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Pistole. Well, thank you, Chairman Lieberman, and 
Senators Collins, Carper, and Paul. I appreciate the 
opportunity to appear before you today with the distinguished 
co-witnesses to discuss the efforts of TSA in partnership with 
not only DHS and FEMA, of course, but our industry partners and 
those who are in the best position to provide the best possible 
mass transit and passenger rail security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Pistole appears in the Appendix 
on page 442.
---------------------------------------------------------------------------
    Chairman Lieberman, I would just comment on your five goals 
for improvement that you noted in your opening statement, and I 
agree with each one of those, noting that we have made some 
significant improvement in those areas, but we need to do more. 
And so I appreciate your highlighting those.
    As has been mentioned, last month the President announced 
the U.S. operation that resulted in Osama bin Laden's death, 
and that effort marked a historic counterterrorism success for 
not only the United States, but for the world. And I would add 
to that the recently announced deaths of Ilyas Kashmiri, the 
leader of an al-Qaeda operational wing out of Pakistan for 
Western attacks, including Europe and the United States, and 
Harun Fazul, the leader of al-Qaeda in East Africa and, of 
course, the leader of the 1998 East Africa bombings and much of 
al-Qaeda's work in the Horn of Africa there.
    Our efforts to combat terrorism go well beyond those 
individuals, as Senator Collins mentioned, and that is why we 
remain focused on trying to do what we can do in terms of 
enhancing the efforts of others along with our own critical 
mission of protecting the traveling public and our 
transportation systems.
    TSA will continue to evaluate screening measures based on 
the latest intelligence, and we will continue to share 
information with stakeholders to enable them to enhance 
protective measures and surge resources as appropriate.
    As we know, mass transit systems and passenger railroads 
are a critical part of the transportation network TSA works to 
protect as passengers rely on them for over 10 billion trips 
annually. They also remain a target for terrorist groups and 
have been the subject of numerous attempted plots in the United 
States, two of which were mentioned earlier, as well as a 
number of successful attacks overseas, which have also been 
noted.
    Passengers serve as important partners for securing these 
systems, and we are encouraging Americans to alert local law 
enforcement if they see something that is potentially dangerous 
through the nationwide expansion of the ``If you see something, 
say something'' campaign, a clear and effective means to raise 
public awareness of indicators of terrorism, but also crime and 
other threats, and emphasize the importance of reporting 
suspicious activity to the proper law enforcement authorities.
    Our partnerships with industry and local and regional 
stakeholders are a critical component of TSA's security efforts 
for mass transit and passenger rail. DHS's comprehensive 
Transit Security Grant Program is currently the primary vehicle 
for providing funding assistance for security enhancements to 
eligible transit agencies, supporting State and local 
government initiatives to improve security. TSA works with FEMA 
to fund projects that most effectively mitigate risk at the 
highest risk systems. In other words, how do we best buy down 
risk?
    These projects address operational deterrence activities, 
the remediation of critical infrastructure in transit, and 
other assets critical to surface transportation security. In 
2010, DHS awarded nearly $274 million to the transit and 
passenger rail industry, bringing the total to over $1.6 
billion awarded since 2006.
    In addition to grant funding, TSA supports the security of 
mass transit and passenger rail systems by deploying those VIPR 
teams that Chairman Lieberman mentioned to augment the local 
security efforts. We do have 25 dedicated teams in operation, 
and we are seeking to expand that to an additional 12 teams in 
our request for the 2012 budget.
    Now, the VIPR teams work alongside local law enforcement 
officers and are typically comprised of personnel with 
expertise in inspection, behavior detection, security 
screening, and law enforcement for random, unpredictable 
deployments throughout the transportation sector to deter 
potential terrorist attacks.
    VIPR teams enhance TSA's ability to surge resources quickly 
anywhere in the country. TSA conducted over 8,000 VIPR 
operations in the past 12 months, including over 4,200 
operations in mass transit venues across the country. In 
addition, TSA performs baseline and collaborative risk 
assessments for mass transit and passenger rail, engaging State 
and local partners in three critical areas: One, how to reduce 
vulnerabilities; two, assess risk; and, three, improve security 
efforts.
    These assessments are conducted with emphasis on the 100 
largest mass transit and passenger rail systems in terms of 
passenger volume, which collectively account for over 80 
percent of the more than 35 million trips taken on mass transit 
each weekday. Among these assessments is the Baseline 
Assessment for Security Enhancement, a comprehensive security 
assessment program designed to evaluate 17 security and 
emergency management action items that form the foundation of 
an effective security program. Through the BASE program, TSA 
reviews security-related proposals jointly developed by TSA, 
the Department of Transportation's Federal Transit 
Administration, and private sector partners from mass transit 
and passenger rail systems. The assessment results provide 
critical data about security priorities, the development of 
security enhancement programs, and the allocation of 
resources--a critical aspect, obviously--and a compilation of 
the most effective security practices for mass transit and 
passenger rail agencies. Over 115 mass transit and passenger 
rail agencies have participated in the BASE program and used 
their assessments to help make their systems even safer and 
more secure for their passengers, employees, and 
infrastructure.
    TSA also provides timely, relevant intelligence and 
security information to industry officials and State and local 
partners, and we are working with our partners to develop a 
unified, comprehensive intelligence and security information-
sharing platform for that mode.
    In closing, I would like to stress again that collaboration 
is critical for the success of mass transit and passenger rail 
security operations, noting that no one single agency can do it 
all. TSA will continue to collaborate with law enforcement, 
industry, State, local, and tribal officials, first responders, 
and Federal partners to foster regional security coordination 
and enhanced deterrence for response capabilities.
    With that, Chairman Lieberman and Senator Collins, I would 
pause for questions and other statements. Thank you.
    Chairman Lieberman. Thanks very much for that opening 
statement.
    We will next go to Peter Boynton, Commissioner of the 
relatively new Connecticut Department of Emergency Management 
and Homeland Security. I am really delighted that you could be 
here today. We look forward to hearing from you about the State 
and local perspective on securing mass transit, particularly in 
our State, which, as I said in my opening statement, has such 
heavy rail traffic. Thanks for being here, Commissioner, and we 
welcome your statement now.

     TESTIMONY OF HON. PETER J. BOYNTON,\1\ COMMISSIONER, 
  CONNECTICUT DEPARTMENT OF EMERGENCY MANAGEMENT AND HOMELAND 
                            SECURITY

    Mr. Boynton. Thank you, Chairman Lieberman, Senator 
Collins, and Senator Paul. I appreciate the invitation to come 
here today. I am here to offer a State perspective, as you 
said, Mr. Chairman, and I also come with some other background. 
I was the TSA Federal Security Director for a couple years at 
Bradley International Airport in Connecticut, the second 
largest airport in New England, and I was also the Coast Guard 
Captain of the Port in New Haven, Connecticut. So I hope that 
does not mean that I cannot hold a job.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Boynton appears in the Appendix 
on page 450.
---------------------------------------------------------------------------
    Chairman Lieberman. No. It really reveals to everyone that 
there is a heavy Coast Guard tilt on this panel.
    Mr. Boynton. Yes, sir. I am afraid you have broken our 
cover. [Laughter.]
    I would like to begin by thanking the terrific partnership 
that we have in the State of Connecticut, and it is an example 
of what I think you and Senator Collins already indicated is a 
lot of work already done and achieved. And this includes MTA 
and Amtrak police who work with us in Connecticut, TSA in 
Connecticut, the Coast Guard, Connecticut State Police, 
Connecticut DOT, all the first responders who are there on that 
rail line every single day. DHS has done a terrific amount of 
work to support the Connecticut Intelligence Center, a State-
run entity that we really rely on DHS to support, and, of 
course, all the public who participate in our See Something, 
Say Something campaign that we rolled out last summer.
    Connecticut does have a mass transit rail system, but it 
also has a number of other mass transit forms. We have two 
ferries that go to Long Island. They are two of the 14 largest 
passenger/auto ferries in the country. They are the only two 
that are privately operated. We have a number of bus systems 
throughout the State. We have a number of rail systems--the 
Northeast Rail Corridor, a rail corridor from New Haven up 
through Springfield. But the one I would like to focus on is 
the Metro-North New Haven Line.
    This system carries 127,000 passengers every day, 289 
trains every day, and even so, it is not among the largest. But 
what I think is very notable about that the Metro-North New 
Haven Line is its connection with New York City. It is part of 
the much larger New York City metropolitan system. And every 
one of those Connecticut riders go right to the heart of New 
York City--Grand Central Station from New Haven and other 
points on the line. In 2010, there were over 37 million 
passenger trips from Connecticut into New York City.
    My point here is that the interconnected nature of mass 
transit means that the security of the New York City system is 
dependent in part on the security of the Connecticut-based part 
of the transit system, and that is not unique to Connecticut. 
We see that with communities that surround urban areas with 
transit links all around the country.
    From the State perspective, however, what we are seeing is 
Federal funding increasingly being shifted into the large urban 
areas. This is not only happening with transit security, but 
also with UASI grants and shifts in port security. The focus on 
security for cities makes sense for a lot of reasons, but 
shrinking funding for those surrounding communities with 
transit links into those urban areas may have the unintended 
consequence of pushing the risk out to those surrounding areas. 
And Connecticut has real experience with this. The 9/11 
terrorists and the attempted bomber in Times Square both spent 
time in Connecticut.
    So our view is that the challenge is to modify some of the 
current Federal Transit Security Grant Program criteria to 
include more proportionate funding for those communities 
outside of the major urban areas but with transit links into 
those major urban areas. We may be a relatively small transit 
system, but because we are part of the larger one, their 
security depends on our security.
    We need additional funding to continue to complete some of 
the basic security enhancements that have already begun, and 
these are basic things: Fencing, lighting, communications, 
cameras. A specific example is that under the new criteria for 
the Transit Security Grant Program, Connecticut is unlikely to 
continue to receive transit security grant funding this year 
except in Category 1 for public awareness, which is very 
important. We need more of that money, and we will use that 
money well. But we are unlikely to qualify under the new 
criteria to complete some of those enhancements that we have 
already done. And, again, it makes sense to focus on the urban 
areas, but we are part of the urban areas, and there is a 
potential vulnerability by pushing that risk out to us.
    In addition to modifying the grant criteria, there may be 
some utility to using the model used in the Port Security Grant 
Program whereby the local Coast Guard Captain of the Port 
convenes a group of users to help evaluate and prioritize the 
grant submissions. Potentially, the analogous person to do that 
might be the TSA Federal Security Director, pulling together 
users of the transit system to help us do an evaluation of 
those grant proposals. We have produced something like that in 
Connecticut that I will talk about a little bit later.
    I would also like to note that, at least from our 
perspective, balancing the grant criteria for some proportional 
funding for the surrounding communities--and we are really 
talking about small dollars--is linked to the evolving 
terrorist threat. On the one hand, the Federal partners have 
helped us understand how this threat is evolving. The 
diversification of the threat is essentially requiring more 
involvement from the local community level. But, on the other 
hand--and this would be the Federal hand with the money--it 
seems in some respects to be going in a different direction, 
and that is, increasingly focusing funds within the city limits 
of large urban areas. And those of us who are connected with 
mass transit really have a need not just for our own State and 
our own population, but as a partner with that urban area to 
help them stay safe as well.
    In addition to balancing the grant funding to achieve 
transit security, another way is to enhance information 
sharing, and this was the point I mentioned earlier. In 
Connecticut, we have convened a Transit Security Committee. We 
have representatives from every mode of transportation: Rail, 
bus, trucking, highway, aviation, maritime, even pipelines, all 
working together.
    We have all heard of the danger of people operating in 
silos. One of our local partners just a couple weeks ago gave 
me a new term to use, and the term was ``cylinder of 
expertise.'' We all have cylinders of expertise, and those are 
not bad things, but the difficulty is pulling them together 
with horizontal integration, and this pulling people together 
does not happen without effort. We have to take people out of 
their comfort zones and get them to work together, and we have 
had great success through that committee.
    Another example of pulling people together from within 
their cylinders of expertise are the VIPR operations that 
Administrator Pistole mentioned. In Connecticut, I just have to 
give thanks to our TSA partners. In 2009, we had 34 VIPRs. By 
the end of this year, we expect to have increased that seven-
fold. These VIPRs do not happen without the leadership of a TSA 
Federal Security Director coming out of the comfort zone and 
working with other Federal, State, and local partners to make 
it happen, and it is a big success in Connecticut. I would like 
to see more support on that.
    Another example of pulling people out of their silos of 
expertise or cylinders of expertise is the intelligence fusion 
center. In addition to the traditional partners--State police, 
DHS, FBI--we also have a full-time TSA intelligence analyst, 
and I do not know how many of the 72 fusion centers have a 
full-time TSA analyst. We do in Connecticut. I hope by 
mentioning that I have not put that in jeopardy because we want 
that person to stay. That is his primary work location, and it 
gives us tremendous information exchange, not just with the 
State. We have full-time municipal police detectives whose 
primary job location is in our fusion center. That allows us to 
marry them with the great work of TSA pulling information into 
our fusion center.
    Last, and probably most importantly, is engaging the 
public. We have a very substantial See Something, Say Something 
campaign that has been running for 2 years in many different 
media routes. But I certainly agree the next step is to go 
beyond seeing and saying to doing something. And I think we 
have a great example in the area of emergency medical response, 
and that is, publicly available defibrillators. If we talked 30 
years ago about allowing members of the public to operate a 
defibrillator, I think we would react in horror. But today we 
do that. We have come that distance. And I think we can do the 
same in the area of security by engaging the public not only to 
see and say but also to do, and that is a great principle of 
resiliency. It is an example of adapting if we can get to that 
next step of helping people do something.
    Thank you very much for the opportunity to be here, and I 
look forward to answering questions.
    Chairman Lieberman. Thank you very much, Commissioner 
Boynton. That was very helpful.
    Finally, we will go to Steve Flynn, a former Coast Guard 
Commander and now President of the Center for National Policy. 
He has been a really terrific resource for this Committee over 
the years, and we welcome you back with gratitude for your 
testimony today.

TESTIMONY OF STEPHEN E. FLYNN, PH.D.,\1\ PRESIDENT, CENTER FOR 
                        NATIONAL POLICY

    Mr. Flynn. Thank you so much, Mr. Chairman, Senator 
Collins, Senator Landrieu, and Senator Paul. It is an honor to 
be here today. What I would like to do is to offer a bit of an 
analytical perspective about the threat, why I think this 
hearing is so important, and then speak to a few don'ts I would 
suggest about how we approach this issue, and then some ideas 
about the do's, where we go from here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Flynn appears in the Appendix on 
page 454.
---------------------------------------------------------------------------
    I would offer up at the outset that we really are still at 
the starting line, and as with so much in Washington, we can 
always evaluate priority by what we spend, and the numbers are 
pretty clear on this one. We spend on average $9 for every 
passenger who flies, and the estimate for the amount of money 
that we spend on transit is a penny or a little less. So that 
kind of tells us where we are in terms of what we have been 
willing to invest in.
    Now, this is not to say that we should replicate the model 
that we are doing in aviation and do a very expensive effort 
with regard to transit. The heart of my testimony here today is 
to say, in fact, this is an opportunity, since we are still at 
the starting line, to essentially recalibrate the approach.
    I want to specifically speak to the threat and why I think 
that we really need to step up our focus on this area, and it 
is not simply because, as was laid out at the very outset of 
your opening statement, Mr. Chairman, we know Osama bin Laden 
had been plotting and thinking about the transit system. We 
have the very explicit examples from around the world of 
attacks since 9/11 on those systems. But the threat is 
evolving. I think there is a convergence of views on this and 
something that I have been part of being able to track as a 
result of my being a member of the National Security 
Preparedness Group led by former 9/11 Commission Chairmen Tom 
Kean and Lee Hamilton.
    Essentially what we are seeing is a fundamental evolution 
in the terrorist threat with increasingly a homegrown quality, 
but also with a focus on smaller-scale attacks. And this is 
driven in part because the capacity to take on large-scale 
attacks has clearly been hampered. But this has also been 
because there has been a bit of an ``a-ha'' moment for al-Qaeda 
and its affiliates, which is, they realize you really do not 
need big, spectacular attacks to get big results. You can get a 
big bang, particularly in terms of disruption, by doing 
relatively small-scale things that basically lead to a reaction 
or in many cases an overreaction that is very costly and very 
disruptive for the society you are targeting.
    And so with that we end up with what Commissioner Ray Kelly 
of the NYPD has called a ``let a thousands flowers bloom'' kind 
of strategy where the recruitment threshold is much lower and 
you are willing to essentially allow lone wolves or an 
individual with a few allies to go off and cause mischief.
    Now, that is the broad backdrop against which to evaluate 
the state of transit security. We have both the homegrown 
dimension to it and the fact that we are looking at one and two 
operatives and not looking for necessarily massive, 
catastrophic scale attacks but things of the ilk that are 
really disruptive, potentially can achieve mass loss of life, 
and are very visible sort of attacks. Mass transit and not 
surprisingly rail freight as well become very attractive to 
satisfying these two criteria. They are open systems spread 
across vast geography that are also accessible to the public 
and that are very time sensitive. Therefore, the ability for a 
relatively small operation to get into the system is minimal. 
The goal is to disrupt the system so you do not need massive 
kinds of things. A derailment or taking out commuters in a 
single car, if that leads to a shutting down of the system for 
a period of time or to Washington then coming up on the fly 
with lots of new requirements to reassure the public, can be 
very expensive and disruptive.
    So what I would suggest is that while we do not have right 
now immediate intelligence that I am aware of to say that 
something is unfolding in our cities, we do have enough in 
terms of general intelligence to say that this is a sector that 
is being targeted, we have instances of it being targeted in 
the past, and we need to focus on it to a much greater degree.
    So now on to my don'ts. What do we not want to do as we 
tackle this problem? I essentially would advance here that 
overall we need to move away from essentially a law 
enforcement-centric, screening-centric approach to tackling 
this issue because of both the difficulty of doing so and also 
because there is an opportunity to take a much different model.
    So my first don't is, we should always avoid in any 
homeland security endeavor, I would argue--and certainly in the 
case of rail and transit security--alienating the very public 
that security officials are obligated to protect. This is 
actually something David Petraeus has figured out in Iraq. Its 
key is, you need the cooperation and collaboration of the 
people that you are protecting, and you want to make sure that 
they see themselves as part of the solution and that they 
understand the risk and they are playing the collaborative 
role. We have a tremendous ability within the transportation 
system to essentially coerce people to comply. You want access 
to the system, subject yourself to A, B, C. But it is not 
necessarily the way you win hearts and minds. And given that we 
have limited resources to be able to bring about something of 
that scale in the transit system, we should not head down that 
path.
    The second don't is, avoid promising more than you can 
deliver. This is something that I think is fundamental to 
governance overall. We do not want to set expectations beyond 
what we can deliver, and therefore, it is very important to 
acknowledge there is risk and there are limits to what 
government can do to eliminate risk when we have an open system 
that is time sensitive and spread over a wide geographic 
space--there will be limits to what we can do to prevent acts 
of terror. And I think the President and the Secretary of 
Homeland Security should be applauded when they talk about risk 
as something that cannot be eliminated. This is an important 
message Americans need to hear.
    Now, we also need to avoid the excessive secrecy impulse 
because if the overwhelming majority of the people we need to 
talk to, particularly those on the front lines of running 
trains, are not in the clearance system, then we are keeping 
them out of the loop. We really need to work much harder, 
pushing beyond the envelope of the very good things that have 
been done around information sharing, and encourage Federal 
players, law enforcement, State and local and security 
officials to get more information out to citizens, the owners 
and operators, and the designers of transit systems so that 
they can start to be a part of the solution set.
    So the last piece here is, we need to be very careful not 
to overreact. When essentially something goes wrong and 
Americans and elected officials overreact, we are only 
motivating the very threat that we are trying to prevent.
    So the way forward. Essentially, the overarching message I 
would like to convey--and I was happy to hear it in the 
testimony provided by both Administrator Pistole and 
Commissioner Boynton--is that many of these thoughts are 
clearly in the mix, but we need to put them on steroids. We 
essentially really need to move away from relying almost 
exclusively on Federal screening and law enforcement to an 
effort that basically says for mass transit--particularly, 
rail, freight, and so forth--we really need to have the public 
engaged, empowered, and focused on the issue of resilience of 
the system as a key security imperative.
    The reason for this is pretty straightforward. The size and 
diversity of the system means that we have a lot of passengers 
and a lot to protect so we need everyone involved. But also I 
think I want to really highlight the extent to which 
particularly in transit there is an extraordinary opportunity. 
If we think about the nature of transit--and I spend a lot of 
time on the Metro-North Line coming into New York 
particularly--most transit passengers often end up on the same 
train at the same time, and many times even in the same seat. 
They end up knowing the rhythm of that system pretty darn well.
    I can tell the story of the Metro-North Line. One of the 
unofficial rules is, you do not use cell phones before 8:30 in 
the morning. Somebody who is not aware of this rule and 
actually starts chatting it up at about 7 a.m. on the train to 
New York will die of a death glare of 40 other passengers 
aboard the train. People immediately know the anomaly. In this 
case, it is not enforceable, but it can feel that you are 
definitely isolated.
    The fact is, folks on that train are aware of their 
environment. They know the rhythm of the environment. They are 
vested in that environment. And they are folks that are clearly 
security assets. It is a little different from aviation. I fly 
a lot, but it is different airports, different airplanes. I do 
not have that same feeling for normal and abnormal. Passengers 
are very much a part of the solution. Of course, conductors, 
who in many cases know the same faces--they may not know all 
the names. In some cases they do because some of their 
passengers are daily commuters. Then there are the people in 
the stations. We need to expand our security effort to those 
who own, who operate, and who are vested in the system. These 
are the passengers and the workers for the transit authorities. 
How the Federal Government brings them in is absolutely 
essential to going forward.
    So what does that mean? We really need to move the public 
education effort from ``see something, say something so that 
law enforcement can take care of it'' to one that gives them 
much more granular detail about what they should be looking 
for, what they should be doing, and how they can help. And what 
I want to highlight particularly would be the opportunity 
perhaps to reach out to the major employers who have lots of 
employees dependent on the transit system and who could convene 
training that could happen at their workplace to engage those 
commuters, not as they run for the train, but when they are not 
in a rush, to sit down and talk a little bit more about transit 
security. This kind of outreach would certainly be very 
helpful.
    The final thing I want to also mention here is a program in 
Logan Airport in Boston. It is a program called Logan Watch. 
Like an airport, the transit system is more than just the 
trains and the passengers on the trains. We have train 
stations. We have shoeshine boys and newspaper dealers and so 
forth, and they should be involved because--again, like we saw 
with Shahzad--they understand the rhythm of their work 
environment. Getting them involved is a very important way to 
go forward.
    Logan Watch is a system by which everybody who works in 
that terminal is given some training--and the goal should be 
annual training--so that they understand the environment they 
are in and they can be a help.
    I have run out of time, so I just want to conclude by 
saying that a focus on resilience, which I have been long 
advancing, is not an exercise in resignation and pessimism. 
Focusing on our ability to respond and recover to incidents is 
a way to deter the incident from happening, and so the extent 
to which we can plus-up more investment in response and 
recovery, exercises and so forth, for incidents should they 
happen, both accidental and man-made, the more I think you are 
going to have a safer system. It does not look like a soft 
target, going back to what I was saying about the threat. It 
is, in fact, something that makes sense pragmatically to do, 
but it also has real value in terms of our goal of hopefully 
mitigating the risk to the mass transit system.
    Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks, Dr. Flynn. That was very 
interesting testimony. I am not a regular commuter on the 
Metro-North Line, but when I do get on the train to go to New 
York, you are absolutely right that there is a sociology of 
train travel. There are people there every morning and every 
afternoon. They know each other. There is a certain extent to 
which they socialize. There is a certain extent, as you 
indicated with the cell phone incident, to which they hardly 
talk to each other at certain hours because they are reading 
their papers or their memos for the day. Anyway, that was very 
practical and insightful testimony.
    Let us do a 7-minute question round to start. Administrator 
Pistole, let me begin with you and ask you to focus in, to the 
extent that you can in open session, on what, if anything, TSA 
did after the evidence came out of the Osama bin Laden compound 
in Pakistan that Osama bin Laden was urging al-Qaeda to think 
specifically about an attack on a rail system in the United 
States on or around September 11, 2011.
    Mr. Pistole. Mr. Chairman, we started off on Monday 
morning, May 2, following the President's announcement Sunday 
night, with a conference call to all the key stakeholders and 
industry as part of a group that is known as the Policy 
Advisory Group to say that this has happened, just be aware of 
possible retaliatory action that may be taken either 
spontaneously by somebody who is a Osama bin Laden or al-Qaeda 
sympathizer or that may have always been a triggering mechanism 
if Zawahiri, No. 2 in al-Qaeda, moved up to No. 1. So we did 
that call just for awareness.
    It was then 2\1/2\ days later, late Wednesday/Thursday, 
before the media document exploitation from the compound about 
that specific threat from February 2010 that noted the rail 
attack on the 10th anniversary. As soon as we received that 
information and the declassified portion of that information 
from the intelligence community, we reconvened that group and 
then did an intelligence dissemination to all the stakeholders 
and the industry to say, here is specific information. Now it 
is over a year old, but it cites an upcoming event, the 10th 
anniversary of 9/11, and so be aware that, because of the 
death, that may again trigger some activity to move up from the 
10th anniversary.
    So there are other things, but those are some of the 
highlights.
    Chairman Lieberman. So is it fair to say that we raised our 
guard in response to that information from Osama bin Laden?
    Mr. Pistole. Yes. Actually, in terms of other activity, we 
also did several things in terms of operational deterrence. For 
example, the industry on its own, with information from us, 
obviously, conducted what is known as a Rail Safety Day, and 
that involved over a thousand law enforcement and security 
officials from across the country, major transit agencies, that 
stepped up patrols, either uniform patrols, K-9 patrols, and 
additional information awareness that given the Osama bin Laden 
death there may be something going on. So that was done, I 
believe, on Thursday or Friday of that week, and so that was 
something that was done based on prior funding from DHS and 
TSA, but really done unilaterally. So there are other steps 
that were taken.
    Chairman Lieberman. Good. How about the suggestion that 
there might be an attempt to essentially disable some track 
over a valley or a bridge? Do we have a way or are transit 
systems raising their surveillance on tracks to prevent that 
kind of episode from happening?
    Mr. Pistole. Yes, and we believe, Mr. Chairman, that this 
is consistent with Osama bin Laden's idea of trying to cause 
not only the greatest number of casualties, but as has also 
been mentioned, the greatest economic impact, plus if you could 
get a train to derail into a valley, just the psychological 
aspects of that.
    As part of that, the transit agencies, Amtrak in 
particular, stepped up their patrols of the rails to look at 
perimeter fencing where appropriate and especially to look at 
the critical areas over bridges and areas that also may be seen 
as more vulnerable--obviously to look at CCTV where 
appropriate, especially at stations. The concern is not only 
the derailment but also the possible attack like we saw at the 
Moscow airport where somebody could go into a crowded station, 
in this case a train station, whether Union Station, 30th 
Street Station, Penn Station, with explosives in suitcases or 
bags, and then do a bombing in that regard. So it is not just 
limited to the intelligence we have. There has been stepped-up 
vigilance across the board.
    Chairman Lieberman. That is important to hear. The bottom 
line--and I am saying it to anybody who is listening--is that 
there is a lot more going on to protect mass transit systems 
than is visible. It is very visible in aviation transportation, 
of course, but less so with rail and buses.
    Commissioner Boynton, give us the response from a State 
perspective to the intelligence from the Osama bin Laden 
compound and, if you can, how you work with TSA, the Metro-
North Line, and Amtrak in Connecticut.
    Mr. Boynton. Mr. Chairman, we used our intelligence fusion 
center--it is a State-run entity, one of 72 around the 
country--to disseminate that intelligence bulletin, and we did 
that in two ways:
    First, for those who have security clearances, we provided 
a classified briefing. We have tripled the number of people in 
Connecticut, like police chiefs, with those clearances, and we 
are adding more.
    And, second, with the unclassified part, our fusion center 
has an existing network to send that out quickly to every 
police department, and in this case, since it was not law 
enforcement sensitive, also to all first responders. And I 
should not say ``police department,'' but all police partners, 
so that includes not only municipal police, State agencies with 
police forces, but also Amtrak and MTA within Connecticut.
    I do want to add that part of our reaction from that 
intelligence took place a year ago and prior to that, that we 
have been doing things, in my view, that help us now, but we 
did not start now. And one example of that is getting that TSA 
intelligence analyst into our fusion center as a primary work 
site. What that allowed us to do is have someone already in 
place in that fusion center who we then could ask to focus on 
surface transportation, focus on rail, and we have already had 
two cases since then of potential rail tampering, of potential 
rail gate tampering in neighboring areas.
    Chairman Lieberman. Right.
    Mr. Boynton. But through the collaboration between fusion 
centers, because we have the luxury of someone who focuses on 
that--but that is something that was in place 2 years ago, 
which helped us now.
    Chairman Lieberman. So was there an event that led to that 
occurrence 2 years ago, or was it an administrative decision at 
some level, TSA or State?
    Mr. Boynton. It was an administrative decision between the 
Federal Security Director for TSA at Bradley Airport and the 
Commissioner of Homeland Security. It was the previous TSA 
Federal Security Director that----
    Chairman Lieberman. What was his name?
    Mr. Boynton. I think that was Commissioner Boynton.
    Chairman Lieberman. Thank you. My time is up. [Laughter.]
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Pistole, I want to start with something that Dr. Flynn 
raised in his testimony. He said that the first rule is to 
avoid alienating the very public that security officials are 
obligated to protect. As you know, there has been some 
criticism of TSA over the years, most recently about the 
selection of a small child to be patted down, but also people 
have raised questions about why a very elderly woman had to go 
through such scrutiny.
    Is TSA considering any actions that would focus more on a 
risk analysis using intelligence to select individuals for 
secondary screening?
    Mr. Pistole. Thank you, Senator, and I agree with that 
point in terms of not alienating the public that we are trying 
to protect. The challenge, as we know, comes in the practical 
application of that. And to your point, we in TSA since last 
fall, actually before the Thanksgiving issues arose, have been 
looking at a risk-based security initiative to do exactly what 
you have described, to try to identify those that we know 
something more about, whether they are frequent flyers, whether 
they hold top secret security clearances, whether they, based 
on the intelligence we know, do not fit in a category such as 
the very young or perhaps the very old, who we could expedite 
their screening at airport checkpoints. That would then allow 
us to spend more time with those that we do not know very much 
about other than what is in Secure Flight, the three data 
fields, name, date of birth, and gender, which allows us to 
compare to the terrorist watchlist. We obviously want to spend 
the most time on those who would be selectees, but then in the 
next category, I would say we want to spend as much time as 
possible on those that we do not know much about and then the 
least amount of time, frankly, using a risk-based approach, to 
say this person has traveled 100,000 miles in the last year, 
she has done that for the last 20 years, what is the 
possibility of her being a terrorist? It is very small, so let 
us treat her in that regard.
    So it incorporates some of the aspects of what is known as 
trusted travelers, known traveler programs, and some other 
aspects of that. So we have had a fair amount of discussions 
with industry about that. There is a great deal of interest, 
whether you talk about a checkpoint of the future that one 
association is promoting. There are a lot of technology aspects 
to it, but a lot can be done right now with enhanced behavior 
detection and information that passengers are willing to share 
with us.
    Senator Collins. Thank you. I support TSA's and DHS's 
expansion of the See Something, Say Something campaign, and 
indeed, mass transit systems have been using this for many 
years. New York City subways, for example, have had it for 
nearly a decade.
    I mentioned in my opening statement that Senator Lieberman 
and I authored the law to give immunity to individuals who make 
such reports, as long as they make them to the proper 
authorities and act in good faith. This was in response to an 
infamous case involving US Airways when passengers did just 
that, and then the airline, its crew, and some of the 
passengers got sued.
    Does TSA or do you personally support extending the law so 
that it is not just confined to the transportation sector?
    Mr. Pistole. Senator, I think it makes sense. We want to 
encourage people to provide information without concern about 
liability from something that would come about. That being 
said, I know the lawyers at DHS are looking at all of that and 
are going to provide a formal response, but, yes, I think it 
makes sense.
    Senator Collins. Thank you.
    Commissioner, you have so much experience at the State 
level, and one comment that you made that really resonated with 
me is when you said that their security, the security of big 
cities, depends on our security, that you are feeding people 
into those lines. It resonates with me because two of the 
hijackers on 9/11 started their journey of death and 
destruction from Portland, Maine, and I think that is often 
forgotten when some of our colleagues argue that all of the 
homeland security money should go to just large urban areas. My 
colleague from Kentucky just had the case where two suspicious 
individuals in Bowling Green, Kentucky, were arrested. So I 
think that we need to understand in this country that security 
is everyone's business, that terrorists hide and train and plan 
in rural areas and not just in the areas that they are apt to 
strike. So thank you for making that important point.
    I want to ask you about the training exercises. Like the 
Chairman, I have been a huge proponent of having more exercises 
that involve Federal, State, county, and local officials 
because if disaster strikes, you do not want people meeting 
each other for the first time and exchanging business cards in 
the middle of it, which is what happened with Hurricane 
Katrina, and that is why we restructured FEMA to have regional 
offices and have pushed and funded these training sessions.
    I want to know from you, however, whether we are striking 
the right balance. CRS tells us that the transit security 
measures, including training, tend to emphasize managing the 
consequences of an attack. In other words, they are focused on 
response. And I agree with Dr. Flynn that response and 
resiliency are important. But to me, our focus should be on 
trying to detect, deter, and prevent the attack in the first 
place.
    So how do you rate the effectiveness of the training 
sessions? Are we striking the right balance between teaching 
prevention techniques versus consequence management?
    Mr. Boynton. Senator, I can tell you that we have had a 
number of exercises in Connecticut--Norwalk, Old Saybrook, and 
two other locations--and another one where we sent from 
Bridgeport about 40 people to the TEKS Program down in Texas, a 
terrific program where they do very well simulated exercises. 
And the unusual thing about this was that it included fire, 
police, emergency management, emergency medical--all four 
disciplines, including the chiefs from each of those 
departments--carving out essentially a week of time and moving 
30 people down to Texas to do this. So it was a fully 
integrated training exercise. That was just within the last 
couple months that we did that, and the key thing there was the 
fully integrated part of it.
    In the case of the exercise in Old Saybrook, which is on 
the northeast corridor, that included taking a rail car off on 
a siding and then simulating a shooting event, all phases of 
the response right to the point of actually taking passengers 
out through the windows. Normally something like that is 
simulated because you might hurt somebody in the exercise. They 
actually went to that level of actually moving people out of 
the windows. So really terrific exercises, but I would agree 
with you that the focus is on response, and I think perhaps as 
part of this not just see something and say something but do 
something, that really could be a great trigger for us to then 
move into training and exercising not just first responders but 
some members of the public to help us with what specifically 
are we asking you to look for and how exactly are we asking you 
to report it, and then what do you do. And it is not that we 
have not done that. We have very robust See Something, Say 
Something campaigns, but I think we could use more in that 
area.
    Senator Collins. Thank you
    Mr. Flynn. Senator, could I add just one thing to that?
    Chairman Lieberman. Go ahead.
    Mr. Flynn. One of the reasons why I place such emphasis on 
response and recovery is that it helps to get people vested in 
couldn't we do more to prevent something in the first place. In 
other words, when you get citizens involved in response and 
recovery, they become much more vested in how they could be 
helpful in prevention efforts. So exercises are so important 
because, as a practical matter, we are not going to eliminate 
every threat, which could lead us to overreact. But exercises 
also very much support prevention and protection efforts as 
well.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Dr. Flynn, and thanks, Senator 
Collins. Senator Paul, you are next.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Thank you, and thanks to the panel for coming 
today.
    I wanted to follow up on Senator Collins' question to Mr. 
Pistole. Currently, the invasive patdown searches are random 
and not based on risk assessment?
    Mr. Pistole. No, actually they are based on intelligence 
that we know specifically from Christmas Day, Abdulmutallab, 
and the way he concealed that device. There are some random 
patdowns, if that is what you are referring to, but it is based 
on the intelligence.
    Senator Paul. So I guess this little girl would be part of 
the random patdown? This is the little girl from Bowling Green, 
Kentucky, one of my constituents. They are still quite unhappy 
with you, and I and a lot of other Americans think you have 
gone overboard and are missing the boat on terrorism because 
you are doing these invasive searches on 6-year-old girls.
    The same week that this happened, I received a call from 
another neighbor of mine in Bowling Green. A little boy had a 
broken foot and crutches. They did not want to go through all 
the screening, so they took the crutches off and the cast, and 
he wanted to hobble through on his broken foot, and his Dad was 
helping him. TSA said, ``Back away. Back away.'' Then he had to 
go through the special search because he previously had a cast 
on even though the cast went through the belt. When the Dad 
comes close, they say, ``Back away. Back away. If you do not 
back away, you will not fly.'' This kind of gets back to this 
whole idea of what are we willing to do, what are we willing to 
give up as a country.
    In your interview with ABC News, you said, ``I see flying 
as a privilege.'' Well, there are those of us who see it 
otherwise, the Supreme Court included, and Saenz v. Roe, in 
1999, says that although the word travel is not found in the 
text of the Constitution, the constitutional right to travel 
from one State to another is firmly embedded in our 
jurisprudence.
    Justice Potter Stewart went on to say in Shapiro v. 
Thompson that the right to travel is so important that it is 
assertable against private interference as well as governmental 
action, a virtually unconditional personal right guaranteed by 
the Constitution to us all.
    Now, this is not to say we do not believe in safety 
procedures, but I think I feel less safe because you are doing 
these invasive exams on a 6-year-old. It makes me think that 
you are clueless since you think she is going to attack our 
country and that you are not doing your research on the people 
who would attack our country. It absolutely must involve a risk 
assessment of those who are traveling. The fact that she is 
being patted down--I do not feel comfortable really with your 
response that, ``We are no longer doing it. We may be doing 
some risk assessment. We are still doing random patdowns.'' I 
think you ought to get rid of the random patdowns. The American 
public is unhappy with them. They are unhappy with the 
invasiveness of them. The Internet is full of jokes about the 
invasiveness of your patdown searches. And we ought to really 
just consider whether this is what we are willing to do.
    While we are doing ``random patdowns,'' there are examples 
where we have had letdowns. When Faisal Shahzad got on the 
plane, the alleged Times Square bomber, he was on the 
watchlist. Everybody said, ``It was the airline that let us 
down.'' Well, he had to go through TSA screening. It was not a 
long time, but there were 10 hours, and we ought to be able to 
react. His name was on the watchlist, and he went right through 
TSA.
    Is the TSA looking at flight manifests? Are you doing 
background research of people getting off and on planes? Are we 
targeting who we are looking at based on who might attack us? I 
really get the idea that because our approach is so politically 
correct, it has to be so universal that 6-year-olds and 90-
year-olds and people in wheelchairs are agressively screened. 
You probably saw in the newspaper the other day the young man 
who is mentally handicapped who had a plastic hammer. Because 
you are telling your agents to do this, they took away 
something the boy had had for 29 years. If you have ever dealt 
with a child with autism, there are certain things that comfort 
them and keep them calm, and to do that really just shows that 
no one is thinking. They are given this rote, automaton message 
to crack down, pat people down, and do this. Catching 
terrorists should be about police work. Most of these people 
are caught by police work. The hijackers who came here were 
overstaying their welcome. They were on student visas, but they 
were not going to school. We need to be doing better police 
work and less of the universal giving up of our freedoms.
    I would like you to comment a little bit about the right to 
travel as a privilege and then a little bit about the idea of 
the universality of insult that we are being given versus 
targeting this toward people who might attack us. Thank you.
    Mr. Pistole. Thank you, Senator. You have raised a number 
of important issues. Let me try to take them in order.
    In terms of the patdown of the 6-year-old, that, of course, 
is something that is done based on intelligence that is 
gathered from around the world, not as to a specific 
individual, but if there is an anomaly detected or for some 
reason the resolution cannot be done other than through a 
patdown, that is what is done. Unfortunately, we know that 
terrorists have used children under 12 years old as suicide 
bombers in other locations--not in aviation, but there have 
been two 10-year-olds used. We also know that two 
grandparents--one grandmother and one grandfather, 64 years old 
in both situations--have chosen to be suicide bombers. So it is 
informed by the intelligence.
    I agree with you that we need to be smarter in how we go 
about doing things. We need to use more common sense. When TSA 
was stood up nearly 10 years ago, it was given a mission: Do 
not let this happen again. And the men and women of TSA have 
taken that very seriously. Secretary Napolitano and I are 
working on a risk-based security initiative to say, yes, let us 
take what we know, some of the passenger manifest information, 
especially those who are willing to share information with us, 
so we can make better judgments, better informed decisions as 
to this particular person, what risk do they pose? And so how 
can we expedite their screening if they are not seen as a risk?
    So we are doing a number of things. I would be glad to 
provide some more detailed briefings to you in a closed setting 
on that.
    Senator Paul. Right. And just one follow up on that. I 
mean, 10 years is a long time. It has been a decade now. We do 
not have a frequent flyer program. We do not have a trusted 
traveler program. I do not want this to be against the TSA. I 
know most of the agents, and I think they are good people. But 
at the same time, they are wasting their time. All these 
Congressmen and Senators go back and forth, but to be fair, TSA 
agents have to search all of them. They know us by name a lot 
of times, and we are getting the same patdown search as 
everybody else to be fair. But so are the frequent travelers. 
My brother-in-law is on two or three planes a week. He is an 
Air Force graduate. He is clearly not a terrorist. And so they 
are wasting time on all these people. But I really think as far 
as the privacy issue, there were the beginnings of this, let us 
turn it over to a private company. We should have a frequent 
flyer program that you can voluntarily participate in. Let us 
get it done. Thank you.
    Chairman Lieberman. Thanks, Senator Paul.
    I want to just clarify about the 6-year-old. Based on the 
evidence that children have been used by terrorists, did that 
6-year-old set something off in the screening that led to the 
patdown? Or was it a random patdown?
    Mr. Pistole. No, if I recall correctly on that particular 
one, the child moved during the screening so they were not able 
to get a clear reading. And so what we have done, just for your 
awareness, we have changed the policy to say that there will be 
repeated efforts made to resolve that without a patdown.
    Chairman Lieberman. Right.
    Mr. Pistole. Although it is premature, I will be announcing 
something in the not-too-distant future about a change in 
policy as it relates to children and under.
    One of the challenges, as you know, is that we not provide 
a road map to terrorists saying here is exactly the criteria.
    Chairman Lieberman. Right.
    Mr. Pistole. And so if this category is exempt from most 
screening, then how will terrorists exploit that and game the 
system. So that is our challenge and that dynamic between 
security and privacy we try to tread.
    Chairman Lieberman. Thanks. Senator Landrieu.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Thank you. Mr. Chairman and Senator 
Collins, thank you so much for holding this hearing. I think it 
is extremely timely and extremely important.
    As you know, I am the Chair now of the Appropriations 
Subcommittee on Homeland Security, and Senator Coats and I are 
in the process of writing our bill for this year, and this is a 
very important subject and very timely because, unfortunately--
which is why I wanted to come this morning, to call to your 
attention since you and Senator Collins have worked so hard on 
the reorganization, the development and creation of the 
Department of Homeland Security, and have put so much effort 
into it--the homeland security bill that has been sent over by 
the House of Representatives cuts the exact grants that support 
rail and transit security and emergency response by over 60 
percent. So I do not know how we accomplish the security 
objectives that are the subject of this morning's hearing with 
a 60-percent reduction in the grants--transit security, port 
security, training and preparation. This cannot be done on the 
cheap, and it has to be well resourced and well focused. So I 
wanted to bring that to your attention.
    In addition, I want to also strongly object to the 35-
percent cut in Science and Technology because, clearly, this is 
an area where we need more science, not less, and better 
technology, not mediocre or the same technology. We have to 
stay ahead of the terrorists, not behind them, and I think 
cutting a research and development budget borders on reckless, 
and we have received a bill from the House that comes 44 
percent below the President's request for this year and 35 
percent below where we were in fiscal year 2011.
    Let me give you a specific example. The VIPR teams were 
described this morning as being highly effective, and the 
President included in his budget funding for 12 additional VIPR 
teams. Those have been eliminated in the House homeland 
security spending bill. So I want to submit for the record the 
rest of my statement in writing, but Senator Coats and I have 
quite a challenge to put a budget together that supports some 
of these efforts and the obvious and evident evolving threat, 
particularly since based on the information that we received 
from the capture of the documents from the Osama bin Laden 
compound, we now have not a direct but a pretty good idea of 
where some of this was headed. So I want to just include that 
in the record.\1\
---------------------------------------------------------------------------
    \1\ The pepared statement submitted for the record by Senator 
Landrieu appears in the Appendix on page 440.
---------------------------------------------------------------------------
    I do want to associate myself with the remarks of Senator 
Collins and the Senator from Kentucky. I think some of these 
patdowns of children--and I have expressed this to you before--
are so contrary to what we are trying to accomplish, and I 
surely hope that TSA can be responsive and smarter about what 
we are doing.
    The travel industry is very important to Louisiana--and to 
many places, but our State has a tremendous business and 
industry built on travel. We have been hearing a great deal 
from the industry about the difficulty, the loss of jobs, the 
loss of income, the missed opportunities to get travelers into 
our country because it is, frankly, getting so difficult to get 
here, people are choosing to go elsewhere. We want terrorists 
to go elsewhere. We do not want business people and tourists to 
go elsewhere. We want them to come to Connecticut and go to 
Maine and come to Louisiana and go to New York.
    So what is your timeline for a trusted traveler program? Is 
there something that this Committee or the Appropriations 
Committee could help you with? Specifically, what is your 
timeline for some sort of trusted traveler program?
    Mr. Pistole. Well, first, Senator and Madam Chair from the 
Appropriations Subcommittee, let me thank you for your 
supportive comments on the budget. Those items that you 
highlighted are key aspects of what we are trying to do in TSA 
and the Department of Homeland Security to protect the 
traveling public. So thank you for your strong support of that.
    We are doing a number of things, and let me just briefly 
outline what we have done thus far in terms of doing a program 
with the pilots, those in charge of the aircraft, to say, look, 
they are the most trusted people out there. They are in charge 
of the aircraft. If they have a small knife or some prohibited 
item on them, frankly, that is not what is going to bring down 
the aircraft. So we have worked with the airlines and the 
Pilots Association to say, yes, let us go through identity-
based screening with them.
    We have also changed the policy for the World War II 
veterans who come into Washington, DC, to visit the World War 
II Memorial on charter flights. You know, the youngest of 
these----
    Senator Landrieu. We have had the most honor air flights of 
any State, and I am so happy to hear that.
    Mr. Pistole. So the youngest is 84, and two-thirds are in 
wheelchairs, and even though our officers are very respectful, 
talking about giving them a massage rather than a patdown, it 
is something that I felt was not needed, not common sense, and 
so we changed that policy several months ago.
    Also, we are looking at children, looking at the elderly, 
and recognizing there are challenges there. And then to your 
point on the trusted traveler, we hope to be piloting some 
initiatives this fall to see how it would work. We are working 
with the airlines, U.S. carriers initially, to say for those 
willing to share information about themselves, what can we 
glean from that that would help us make informed judgments?
    Senator Landrieu. But do you have a timeline for the 
trusted traveler business flyers, not the pilots, not the Honor 
Guard, but----
    Mr. Pistole. Right. So for the trusted travelers, whether 
we call them trusted traveler, known traveler, as I mentioned, 
we hope to start a trial this fall in select airports and 
airlines, U.S. carriers again.
    Senator Landrieu. With the idea that if it goes well, we 
could implement it within 12 months or 24 months or----
    Mr. Pistole. I would hope we would see some significant 
changes in 2012. I do want to make sure to manage expectations 
with the traveling public. It is a complex issue, and so I want 
to basically underpromise and overdeliver, but we will be doing 
some things that some passengers will see as early as this 
fall.
    Senator Landrieu. I would hope that as you give pilots some 
access, you would consider also the flight attendants who work 
these long shifts and sometimes spend so much extra time in the 
airport that it just causes the morale of this whole industry 
to be at a level that I do not think is appropriate.
    So I want to associate myself again with the remarks of 
Senator Paul and Senator Collins on this issue, and I thank the 
Chairman for his courtesy.
    Mr. Pistole. Thank you, Senator.
    Chairman Lieberman. Thanks very much, Senator Landrieu. I 
appreciate your work on the Appropriations Committee, and I 
forget whether you were here, but I was talking about--what is 
the gracious adjective? I was about to say ``foolish''--how 
foolish it is at this moment to cut the budget of the Science 
and Technology Directorate of the Department of Homeland 
Security. These are really investments in our future security. 
We all know we are under economic stress and we need to do 
things we would not normally do to balance the budget. But 
thanks for that and thanks for fighting for the other funding 
that you are fighting for, which I am confident will certainly 
lead to a higher level of support for homeland security than 
exists in the House budget.
    We will do a second round of questions. Dr. Flynn, I missed 
talking with you on the first round. You are a very interesting 
and thought-provoking thinker on these subjects. You said a 
couple of things in your opening statement about both moving 
beyond screening, if you will, in these kinds of security 
matters and avoiding alienating the public that we are trying 
to protect. I want to ask you to talk a little bit more about 
that, particularly about moving beyond screening. I have 
assumed that we are doing screening of airline passengers 
because we cannot figure out, frankly, a more effective way to 
make sure that somebody does not go on a plane with the 
intention of doing harm, of carrying out a terrorist attack. 
And sometimes people have been before this Committee and asked 
a reasonable question, which is: We know it would be 
inconvenient to do airline-type screening on rail travel, but 
would we not feel more secure if we knew that everybody had 
been through some kind of detector to get on a train, 
particularly knowing that trains have been a target of 
terrorists?
    I want to invite you to speak in a little more detail, to 
explain what you meant about moving beyond screening, and also 
perhaps to get into this question of what are the alternatives 
to screening. Are they as effective? And particularly with 
regard to rail, are there other things we could do, including 
more screening?
    Mr. Flynn. Well, Senator, thank you very much. I want to 
say first that, no matter what, screening is always in a 
portfolio of tools, but really per this conversation that 
preceded your question, one of the things that I am concerned 
about, the broad message that I think we need to take away from 
mass transit security, is you really need to make the public a 
partner in the process. And the face of homeland security for 
the overwhelming majority of Americans is what they experience 
at airports.
    Chairman Lieberman. Right.
    Mr. Flynn. And to the extent that they do not understand 
what is happening is being based on sound judgment, assessment 
of risk, and so forth, they are not likely to be cooperative. 
And so that is why I think we really need to speed up efforts 
to figure out how we do a risk-based screening approach, less 
intrusive for some portion of the population, and so forth. 
That is going to be very important, I think, for the broader 
effort.
    But, the essential problem of relying heavily on a 
screening approach is that it largely assumes that everybody 
who enters the system poses a threat unless they can be 
discerned by a security official that they are not. And that is 
not manageable within the mass transit systems for them to work 
in most urban areas because it is such a time-sensitive, open 
system.
    Chairman Lieberman. Right.
    Mr. Flynn. As a practical matter, people know that they are 
taking risk on any system. There are safety risks, of course, 
associated with it, whether it is risk of personal safety in a 
busy station, people taking hazardous objects on trains, and so 
forth. They have to balance that with the function that they 
are trying to do, which is to get from A to B through that 
system.
    The extent to which we get the public to be seen as both 
helping on the prevention side, aware of the environment, and 
everybody from the T-shirt vendors, as we saw in Times Square, 
the shoeshine boys, and others to be on the lookout for what we 
know are core elements of carrying out an attack--surveillance. 
Typically, nobody just shows up for the very first time to do 
something bad. They want to check out the place first because 
they need to be successful. There are typically dry runs that 
have to happen before somebody launches an attack.
    All that creates opportunity for detection that this is 
somebody who is really up to no good, but also creates a 
deterrent for that person to come into that space because he is 
aware there is that operational kind of awareness and there is 
that engagement by the people who are present at the front 
lines literally, the passengers, the transit operators, the 
folks who are working around the station.
    So the extent to which we emphasize screening at the cost 
of those engagement efforts, I think what you will end up with 
is alienation without perhaps the benefit that these other 
strategies would provide. And, again, we know in the case of 
aviation there is a portion of the public, the frequent-flyer 
public and people of certain backgrounds, that we should be 
able to mitigate how much screening we subject them to, it 
should be a no-brainer.
    We also need to give more discretionary judgment 
capabilities to screeners to make the calls versus to work in a 
real mechanical way. But, fundamentally, it is about getting 
the public more involved, and if they sense that this is solely 
the job of external screeners to do this and they do not have 
an obligation except to submit to the screening, then we are 
not going to get the kind of buy-in that I think we need about 
how to manage the risk going forward.
    Chairman Lieberman. That helps me understand. So you are 
not saying end screening. You are saying it has to be part of a 
total approach, and it ought not to be seen as basically giving 
the public a pass.
    Mr. Flynn. Yes.
    Chairman Lieberman. I think Dr. Flynn's insight about the 
people who essentially work and live in train stations is an 
interesting one, and I just wonder whether that is part of our 
normal routine. In other words, are train stations and transit 
systems training the news stand operators, the people at the 
coffee stands, the shoeshine people, etc.? Because they really 
do see a lot, and therefore, they can say a lot and do a lot.
    Mr. Pistole. There has been a limited amount of that done, 
but we would like to expand that, as Dr. Flynn mentions.
    Chairman Lieberman. Good.
    Mr. Pistole. I think there is a great force multiplier 
available to which we can avail ourselves.
    Chairman Lieberman. There is. I know that in air travel, of 
course, we do not just have the screeners, but we have people 
who are experts in evaluating the behavior of people boarding 
the planes. Since the consensus seems to be that because of the 
openness, the speed of the trains, etc., that we cannot and 
should not apply a screening model from aviation to trains, 
should we be using more behavior experts to evaluate people as 
they move onto trains or subways?
    Mr. Pistole. Mr. Chairman, I think that is a good idea that 
we have been able to do on a limited basis. One of the key 
aspects of the VIPR teams that we use with random and 
unpredictable aspects is to not only have this uniform presence 
because we know that terrorists are deterred by uniformed law 
enforcement officers, K-9, and CCTV, unless they are a suicide 
bomber then they do not care about the CCTV. But those three 
things are important layers of security all informed by 
intelligence. But when it comes to behavior detection, one of 
the best opportunities we have is when there is a VIPR team, 
let us say a dozen uniformed officers, K-9, walking through a 
train station, to have a plainclothes behavior detection 
officer to see people responding to that. I would have loved to 
have been in Schiphol Airport on Christmas Eve 2009 to see 
Abdulmutallab walking with his underwear bomb toward screening 
and to have a K-9 uniformed officer walking toward him, then 
with a plainclothes behavior detection person observing how 
does he respond to that officer and that K-9. I doubt that he 
would have had the audacity to walk right by that person, the 
K-9, for fear of detection.
    Chairman Lieberman. Right.
    Mr. Pistole. So that is what is key: How can we deploy 
behavior detection in a smart, efficient way? We are not 
currently budgeted to do that across the board, but that is how 
we try to be force multipliers to State, local, and Amtrak.
    Chairman Lieberman. Very smart. That combination I think 
would be very effective. Thanks. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Pistole and Commissioner Boynton, I listened to the 
exchange with Senator Landrieu, and I, too, am concerned about 
the deep cuts in some of the homeland security grant programs. 
One challenge that we face, however, is that there has been a 
low rate of obligation of the money in the area of mass 
transit. And, indeed, there was one audit that was done by 
FEMA--and I realize these are FEMA grants, so if you cannot 
fully respond, I understand. But back in fiscal year 2006, 
something like 90 percent of the money for mass transit and 
rail security measures remained unobligated.
    Mr. Pistole, are we doing better in getting those funds 
out? And, Commissioner Boynton, from the local level or from 
the State level, can you give us any insights on why it takes 
so long for that money to actually be expended for the purposes 
of improving security?
    Mr. Pistole. Thank you, Senator. Let me start off by 
saying, yes, we are doing better, but we are still not where we 
should be in terms of the whole process. It is something that I 
think has frustrated everybody involved. You have correctly 
identified that TSA is responsible for identifying with FEMA 
and DHS and the industry where the highest risks are and for 
awarding the funds, and then the actual drawdown of those funds 
and the use of those funds are up to, obviously, industry and 
FEMA how that works.
    Some of the issues, I think, going back to 2006, were with 
multi-year projects that were, if you want to say, not shovel-
ready, if it came to actually critical infrastructure 
enhancements and things, whether it is strengthening tunnels or 
bridges and things like that. And so I think there has been 
additional focus on operational deterrence things, such as 
training where even though there is still delayed rulemaking 
that is out there, over 90 percent of the people in the 
critical high-risk transit areas have been trained. So even 
though the rulemaking is still pending, we have gone ahead and 
provided the substance of what was to be covered by the 
rulemaking. So we are not letting the bureaucracy, if you will, 
get in the way of the substance of what, in this case, the 9/11 
Commission Act required. I will defer to Commissioner Boynton 
on the other parts.
    Senator Collins. Commissioner Boynton.
    Mr. Boynton. I think I can give a couple examples. In one 
case, we have a capital improvement project on the Metro-North 
Line where we want to put fiberoptic cable along the entire 
line to connect all of the CCTV cameras. We have cameras at a 
number of stations, different places along the line, in the 
rail yards. Right now most of those cameras--not all of them 
but most of them--are localized. And given the governance of 
the rail system, that can be problematic, and let me just give 
one example.
    There are towns along the rail line where there are 
multiple stations in the same town, and each one of those 
stations is managed differently by different entities, some 
with participation by the municipality, even within the same 
municipality, some without. So tying these cameras together is 
very important to us. We are unable to compete, given the size 
of our transit system, to fully fund the project at any point 
in time. So the best we have been able to do--since 2006, we 
have just over 1.5 percent of the national total of transit 
security grants--is to save the money to get the project done. 
We think we have saved about half. In the meantime, we are 
moving ahead with the design phases of the project with 
additional cameras. We are holding the money on purpose because 
we cannot afford the project in any 1 year because we are not 
able to compete at that level. And I am actually not being 
critical. The needs of the much larger transit systems in the 
large urban areas are overwhelming. I want them to have more 
money than we have, but part of the reason we are holding that 
money is on purpose. And then there is a second reason, and it 
is not just the transit grants. It is many of the other grants 
in our grant portfolio. Many of these grants have 3-year 
performance periods. Those are the rules we were given. In all 
of our grant planning with, in our case, 169 municipalities, 
two tribal nations, dozens of State agencies, we were told, 
``You have a 3-year performance period for these grants.'' We 
have statewide homeland security strategies, 10 goals, 80 
objectives, 403 measurable criteria, all laid out. We have 3 
years to spend this wisely. It is coming as a little bit of a 
surprise to us now that we are being challenged: Why have you 
not spent this money? We have not spent it because we were told 
we had 3 years to spend it, and we are using that time wisely.
    Senator Collins. Dr. Flynn, do you have anything to add to 
this? I know it is more the other two witnesses' purview.
    Mr. Flynn. Sure. What I continue to hear about is the 
difficulty often of chasing these very small numbers of 
dollars, so I guess I would just reinforce the concern of 
Senator Landrieu that some folks basically saw there was maybe 
a pot of gold that you would have in Washington to advance 
homeland security at the State and local level and through 
critical infrastructure. I often characterize it as a ``thimble 
of gold.'' And what happens here is these decisions are being 
made in a kind of triage fashion. At its core we have to look 
at these as systems.
    I think one of the important points that Commissioner 
Boynton made here today is about how the riders who are coming 
from Connecticut as far away as New Haven, 90 miles, are going 
to the belly of the beast, Grand Central Station in Manhattan. 
And assessments about where we apply resources and how we roll 
them out, that is going to take time. It is not something you 
can just throw together. You have to have the collaborative 
mechanisms. And I want to reinforce the idea of using the area 
security committee model we have in the maritime world as 
potentially a process for managing grants in the other 
transportation sectors. It is very important, and we often lose 
sight of this. In the case of Connecticut, trains connect 
passengers to ferries. It is trains, buses, and trucks, and it 
is all there together. And connections by trains to airports, 
such as Newark Airport.
    We have not really been looking at the system and the 
integrated nature of that system, leaving State and local 
officials to fight for scraps, and the scraps are not being 
used as well as they should be used.
    Senator Collins. What worries me--and, Commissioner, I am 
going to use your examples--is many of our colleagues look and 
see unobligated funds, or funds that have been obligated, but 
it is 2 years later and they have not been spent, and they make 
two conclusions: The program is overfunded, that money was 
never needed in the first place, we can slash that from the 
budget; or they conclude that it is being poorly managed and is 
not really needed, and thus, they reach the same conclusion 
that it can be slashed from the budget.
    The desire around here to sweep up unobligated or unspent 
funds is enormous, given the budget constraints, and the irony 
is that it penalizes projects and good planning and communities 
that are actually spending the way you would want them to 
spend. They are formulating a careful plan so that they do not 
waste the money. And I think this is going to be a real battle 
for us. I hear it all the time from our colleagues, ``Well, the 
money is not needed because it has not been spent,'' when, in 
fact, the careful planning that is going on, which takes time, 
ensures that the money is spent wisely and not wasted. But it 
is an uphill battle, I will tell you.
    Finally, Administrator Pistole, I want to commend you for 
keeping your commitment made a year ago to come up with a 
Surface Transportation Security Priority Assessment. For the 
record, I would like you to give us an update on the 20 
recommendations that you made as far as what the timeline is 
for implementing those recommendations and how it is going. But 
I do commend you for completing the project.
    Mr. Pistole. Thank you, Senator.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins.
    I would just indicate to the witnesses, in the 
characteristically unpredictable way the U.S. Senate works, we 
are not taking up a bill on the Senate floor at 11 a.m., so we 
have a little more time.
    Senator Carper, thanks very much for being ready to take 
the gavel if Senator Collins and I had to leave, and thank you 
for being here now to ask your questions.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you. I apologize for being in and 
out. We have a Finance Committee hearing going on just one 
floor below, and we are focusing on improper payments or 
overpayments of about $17 billion a year on unemployment 
insurance. So that is important. This is important, too, and I 
tried to go back and forth as best I could.
    I just want to mention that for about 8 or 9 years, Senator 
Biden and I used to ride the train together, a lot of days back 
and forth, and before that with Mike Castle, our Congressman. 
And I still ride the train almost daily now with Senator Chris 
Coons and with Congressman John Carney. I call us ``The Three 
Amigos.'' We love to be able to live at home and take the train 
to work.
    Every morning the train is packed with passengers. In fact, 
I sat in the quiet car this morning. Every seat was filled. And 
I think Amtrak has set a record again this year. I think last 
year it was about 28 million. This year they are, I think, 
approaching 30 million people. And I am delighted that so many 
fellow Americans have decided to take the train along with the 
rest of us.
    However, I am also concerned about the threat that those 30 
million passengers face, as well as others who ride the rails 
with local transit services. I just want to ask how the 
Department of Homeland Security is coordinating with Amtrak to 
improve train safety. Mr. Pistole.
    Mr. Pistole. Thank you, Senator. We work very closely with 
Amtrak. Chief O'Connor and I speak frequently about security 
precautions that they take unilaterally and best practices that 
we recommend from either here in the United States or from 
around the world. We have provided Amtrak nearly $100 million--
$97 million since 2006--for specific security enhancements to 
Amtrak to protect those 28 to 30 million people who are 
traveling every year, and there are a number of aspects to 
that, both on training of Amtrak officers and rail personnel to 
look for anomalous activity, obviously the See Something, Say 
Something campaign for the general public, the ridership 
especially, and enhanced K-9 patrols
    Senator Carper. Do people ever say anything? When I am at 
Union Station and the station back home, I hear these 
announcements all the time. You hear them in airports, too. But 
do people ever say anything?
    Mr. Pistole. Yes, in fact, I have asked that question 
because we are investing in that, and the answer is yes, in 
some places more than others. One example I have is in Boston 
from the MBTA where from 2010 to 2011 they have seen over a 
100-percent increase in people reporting things. Now, they have 
taken some interesting initiatives, including one of which I 
happen to have a photo of a 16-foot or 12-foot backpack that 
they put out in some of their stops, and Chief Paul MacMillan 
is standing by that backpack, and the caption is: ``It is never 
this obvious.'' So it is not going to be a bomb that just looks 
like something huge like that.\1\
---------------------------------------------------------------------------
    \1\ The photo referenced by Mr. Pistole appears in the Appendix on 
page 449.
---------------------------------------------------------------------------
    Senator Carper. The folks in the audience cannot see that. 
That is a big backpack.
    Mr. Pistole. That is a big backpack, right.
    Senator Carper. I would certainly say something if somebody 
came carrying one of those on their back.
    Mr. Pistole. Yes, so the idea is it is not as obvious as 
that, so let us be alert, let us be attuned to what is around 
us, and I think the partnership, which was mentioned on the 
panel this morning, is the key criteria. So we can do all the 
security enhancements, we can do all those things, but I think 
it really will come down to an alert individual, perhaps a 
police officer, or perhaps a K-9, who sees something and takes 
action to disrupt a possible plot.
    The best opportunity we have is like what we saw with 
Najabullah Zazi where we were informed by intelligence well 
before he got to New York City with the backpacks. That is the 
best possible opportunity we had. Or, for example, the Yemen 
cargo plot with the toner cartridges, intelligence that helps 
inform our judgments. If it gets through all those layers of 
intelligence and somebody is actually getting on a train in 
Wilmington or Newcastle or wherever, and we know nothing about 
them, then it really comes down to somebody seeing something 
and taking some action with local law enforcement or Amtrak.
    Senator Carper. All right. Thanks.
    Mr. Boynton, as a State partner, you have, I think, an 
interesting perspective on the interaction between Federal, 
State, and local security officials. Many of the public 
transportation systems that service Connecticut also travel 
through other States, such as Amtrak and the Metro-North 
railroads. These interconnected systems require coordination 
among multiple public safety agencies, as you know. Are we 
doing an especially good job of functioning well together? And 
how can that be improved?
    Mr. Boynton. Senator, we have a couple forums, and I like 
to tell people that what we do is we provide a table and ask 
people to come to the table. We have created a transit security 
committee with representatives from every mode--trucking, bus, 
maritime, aviation, pipeline, highway, rail, all of them. And 
what we found was, all of the rail people know each other. Same 
with the bus people. We think they may never have been in the 
room together before, however.
    Senator Carper. How do they get along?
    Mr. Boynton. Well, it is clear that they are all out of 
their comfort zone, actually. We have all heard about people 
operating in silos, and one of those partners, just in the last 
few weeks, used a term I had not heard, which was ``cylinders 
of expertise.'' They are all very good at what they do. It 
requires effort to bring them to the table, and the first time 
we met, we saved $60,000 in the first 10 minutes. The rail 
people were talking about a See Something, Say Something 
campaign, and the bus people said, ``We are working on a 
campaign. Can we use yours?'' And the answer was yes. They 
saved $60,000 in about 2 minutes. They both worked for State 
government. They both worked in the same department of State 
government. But they were all within their comfort zones, so 
this collaboration that the Administrator speaks about, it is 
absolutely key. This is one way we do it. The other way we do 
it is with our fusion center. We have a full-time TSA analyst 
whose primary work site is in that fusion center.
    I find examples like that to not necessarily be the norm. I 
find that the agencies we work with do a lot of great work, 
building capacity and building expertise, but trying to get 
people at the same table and to stay there as primary work 
sites while not exactly hard to do, takes a special focused 
effort. And once you do it, you cannot stop. It has to be sort 
of continual to keep people at the table because, by 
definition, it is out of their comfort zone. They are not with 
their parent agency.
    Senator Carper. All right. Thanks. Mr. Chairman, could I 
ask one other question?
    Chairman Lieberman. Go ahead.
    Senator Carper. I understand, Dr. Flynn, that in your 
written testimony you provide compelling evidence of the 
deficiency of rail and transit security. I think you may have 
mentioned in your written testimony that roughly $9 is spent 
for safety on every airline passenger, and we spend about one 
penny per rail and transit passenger. How can we use limited 
resources to improve the Federal Government's existing transit 
and rail security programs?
    Mr. Flynn. Well, Senator, thank you very much for the 
question. The case I tried to make in my testimony and advance 
is that there actually are some relatively modest things versus 
very expensive things that we can be doing, some around, just 
as we are covering here today, the focus on public education 
efforts. I mean, if you ask a law enforcement agency to develop 
the message of See Something, Say Something, it is going to 
come out a little differently than maybe talking to some folks 
out in Hollywood who will come up with a different idea.
    The big backpack I think is a wonderful illustration of 
reaching out to real talent pools that exist, but that takes 
some resources to be able to go out and say: ``Here is a 
message we are trying to convey. Can you help us with this 
message? Because you know what people will listen to and pay 
attention to.'' So that is an investment that raises awareness 
that hopefully makes sure that we can prevent things by taking 
advantage of all those eyes, the 28-30 million on Amtrak 
trains. We are not going to get all of them, but we could get 
more than relying on a lot more dogs or a lot more--and, again, 
not either/or but a huge multiplier by taking that transit 
public who is with the rhythm of that train and knows the train 
station and gets them involved there.
    The other, it takes funds to be conveners, and I guess I 
would push a little bit. I think what Connecticut has done is a 
model, but it still is largely intra Connecticut--as opposed to 
efforts that reach beyond the State. It is very difficult often 
to get the States to play well with each other, something that 
I know you have some experience with here, because everyone is 
fighting for so few resources. And so to the extent to which 
these area security committees, regional committees, and so 
forth really bring key players together, they can build on what 
is a superb State initiative, but make sure there is something 
like that going on in the surrounding area so people can 
recognize that See Something, Say Something for the buses that 
Connecticut is doing could be done also in Delaware.
    The challenge is that you cannot get to homeland security 
without really dealing with the horizontal, and the horizontal 
is dealing with the citizens, the private sector, the 
community, State, and locals. But we are still coming at it 
vertically and/or episodically, like spitballs on a map, a few 
major urban areas, let us try to fix some of those. And this 
lack of a holistic approach I think is a serious problem. I am 
very worried about the budget climate reversing the few 
embryonic steps that we have made to achieve the horizontal, 
engage the public a bit more, draw them on board. And if we 
lose ground on the science and technology front and so forth, 
it will take us years to get back to where we want to go. And 
God forbid we have the next major event and people see that we 
essentially stopped working on the problem and stopped making 
modest investments.
    Senator Carper. Mr. Boynton.
    Mr. Boynton. Senator, could I just comment on one point 
there?
    Senator Carper. Sure.
    Mr. Boynton. The difficulty of communicating between the 
States, I have seen over the last year, 18 months a really 
encouraging increased ability for the fusion centers to talk 
among each other. These are all 72 fusion centers, State or 
locally led, with the Federal participants but an increasingly 
good dialogue between these fusion centers, and that helps us 
with the regional approach and across-State approach.
    Senator Carper. All right. I am glad to hear the kind of 
communications you all have started up in Connecticut. That is 
the kind of stuff that we do in Delaware. I am proud of it. 
Thank you.
    Thanks, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Carper.
    Thanks to the three witnesses. I think you have been very 
helpful. I am reassured from this hearing that there has been a 
response to the evidence that came out of Osama bin Laden's 
compound about potential attacks on mass transit systems in the 
United States on or around September 11 of this year. I 
appreciate the continuing work that is being done. We are up 
against an enemy that is not smarter than we are, but is 
certainly more inhumane and ruthless than we are. To say the 
obvious, with regard to the discussion with Senator Paul about 
patting down a child, unfortunately there is an evidentiary 
basis for doing that, which is that some of these terrorist 
groups have used children and have been willing to risk or take 
their lives as a result, and they have used grandmothers and 
grandfathers to do the same.
    So when you are up against this kind of enemy and we are 
attempting to maintain freedom of movement in our country and 
the openness of our country, it is not easy. So I share the 
sentiment that has been expressed across the panel, which is 
that we have to be very careful as we cut budgets that we do 
not take big risks with our security because in the end that 
really is the first responsibility of our government.
    I thank each of you for what you are contributing to 
homeland security. We are going to leave the record of the 
hearing open for an additional 15 days for additional questions 
and statements.
    With that and the Committee's gratitude, I hereby adjourn 
the hearing.
    [Whereupon, at 11:26 a.m., the Committee was adjourned.]


           TEN YEARS AFTER 9/11: PREVENTING TERRORIST TRAVEL

                              ----------                              


                        WEDNESDAY, JULY 13, 2011

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Collins, Brown, and Paul.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. 
Normally I am a few minutes late and Senator Collins is on 
time. Today she surprised me, but she is in the hallway, so I 
will take the--there you are. I was just saying you are 
normally the more punctual one--it is not really an odd couple 
relationship we have--so I waited a moment or two.
    Senator Collins. I apologize.
    Chairman Lieberman. Not at all.
    I want to welcome everyone to this hearing, which is the 
fifth in a series of hearings that our Committee is holding 
this year to review the state of our Nation's terrorist 
defenses as we approach the 10th anniversary of the attacks 
against America on September 11, 2001.
    Denying foreign terrorists the ability to travel to our 
country to attack us, as they did on 9/11, obviously is a 
continuing homeland security priority, and that is what we are 
focusing on today.
    As you look back over the 10 years and think of all that we 
have done to meet the challenge of preventing terrorists from 
coming into the country, you have to say that, thanks to a lot 
of people, we have done very well at it. There has not been 
another major attack from outside. And yet there have been 
attempted attacks in which people have certainly shown they are 
still trying to enter the country, or succeeded in doing so, 
such as the cases of the shoe bomber, the Christmas Day bomber, 
and the Times Square bomber. All plotted outside the United 
States with help from al-Qaeda and other Islamist terrorist 
groups, and all involved travel into the United States.
    In the years since September 11, 2001, legislation authored 
by this Committee has created a number of programs and systems 
meant to enhance our government's ability to identify and stop 
terrorists among the millions and millions of people who travel 
to the United States and who we want to welcome each year. The 
terrorists, obviously, we want to prevent from entering our 
country.
    The Homeland Security Act, which created the Department of 
Homeland Security, gave the new Department the authority to set 
visa policy and deploy Visa Security Units to overseas consular 
posts, working with the State Department to provide an added 
layer of security in the issuing of visas.
    The Intelligence Reform and Terrorism Prevention Act of 
2004, which was the original 9/11 Commission recommendations 
implementation legislation, called for a biometric entry and 
exit system for travelers into and out of the United States, 
and also required enhanced travel documents. It required 
consular officials to conduct personal interviews with all visa 
applicants.
    The 2004 Act also directed the President to negotiate 
agreements with other nations to share information on lost or 
stolen travel documents. And perhaps most important, it 
required that domestic and international airline passengers be 
screened against terrorist watchlists.
    Then the Implementing Recommendations of the 9/11 
Commission Act of 2007, in a way the 9/11 Commission Act 2, 
created the Electronic System for Travel Authorization, a 
program that allows the Department of Homeland Security to 
screen travelers from so-called visa waiver countries against 
our intelligence and law enforcement databases before they 
board an airplane bound for the United States.
    These programs are all critical new components of our post-
9/11 efforts to deny terrorists entry into the United States. 
And I would say, looking back, for the most part they have been 
successful. But as is documented in a series of reports from 
the Government Accountability Office, we clearly still have 
work to do.
    First, some good news: GAO reports that the Electronic 
System for Travel Authorization has been well implemented on 
our end and is helping to address gaps in the Visa Waiver 
Program.
    In the same report, however, GAO says that only half of the 
visa waiver countries have signed the biometric law enforcement 
information-sharing agreements required for participation in 
the program, and none--not one--of these agreements has 
actually been implemented. So I would say today, looking back 
and forward, we really have to get them all signed and 
implemented as quickly as possible.
    The implementation of the US-VISIT entry system has really 
been one of the biggest success stories of our post-9/11 
efforts. It ensures that almost all non-U.S. citizens coming to 
the United States have their fingerprints registered and 
checked against all of our intelligence, immigration, and law 
enforcement databases prior to being admitted to the United 
States. That is a very significant filter, if you will, set up 
to stop terrorists from coming into the United States.
    Unfortunately, implementation of an exit system has been 
one of our biggest failures. GAO recently reported to this 
Committee that US-VISIT's current biographic system has a 
backlog of over 1.6 million records of potential overstays that 
have not been reviewed. In other words, these are people who 
have entered America legally but overstayed the time during 
which they were legally authorized to be in this country, and 
they become a very significant percentage of the millions of 
so-called illegal immigrants or undocumented aliens who are in 
our country. And this backlog is growing every day.
    Tom Kean and Lee Hamilton, the co-chairs of the 9/11 
Commission, in testimony before our Committee a few months ago, 
reiterated their call for a biometric exit system, and I would 
like to hear from our witnesses today about the current plans 
at DHS for getting this done because this really is a problem, 
knowing when people who come in legally are still here 
illegally.
    I also continue to be concerned with the slow 
implementation of the Visa Security Program. Although the 
Department of Homeland Security and the State Department have 
identified 57 high-risk consular posts abroad, only 14 of them 
have criminal investigators to provide an added layer of 
security to the visa-issuing process.
    The attempted Christmas Day bomber attack highlighted the 
importance of having adequate security measures in place at our 
consular posts, as you remember from that fact situation. But 
despite pledges by the Department of Homeland Security and the 
State Department to continue expanding this really important 
security program, the President's budget included no additional 
funding for this program for fiscal year 2012. Even in these 
obviously tight budgetary times, this is disappointing.
    GAO released another report yesterday that found a lack of 
coordination and focus in our government's efforts to help our 
foreign partners develop their own terrorist travel programs, 
and that is something I am sure we will want to talk about 
today.
    Finally, many of us on this Committee, particularly Senator 
Paul, who is here today, are concerned about security gaps in 
the Iraqi refugee program that allowed two Iraqi nationals, who 
turned out to be terrorists--one whose fingerprints were on an 
unexploded improvised explosive device that the FBI had in its 
possession from our troops in the field since 2005, so one of 
the two Iraqis arrested in Kentucky for planning terrorist acts 
actually had his fingerprints on this unexploded IED that was 
in the possession of the U.S. Government for over 5 years and 
was not processed in the system. Therefore, when this 
individual had his fingerprints done when he entered as part of 
the US-VISIT program, it was not correlated against this very 
implicating fingerprint that was in our possession, and so he 
was allowed to enter the country and then plot to send weapons 
back to their fellow terrorists in Iraq to use to attack 
American troops there.
    We really need to know how these two were allowed to enter 
our country and why those fingerprints from 2005 have not been 
entered into our system. Senator Paul has focused the attention 
of this Committee on this matter, and I am sure he will have 
questions for the witnesses about it.
    In sum, looking back, I think we can say with some 
satisfaction that we have made progress in the past 10 years 
toward making the entry by terrorists into the United States 
much more difficult than it was on 9/11/01. But we have also 
had some very unsettling experiences that show they can still 
penetrate the defenses that we have set up. And, of course, we 
know that they are adapting their mode of operating to our 
increased security measures.
    Just last week, we saw published reports that al-Qaeda in 
the Arabian Peninsula is apparently at least considering if not 
carrying out the surgical implantation of explosives inside the 
body of an individual, which would be undetectable by most of 
our screening devices, but I will say clearly not undetectable 
by all of our defenses. Given these threats and their 
development, we have to continue to focus on this area of our 
homeland security, and that is our intention today. I thank the 
witnesses for being here. They are all perfectly positioned to 
report to us and answer our questions, and I look forward, 
after their testimony, to that part of the hearing.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Limiting the travel of terrorists is a key way to protect 
our country. As the 9/11 Commission put it, ``Targeting travel 
is at least as powerful a weapon against terrorists as 
targeting their money.''
    According to the 9/11 Commission's report on terrorist 
travel, as many as 15 of the 19 hijackers might have been 
intercepted by border authorities if procedures had been in 
place to share intelligence data. At the time, however, threat 
information-sharing systems and policies were largely absent, 
and the hijackers' past terrorist associations were not readily 
available to American officials who could have acted.
    Today, as the Chairman has pointed out, we have a more 
rigorous system at high-risk consulates to help identify those 
who should not receive visas, but we need to upgrade the Visa 
Security Program so that it can operate more effectively and in 
more high-risk posts.
    This program deploys Immigration and Customs Enforcement 
agents to our high-risk embassies and consulates overseas to 
help identify suspected terrorists and criminals before visas 
are issued. The problem is that the United States has these 
offices at only 14 of the 57 high-risk posts.
    It is also troubling that the GAO has found ongoing turf 
battles between ICE and the State Department's diplomatic 
security at some posts. VSP must implement effective procedures 
to help DHS and the State Department resolve questions about 
who should and who should not receive a visa to come to our 
country. All of those involved in the visa process at these 
high-risk locations must be rowing in the same direction for 
this program to reach its full potential.
    There are other serious challenges and gaps in our 
security. As the Chairman mentioned, recently we learned that 
terrorists intent on attacking America have shown an interest 
in having explosive devices surgically implanted in their 
bodies. Yet a young man was able to fly cross-country from New 
York to Los Angeles without a valid government ID and with an 
expired boarding pass that was not even in his name.
    At the other extreme, it troubles many Americans to see TSA 
putting the very young and the very elderly through intrusive 
and, in most cases, what appear to be unnecessary patdowns. If 
we continue to give extra screening to individuals who pose no 
threat yet others who should arouse suspicion can bypass 
checkpoints without being questioned, our systems clearly are 
still not properly calibrated.
    As Senator Paul will undoubtedly discuss today, and as 
Republican Leader McConnell and our Chairman have all 
highlighted, we also need to scrutinize the criteria for 
granting asylum. In May, two Iraqi refugees living in Kentucky 
were indicted on Federal terrorism charges. That they were 
permitted to come to this country on humanitarian grounds is 
shocking. How could this happen when there was sufficient 
evidence of the terrorist attacks in which they were involved 
to indict them? What is being done to close this serious 
vulnerability? Is the Administration re-analyzing the 
backgrounds of other refugees granted asylum under what appears 
to be a flawed process?
    On the other hand, the New York Times today reports on 
cases of apparently worthy applicants who are not receiving 
asylum. Clearly, our system needs to be adjusted to ensure 
vetting and careful scrutiny so that those who are in danger of 
their lives because they have truly been allies of the American 
forces can receive asylum, but those who have been involved in 
attacking our troops or working with the Taliban or al-Qaeda do 
not receive asylum.
    Even with improvements in our own safeguards, the United 
States cannot go it alone. Our intelligence reform legislation, 
which became law in 2004, directed the National 
Counterterrorism Center to establish a strategy to combat 
terrorist travel, and part of that strategy, an essential 
pillar, was helping to enhance the capacity of other nations to 
combat terrorist travel.
    A new GAO report provides an update on our progress. While 
the United States has many programs to help our partner nations 
improve their visa issuance and screening protocols, the GAO 
has found that too often these programs lack coordination. The 
GAO also found redundancies. In one case, the GAO discovered 
that DHS and the State Department were both planning to hold 
training on fraudulent travel documents for the same Pakistani 
agency during the same month without knowing of each other's 
plans.
    These programs, in my judgment, also do not focus 
sufficiently on corruption in the passport issuance process 
overseas, which, according to the GAO, is a significant 
obstacle in our efforts to keep terrorists from traveling.
    There is, as the Chairman has mentioned, encouraging news 
as well as problems. DHS, for example, reports that nearly 450 
suspected terrorists that were identified on a watchlist were 
blocked from boarding overseas flights bound for the United 
States in fiscal years 2010 and so far in 2011. The Customs and 
Border Protection is now matching passenger manifests with 
terrorist watchlists and not just with the no-fly list. It is 
vital to review these lists before departure and not once the 
plane is airborne.
    Terrorists clearly are going to constantly probe our 
defenses and constantly innovate. Therefore, we must never 
cease our efforts to keep terrorists from acquiring the 
documents and the means to travel to our shores.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    Unfortunately, I just heard off the wire, just to show us 
how timely all this is, that at least three bombs went off in 
different public places in Mumbai today, and this is just the 
first report. They are reporting many injuries. No indication 
of responsibility yet.
    We have a vote around 10:40 and we will have to break at 
that point, but let us see if we can get at least some of the 
initial testimony in. I again thank the witnesses for being 
here.
    We will start with Rand Beers, who is Under Secretary, 
National Protection and Programs Directorate, at the U.S. 
Department of Homeland Security.

  TESTIMONY OF HON. RAND BEERS,\1\ UNDER SECRETARY, NATIONAL 
    PROTECTION AND PROGRAMS DIRECTORATE, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Beers. Thank you, Mr. Chairman, Senator Collins, and 
Senator Paul. I am pleased to be here before this Committee 
which has been so important in the efforts to protect the 
homeland.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Beers appears in the Appendix on 
page 499.
---------------------------------------------------------------------------
    Our goal here in this area is to push information to the 
front lines, as Senator Collins and Senator Lieberman both 
indicated, as quickly as possible to prevent known and 
suspected terrorists from traveling to the United States. 
Today, I am testifying in two capacities--first as the Under 
Secretary for the National Protection and Programs, a position 
to which I was appointed by President Obama and confirmed by 
this body in June 2009, and am thereby responsible for the US-
VISIT Program. I am also testifying today as the Coordinator 
for Counterterrorism at the Department, a role Secretary Janet 
Napolitano assigned to me following the December 25, 2009, 
bombing attempt on Northwest Flight 253. So what I will do is 
address what the Department is doing to better coordinate and 
prevent terrorist travel, describe the specifics of US-VISIT 
activities being done in this area, and also discuss my role as 
the Counterterrorism Coordinator.
    DHS collects and screens information on who is entering the 
country or boarding an aircraft in order to identify possible 
links to terrorist activity. In this regard, the Department has 
made considerable progress since 9/11 to implement measures to 
identify and stop terrorist travel in five general areas:
    First, unifying immigration and border management systems 
so that we can have the capability to access efficiently and 
effectively biometric- and biographic-based information across 
the entire homeland security spectrum.
    Second, enhancing capabilities for more effectively 
identifying fraudulent documents and impostors and implementing 
measures to confirm document authenticity and validity.
    Third, establishing a system of interoperability and 
information sharing that allows Federal partners across the 
government to share that information in order to do a better 
job identifying those persons of interest and concentrating on 
them.
    Fourth, streamlining the visa overstay review process to 
establish reliable data on individuals who have violated the 
terms of their authorized admission.
    And, fifth, establishing and maintaining strategic 
partnerships with an increasing number of international 
partners, sharing appropriate information, providing technical 
assistance, and developing commonality in biometric standards 
and best practices while investigating and testing emerging 
multimodal biometric technologies.
    With respect to US-VISIT, let me just identify a few of the 
things that I think we have been doing. It is a broad program 
with important applications ranging from screening foreign 
travelers to immigration adjudication to law enforcement.
    Interoperability and information sharing between agencies 
and international partners continues to yield significant 
results, as demonstrated by three success stories that I want 
to briefly mention.
    The first occurred in February of this year. Australia sent 
us a batch of fingerprints as part of our High Value Data 
Sharing program. Within that batch we had a match on an 
individual about whom we had some terrorist information. We 
provided that information to the Australian government, and 
they denied that individual asylum, as they were contemplating.
    Second, in November of last year, we assisted in a case of 
a Turkish man who was attempting to gain employment at a 
nuclear power plant. We were able to identify that he was using 
a false document with a false identity in an attempt to 
demonstrate his legal status in this country. He was obviously 
denied employment, but he was subsequently arrested for 
overstay and placed in Federal custody.
    The third, which is not so distant from what you just 
reported, Senator Lieberman, was in October 2009, when the 
Canadians asked us to help them look at a boatload of 
undocumented males who were arriving off the coast of British 
Columbia. We helped them go through that with biometric 
information that they collected and identifying two of the 
individuals on that not only as suspected LTTE, Tamil Tiger 
terrorists, but also individuals who had sought visa and asylum 
status with us and were denied. Obviously, those individuals 
were detained.
    So I think that represents the kind of thing that 
biometrics allow us to do, as you have so fervently supported 
on a number of occasions.
    With respect to the role of the Coordinator for 
Counterterrorism, what has happened within the Department is, 
following the December 25, 2009, failed attempt to bomb 
Northwest Flight 253, the Secretary assigned me an additional 
responsibility for coordinating counterterrorism activities 
from the Department across its directorates, components, and 
offices related to detection, prevention, response to, and 
recovery from acts of terrorism.
    In November of last year, she authorized the stand-up of a 
Counterterrorism Advisory Board to further improve coordination 
with the Coordinator acting as the Chair and the Under 
Secretary of Intelligence and Analysis and the Assistant 
Secretary for Policy to my left to act as the Vice Chairs. We 
have also organized under that a task force working group that 
supports this effort, so that what we are basically doing with 
respect to support for our mission one counterterrorism 
activity is use the Coordinator position, the Counterterrorism 
Advisory Board, and the task force to bring together 
intelligence, operational matters, policymaking elements within 
the headquarters and the components so that we can field a 
cohesive and coordinated operational response to any threats 
that should arise or in some cases try to anticipate those 
threats.
    Let me just give you one example of the kind of work that 
we have done. Following the death of Osama bin Laden, we began 
an even more dedicated review of intelligence. The CTAB was 
meeting on an almost daily basis for several weeks after that. 
We still meet roughly twice a week to look at these things. In 
each meeting, we look at new threat information. So in one 
case, we were looking at one particular threat and instituted a 
series of new measures that were put in place, taking the 
information that our intelligence and analysis office gave us, 
developing the countermeasures, creating the outreach to the 
various sectors who were affected by that particular piece of 
information, implementing those counterterrorism matters, 
informing State and local governments as well as other partners 
in our efforts, and basically coming up with a major effort to 
counter this particular threat. In addition to that, there was 
obviously a public affairs component.
    This represents a much more coordinated response on the 
part of the Department than we have heretofore been able to 
produce and I think demonstrates the value.
    In this particular case, we also considered whether we 
ought to raise the threat level and decided that the 
information was not sufficiently imminent and actionable so we 
chose not to do that. But that has nothing to do with the fact 
that we instituted security measures and had a public outreach 
program to ensure that we were adequately positioned, without 
having to raise the alert level, to respond to this particular 
threat.
    In conclusion, we are working hard to address these complex 
challenges, and I stand ready to answer the questions from this 
Committee. Thank you very much.
    Chairman Lieberman. Thanks, Under Secretary Beers. That was 
a good beginning for us and a good report.
    Next we are going to have Janice Jacobs, who is the 
Assistant Secretary, Bureau of Consular Affairs at the 
Department of State. Welcome back.

  TESTIMONY OF HON. JANICE L. JACOBS,\1\ ASSISTANT SECRETARY, 
      BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Jacobs. Thank you and good morning, Mr. Chairman and 
Senator Collins. It is an honor to appear before you again to 
tell you how the Department of State has increased security of 
the visa process in response to the December, 25, 2009, 
attempted terrorist act. In my previous appearances before this 
Committee, I testified about the Department's multilayered 
approach to visa security, what I had called ``the five pillars 
of visa security'': Technological advances, biometric 
innovations, personal interviews, data sharing, and training. I 
want to assure you that these pillars are even more relevant 
today. Today, after a full year of implementing corrective 
actions taken after December 25, 2009, I believe that our visa 
processing has reached new levels of security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Jacobs appears in the Appendix on 
page 506.
---------------------------------------------------------------------------
    The title of this hearing has a special meaning for the men 
and women of the Department of State. We have no higher 
priority than the safety of our fellow citizens and the 
protection of our borders. In this statement I would like 
briefly to highlight key steps we took to respond to the 
President's directive to address weaknesses in the systems and 
procedures we use to protect the United States.
    We improved our Visas Viper Program and related processes 
by directing all chiefs of mission to ensure that the Visas 
Viper Program was working effectively at their posts and 
instructing consular officers to include complete information 
about all U.S. visas in Viper cables.
    We issued new instructions to officers on visa revocation 
procedures and reinforced standing guidance on their 
discretionary authority to deny visas under Section 214(b) of 
the Immigration and Nationality Act, with specific reference to 
cases that raise security and other serious concerns.
    We constantly refine and update the technology that 
supports our visa process. Before any visa is issued, the 
applicants fingerprints are screened against DHS's automatic 
biometric identification system called IDENT and against the 
FBI's Integrated Automated Fingerprint Identification System.
    We use facial recognition technology to screen visa 
applicants against a watchlist of photos obtained from the 
Terrorist Screening Center as well as visa applicant photos 
contained in the Consolidated Consular Database.
    We improved the capability of consular systems to match 
visa records against new and emerging derogatory information to 
support visa revocation in appropriate cases.
    We employ sophisticated name-searching algorithms to ensure 
matches to derogatory information contained in the 39 million 
records pertaining to 27 million individuals found in the 
Consular Lookout and Support System. This layered biometric and 
biographic identity verification ensures the security of the 
U.S. visa by nearly eliminating the possibility of visa fraud 
through counterfeit or photo-substituted visas or through the 
use of valid visas by impostors.
    We are continuing to match new threat information against 
our visa records. We have revoked over 1,000 visas since 
December 2009. As soon as a visa is revoked, a VRVK entry code 
is added to CLASS and shared in near real time with the DHS 
lookout systems used for border screening. CBP uses these VRVK 
records to advise airlines that certain passengers should not 
be boarded on flights bound for the United States.
    We have completed the worldwide rollout of the online DS-
160 non-immigrant visa application form, and we are currently 
piloting the online DS-260 immigrant visa application form. 
These forms provide consular and fraud prevention officers as 
well as our intelligence and law enforcement partners the 
opportunity to analyze data in advance of the visa interview.
    Consular officers are trained to take all necessary steps 
to protect the United States and its citizens during the course 
of making visa decisions. Each consular officer completes our 
basic consular course, which has a strong emphasis on border 
security and fraud prevention, and includes in-depth 
interviewing and name-checking technique training. Officers 
receive continuing education in all of these disciplines 
throughout their careers.
    Consular officers receive extensive training on the 
Security Advisory Opinion process, which requires them to 
suspend visa processing pending interagency review of any case 
with possible terrorism ineligibilities. We work closely with 
DHS to ensure that no known terrorist receives a visa or is 
admitted into our country.
    ICE special agents assigned to Visa Security Units provide 
timely and on-site vetting of visa applications and other law 
enforcement support to our consular officers. Over the past 7 
years, the Department and DHS have increased resources 
significantly, improved procedures, and upgraded systems 
devoted to supporting the visa function.
    DHS receives all of the information collected by the 
Department during the visa process and has broad access to our 
entire visa database. We make our visa information available to 
other agencies and specifically designed our systems to 
facilitate comprehensive data sharing. In May 2011, almost 
22,000 officers from the Departments of Defense, Homeland 
Security, Justice, and Commerce submitted nearly 2 million visa 
record queries.
    On a regular basis, we engage our foreign partners 
bilaterally, regionally, and on a multilateral basis to address 
the issue of terrorist travel. We have entered into 
arrangements for the sharing of visa information with foreign 
governments consistent with the data protection requirements of 
Section 222(f) of the INA.
    With our partners at the Terrorist Screening Center, we 
negotiate Homeland Security Presidential Directive 6 agreements 
overseas. We are a close partner with DHS in advance passenger 
information and passenger name record discussions overseas.
    Anne Witkowsky, our Deputy Coordinator for Homeland 
Security and Multilateral Affairs in the Office of the 
Coordinator for Counterterrorism, is here with me today to 
answer any questions you may have on building foreign partner 
antiterrorism capacity or the State Department's role in the 
overall U.S. Government terrorist travel strategy.
    Let me also address the Committee's interest in the process 
that brings Iraqi nationals working on behalf of the U.S. 
Government in Iraq to this country as recipients of special 
immigrant visas or as refugees.
    As of mid-June a total of 7,063 Iraqis have been issued 
special immigrant visas under one of the two pertinent SIV 
programs. Kelly Gauger of the Refugee Affairs Office within the 
Bureau of Population, Refugees, and Migration is here to answer 
questions about the State Department's role in U.S. refugee 
security screening.
    Distinguished Members of the Committee, I believe that a 
layered approach to border security screening in which each 
agency applies its particular strengths and expertise best 
serves our border security agenda while furthering traditional 
U.S. interests in legitimate travel, trade promotion, and the 
exchange of ideas. The United States must meet both goals to 
guarantee our long-term security.
    Thank you and I am ready to answer your questions.
    Chairman Lieberman. Thanks, Assistant Secretary Jacobs.
    The Senate is in a quorum call, which means that hopefully 
we can hear the opening statement of David Heyman, who is the 
Assistant Secretary in charge of the Office of Policy at DHS. 
Thank you.

  TESTIMONY OF HON. DAVID F. HEYMAN,\1\ ASSISTANT SECRETARY, 
     OFFICE OF POLICY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Heyman. Mr. Chairman, Senator Collins, and Senator 
Paul, this hearing, preventing terrorists from traveling to or 
remaining undetected in the United States, remains a top 
priority at the Department.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Heyman appears in the Appendix on 
page 530.
---------------------------------------------------------------------------
    Ten years ago, screening of passengers coming to the United 
States was limited to the Department of State visa process, if 
applicable, and the inspection of a person by an immigration 
officer at the port of entry, plus whatever processes were 
applied at foreign airports or by foreign governments. If you 
were a terrorist seeking to come to the United States, you 
would, for all intents and purposes, apply for a visa, purchase 
a ticket, and board an aircraft to America. There would be very 
limited checks to see if you were known or suspected of 
terrorist activities other than the visa process, limited 
checks to see if you may be a security risk based upon your 
behavior, no checks to see if you were traveling under a lost 
or stolen passport, limited checks on you or your baggage for 
explosives, and little to no security on board the aircraft 
during the flight, as well as limited checks to see even if you 
are admissible to the United States. That was 10 years ago.
    Similarly, at that time provision of advance passenger 
information was voluntary, and even when provided by air 
carriers, it frequently contained inaccurate or incomplete 
information. There was no biometric collection for visa 
applicants beyond photographs nor for aliens seeking admission 
to the United States, and there was very limited pre-departure 
screening of passengers seeking to fly to the United States.
    Today, a decade later, in response to both 9/11 and 
evolving threats, and with the help and support of this 
Congress, we have significantly adapted and enhanced our 
ability to detect and interdict travel threats at the earliest 
opportunity. The systems we have put in place over the past 
decade are multilayered and multinational, from the 
intelligence we gather on known and suspected terrorists even 
before someone decides to travel to the United States to visa 
and travel authorization processes, travel document security, 
pre-flight screening against criminal and terrorist databases, 
checkpoint screening prior to boarding, pre-departure screening 
for admissibility to the United States, in-flight security, and 
additional screening at ports of entry. We have put in place 
multiple layers of security across the spectrum of travel--
before departure, during travel, and upon arrival.
    Additionally, we have put in place or are in the process of 
piloting recurrent vetting programs to check and recheck the 
status and potential risks of all visa holders and immigrants 
after they arrive into the United States. Today, all air and 
sea passengers intending to travel to the United States must 
have valid visas or, if traveling under the Visa Waiver 
Program, must now obtain in advance of travel electronic travel 
authorization.
    Since 2009, under the Western Hemisphere Travel Initiative 
and in support of key 9/11 Commission recommendations, all 
travelers coming across our land borders are required to 
establish identity and citizenship. Furthermore, while issuing 
visas is the responsibility of the Department of State, as you 
have mentioned, at certain embassies and consulates DHS 
administers a Visa Security Program through ICE where we assist 
the State Department in identifying visa applicants who may 
present a security threat.
    Prior to 9/11, there was no centralized system or method to 
screen airline passengers. Over the past 10 years, the U.S. 
Government has stood up the Terrorist Screening Center 
administered by the FBI and established a consolidated 
terrorist screening database or watchlist to determine who may 
be authorized to travel to the United States, who may board a 
plane, and who may require further screening.
    Additionally, fulfilling another key 9/11 Commission 
recommendation, DHS and the TSA have strengthened security 
through full implementation of the Secure Flight Program. Under 
the Secure Flight Program, DHS now pre-screens 100 percent of 
passengers on flights flying to, from, or within the United 
States against the no-fly and selectee portions of the known 
and suspected terrorist watchlist. Through the Secure Flight 
Program, TSA now vets over 2 million passengers daily.
    We have expanded our trusted traveler programs from 
approximately 80,000 members when DHS was created to well over 
a million people today, and by expanding these programs, these 
passengers, who provide biometric identification and pass 
rigorous recurrent security checks, we are now better able to 
focus resources and attention on those who may pose a greater 
risk.
    DHS also uses passenger name record data which is the 
information that travelers provide airlines when they book a 
flight. This information, along with the APIS and the 
Immigration Advisory Program, allows us to assess a passenger's 
level of risk prior to departure, and when necessary, flag them 
for further inspection or even prevent them from boarding.
    Following the attempted attack of December 25, 2009, DHS 
implemented additional enhancements in coordination with other 
departments. These include a number of items which I have 
complete in my testimony, but let me just list a couple now.
    The U.S. Government reformed the criteria and nomination 
processes for the terrorist watchlist and enhanced its 
information-sharing capabilities.
    We updated the Secure Flight Program to use all terrorist 
watchlist records containing a full name and a full date of 
birth. Travelers are then required for enhanced physical 
screening prior to boarding.
    Beginning in 2010, DHS began a new initiative with the 
Department of State where CBP currently vets approved visa 
applications so that as new information is discovered, DHS and 
the Department of State are able to proactively identify these 
individuals and address them.
    Also, beginning earlier this year, DHS began piloting a new 
recurrent vetting process for those applying for immigration 
benefits. As new derogatory information surfaces, we double-
check those who have approved immigration status against this 
information.
    In addition, prior to December 25, 2009, CBP conducted 
inbound passenger targeting using APIS and PNR data provided by 
the airlines but could not easily prevent high-risk travelers 
from boarding flights to the United States unless they were 
traveling from foreign locations where we had our Immigration 
Advisory Program or pre-clearance presence. As of December 25, 
CBP re-engineered its inbound targeting operations to identify 
high-risk travelers who are likely to be inadmissible and 
recommend to carriers at all airports, all last points of 
departures, that those individuals not be permitted to board a 
commercial aircraft.
    DHS has also strengthened the presence and capacity of law 
enforcement to prevent terrorist attacks on aviation to include 
our Federal air marshals and FAMS coverage.
    And, finally, I think the lesson of Abdulmutallab, or one 
of them, is that if you have access to one airport anywhere in 
the world, you have access to the entire international aviation 
system, and so to prevent terrorist travel, we must work 
closely with our international partners. We did just that 
following December 25, 2012. In the weeks and months that 
followed that event, DHS worked with the International Civil 
Aviation Organization, and on a bilateral basis, to advance an 
unprecedented initiative and to strengthen aviation security. 
Those efforts culminated at the ICAO Triennial Assembly in 
October 2010 where the assembly adopted the Declaration on 
Aviation Security, which forges a new foundation for aviation 
security to better protect the entire global aviation system. 
The extraordinary global collaboration demonstrated by nearly 
190 countries during that assembly has helped to bring about an 
aviation security framework that will help make air travel 
safer and more secure.
    All of this is not to say that there will not be new 
threats or that the security architecture is a finished 
product. To the contrary, this effort will require continuous 
improvement. Terrorist screening is a multiagency effort that 
relies on good data, good intelligence and information, 
automated capabilities to ensure identification of high-risk 
activities and individuals. We must continue to understand the 
threat, terrorist tactics, and stay ahead of it. This requires 
strong interagency and international partnerships, something 
that we are deeply committed to.
    As a result of all of these efforts over the last decade, 
it is now part of our regular daily experience to identify 
potential incoming threats and deny them boarding, deny them 
admission, and at a minimum require them to go through enhanced 
screening. CBP through its National Targeting Center generates 
nearly 200 targets a day of where they have to research whether 
they should be boarded or not. They have identified 2,600 
passengers that would likely have been found inadmissible upon 
arrival and passed that on to air carriers.
    TSA now vets over 14 million passengers weekly; 
approximately 25 individuals per month are denied boarding on 
aircraft through the Secure Flight Program.
    Let me conclude by saying that this Nation I think has 
taken significant steps to counter and prevent terrorist travel 
since 9/11. This has been accomplished as a result of a 
historic partnership between Federal agencies, between Federal, 
State, and local partners, between multiple Congresses, and 
three successive Administrations, and with our international 
partners. It entails a multilayered, multifaceted, and 
multinational effort that weaves together intelligence, 
information sharing, security and law enforcement programs from 
across DHS, the interagency, and across multiple partners 
around the world. Together they reflect one of the Nation's 
most pressing priorities: To ensure the safe, secure, and 
efficient movement of literally millions of people traveling 
to, from, and around the United States on a daily basis, while 
thwarting the few would-be terrorists to who seek to do us 
harm.
    This concludes my testimony. I have a written statement for 
the record, and I look forward to your questions. Thank you.
    Chairman Lieberman. Thanks, Assistant Secretary Heyman. 
Your statement and that of the other witnesses will be included 
in full in the record.
    I appreciate your testimony. It was actually quite 
revealing to hear the description before and after 9/11 of what 
you have to go through to get into the country. We know in this 
Committee pretty well what has happened since 9/11, but it was 
important to be reminded about how easy it was to get into the 
United States prior to 9/11 if you intended to do us harm. And 
I think hearing all we have done since then ought to give 
people in our country some increased sense of security when 
they go about their daily lives but also, of course, when they 
travel. But obviously we are never going to achieve everything 
we want by way of security and also retain the freedom of 
movement that is part of what defines us as Americans. So when 
we come back, I am sure we will be asking the three of you 
about some things that we think should be done better.
    Let us close on this good note and thank you for all you 
have done to bring us to the point we are at. I am glad we 
could get the three of you in. We will come back as soon as we 
can from the two votes.
    The hearing is in recess.
    [Recess.]
    Chairman Lieberman. The hearing will come back to order. 
Thank you very much for your patience while we were voting. We 
will do 7-minute rounds of questions.
    Let me begin with a question for you, Assistant Secretary 
Jacobs. A recent GAO report, which was a review of the Visa 
Security Program, raised some questions about how it was 
working. One of the most troubling parts of the report to me 
was that GAO found disagreements between consular officers and 
Immigration and Custom Enforcement agents, at some posts around 
the world concerning how close an association with terrorism 
was needed before someone could be denied a visa to come into 
the United States. I would guess that most Americans would 
share the opinion I have, which is that travel to the United 
States is a privilege not a right and that any association with 
terrorism should be enough to keep a foreign national from 
getting a visa to come into the United States.
    So I wanted to ask you to respond to that finding by the 
GAO and tell the Committee exactly what the policy of the State 
Department is now. What kind of association with terrorism 
would be considered significant enough to bar someone from 
being issued a visa? And then, Mr. Beers or Mr. Heyman, if you 
have anything to add from the perspective of DHS, being the 
Department in which ICE is located, I would welcome that 
testimony as well. Ms. Jacobs.
    Ms. Jacobs. Thank you, Senator. Basically let me start off 
by saying that I think that we have very good cooperation 
between the VSUs and the consular sections, wherever the Visa 
Security Program is in place. And it is true from time to time 
that looking at the exact same information, two individuals 
might come to different conclusions.
    We have found, though, in every single case--first of all, 
those are few and far between. In most every instance there is 
agreement. But when there is a disagreement, normally it is 
worked out at post where people will sit down and really look 
at the information and try to decide whether, in fact, it makes 
someone either ineligible for a visa or inadmissible to the 
United States.
    If for some reason they cannot reach agreement there, then 
the case is referred back to headquarters where people in 
Consular Affairs and people at DHS will take a look at it. And 
then it is always resolved there.
    When we signed the MOU with DHS back in 2003 on our shared 
roles and responsibilities on visas, we actually put in place 
there a very formal mechanism if there was a dispute or a 
disagreement that could not be resolved at those levels where 
the Secretaries would get involved, and then we would resolve 
it that way. That has never happened. It has never had to 
happen. As I said, most of these are taken care of right at 
post.
    Chairman Lieberman. So what is the State Department policy 
now on this question? And do the disputes go to the weight of 
the evidence when there are disputes? I understand you have 
said that the disputes between State and Homeland Security are 
rare, but is there a State Department policy?
    Ms. Jacobs. The policy really is simply to apply the 
existing provisions of law, and so if there is information 
suggesting that someone might have some kind of connection to 
terrorism, the ICE officer might look at it and come to one 
conclusion, whereas the consular officer may look at it and 
believe that it is not sufficient to find the person ineligible 
for a visa. But in any case, we will always give security the 
priority when we are adjudicating visas, and if there is any 
question or doubt, the burden of proof is on the applicant.
    Chairman Lieberman. Good.
    Ms. Jacobs. The law is written in a way that puts the 
burden of proof on the applicant.
    Chairman Lieberman. That is important.
    Ms. Jacobs. And so we would in almost all instances wind up 
denying the visa.
    Chairman Lieberman. Do you have anything you want to add to 
that, Mr. Beers or Mr. Heyman? It is not necessary.
    Mr. Beers. No, sir. I think that is a fair rendition of our 
ability to cooperate with one another.
    Chairman Lieberman. Good. Let me go in the time I have 
remaining in this round to this question of the US-VISIT exit 
system. This is a source of concern. I know it is no small 
task, but this is not only a question that leads to an enormous 
number of so-called illegal immigrants who do not come in 
illegally but then stay here illegally, but also in some cases 
obviously related to terrorist activity. My recollection is 
that three of the 9/11 terrorists were here because they had 
overstayed legal visas, and, of course, if you think about it, 
it is one of the remaining ways somebody who has a nefarious 
intent to come in as a tourist or a student and then overstay 
and attack the United States.
    So this backlog of 1.6 million people, give us your report 
on why we are behind on that and what we are doing now to catch 
up.
    Mr. Beers. Thank you, sir, for the opportunity to answer 
this question because we have been working hard on dealing with 
that issue over the last several weeks, and I think I am in a 
position to say that we will have cleared the backlog later 
this week or early next week. But let me tell you what we have 
done----
    Chairman Lieberman. That is significant.
    Mr. Beers. So that you actually understand what we have 
done.
    Chairman Lieberman. Yes.
    Mr. Beers. We have taken the 1.6 million, and we have run 
it against two databases: One which said, Did this individual 
leave the United States after they went into an overstay 
status? Or did this individual change to a different visa or a 
different benefit? And we have basically eliminated 50 percent 
of the people in the 1.6 million.
    Chairman Lieberman. Just so I understand, that is very 
interesting it is that high a percentage. So they either left--
--
    Mr. Beers. But in an overstay status.
    Chairman Lieberman. Right. So we had some record of that. 
And then second is that they had changed their status?
    Mr. Beers. They applied for a different visa, or they came 
in and applied for a different benefit status.
    Chairman Lieberman. Yes, and in the current state of 
recordkeeping we did not know that.
    Mr. Beers. What we had not done is when they went into 
overstay status, if they were not in the priority category that 
we were looking at before we ran this broad check, we did not 
look at them. And what we decided we had to do in response both 
to our own concerns and your concerns is we needed to get 
through all of them.
    So what we have done is those people have left--those who 
were in an overstay status and left will be caught if they try 
to come in again, because having been in an overstay status, 
that is a basis for denying them a visa or a basis of refusing 
entry to a visa waiver person who seeks to come in again.
    With respect to the remaining 50 percent, what we are doing 
at this point in time is running them against CBP's travel 
history to see whether or not they would have hit any of our 
targeting rules and been the basis for having an additional 
interrogation. In some cases, sir, this is information that 
came in after they entered the United States.
    The second thing we are doing is we are sharing the 
database with the intelligence community through NCTC to see if 
there is any additional derogatory information. As we are able 
to transfer this information to ICE, we can allow ICE to be 
able to look at not just the original way in which we had 
sorted the data, but across all of the people who have come 
into the United States or are in an overstay status so that 
they can then prioritize those particular individuals that they 
want to go after in the first instance.
    Obviously, we do not want anybody to overstay in this 
country, and as you well know, we have limited resources, and 
ICE will, therefore, prioritize who they are going after. But 
this will give us a much better picture.
    When we have finished with this process, sir, we want to 
come up and brief the Committee on the results of this. So I am 
telling you is what the process looks like. What I want to come 
back to tell you or have staff come back and tell you is what 
that process yielded: What did we learn? What are we doing 
about it? And how will we do this better?
    Chairman Lieberman. I am interested in this--and I think it 
is significant. I would like to ask you to come back and brief 
Senator Collins and me and anybody else on the Committee who 
wants to be there. Do you have a sense of how soon you will be 
ready to do that?
    Mr. Beers. Sir, I am expecting to review the data either 
later this week or early next week. As soon as I have heard the 
report, we will put things together and get back to you. I do 
not want to promise next week.
    Chairman Lieberman. No, that is fine. That gives us a 
general sense.
    Mr. Beers. Let me say we will get back to you before the 
August recess, sir.
    Chairman Lieberman. Fine. My time is really over, so maybe 
I will come back to this. Now that you have worked to try to 
clear up the backlog, how do we get to the end state we want to 
get to, including particularly a comprehensive, functioning 
biometric exit system? But in deference to my colleagues, I am 
going to hold that one and call on Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I want to leave the majority of the questions about the 
Kentucky case to my colleague from Kentucky, but I do want to 
ask one general overview question. Assistant Secretary Jacobs, 
it is my understanding that since 2007, the U.S. Refugee 
Admissions Program, which was the program under which these two 
alleged terrorists were settled in Kentucky, has approved more 
than 84,000 Iraqi nationals for resettlement, and 58,810 Iraqi 
refugees have actually arrived in the United States.
    What is being done to ensure that there are not other cases 
like those two alleged terrorists in Kentucky among those 
58,000 that are already here in addition to the 30,000 
additional ones that have been approved for resettlement?
    Ms. Jacobs. Thank you, Senator. For the Refugee Admissions 
Program, actually we have shared responsibilities with the 
Department of Homeland Security, and the State Department does 
play a role before people arrive in the United States, and then 
once they are here, they are under the purview of the 
Department of Homeland Security.
    I can tell you just generally that over the past few months 
we have put in place more stringent screening requirements for 
both refugees and for special immigrant visa applicants who 
want to come to the United States, and we can probably give you 
more details about exactly what that screening consists of in a 
classified briefing. But please know that has happened and 
certainly anyone who is currently outside of the United States 
wanting to come here is undergoing that new level of scrutiny.
    I don't know if one of my DHS colleagues wants to talk 
about the actual screening of people once they have arrived 
here.
    Senator Collins. Well, I am concerned about people being 
approved to come, but I am concerned about the 58,000 already 
here. Is there a review being done of those who are here to 
make sure that there are not other cases of individuals who 
should not have been admitted? Assistant Secretary Heyman.
    Mr. Heyman. Yes. The answer to your question is yes, 
Senator. Several months ago we began a pilot project to enhance 
our screening both abroad before individuals come here as part 
of the Refugee and Asylee Program, but also looking 
retrospectively. The Iraqi program in particular started back 
in 2007, and so we have had vetting in place since then to 
include looking at holdings from other agencies. And so what we 
are doing now is to look again in a recurrent fashion or in an 
enhanced re-check fashion, and we are piloting that effort 
right now to see the technical capability of doing that and 
also what we are finding. That will be concluded at the end of 
this month, and we can get back to you and let you know what 
results we found.
    Senator Collins. The Chairman and I are working on a DHS 
reauthorization bill, as Assistant Secretary Beers knows 
because he is smiling as I say that. Whether in approval or in 
horror, I am not sure. But when I was reading the most recent 
GAO report that I requested, which was released today, GAO 
found a lot of redundancies, examples of travel offices at the 
Department of State being unaware of training programs at the 
Department of Homeland Security. And it seems as though there 
are several offices that are involved in terrorist travel: The 
US-VISIT program, the Screening Coordination Office, and the 
Visa Waiver Program.
    I have concerns based on GAO's findings about duplication, 
a lack of communication, and coordination. As we are looking at 
the reauthorization bill, I would like all of you to comment on 
whether there should be a single office that deals with 
terrorist travel and all of these programs, with the exception 
of TSA, which is clearly a different kind of screening program. 
Assistant Secretary Beers.
    Mr. Beers. Let me start. We have TSA, we have CBP, we have 
USCIS, all of whom are front-line activities that deal directly 
with terrorist travel, and we have ICE on top of that, which 
has an enforcement function.
    What we have tried to do with respect to this kind of an 
issue is exactly why the position of the Coordinator for 
Counterterrorism was established, to try to ask the question 
that you are asking and ensure in short order that the 
deficiencies that might be occurring in fact are corrected and 
that we have this kind of coordination.
    With respect to the issue that you asked and with respect 
to the GAO report, Assistant Secretary Jacobs and I have also 
talked about the coordination that needs to happen between our 
Department and her Department. Now, obviously, some of that 
should have happened in the embassy when the country team was 
aware that there were two different agencies coming in roughly 
the same time frame to talk to the same people. That should not 
happen. There is no question about that.
    So we have certainly agreed that we are going to do a 
better job across agencies to do that, but we have to do the 
same thing within the Department on training.
    The Secretary has asked us specifically to look at these 
kinds of overseas positions and overseas travel, so Assistant 
Secretary Heyman, who is responsible for the Office of 
International Affairs, also has a very important role to play 
in that, and he may want to add something on that.
    Senator Collins. Assistant Secretary Heyman, should there 
be a consolidation of some of these programs within one office?
    Mr. Heyman. So, Under Secretary Beers rightly points out 
that almost every part of the Department has some role to play 
in screening or addressing travel screening as it pertains to 
individuals coming into this country. I would add also the U.S. 
Coast Guard in the maritime domain as well. And so that is why 
we established the Screening Coordination Office from a policy 
perspective to make sure that from a policy perspective we have 
the right framework and coordination across the Department.
    The role of the Coordinator for Counterterrorism is to make 
sure operationally that these entities are all working together 
and there is no duplication or that there are no gaps. And so I 
think the combination of a Screening Coordination Office to 
make sure that our policies across the Department are uniform, 
consistent, and appropriate and a Counterterrorism Coordinator 
looking at the symphony of these parts moving is being 
conducted in a harmonious way, if I get the metaphor right, I 
think that is an approach that I think is quite useful. We have 
seen it effective in the short time that the process has been 
operational.
    Senator Collins. Assistant Secretary Jacobs, if you could 
quickly comment since obviously we have heard how DHS is 
coordinating with the Department, but the fact is the State 
Department plays a considerable role.
    Ms. Jacobs. Yes, Senator, that is right. We do. We have our 
Office of Counterterrorism where we have a number of regional 
and other programs that they oversee. Some of that is capacity 
building, some of it is training.
    I think the areas where we sometimes run into duplication, 
because we have similar missions, is on fraud training, and 
that particular example pointed out in the GAO report, as Under 
Secretary Beers pointed out, really should not have happened 
because it is incumbent upon the country team at a post to know 
who is coming in and to prevent that kind of duplication from 
taking place.
    I think that within the U.S. Government as a whole, again, 
our Office of the Coordinator for Counterterrorism plays a 
significant role in the overseas programs. I think that we can 
probably do a better job working with our DHS colleagues in the 
specific areas where we seem to have similar missions such as, 
again, fighting fraud, helping foreign officials identify 
fraudulent documents. We have expertise, both of us, in that 
area, and perhaps we can even go together and do this kind of 
training, which would be even more effective. So I am certainly 
willing to sit down and talk to my DHS colleagues about how we 
might do a better job with that.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Thank you, Mr. Chairman and Senator Collins, 
for putting these hearings together, and I thank the panel for 
coming.
    I think the most serious threats to our country from 
terrorism probably come from travel visas, refugee visas, and 
student visas. Now, some might argue with that, but 16 of the 
19 hijackers were here on student visas, were not policed well, 
and had overstayed their welcome. I am still concerned we may 
not have figured out nor done a good enough job on these 
problems.
    I believe we continue to have security breaches, and I 
think there are two possibilities. We could say, well, there 
are so many people visiting that we will have these breaches; 
it is inevitable we will have a certain amount. Or you could 
say that maybe we are inundated with information and it is our 
philosophy that is mistaken.
    Perhaps it is that our philosophy is that everyone is 
potentially a terrorist and everyone has an equal chance of 
being a terrorist. I think if you take that philosophy, you 
inundate yourself with information, so much information that 
you will never get through it. Nobody can talk to each other 
because you are wallowing in electronic and paper information, 
and you cannot determine who the people are, which would really 
require good police work.
    We had the head of the TSA here last week. After we showed 
him the outrage--and he has to be reading the newspaper--over 
patting down these children, he said TSA was changing its 
procedure. But then he sends me a rather curt note and says, 
``well, an 8-year-old had a bomb in Afghanistan.''
    The problem is there is a logical error there--an 8-year-
old in Afghanistan had a bomb. What does that have to do with 
an 8-year-old or a 6-year-old in Bowling Green? Absolutely 
nothing. Now, they are the same age, but that is not a risk 
factor, and age is not a risk factor. It is where this girl 
lived, how she grew up. It is sort of like telling me that if 
an 8-year-old in Afghanistan sacrifices a goat, we now have to 
be worried about kids sacrificing goats at 8 in America. They 
have nothing to do with each other, but that is the logic. But 
it is this universal approach that everyone is the same and 
everyone is an equal threat. But I think it makes us less safe, 
but it makes us more insulted.
    This morning, in the airport in Nashville, a 41-year-old 
mother was arrested because she did not want TSA agents putting 
their hands inside the pants of her 6-year-old girl. They say 
they are going to change, but they are not changing. They 
continue to pat down 6-year-old girls. The real threat is from 
people who are coming here internationally.
    So here we get to the situation in Bowling Green. I 
compliment the FBI and our local law enforcement for doing a 
good job, but I think this person was only caught because an 
informant tipped them off, and then we finally started looking, 
and eventually we looked through a database that we had not 
been looking through.
    Chairman Lieberman remarks that this is from the FBI 
database. Why wasn't this going on? Why does it take an 
informant to find somebody for us for us to do our job? Do we 
need to replace people who are not doing their job? It sounds 
like no one thought this through since we had to be tipped off 
by an informant, and then we are left saying: ``Oh, my 
goodness, we let a terrorist in.''
    But it gets back to the universal versus the specific. Why 
can't we search everybody? Why don't we know everybody's 
background? Because we have let 60,000 Iraqis in here in the 
last 3 years. It is a policy question. Why do you admit 60,000 
people?
    Now, here is the point: People will argue, well, it is 
dangerous over there. Well, we have 50,000 of our young men and 
women putting their lives on the line every day. Some of our 
relatives, some of my relatives, are over there putting their 
lives on the line for the Iraqis. Do you think maybe they ought 
to stay even if it is a dangerous place? It has been dangerous 
since the 900 A.D. Karbala massacre--not the recent massacre. 
They have hated each other for a millennium. It is not safe. 
But should we be admitting 50,000 people over here to our 
country?
    And then to add insult to injury, one of the alleged 
attackers who lived in government housing--most of them do. We 
are encouraging them to be on welfare. We have a whole cottage 
industry set up to get them in government housing, and on food 
stamps. It is insulting to us that we are doing this, but it 
would take a policy change. I do not fault you for missing the 
needle in the haystack. You have to make the haystack smaller. 
We need to admit fewer people. There is no reason we should be 
admitting 60,000 people, and we need to address that policy.
    I am almost out of breath. Why don't we start with that 
question, Mr. Heyman, and tell me: Why do we need 60,000? Are 
we going to keep admitting 18,000 a year? Can we possibly know 
who these people are?
    And just one other example of how we cannot. Even in the 
military over there--we have an attack almost every 6 months 
where we admit someone into the Iraqi military or the Afghan 
military, and then they attack our soldiers on base. It is hard 
to know who your friends are and who your foes are because they 
will lie to you on the admission statement.
    But I would appreciate your comments, Assistant Secretary 
Heyman.
    Mr. Heyman. Thank you, Senator, and I might add this is the 
first hearing I have been at where there are two individuals 
with the first name of Rand, and I am not sure I will ever 
experience that again. [Laughter.]
    Senator, the decision, I think, after the war in Iraq to 
admit Iraqis who had helped United States and coalition forces 
in that endeavor, whether as interpreters, informants, or 
otherwise, was a decision that was taken back in, I think, 2006 
or 2007. It continues to be the policy of this government that 
those individuals who also may be at risk of retribution or 
those individuals who supported the United States in such ways, 
they and their families would be given an opportunity to come 
here.
    Senator Paul. Let me interject. Here is the difference, 
though. In Vietnam, the war ended and a totalitarian regime 
took over, and I have many friends who came here from South 
Vietnam who fought with us. I do not have any problem with 
that. We should reward people who fought with us, we fought 
with them. But it is not a totalitarian regime. We have a 
democracy over there. We are supposed to be proud of that 
government. It is not perfectly safe over there, but there is 
no reason to continue this policy, and the policy should 
change.
    Mr. Heyman. Let me get also to the really, I think, strong 
point you made about a universal policy of terrorists behind 
every person versus a possibility of using more discriminating 
tactics and approach, which is what we attempt to do. We have 
adopted a risk-based approach to security. I believe John 
Pistole, the head of TSA, testified to some of the things we 
have been trying to do as recently as a month or so ago, which 
is to expand the list of those who are, in fact, trusted to us 
or known to us, the trusted travelers who do not require the 
kind of screening that those who might pose a threat to us do. 
And so in terms of moving forward with that, I know that 
Administrator Pistole has already brought in the pilots and 
pilots association into that trusted program----
    Senator Paul. But I do not think he is doing any less 
patdowns. He said he was going to change his policy on 
patdowns. Every day there are more complaints. It is insulting 
our privacy. Our parents do not like it. Our kids do not like 
it. It needs to change. Our approach should not be: Because 
there was an 8-year-old with a bomb in Afghanistan, all 8-year-
olds in America are a threat to our country. It is not true, it 
is a waste of time, and you are not going after the people who 
could attack us. We have a guy who gets on a plane with 11 
different boarding passes, he gets on with his student ID from 
Michigan and a boarding pass with the wrong name on it. TSA 
does not catch him, but they are insulting all of the little 
children in our country, and it needs to stop. They need to 
change the policy. They do not need to come here and tell us 
their policy is changing and continue to do the same thing, and 
that is what he told me in his letter. He is going to continue 
patting them down because he found an 8-year-old with a bomb in 
Afghanistan.
    I know it is not all your fault, but I have to let off some 
steam.
    Mr. Heyman. I appreciate that, and actually also just let 
me at least recognize that 2 million individuals go through 
TSA's screening every day. Our TSA front-line officials have to 
make those kinds of difficult judgments, not always 
successfully in the cases that you have brought forward, but 
they do process 2 million people a day, and I think they do it 
at a very high professional rate. Thanks.
    Senator Paul. Can I have just a couple more minutes? I have 
a couple other questions.
    The 59,000 refugees that Senator Collins brought up, you 
say you are going to screen them. Right now how many of the 
59,000 have been re-screened? And will every individual, all 
59,000, be re-screened?
    Mr. Heyman. I do not have the numbers. I can get back to 
you on the specifics of that.
    Mr. Beers. The number we will re-screen is all of them.
    Senator Paul. You will screen all 59,000.
    Mr. Beers. All have been re-screened at least once. This is 
not going to be a one-time-only screening process because, as 
you are well aware, information becomes available, even if it 
is historical, that does not become available until a time 
later. So this is a program that we have instituted which is 
both backward-looking and forward-looking. We have been through 
the backlog. It is a large number, as you quite correctly said, 
and it was not an easy process because it required some 
database adjustments and interactions that we had not even 
tried before.
    So I can tell you, as a result of that, we have had some 
important new insights into how we need to have our databases 
fit together and be integrated with one another.
    Senator Paul. With the student visa program, we admit 
40,000 people from the Middle East, 20,000 from Saudi Arabia; 
16 of the 19 hijackers were from Saudi Arabia; 16 of the 19 I 
think were also overstaying their student visas.
    Are the student visa people initially going through the 
better process now that would hopefully catch people who have 
fingerprints in there? Are they going through the same kind of 
screening before they come here?
    Mr. Heyman. All of our visa applicants go through a number 
of screening processes that I described, including matches 
against the known or suspected terrorist watchlist, targeting 
against unknown behavioral patterns, criminal databases, as 
well as additional visa violations.
    Senator Paul. And supposedly the better screening, not the 
screening we did 2 years ago that did not work, we now have 
enhanced, and they are doing----
    Mr. Heyman. We have had extensive improvements in screening 
and in our watchlisting process as recently as in the past 2 
years, but also over the last several years.
    Senator Paul. Are they re-screened again? If they enroll in 
school, do we know they are still in school after 3 months? 
Does someone go through all 40,000 and find out if they are 
attending classes? Not enrolled. Attending classes.
    Ms. Jacobs. All of the foreign students who come here 
participate in the SEVIS program, which is basically a program 
that monitors their attendance at school when they first 
enroll. Any switch in schools is registered in that system. 
Consular officers overseas have access to that system, and let 
me just add that before they even get their student visa, as a 
visa applicant they go through a number of security checks, 
including being run through our lookout system, which has about 
39 million records, 70 percent of which come from other 
agencies, many of those law enforcement and intelligence 
agencies. So there is a thorough screening before they come, 
and once they get here they have to maintain status. If they 
are not registered in this system that I described, SEVIS, then 
their names are turned over to ICE.
    Senator Paul. So attendance is being recorded by whom? By 
the school and then sent back? That is how the system works?
    Ms. Jacobs. The school, yes, has the responsibility for----
    Senator Paul. If they overstay their welcome, if they 
overstay their student visa, are we systematically going 
through--like Senator Lieberman talked about with the exit 
program, do we have an exit program on all student visas?
    Mr. Beers. It is one of all of the visas that we look at, 
yes. If they go into overstay status, it is noted, and now we 
have this vetting system that will focus on anybody who is an 
overstay to ensure that we know as much as possible about it.
    What we will end up having to do now is, as this number of 
unreviewed overstays goes to zero, we will then have to 
continue to do recurrent vetting to make sure that the 
individuals who were placed in an overstay status, who then 
leave after we have reviewed their files initially, we come 
back and make sure that we know that they have actually left 
the country so that we can inform ICE that is not a person who 
is an overstay status.
    Senator Paul. And one quick final question on the Bowling 
Green alleged terrorists. If their fingerprints were in an FBI 
database, why weren't they checked?
    Mr. Beers. We did not have access to that database, sir.
    Senator Paul. I am not sure I understand that.
    Mr. Beers. We get a lot of fingerprints from a lot of 
different sources, including the FBI. We did not have access to 
that fingerprint in the US-VISIT system, which is the way that 
we then are able to make the identification. That person, had 
that information been available, would have immediately come up 
on the FBI's radar screen independent of the informant coming 
forward.
    Senator Paul. That is a real problem. I mean, we got lucky 
because of the informant, but I guess that is the real problem, 
and I do not understand. See, I do not know all the names of 
your watchlists, but I have heard of the FBI. I would think 
that would be a pretty prominent watchlist or database 
fingerprints where you would be integrating your information.
    Mr. Beers. Sir, you need to ask the FBI to explain where 
that particular fingerprint was.
    Senator Paul. I am going to ask them. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thanks, Senator Paul. We will ask the 
FBI that. I gather they are far behind--but there is no excuse 
for that--on inputting fingerprints of this kind. But I do not 
understand why it would be 5 or 6 years.
    No need to regret your agitation or letting off steam here. 
We share your agitation, and your right to let off steam is 
fully protected here in this Committee, and that right has been 
exploited by many Members of the Committee over time, one of 
which is our next distinguished colleague from Massachusetts. 
[Laughter.]
    Senator Brown.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. Thank you, Mr. Chairman.
    Assistant Secretary Jacobs, due to the recent political 
turmoil in Yemen, the State Department has withdrawn most of 
the staff from the embassy in Sana'a. However, before this 
occurred, earlier in the year, the OIG found that in 2009 and 
2010 the embassy in Sana'a was, in fact, critically 
understaffed, and fraud prevention, as you know, is critical to 
preventing terrorists from getting visas to come to the United 
States, and probably one of the most important places that we 
need to ensure we have necessary resources to fulfill this 
critical function is in Yemen, especially now, where AQAP is 
actively plotting to conduct attacks on the United States. Yet 
according to the State Department's OIG, the embassy is in 
critical need of staffing, in the Fraud Prevention Unit, 
especially.
    So how can we effectuate counterterrorism policies if the 
necessary resources are not being supplied?
    Ms. Jacobs. Thank you, Senator. It is absolutely true that 
our embassy in Sana'a, in Yemen, traditionally has been a place 
where it has been hard to fill positions. It is a difficult 
place and sometimes difficult to get people to those positions 
that exist.
    The State Department has made it a priority to make sure, 
though, that with these critical countries like Yemen we are 
getting not just the staffing filling a position, but filling 
the position with the right people, and that is a top priority 
for the State Department. The truth is we are on ordered 
departure right now in Sana'a, so a number of the people who 
were at the embassy have had to leave, but that does not mean 
that we in any way have cut back in our consular section on 
fraud prevention or really screening the applicants.
    We understand very well the high risks that exist in Yemen 
and the fact that applicants there have to undergo very 
extensive scrutiny.
    I have made it a personal quest, after visiting Sana'a 
almost 2 years ago, to make sure that the consular section in 
that embassy is not just properly staffed but has the right 
people in it. I have sent a number of my very best officers to 
temporarily head the consular section. We now have a permanent 
person who just arrived, someone who is one of our best 
officers, who is going to be running our operation there.
    I have sent in a number of temporary officers to reduce 
backlogs, to look especially at fraud and what we are doing to 
prevent that.
    We have help from our diplomatic security colleagues. We 
have an assistant RSO investigator who helps us with our fraud 
investigations in Sana'a. We have a Visa Security Unit there. A 
lot of different people with the very same concerns, with the 
same mission, and that is, to keep out people who might be 
coming here to do us harm.
    Senator Brown. But even though you are doing that, it is 
still understaffed.
    Ms. Jacobs. The consular section is not understaffed.
    Senator Brown. It is not. How many people do you actually 
have working in that section?
    Ms. Jacobs. I will get back to you with the exact number.
    Senator Brown. Yes, if you could, let me know how many 
people are working there, where the shortfall is, if any, and 
how many efforts do you process monthly because if there is a 
breakdown and there is something that we need to do to help get 
that up. I mean, it is no secret that Yemen is in the forefront 
of terrorist activity, and to think that we may be, because of 
lack of resources, allowing people to sneak through the cracks 
is problematic and very troubling. So I would rather be 
proactive, and then if there is something that the Chairman, in 
his amazing leadership, and Senator Collins can do to provide 
the resources to fill that void, that would be helpful.
    Assistant Secretary Heyman, thank you, sir. Is it my 
understanding that there is a backlog of over--and this may 
have been asked, and I apologize. I actually just had a 
briefing on Yemen, so I was a little delayed. But is there a 
backlog of over 1.6 million potential visa overstays? I think 
that is what Mr. Beers was hinting at. Is that number accurate?
    Mr. Beers. Sir, that is my bailiwick.
    Senator Brown. Oh, I am sorry, sir.
    Mr. Beers. That is quite all right. There was a backlog of 
1.6 million. Over the last several weeks, we have worked at a 
very high level of activity to deal with this.
    Senator Brown. So what is the number now, do you think?
    Mr. Beers. The number is less than half of that number in 
that the people who were included in that 1.6 million, over 
half of them have already left the country. They were in an 
overstay status when they left the country, but they left the 
country after they passed into the overstay status, and we had 
not determined that.
    There is a much smaller number who have changed status; 
that is, they have applied for a different visa or in some 
cases they may have had an application for refugee status or 
something along those lines.
    The remaining people--just to assure you, anybody who left 
after they were an overstay will not be admitted again because 
we have their biometric data, and if they apply for a visa, 
they will be denied a visa because they overstayed on an 
earlier visa. And if they come through the Visa Waiver Program, 
we have their biometric data in that way, and we will see who 
they are when they seek to get off the plane and pass through 
immigration. They will not be admitted. They will be returned 
to the country from which they came. So that is the first half.
    Then the second half----
    Senator Brown. Let me just stay on that first half. Is it 
true that it is 180 days after their visa expires that they are 
considered having overstayed their visa?
    Mr. Beers. We know when they overstay on the day that they 
have overstayed.
    Senator Brown. Yes, but we are a non-visa waiver country 
and we do not consider them really overstayed until 180 days. 
Isn't that right?
    Mr. Beers. Well, because that is the terms of the Visa 
Waiver Program entry.
    Senator Brown. And why is it so long? It just does not make 
sense to me. I know when I go to other countries, we have to go 
through hoops to get into the country and then leave the 
country. I am a U.S. Senator.
    Mr. Beers. Ms. Jacobs, do you want to describe what the 
different classes are?
    Senator Brown. No, I do not need a lesson on classes. I am 
trying to pick up where Mr. Beers was zeroing in on. We have 
all these people here that are overstaying, and it does not 
seem like we are really zeroing in to either get them 
reclassified, helping them out if they want a different type of 
visa. What are the efforts? Am I missing something?
    Mr. Heyman. Let me just say one thing that Mr. Beers did 
not get to say, which is that the number of 1.6 million will be 
down to zero in the next week or so, and we have committed to 
come back to brief you on that.
    Senator Brown. That is fair. See, I asked you the right 
question.
    Mr. Beers. No, I was going to get there. [Laughter.]
    Senator Brown. He is much quicker.
    Mr. Beers. The other half are now going through two 
databases to determine, first, whether or not there is any 
derogatory information that was available before or after they 
came into this country; and, second, whether or not they would 
be subject to the targeting rules that the Customs and Border 
Protection organization runs against people who are in this 
country. That will reduce the number from the remaining half to 
a smaller number who will be classified as persons of interest. 
The entire remaining number will be turned over to ICE with a 
notation as to who are the most prominent numbers, and as Mr. 
Heyman said, I am expecting a report of the completion of this 
process tomorrow. We will get back to the Committee as quickly 
as possible, at Senator Lieberman's request.
    Chairman Lieberman. Thank you, Senator Brown. We will have 
a few more questions each and then let all of you go back to 
work.
    Let me pick up where Senator Brown ended and where I ended 
on my first round. So we understand now what the Department has 
done to work through this backlog that existed of overstays, 
but let us talk now about what is the ideal state we are 
looking forward to in terms of an exit system, as I mentioned, 
so we do not develop another backlog and so we have a much more 
contemporaneous understanding of where people are after they 
come into the country, or at least did they leave when they 
were supposed to leave when their legal right to be here ended.
    And as I mentioned in my opening statement, Mr. Kean and 
Mr. Hamilton, when they testified before us, again called for a 
comprehensive biometric exit system. And then GAO recently 
reported that the current biographic system continues to be 
full of problems.
    So take a minute, because this really is important to the 
Committee, and tell us what the biographic system is, how it 
works, and whether you agree that we should be working toward a 
comprehensive biometric system, how that would work, and what 
you need to get there as quickly as possible.
    Mr. Beers. Mr. Heyman, do you want to start with the 
enhanced biographic that you have been working on?
    Mr. Heyman. One of the challenges that we have had with 
overstays historically is that the biographic information is 
not easy for us to reconcile in terms of who is here and who is 
not here.
    Chairman Lieberman. So what does ``biographic'' mean?
    Mr. Heyman. ``Biographic'' means the name, date of birth, 
the textual information that we gather on departure of an 
individual.
    Chairman Lieberman. So we recorded it when they came in?
    Mr. Heyman. We got it when they came in, from the passport 
information.
    Chairman Lieberman. Right.
    Mr. Heyman. And we get it when you leave.
    Chairman Lieberman. Right.
    Mr. Heyman. And so we actually have real-time biographic 
exit, but the question is, over the last several years, we have 
been trying to improve the ability and the integrity of that 
data so that we can actually be sure that when we think 
somebody has left, they have left, or when we think they have 
overstayed, they have overstayed. And we have not had that 
until recently.
    Over the last several months, Mr. Beers' folks have been 
doing deep dives into the data on a pilot basis to see if we 
cannot get better integrity and be able to do a better job of 
actually knowing real-time when people have left using the 
biographic analysis. And the answer is we think we can. And the 
result of that is that once we complete the backlog and we can 
do real-time biographic, that will help us in the near term--in 
fact, we are doing that now--be able to accurately assess 
overstays on a more real-time basis.
    Chairman Lieberman. So that makes sense in that when you 
come into the country, not only do you give the biometric data 
by putting your fingerprint down, but there is passport 
information, so that is in the record. And when you leave the 
country, that is in the record, and presumably that is not a 
complicated data entry matter to find out who has not left 
after the date at which their visa expired, right?
    Mr. Heyman. Correct.
    Chairman Lieberman. So what you are saying is you think you 
can do better at working that biographic system.
    Mr. Heyman. Correct.
    Chairman Lieberman. Are you still thinking about going over 
to a biometric system?
    Mr. Heyman. Yes.
    Mr. Beers. Sir, we have not stopped thinking about this. As 
you know, we have run some pilot programs and some cost 
estimates.
    Chairman Lieberman. Right.
    Mr. Beers. The last cost estimate we had, the lowest cost 
estimate we have ever had, was $3 billion over 10 years. We are 
still looking for a more cost-effective solution to close the 
gap between the enhanced biographic that we are currently 
working with and the validity of the biometric exit.
    Chairman Lieberman. Is biometric, just for the record, 
largely a fingerprint or----
    Mr. Beers. Although we can come up with another solution, 
but that is what we have spent our time looking at.
    Chairman Lieberman. Right.
    Mr. Beers. That is what the $3 billion estimate was 
associated with.
    Chairman Lieberman. Do you conclude that it is more 
effective to have a biometric than a biographic system?
    Mr. Beers. Sir, I have said before, before this Committee, 
that in the end that is the highest fidelity system that we 
would have. The question that we are faced with is whether or 
not the highest fidelity system is sufficiently cost-effective 
in the current budgetary environment, and that is why we have 
asked S&T to look hard and see if they can come up with perhaps 
even a new way to approach this problem. We do not have the 
results of that yet.
    Chairman Lieberman. That is important. So that is the first 
step, and it is a significant step. But let us say whether it 
is enhanced biographic or biometric, either way you are going 
to know, am I right, which of the people who have come into the 
country on a visa have overstayed the visa?
    Mr. Beers. Yes, sir.
    Chairman Lieberman. And then what do we do?
    Mr. Beers. That is where the visa backlog and the going-
forward system is going to identify in near real time after 
they pass into the overstay status whether or not--as a result 
of the interrogation of the databases--they are persons of high 
interest because of some derogatory information or behavioral 
activities which I can talk to you more about in a classified 
setting. This information says that we ought to really pay more 
attention to this particular person, which is not to say that 
the other names will not go to ICE, but then ICE will have to 
decide with respect to whom. This goes back to Senator Paul's 
concern about focusing on the high-risk persons first, who the 
people that we would put in the high-risk category are in order 
to do that.
    But the thing I want to tell you is that does not stop the 
recurrent vetting that we will have to continue to do to ensure 
that, as I said earlier, if more information comes in at a 
later point in time, even though it is historical information, 
we want to get that information to the investigator.
    Chairman Lieberman. So this is a question really for ICE, 
but maybe you know. This is a very labor intensive, but I 
presume in the ideal system that on the day somebody's name 
popped up as their visa has expired and they should have left 
the country and we do not have a biographic or a biometric 
indication that they have, that somebody would begin to look 
for them, presumably at their last known address or whatever. 
But I assume that is not happening now? Leave aside for a 
moment they are screening--which is a very good move, of 
course, to try to set a kind of priority based on activities or 
suspicions. But right now what does ICE do about all those 
people who overstay their visas?
    Mr. Beers. Let me focus on the persons of interest because 
that will give you a sense of what they can do. They can look, 
as you quite correctly said, at the last known address. They 
would look to see what other evidence there is in any databases 
that they might be able to access that would provide some 
further information about where that person was or what that 
person was doing. So they would look, for example, at if they 
got a driver's license. They would look for whether or not the 
person had a phone. They would look for whether or not the 
person had a credit card and other kinds of indicators that are 
publicly available information which would help establish 
location so that they could zero in on that person. So the 
front end of that is preparing the case, and then the back end 
of that is for the ICE investigator to go out and actually try 
to find the person.
    Chairman Lieberman. To the best of your knowledge, is ICE 
able to do those kinds of checks on everybody who overstays 
their visa?
    Mr. Beers. Certainly not on everybody who overstays their 
visa, no, sir.
    Chairman Lieberman. So we have to get to a point where a 
person who comes in on a tourist or student visa, or any other 
kind of limited-time visa, worries that the odds are that they 
are going to be apprehended. I fear that right now the odds are 
that they can probably avoid detection, whether they are here 
for evil reasons or, as most of them probably are, just here to 
work and make a living. Either case is a violation of our law.
    My time is up. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Assistant Secretary Heyman, there is some good news in your 
testimony on the issue of applying new data to these holders 
now, and I believe your written testimony says that to date, 
for this fiscal year, DHS has revoked 782 visas using this 
process of using the kinds of new information that Under 
Secretary Beers has referred to to revoke visas. And this 
brings to mind the Abdulmutallab case where there was a lack of 
understanding that the Christmas Day bomber even had a U.S. 
visa.
    Assistant Secretary Jacobs, this is an issue that we talked 
about extensively in April of last year when you testified, and 
we talked about the misspelling of Abdulmutallab's name by 
embassy officials which resulted, at least initially, in the 
failure to realize that he held a U.S. visa.
    Now, your testimony today says, ``For visa applications, we 
employ strong, sophisticated name-searching algorithms to 
ensure matches between names . . . and any derogatory 
information. . . .'' And then you go on to say something which 
puzzles me. You said, ``This robust searching capability, which 
takes into account variations in spelling, has been central to 
our procedures since [the] lookout system checks were mandated 
following the 1993 World Trade Center bombing.'' So I am trying 
to reconcile your testimony today when you say that we have had 
the capacity to check for variations in spelling since we 
instituted these procedures many years ago following the 1993 
bombing and what happened in the Abdulmutallab case.
    Ms. Jacobs. Thank you, Senator. Actually, we are dealing 
with two different databases and so that explains the 
difference. What we created after the original attack on the 
World Trade Center was our lookout system, or what we call 
CLASS, where we develop many algorithms that allow us to search 
for names using what we call ``fuzzy logic,'' which basically 
means you can misspell a name, if there are differences in how, 
for example, an Arabic name is transliterated. Our CLASS system 
for many years has had these sophisticated abilities or 
algorithms so that no matter what you put in, it would bring up 
several different results so that you could look through to see 
if it applied to the applicant.
    That search capability was not available in our Consular 
Consolidated Database when the name was put in for Mr. 
Abdulmutallab, and so one of the changes that we made after the 
attack Christmas 2009 was to make the same fuzzy logic search 
capability available in our Consular Consolidated Database, and 
we tell everyone now when they are searching for names or any 
other information that they have to use what we call our person 
finder search, which involves this fuzzy logic.
    So today if that name was misspelled and put into the 
Consular Consolidated Database, it would, in fact, have hit on 
this name and several others that came close.
    Senator Collins. But earlier today you and Under Secretary 
Beers indicated that there are still some problems with 
databases and their capacity to interrelate. So give me your 
assessment--it seems like we have all these databases, and the 
FBI example of the fingerprints is a perfect example. That just 
seems like such a logical place to look. So what is your 
assessment of the compatibility of all of these databases that 
are critical to our ability to protect against terrorists 
traveling to this country and overstaying visas or all of the 
other problems that could cause us to have someone in our midst 
who could do harm?
    Ms. Jacobs. Thank you. That is a very good question. I 
would say that one of the issues that we focused on after 9/11, 
in addition to the need for Federal agencies to do a better job 
of data sharing, we also looked at all of the stand-alone 
systems that each of us use and tried to figure out how can 
they speak to each other.
    When DHS was creating US-VISIT--frankly, I think US-VISIT 
is one of the best examples of how agencies can partner 
together because one of the first things we did was to make 
sure that our visa information was made available to the 
inspectors at the ports of entry through US-VISIT. When people 
come in, they are able to pull up on their screen the 
information from our visa database. They are able to look at 
the fingerprints that we collect. It is interoperable. It works 
extremely well.
    That goes for the FBI as well. We had some issues in the 
very beginning, but we have worked through those, so that all 
of our visa applicants are checked against a DHS fingerprint 
database and the FBI database.
    It is true that there are some agencies who did not 
participate in this exercise that we all underwent early on 
after 9/11. The Department of Defense, for example, has still 
some stand-alone systems where certain information resides. 
Now, DOD does or is supposed to share any information on known 
or suspected terrorists. That should come into these other 
systems that do talk to each other. But to the extent that 
there are other people in those stand-alone databases that are 
not automatically checked against, something might be missed.
    What we are doing now in the case of Iraqi refugees and SIV 
applicants, for example, is we check all of these existing 
systems, but in addition, we are now doing separate checks 
against DOD systems. And DOD is working very hard to make their 
system interoperable with our systems.
    So there is still some work to be done, that is absolutely 
true, but I think certainly between the State Department, DHS, 
and FBI, it really is a good-news story.
    Mr. Beers. Could I add something, Senator?
    Senator Collins. Yes, Under Secretary Beers.
    Mr. Beers. We would have interviewed the individual in 
question when----
    Senator Collins. When he got here.
    Mr. Beers [continued]. He got here, based on the 
information that was available. Given the new system that we 
had, it is quite possible that he would have been denied 
boarding overseas. But we did not have that system in place 
until after this event. Had that person's visa been revoked, he 
would have been denied boarding. That is a system that we have 
worked out between ourselves in terms of how to do that because 
just because the State Department revokes a visa does not mean 
they have any way of telling the person that the visa has been 
revoked. They would have to find the person and tell him that, 
and the person would still have the visa in the passport. So 
that is another improvement that we have had since then by 
being able to keep people off the planes rather than having to 
wait until they get here before we get a chance to talk to 
them.
    Senator Collins. That is absolutely critical, but another 
aspect of the Abdulmutallab case that was most disturbing to me 
was that the derogatory information about Abdulmutallab from 
his father to our embassy officials did not trigger the 
revocation of his visa and, thus, block him from boarding the 
plane in the first place. And I know improvements have been 
made so that supposedly that would not happen today, but that 
still is so troubling to me that he was not listed on the 
watchlist and preferably on the No Fly List, but also that his 
visa was not revoked. That was a pretty gaping hole.
    If I could just ask one more very quick question, it is 
about the Visa Security Program, which we have talked about 
many times. We have talked about it over and over in our April 
hearing in 2010 and again today in both of our opening 
statements, and we have talked about how DHS and the State 
Department have identified 57 posts as high risk. But I want to 
go to a subcategory of the high-risk posts, and that is, the 
GAO tells us that 20 are characterized as the highest-risk 
posts. So why aren't we covering at least those 20? We have 19 
posts covered now, but 5 of those are not in the highest-risk 
posts.
    I understand that there are limited resources, but I do not 
understand why we would not assign DHS officers to the highest-
risk posts first.
    Mr. Heyman. So the process for deciding how to get a visa 
security officer to a post includes a joint risk assessment 
between the State Department and the Department of Homeland 
Security. We do this on an annual basis, and that is where that 
ranking comes up. So we have a sense of priority, not 
necessarily need per se, but it is a priority ranking.
    Last year, as you know, we had additional funding for visa 
security officers, and we expanded the program to the extent we 
could. When we consult with the State Department either because 
of an interest on our part to enhance the visa security and to 
provide Visa Security Units or when the State Department talks 
to us, that has to be jointly done, and it has to also be done 
with the posts. The ambassador has the final say of who can 
come to post and whether there is even space available.
    So some of the things that we go through are: (A) what is 
the priority; (B) what are the resources available; and, (C) 
whether there is even space available. We continue to review 
that. Last year, I think quite effectively, in the 19 posts we 
had about 815,000 applicants for visas of which 105,000 
required further review and 1,300 we recommended be refused. 
And so there is quite a big tempo on that, and we, as I said, 
will continue to review that both in terms of resource 
availability and priorities.
    Senator Collins. Well, thank you for that response. It 
still troubles me very much if an ambassador is blocking the 
implementation of this critical program in any of the posts 
that have been ranked the highest risk. Security ought to be 
No. 1.
    Mr. Heyman. In the past year there have not been any 
blockings of that nature that I am aware of, but that is one of 
the considerations that goes into it, whether a post has space 
available.
    Senator Collins. Thank you.
    Ms. Jacobs. Senator, if I may just add very quickly just 
two things. One is that for the existing VSUs and any future 
ones, we did sign an MOU with ICE earlier this year that really 
defines very well the roles and responsibilities of the visa 
security officer, the consular officer, and then if we have 
someone from diplomatic security helping in the consular 
section. And so we are very pleased about that. It is something 
that Assistant Secretary John Morton and I worked on together, 
so we know that for the current ones and any ones in the future 
that those roles and responsibilities are clearly defined.
    And I would also like to add that, in addition to the 
reviews that are done by ICE overseas in these Visa Security 
Units, in fact, ICE here in Washington has access to all of the 
same visa information that is available to the ICE officers in 
the field. This comes through our Consular Consolidated 
Database. And it is true that every day they are reviewing that 
information right here in Washington, and if they see cases of 
concern, they notify the post. And these are posts where we do 
not even have VSUs. So they are able, in fact, to do that 
review back here and have input into cases.
    Senator Collins. Well, either the program is needed or it 
is not needed. If you can do it remotely, then maybe we should 
be questioning the whole program. But if the program is needed, 
it does not make sense to me that only 9 of the 20 highest-risk 
posts have DHS officials stationed there to review visas. That 
just does not make sense to me.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins. I agree 
with you. Senator Paul.
    Senator Paul. Thank you.
    On the underwear bomber, not only does it perplex me we did 
not take his visa away, why didn't we send the Nigerian police 
over to his house? His dad is there reporting him. Why wasn't 
someone looking for him? I mean, it is really doing police 
work. That is what I think more of this has to be about, good 
police work, rather than focusing on just database searches and 
all that. And we have to take away visas. But when someone's 
dad comes and says they are a threat, the police should have 
gone over to the guy's dorm or his house or tried to find him 
somewhere in Nigeria. I am not aware that there was an active 
effort looking for this man before he came over here.
    But I wanted to get back to the FBI list and the idea with 
the Bowling Green terrorists and the fingerprint on the bomb. 
You said we need to ask the FBI, when they came in in 2007, or 
2009, there was no FBI database or something called the 
Terrorist Screening Database? That did not exist in 2007 and 
you did not have access to that?
    Mr. Beers. Sir, we had access to that. This particular 
file, this particular print, was not in any of the databases 
that the FBI had to which we have access.
    Senator Paul. That makes it clear. So the problem really 
was not that you did not have access to lists. They did not put 
the information on the list. I know nobody wants to talk about 
it. They just want to say it is better. But there was a problem 
then. There obviously was a problem because we let somebody in 
with fingerprints on a bomb. It really sounds like the problem 
mostly originates in the FBI, that they did not put this 
information into the correct database, because you do not now 
have new access to a new database. They are just doing a better 
job, supposedly, getting the information into the database? Am 
I correct?
    Mr. Beers. Yes, sir.
    Senator Paul. Were either of these two Bowling Green 
terrorists on any kind of watchlist?
    Mr. Beers. At the time that they were put into the asylum 
system, no.
    Senator Paul. So that would have all occurred after the 
whole investigation started?
    Mr. Beers. Unless the information had been available 
before, and then they would have been on a watchlist.
    Senator Paul. All right. That is all I have. Thank you.
    Chairman Lieberman. Thanks, Senator Paul.
    Thanks to the three witnesses, Under Secretary Beers, 
Assistant Secretary Jacobs, and Assistant Secretary Heyman. 
Frankly, thanks up front for all that you and your predecessors 
have done to create this quite remarkable and, I think, largely 
effective system we have for preventing terrorists from 
traveling into the United States to attack us. And I guess I 
would say thanks for the work that we are going to continue to 
do together to try to close the gaps that continue to exist. It 
has been a very informative hearing, and I thank you very much 
for your participation.
    We will keep the record of the hearing open for 15 days for 
additional questions and statements.
    With that, the hearing is adjourned.
    Mr. Beers. Thank you, sir.
    [Whereupon, at 12:34 p.m., the Committee was adjourned.]


        TEN YEARS AFTER 9/11: IMPROVING EMERGENCY COMMUNICATIONS

                              ----------                              


                        WEDNESDAY, JULY 27, 2011

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Collins, and Brown.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning, and I welcome the 
witnesses particularly and urge you to feel comfortable and 
take your seats. It is good to have you here.
    This is another in a series of hearings that Senator 
Collins and I and our Committee have been doing as we approach 
the 10th anniversary of 9/11 to essentially evaluate what 
lessons we learned from that tragic day and what we have done 
to act on those lessons. One of the revelations of that day was 
the enormous gaps in our  emergency  communications  
capabilities.  The  fact  is  that on 9/11, a lot of first 
responders could not coordinate their rescue efforts because 
they could not talk to each other.
    As one New York City fire chief told the 9/11 Commission, 
``People watching on TV certainly had more knowledge of what 
was happening a hundred floors above us than we did in the 
lobby [of the World Trade Center].'' And that proved fatal 
because many firefighters inside the Twin Towers did not hear 
the call to evacuate.
    In its report, the 9/11 Commission said, ``The inability to 
communicate was a critical problem at the World Trade Center, 
Pentagon, and Somerset County, Pennsylvania, crash sites, where 
multiple agencies and multiple jurisdictions responded. The 
occurrence of this at three very different sites is strong 
evidence that compatible and adequate communications among 
public safety organizations at the local, State, and Federal 
levels remains an important problem.''
    As a result, the 9/11 Commission recommended the Federal 
Government take the lead in helping State and local governments 
establish interoperable communications systems.
    A year after the Commission issued its report, Hurricane 
Katrina slammed into the Gulf Coast, and we saw there the 
relevance of the critique of the 9/11 Commission not just to 
man-made disasters, such as a terrorist attack, but to natural 
disasters as well. Because on the Gulf Coast, as a result of 
Hurricane Katrina, the lack of interoperable communications was 
compounded by an inability of many communications systems to 
operate at all under those circumstances.
    Phone lines, cell towers, and electrical systems were 
destroyed by the storm, knocking many communications systems 
offline and making it impossible at times for many first 
responders and government officials on the Gulf Coast to talk 
to each other.
    Governor Haley Barbour of Mississippi memorably said, ``My 
head of the National Guard might as well have been a Civil War 
general . . . because he could only find out what [was] going 
on by sending somebody.''
    Today at this hearing, we are going to assess what progress 
we have made and what gaps remain in making public safety 
communications more interoperable and more operable in a 
crisis.
    In assessing what has happened since 9/11, it is important 
to remember, I think, that planning and funding decisions for 
emergency communications traditionally have been splintered 
across over 55,000 public safety organizations across our 
country that operate on many different bands of radio spectrum.
    But as we look back almost 10 years now, I would say that 
significant progress has been made in bringing these varied 
organizations together.
    The Implementing Recommendations of the 9/11 Commission Act 
of 2007, which was the second wave of legislation from the 9/11 
Commission report, which, again, I am proud to say originated 
in our Committee, created the Office of Emergency 
Communications within the Department of Homeland Security to 
coordinate with State and local governments in addressing the 
many challenges that come with trying to create interoperable 
communications systems.
    With assistance from the OEC, each State and territory has 
now created a communications interoperability plan and has 
appointed a State interoperability coordinator, and I am 
pleased to say that these officials meet face to face twice a 
year and are in ongoing communication about how to improve 
interoperability.
    That is very significant because not so many years ago, it 
was not always clear who the point person in each State was 
when it came to interoperability or if there actually was such 
a point person.
    In 2008, OEC issued the National Emergency Communications 
Plan to establish clear goals for improving interoperability, 
and to ensure that the plan is more than just a piece of paper, 
OEC has been testing to see if its goals are being met. In 
2010, OEC tested 60 urban areas to see if they could 
demonstrate that they could rapidly establish communications 
among agencies from all levels of government in the event of an 
emergency. I am pleased to say that all 60 urban areas met the 
goals set by OEC. They are now working with the States to test 
the capabilities of the more than 3,000 counties across the 
country.
    Investments in many State and local communications systems, 
which have been significant, supplemented by over $4 billion in 
grant funds from the Department of Homeland Security, have 
significantly enhanced voice communications and 
interoperability of voice communications over what they were a 
few years ago. In this regard, it is comforting to report that 
one of the greatest success stories actually comes from 
Louisiana, which has used State money, DHS grants, and stimulus 
dollars to build a single, statewide radio communications 
system that provides daily voice communications to more than 
60,000 Federal, State, and local users.
    This system, incidentally, proved its worth during the 
evacuation of almost 2 million people before Hurricane Gustav 
in August 2008 and again after the Deepwater Horizon oil spill 
when the system was the backbone for establishing interoperable 
communications among the various first responders in the Gulf 
States. So that is real progress.
    But despite such progress in voice communications, we still 
have failed to fulfill the recommendation of the 9/11 
Commission to set aside a portion of the radio spectrum and 
dedicate it to create a coast-to-coast, interoperable, 
emergency digital communications network for first responders. 
We have the opportunity to do that right now, and I think we 
need to seize it.
    Currently, public safety agencies transmit on narrow slices 
of non-contiguous spectrum that cannot handle the kinds of 
large chunks of data available to the average smartphone user.
    Turning over a large contiguous slice of the broadband 
spectrum, which is known as the D Block, to public safety would 
give our first responders a 21st Century communications system 
with equipment that could share information with any other 
department anywhere in the Nation. Right now, as one of my 
staff members put it, one of my more eloquent and colorful 
staff members, the average firefighter or first responder does 
not have the capability that the average teenager with a 
smartphone has, and that really is unacceptable.
    If we close this gap, as an example, firefighters could get 
digital building diagrams from the local building department as 
they approach a burning building so they know the floor plan 
and exits before they go in.
    Paramedics could send a patient's vital signs to the 
emergency room so doctors and nurses would know what they were 
dealing with before the patient arrived.
    A police officer at the scene of a crime could take 
electronic fingerprints and immediately compare them to 
Federal, State, and local databases. Or the officer who gets a 
partial read of a license plate could immediately tap into a 
database to help determine who owns the car and whether they 
have outstanding warrants against them.
    Senator McCain and I have sponsored legislation to set 
aside the D Block for first responders, and we are committed 
now to working with Senators Rockefeller and Hutchison, 
Chairman and Ranking Member of the Commerce Committee, who have 
reported similar D Block legislation out of their Committee.
    But I will note that Senator Reid, to bring what we are 
talking about that began 10 years ago right down to today, in 
his proposal to end this debt ceiling crisis that approaches, 
that we are in the middle of--and D-Day is next Tuesday, 
apparently--has included auction money from the spectrum as 
contributing to diminishing the deficit, but has allocated $7 
billion of that for these purposes. For reasons that are not 
clear to me yet--and we have to talk to him and his staff--that 
is $4 billion less than the Rockefeller-Hutchison bill and 
Senator McCain and my bill, and we want to see what is going on 
there. But all the authorizing language is now in Senator 
Reid's debt ceiling proposal, so perhaps one of the witnesses 
is either clairvoyant or has been tapping phones and emails and 
can predict better than Senator Collins and I can what actually 
will happen here in the next 3 or 4 days on the debt ceiling. 
But here all of a sudden--and we do not know whether this is in 
Speaker Boehner's proposal or not because we have not seen the 
language--we have the possibility of actually achieving this as 
a resolution of this larger crisis in the next week, and that 
would be great.
    In this 10th year after 9/11, adopting this legislation I 
think is one of the best things to do to show that we have 
learned the lessons from 9/11. The bottom line is, our first 
responders need a nationwide network giving them the most 
modern broadband capabilities.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Mr. Chairman, as you were talking about the debt crisis, I 
could not help but think that it would be good if something 
positive came out of this debacle that we find ourselves in.
    Good morning to all of our witnesses. Mr. Chairman, I am 
not sure that you realize that we not only have a witness from 
the State of Maine with us, but that the Connecticut witness 
hails from Milo, Maine.
    Chairman Lieberman. I would like to say I knew that. 
[Laughter.]
    Mr. Varney, this does not put your credibility in doubt 
with me at all. [Laughter.]
    It only enhances your credibility.
    Senator Collins. I was just going to say, be careful there. 
This is a big plus and now gives me great confidence in what 
Connecticut is doing as well as what Maine is doing.
    The effectiveness of emergency communications has emerged 
as a concern due to the failures that occurred in the wake of 
the 9/11 attacks and the Hurricane Katrina disaster. As both of 
these catastrophes demonstrated, the lack of reliable 
communications before, during, and after a disaster can cost 
lives, worsen damage, and slow response operations.
    Not only did the 9/11 attacks represent a ``failure of 
imagination,'' as the 9/11 Commission found, they also revealed 
the inadequacy of communications equipment, technology, and 
systems. The 9/11 Commission report cited many problems with 
communications among firefighters on September 11, 2001, and 
found that the technical failure of the fire department's 
radios was a ``contributing factor'' to the loss of firefighter 
lives, albeit not the primary cause.
    Incredibly, when Hurricane Katrina struck in 2005, we saw 
exactly the same kinds of problems that we had witnessed 4 
years earlier in the 9/11 attacks. Emergency personnel had 
incompatible equipment even within the same Louisiana parish. 
Major communications problems arose when towers and electronic 
equipment were destroyed, 911 centers were rendered inoperable, 
and the FEMA Mobile Emergency Response Systems were 
overwhelmed.
    A FEMA official who was in New Orleans after Hurricane 
Katrina estimated that the lack of effective communication at 
the Superdome reduced FEMA's effectiveness by 90 percent.
    This Committee conducted an in-depth investigation into the 
failed response to Hurricane Katrina and detailed the various 
communication failures associated with that storm. Although 
there are numerous examples, one of the most notable 
assessments that sticks in my mind is the one that the Chairman 
has already cited, and that was from Governor Haley Barbour 
when he said that it was as if he were back in the Civil War 
because he had to send messengers to communicate. He noted that 
he did have helicopters instead of horses, so it was a little 
faster, but the same concept.
    When seconds and minutes are important, communications 
systems must be both operable and interoperable so that first 
responders can talk to each other and coordinate their 
operations. We never again want to see individuals on rooftops 
pleading for help that may be delayed because of an inability 
of responders to communicate. We must be especially sensitive 
to the ability to communicate with the most vulnerable in our 
population, such as children, the elderly, the homebound, and 
those with special needs.
    As the 10th anniversary of 9/11 approaches, how first 
responders communicate with one another and how Americans 
receive emergency information remain challenges.
    Public safety officials clearly should have access to 
state-of-the-art, interoperable communications equipment to use 
during emergencies. But we must also be sure that resources are 
invested carefully and that an effective and efficient 
structure is established to manage emergency communications. 
That, too, was a problem after Hurricane Katrina. There was not 
a command-and-control structure in place that could be 
implemented even if the equipment had been there and had 
operated. And that is why plans and systems must be tested 
during State, regional, and national level exercises.
    Today, the Committee will examine the progress made during 
the past decade and explore what more needs to be done. After 
Hurricane Katrina, Congress created the Office of Emergency 
Communications within DHS, which developed a National Emergency 
Communications Plan, stood up Regional Working Groups, and 
established goals to measure progress.
    The Chairman and I also created an Interoperability 
Emergency Communications Grant Program to support State plans. 
This program has supplemented other Federal, State, and local 
investments. According to CRS, as much as $13 billion in 
Federal funding has been spent on emergency communications 
during the past 9 years.
    What exactly do we have to show for these investments? Are 
we making sufficient progress? Is the money being well spent so 
that we are better prepared for the next major disaster?
    I know from my experience in my home State of Maine that a 
great deal has been done to increase the ability of first 
responders to communicate with each other. Notably--and I want 
to ask our witness, the head of the Maine Emergency Management 
Agency, about this today--our State has been working with 
Canada to ensure that first responders across our more than 
600-mile international border can communicate with each other 
in an emergency. When you look at the border of Maine with 
Canada, there are communities on both sides, and they often 
have assistance packs to allow for help when there is an 
emergency, but they have to be able to communicate as well.
    The investments, training, new equipment, and planning 
clearly have produced some successes. For example, in recent 
testimony, the FEMA Administrator testified that interoperable 
communications were effectively used after the Joplin, 
Missouri, tornado and that the success of State and local 
responders reduced the burden on the Federal Government.
    Another issue is the importance of effective communication 
with the public before, during, and after an incident. This is 
an issue that has been of great interest to the Chairman and 
me. We have talked about who would be the most credible 
spokesperson, who should get information out to the public, 
particularly if there were a nuclear disaster and the 
instruction might well be to shelter in place, not to flee. 
Much like the communication among first responders, the 
communication between officials and the public is vitally 
important and can save lives. I will soon introduce 
legislation, on which I look forward to working with the 
Chairman, to strengthen the Nation's public alert and warning 
system.
    But, again, today I want to thank all of our witnesses for 
being here and especially to welcome our two witnesses from the 
great State of Maine. [Laughter.]
    Chairman Lieberman. Thank you. Thanks, Senator Collins.
    Before we get to the first witness, apparently there is a 
public safety meeting of some kind in Washington, and we are 
honored to have, in addition to our witnesses, a number of 
first responder officials. I am going to call out some names 
that I have, and I apologize if I have missed anybody, but I 
thank you for your service and for being here:
    Chief Harlin McEwen, who is Chairman of the International 
Association of Chiefs of Police Communications and Technology 
Committee; Sheriff Paul Fitzgerald, President of the National 
Sheriffs Association, and Sheriff of Story County in Iowa; 
Chief Gregg Riddle, incoming President of the Association of 
Public Safety Communications Officials International; Chief Al 
Gillespie, North Las Vegas Fire Department, incoming President 
of the International Association of Fire Chiefs; Chief Gregory 
Frederick, President of the Metropolitan Fire Chiefs 
Association, from the Louisville Fire Department; Chief Charles 
``Chuck'' Dowd, Deputy Chief for Communications of the NYPD, we 
welcome you back. You have become not quite a regular but a 
frequent visitor here--and Kevin McGinnis, State Trauma 
Coordinator and Chief of Mobile Health Services from----
    Senator Collins. From the great State of Maine.
    Chairman Lieberman. Oh, yes. [Laughter.]
    We have an ongoing routine. Anyway, we are honored to have 
all of you here.
    Our first witness at the table is Greg Schaffer, who is the 
Acting Deputy Under Secretary, National Protection and Programs 
Directorate of the U.S. Department of Homeland Security. Thanks 
for being here, and please proceed with your testimony.

     TESTIMONY OF GREGORY SCHAFFER,\1\ ACTING DEPUTY UNDER 
 SECRETARY, NATIONAL PROTECTION AND PROGRAMS DIRECTORATE, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Schaffer. Thank you, Chairman Lieberman, Senator 
Collins, and distinguished Members of the Committee. It is a 
pleasure to be here today to talk about the Department of 
Homeland Security's efforts to support emergency communications 
and the emerging capabilities of our State, local, tribal, and 
Federal resources in that space.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schaffer appears in the Appendix 
on page 599.
---------------------------------------------------------------------------
    Today's hearing is just the latest in this Committee's 
consistently strong support for first responder emergency 
communication needs, a tradition that includes the passage of 
the Post-Katrina Emergency Management Reform Act and the 
statutory creation of the Office of Emergency Communications.
    There are three offices within the National Protection and 
Programs Directorate that directly support emergency management 
and interoperable emergency communications capabilities:
    The Office of Emergency Communications, which really helps 
create the foundation for first responders and public safety 
officials at all levels of government to talk to each other 
during an emergency.
    The National Communications System works in times of 
disaster to ensure that there is priority communication 
capability for Federal, State, local, and other officials, as 
well as creating the ability, along with FEMA, to restore those 
communications when they are disrupted by a man-made or natural 
disaster.
    The third office, the Office of Infrastructure Protection, 
works across all sectors of critical infrastructure to ensure 
that owners and operators of our most critical infrastructures 
have the ability to restore capabilities and that they are 
provided with capabilities to communicate with the Federal 
Government during a time of disaster.
    I am happy to elaborate in all of these areas and answer 
your questions, but I would like to focus on some success 
stories, as has been noted.
    There has been significant progress made in the area of 
emergency communications through investments in planning, 
governance, training, interagency coordination, and technology 
support. As a result of those efforts and work in that area, we 
do have a better situation than we have had in the past, but 
there is still certainly more progress to be made.
    One example is the April 20, 2010, Deepwater Horizon 
drilling rig explosion, which released enormous amounts of oil, 
as we know, in the Gulf of Mexico. As noted, the Louisiana 
Wireless Information Network was used as a major backbone for 
communications for emergency responders after that incident. 
Indeed, within 24 hours, the LWIN mobile tower capability was 
launched to Mobile, Alabama, and voice communications were 
established between area commands in Robert, Louisiana, and two 
unified command groups in Houma, Louisiana, and Mobile, 
Alabama. Within 48 hours, technicians were working with the 
Louisiana Department of Public Safety to connect the statewide 
radio system in Mississippi as well as the Orange Beach Fire 
Department radio system in Alabama to LWIN through various 
motor bridge devices that allowed for effective communications 
all the way from the Texas-Louisiana border to the Florida 
Panhandle.
    Louisiana also issued over 200 portable radios from their 
State's cache of 600 to allow the U.S. Coast Guard to 
immediately establish voice interoperability, and then within a 
week, radio systems in Austin, Houston, and Harrison Counties 
in Texas were added to the system through interoperable RF 
subsystem interfaces, which extended the network, which was now 
called Gulf WIN, all the way to central Texas.
    This rapid connectivity of multiple systems was possible 
due to the integration of communications unit leaders at all 
levels of government, and Louisiana, Mississippi, and Orange 
Beach granted access to individual radio IDs in all of these 
systems, which essentially allowed the use of one handset to 
talk through all of the networks.
    That network is still in operation today, and as we come 
into hurricane season, it is good to know that we have a 
capability that really connects the entire region.
    As a second example, as was noted by the Chairman, Joplin, 
Missouri, experienced an F-5 tornado that, while tragic, did 
display new capabilities or enhanced capabilities of our 
communications networks. The investments in standards and in 
grant funding for interoperable communications equipment and 
training really did yield measurable improved results of our 
communications capabilities. The city of Joplin's 10-channel 
trunked radio system experienced heavy use, but it continued to 
operate throughout the incident response, and the establishment 
of an incident command capability reduced the confusion that 
can occur after an event of this kind.
    Indeed, in the very week before this event occurred, there 
was a training by DHS, a national-level exercise, with many of 
the responders participating and being brought up to speed on 
the way to respond in a mock earthquake scenario. So these 
examples really show that we have made critical strides in 
strengthening the overall security and national preparedness of 
the communications systems over the last decade.
    The public safety community, while enhancing their 
capabilities on the mission-critical voice side, they do not 
have all of the capabilities that they need from a data 
capability perspective. The availability of new technologies in 
the Long Term Evolution space--4G mobile capabilities to allow 
them to use data as mission critical as we do with voice 
capabilities today--is something that we believe must be 
realized for the community to bring greater operability, 
interoperability, and capability across the board.
    In order to realize that vision, the Administration is 
fully committed to working with Congress to ensure the passage 
of legislation that meets the critical needs of the public 
safety community to have broadband communications capabilities. 
The fact that Congress has been working across several 
committees, multiple jurisdictions, including Chairman 
Lieberman, Chairman Rockefeller, and Senator McCain, we believe 
is a sign that we can indeed get this accomplished.
    We will continue to work with you to achieve this goal. We 
thank you very much for the opportunity to testify this 
morning, and we look forward to ensuring that in the aftermath 
of the 9/11 attacks of 2001, we are taking enormous strides to 
make sure that emergency communications capabilities continue 
to advance.
    Chairman Lieberman. Thanks, Mr. Schaffer. That was a good 
beginning.
    Next we go to the frequently mentioned Michael Varney. 
Senator Collins, you will be interested to hear that Mr. Varney 
brought with him from Maine not only enormous capability but a 
tremendous work ethic. He is here today as the Statewide 
Interoperability Coordinator from Connecticut, but he is also 
the Director of Statewide Emergency Telecommunications at the 
Department of Emergency Services and Public Protection, the 
Vice Chairman of the National Council of Statewide 
Interoperability Coordinators, and the Chief of the Ellington, 
Connecticut, Volunteer Fire Department.
    Thank you for all your public service.

 TESTIMONY OF MICHAEL D. VARNEY,\1\ STATEWIDE INTEROPERABILITY 
 COORDINATOR, CONNECTICUT DEPARTMENT OF EMERGENCY SERVICES AND 
                       PUBLIC PROTECTION

    Mr. Varney. Thank you, Senator. Chairman Lieberman, Senator 
Collins, and distinguished Members of the Committee, I would 
like to thank you for allowing me the opportunity to provide 
testimony on this important topic.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Varney appears in the Appendix on 
page 611.
---------------------------------------------------------------------------
    As the Senator indicated, I am the Statewide 
Interoperability Coordinator for the State of Connecticut in 
addition to serving as the Vice Chairman of the National 
Council of Statewide Interoperability Coordinators.
    Being a local first responder and serving in the capacity 
as a fire chief, I can truly appreciate the efforts put toward 
solving the nationwide interoperability problems and have seen 
their positive impact directly in the field.
    Close to 10 years ago since the attacks of September 11, 
2001, a priority for States has been improving emergency 
responder communications capabilities. Public safety responders 
need the ability to have the most accurate, reliable 
information and to be able to communicate directly and 
instantaneously with their assisting and supporting responders.
    Interoperability of public safety communications takes 
significant coordination to solve and is being addressed by the 
creation and use of Statewide Interoperability Coordinators. In 
each State and territory, there is a designated SWIC 
responsible for a variety of critical planning and coordinating 
functions, guided by the initiatives outlined in the National 
Emergency Communications Plan and the Statewide Communication 
Interoperability Plans, all of which were not coordinated 
through a specific designated office prior to 2001.
    In Connecticut, our Statewide Public Safety Interoperable 
Communications Committee has representatives from each planning 
region within our State--law enforcement, emergency medical 
services, fire departments, and key State and Federal response 
agencies. The abilities and relationships that are leveraged by 
this group have been very successful in our efforts to improve 
interoperability of public safety communications within the 
State of Connecticut.
    Each of the Nation's Urban Areas Security Initiative sites 
developed a Tactical Interoperable Communications Plan. 
Connecticut used this framework to continue to create TIC Plans 
for all of the additional regions in our State. This effort was 
possible because of the Interoperable Emergency Communications 
Grant Program. Since the TIC Plans have been developed, they 
have been used in the field by local practitioners to 
successfully plan for and respond to events and emergencies 
that involve multiple disciplines and jurisdictions.
    In early June when tornados struck southern Massachusetts, 
the Connecticut fire service was requested and responded with 
significant assets, which were coordinated quickly and 
efficiently between the two States due to prior planning and 
exercises made possible through the IECGP-funded TIC Plan 
process.
    SWICs serve as members of the National Council of Statewide 
Interoperability Coordinators, which was established in 2010 to 
assist State and Territory interoperability coordinators with 
promoting the critical importance of interoperable 
communications and the sharing of best practices. As a SWIC, I 
have received excellent support and engagement by the DHS 
Office of Emergency Communications. Their technical support and 
coordination activities have proven invaluable to our efforts 
in Connecticut. Their outreach activities through SAFECOM and 
the NCSWIC have listened to our concerns and priorities and 
adapted their programs to make them relevant.
    As I mentioned earlier, the IECGP funds such as those used 
to create TIC Plans in Connecticut have been critical to the 
SWICs to provide funding that ensures that federally funded 
projects align to strategic plans and to implement and report 
on the NECP goals, allowing DHS to measure progress in 
emergency communications capabilities nationwide.
    In a recent survey of SWICs conducted in June, we found 
that over one-third of the SWIC positions were funded in whole 
or in part by this grant program. The elimination of this 
funding and reduction of related homeland security grant 
programs will have a direct impact on the sustainment of the 
many programs put in place to increase interoperable 
communications.
    We support the commitment to develop and deploy a 
nationwide interoperable wireless network for public safety 
that the Administration has put forward in the President's 
Wireless Innovation and Infrastructure Initiative. Many of our 
issues are captured within the Rockefeller-Hutchinson bill, and 
we are very appreciative of Senators Lieberman and McCain's 
leadership and the Homeland Security and Governmental Affairs 
Committee in their work to reallocate the D Block for public 
safety use. This leadership will ensure successful completion 
of this very important milestone.
    While maintaining their traditional land mobile radio 
systems, our public safety agencies are increasingly using 
commercial broadband systems to support their missions. We have 
been relying on off-the-shelf broadband systems using laptop 
computers in vehicles and communication devices such as 
BlackBerrys and smartphones for remote data communications. 
Although the present commercial broadband devices have some 
functions that go beyond public safety communications devices, 
they lack the ruggedness, reliability, and direct device-to-
device connectivity of traditional public safety radio systems. 
In other words, the commercial networks do not provide the 
public safety control, mission criticality, and capacity needed 
for their mission.
    The Statewide Interoperability Coordinators believe that 
the creation and support of a wireless broadband network for 
public safety is critical for interoperability and to allow 
first responders to communicate and do their jobs as safely and 
efficiently as possible. We appreciate your ongoing support to 
make this nationwide network a reality, and the NCSWIC is very 
appreciative of the initiatives supported by the Homeland 
Security and Governmental Affairs and Commerce Committees to 
create a national public safety broadband wireless network.
    As Senator Lieberman indicated in his comments earlier, 
right now my son and daughter have more broadband capability 
than my firefighters do while responding to emergencies every 
day. This is a unique time to solve this problem and create a 
nationwide public safety wireless broadband network. We look 
forward to working with you and your Senate colleagues to pass 
this law to meet public safety's needs for interoperable 
communications, a key recommendation of the 9/11 Commission 
Report.
    In conclusion, I again would like to thank the ongoing 
tremendous support and activity by your Committee to increase 
interoperable communications throughout the United States. The 
Federal investment to support interoperable communications over 
the past few years will continue to show its value in saving 
lives and protecting property while our Nation's first 
responders work together to respond to emergencies and 
disasters in our homeland.
    Thank you again for this opportunity to testify, and I 
would be pleased to answer your questions.
    Chairman Lieberman. Thanks very much, Mr. Varney, for that 
excellent statement.
    Now we will go to Robert McAleer, who is the Director of 
the Maine Emergency Management Agency and who, as far as I 
know, was not born in Connecticut. [Laughter.]
    Mr. McAleer. No, sir. New Jersey.
    Chairman Lieberman. Welcome.

 TESTIMONY OF ROBERT P. MCALEER,\1\ DIRECTOR, MAINE EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. McAleer. Senator Lieberman, Senator Collins, Members of 
the Homeland Security and Governmental Affairs Committee, thank 
you for the opportunity to come before you this morning. My 
name is Robert McAleer, and I am the director of the Maine 
Emergency Management Agency.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McAleer appears in the Appendix 
on page 616.
---------------------------------------------------------------------------
    I would like to address the issue of communications 
interoperability as it relates to the State of Maine and, in 
particular, some of the accomplishments we have achieved since 
2001, our work that is currently in progress, and existing gaps 
that need to be addressed.
    By New England standards, Maine is a large State, roughly 
equivalent to the rest of the New England States combined. It 
is mostly a rural State with vast areas of very limited 
population and some very rugged terrain. Maine is also not a 
wealthy State. These factors have made improving 
interoperability a challenge.
    Maine, however, has been fortunate to receive a significant 
amount of Federal funding, for which we are very grateful, to 
support our efforts. We estimate that approximately $9.5 
million or 25 percent of our Homeland Security, Public Safety 
Interoperable Communications, and Interoperable Emergency 
Communications Grants funds have been dedicated to improving 
communications just since 2007. We have used that funding to 
leverage whatever local funding municipalities have generated 
to make notable improvements.
    One advantage that we have had throughout this process is 
that the vast majority of our first responders use VHF radios 
that transmit and receive on similar frequencies.
    Because of the overwhelming similarity in equipment 
statewide, our challenge has been to replace old or worn-out 
equipment and to acquire new equipment where there was none or 
to replace equipment that simply was inadequate to meet our 
current needs.
    In addition to acquiring a large number of modern radios 
for our first responders, we have completed a significant 
number of major projects. An attachment to my testimony 
contains a detailed compilation of the projects since 2003, 
examples of which are as follows: $107,000 to upgrade 
communications systems throughout Sagadahoc County and complete 
their narrowband transition; about $200,000 to upgrade the 
communications infrastructure for the Hancock County Sheriff's 
Office; $500,000 for the bulk purchase of narrowband-compliant 
fire pagers; and $350,000 to support a countywide microwave 
communications project in Cumberland County. The State has also 
acquired four large mobile command vehicles that have state-of-
the-art radio, cell phone, internet, and satellite capabilities 
for use in incident coordination. In multiple instances, these 
vehicles have served as dispatch centers when fixed facilities 
were out of service. We have also provided support for 
communications vehicles in over half of our counties.
    The State has established radio caches at crossing sites 
along the U.S.-Canada Border for use by first responders moving 
across the border to ensure adequate interoperable equipment is 
available. Each county now has portable repeater antennas that 
can be deployed to remote areas where coverage may be minimal 
or to boost signals that may otherwise be blocked.
    We have been able to move our EOC from a facility that was 
generally inadequate to a new facility and provide the new EOC 
with equipment that meets virtually all of our communications 
needs. Our court system and law enforcement agencies now have 
access to a data broker system that enables almost instant 
access to the various types of critical information.
    The majority of our law enforcement and even some fire 
departments now have mobile display terminals in their 
vehicles, which in many cases provide a better communications 
capability than standard radios.
    We realize that interoperability is not just a matter of 
acquiring equipment. In many instances, process and training 
also bring gains. Along those lines, we have established a 
Memorandum of Understanding with the owners of six statewide 
frequencies to allow incident commanders to request dedicated 
use of those frequencies to establish and coordinate 
communications at an incident.
    We have also dedicated a significant amount of time to 
communications unit leader training. This training helps us 
ensure that there is sufficient expertise available at a large 
event to ensure that the correct agencies are speaking on the 
correct channels.
    We have worked with our counties to ensure that they have 
up-to-date detailed countywide communications plans to identify 
all of their communications assets, to ensure that their 
procedures are adequate, and to identify any gaps.
    Our border with Canada has presented a unique challenge. To 
meet that challenge, we have been conducting a series of cross-
border communications working sessions with our local, State, 
and Federal partners on both sides of the border. These 
sessions are helping us better understand our differences and 
plan for how we can overcome those differences when needed.
    In addition to these workshops, Maine, with the support of 
our Canadian partners, applied for and received a Border 
Interoperability Demonstration Pilot grant. Out of 21 
applicants nationwide, Maine was one of only seven awardees. We 
are using the almost $4 million provided by this grant to 
significantly reduce communications gaps along the border and 
establish a single common frequency that will be available for 
use by first responders from both sides of the border.
    Finally, the State of Maine is investing $50 million of 
State funding to essentially rebuild and expand the 
infrastructure backbone of the State's communication system. 
When this project, MSCOMMNET, is completed, the State will have 
a series of 42 interconnected transmission towers that will 
replace infrastructure that has reached or passed its useful 
life expectancy, provide enhanced coverage, and increase 
redundancy. Of note is that part of the tower build-out is a 
joint effort between the State and our Customs and Border 
Patrol partners. We believe this may be the first such 
partnership in the Nation. Included with this project is the 
replacement of virtually all State-owned portable and mobile 
radios.
    In general, Maine is in a relatively healthy position with 
regard to interoperability. Through the concerted efforts of 
many people and the judicious use of available resources, we 
have been able to accomplish a great deal. And we have 
witnessed those accomplishments coming into play during real 
world events. There is, however, more work that needs to be 
done.
    First and foremost in our view is the requirement to meet 
the FCC narrowbanding mandate. While the initial estimates of 
the cost to meet this requirement were staggering, we have 
dedicated a major portion of available Federal funding to the 
requirement as well as a concerted effort to encourage local 
communities to recognize their own responsibility to invest in 
the solution. Because we will be able to reallocate many of the 
State radios that are being replaced as part of MSCOMMNET, we 
believe that our first responders will be ready on January 1, 
2013. We remain concerned, however, about communities that are 
not meeting the National Incident Management System compliancy 
requirements because we cannot assist them with Federal funds.
    We believe firmly that during an emergency situation if we 
do not have solid communications, then we will have no 
coordination. We will only have chaos. For that reason, 
building a solid communications capability has been a priority 
for the State for a number of years. Further strengthening of 
that capability and sustaining what we now have will be 
priorities moving forward.
    That concludes my testimony. I would be pleased to answer 
any questions you might have. Thank you.
    Chairman Lieberman. Thank you very much for that good 
report.
    Finally, we have Charles Ramsey whom we knew here for a 
long time as Chief. We welcome back now Commissioner of the 
Philadelphia Police Department and President of the Major 
Cities Chiefs Association.
    Commissioner, it is an honor to have you here. Thank you.

    TESTIMONY OF CHARLES H. RAMSEY,\1\ POLICE COMMISSIONER, 
                 PHILADELPHIA POLICE DEPARTMENT

    Mr. Ramsey. Thank you, sir. Good morning, Chairman 
Lieberman, Senator Collins, and all invited speakers and 
guests. Thank you for this opportunity to discuss a critical 
issue affecting all public safety and law enforcement 
organizations across our country and our ability to serve the 
public. Having had 42 years in law enforcement, I have 
witnessed many important changes in emergency communications 
across police departments in three cities: first in Chicago for 
30 years, then as Chief of the Metropolitan Police Department 
here in Washington, DC, for 9 years, and now as Police 
Commissioner in Philadelphia for the past 3\1/2\ years. I also 
have the privilege of serving as the President of the Major 
Cities Chiefs Association and the Police Executive Research 
Forum, both of which are members of the Public Safety Alliance.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ramsey appears in the Appendix on 
page 627.
---------------------------------------------------------------------------
    The PSA is a coalition of the leading national public 
safety associations that represent every law enforcement, fire, 
EMS, emergency management agency, and first responder 
organization in the country. I am here on behalf of first 
responders across this country to thank you, Mr. Chairman, and 
Senator McCain for sponsoring S. 1040, the Broadband for First 
Responders Act of 2011. And we hope that you will also continue 
to work closely with Senator Rockefeller and Senator Hutchison 
of the Senate Committee on Commerce, Science, and 
Transportation and sponsors of S. 911, the SPECTRUM Act, which 
was recently voted out of Committee for consideration by the 
Senate.
    These bills fulfill an absolutely critical need. They 
allocate the D Block to public safety, provide the necessary 
funding to build out and expand the nationwide broadband 
network, and establish a governance structure in cooperation 
with State and local authorities.
    Since September 11, 2001, like many other jurisdictions 
around the Nation, the Philadelphia region worked diligently to 
ensure adequate local, State, and Federal coordination for 
emergency communications. We established an Interoperable 
Communications Committee within our Southeast Pennsylvania 
Regional Task Force. Representatives from the five counties in 
the Philadelphia UASI, as well as seven additional regional 
counties from New Jersey, Delaware, and Maryland, comprise this 
task force. I would also like to take the time to thank 
Committee Member Senator Tom Carper for his assistance in 
strengthening homeland security in our region.
    Let us be very clear in our mission: A terrorist attack or 
a major catastrophic event knows no municipal, State, or 
Federal boundary. Emergency preparedness spans across lines and 
demands that law enforcement and public safety organizations 
across the country plan and coordinate their responses.
    And as you mentioned in your opening remarks, Mr. Chairman, 
we have an extremely valuable opportunity in front of us to 
meet our needs in emergency communications. Seamless 
interoperability can only be achieved through a dedicated 
public safety nationwide broadband network. The allocation of 
the D Block for public safety organizations, with adequate 
capacity, control, and funding, is the only proposal that will 
meet the challenges and demands that we confront. As President 
of MCCA and PERF, I am here to support this solution, which 
serves law enforcement and public safety organizations and, 
most importantly, helps to protect the American people in the 
best way possible.
    Commercial networks are not designed to serve our public 
safety needs. Past experiences with major national disasters 
have demonstrated that these networks are not interchangeable 
with dedicated public safety networks. There are fundamental 
differences in the architecture that go to the heart of public 
safety communications. The Public Safety Alliance will strongly 
oppose any legislation or resolution that supports auctioning 
the D block. Public safety becomes both less public and less 
safe if we auction any part of the D Block to the highest 
commercial bidder.
    We need the up-front funding to jump-start the investment 
and build out of the network and to attract and encourage 
commercial interest and competition. We will partner with the 
private sector to leverage and make maximum use of the existing 
infrastructure, while managing operations locally through a 
national governance structure.
    This Committee, the House Homeland Security Committee, the 
House Energy and Commerce Committee, and the Senate Commerce, 
Science, and Transportation Committee have all held numerous 
hearings over the past 2 years on the proposed public safety 
spectrum and the nationwide broadband network. Congress has 
asked many good questions, and hopefully you now have the 
information you need to make an informed recommendation.
    Our first responders, who put their lives on the line every 
day, must have the resources that they need to do their jobs 
more efficiently and effectively, armed with real-time data, 
video, and other critical information. We can only accomplish 
this goal if we have the latest in mobile broadband technology 
that is fully interoperable on a local, State, and Federal 
level. The ability to share mission-critical information 
nationwide to coordinate and plan our response to emergencies 
depends on having this capability.
    I would like to thank all the Members of the Committee for 
your continued time and commitment to finding a solution that 
will meet the communications needs of our first responders and 
will best serve the American people. What Congress decides now 
will dictate the future of our emergency response capabilities. 
Ten years after 9/11, we urge you to make the decision that 
will finally establish a dedicated nationwide public safety 
broadband network.
    I am happy to answer any questions that you may have, sir. 
Thank you very much.
    Chairman Lieberman. Thank you, Commissioner. Very helpful, 
very good testimony.
    We will now do 7-minute question rounds for each of us.
    Mr. Schaffer, let me begin with some of the monetary 
implications of what we are talking about since we are all 
focused at every level of government on the cost of government, 
and let me suggest a point of view to you and ask you to react 
to it.
    Currently, because public safety agencies operate on so 
many systems, equipment costs can be quite high since there is 
not much economy of scale for manufacturers. For example, I 
gather that a handheld set for a police or fire officer can 
cost around $5,000.
    So I wonder whether an advantage of building a D Block 
network might be that it would create that economy of scale 
that would drive down costs, which, of course, would be very 
helpful to Federal, State, and local governments. What do you 
think?
    Mr. Schaffer. Senator, thank you. That is certainly one of 
the hopes of this proposal, that, in fact, by aggregating and 
getting public safety together on a single standardized set of 
equipment based on the commercial standard that is being 
deployed by virtually all of the commercial carriers, we create 
an opportunity for an economy of scale level that has never 
been seen before for the public safety community.
    We would love to see a situation where handsets cost a 
couple hundred dollars rather than several thousands dollars as 
they do today.
    Chairman Lieberman. And you think that is an achievable 
goal?
    Mr. Schaffer. Based on the interactions that we had with 
the manufacturing entities over the last year, the economies of 
scale are much better with a national network of this sort 
where you have millions of potential customers buying from the 
same pool rather than a city or a small entity.
    Chairman Lieberman. Let me give the other witnesses the 
opportunity to comment on that from your own experience. 
Obviously, all of us would like to see the cost of the 
equipment go down, but is there anything that you want to 
reflect based on your own experience in acquisition on this 
question? Mr. McAleer.
    Mr. McAleer. We are paying significantly less for our 
radios up in Maine. However, I think that is probably because 
of the nature of the radio that we are talking about here. 
These may be P25-compliant radios, whereas the radios that we 
are buying at this point just to meet the narrow banding 
requirement are not P25. We realize that there are certain 
issues there, but that is the best that we can do. So our 
radios are from $300 to $500, and we have found that even at 
the county level, when there is bulk buying, prices do go down.
    Chairman Lieberman. Right. Let me ask, beginning with 
Commissioner Ramsey, if you could elaborate a bit, again, from 
your own on-the-ground experience, on the kinds of uses you 
would make of broadband technologies if the D Block is 
allocated to public safety.
    Mr. Ramsey. Thank you for that question, Senator. I was 
listening to some of the testimony earlier, and the issue of 
the oil spill came up and how we were able to put together a 
network that would allow for some interoperability. And that is 
a good bridge, but it is not a permanent solution because as a 
police chief, I have to use a network every single day for a 
variety of reasons, not just an emergency that may come up on 
occasion. So not only do we have the need for voice 
interoperability, but we also have computers in all of our 
cars. We need to be able to get information out to those cars. 
We need to be able to get information from those cars. We need 
video. We have video in our vehicles. We have video in our city 
that needs to be monitored. You mentioned during your opening 
statements fire departments rolling to the scene that need 
blueprints for buildings. Well, if we have an active shooter in 
a building, we will need those same blueprints for our SWAT 
team. If they have video inside that building, we will need to 
tap into that in real time so we can see exactly what is going 
on: Where are the hostages? Where are the shooters? All those 
kinds of things need to be able to take place.
    Aside from that, more and more we are using video 
conferencing with our courts, with our prosecutors to save time 
in moving prisoners from one point to another. There are just 
so many different uses, and the way in which technology is 
evolving so rapidly, who knows what we will need 10 years from 
now? So we have to have the capability to expand and to grow as 
our needs grow.
    I have been around a long time. Call boxes were still in 
use when I started my career, and the radios were still in 
police cars. So, it is just unimaginable to me what could 
possibly take place over the next four decades in law 
enforcement.
    Chairman Lieberman. That is true.
    Mr. Ramsey. So we need a solution now that is not only 
going to meet our current needs, but our future needs as well.
    Chairman Lieberman. Well said.
    Mr. McAleer, do you want to add anything from your own 
perspective about other possible uses of the D Block if it is 
allocated to public safety?
    Mr. McAleer. Sir, that would go to a level of technical 
information that I am not comfortable dealing with.
    Chairman Lieberman. Mr. Varney.
    Mr. Varney. In addition to what was said earlier by you and 
all of the witnesses, access to facility information, chemical 
data and processes, utility services, HVAC systems within the 
building would be able to be accessed by the responding units 
to try to mitigate incidents, in addition to the access to 
inside-building cameras and surveillance systems, which 
certainly would add to the safety and enhancement of 
operations.
    Chairman Lieberman. That is very interesting. Right now you 
cannot do any of that easily.
    Mr. Varney. No. Certainly not easily.
    Chairman Lieberman. That is an interesting thing. You might 
be able to access into an inside-the-building camera system.
    Mr. Varney. Certainly all of those things could be put in 
place with access to a broadband system such as that.
    One of the other important things we would want to do in 
the future as the next generation 911 systems are built 
throughout the United States, we would want to be able to get 
the information that is sent from the public in the form of 
data, video, or pictures when they report incidents to the 
responders while they are en route, which gives them a greater 
situational awareness of what they are getting into. More data 
make better decisions.
    Chairman Lieberman. That is a very interesting point 
because we are now all accustomed to viewers sending video into 
TV stations, for instance, from the scene of a natural disaster 
or a crime scene. And that capability to pick those up is not 
there at this point.
    Do you want to add something, Mr. Schaffer?
    Mr. Schaffer. Yes, sir, Mr. Chairman. I think it is also 
important to recognize that there will be uses that we cannot 
even imagine today. Five years ago, no one could have imagined 
what we have in smartphone technology and a very large universe 
of applications that have been developed in a very short period 
of time for the commercial sector. I think once this capability 
is available to our public safety community, we will see the 
opportunity for a whole range of new capabilities that we 
cannot imagine or articulate today. We have great examples of 
what the art of the possible is now, but what will come when 
they have access to the spectrum and capability will be even 
beyond what we might be able to articulate now.
    Chairman Lieberman. Absolutely right. Thank you. Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Schaffer, in your testimony, you detailed much of the 
progress that we have been able to make, and that is 
encouraging. You also said there is a great deal more work to 
be done.
    It is disappointing to me, therefore, that the President in 
his budget chose to terminate the funding for the 
Interoperability Emergency Communications Grant program. That 
was a program that is near and dear to our hearts because it 
was our initiative and was included in the 2007 homeland 
security law.
    Given that we all agree that more work needs to be done and 
given what you have heard today about the use that the money 
has been put to and how it has made a big difference in the 
State of Maine, for example, why would the President choose to 
terminate that program? It is a pretty modest program in the 
scheme of things, but it has been really helpful to States.
    Mr. Schaffer. Yes, Senator. I think that the opportunity to 
have money flow into emergency communications capabilities is 
certainly still there through a number of grant programs and 
the focus through, for example, the Emergency Communications 
Preparedness Center of developing grant guidance that applies 
across 40 different grant programs that steers those grant 
dollars in the direction of the kind of interoperable 
communications capabilities that you and the Chairman have 
supported in the past.
    So I think the focus has been on general grant 
opportunities and making sure that all of those grants across 
the entire range of opportunities are being directed in a way 
that is consistent and that can advance the ball with respect 
to what we are doing in land mobile radio today.
    Senator Collins. I agree with the goal of having more 
consolidation of grant programs, but the fact is, if you do not 
have a targeted stream of funding that is aimed at improving 
interoperability and sustainability of emergency equipment, you 
are not going to reach the goal that we all agree is necessary. 
So that is something that I know the Chairman and I have 
already communicated to the Appropriations Committee on, but it 
is something that I really think is short-sighted given that 
every first responder group always says that interoperability 
and sustainability of equipment is such an important goal. And 
it cuts across every State, every kind of first responder. They 
all need that to be effective.
    So I hope that is something we can continue to work with 
the Department on. I do not mean to put you as much on the spot 
as if Secretary Napolitano were here, but I did want to mention 
my concern about the termination of that program. It has not 
been in operation for very long, and to terminate it before we 
reach the goal--someday we will be able to terminate it--seems 
to me to be premature.
    Mr. McAleer, I want to ask you more about the program that 
you have with Canada. I think this is fascinating and far-
sighted. Having grown up 20 minutes from the Canadian border in 
northern Maine, I am so aware of the fact that there are mutual 
aid packs where our firefighters on the Maine side of the 
border assist Canadian firefighters and vice versa. We have a 
wonderful Federal program called Operation Stonegarden where 
our law enforcement works with Border Patrol officials, which 
has been a force multiplier as well. And when you come from a 
border State, whether it is the Northern border or the Southern 
border, you cannot ignore the fact that you are going to need 
your partners on the other side of the border.
    So tell us a little more about what the goals are of the 
grant programs that you are participating in right now.
    Mr. McAleer. The primary cross-border grant program that we 
are dealing with is the Border Interoperability Demonstration 
Project Program, and that is a program that was sponsored by 
the Federal Government that we won the grant for and is helping 
us increase our cross-border communications with both our New 
Brunswick partners and our partners in Quebec. And our grant 
application was supported very strongly by partners in Canada 
at the local and provincial levels. So they are very much in 
favor of this.
    Currently, both New Brunswick and Maine use VHF channels, 
and so we are able, when necessary, to use common channels. 
What we are trying to do is formalize that process so that 
those channels are loaded up on both sides--we have Canadian 
channels loaded in our radios, and our channels loaded in their 
radios--because as it is right now, we have worked with the 
Border Patrol, and the first responder communities come across 
very quickly, and there is no stopping them. When they get 
there, they need to be able to communicate. In those instances 
where we do not have the channels in the radios, we have those 
radio caches. We have about 12 caches at sites along the border 
already that we established with State Homeland Security Grant 
funds, and we are looking to increase that with the BIDP funds, 
and then increase our transmission capability in four of our 
counties to cover some of those vast gaps that we have out 
there in the wilderness.
    Senator Collins. Several years ago, before you assumed your 
current position, there actually was a problem with the Maine 
State troopers having interference from the New Hampshire State 
troopers when they were using the same channels in Southern 
Maine, and I recall helping to secure some funding to sort that 
out.
    Is that still a problem, are you aware?
    Mr. McAleer. I have not heard of that problem recently, 
Senator.
    Senator Collins. I think that has been fixed, but that, 
too, shows that you can have interference even between two 
bordering states that can interfere with the ability to 
respond.
    Mr. McAleer. Absolutely.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    Senator Brown, timely appearance. If you would like to 
proceed with questions now, we would welcome them. If not, of 
course, I could fill a few moments.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. You are going to filibuster a little bit? 
No, I am all set. I was at another hearing. We are having a 
Veterans Committee hearing upstairs, so I apologize.
    Chairman Lieberman. No, not at all. Thanks for coming by.
    Senator Brown. I have been getting periodic updates.
    Chairman Lieberman. It is all yours.
    Senator Brown. Thank you.
    Mr. Schaffer, in Commissioner Ramsey's testimony, he notes 
that disasters do not stop at State borders, and witness 
testimony has highlighted efforts at the State level, such as 
the Statewide Communications Interoperability Plans. 
Considering that a disaster in the New England region and the 
Northeast corridor in general could include multiple 
jurisdictions, what is DHS doing to ensure regional 
coordination across State lines? And, obviously, we have had 
some pretty interesting weather in Massachusetts. As recently 
as yesterday, another tornado hit. So I think it is a timely 
question.
    Mr. Schaffer. Yes, Senator, no question, it has been a very 
active season from a weather perspective, and, of course, the 
hurricane season is just getting started now, so we are 
certainly focused on these issues.
    There are several things the Department has been doing to 
ensure regional interoperability and coordination. Of course, 
the National Emergency Communications Plan is the foundation 
for much of that work. The development of Statewide 
Communications Interoperability Plans, the appointment of 
Statewide Interoperability Coordinators who have banded 
together in many regions to form regional coordination groups 
to work these issues, all are moving us in the direction of 
better capability to be able to cooperate across multiple 
jurisdictions. The development of standards like the P25 
standard are advantages as well. If we are all buying to the 
same standard, we have a better opportunity to have our 
equipment work. But we are still in a situation where it does 
end up being a project when people arrive on the scene to get 
all of those radios tuned to the right frequencies, to the 
right interoperability channels, and have them operate the way 
we like, which is why the Administration believes that the 
development of a national public safety broadband network based 
on the same technology across the board will improve things 
even further.
    Senator Brown. Thank you.
    Mr. Varney, I certainly want to thank the State of 
Connecticut for its help in Massachusetts, and I noted that 
when the tornado struck, Connecticut Fire Services were there 
to quickly coordinate.
    What made the coordination possible from a State and local 
perspective?
    Mr. Varney. It comes from years of work across the border 
coordinating efforts.
    Senator Brown. Do you have something in writing, or is it 
just a custom and courtesy thing?
    Mr. Varney. I think it works from relationships that start 
initially, but then it becomes more formalized over time. In 
Connecticut, what we have done to work with our bordering 
States is we put together a system where whenever an 
interoperability system or sub-channels is activated for an 
event in-State or near a State border, all of our area States 
are notified immediately of that, which creates coordination 
and alleviates the issue of interference when multiple people 
are trying to use the same interoperable channels. And through 
the years, we have worked closely on the borders with our 
fellow SWICs in the regional States, in our regional 
interoperable committees, as Mr. Schaffer indicated, so that we 
talk and formalize those issues where we know we are going to 
cross borders that happen on a regular mutual aid basis, and 
when things escalate to a larger basis, we can quickly 
coordinate those assets because we know the types of 
information that would be needed and the types of equipment 
that would need to be moved across the border.
    Senator Brown. So if there was a larger catastrophe, God 
forbid, what do you think the greatest challenge would be in 
handling a more widespread disaster?
    Mr. Varney. The greatest challenge is that coordination 
effort. As was mentioned earlier today, the way that public 
safety is working in Connecticut and New England is a patchwork 
of many different frequencies and many different systems, so in 
order for us to handle a large-scale event in any of the 
States, we have to bring in some pretty technical pieces of 
equipment and expertise through the COML and COMT trained 
personnel to patch these systems together, where if we had a 
nationwide single system that was standards-based and 
completely interoperable from the beginning, it would speed up 
that effort and make it less complicated for those problems to 
be solved.
    Senator Brown. Thank you.
    Commissioner Ramsey, although Connecticut is right next 
door to New York City, Philadelphia is within a couple hours of 
it and within 3 hours of Washington, DC. It is conceivable 
that--and God forbid a disaster happens--a terrorist strike or 
something could impact your city or vice versa. Do you feel 
confident that proper coordinating frameworks are in place to 
ensure seamless communications within the region?
    Mr. Ramsey. It is better than it has been within the 
region. We have done a lot in that particular area, but again, 
it is not a permanent solution like a nationwide public safety 
broadband network would be. We are right across the river from 
New Jersey, not very far from Delaware or Maryland. So we 
actually could be involved in something where multiple States 
would be involved in the same event. There we would have some 
problems in terms of interoperability of our systems. We could 
probably patch the voice communications, but transmission of 
data would be different, and that would be something that would 
present even more of a problem.
    So I think that a lot of regions across the country have 
come together to work out solutions for their communications 
problems as a region, but major disasters that require going 
beyond that region is where we are going to have a problem. And 
if there were a terrorist event for example, when you look at 
how they tend to take place in other parts of the world, 
usually it is multiple locations hit simultaneously. So now you 
have a much wider problem than you had before. It is not just a 
regional problem. It is much broader than that.
    We need to be able to have lines of communication, and in 
an earlier question that Senator Lieberman asked, one of the 
other things that would be operating on D Block would be our 
fusion centers. We have fusion centers around the country, but 
you now have to fuse the fusion centers because it is going to 
be necessary for New York to communicate and get information 
from Los Angeles or someplace else in a very timely and secure 
fashion, either Federal, State, or local.
    So, we have done a lot in terms of trying to patch it up 
the best we can, but nothing that comes close to a permanent 
solution.
    Senator Brown. And one final question, Mr. McAleer. You 
came from a 30-year career--congratulations--in the Marine 
Corps. What lessons did you take from your time commanding 
operational elements in the Marines to your job now in regard 
to dealing with the communication issues before you?
    Mr. McAleer. Well, the one thing you learn right away with 
communications systems is, if you do not work with them, they 
will not work when you need them. So we try to drill with our 
communications as much as we possibly can. For instance, with 
our radio network that we have with our counties, we exercise 
three times a week, and it is amazing how even with exercising 
that many times, we have radios that are down, towers that are 
down. If we were not doing that kind of work, that would come 
as a surprise to us when the time came.
    We also look at redundancy. Where do we have gaps and where 
do we have single coverage and where do we have redundancy? 
Because it is also my experience that when you are under stress 
situations and radios are being used hard, those systems tend 
to go down as well. So you have to have backup systems.
    So I think probably the two main things that we have 
learned are that you have to exercise it and you have to have 
redundancy, or it will not be there when you need it.
    Senator Brown. Good advice, sir. Thank you. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Yes, thank you, Senator Brown. Thanks 
for coming by. I appreciate it.
    Just a few more questions. Mr. Schaffer, I want to focus in 
a little bit on the Federal Government interoperability. As you 
know, several years ago the Department of Homeland Security and 
the Department of Justice embarked on a joint project with the 
wonderful name of Integrated Wireless Network, which was 
shortened to the acronym IWN, which could be stated ``I win.'' 
Unfortunately, IWN fizzled as a governmentwide effort. I gather 
the Department of Justice has continued to pursue the project, 
along with the Treasury Department and the U.S. Park Police, 
and has recently built out a system to provide interoperability 
to the agencies mentioned within the National Capital Region.
    However, DOJ got a very small amount of money in the 
continuing budget resolution, so I think it is probably going 
to make it hard for them to maintain their legacy radio systems 
let alone continue or expand IWN.
    Meanwhile, DHS component agencies like Customs and Border 
Protection and Immigration and Customs Enforcement have 
continued to make their own investments in tactical radio 
systems.
    So I wanted to ask you whether we are doing enough on 
interoperability of communications within the Federal system. 
In other words, can CBP and FBI talk to each other? Or I 
suppose in a more immediate sense, in terms of DHS, can the 
different components of DHS talk to each other over these 
systems?
    Mr. Schaffer. Thank you, Senator. The components can talk 
to each other as a general proposition, but it is a project as 
it is with these jurisdictions. They have to use these 
interoperable channels, and they have to program those radios 
in order to be able to interoperate.
    We are making several steps in the direction of ensuring 
better interoperability with the existing technologies today in 
a variety of ways. At DHS, we have a committee called the One 
DHS Emergency Communications Committee, which for the first 
time is coordinating across all of the components of DHS and 
looking at how we coordinate our activity in terms of our 
investment in communications technology. And that has developed 
into a strategy for our tactical communications across the 
Department with some pilot projects that are looking at doing 
things in a coordinated way.
    At the same time, the Emergency Communications Preparedness 
Center is trying to coordinate across a number of departments 
and agencies, including DOJ, DHS, and several others that have 
significant roles in emergency communications, to think about 
how to coordinate their activity in areas like new broadband 
technology and developing joint requirements across Federal 
departments and agencies that can then be used in coordination 
with the public safety community as a national public safety 
broadband network is developed.
    So there are several initiatives underway to try to further 
coordinate among the entities in the Federal Government, writ 
large, and specifically within the Department of Homeland 
Security.
    Chairman Lieberman. So the availability of the D Block 
would also help components of the Federal Government 
communicate better with each other? Is that what I am hearing 
you say?
    Mr. Schaffer. I think that is absolutely true.
    Chairman Lieberman. Let me ask you one other question. We 
had discussed the Office of Emergency Communications and that 
it has been measuring progress at the local level in meeting 
the goals of the National Emergency Communications Plan. I 
wanted to ask you whether you plan on issuing any type of 
report card or public statement measuring the results, which 
thus far seem to be pretty good.
    Mr. Schaffer. The results are good, Senator. As mentioned, 
the Goal 1 work showed that all 60 of the large urban areas 
were able to establish emergency communications within an hour, 
as was the intent with Goal 1 for planned events. We are in the 
process of working toward Goal 2, which is a much broader 
effort, 3,000 counties as opposed to 60 large urban areas. That 
will consist of getting reporting from the counties. We do not 
have the resources to go out and examine each county as we did 
with the cities. But we will get reporting from the counties, 
both in terms of their ability to stand up communications for 
events and a broad view of their capabilities from an emergency 
communications standpoint.
    We try to balance the collection of that data and the 
development of reports in this space. Because there is 
voluntary reporting coming to the Department, we try to be 
careful about having a report card that may make it harder for 
cooperative efforts to get that information flowing to us. But 
we do aggregate the data and try to give some indication of 
where we are and whether progress is being made.
    Chairman Lieberman. Very good. I appreciate it.
    Mr. Varney, you mentioned the response to the June 
tornadoes in Massachusetts as an example of improved 
coordination between governments, and Senator Brown mentioned 
it as well. I wanted to ask you to just give us a little more 
detail on how the response benefited from the planning and 
exercises that you have conducted in recent years.
    Mr. Varney. It is one of those things that you plan and you 
put together an exercise for something you hope will never 
happen, but it just so happens that in our north-central 
Connecticut region, our emergency planning region, several 
years earlier, to validate their tactical interoperable 
communications plan, the scenario was such that a tornado went 
south to north through a very close area of the State, which 
actually affected some correctional facilities in the notional 
exercise and went into Massachusetts. So as part of the 
validation of that effort that we put together to collect the 
data, to identify the systems and personnel that would respond 
to an event, bring everyone together to walk through a tabletop 
exercise, all funded through IECGP funds with technical support 
and assistance from OEC, we were able to bring people from 
northern Connecticut and that area of Massachusetts together as 
part of this exercise to share equipment and to talk about 
those resources, only to have several years later a very 
similar event happen in a very close proximity. Although it was 
not in Connecticut, we were able to leverage all of those 
relationships and expertise that we were able to put together 
several years earlier to quickly respond to and enhance the 
efforts to support their request.
    Chairman Lieberman. That is a great example of the benefit 
of planning. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    We have talked a lot today about the importance of 
communications among first responders. However, I do not want 
to slight the importance of warning the public prior to a 
disaster striking.
    Maine has had, like many other States, an extraordinary run 
of violent weather this year. In northern Maine, there have 
been four tornadoes. I never remember that happening in my 
lifetime. And we have seen violent storms throughout our 
country.
    So getting information to the public before disaster 
strikes helps to save lives, reduce property damage, and 
prepare people for what is coming. Early warning can truly make 
a huge difference.
    I noted when I was home that the warning I received of the 
violent weather was across my TV screen, and I happened to have 
the television on, and it was the old-fashioned emergency alert 
system that we have had for as long as I can remember. And I 
could not help but think that most people probably did not have 
their television on, but they probably had their mobile phone 
nearby. They probably were on a computer on Facebook, or there 
are so many different ways to communicate today.
    So I would like to hear your assessment on the importance 
of having a system that embraces today's technologies because 
we need to recognize that people get their information in 
different ways nowadays. We will start with Commissioner 
Ramsey.
    Mr. Ramsey. Well, that is a very good point, Senator. In 
our department, we text-message a lot of information out to the 
public now about crime issues. We are taking advantage of 
Twitter. We take advantage of Facebook. We have what we call 
reverse 911 where we are able to use telephone calls to certain 
specific areas of the city, if there is a burglary pattern or a 
con game that is prevalent in a particular area, and we can 
reach people and warn them and let them know. So from a police 
perspective, we use the technologies that are available to get 
information out to the public the best we can, recognizing the 
way things have changed--my son, for example, would rather text 
me than have me call. If I call him, he says, ``Dad, why did 
you call? How come you just did not text me?'' So, that is the 
world we are in now. And so to reach a population, I think you 
have to do all the above. It is not one in lieu of the other. 
You have to do them all because different groups of people use 
different ways to communicate, and we have to be able to adapt 
very quickly to that and get information out as quickly as we 
can.
    With regard to a point you made in your opening statement, 
I believe that one of the shortcomings in preparedness in this 
country is our preparing the communities on a consistent basis 
on what to do in the event of an emergency. As first 
responders, we can have the best plans in the world. If there 
are traffic jams and we cannot get to where we need to get too, 
it does not matter how good your plan was, you cannot get there 
to deal with the situation because if you have panic among the 
public--and a lot of that comes from just not quite knowing 
what to do--then that is a problem. And if the FCC set aside 1 
hour a month for PSAs for different jurisdictions to do 30-
second or 1-minute PSAs over and over again--and I do not mean 
airing it at 3 o'clock in the morning on the Psychic Network 
and all that--I mean in prime time, constantly reminding people 
of certain things that they need to do, then I think we will 
have a better prepared public, which makes us even more 
effective if we can rely on the public to do certain things in 
the event of an emergency.
    Senator Collins. Thank you. Great response. Mr. McAleer.
    Mr. McAleer. Senator, I believe that we can to a certain 
degree dictate when and what we will transmit to the public, 
and I say ``to a certain degree'' because if we do not put out 
the right information at the right time, there are so many 
other sources of information out there that the public will go 
to those sources, and then we in emergency management tend to 
become irrelevant.
    The thing that I think we cannot do is dictate how we put 
that information out. We have to remember that our citizens are 
our customers. We have to be able to communicate with them in 
the ways that they communicate. It is much like a guy owning a 
shop. If you walk in and I try to sell you a T-bone steak and 
you are a vegetarian, it could be the best T-bone steak in the 
world, but it is irrelevant. So we need to be very careful 
about that.
    I think this applies both before events and during the 
response to events so that we become the center of information 
for the public. The challenge becomes, how do we afford to pay 
for that because the technology is out there that can do it, 
but as you get more technologically advanced, it costs more 
money.
    On the other side, if we with our systems are chasing the 
emerging technology that is out there, we might always be in a 
race. So if we could develop some sort of industry standard so 
that there was a talk-back means or a talk-forward means as 
these new social medias are coming online, that would help us a 
great deal, I believe. Thank you.
    Senator Collins. Thank you. Mr. Varney.
    Mr. Varney. In Connecticut, of course, we maintain and we 
leverage the emergency alert system when it is needed. But in 
Connecticut, we have also invested significant State funds to 
put in a system for our local municipalities and dispatch 
centers to use, similar to a reverse 911 type of system, to 
alert citizens for any type of incident that a municipality 
believes that they need to be alerted to, and we make that 
available to all of the local municipalities.
    So if somebody wants to sign up to have messages sent to 
them via text on their BlackBerry or they want it sent on 
traditional voice mail to their phone, they can opt in to do 
that, and we will send it in the mode that they have asked for. 
That is in addition to having all of the land-line phones into 
the system. In case of emergency, a message has to go out to 
have people shelter in place, as was mentioned before, or to 
evacuate. Those systems are in place in Connecticut, and I 
would think that as IPAWS and the alerting systems mature in 
the future, they would all become integrated.
    Senator Collins. Thank you. Mr. Schaffer.
    Mr. Schaffer. Yes, Senator, indeed, the Integrated Public 
Alert and Warning System really is designed to take advantage 
of some of the new technological capabilities of the 
smartphones and other devices that almost everyone carries 
today. We need to be able to alert people who are in a specific 
geographic area, not just people who sign up and give their zip 
code, because they may be traveling to another area on a given 
day and there may be people who are visiting Washington, DC--we 
have tourists right now from all over the country and all over 
the world. So this system is designed to give warnings to 
people who are proximate to a cell tower, who are nearby, as 
opposed to people who have signed up or people who live in a 
certain place. And that is an effort not of NPPD, my 
organization within DHS, but FEMA working with the FCC. That 
solution should come into initial operating capability within 
this year, 2011, and have expanded capabilities going out for 
Federal, State, and local officials being able to send those 
kinds of alerts and warnings to broadcasters through a variety 
of digital communications paths sometime in 2012.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins, and I thank 
you, all four of you, for your testimony today and obviously 
for what you do every day.
    The bottom line is, I think you validated our preliminary 
conclusion before the hearing that we have made a lot of 
progress in the area of interoperability of communications 
among first responders since 9/11 and the operability, the 
robustness of our communications systems. We obviously have 
some gaps yet to fill, and if this D Block legislation can pass 
soon, that would be a giant leap forward in assisting you to do 
what we ask you to do for all of our communities and States 
every day.
    So thanks very much. You have really helped to inform the 
Committee and also, I think, given some testimony that should 
give the public an increased sense of confidence and security 
in an age when, because of the unpredictability of the weather, 
not to mention extremist and terrorists groups, this kind of 
capability is very significant.
    I had not thought to mention the terrible tragedy in 
Norway, and we are just beginning to understand what happened, 
but part of it was that--this goes back to what Senator Collins 
quoted earlier from the 9/11 Commission--part of the cause of 
9/11 was a failure of imagination by which the Commission meant 
that we failed to imagine that anybody could try to do to us 
what the attackers did on 9/11. And, of course, I think this is 
exactly what people in Norway are going through because of 
their shock that anybody would try to do what that individual 
apparently did, and therefore, their relative lack of 
preparedness to respond to that.
    Anyway, we are in much better shape than we were 10 years 
ago, thanks to you and a lot of other people. We thank you for 
that.
    Senator Collins, do you want to add anything?
    Senator Collins. I just want to thank our witnesses. I 
think this was a very helpful update on an issue that we have 
been working on together for many years, so thank you for the 
work that you are all doing.
    Chairman Lieberman. Thank you. The record of the hearing 
will be held open for 15 days for any additional statements or 
questions. And with that I thank you again and adjourn the 
hearing.
    Mr. Ramsey. Thank you, Mr. Chairman and Senator Collins.
    [Whereupon, at 11:34 a.m., the Committee was adjourned.]


                    DEFENDING THE NATION SINCE 9/11:



                   SUCCESSFUL REFORMS AND CHALLENGES



                       AHEAD AT THE DEPARTMENT OF



                           HOMELAND SECURITY

                              ----------                              


                      WEDNESDAY, SEPTEMBER 7, 2011

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, presiding.
    Present: Senators Lieberman, Akaka, Carper, Pryor, Collins, 
and Brown.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. The hearing will come to 
order. Thanks to our witnesses for being here.
    In 4 days, we will commemorate the 10th anniversary of the 
attacks of 9/11 and mourn anew the nearly 3,000 lives that were 
lost that day at the World Trade Center, the Pentagon, and on 
Flight 93, which, as we all know, of course, crashed into a 
field in Shanksville, Pennsylvania.
    But we have already quite appropriately begun and will 
continue, I am sure, a look back at September 11, 2001, to both 
understand with the clarity of hindsight what that day meant in 
American history and to evaluate what our government 
particularly and our people have done since that time.
    There is no question that, although I think we knew it 
then, we can certainly look back and say now that we understand 
that on that day, we were drawn into a war which is 
increasingly global. We hesitate to use the term ``world war,'' 
but this is a war that is being fought by violent Islamist 
extremists against most of the rest of the world, including 
most of the Muslim world. That day's brutal attack, in my own 
opinion, in the clarity of hindsight, began that war, although, 
in fact, Osama Bin Laden had declared war in 1998 in statements 
he had made, and they had been attacking us for some period of 
time before that, including the World Trade Center in 1993.
    But it really began that day, and in the days and months 
following 9/11/01, we in government set out with an urgent 
determination to reform the systems that had failed us. I think 
the more we knew about how September 11 happened, particularly 
informed by the work of the 9/11 Commission headed by Tom Kean 
and Lee Hamilton, we learned a lot more. I came to the 
conclusion, although one will never be able to know with 
certainty, that 9/11 was probably preventable. As I look back 
and I think of all we have done to respond to our failures on 
that day, I think that if another group of terrorists attempted 
a similar attack on the United States today, we would prevent 
it, and that, of course, gives me great comfort and a sense of 
great gratitude for all that has been done by so many people in 
our State and local governments to work together to make sure 
we are better secured here at home than we were on 9/11/01.
    We put into place measures that reorganized and reformed 
our government to prevent another terrorist attack on the 
United States. I know that there are some on this 10th 
anniversary look-back that are saying that we overreacted to 9/
11, that it was, in fact, not just a substantive overreaction, 
but an expensive overreaction. Well, I do not agree. The most 
extraordinary bottom-line reality today is that as we look back 
over the last 10 years, as we all know, thank God and thanks to 
everybody who has worked so hard, there has not been another 
mass casualty terrorist attack on the United States by violent 
Islamists since 9/11/01. I do not think anybody would have 
predicted that on 9/12/01.
    But we can say that today not because our enemies stopped 
trying. They have tried over and over and over again. But 
fortunately, our defenses, our intelligence, all the things 
that we have done, really have made us more secure. And, 
frankly, a couple of times, just to remind us that we continue 
to have work to do, we were just plain lucky, as in the two 
glaring cases of the Detroit bomber on Christmas Day on the 
airplane and the Times Square bomber, both of whose weapons, 
explosives, just did not go off. If they had, I think we would 
be looking back with a different sense of these past 10 years.
    But overall, there is no question in my mind, we have been 
spared another catastrophic terrorist attack like the one on 9/
11 not just as a matter of luck or coincidence but because of a 
lot of things a lot of people did. I am very proud of the role 
Members of this Committee across party lines played back then 
and continue to play in creating these new organizations and 
supporting them.
    The first, of course, was the cabinet-level Department of 
Homeland Security, which we created to lead our efforts to 
prevent terrorist attacks within the United States, and I 
believe DHS has significantly contributed to our increased 
national safety. I am grateful that the report that the 
Government Accountability Office has issued today to our 
Committee as we move toward September 11, 2011, essentially 
agrees with that, and it is a positive report on the work of 
the Department of Homeland Security. It points to some work yet 
to be done, and then I think we would all agree with that, 
including people at the Department.
    But the fact is that 10 years ago, no single agency and no 
single official was designated to lead the Federal Government's 
efforts to prevent terrorism or, for that matter, to adequately 
marshal the resources of the Federal Government to respond to 
natural disasters, not just terrorist disasters. Today, there 
is clarity about who is in charge, and that is the Secretary of 
the Department of Homeland Security, and whose efforts that 
Secretary should be coordinating to prepare, respond to, and 
recover from disasters. That has made a tremendous difference.
    I am going to put the rest of my statement in the record 
because I want to hear the witnesses.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Chairman Lieberman appears in the 
Appendix on page 641.
---------------------------------------------------------------------------
    I simply want to thank Deputy Secretary Jane Holl Lute from 
DHS who is with us today, and Gene Dodaro, the Comptroller 
General of the United States, both to hear DHS's own evaluation 
of these past 10 years and the Comptroller General's on behalf 
of GAO.
    And I repeat, I am heartened that the report that GAO is 
issuing today \2\ concludes that, overall, the Department of 
Homeland Security has implemented most of its key missions and 
achieved most of its important goals, creating a foundation 
that will allow the Department to continue to move aggressively 
toward its full potential.
---------------------------------------------------------------------------
    \2\ The GAO report titled, ``Progress Made and Work Remaining in 
Implementing Homeland Security Missions 10 Years after 9/11,'' appears 
in the Appendix on page 689.
---------------------------------------------------------------------------
    So we appreciate that very much and look forward to the 
testimony of our witnesses. Thank you. Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. First, let me 
thank you for holding today's hearing to review the first 8 
years of the Department of Homeland Security, whose vital 
mission is to protect our Nation and our people.
    After the attacks of September 11, 2001, President George 
Bush established the White House Office of Homeland Security 
and soon concluded that the Nation needed a more unified 
homeland security structure. We envisioned a department that 
would secure our borders, improve the security of 
transportation and critical infrastructure, meld homeland 
security intelligence from multiple sources, and work with 
first responders and law enforcement to deter, detect, prepare 
for, and respond to terrorist plots.
    The law establishing the Department of Homeland Security 
was enacted in November 2002. Twenty-two entities and 
approximately 180,000 employees were merged into DHS. Not only 
was the new Department's mission a challenge, but so was simply 
unifying its email systems. Over the past 8 years, the GAO has 
repeatedly placed the Department on its High-Risk List. The GAO 
has issued approximately 1,500 recommendations and DHS has 
adopted only about half of them, although others are in 
progress. This July, DHS issued a self-administered report card 
noting considerable progress in achieving the goals set out 
nearly a decade ago to strengthen our security.
    When it comes to our homeland security, however, we are 
only as strong as our weakest link. This week, as the Chairman 
has indicated, we will commemorate the worst attack ever on the 
United States. In doing so, we must ask ourselves some 
fundamental questions. Are we safer, or are we just safer from 
the tactics terrorists have already tried?
    I think the answer is yes to both questions. We are far 
safer than we were on September 10, 2001. But terrorists 
continue to probe our vulnerabilities and attempt to exploit 
gaps in our security. We also face increasing threats from 
homegrown terrorists already within our borders.
    Today, the GAO concludes that more than 8 years after its 
creation and 10 years after September 11, DHS has indeed made 
significant strides in protecting our Nation, but has yet to 
reach its full potential. The examples are many. TSA has 
strengthened airline passenger pre-screening, yet a young man 
recently was able to fly cross-country without a valid 
government ID and with an expired boarding pass that was not 
even issued in his name. At the other extreme, it bothers many 
Americans to see TSA screeners putting the very young and the 
very elderly through intrusive and in many cases unnecessary 
pat-downs.
    Although DHS has bolstered the security of U.S. borders and 
identification documents, two Iraqi refugees associated with 
al-Qaeda were recently arrested in Kentucky. How a known bomb-
maker whose fingerprints we have had on file for some time was 
able to enter our country on humanitarian grounds remains an 
unanswered and extremely troubling question. Are there other 
Iraqi nationals granted asylum who were involved in attacking 
our troops? The fact is, we do not know. We still await clear 
answers from the Administration, which must do more to ensure 
that all relevant databases are used so that we do not let 
terrorists and criminals into our country, much less grant them 
asylum.
    I am pleased that the GAO found that our chemical 
facilities and seaports are safer, both priorities of mine and 
of this Committee.
    The GAO indicates that DHS should make improvements in how 
it shares and manages cyber threat information. This is the key 
goal of comprehensive cyber security legislation that Chairman 
Lieberman, Senator Carper, and I have co-authored. The 
Department has also had its fair share and then some of 
management problems. Failures in expensive procurements have 
cost taxpayers billions of dollars and delayed much-needed 
technology.
    Now, merging 22 agencies and nearly 180,000 employees is 
always going to be a challenge. If DHS is to become a truly 
unified Department, its employees in headquarters should not 
remain spread over 70 buildings and 40 sites. The lack of a 
consolidated headquarters inhibits communication, coordination, 
and cooperation among DHS components, and I know the 
Administration is working hard to consolidate the headquarters.
    I also believe that there are efficiencies that can be 
gained by consolidating offices at the regional level, a 
recommendation made by former Homeland Security Secretary Tom 
Ridge. We should take a look at consolidating field office 
locations to reduce costs and improve coordination.
    As this Committee will soon consider a reauthorization of 
the Department, it is important to discuss what experts inside 
and outside of DHS believe has and has not worked. We must even 
answer the fundamental question of whether or not we are safer 
because of the creation of DHS.
    As has been noted often, the terrorists only have to get it 
right once. DHS and its partners have to be right every single 
time or we will suffer the devastating consequences of a 
terrorist attack. We are much safer than we were 10 years ago, 
but we must be tenacious in anticipating the changing tactics 
of terrorists. As the successful decade-long search for Osama 
bin Laden proved, America's resolve is a powerful weapon 
against those who would seek to destroy our way of life.
    Mr. Chairman, I appreciate the opportunity to review GAO's 
report with the Comptroller General today and look forward to 
hearing from Deputy Secretary Lute on how DHS can better 
fulfill its mission. Thank you.
    Chairman Lieberman. Thanks very much for that statement, 
Senator Collins. Deputy Secretary Lute, welcome back. How long 
have you been at the Department now?
    Ms. Lute. Over 2\1/2\ years.
    Chairman Lieberman. Right. So for 2\1/2\ years you have 
been on the scene, and the previous years, you were an informed 
observer.
    Ms. Lute. Yes, sir.

  TESTIMONY OF HON. JANE HOLL LUTE,\1\ DEPUTY SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Lute. Thank you, Chairman Lieberman and Ranking Member 
Collins, and distinguished Members of the Committee, for this 
opportunity to appear before you today to discuss the 
Department's progress in keeping our Nation safe from the range 
of threats that we face.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Lute appears in the Appendix on 
page 647.
---------------------------------------------------------------------------
    Mr. Chairman, you have my full written statement. I request 
it be entered into the record.
    Chairman Lieberman. Without objection.
    Ms. Lute. And I would like to highlight some of that 
statement here this morning. But first, Mr. Chairman, I would 
like to strike a note of remembrance of the lives and memory of 
those who were lost on 9/11/2001. I was in New York City that 
day. I will never forget it. None of us will ever forget where 
we were, how we felt, and how we came together as a Nation, 
determined in our resolve to never let that happen again, 
determined in the conviction, in the core belief that this 
country can protect itself. And nowhere has that commitment 
been stronger than in this Committee, Mr. Chairman, with you 
and certainly you, Senator Collins, and the other Members of 
the Committee, and your steadfast support for the efforts that 
we have been taking in homeland security.
    I would like to thank our many partners in our effort to 
ensure the safety and security and resilience of our Nation. 
DHS plays a central role in that effort, but we rely on strong 
partnerships throughout all levels of government, law 
enforcement, private industry, and with the public. We view 
homeland security as a whole community enterprise and we are 
fortunate to have strong partners to help us meet our mission.
    As I mentioned, Congress is an essential partner. 
Particularly this Committee has played an extraordinary role in 
creating and equipping DHS and the other institutions with the 
authorities and resources necessary to carry out programs to 
secure our country. You have carried forward the bipartisan 
spirit that marked the days after 9/11, and you have always 
held us accountable to maintain that spirit and achieve our 
missions.
    In the spirit of accountability, we are also very thankful 
for the hard work of our partners in GAO, and I say that 
sincerely. Along with DHS's Office of the Inspector General, 
GAO has audited and reported on the work of the Department and 
their work has helped inform us as we mature and grow as an 
organization.
    As we approach this important anniversary of the 9/11 
attacks, we are thankful, too, Mr. Chairman, for the commitment 
of the American people. Since 9/11, countless Americans have 
stepped up, whether in our military in Afghanistan, Iraq, or in 
other posts overseas; in our Federal agencies, including the 
Department of Homeland Security; and in our States, cities, 
tribal communities, and elsewhere, as first responders, law 
enforcement officials, reservists, and engaged citizens.
    I take great pride, Mr. Chairman, as you know, in my 
service in the U.S. Army for the first half of my adult life. 
But I am equally proud of my service as a member of the 
Department of Homeland Security.
    Great progress has been made at the Department and around 
the country since the Department was created in 2003. Today, we 
are a more capable Nation and a stronger Nation. We can detect 
threats sooner with better information and make adjustments 
more quickly based on real-time intelligence. Today, we know 
more about those who seek to enter our country, the levels of 
risk they might pose, and what is needed to prevent potential 
threats from reaching our shores. Our borders are stronger, 
enhanced by more personnel, technology, and infrastructure, as 
well as with stronger partnerships with States, cities, border 
communities, and our international partners around the world, 
especially in Canada and Mexico.
    Our immigration laws, while in need of reform, are being 
enforced according to common sense priorities that we have set, 
which are to identify and remove criminals and those who are a 
threat to the American people. At the same time, we have 
strengthened our processes and systems for providing legal 
immigration benefits and services while ensuring the security 
and integrity of our immigration system.
    We have also created a framework for ensuring our cyber 
systems, networks, and our critical infrastructure where none 
previously existed. As part of this effort, we enhanced our 
ability to protect Federal Government networks through better 
detection, reporting, and countermeasures. We have engaged 
cyber users at all levels, public and private, in our shared 
protection, and we have broadened our partnership with the 
private sector to protect our critical infrastructure and 
established a new regulatory framework to protect high-risk 
chemical facilities.
    We have built a more ready and resilient Nation that is 
able to confront major disasters and emergencies in our States, 
cities, and communities. We have helped front-line responders 
become more equipped, better trained, and more unified under a 
new national response framework and incident command system, as 
you have noted. We have improved emergency communications and 
we have provided capacity building grants to support our 
Nation's first responders.
    The response and ongoing recovery effort from Hurricane 
Irene is just the most recent testament to the robust 
capabilities that you have helped us build.
    We have continued to integrate the Department of Homeland 
Security by advancing the work that began more than 8 years ago 
to refashion our homeland security enterprise and engaged a 
full set of partners in the protection of our Nation.
    And finally, the Department's commitment to civil rights, 
the values of liberty, fairness, and equality under the law are 
embodied in all of the Department's programs and activities.
    While we have been making much progress, Mr. Chairman, we 
know we must continue to improve. As the threat against us 
continues to evolve, so do we. Today, then, is an important 
opportunity to talk about some of our progress, which GAO notes 
in its report, and also to address some of the areas where 
there is more work to be done. I look forward to discussing 
this with you today so that we may build upon the foundation of 
security in place to address our future challenges, and with 
this Committee's partnership and support, continue to protect 
our Nation, our citizens, our freedom, and our way of life. 
Thank you very much.
    Chairman Lieberman. Thank you, Deputy Secretary Lute.
    Now, we will hear from Gene Dodaro, Comptroller General of 
the United States, and I note for the record that Mr. Dodaro is 
accompanied by Cathleen Berrick, who is the Director of 
Homeland Security and Justice Issues at GAO. Good morning, and 
please proceed.

 TESTIMONY OF HON. EUGENE L. DODARO,\1\ COMPTROLLER GENERAL OF 
   THE UNITED STATES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, 
ACCOMPANIED BY CATHLEEN A. BERRICK, DIRECTOR, HOMELAND SECURITY 
   AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dodaro. Good morning, Mr. Chairman, Senator Collins, 
and Senator Akaka. I am very pleased to be here today to 
discuss GAO's report on the various homeland security issues 
and progress made as well as remaining issues and challenges 
since the 9/11 event.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dodaro appears in the Appendix on 
page 660.
---------------------------------------------------------------------------
    Our report reflects a summary of the work that we have done 
over the last decade. It also reflects the constructive 
approach we have tried to take in making recommendations to 
offer improvements and suggestions to the Department. We are 
pleased with the Department's response, although many things, 
as Senator Collins mentioned, are still in progress and need to 
be implemented. But, generally, I think we have had a good 
dialogue and it has enhanced their operations.
    The bottom line of our report, as everybody has noted in 
their opening comments, is that a lot of progress has been made 
since 9/11. That has clearly been demonstrated. But there is 
work remaining to address gaps and weaknesses that will enable 
DHS to reach its full potential.
    Now, on the progress side of the ledger, we have Secure 
Flight in place, a system that checks incoming passengers 
against terrorist watch lists. We have screening workforces 
deployed at 460 commercial airports across the country.
    We have a biometric entry system now in place to be able to 
check those people entering our borders over time. We have also 
established and put more resources, as Deputy Secretary Lute 
mentioned, at the ports and along the borders, putting 
resources, equipment, and infrastructure in place over time.
    There is also the Border Visa Security Program that has 
been put in place to have DHS work along with the State 
Department in screening visa applications at certain locations 
overseas. And we also have put in place an electronic 
authorization program for those entering under the Visa Waiver 
Program.
    There has also been a range of plans and assessments that 
have been done on maritime security, surface transportation, 
such as rail and mass transit, that have laid an important 
foundation for assessments of risk.
    I am also pleased that cyber security has been given 
increased emphasis in the National Infrastructure Protection 
Plan, and as the Deputy Secretary pointed out, FEMA has issued 
a national response framework and associated documents with 
that to address emergency preparedness.
    Now, on the work remaining side, there are a number of 
significant issues and I would like to highlight a few this 
morning. There needs to be continuous improvement in the 
processes and technologies used in screening operations at 
airports, including coming up with a plan to ensure that the 
equipment for screening checked baggage meets the current 
requirements for detecting explosive devices.
    While we have a very effective entry system, we still do 
not have an exit system in place, and I know that this is a 
very difficult task, but the overstays issue is significant. 
The estimates are between four and five million people in the 
United States are overstays. Of course, as we know, five of the 
19 hijackers on 9/11 had overstay issues. This is something 
that is a big challenge but needs to be addressed going 
forward.
    We also think that the Visa Security Program can be 
expanded so that DHS is working with the State Department at 
more critical high-risk locations, whether DHS staff are 
deployed abroad in countries or working remotely from here in 
the United States. That program has a lot of potential for 
being strengthened.
    There also needs to be a practical approach to screening 
cargo and containers before they come to the United States. DHS 
has some important programs underway. Of course, there is the 
100 percent screening requirement, but there are questions 
about its feasibility. We need a practical approach to address 
that issue.
    Also, Senator Collins, as you mentioned, in the cyber 
security area, we have noted that there is a need for more 
timely and actionable alerts to the private sector and others 
so they can take action over time.
    Also, we believe FEMA needs to continue to work to develop 
some metrics and a methodology to address jurisdictions' 
preparedness. I think the roles have been articulated, but 
there is really not a clear assessment of preparedness levels 
of various jurisdictions yet.
    There is also a need to effectively implement the global 
nuclear detection architecture and to strengthen abilities to 
detect biological agents.
    Now, underpinning a lot of these issues is the ability of 
DHS to continue to work with its partners, and as Deputy 
Secretary Lute mentioned, DHS has established those 
relationships. These partnerships need to continue to develop 
and mature and I think they need in some cases to meet the 
expectations of those partners, as well. One area is in cyber 
security, as I mentioned. But there is also a fundamental need 
to continue to evolve and improve the Department's management 
processes. The core of why DHS is on our High-Risk List is the 
need to develop those management infrastructure processes, in 
the acquisition area in particular, and also the development 
and testing of technologies before they are deployed, as well 
as in the financial management area.
    I am very pleased. I have had meetings with Deputy 
Secretary Lute. I have talked to Secretary Napolitano and their 
team. I know they are committed to addressing these high-risk 
issues. They have developed a number of plans. We have an 
ongoing, constructive dialogue to try to be as specific as 
possible and make recommendations to strengthen these 
management areas. We look forward to continuing that dialogue 
as they make improvements going forward.
    Finally, I would note that another theme that we have 
identified is the need for continued risk-based approaches to 
these areas and also figuring out what works well from what the 
Department has been doing and what is not working so well. We 
have had an ongoing dialogue, encouraged by this Committee, on 
performance measures to judge DHS's performance, and the 
Department has developed a number of measures and they are 
preparing a plan to be released shortly to talk about those 
issues.
    But I think it is terribly important as we enter this 
period of budget austerity and dealing with our deficit and 
debt issues to really work hard to make sure that we are making 
the right investments and using risk-based approaches or 
expanding things that are working well and we are operating as 
efficiently as possible, because as all of us know, the 
resources will not be as abundant, likely, in the coming years 
as they have been to date.
    That concludes my opening statement. Ms. Berrick and I 
would be happy to answer questions that you have about the GAO 
work. Thank you very much for your time and attention this 
morning.
    Chairman Lieberman. Thank you. Those were two good 
statements to set the groundwork. We will do 7-minute rounds of 
questions.
    Let me begin with your last point, Mr. Dodaro, and the 
whole question of management is not too fascinating, really, as 
it is to discuss individual programs' successes and failures. 
But just to put it in context, what we really tried to do in 
creating the Department of Homeland Security was to take a lot 
of agencies and departments of our Federal Government that 
touched on homeland security and disaster response and bring 
them together with the aim of making a whole greater than the 
sum of the parts, to make sure the dots were all connected, 
etc. And I think that was a worthy goal and we have achieved a 
lot on that.
    But in doing that, we created a very large Department, over 
200,000 Federal employees from more than 22 agencies, and 
therefore, created a very large management challenge. The 
Comptroller General mentions two things particularly, and that 
is contract oversight and new technologies. But to the extent 
that you can, let me ask you both to comment on the overall 
management, which is to say what kind of progress have we made 
in the 8 years of the Department's history to really blend 
these 22 agencies together, not that they were ever all 
intended to become homogenized, but they were intended to work 
together. As someone--I think it was the previous Secretary, 
maybe it was the current one--said, the aim at DHS is to make 
sure that every one of the component agencies is speaking the 
same language in their own dialect, their own accent--not 
speaking ethnically but speaking in terms of their agency.
    So, Mr. Dodaro, how do you evaluate that part of the 
management record of DHS?
    Mr. Dodaro. Well, I think, clearly, the intent of having a 
lot of synergies with that collection of agencies in place has 
been evolving and taking place. We pointed out in the past, for 
example, there were difficulties in coordination among many of 
those agencies, particularly in the law enforcement area, when 
they were separate entities, and they had some management 
problems when they were merged into DHS. So that was one of the 
reasons that we put them on the High-Risk List when they were 
formed.
    So I think that there has been some progress in this area. 
The framework for that progress has been in a lot of cases that 
the plans have been developed require the coordination that are 
laying out and clearly defining roles and responsibilities. 
This is a really important issue, not just within the 
Department but across the Federal Government because there are 
so many players involved. And if you look at many of our 
recommendations, they go to clarifying roles and 
responsibilities----
    Chairman Lieberman. Right.
    Mr. Dodaro [continuing]. Writing them down, having written 
procedures, and working through communication vehicles to work 
both within the Department and across departments.
    So I would say it is a work in progress, but there have 
been definite improvements. Attention to this area is 
constantly needed because of the changing threats and the 
changing capabilities. And after Deputy Secretary Lute 
responds, I will ask if Ms. Berrick has anything else. I am 
sure she will add.
    Chairman Lieberman. OK.
    Mr. Dodaro. Thank you.
    Chairman Lieberman. Deputy Secretary Lute.
    Ms. Lute. Thanks, Mr. Chairman, and thanks, Mr. Dodaro, for 
that. I would say the first thing, Mr. Chairman, that we have 
been able to reflect is the common narrative that now exists 
across these 22 agencies----
    Chairman Lieberman. Right.
    Ms. Lute [continuing]. And over the life of the Department. 
Everyone has heard of homeland security and people were not 
always sure what it meant. We are now very sure what it means, 
in part inspired and helped by the work of this Committee. It 
means the effort to build a safe, secure, resilient place where 
the American way of life can thrive.
    What does it take to do that? It requires that we prevent 
terrorism, that we secure our borders, that we enforce our 
immigration laws, that we ensure our cyber security, and that 
we build national resilience. Everyone in homeland security can 
find themselves in these missions and in this purpose. So in 
the first instance, narrating out the story that was originally 
intended these years ago when the Department was first 
conceived and formed and having all of the agencies relate the 
work that they have been doing, that they continue to do in the 
context of those missions and that overarching vision.
    What we have had to do over the course of time, again, 
building on the work of those who have gone before us, is 
continue to operate. DHS is overwhelmingly an operating agency, 
every single day. The ``building the plane while flying it'' 
metaphor is apt here, and in fact, GAO points that out in its 
report. It is a huge challenge.
    And so the question for us as a Department is how do we add 
value in this overarching structure in the day-to-day 
management of those operations? And we have done everything, as 
Mr. Dodaro mentioned, from improved planning across the range 
of threats that we face, improving our information, gathering 
and sharing across the enterprise, and equipping the entire 
enterprise with the information that it needs. Working on that 
front, we need to be developing the ability to do risk 
assessments that address threats, vulnerabilities, and 
consequences, to mobilize the assets of the Department across 
agencies when operations require it, as we often do in disaster 
response, and to work increasingly on those cross-cutting 
areas, whether it is aviation planning for acquisition, 
establishing a single point and resource to use for the entire 
Department across the range of vetting needs that we have, and 
other areas like this, acquisition improvement and 
strengthening, which this Committee knows well the work that we 
have undertaken under the Under Secretary of Management.
    So in the three key areas that this Committee has a right 
to expect the Department can perform in, can we execute our 
missions, can we run ourselves, and can we account for the 
resources that have been entrusted to us? In each of these 
areas, as the GAO report makes clear and the numerous IG 
reports, as well, the Department has made progress.
    Chairman Lieberman. Thank you. Ms. Berrick, do you want to 
add anything?
    Ms. Berrick. Yes. Thank you, Mr. Chairman. I would say in 
the area of management, the most progress has absolutely been 
in the establishment of plans.
    Chairman Lieberman. Right.
    Ms. Berrick. For example, if you look at acquisition 
management, DHS has a pretty rigorous policy in place that 
governs oversight of acquisition programs. It is very similar 
in the information technology area. And, in fact, DHS has 
efforts underway to improve that.
    I think there are three primary areas where they need to 
focus. One is making sure that they have the resources in place 
to implement those plans. If you look across the range of DHS's 
plans and their management areas, they cite available resources 
as a No. 1 constraint to implementing them.
    I think the second area they should focus on is having 
oversight mechanisms in place to make sure that they are 
executing those plans as designed. We have identified a number 
of these areas, and I will just take acquisition management as 
an example. A number of times DHS has routinely not followed 
its acquisition guidance. They have not had executive level 
oversight over major acquisition programs, and have not 
developed cost estimates in accordance with their own guidance. 
So they need to have those oversight mechanisms.
    And then, finally, I would say it is demonstrating progress 
and delivering mission capabilities that they can sustain over 
time. This is where we are getting at these major acquisition 
programs, making sure that they can field these programs that 
meet cost, schedule, and performance expectations and have an 
infrastructure to continue to be able to do that.
    Chairman Lieberman. Thanks for that answer. I will make two 
comments briefly in response. The first is on the resources. I 
think that is a very important point for management, and 
particularly since we are in the middle of it right now as we 
go through the process of trying to get back toward some kind 
of fiscal balance in our Federal Government and we are 
squeezing and squeezing. It is a real temptation to take money 
out of the management accounts of a Department like DHS because 
the management accounts have inherent advocates for them. 
Hopefully, we are. In other words, the programs of the 
Department all have constituencies. The management really does 
not in that sense. And the danger is that you will gut the 
management and, of course, the end result will be that the 
programs will not be run very well. So I think that is up to 
us, but that is something we have to do.
    Senator Collins and I had this conversation once we were 
some months into the Obama Administration. We were observing 
together that there was a kind of market test of the coherence 
of the new Department of Homeland Security because at the 
beginning of a new Administration, which was the first new 
Administration since the Department had been created, that 
would have been the moment for constituent agencies within the 
Department to have tried a break-out legislatively or with the 
new Administration. There was only a little bit of a flurry, 
not widespread and very short-lived, about FEMA coming out of 
the Department.
    So I think that said that both the first two Secretaries 
and now Secretary Napolitano and yourself have created a 
coherence to the Department in a fairly short time, at least to 
the extent that nobody tried to get out. And I do not mean just 
because they could not stand being in the Department, I mean 
because a lot of them have big constituencies of their own and 
a certain amount of political muscle around here. But none of 
them, either through the Administration or to Congress, tried 
to break away. And I think it says that for them, the 
Department is working as an entity, maybe helping them do their 
job better.
    And maybe one thing that happened after 9/11 is that the 
kind of turf protection that went on before was impossible to 
defend after an attack like 9/11, and I think perhaps there is 
an attitude now that we had better work together, because, God 
forbid, something happens, we do not want the press or the 
Congress to come at us and say, ``you were just being 
parochial, not sharing information, or not cooperating with 
another agency of the Federal Government and that is why this 
attack occurred.''
    So, anyway, that is a long story to say that though we have 
not reached the ultimate destination here, as GAO reminds us, 
we have come a long way in the right direction. Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Dodaro, the GAO has studied DHS extensively, report 
after report, recommendation after recommendation. So I want to 
ask you a fundamental question, a question that we are going to 
be asked as we seek to reauthorize the Department this year, 
and that is: Has it worked? Has it made us safer as a Nation? 
Was it a good idea to bring all 22 agencies together in terms 
of improving our security? What is GAO's assessment and answer 
to that very fundamental question?
    Mr. Dodaro. Well, I think we are definitely better prepared 
as a Nation to address these issues, and to the extent that we 
are better prepared, we are safer in that regard, although we 
need to be vigilant, we need to be alert, and we need to evolve 
to changes.
    I think in terms of bringing the 22 agencies together, 
there are a lot of different organizational models that could 
have been used. That was one that was chosen. Our focus has 
been on making sure that model worked as effectively and 
efficiently as possible. There were synergies to be gained and 
they are beginning to gel and develop over time, and so the 
benefits of putting those agencies together are becoming clear, 
I think.
    With regard to the progress, I would say that the 
Department, in our view, and this is reflected in our report, 
has made considerable progress in the mission areas. The 
management areas that underpin some of the developments really 
need additional work to be implemented properly to help the 
missions, whether it is developing and acquiring new technology 
or looking at cost effectiveness issues and measures over time.
    So I think I have addressed all parts of your questions, 
Senator Collins. Those are very good questions. But that is our 
response.
    Senator Collins. Thank you.
    Deputy Secretary Lute, I want to turn to the management 
challenges that both the Comptroller General and Ms. Berrick 
have mentioned today, particularly in the area of procurement. 
I mentioned in my opening statement that there have been a 
string of procurement failures. It spans both Administrations. 
It has cost the taxpayers literally billions of dollars. And 
equally troubling, it has delayed the deployment of much-needed 
technology and equipment.
    Here is just a partial list. TSA determined that the 
explosive trace detectors, the puffer machines that we saw for 
a while at the airport, did not work in a real world 
environment. They worked fine in the lab but not at the 
airports. There was the Advanced Spectroscopic Portal, which 
DNDO moved to deploy before proper testing and evaluation had 
been completed.
    There have been two major consolidated financial data 
system failures. With the Emerge II System, $52 million was 
spent before the project was cancelled. The Transformation and 
Systems Consolidation Project was abandoned this year, in May, 
after multiple protests, a GAO ruling against DHS, and a lot of 
money spent. This one, in particular, is very frustrating to me 
because Senator McCaskill and I repeatedly wrote to Secretary 
Napolitano. We received written personal assurances that the 
TASC initiative was critical, and it was on track. We were 
assured of the soundness of the program's lifecycle cost 
estimates. And, yet, it is abandoned.
    The SBInet program was cancelled by the Administration 
after programmatic failures. Even the Coast Guard, one of my 
favorite agencies and one that is very well run, had 
extraordinary problems for a while with its Deepwater Program 
because of a failed lead system integrator relationship with 
the government. In July of this year, the DHS IG issued a 
report that found that the Department had not leveraged its 
collective buying power across the Department and thus was 
paying literally billions more than it needed to.
    That is not a great record in the area of procurement. So 
my question to you is what is the Department doing to better 
define requirements up front, which is one of the major 
problems, to ensure real world testing and evaluation, and to 
ensure that we do not have these string of failures continue 
into the future?
    Ms. Lute. Senator, as you know, and I have testified before 
this Committee before on certain acquisitions, this has been an 
area where we have been working diligently to improve our 
record and our practice. We have cancelled non-performing 
programs, that is true, and we have had other challenges in our 
procurement process, but we have addressed them by looking 
comprehensively at the acquisition process and tailoring a 
program. We have been planning within that a process that meets 
the needs of the Department, which largely, although not 
exclusively, resides in the acquisition of services and 
important technologies to facilitate our operations at the 
border and at airports and across the Homeland Security 
enterprise.
    We have worked in three key areas in the area of 
procurement. First, on requirements. Let me use, for example, 
aviation requirements. I now chair a committee composed of 
members across the Department, principally with CBP and with 
the Coast Guard, to look at our aviation assets and our 
aviation fleet, leading toward the reestablishment of a Joint 
Requirements Board so that we can sensibly prioritize what we 
need in terms of air fleets and seek the air solutions that are 
not only the most economical, but the most effective 
operationally, first and foremost.
    We have improved the process of cost estimates that has 
often bedeviled procurements at every stage, not only the 
acquisition of items in particular, but the sustainability 
costs which are intrinsic to understanding the life cycle of 
those acquisitions, as well.
    And we have taken a number of steps to strengthen our 
procurement workforce--you are very familiar with these--
including establishing a Department-wide Acquisition Training 
Program under our head of procurement and enhancing our 
internship program. We recently had 60 graduates of that 
program and we are training more. We also are establishing an 
Acquisition Corps for our senior personnel so that they 
understand their responsibilities in the acquisition process.
    Importantly in this regard, and something I also know that 
you have great interest in, is the intersection of the 
operators with the procurers. It makes absolutely no sense to 
go down a long, tortured path of procurement without having an 
operator's sensibility introduced every step of the way. Do we 
know what we need? Are we considering alternatives for what 
operationally works? And then are we testing it in an 
operational environment? All these are areas where we have made 
strong improvements and will continue to do so.
    Senator Collins. Is this an area, Mr. Dodaro, where the 
Department has to show more progress and control before GAO 
will remove the Department from its High-Risk List?
    Mr. Dodaro. Yes.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins. Senator Akaka, 
good morning.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman, for 
holding this important hearing updating us on the progress in 
implementing the Department of Homeland Security. This is 
especially significant as we reflect on the last 10 years since 
the terrible events that led to the Department's creation.
    The Subcommittee on Oversight of Government Management, 
which I chair, has held several hearings on efforts to reform 
and improve management of DHS which is vital to executing its 
mission. The Department has made a great deal of progress, but 
as we have heard from GAO, the important work is not yet 
finished. Again, Mr. Chairman, thank you for this hearing and I 
will have a few questions.
    Ms. Lute, and I would like to ask Mr. Dodaro as well--as 
you know, the entire Federal Government, including DHS, has 
experienced and will continue to face budget reductions. This 
has caused delays in consolidating DHS's headquarters and 
forced reductions in the Management Directorate. Please discuss 
the challenges DHS faces in effectively executing its mission 
to protect the Nation in this budget environment.
    Ms. Lute. Thank you, Senator. We are all facing those 
challenges. We have articulated, though, that within the budget 
guidelines as articulated by the President, the priority for 
us, of course, are the five mission areas that we see as 
essential to homeland security.
    Preventing another terrorist attack, such as we saw on 9/
11, that is job one for us. We do it every day. We will 
continue to prioritize that within our budgetary guidelines.
    Securing our borders, again, we have achieved significant 
progress in securing our border and we will continue to 
emphasize that.
    Enforcing our immigration laws, conveying immigration 
benefits appropriately, as well.
    Building our cyber capacity is essential. Developing cyber 
security for the Nation and building the Nation's resilience, 
as well, to face all risks and hazards.
    We will continue to prioritize these. We will also continue 
to prioritize the integration of the Department and the 
management of the Department. There are some that--no one on 
this Committee, I am proud to say--has ever suggested that, 
somehow, the management is separate and apart from the line or 
the programmatic functions. We are one Department. The entire 
Department is operational and we will continue to prioritize 
our ability to execute our missions to run ourselves and to 
account for the resources that we are given.
    Senator Akaka. Thank you.
    Mr. Dodaro, I would like to hear you on this, as well. This 
GAO report is based on observations over the past several years 
at DHS, but in the last year, the Department's budgetary 
outlook has dramatically changed. Based on your work, are you 
concerned that budgetary challenges will reverse any of the 
recent management progress at DHS?
    Mr. Dodaro. I think it largely depends on how DHS can 
implement its mission in the most cost effective manner, and I 
would point out several areas are critical to that. One is in 
the acquisition area. It is about 40 percent of the 
Department's budget, and so it is very important that the 
acquisitions be carried out according to their plans. As Ms. 
Lute outlined, they have a lot of efforts underway to try to 
improve acquisition management. I think it is very important. 
In the IT area, for example, right now, there are 46 projects 
at a little over $3 billion that are in need of significant 
management attention, according to their IT Dashboard.
    Second, I think they need to use the assessments that they 
have done on a risk-based approach to make sure that they are 
integrated into their plans more. They are beginning to do that 
more and more, but in order to be cost effective, you have to 
use your risk assessments more effectively.
    Third, as I pointed out in my opening statement, the 
performance measures, what is working, what is not working, is 
really critical if you are going to target your resources on 
areas that are in need of greater improvement or to make sure 
that you are financing things that are producing the right 
types of results.
    And last, their financial management systems are still in 
need of reform, and if you are going to operate in a cost 
effective manner, you need good accounting. You need good cost 
management processes.
    So I think all those things can help them deal in a more 
cost effective manner and it will be critical in this period of 
budgetary challenges.
    Senator Akaka. Thank you.
    Ms. Lute, DHS has committed to empowering the agriculture 
mission of CBP with the leadership structure and authorities at 
all levels necessary for success. I am concerned that unless we 
fully accomplish this important goal, our efforts to safeguard 
American agriculture will continue to fall short.
    In my home State of Hawaii, invasive species have the 
potential to cause economic and environmental catastrophe 
there. I plan to introduce a bill to reinforce DHS's efforts to 
strengthen agricultural inspection.
    Will you commit to work with Congress to make sure CBP is 
fully empowered and held accountable for effective agriculture 
inspection?
    Ms. Lute. I will, Senator Akaka.
    Senator Akaka. Thank you very much.
    Ms. Lute, last year, the Department released its High-Risk 
Management Strategy, which I think is an important step for DHS 
to come off the High-Risk List. However, GAO reports that this 
plan has not been fully implemented. What more needs to be done 
to implement the High-Risk Strategy and are there any barriers 
preventing implementation?
    Ms. Lute. Thank you, Senator. We have made getting 
ourselves off the High-Risk List a priority for us from a 
management point of view and I am very pleased to say we have 
been working very closely with Mr. Dodaro, Ms. Berrick, and the 
team to identify what we actually need to do. GAO has given us 
a detailed view on what it takes to get off the High-Risk List 
and we have responded with an equally detailed plan for 
executing those steps and we have been working very closely 
together.
    So, I think we are on track. We have issued one report on 
our progress in June of this year. We will issue another in 
December of this year. And we are going to continue to march 
along this track until we succeed.
    Senator Akaka. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thank you, Senator Akaka. Senator 
Pryor, good morning.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you. Thanks for having this hearing 
today and I appreciate all of our witnesses being here.
    Let me start, if I may, with you, Deputy Secretary Lute. 
According to the GAO, one reason DHS has missed opportunities 
to optimize performance across its missions is a lack of 
reliable performance information or assessment of existing 
information. That concerns me. How has DHS tried to address 
this problem and what is the Department doing to try to fix 
that?
    Ms. Lute. It concerns me, as well, Senator, and we have 
made identifying common sense metrics of progress a priority 
for us. We have been working, as I mentioned, with GAO across a 
range of areas to improve our business intelligence processes 
so that we can have a fact-based understanding of how we are 
executing and the effect that our operations are having, and 
this is across the mission areas and across the components 
within DHS, including very pragmatic metrics for understanding 
the effectiveness of our emergency response in FEMA, CBP, ICE, 
CIS, and TSA, as well.
    Senator Pryor. Since you mentioned different parts of your 
mission there, let me ask about FEMA. What are you doing to 
improve financial management practices at FEMA?
    Ms. Lute. Administrator Fugate is very committed to this, 
as am I, and we are looking across the range of operations that 
FEMA engages with, both on the preparedness side and on the 
response side. And I chair, for example, a Department-wide task 
force to look at the Administration of grants, for example, to 
streamline our processes, improve accountability, and, frankly, 
improve the overall performance of the grant program, as well. 
But across FEMA, the commitment to management is the commitment 
that we have in the Department for responsive, timely, 
effective accountability for the resources that have been given 
to us in the context of effective delivery of effective 
operations.
    Senator Pryor. And Mr. Dodaro, is GAO comfortable with the 
progress FEMA is making on its financial management?
    Mr. Dodaro. We remain concerned about financial management. 
We look across the Federal Government and there are only four 
agencies right now that are not able to obtain a clean opinion 
on their consolidated financial statements, and DHS and DOD are 
two of the largest ones on that list of four. There have been a 
couple efforts to try to get an integrated financial management 
system in place. Most of the problems are in the Coast Guard 
area and property accountability at TSA.
    So I think the Department is trying to get a good plan 
together in that area. We are going to be evaluating that to 
see if they make the necessary improvements. But it is one of 
the critical areas and reasons for why they are on our High-
Risk List and so we are going to continue to give them advice 
on how to move forward and fix the problems.
    Senator Pryor. Let me ask this. DHS is a relatively new 
department. It seemed to me when it was started a few years 
ago, that it would have a chance at a clean slate to set all 
the operations up the way they should be done and not inherit a 
lot of issues and challenges from the other agencies and 
offices that existed before that they brought under the 
umbrella. Was DHS not set up the right way? What is the origin 
of this problem?
    Mr. Dodaro. The origin is--I will ask Ms. Berrick to 
elaborate on this, if she would like--basically, they inherited 
the 22 agencies. A lot of them had their own definitions and 
requirements and systems and methods, and so while it presented 
an opportunity to start fresh, it also presented a challenge 
because the Department did inherit a lot of the problems and 
concerns.
    Now, we had mentioned early on and our report reflects that 
they made more progress in the mission areas than in the 
management area, and we were concerned about management from 
day one. We put them on the High-Risk List the day they started 
operations in 2003 and we have always advocated for more 
management oversight, and eventually the Under Secretary for 
Management position was created and that position is now 
filled.
    And so I think, Senator, there was an opportunity. In the 
early days, there was not enough focus on taking advantage of 
the opportunity, but they also inherited a lot of problems and 
a lot of challenges and so they are working their way through 
those still.
    Senator Pryor. Ms. Berrick, do you have a comment?
    Ms. Berrick. Sure. Thank you, Senator. In addition to 
inheriting legacy problems from the different components, just 
by the nature that these are disparate systems among the 
components that are not integrated together is a challenge in 
and of itself because the systems cannot speak to each other, 
and at the Department level, senior leadership does not have 
the ready access to financial information that they otherwise 
would have with an integrated financial management system. So I 
think it is both inheriting some existing problems and also 
just the fact that these are disparate systems that do not work 
well together.
    Senator Pryor. And are they actively trying to address 
those and fix those problems?
    Ms. Berrick. They are trying to do that through the 
development of an integrated financial management system. They 
have had a couple of attempts that have not been successful so 
far, but they are working toward that as their goal.
    Senator Pryor. How much money does it cost to try to 
integrate a financial system?
    Ms. Berrick. About $52 billion has been devoted thus far.
    Senator Pryor. Ms. Lute.
    Ms. Lute. Senator, the only thing I would add is that is 
only one component of this. The Department also have made 
steady progress toward the goal of a clean audit, which is 
anyone's aspiration. We have gone from over 18 reportable 
conditions down to six, and we are on track to make even 
further progress this year and look to do so.
    Senator Pryor. Good. Thank you, Mr. Chairman. That is all I 
have.
    Chairman Lieberman. Thanks, Senator Pryor. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. To our witnesses, 
welcome. It is good to see all of you.
    I had three questions. The first one dealt with a clean 
audit. The second one dealt with a clean audit. And the third 
one dealt with a clean audit. So it sounds like we have mined 
that field pretty well, plowed that field pretty well.
    Let me just ask for the Comptroller General Dodaro, are you 
encouraged by the progress that is being reported by Deputy 
Secretary Lute? Should we be encouraged?
    Mr. Dodaro. Yes. I think, basically, the Department is 
committed to trying to make progress in this area. As Ms. Lute 
mentioned, the number of material weaknesses are coming down, 
but they still have some challenges. Now, they have set some 
aggressive targets, I believe, to getting an opinion on a 
consolidated balance sheet for 2011 and to try to get an 
unqualified opinion or clean opinion by 2014. Those are 
aggressive targets and those will be the benchmarks as to 
whether they are successful or not. But they are focused on it. 
What they really need to continue to focus on is improving 
their underlying systems, and recover from a couple of efforts 
that have not resulted in success.
    Senator Carper. And if they are successful in that, it will 
leave one department as an outlier in this, is that correct?
    Mr. Dodaro. One major department would be the Department of 
Defense.
    Senator Carper. I guess as an aside to our colleagues, I 
had a chance to meet, I think in the early part of August, with 
Secretary Leon Panetta, who indicated that the idea of waiting 
until 2017 to reach that goal of audited financials and then 
maybe hearing from some of those folks that said they were not 
probably going to be able to make that goal. What he said to me 
in our conversation--he may have said the same thing to you--is 
``I would like to beat that goal'' rather than have to slide 
further. Sometimes it is good to have somebody who was the 
former Budget Committee Chairman and OMB Director. I mean, he 
has done it all. But he brings a real commitment to these 
issues which is very much welcome.
    Yesterday, Mr. Dodaro, we had another hearing, as you may 
know--some of your folks were here--and the issue was the path 
forward on the Postal Service and how do we help them get back 
on track. I described the situation as dire but not without 
hope, and I thought we had a very good hearing.
    One of the questions that is before us, and I know it is 
not the subject of this hearing, but I want to ask while you 
are here, there is reason to believe that the Postal Service 
has overpaid its obligation into the Civil Service Retirement 
System to the tune of $50 billion, maybe as much as $75 billion 
over time, and overpaid the amount that they owe to the Federal 
Employee Retirement System by maybe $7 billion or so. We had 
yesterday one of the witnesses from Segal and Company Auditing, 
a very nationally renowned company, along with the Hay Group, 
they have done independent audits to determine what is the 
validity of the overpayment, has there really been an 
overpayment. The IG at the Postal Service alleges, and both 
Segal Company and Hay Group have said, yes, we think there has 
been an overpayment, anywhere from at least $50 billion to as 
much as $75 billion.
    The Administration is not buying that yet, so we had some 
discussion there. The head of OPM was here yesterday to talk 
about that. We asked the witness from GAO if GAO would be 
willing to come in and take a look at the work that has been 
done by the two independent auditors to find out if they are 
valid. We need that kind of direction. If you will, a good 
housekeeping stamp of approval from GAO, I think, would be very 
helpful as we try to move and help the Postal Service to dig 
out of the hole that they are in and return to profitability. 
So if that is something that you all could help us with, we 
would be most grateful.
    Mr. Dodaro. Definitely, Senator. We will be able to do 
that. We have a Chief Actuary at GAO, as well, that will be 
integral to figuring out that status. I understand the tasking 
and the work.
    We will deliver that. And as you know, the Postal Service 
is also on our High-Risk List because of the financial 
condition situation. So we would be happy to do that.
    Senator Carper. Good. Thanks very much.
    Since my first three questions have already been addressed, 
I will turn to the fourth, and that was cyber security, and it 
is an issue that the Chairman, Senator Collins, and I have had 
a whole lot of interest in, and with the help of our staff, I 
think have done some good work. It is hard to get anything 
passed around here, but the Administration, I think, has done 
good work on this front.
    But over the last 10 years, Deputy Secretary Lute, as you 
know, we have witnessed an evolving terrorist threat that has 
required your Department and other agencies to constantly be 
thinking about tomorrow's threat. I like to say as an old Naval 
flight officer, we are pretty good at re-fighting the last war. 
We are not always very good at looking over the horizon and 
preparing to fight the next war. But in my view, the next war 
could very well likely be on the cyber security front. But 
nowhere is this more evident than in the world of cyber 
security, where threats can change almost daily, almost weekly 
without a whole lot of notice.
    GAO has noted much of the good work that your Department 
has undertaken in this area. GAO has also stated that Homeland 
Security needs to better secure Internet connections at Federal 
agencies and more thoroughly share cyber security information 
with the private sector.
    Madam Secretary, I understand that the Department of 
Homeland Security has a program called Einstein that is helping 
Federal agencies detect and prevent cyber intrusion. I would 
ask you, if you will, just to discuss the steps that the 
Department of Homeland Security is taking to integrate programs 
like Einstein across the government and what additional 
authorities, resources, or staffing you need to be more 
effective. My colleagues here know I like to quote Albert 
Einstein from time to time, who once said, among other things, 
``that in adversity lies opportunity.'' We have plenty of 
adversity in the world and there is hopefully some opportunity, 
as well. Maybe this program Einstein can be part of that. But 
would you proceed.
    Ms. Lute. Thanks very much, Senator. There certainly is 
opportunity here. This is an area where I have been spending a 
lot of my time lately, as we have in the Department. We have 
culled it out as one of the five essential missions of Homeland 
Security, which is ensuring our cyber security.
    What we can all agree is that the status quo in cyber 
security is not acceptable. There are intrusions. There are 
threats that we have to address. Cyberspace is an environment 
right now where offense wins and we have to change that. And 
our vision is one of distributed security, where we have smart 
machines and smart users that are supported by intelligent 
networks that identify threats, hopefully before they occur, 
that prevent them, and that cultivate a community and a 
sensibility of cyber hygiene pervasive throughout the United 
States and, indeed, throughout the Internet, because we are so 
interconnected.
    Einstein specifically is a program that we have, as you 
know, which is designed to prevent intrusions. We are 84 
percent deployed in terms of Einstein II capabilities right 
now. But the Federal agencies and offices have a number of 
things that they have to do, as well, to bring their traffic 
behind Einstein to ensure that they are taking advantage of the 
deployment of this technology, and we are working with them. In 
fact, I attended a meeting of the President's Management 
Council that consists of all the department deputies as the 
chief operating officers of the departments and spoke to them 
about what they can do to ensure that their agencies are taking 
the steps necessary to organize their traffic behind the 
Einstein protections.
    But there are other things to do, as well. What is on your 
networks? How is information traveling? Who is using your 
networks? Do they have appropriate levels of access and 
controls? There is a whole pyramid of efforts--that is perhaps 
one way to think of it--on top of which sits Einstein. It is 
only a part of the puzzle necessary to ensure our cyber 
security.
    We are also working very closely with the Department of 
Defense and with industry. And our, again, vision is to have an 
environment of distributed security that utilizes all of the 
assets of this country in protecting ourselves in cyberspace.
    Senator Carper. And if I could, Mr. Chairman, the last part 
of my question was what additional resources or staffing do you 
need, what additional authorities do you need in the Department 
to enable you to be even more effective on this front?
    Ms. Lute. The President's budget that was submitted, 
Senator, reflects specifics in a number of those areas. We can 
address this in a stand-alone, if you would like. We have also 
been working with OMB and there has been a legislative proposal 
sent to the Hill regarding ways to strengthen our ability to 
fulfill our cyber security mission.
    Senator Carper. Well, thanks very much. Thanks, Mr. 
Chairman.
    Chairman Lieberman. Thank you, Senator Carper.
    We will do a second round, up to 7 minutes apiece, and 
thanks for hanging in there with us.
    I wanted to ask you about a particular part of the 
Department that the Committee was anxious in the creation of 
the Department to put in, and that is the science and 
technology section. Our hope had been--a lot of us on this 
Committee happened to be on the Armed Services Committee--that 
we could develop within and for homeland security something 
like DARPA in the Department of Defense. Over the time of the 
Department overall, it has appeared to me that the science and 
technology section has been below what our hopes were. My 
impression is that it is doing better now, and I wonder if 
either of you would like to comment on that.
    Ms. Lute. I think I would say at the outset, Senator, that 
science and technology is a key part of the Department.
    Chairman Lieberman. Right.
    Ms. Lute. Our ability to innovate, to make use of end-to-
end solutions, not just a particular piece of technology, is a 
task that we have given to S&T. It has very able leadership 
with Under Secretary Tara O'Toole, who has integrated into 
every aspect of our mission performance, working directly with 
components to ensure that we have a systems approach and are 
making best use of technology within the context of an overall 
systems solution.
    We also have a very robust cooperation with the other 
departments, notably the Department of Defense, looking to 
learn from them on such things as tunnel technology, unmanned 
sensors, etc., and S&T is critical and important to this and 
remains a priority for us at the leadership of the Department, 
certainly for the Secretary.
    Chairman Lieberman. Comptroller General Dodaro or Ms. 
Berrick, have you had any overview of S&T and what is your 
sense of it now?
    Ms. Berrick. Yes, we do, and I would agree with your 
characterization that the Department has been slower in making 
progress in the S&T area. However, I would also agree with the 
Deputy Secretary that there is a framework in place right now, 
I think, for the Directorate to be successful. They have put in 
place additional policies. They have created additional units 
within S&T to support efforts like test and evaluation 
throughout the Department that I think will strengthen the 
foundation of that Directorate office and enable some 
successes.
    Of the two areas that I would mention related to S&T that I 
think need continued focus, one is resources. For example, when 
we did work looking at the test and evaluation function of S&T, 
we found that they were low in terms of resources and it 
inhibited the outreach that they could perform with the 
components in supporting their testing efforts.
    And I think the second area that requires focus in S&T is 
coordination within the Department. We found that sometimes S&T 
would be pursuing technologies without effectively coordinating 
with the end users of those technologies to make sure that what 
they were developing was meeting needs. And a quick example of 
that is the CAARS program that was being designed to detect 
shielded nuclear material in cargo and vehicles. DHS ultimately 
decided to stop that program after learning that S&T was 
working on developing a system that was not going to fit within 
primary inspection lanes. So I think that is an example of the 
internal coordination.
    Chairman Lieberman. Yes. Another one is the so-called 
virtual fence, is it not? My impression is that there was not 
much interaction with Customs and Border Protection in the 
development of that.
    Ms. Berrick. We did cite that as a concern that CBP's input 
on how it was working operationally and challenges that they 
were facing, were not always fully considered, at least in 
decisions that were made related to the program.
    Chairman Lieberman. I think that is one we all want to keep 
an eye on because it has tremendous potential both to avoid the 
kind of problems that Mr. Dodaro cited in terms of new 
technologies being introduced.
    And the second, of course, is more affirmative, which is, 
as we have seen with DARPA, the ability to leverage Federal 
money with private innovation and entrepreneurship to create 
new technologies that will more effectively protect our 
homeland and also, hopefully, as in DARPA's case, have 
remarkable spin-offs into commercial applications that will 
create a lot of economic activity.
    Let me ask you, Madam Deputy Secretary, about something a 
little different, which is the increasing concern that I know 
the Department and all of us who care about homeland security 
have had in recent years about homegrown terrorism, self-
radicalized people, particularly so-called lone wolves. And I 
know that the Administration, through Homeland Security Advisor 
John Brennan, put out a report recently. Senator Collins and I, 
frankly, were overall--forgive me if I am overstating it--
disappointed by the report. We have our continuing concern 
about the reluctance, refusal of the Administration to use the 
term ``violent Islamist extremism,'' or something like that, as 
opposed to ``violent extremism.'' But I want to focus on a 
different aspect of it.
    We also did not see in the report a clear allocation or 
designation of authority. In other words, who is in charge? And 
a lot of different departments should be involved in 
interacting affirmatively with the Muslim American community to 
gain their assistance in education and noticing the potential 
lone wolf behavior, coordinating a lot of the law enforcement 
education, etc. I know the National Counterterrorism Center, 
interestingly, has been doing some of that. I cannot say, since 
that originated in this Committee, too, that we had that kind 
of function in mind.
    The White House, I suppose, has a natural overview which 
might suggest that it should oversee the response or the 
prevention of homegrown terrorism, but it has so much that is 
in the White House now, I wonder whether this is not something 
that DHS should begin to play a more active role in and I just 
wanted to give you an opportunity, as now we look back at this 
decade but forward to the next decade and seeing homegrown 
terrorism rising as a threat, what you think about DHS's record 
here and what it might do in the years ahead.
    Ms. Lute. Thank you, Mr. Chairman. We certainly have been 
playing a very active role. The President's policy that was 
announced emphasizes three things. First, we need to understand 
more about what generates this threat and how it promulgates 
within communities.
    Second, we need to engage communities more, break down 
barriers that isolate them and engage and understand them, 
create pathways of dialogue and understanding and outreach.
    And third, and equally as important if not more so, is 
strengthen the hand of law enforcement to be able to stop 
violent extremism in its tracks. Law enforcement prevent crimes 
all the time quite effectively and we need to equip them with 
the information and the tools that they need to address this 
nature of crime, as well.
    And so the Department works very closely with the 
Department of Justice, FBI, NCTC, the White House, and other 
agencies. We meet regularly on this. We meet as a small group. 
I meet with my counterparts on exactly this question, about how 
in each of these areas, in terms of understanding the threat, 
sharing information, breaking down barriers that isolate 
communities, and strengthening the hand of law enforcement, 
what we are doing every day to address this trend.
    Chairman Lieberman. To me, those are the right goals. So 
who would you say is in charge now of that effort on behalf of 
the Federal Government?
    Ms. Lute. Certainly under the leadership of the President 
and the White House, this is coming together, but the work is 
distributed, as so much of the work is in homeland security.
    Chairman Lieberman. No, that I understand, but again, there 
has to be somebody who is in charge to keep driving it. So 
would you say it is in the National Security Council?
    Ms. Lute. I would say that it is. It is a working system. 
Again, I meet with my counterparts in the Department of 
Justice, the FBI, and NCTC regularly on this subject and there 
is an enormous amount of work going on in each of those 
strains.
    Chairman Lieberman. We will come back to that. I thank you. 
Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I just want to reemphasize what the Chairman just said. The 
strategy produced by the White House does not clearly assign 
the responsibility to an individual who we can hold 
accountable, whose progress we can measure. And I still do not 
hear that from you. You keep talking about, well, we work 
together. There are all these agencies involved. That is not 
adequate. We need to have a leader of this effort and I hope 
you will relay that we are continuing to push on that, as well.
    I want to switch to some other issues in my remaining time. 
The recent hurricanes and natural disasters in this country 
have reminded us of the importance of ensuring that people are 
notified as quickly as possible when a natural disaster is 
looming. Early warning can make a huge difference in saving 
lives and property and that is why I have been working hard on 
a bill that would strengthen the Nation's public alert and 
warning system.
    I would like to ask your assessment, and GAO may have 
something to add on this, as well, as far as where are we in 
using smart technology so that we are not just relying on the 
crawl on a television screen, the emergency alert that comes 
across, since many people are not going to have televisions on, 
but instead we are using phones, we are using social networking 
sites, and we are using tools that are more likely to reach 
more people. Deputy Secretary Lute first.
    Ms. Lute. Thank you, Senator. The public alert and warning 
system now currently reaches about 78 percent of the 
population. We have a number of initiatives in play 
particularly aimed at making progress this year, rolling out 
the Commercial Mobile Alert System, for example, in New York 
and Washington, DC, and having the first ever national-level 
test of the Emergency Alert System, as well. So we are 
absolutely committed to making use of modern technology, social 
media, to give people accurate and timely information, because 
we know that in a crisis particularly, information is a 
commodity and it is essential to having informed individuals 
and capable communities.
    Senator Collins. Does GAO have anything to add to that?
    Mr. Dodaro. We have not looked at this issue, Senator 
Collins. It is certainly an important issue and I know we are 
dealing with it ourselves and communicating our own results of 
our reports, and so it is very important in emergencies. So we 
would be happy to take a look at this in the future.
    Senator Collins. Thank you. Deputy Secretary Lute, I want 
to talk to you about an issue that is related to the homegrown 
terrorism threat and that is the insider threat. Certainly, the 
Major Nidal Malik Hasan case was an example of the insider 
threat. In a report that was released by GAO earlier this year, 
GAO took a look at the Transportation Worker Identification 
Credential program that is used for access to our seaports, and 
its findings were disturbing in terms of protecting us from the 
insider threat.
    First, GAO found that TSA's background checking process is 
not even designed to detect fraud. In other words, GAO found 
that it would be easier to obtain a TWIC card with fraudulent 
documents than a driver's license. That is very disturbing.
    Second, GAO criticized the process as not providing an 
ongoing check. In other words, once a worker receives a TWIC 
card, he or she has that TWIC card for an indefinite time, even 
if there is subsequent information or a conviction or something 
that would cause the TWIC card to be revoked, one would hope.
    What steps has DHS taken to remedy these critical flaws in 
the TWIC program?
    Ms. Lute. Senator, we share the concern about the insider 
threat and know that it is one that we have to stay constantly 
vigilant, and this involves not only those of us in the Federal 
Government, but also, for example, in our critical 
infrastructure having programs in place in the private sector 
so that we know who is working in these facilities and that 
they are trustworthy for the responsibilities that they have 
been given. TWIC now covers about two million workers and we 
have run a number of pilots to ensure that we can strengthen 
the system with respect to not only the technology, but the 
reliability of the system end to end.
    In this regard, the ongoing checks is something that we are 
looking at department-wide, because, as we have learned, for 
example, in the case of Abdulmutallab, the 12/25 bombing 
attempt, that we have to have an ongoing check of visa holders, 
for example, and of other credential holders. And I chair an 
interdepartmental examination of a common vetting platform to 
bring together all of our vetting capabilities and, again, to 
deploy them in real time to give accurate, full checks, and 
also working with the agencies to ensure that we have the 
requirements fully in hand to prevent fraud and other abuses.
    Senator Collins. In that regard, that reminds me of the 
Bowling Green, Kentucky, case where two suspects have been 
arrested, one of whom's fingerprints allegedly were in a 
database that should have been checked before the individual 
was granted asylum and admitted to this country. The Chairman 
and I have written you a letter with a number of detailed 
questions since the information that was provided at the 
hearing where we explored this issue proved to be inaccurate. 
When do you anticipate that the Department will complete its 
review of how in the world this could have happened, that an 
individual whose fingerprints were on IEDs used to attack our 
soldiers in Iraq was granted asylum and allowed to be a 
resident of this country?
    Ms. Lute. We expect that shortly, Senator. But importantly, 
we have taken a number of steps to ensure that cannot happen 
again. We have expanded our engagement of databases, working 
also closely with DOD to take advantage of the databases of 
individuals that they hold. And again, this is part of our 
common vetting examination to strengthen the system overall.
    Senator Collins. Finally, I want to ask you about the 
Department's progress in dealing with chemical, biological, 
radiological, and nuclear threats. This is an issue that we 
have held several hearings on in the past, that GAO has also 
examined. And what GAO found echoed the conclusions of our 
investigations and that is that there was poor cooperation 
between DHS and the Department of Health and Human Services in 
assessing the CBRN risk. In particular, it is of great concern 
that, under the BioWatch program, a threat agent may not be 
identified until more than a day after its release. What is 
being done to improve coordination between DHS and HHS in this 
area, and also when do you anticipate that the next generation, 
a more sensitive BioWatch system, will be deployed?
    Ms. Lute. Thank you, Senator. Again, here, we think that we 
make progress continually with the other agencies in this 
regard. NBIC, for example, does effectively integrate the 
information for early warning and response on possible attacks 
or pandemics in the biosphere, as well.
    As you know, the work that we have done, for example, on 
the global nuclear detection architecture is generating work on 
an implementation plan to further develop our cooperation with 
other agencies in identifying threats to the homeland and 
responsibilities for early action to defeat those threats.
    So specifically to answer your question, this is a priority 
for the Department, one that we are making continual progress 
toward, and we believe that it will substantially reduce the 
response time inherent in the detection of a dangerous pathogen 
and alerting appropriate responses.
    Senator Collins. But when? What is the time table?
    Ms. Lute. I can get back with you, Senator, on the 
specifics of that, but this is a program that we have in place 
and it is a priority for the Department.
    Senator Collins. If the Chairman would indulge me----
    Chairman Lieberman. Go ahead.
    Senator Collins [continuing]. Just one final question on 
the Kentucky case, which really deserves it. Can you assure us 
today that the Department has reviewed the files of every Iraqi 
national who was admitted under that program to ensure that 
there was proper vetting, including matching fingerprints with 
databases in possession of the Department of Defense?
    Ms. Lute. It is my understanding that every person admitted 
under the program has been vetted, Senator. I will confirm that 
it complies with the question as you have asked it.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    I just want to ask one more brief question. It is about the 
St. Elizabeths campus project. The last time I looked at the 
statistics, the Department, and we talked about its management 
and coordination, was spread through 70 buildings and 40 sites 
in the National Capital Region, and, of course, that is what 
motivated the plan to coordinate and collect as many of those 
as we could on the St. Elizabeths campus. If I am not mistaken, 
the next step would be to bring the 10 operations centers of 
the Department together there.
    So we are in tough budgetary times. The President delayed 
some of the projects in his budget. The Senate Appropriations 
Homeland Security Subommittee, I think, has appropriated a 
third of what the President asked for and the House has cut all 
the money out for St. Elizabeths. How bad will that be for the 
improved management of the Department? I would ask you, Deputy 
Secretary Lute.
    And then I do not know whether you have done this or it is 
even possible, but Mr. Dodaro or Ms. Berrick, is it possible to 
make a judgment about the cost effectiveness of not building--I 
do not know whether it is possible to evaluate what costs the 
Department being spread out adds to its budget, but go ahead, 
Deputy Secretary Lute.
    Ms. Lute. Senator, as you know, we believe it is important 
and there is a wisdom in consolidating the Department to reduce 
the transaction time in engagements, but also to facilitate 
coordination, dialogue, information sharing, as well. We remain 
committed to that view that this is an important step in the 
development and evolution of the Department.
    Chairman Lieberman. Anything to add, Mr. Dodaro?
    Mr. Dodaro. Well, there certainly would be challenges in 
trying to come up with the exact quantification that you are 
calling for.
    Chairman Lieberman. Yes, I understand.
    Mr. Dodaro. One of the things that we could do is look at 
the Department's business case for the consolidation and offer 
our thoughts on that.
    Chairman Lieberman. I would welcome that, if you could.
    Mr. Dodaro. Sure.
    Chairman Lieberman. Thank you. Thanks to the three of you 
for being here.
    Overall, obviously, we have certain almost parental or 
possessive interest in this Department because we were 
privileged to be there to help in its creation, so we would 
like to think it has helped. I do think both the record and the 
independent evaluations over the years and the summary that you 
have offered here as we approach the 10th commemoration of 9/11 
says that the Department of Homeland Security has made a 
difference. And again, it is not an accident that we have not 
had a major attack on us succeed. Do we have more work to do? 
Of course, we do.
    I would also say, and one of you mentioned this, that a 
different kind of country after 9/11 would have become much 
more like a police state. I suppose there are people who feel 
that at different times, somebody's civil liberties were 
compromised. I think, overall, really, our record is 
remarkable. I say that also that in a country as big, open, and 
free as we are--and we want to remain always as open and free 
as we are--we are never going to achieve 100 percent security.
    But we have come a lot more toward that goal, and we should 
always aspire to the goal, than we were on 9/11, and it is 
thanks to the leadership of the Department over these two 
Administrations and the literally hundreds of thousands of men 
and women who have worked for the Department, working with 
colleagues in other departments, the Department of Defense, 
intelligence, NCTC, etc. So it is in a spirit of gratitude and 
confidence that both GAO and this Committee will continue to 
push you to get as close to 100 percent secure as we possibly 
can.
    Senator Collins, do you want to add anything?
    Senator Collins. No, thank you.
    Chairman Lieberman. Thanks very much. We will keep the 
record open for 15 days for any additional questions and 
answers. Again, thank you.
    The hearing is adjourned.
    [Whereupon, at 11:41 a.m., the Committee was adjourned.]


                  TEN YEARS AFTER 9/11: ARE WE SAFER?

                              ----------                              


                      TUESDAY, SEPTEMBER 13, 2011

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Levin, Akaka, Carper, Pryor, 
Collins, Brown, McCain, Johnson, Paul, and Moran.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order.
    Good morning and welcome to our distinguished panel of 
witnesses: Secretary Napolitano, Director Mueller, and the new 
Director of the National Counterterrorism Center, Matthew 
Olsen.
    This past weekend in ceremonies and vigils across the 
Nation, we stopped to remember the nearly 3,000 people who were 
killed 10 years ago in the attacks of September 11, 2001, and 
to appreciate the acts of heroism and service by countless 
Americans on that day and every day since to protect our 
homeland and defeat the violent Islamist extremists who 
attacked us on 9/11 and drew us into the war that we are in.
    The ninth anniversary of 9/11 last year did not get, 
obviously, the same degree of attention and neither will the 
11th anniversary next year, and in some sense, that is why we 
are here this morning. This annual status of the threat against 
our homeland hearing with the heads of these three critically 
important agencies has become a tradition of our Committee. 
Senator Collins and I wanted very much to hold it after 9/11 to 
look back a little bit but really to look forward and to make 
the point that our work in protecting the homeland goes on.
    Even though we had fresh warnings that alerted us over the 
past few days, over this weekend of commemoration, of a 
specific, credible, although unconfirmed, terrorist plot 
against the United States, there is already evidence that in a 
quite natural reaction, the American people are beginning to 
forget how real the threat of Islamist extremism continues to 
be.
    There was a Gallup Poll taken last year that showed 
terrorism ranked at the bottom of six voter concerns--
understandably probably because of the intensity of the 
economic concerns that we have today--behind the economy, jobs, 
government corruption, Federal spending, and health care.
    And in a very different way last week, a study was 
published by the Cato Institute calling for the abolition of 
the Department of Homeland Security, which essentially would 
return us to where we were pre-9/11.
    In some ways, I think we may be the victims of the success 
that has been achieved in protecting the homeland since there 
has obviously not been another mass casualty terrorist attack 
on American soil since 9/11--something, a reality, nobody would 
have predicted on that day.
    Some have taken this lack of another large-scale attack as 
further evidence, to them anyway, that the U.S. Government 
exaggerated the danger posed by Islamist extremism and 
overreacted in the wake of 9/11. I believe this is a profoundly 
mistaken and ultimately irresponsible conclusion. We have 
weakened our enemies, and we have protected our homeland, but 
our enemies are not vanquished, and that is why our vigilance 
must be constant and not limited to the understandable public 
attention given to a particular anniversary.
    As the Senate Committee on Homeland Security and 
Governmental Affairs, it is our responsibility to make sure our 
national focus is not distracted from the threat.
    For our witnesses and the tens of thousands of people who 
work with them, it is their constant responsibility 24-7, 365 
days a year, to protect our homeland. So we welcome them to 
this annual threat hearing and thank them for the service and 
for all that their respective agencies have had to do with the 
fact that we have not had another major terrorist attack 
against our homeland in the past 10 years.
    But the violent Islamist extremist ideology that motivated 
the attacks of 9/11 remains a potent force, though weakened 
throughout the world, and increasingly, of course, seems to 
have an effect in the radicalization of homegrown terrorists, 
including lone wolves.
    Today, we have asked our three witnesses to help us answer 
at least three big questions. One is to take a quick look back, 
to the extent they want, at what the U.S. Government and their 
agencies have done since 9/11. Two, of course, the focus of 
this hearing is to discuss the current threat, the status of 
the threat of Islamist terrorism to our homeland. And then the 
third is to discuss what our government currently is doing to 
counter that threat.
    So for me, the question today is not are we safer than we 
were on 9/11. I think it is self-evidently clear that we are 
safer. The question is what are we doing and what should we be 
doing to make sure that this safety continues to be what it is 
and be greater in the face of the threat that we continue to 
face.
    The 10-year anniversary of 9/11 has passed. The media and 
public attention will naturally fade. But this Congress and 
future Congresses, and this Administration and future 
Administrations, must stay focused on the threat and its ever-
evolving tactics until the ideology is truly vanquished and 
gone.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    The State of Maine became forever linked to the attacks of 
September 11, 2001, when two of the hijackers, including the 
ring leader, Mohamed Atta, boarded an early morning flight to 
Boston at the Portland International Jetport. From Logan 
Airport, they set in motion the worst terrorist attack in our 
Nation's history by seizing control of American Airlines Flight 
11.
    That evening, Members of Congress gathered together on the 
steps of the Capitol to express unity. A day that had begun in 
shock and anger ended with unity and resolve. We resolved to 
ensure that our country had the tools to detect and deter 
future plots as well as to identify those who would do us harm.
    When Chairman Lieberman and I authored the Intelligence 
Reform and Terrorism Prevention Act of 2004, our goal was to 
create a strong leader to coordinate the 17 separate agencies 
of the intelligence community and to change their culture from 
``need to know'' to ``need to share'' so that next time the 
dots would be connected in time to stop an attack.
    The operation that killed Osama bin Laden represented the 
kind of successful collaboration of intelligence and operations 
that we envisioned. Information is now being shared more 
effectively, both across the Federal Government and among 
Federal agencies and their State, local, and tribal partners.
    Just last week, DHS and the FBI announced a ``specific, 
credible but unconfirmed threat'' related to the 9/11 
anniversary. The Administration is taking this threat 
seriously, and appropriately so. It has shared information and 
intelligence with State and local law enforcement officials in 
the targeted locations and with others across the country.
    Thankfully, there was not an incident over the weekend, but 
we must consider whether this particular threat has truly 
passed or whether the terrorists have just gone to ground. We 
must evaluate for how long should we remain on heightened 
alert.
    This threat demonstrates yet again that the terrorists have 
not abandoned their quest to harm our country and our people. 
They continue to probe for vulnerabilities.
    Much has changed in the past decade. We have vastly 
improved the sharing of information across agencies at the 
Federal level and with State and local emergency and law 
enforcement professionals. America's chemical facilities and 
seaports were especially vulnerable a decade ago, and we took 
important steps to safeguard them. In the case of last week's 
terrorist threat, the decision to publicize the threat put 
millions of eyes and ears on the lookout for suspicious 
behavior on the eve of the September 11 commemoration.
    Senator Lieberman and I continue to work to expand our 
``See Something, Say Something'' law. The legislation that we 
have introduced would provide further protection against 
lawsuits for citizens who report suspicious activity indicating 
potential terrorist threats.
    When it comes to our homeland security, however, we truly 
are only as strong as our weakest link. As we saw in 2009 with 
the Christmas Day bomber and Major Hasan's attack later on Fort 
Hood, when information is not shared and when warning signals 
are ignored or overlooked, our security is placed at risk.
    The TSA has strengthened airline passenger screening. 
Nevertheless, a young man was recently able to fly cross-
country without a valid government-issued ID and with an 
expired boarding pass that did not even bear his name.
    Similarly, the Department of Homeland Security has 
bolstered the security of America's borders and identification 
documents, yet two Iraqi refugees with ties to al-Qaeda were 
arrested in Kentucky for allegedly helping to carry out attacks 
against our troops. How a known bombmaker, whose fingerprints 
we have had for years, was able to enter our country on 
humanitarian grounds remains an unanswered and troubling 
question. It appears, however, that this case may reflect the 
kind of lack of imagination that the 9/11 Commission found to 
be a persistent failure. While the FBI's analysis of IEDs 
collected in Iraq and Afghanistan has undoubtedly helped U.S. 
warfighters, the forensic information being collected from 
these devices should also be used to screen those trying to 
enter our country, and we must ensure that the FBI has the 
resources necessary to do that job.
    We must ask this question: Are there other Iraqi nationals 
granted asylum who were involved in attacking our troops? I 
know that the Administration is reviewing the files of more 
than 51,000 Iraqis admitted under this refugee program, but it 
is deeply troubling that we are still awaiting clear answers 
from the Administration.
    Homegrown terrorism is another challenge and evolving 
threat. This Committee first sounded the alarm about home-based 
terrorism 5 years ago and has held more than a dozen hearings 
on this topic.
    Over the past 2 years, 31 arrests have been made in 
homegrown plots by American citizens or legal permanent 
residents--an enormous increase compared to the previous 7 
years dating back to 2001. Yet, the Administration's strategy 
for countering violent Islamist extremism is insufficient to 
meet the threat.
    We shall never forget those whom we lost on September 11, 
2001. As has been noted often, the terrorists only have to get 
it right once. We have to be right every time or suffer the 
consequences of an attack. We are surely much safer than we 
were a decade ago, but we must be relentless in anticipating 
the changing tactics of terrorists. As the successful decade-
long search for Osama bin Laden proved, America's resolve is 
our most powerful weapon against those who seek to destroy our 
way of life.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    Secretary Napolitano is our first witness on the panel. 
Before she testifies, last Friday morning, the Department of 
Homeland Security held a departmental commemoration of 9/11, 
and I was able to attend on the plaza outside the Reagan 
Building here in downtown Washington. And the Department showed 
a video that had been made by people within the Department 
about its history, particularly on that day. I thought it was 
very impressive--for me, moving--and I asked the Secretary if 
she would bring it today.
    So I am sorry not everybody in the room can see. Maybe you 
can see that screen over there. But at this point, whoever is 
in charge of the machine, please turn on the video. It is only 
about 2 or 3 minutes long.
    [Video played.]
    Chairman Lieberman. I thought that was great. I hope my 
colleagues on the Committee agree. Really, it is such a 
powerful statement of unity. I thought it was wonderful to 
include Secretaries Ridge and Chertoff in it, and all the 
component division heads. There was a real sense of unity and 
resolve. So I appreciate it very much.
    And with that, please proceed, Secretary Napolitano, with 
your testimony.

   TESTIMONY OF HON. JANET A. NAPOLITANO,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Napolitano. Thank you, Chairman Lieberman, 
Senator Collins, and Members of the Committee. I appreciate the 
opportunity to testify today on the Department of Homeland 
Security's efforts to keep our Nation safe against ever-
evolving threats.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Napolitano appears in the 
Appendix on page 918.
---------------------------------------------------------------------------
    This weekend, our Nation observed the 10th anniversary of 
9/11 and honored the nearly 3,000 innocent victims as well as 
their friends, their colleagues, and their families. We saluted 
the many first responders and law enforcement officials who 
responded with such courage and conviction on that tragic day 
and in the days that followed.
    While these past few days remind us that we must remain 
vigilant and prepared as threats against our country remain, 
the recent anniversary of 9/11 is also a time to consider the 
progress that we have made. As Chairman Lieberman noted, 
America is a stronger and more secure Nation today. We bounced 
back from the worst attack on our soil and have made progress 
on every front to better protect ourselves. We have used our 
experience to become more resilient, not only to terrorist 
attacks but to threats and disasters of all kinds.
    Following 9/11, the Federal Government, including many 
Members on this Committee, especially Senators Lieberman and 
Collins, moved quickly to develop a security framework to 
protect the country from large-scale attacks directed from 
abroad while enhancing Federal, State, local, and tribal 
capabilities to prepare for, respond to, and recover from 
attacks and disasters here at home.
    A key element of this new security framework included the 
creation of the Department of Homeland Security, and over the 
past 10 years, DHS and its many partners across the Federal 
Government, across public and private sectors, have 
strengthened the homeland security enterprise to better 
mitigate and defend against ever-present and ever-evolving 
threats.
    Perhaps the best way to illustrate the progress we have 
made is to apply today's security architecture to what existed 
when the terrorist attacks of 9/11 occurred.
    The 9/11 plot, like many terrorist plots, began overseas, 
which means our security layers must begin there as well. With 
respect to intelligence, planning for 9/11 began several years 
before the actual attacks. Osama Bin Laden summoned operatives 
to Afghanistan to discuss using commercial aircraft as weapons. 
Since then, we have strengthened the depth and breadth of our 
intelligence enterprise to get the best information possible 
wherever the operational planning may occur.
    With respect to visa security, all of the 9/11 hijackers 
applied for visas overseas. Today, the DHS Visa Security 
Program deploys trained special agents to high-risk posts 
around the world to conduct targeted in-depth reviews of visa 
applicants before they reach the United States. We have 
additional layers of security in place through the Department 
of State's visa checks and pre-departure screening measures. 
And not only has DHS now reviewed a historic backlog of 
overstay leads for national security and public safety 
concerns, but this process has helped put an enhanced 
biographic exit system on the fast track.
    With respect to international information sharing, the 
hijackers began preparing for the attack while living abroad. 
Today, 18 countries have joined the United States in agreeing 
to share information about potential terrorists and criminals 
through a series of Preventing and Combating Serious Crime 
Agreements, and more are underway.
    After 9/11, the Federal Government discovered that 
information existed about the hijackers well before and after 
they came to the United States, but this information had not 
been coordinated, shared, and analyzed. Since 9/11, the Federal 
Government, along with its State, local, tribal, and private-
sector partners, has made significant improvements to enhance 
information sharing and analysis.
    With respect to targeting, the Federal Government, and DHS 
in particular, has become more effective at analyzing travel-
related data to better understand and anticipate the travel 
patterns of known or suspected terrorists. This analysis has 
been essential in identifying, targeting, and interdicting 
known and suspected terrorists, and prompting additional 
screening, before these individuals travel to the United 
States.
    We have established 72 fusion centers, which serve as focal 
points for the receipt, analysis, gathering, and sharing of 
threat-related information among the Federal, State, local, 
tribal, territorial, and private-sector partners. Today, the 
intelligence community is able to identify the common threads 
that can tie a seemingly minor crime to the larger threat 
picture, and all but a few of the fusion centers are now 
connected to the HSDN, which is a secret level, real-time data 
system sharing data across our country.
    Once the 9/11 hijackers made it to the United States, they 
still required access to aircraft. With respect to flight 
schools, prior to 9/11, the hijackers enrolled in flight 
schools and conducted cross-country surveillance flights. 
Today, the TSA screens all foreign students seeking flight 
training against terrorist, criminal history, and immigration 
databases.
    With respect to passenger screening, 10 years ago, the 9/11 
hijackers were able to purchase tickets and board planes 
carrying weapons. Today, through the Secure Flight Program, DHS 
prescreens 100 percent of the 14 million passengers flying 
weekly to, from, and within the United States against 
government watch lists.
    And Senator Collins, I think I can elaborate, that would 
have, if it had been deployed, prevented the situation you 
referred to with the boarding pass.
    Moreover, Transportation Security Officers at more than 450 
airports now screen all checked and carry-on baggage for 
explosives, weapons, and other threats using cutting-edge 
technologies.
    And with respect to behavior detection, even though some of 
the 9/11 hijackers were randomly selected for additional 
screening and aroused the suspicion of gate agents, they still 
made it onto a plane. TSA's Behavior Detection Officers today 
work to identify potentially high-risk passengers who exhibit 
behaviors that indicate they may be a threat to aviation 
security and refer them for additional screening.
    The last line of defense against threats to aviation 
security is on the plane itself. With respect to airplane 
security, today, all commercial aircraft have hardened cockpit 
doors and Federal Air Marshals are deployed across the aviation 
system based on risk.
    And with respect to emergency communications, limitations 
in communication and interoperability among air traffic control 
operators, military personnel, and first responders hindered 
the response on 9/11. Our Nation has since made significant 
investments in training and technical assistance to improve 
emergency communication capabilities.
    Each of these layers combined creates a stronger security 
architecture that did not exist on 9/11 and that has helped 
keep our Nation, our transportation system, and the American 
people safe over the past 10 years.
    We would not be where we are today without the direct 
involvement and support of the Congress and particularly this 
Committee. I want to thank you for your support, your guidance, 
and your continued oversight.
    We continue to engage the broader homeland security 
enterprise in our Nation's protection. We have made great 
progress, but more remains to be done. Thank you.
    Chairman Lieberman. Thank you, Secretary Napolitano. That 
was an excellent statement. I particularly appreciate the pre-
9/11 comparison to today because it documents in a very 
tangible way the progress we have made and it backs up a 
conclusion that I have come to over the years, and it is a 
painful one, which is that 9/11/01 could have been prevented 
and should have been prevented and that if it was tried today, 
it would be prevented, and that is a very important thing to be 
able to say.
    Director Mueller, thanks for being here. Talk about change, 
though as compared to the Department of Homeland Security, 
which did not exist on 9/11, the FBI obviously is a venerable 
American institution, but it has gone through a dramatic 
transformation in the last 10 years under your leadership to 
become our domestic counterterrorism agency and really a first-
rate one at that, and I appreciate it. Also, we thank you for 
agreeing to stay on for 2 more years. I suppose I should also 
thank your saintly wife for allowing you to stay on.
    Mr. Mueller. Most appropriate, yes. Thank you.
    Chairman Lieberman. So please proceed with your testimony.

 TESTIMONY OF HON. ROBERT S. MUELLER III,\1\ DIRECTOR, FEDERAL 
      BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Mueller. Thank you, sir, and good morning, Mr. 
Chairman, Senator Collins, and Members of the Committee. I 
thank you for the opportunity to appear here today before you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mueller appears in the Appendix 
on page 943.
---------------------------------------------------------------------------
    As has been pointed out, since September 11, the threat 
from terrorism has evolved in ways that present new challenges 
for the FBI and our partners. Today, the threat environment is 
far more complex and diverse than ever before.
    And in response, the FBI has undergone unprecedented 
transformation over the past 10 years, as you pointed out, Mr. 
Chairman. We have developed new intelligence capabilities 
necessary to address terrorist and criminal threats. We have 
created the administrative and technological structure to meet 
our mission as a national security agency. And we have made 
these changes while continuing to safeguard American civil 
liberties.
    Let me begin by focusing on the most serious threats we 
face and then discuss how the FBI has changed since September 
11 to counter these threats.
    Al-Qaeda in the Arabian Peninsula and its leader, Anwar al-
Awlaki, have shown a commitment not only to attack the United 
States but also to inspire acts of terrorism from overseas. For 
the past 2 years, AQAP has undertaken a task directly targeting 
the homeland. We saw this with a failed attempt to send package 
bombs to the United States on cargo planes and in the attempted 
bombing on Christmas Day the year before. And in online media, 
al-Awlaki and other AQAP leaders have reaffirmed their 
commitment to this type of attack.
    They also continue to emphasize lone actor operations in 
the West and have sought to radicalize individuals over the 
Internet to carry out attacks here and in Europe. And despite 
the recent counterterrorism successes abroad, and there have 
been many, core al-Qaeda also remains committed to high profile 
attacks directed at the West. We saw this with the 2009 plot by 
Najibullah Zazi, a plot to attack the New York subway, and we 
confirmed this from the materials seized from the raid on Osama 
bin Laden's compound last spring.
    And as you know, we continue to track the current threat 
streams from al-Qaeda, threat streams that became public last 
week.
    Other groups in the Fatah region of Pakistan, such as TTP, 
have similarly shown an intent to target the United States. We 
saw this when TTP claimed responsibility for the Times Square 
attempted bombing.
    And we remain concerned that all these groups encourage 
radicalized Westerners, particularly U.S. citizens, to travel 
to the Fatah and East Africa for training with the potential to 
return to the United States to conduct attacks, and of course, 
the threat from homegrown violent extremists is among our most 
serious terrorism threats today.
    Individuals may be radicalized over the Internet even if 
they do not receive direct guidance or training from a 
terrorist group. These individuals may have diverse backgrounds 
and life experiences as well as differing motives. 
Increasingly, they may be acting alone, and for these reasons, 
homegrown violent extremists are harder to detect and to 
disrupt. And the FBI, along with our partners--NCTC, the 
Department of Homeland Security and the other law enforcement 
and intelligence communities--are focused on these threats more 
than perhaps 8 to 10 years ago.
    And of course, the FBI remains concerned about the domestic 
terrorist threat as well. Economic and political issues could 
motivate white supremacists or militia extremists to violence. 
As you know, domestic terrorists can often operate as lone 
offenders or in small cells, which are difficult to detect.
    Overall, the threat environment has evolved significantly 
since September 11 and is more complex and diverse than ever 
before, and this requires the Bureau and our partners to change 
and adapt constantly to address these threats.
    As you pointed out, Mr. Chairman, the FBI has undergone 
unprecedented change in the years since September 11. Today, 
the FBI is a stronger organization as a result, and we continue 
to focus on national security threats as our highest priority.
    After September 11, the Bureau shifted 2,000 agents from 
criminal investigations to national security matters. Over the 
years that followed, we centralized management of 
counterterrorism and intelligence operations at headquarters to 
avoid the stovepiping of information.
    Structurally, we created the National Security Branch in 
2005 to consolidate and integrate the Bureau's overall national 
security mission and gave senior executives the authority to 
accelerate the integration of intelligence into our national 
security operations.
    We established the Directorate of Intelligence at 
headquarters to manage our intelligence programs nationwide. We 
created Field Intelligence Groups in each of our field offices 
to prioritize intelligence collection in each of those field 
offices, and we hired and trained thousands of new intelligence 
analysts and agents to enhance our intelligence capabilities.
    Following September 11, the FBI greatly increased the 
number of Joint Terrorism Task Forces operating around the 
Nation. We now have more than 100 of those task forces. These 
task forces bring together the expertise from our Federal, 
State, and local partners, and this cooperative effort has led 
to numerous successes in disrupting terrorist plots and threats 
since September 11.
    After September 11, the FBI also recognized the need to 
recruit, hire, and train the intelligence analyst cadre 
necessary to meet the requirements of our national security 
mission. In 2001, the Bureau had approximately 1,000 
intelligence analysts and fewer than 30 supervisory analysts. 
Today, the Bureau has tripled the number of intelligence 
analysts to more than 3,000, and we have more than 270 
supervisory analysts.
    Let me, as an aside, also emphasize the FBI's role in 
countering cyber attacks--one of the most significant and 
complex threats facing the Nation. With our intelligence and 
law enforcement capabilities, the Bureau is positioned to 
investigate and disrupt cyber intrusions, and our need to 
counter cyber attacks cuts across all of our programs, 
including counterterrorism, counterintelligence, and the 
criminal programs.
    Beginning in 2007, we worked with our partners to establish 
the National Cyber Investigative Joint Task Force, which now 
includes 20 Federal and intelligence community agencies. 
Through these partnerships, the Bureau has identified, 
investigated, and prosecuted an unprecedented number of 
intrusion cases, and these intrusions have impacted our 
military, other government agencies, the financial and 
telecommunications sectors, and other critical infrastructure. 
Addressing this cyber threat will be among the FBI's highest 
priorities now and in the years to come.
    Let me conclude by thanking the Committee for your 
continued support of the men and women of the FBI and support 
for our mission as it has evolved. This has been essential to 
our transformation and our ability to meet today's diverse 
threats.
    Again, as the Secretary said, I would be happy to answer 
any questions that you might have.
    Chairman Lieberman. Thank you very much, Director Mueller. 
We look forward to the question period with you.
    Matthew Olsen, welcome. Obviously, the National 
Counterterrorism Center is also one of the most significant new 
entities created in our government, to put it simplistically, 
to make sure the dots are connected, but obviously, it does 
much more than that. This is your first appearance before us 
since your confirmation, and we welcome you.

   TESTIMONY OF HON. MATTHEW G. OLSEN,\1\ DIRECTOR, NATIONAL 
  COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Olsen. Thank you very much, sir. Chairman Lieberman, 
Senator Collins, and Members of the Committee, good morning. As 
I begin, let me thank you for taking the time to meet with me 
during my confirmation. I appreciate your counsel and support. 
I am honored that my first hearing as the Director of the 
National Counterterrorism Center is before the Committee that 
authored the legislation creating NCTC.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Olsen appears in the Appendix on 
page 955.
---------------------------------------------------------------------------
    I welcome this opportunity to discuss the evolution of the 
terrorist threat and our collective efforts to address that 
threat. I am also very pleased to be joining Secretary 
Napolitano and Director Mueller this morning, and it is 
appropriate that we continue to reflect on the day that our 
Nation suffered the worst terrorist attack in our history.
    After a few weeks as the Director of NCTC, I can report 
that the Center is a national asset. It is comprised of 
dedicated and talented intelligence professionals representing 
a wide array of perspectives and experiences.
    I am also proud to lead the Center, continuing the work of 
others--Andrew Liepman, Mike Leiter, Scott Redd, and John 
Brennan--and my testimony today reflects the thoughtful and 
rigorous analysis of the expert workforce at NCTC.
    Today's hearing asks the question, ``Ten years after 9/11: 
Are we safer?'' Chairman Lieberman, as you said, the bottom 
line is we are safer than we were 10 years ago, but al-Qaeda 
and its allies and its affiliates continue to pose a 
significant threat.
    Thanks to the skill and the hard work of thousands of men 
and women in the intelligence, homeland security, diplomatic, 
and law enforcement communities, as well as our men in uniform, 
we have made significant progress in the fight against 
terrorism. With the support and guidance of this Committee and 
Congress, we have built an enduring counterterrorism 
framework--the framework that includes the establishment of 
DHS, the transformation of the FBI, and the creation of the 
National Counterterrorism Center.
    Our Nation has placed relentless pressure on al-Qaeda's 
leadership, denied the group safe haven and resources, and as a 
result, core al-Qaeda is weakened. But a decade after the 
September 11 attacks, we remain at war with al-Qaeda. It is a 
resilient and adaptive adversary, and we continue to face an 
evolving threat, as Director Mueller mentioned, from its 
affiliates and adherents.
    In the balance of my remarks, I will briefly describe that 
terrorist threat and then discuss a bit about the role of NCTC 
and some of the challenges we face.
    First, al-Qaeda's core capability to conduct attacks has 
been significantly diminished. Again, Chairman Lieberman, in 
your words, it is weakened but not vanquished. The group 
remains the ideological leader of the global extremist 
movement. It continues to influence others through propaganda. 
Al-Qaeda's senior leadership has advanced several unsuccessful 
smaller-scale Western plots in the past 2 years, and these 
plots highlight its ability to continue attack preparations 
while under sustained counterterrorism pressure.
    And just this past week, we acted in response to 
unconfirmed intelligence of a possible threat that the group 
was planning an attack in the United States. We, thus, remain 
concerned that al-Qaeda may be plotting to strike against the 
United States at home or overseas.
    Further, since al-Qaeda's relocation to Pakistan, it has 
encouraged its militant allies to expand their operational 
agendas to include U.S. and Western targets, both within the 
region and overseas. For example, Faisal Shahzad's attempted 
bombing in Times Square, as Director Mueller mentioned, is a 
stark reminder that al-Qaeda's allies, such as the Pakistani 
Taliban, continue to threaten U.S. interests in the Afghanistan 
and Pakistan region.
    Second, 10 years after 9/11, we face a much more diverse 
and diffuse threat from groups affiliated with al-Qaeda. These 
affiliates have increased the scope of their operations, 
seeking to strike some U.S. and Western targets both inside and 
outside of their respective regions.
    The single most capable affiliate is al-Qaeda in the 
Arabian Peninsula. AQAP's recent gains and Yemen's governing 
challenges increase our concerns about the group's capability 
to conduct attacks. Further, the group's propaganda efforts are 
designed to inspire like-minded Western extremists to conduct 
attacks in their home countries.
    AQAP's two attempted attacks against the homeland--the 
attempted airliner attack in December 2009 and its attempt to 
down two U.S.-bound cargo planes in 2010--show that the group 
is a determined and capable enemy that is able to adjust its 
tactics.
    Third, a key element of the evolution of the terrorist 
threat since 9/11 is the advent of homegrown violent 
extremists, as you mentioned, Senator Collins. These 
individuals are inspired by al-Qaeda's global extremist agenda. 
Over the past 3 years, we have seen an increase in violent 
extremist English content online. This has fostered greater 
cohesion among homegrown violent extremists. Plots disrupted 
during the past year appear to be unrelated operationally but 
may share a common cause, rallying independent extremists to 
attack the homeland.
    A key feature of this trend has been the development of a 
narrative that addresses the unique concerns of U.S.-based 
extremists. This narrative includes a blend of al-Qaeda 
inspiration, perceived victimization, and a glorification of 
homeland plotting. HVEs who independently plan attacks with no 
direction inside the United States or overseas are difficult to 
detect and disrupt and could advance plotting with little or no 
warning.
    Now turning to the role of NCTC, as the terrorist threat 
has evolved over the past decade, so has the government's 
ability to counter that threat. NCTC has proven to be a vital 
element of the government-wide effort to counter terrorism.
    First, as you know, NCTC has unique responsibility to 
examine all international terrorism issues, spanning geographic 
boundaries so that we can analyze intelligence regardless of 
whether it is collected inside or outside the United States. 
NCTC has access to the full catalog of reporting, both foreign 
and domestic, on terrorism issues.
    Last year, NCTC created the Pursuit Group to develop 
tactical leads and pursue terrorism threats. Pursuit Group 
analysts look for connections among less obvious details to 
help ensure that terrorist threats are fully examined.
    NCTC continues to implement important reforms in the watch-
listing process. This includes better processing and sharing of 
watchlisting information. Our watchlisting experts work closely 
with NCTC's Pursuit Group, with the FBI, and with the 
Department of Homeland Security to expedite the sharing of 
information and to build more complete terrorist identities.
    NCTC also conducts strategic operational planning for 
counterterrorism activities. In this role, NCTC looks beyond 
individual department and agency missions toward the 
development of a single unified counterterrorism effort across 
the Federal Government. We develop plans to help translate high 
level strategies and policy direction into coordinated 
activities.
    Finally, as this Committee is well aware, the Center 
continues to be the home to the Interagency Threat Assessment 
and Coordination Group. This group is led by DHS in partnership 
with FBI, and it brings together Federal and non-Federal 
intelligence, law enforcement, and first responder communities 
to bridge the intelligence information gap between traditional 
intelligence agencies on the one hand and State, local, tribal, 
and private-sector partners on the other.
    I would like to close today by identifying NCTC's most 
important resource, and that is our people. As NCTC redoubles 
its effort to meet the terrorist threat, our progress depends 
on maintaining and developing our talented and diverse 
workforce. We bring together professionals from across the 
government to focus on a single mission--counterterrorism--and 
we must strive to work collaboratively, to share information, 
and to integrate our efforts.
    Finally, all of our activities must be consistent with our 
core values and the protection of privacy and civil liberties. 
In everything we do, NCTC must retain the trust of the American 
people as it fulfills its critically important 
responsibilities.
    Chairman Lieberman, Senator Collins, and Members of the 
Committee, I thank you for the opportunity to testify today. As 
you know, perfection is no more possible in counterterrorism 
than it is in any other endeavor, and we will always strive to 
improve. Your leadership, support, and direction have been 
invaluable in helping us move forward to carry out our mission 
and to work with resolve and with unity to protect the Nation. 
Thank you.
    Chairman Lieberman. Thank you, Director Olsen. Thank you 
very much.
    We will go to the questions now. We will start with the 
first round of 7 minutes for each Senator.
    Let me begin by going to the threat stream that alerted 
everyone in government and the Nation last week as we 
approached the 10th anniversary weekend. It was described as 
specific, credible, but unconfirmed or uncorroborated.
    Let me ask you first what is the status of our review of 
that threat now. Do we consider it to be an ongoing threat, 
Secretary Napolitano or Director Mueller?
    Secretary Napolitano. Chairman Lieberman, yes, we consider 
it an ongoing threat, and we continue to monitor that threat.
    Chairman Lieberman. Director Mueller.
    Mr. Mueller. Yes, the threat has not been resolved, and 
until it is resolved, it is an outstanding threat that we are 
following up on. Even though September 11 has now passed, we do 
not believe that necessarily means that we should back down. 
Consequently, we, the Department of Homeland Security, NCTC, 
and the intelligence agencies are pursuing that as hard and 
heavily as we have over the last several days and will continue 
to do so until it is resolved.
    Chairman Lieberman. So it remains, if I hear you correctly, 
unconfirmed, but again, the intelligence stream was specific 
and credible enough that you are not prepared to dismiss it.
    Mr. Mueller. No.
    Chairman Lieberman. Mr. Olsen, do you want to add anything 
to that?
    Mr. Olsen. I share the views of Director Mueller and 
Secretary Napolitano. We are not prepared to say that it has 
been resolved, and we are continuing to work to analyze it and 
share information about it.
    Mr. Mueller. I would like to add one thing if I might, Mr. 
Chairman.
    Chairman Lieberman. Go right ahead.
    Mr. Mueller. Since we first had word of that threat, we 
have conducted hundreds of interviews; we have been pursuing a 
number of leads. Consequently, as a result of that, we now have 
been able to eliminate some aspects where we thought that we 
ought to be looking in order to determine whether it was indeed 
a valid threat, but there is still work to be done.
    Chairman Lieberman. Well, that is reassuring from my 
perspective.
    I know there were plans already in place--Federal, State 
and local--to be prepared to defend against another terrorist 
attack on the 10th anniversary weekend and particularly with 
regard to homegrown radicals, or lone wolves, and others as 
well, but I was impressed by the extent to which so many of the 
assets that our government has now in regard to homeland 
security and counterterrorism were brought into action on this 
threat that we really, I think, would not have been able to do 
10 years ago.
    One of the things that the 9/11 Commission said was that 
when they asked the question, who is in charge of 
counterterrorism or a particular response to the terrorist 
threat, they did not have an answer. So from my perspective, it 
looked like you were all really working together very well, but 
I am interested in knowing who was in charge because at some 
point somebody has to be overseeing all this.
    So who would you say was in charge?
    Mr. Mueller. You have on the one hand the intelligence 
agencies. You have the domestic agencies--operational, DHS, 
FBI, and the like--all of whom have been through this before 
any number of times. And the relationships and the organization 
comes together very quickly, given our history.
    But I would say it is the White House and the Office of the 
National Security Advisor that makes certain that everything 
has been taken care of generally through the NCTC as the 
operational arm or the support arm.
    But there is no question about the source of the leadership 
and the coordination, and I think that is why we have been, 
over the years, effective in terms of coming together, sharing 
information, understanding our differing roles, and 
complementing each other to make certain that the job gets done 
to resolve the particular threats.
    Chairman Lieberman. That is very interesting. So the Deputy 
National Security Advisor, Mr. Brennan, is in charge of 
counterterrorism, homeland security, acting on behalf of the 
President, who obviously is in charge, and coordinating all our 
assets, but the NCTC plays an operational role on his behalf, a 
support role.
    Do you want comment on that, Mr. Olsen?
    Mr. Olsen. Yes, sir. I would say that, as you put it, John 
Brennan played a coordinating role on behalf of the President 
in the last few days in response to this threat.
    And our role at NCTC is to be the place where information 
all comes together because some of the information is coming 
from CIA, some information is coming from FBI, and lots of 
information is coming from DHS. We play a central clearinghouse 
role where we take all of that information, analyze it, and 
then share back out what we are seeing from an analytical 
standpoint.
    Chairman Lieberman. Secretary Napolitano, do you want to 
add to that? Does this sound right to you?
    Secretary Napolitano. That is right, and it is an amazing 
coordination thing that I have seen, and I do not think it 
would have been able to be accomplished 10 years ago.
    It is ultimately coordinated out of the White House. We all 
understand how we fit together. Sometimes it is difficult to 
articulate. You kind of know it when you see it. But it does 
seem to increase our ability not only to share information 
among ourselves, but to share information with the country and 
receive information back. And that also is a difference between 
now and 10 years ago.
    Ten years ago, I was the Attorney General of Arizona, and 
it was very difficult to get information as to what was going 
on with the attacks and what decisions were going to be made 
with respect to air safety, airports, borders, and all the 
rest. Now that sort of dislocation does not occur.
    Chairman Lieberman. Thank you for that.
    My time is running out, but I want to ask you, Secretary 
Napolitano, one additional question. Probably the most visible 
part of the change in homeland security since 9/11 for most 
Americans has been the presence of TSA at the airports, and I 
think they have done a great job. As you know, it is an 
annoyance to people, but they put up with it.
    In testimony before this Committee, Mr. Pistole has 
indicated that the Department really would like to move away 
from a one-size-fits-all approach to a more risk-based aviation 
security strategy. I wanted to ask you what the Department is 
doing to implement such a risk-based strategy and whether there 
are moves that will be made soon in that regard.
    Secretary Napolitano. Yes. I was fortunate to take Director 
Mueller's No. 2 and to bring him over to TSA. So thank you very 
much. I owe you a draft choice to be named later, I think.
    But with the respect to TSA, we are moving to a more risk-
based approach to screening passengers and trying to streamline 
procedures for those passengers who are low risk, which 
enhances our ability to focus on passengers who we either do 
not know or who are assessed a high risk.
    We are piloting several programs to achieve these goals 
right now. One of them is the expansion of global entry, which 
is essentially a program that facilitates international travel. 
It is really a prescreening of a passenger, and we just got our 
millionth passenger a couple weeks ago. That really facilitates 
crossing borders.
    We also have been piloting programs to deal with children 
under the age of 12 with respect to not only taking off their 
shoes but also pat-down procedures, and we hope over the coming 
weeks and months to be able to begin rolling that out. It does 
require additional training of all of the thousands of TSA 
officers, and that is also underway.
    We are, obviously, looking at some of the other procedures 
that passengers need to make in order to streamline their 
process through the lines. There will always be some 
unpredictability built into the system, and there will always 
be random checks, even for groups that we are looking at 
differently, such as children under the age of 12. But I think 
the traveling public will begin to see some of these changes in 
the coming months.
    Chairman Lieberman. That is good to hear. So that, in the 
foreseeable future, if I hear you correctly, we may be moving 
to a system where children under 12 would not normally be 
subject to pat-downs and the like.
    Secretary Napolitano. Yes. There will be additional 
training for a different pat-down procedure for them and also, 
again, allowing them to leave their shoes on.
    Chairman Lieberman. Excellent. That is good news. Thank 
you.
    Senator Collins. Thank you, Mr. Chairman.
    Madam Secretary, I want to go back to the Bowling Green 
case, which was very troubling to many of us on this Committee. 
As I look at the overall statistics, DHS interviewed more than 
101,000 Iraqi refugee applicants and approved more than 84,000 
for resettlement in this country. This is an approval rate that 
exceeds 80 percent. I was surprised at the scope of this 
program; 58,810 Iraqi refugees have been resettled and are 
living here.
    Now I know from previous DHS testimony and from my 
conversations with the Director that there is a review of those 
who are here to make sure that we have not missed fingerprints 
or other data or intelligence that would indicate that a 
mistake was made in granting them the right to resettle in this 
country. But that leaves 25,625 who have been approved for 
resettlement but have not yet been resettled in this country.
    Is there a hold on that population until they can be more 
stringently vetted to ensure that we are not letting into this 
country people who would do us harm?
    Secretary Napolitano. Let me, if I might, answer your 
question in two parts.
    First part, with respect to the 58,000 Iraqi refugees who 
were resettled pursuant to the original resettlement program, 
they have now all been revetted against all of the DHS and NCTC 
databases and the Department of Defense's biometric databases. 
So that work has now been done and focused.
    Senator Collins. That is completed?
    Secretary Napolitano. That is completed.
    Moving forward, no one will be resettled without going 
through the same sort of vetting procedure. Now I do not know 
whether that equates to a hold, as you say, but I can say that 
having done the already resettled population, moving forward, 
they will all be reviewed against those kinds of databases.
    Senator Collins. Director Mueller, it is reassuring to hear 
that those 58,000 individuals have been vetted against the 
existing databases. But in fact, due to a lack of resources and 
the fact that it is not easy to vet, match, and lift latent 
fingerprints, do you not have a considerable backlog of 
fingerprints that have yet to be uploaded into these databases?
    Mr. Mueller. As I think we discussed, there is 
prioritization in terms of the explosive devices that we look 
at, and with that prioritization, there is a substantial 
grouping of devices that have not been looked at. We have taken 
the precautions of assuring that we maintain the capability of 
looking at it down the road, in other words, assuring that if 
there are fingerprints, they can be recaptured down the road. 
But as you pointed out before, it is a question of resources, 
and we do have to prioritize.
    If we get an indication of a name of a person who there is 
some question about, we can do that more thorough review by 
going into this third tier to determine whether that person's 
fingerprints appear on any IEDs, but it requires a triggering 
of information in order to go into that backlog.
    And it is not just a small grouping, as I think you 
understand. It is substantial. And so regardless what 
additional resources we are given, and with more resources we 
can do more, nonetheless, there would be ultimately a grouping 
that we just cannot upload for a variety of reasons.
    Senator Collins. What concerns me is in the case of one of 
the individuals arrested in Bowling Green, his fingerprints 
were in those lower priority IED parts, correct?
    Mr. Mueller. Correct, and as I think you understand, we had 
to go back and identify where he was and do the additional 
research. And we will do that and have done it. We will 
continue to do that.
    Senator Collins. But that depends on your getting a lead or 
the name of an individual where you can try to map out where 
that individual was as opposed to DHS being able to run the 
fingerprints against the complete database, correct?
    Mr. Mueller. Well, they can run the fingerprints against 
the complete database, but that database will not have that 
information----
    Senator Collins. That is my point.
    Mr. Mueller [continuing]. From the third tier that has not 
been uploaded because of the amounts of devices we have and the 
necessity to prioritize.
    Senator Collins. And that third tier, again, happened to be 
where the fingerprints of the individual from Kentucky were 
located.
    Mr. Mueller. Yes.
    Senator Collins. Madam Secretary, I want to talk to you 
about fusion centers. I have been a supporter of fusion 
centers. I have visited two of them--one in a large urban area, 
one in a rural State. And I have seen the information sharing 
that they do, and I have been impressed.
    But my enthusiasm is not shared by everyone. There are 
individuals on both sides of the aisle who argue that the 
fusion centers are duplicative of the Joint Terrorism Task 
Forces. Why do we need them when we already have this multi-
agency task force, particularly in a time of budget 
constraints?
    Senator Warner sent you a letter in June on that issue. 
Senator Coburn's Permanent Subcommittee on Investigations is 
looking at the effectiveness of fusion centers. And I know that 
DHS has conducted a study to identify baseline capabilities 
that every fusion center should have.
    Tell me why we need fusion centers.
    Secretary Napolitano. Thank you, Senator. I can speak both 
as a former U.S. Attorney General and a governor as to the 
utility of the fusion centers.
    They do not duplicate the JTTFs. They really complement the 
JTTFs. They are portals of entry where we can share 
information--and as I mentioned in my opening comments, for all 
but three, we are now connected at the secret level--and get 
information back.
    As Director Olsen and Director Mueller mentioned, one 
phenomenon that we are dealing with now is the growth of 
homegrown terrorists and the so-called lone actor or lone wolf. 
We need more eyes on the ground than the Federal Government 
itself can supply. The training and ability to share 
information about tactics and techniques, early trips that 
should be looked for can be very helpful.
    And it is not just sharing information, Senator, that is 
important with respect to the fusion centers. It is sharing and 
expanding analytical capability to different levels of 
government.
    So we now have the 72 fusion centers. We have moved our own 
analysts into the fusion centers so that they can help not only 
with the gathering and receipt of information but with the 
analysis of information, which is helpful.
    If you look at Zazi, Faisal Shahzad, and Paulin-Ramirez, 
who was connected with Jihad Jane, in all of those cases, you 
would see fusion center activity that was very helpful.
    And indeed, these past 3 days, with the ongoing threat that 
has been described to you, fusion centers are active in that as 
well.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins.
    For the information of my colleagues, Senators will be 
called in order of arrival as follows: Senators Brown, Carper, 
Johnson, Pryor, Moran, and McCain.
    Senator Brown.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. Thank you, Mr. Chairman.
    Mr. Olsen, several of the recent attempted terrorist 
attacks against the United States have been carried out by, or 
inspired by, AQAP. How would you assess their threat to the 
homeland?
    Would you put them at the top of the list of threats by 
terrorist organizations?
    And then as a follow-up, is Yemen on its way to becoming 
another Afghanistan, i.e., a safe haven for AQAP to plot 
attacks, and do we have a sufficient strategy in place for 
Yemen?
    Mr. Olsen. Thank you, Senator.
    The response to your first question is that AQAP is 
certainly among our biggest concerns from a counterterrorism 
perspective. It has shown itself to have both the intent and 
capability of carrying out attacks against the United States in 
the homeland. I mentioned the two examples of that--the 
Abdulmutallab attack of Christmas Day 2009 and then the cargo 
plane attack in the fall of 2010.
    Beyond the actual attempted attacks, one of the biggest 
concerns we have about AQAP is its propaganda effort. Anwar al-
Awlaki, an English speaker, dual U.S. citizen, has through 
Inspire Magazine sought to inspire potentially radicalized 
Westerners. The actual issues of Inspire Magazine have included 
step-by-step bombmaking instructions.
    Senator Brown. Yes, and it is interesting. That was my next 
question. How do they actually get away with that? I mean, how 
do they get away with putting bombmaking instructions in a 
magazine, which is disseminated widely, if you can just tell 
me?
    Mr. Olsen. Well, that information is put out through an 
online magazine over the Internet, and it is actually 
information that is----
    Senator Brown. We have no control over anything like that?
    Mr. Olsen. Well, some of that information is not 
necessarily unique to AQAP. In other words, one of the biggest 
concerns about the nature of the information is it is quite 
basic. It is easy to follow. It does not require someone to be 
particularly sophisticated to follow those instructions.
    So in answer to your question, yes, AQAP is at the top of 
our list or one of the biggest concerns we have.
    With regard to whether Yemen is a safe haven, we are very 
concerned about the ability of the Yemeni government at this 
point to sustain any strong counterterrorism efforts, given the 
governance challenges that it faces. So AQAP has had the 
opportunity to recruit inside Yemen and to plan and plot inside 
Yemen. We have put extreme pressure on AQ senior leadership. It 
has been more difficult for us to put that same pressure on 
AQAP leaders in Yemen.
    Senator Brown. On the Inspire Magazine, in particular?
    Mr. Mueller. Well, let me start by saying we are not 
without tools to address it. But the fact of the matter is that 
once you upload something on the Internet, it is exceptionally 
difficult to try to eradicate it. In fact, I would say 
impossible.
    So while we have tools, the likelihood, the possibility of 
eradicating Inspire from the Internet, understanding it is not 
just the United States but every country around the world, is 
virtually impossible. And to the extent that we have some 
capabilities to address that is something we probably ought to 
talk about in closed session.
    Senator Brown. Madam Secretary, in your testimony, and I 
have heard you address this many other times, you talk about 
our Nation's borders and protecting us from illegal entry, 
especially in Arizona where you are from. I know it is of great 
concern to Senator McCain and a lot of the other Members from 
border States. And quite frankly, I could not agree with you 
more.
    In Massachusetts alone, there are several tragic cases of 
Bay State residents being killed by persons in this country 
illegally, and then they either flee or are never heard from, 
but it really has to stop.
    The Secure Communities program is something I believe--I do 
not want to misstate--you are in favor of, you have worked 
toward, and you would like to see implemented.
    How do you deal with States, for example, my State, where 
you have a governor or others who do not support it? Is there a 
way to convince them, cajole them, or incentivize them to get 
with the program, so to speak?
    Secretary Napolitano. Well, Senator Brown, I do support 
Secure Communities. I think it is a key tool in our immigration 
enforcement efforts to identify those in the country illegally 
who are also committing other crimes, are fugitives from 
existing warrants, are multiple illegal entrants, are security 
concerns. In other words, we have to be able to find them, and 
going to the jails and prisons of the country is a logical 
first place to start.
    Senator Brown. How do you do your job if you do not have 
the cooperation from the individual States or people in charge? 
How do you do it?
    Secretary Napolitano. Well, there was some initial 
misinformation about Secure Communities, but the plain fact of 
the matter is, it is an interoperability agreement between DHS 
and the FBI so that when someone is booked and his fingerprints 
are run through the FBI, there is also a connection over to run 
them against our immigration databases so that ICE can flag an 
arrestee before he is released back into the community.
    It does not require the specific agreement of a State or 
locality in order to deploy Secure Communities. Now it is 
helpful when we have cooperation, and so I am using my powers 
of persuasion to speak with the governors or mayors or other 
officials who have been troubled by the program.
    Senator Brown. Yes. It just does not really make sense. We 
are all Americans first, and when we tackle a problem together, 
we usually prevail. So I am encouraging others that I know back 
home in Massachusetts and throughout the country to remember we 
are Americans first and to work together on these very real 
terrorist threats and concerns.
    If someone is arrested and they are here illegally and they 
are killing people, whether it is through accident or just 
through basic murder and mayhem, we should be able to get them 
out and do it with the cooperation of all government entities.
    Secretary Napolitano. Secure Communities was begun under my 
predecessor. We have actually deployed it now throughout the 
country. I think we have it in 1,200 sites, and we will have it 
in every jurisdiction by fiscal year 2013.
    Senator Brown. Thank you. Thank you, Mr. Chairman.
    Mr. Chairman, can I just ask you a question?
    Chairman Lieberman. Of course.
    Senator Brown. Mr. Mueller also pointed out that there are 
folks who are American citizens, and they are going over there, 
they are being trained, and they are using their knowledge when 
they come back.
    What is the status of the Terrorist Expatriation Act that 
you and I and Senator Collins and others filed? Are we going to 
refile it? Is it something that he would support?
    Chairman Lieberman. Yes, I would be happy to refile that 
bill with you because I think it continues to be a problem.
    Senator Brown. Great. Thank you.
    Chairman Lieberman. Thanks, Senator Brown.
    I will just mention very briefly in terms of what do you do 
about extremist material like Inspire Magazine or the other 
things on the Internet, and what Director Mueller said, and 
other witnesses too, is that there are certain limits on the 
Federal Government, but what we have discovered in going over 
this, Senator Brown, is that with some of the major sites--like 
Google owns YouTube and Blogger, and Facebook is a separate 
operation, obviously--if individual citizens complain to them 
about a particular site having violent material on it, they all 
have standards. They actually have people whose job it is to 
review complaints like that.
    And on many occasions--let me say that I have at least one 
staff member who exercises his individual citizen rights when 
he is not in the office to complain about this material--
Google, YouTube, Blogger, Facebook, they take down those 
jihadist Web sites. It is quite remarkable.
    Now of course--it is the glory and the problem of the 
Internet--they can pop up somewhere else, and then you have to 
go at it all over again. But there is that ability by 
individual citizens.
    Senator Brown. Well, as the President encourages people to 
call us, I would encourage our citizens, if they feel compelled 
and moved, to contact those entities to do just that.
    Chairman Lieberman. Yes, and it is pretty easy to do if you 
go on those Web sites. Thank you. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman.
    To our witnesses, welcome. Secretary Napolitano, nice to 
see you. Director Mueller, thanks so much for your willingness 
to sign on for a longer tour of duty. We are grateful for that. 
And Mr. Olsen, it is nice to see you as well.
    My colleagues have heard me tell this story before, but it 
is worth repeating, and I am going to take this questioning in 
a little different direction.
    About 2 months ago, we had a hearing in the Finance 
Committee. The subject of the hearing was deficit reduction, 
and one of the witnesses was Alan Blinder who used to be Vice 
Chairman of the Federal Reserve when Alan Greenspan was 
Chairman. And he said in his testimony, unless we are serious 
about doing something about health care costs in this country--
Medicare, Medicaid, and addressing health care costs--we are 
not going to really get a handle on the deficit.
    So anyway, all the witnesses finished their testimony. We 
were doing the question period, like this, and it came to me, 
and I said, Mr. Blinder, you said earlier if we do not do 
anything about health care costs--that is the 800-pound gorilla 
in the room--then we are really just playing around the edges.
    And he said, that is right.
    And I said, well, what would be your advice? What should we 
do?
    He teaches now at Princeton. But he said, I am not a health 
economist, but here is my advice: I would urge you to find out 
what works. Do more of that.
    That is all he said: Find out what works. Do more of that.
    And I said, I guess the corollary to that would be find out 
what does not work and do less of that.
    I think the same is true across government as we deal with 
the budget deficit. We are happy that the deficit is down. It 
is only going to be $1.3 trillion, I think, by the end of the 
year, but the red ink is as far as we can see. In everything 
that we do, we have to look at it through a prism that says is 
there a way to get a better result for less money, or a better 
result for the same amount of money.
    And I would just ask of you today to talk with us about 
some of the things that we are doing that are working, where we 
need to invest a little more money, and maybe some things where 
we are spending money, frankly, that does not add a whole lot 
to our security.
    Madam Secretary, would you go first? Here is somebody who 
has had to live with balanced budgets in governing your State.
    Secretary Napolitano. Right.
    Senator Carper. You did a pretty good job, as I recall.
    Secretary Napolitano. Thank you. Yes, we did have to 
balance the budget every year.
    First of all, I would resist the notion that some 
redundancy is wasteful. In the areas with which we deal, some 
redundancy is helpful because there is always the possibility 
that someone or something will get through one of the many 
layers of security that we have in place. So you have to 
evaluate redundancy differently in this arena, I think, than in 
some others.
    Second, we always have to plan for some human error in the 
universe with which I deal, which is who or what can get into 
the country, and how do we know who or what is in the country.
    So one of the major improvements that we have been able to 
accomplish over the last several years is to merge more and 
more databases that are very robust so that we can look at 
abnormal travel patterns and the like and to share that 
information. That is the kind of information we can share with 
the FBI, with the NCTC, when we are pulling the thread of a 
threat.
    So that is an improvement that we want to continue to make 
more robust and link up, again, as I said before, with the FBI, 
NCTC, and other agencies around town.
    Senator Carper. All right. Director Mueller.
    Mr. Mueller. I would look at it from two perspectives. 
First is internally. Every one of us are looking at where we 
can make savings----
    Senator Carper. Good.
    Mr. Mueller [continuing]. Whether it be contractors or 
cutting down in a variety of ways that we are going to have to 
continue to do for the foreseeable future.
    More importantly for us is prioritization, and real 
prioritization. Not everything can be a priority. And for us, 
it is programs that we have, the particular crimes and threats 
that we see out there, and prioritizing our efforts to address 
those threats and assure that as we do that there is a metric 
for success as opposed to just arrests, indictments, and the 
like.
    Senator Carper. We are pretty good at measuring process. We 
are not all that good in government in measuring outcomes.
    Mr. Mueller. And results. So that is from that perspective.
    More generally, within the Federal Government, and 
particularly in our line of work, the ability for information 
technology to provide us not only the information we need, but 
to sort through that information and bring out that which we 
really need is something that we are all undergoing. It is part 
of having a federated search capability so that you can do 
searches across a variety of databases, both internally and 
externally.
    And by doing that and developing that information 
technology capability, we will save a tremendous amount of 
money, but more particularly, we share the information across 
our agencies and have the ability for our analysts to do the 
kind of federated search that does not require them to go into 
one database, make a search, come out, and do another one. That 
is one of the keys in my mind to both information sharing of 
the future but also doing it in a financially responsible way.
    Senator Carper. All right. Thanks. Mr. Olsen, do you want 
to add anything?
    Mr. Olsen. Yes. First, let me just say that we are, like 
the rest of the intelligence community, looking for ways to be 
more efficient in how we are using our resources, but I would 
make two points.
    The first follows up on Director Mueller's point, and that 
is, at NCTC we are seeking to create what we have called a 
counterterrorism data layer, which is to take in all of the 
data that we can from DHS, FBI, and other agencies to be able 
to take advantage of advances in information technology, to be 
able to search across that data, exactly as Director Mueller 
said.
    The actual advances in technology make that a way to 
actually save money, instead of doing searches manually where 
you log into one system and then log into a separate system, 
having all that information available so you can search across 
a variety of databases and make those connections that you 
would not otherwise be able to make.
    The other initiative that I would identify, which I think 
has no real resource expenditure, is we have set up, as I 
mentioned in my opening statement, Pursuit Groups, which are 
analysts looking at the tactical level for connections that 
might not be obvious and then taking that information, those 
connections, and handing those off particularly to the FBI and 
to DHS as leads to follow up on. That is an area where we are 
focusing particularly in the aftermath of the Christmas Day 
attack in 2009.
    Senator Carper. Good. Let me just conclude by recalling the 
words, as we begin a new football season, of Vince Lombardi who 
used to say, ``If you are not keeping score, you are just 
practicing.''
    Another way to say that is, what we measure, we manage, and 
the idea of looking throughout the Federal Government to see 
what is working well, how can we invest more money there, and 
what is not, let us invest a little bit less money there.
    Secretary Napolitano, there are two departments in the 
Federal Government that I think are operating without audited 
financials. One of them is the Department of Defense. Secretary 
Panetta said to me that he is going to try to get there by 
2017; he is going to push his people as hard as he can. And I 
think that is great, and we want to help him.
    Your new Department is making good progress, and I 
understand this is something you have put a priority on, and I 
urge you to keep doing that.
    Senator McCain and I have been pushing an idea that you had 
as a tool as governor, a line item veto. I had this tool as 
governor. We think the President ought to have that tool and 
just try it for 4 years, a 4-year test drive, fully 
constitutional. I think everybody sitting in this room except 
maybe for one person has co-sponsored that, and we have about 
40 co-sponsors, and we are going to push that.
    And I call it a 4-year test drive of line item veto 
authority, and I think that could be part of the solution, not 
all of it, but in a day that we are looking for silver bullets, 
it is not a bad silver BB.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Carper. Senator 
Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman.
    First of all, I really do want to thank you all for your 
service, and I mean that in all sincerity. You do incredibly 
important work, and I certainly appreciate the work and effort 
that you put into your jobs.
    I remember watching the debate over whether you should even 
set up this Department. I think it was a very legitimate 
debate.
    I come from a background in manufacturing where you are 
always looking for continuous improvement. So my questions 
really are from that basis. So I do not want anybody taking 
offense.
    Getting ready for this hearing, ``Are We Safer,'' one of 
the questions I really asked was, are we as safe as we could be 
based on how much resource we are actually putting toward the 
problem here within the Department.
    So the first thing I was trying to determine is how much 
money is really wrapped up in the bureaucracy and the overhead 
of the Department of Homeland Security, and I looked for the 22 
agencies that were consolidated. Their budget in 2002 was about 
$20 billion as best I can come up with. Now we are spending 
about $56 billion, almost a three-time increase.
    Do you know, I mean, do you have in your mind or in your 
budgeting process, how much really is the Department of 
Homeland Security bureaucracy versus how much is the expense 
based on the mission and putting real assets in place?
    Secretary Napolitano. It is a difficult question to answer 
because one of the key criticisms of the Department when it was 
stood up was that it did not have enough administration so that 
things like procurement, acquisitions, and planning were not 
adequately performed. That is, as Senator Carper mentioned, one 
of the reasons why there was not an audit capability of the 
Department. We are making great progress on that score.
    So you can call that bureaucracy. You can call it 
management. But the idea is to have as little management as 
possible to get the maximum out of a very large, complicated 
department.
    So I can go through component by component and say, when 
the Department was created, we had 7,000 border patrol agents. 
Now we have 21,000 border patrol agents, and they are in the 
field.
    I can go through and say, when we started the Department, 
the TSA really did not even exist, and that has almost had to 
be built from scratch, with the accompanying personnel, 
training, and technology.
    And I would be happy to sit with you and go through that 
and see where we are.
    We are trying to keep the administrative arm as thin as 
possible, given what we are asked to manage and how we are 
asked to manage it. But the goal is, as I said earlier, 
Senator, to do that with as thin a layer of management as 
possible to enable and empower those in the field to do their 
jobs.
    Senator Johnson. One thing I would appreciate, if you could 
go back and take a look at the head count of the agencies that 
were consolidated as a basis. Then I could work it up in terms 
of now you have 230,000 employees in the Department; 63 are in 
the TSA.
    I know in earlier testimony, Director Mueller, we were 
concerned about how many FBI agents were really devoted to the 
task. I just want to ask your opinion. I do not want to put you 
on the spot here. But do you have frustrations in terms of the 
resources that are devoted to your activities versus what 
resources are necessarily spent in just department overhead?
    Mr. Mueller. I had one of those consultants come in several 
years ago to look at our structure. We are very a flat-line 
structure. We have 56 field offices that really do the work 
around the country. And persons from the business community 
were saying that because they all report to one individual 
basically, you have a real problem in terms of coverage.
    They say, well, you are very thin in terms of management, 
but you are a very matrixed organization. And so, you do not go 
through the hierarchy. If somebody is doing counterterrorism in 
the field, they will call the counterterrorism person back at 
headquarters.
    And traditionally, we want more agents on the street, out 
in the various communities, doing the investigation. What we 
find from counterterrorism is that I cannot assign the 
responsibility for protecting the country to a particular 
office, and we have to integrate the information and manage the 
cases, not just domestically, but in concert with the CIA, NSA, 
and others that are looking at the cases internationally, which 
has required us to build up a capability at headquarters that 
we did not have before.
    That is frustrating. Everybody in my organization would 
like to be in the field, but in order to be effective, we have 
had to build a capability to coordinate our actions.
    Traditionally, bank robberies or white collar crimes will 
be in a particular division. In the cyber arena, you can affect 
persons in all 50 States. You do not know where they are.
    In order to address the cyber intrusions, for instance, it 
takes a headquarters-managed oversight in order to do it. That 
is working day in and day out with DHS, NSA, CIA, and the other 
compartments.
    We try to stay as flat as we can be, but given the threats, 
we have had to develop new organizational structures to address 
them.
    Senator Johnson. In hindsight, in terms of coordinating 
that information, would possibly a more efficient model have 
been utilizing the counterterrorism center for that liaison, 
for that coordination effort?
    Mr. Mueller. Well, the counterterrorism center is an 
analytical agent. What we provide is the immediate response to 
a lead any place in the country. If you have a threat such as 
we had last week, we have agents following up on aspects of 
that lead in every one of the States in the country. And it is 
the combination of the analytical capability along with the 
operational ability to pursue that lead, interview people, do 
wires where appropriate and court orders, to do surveillances 
around the country, to do the forensics work that provides the 
intelligence, which is absolutely essential to bring to bear.
    NCTC has none of those capabilities. It is an analytical 
entity.
    Senator Johnson. Obviously, one of the tasks of the 
Department is response to a terrorism attack. Now you could 
take a look at the earthquake here in D.C. as somewhat of a 
dress rehearsal. I was not here, but I was told that cell 
phones would not work for hours. It was a mess getting out of 
town. There was not a real good evacuation plan.
    Have you taken a look at that instance and evaluated how 
prepared were we and did the Department perform the way you 
would have expected it to?
    Secretary Napolitano. Well, yes, we look at all those 
instances. When you have a disaster that occurs, the private 
cell phone capability is often overwhelmed in the first 
instance. Everybody is trying to call out.
    A key question I asked was: Well, what about the 
responders? Were they able to be in touch with each other and 
to have effective interoperability? And as far as I know, the 
answer is yes.
    Now the second question relates to the evacuation of the 
Capital Region. We have had that issue with snowstorms. We had 
it with this recent earthquake.
    We have been working. There is a National Capital Region 
group that involves Virginia, Maryland, the District, and our 
Department, working with the Office of Personnel Management, 
quite frankly, in terms of how do you effect an orderly 
evacuation of the District. You do not have enough road 
coverage to do it very well, and that is the plain fact of it. 
But it can be done better, and that group is in ongoing 
sessions looking at how they can at least improve evacuation 
procedures, particularly if the Federal Government is going to 
go into shutdown.
    Senator Johnson. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Johnson. Senator 
Moran.

               OPENING STATEMENT OF SENATOR MORAN

    Senator Moran. Mr. Chairman, thank you.
    I would like to express my appreciation to our three 
witnesses for their presence here today, but more importantly, 
for their efforts to make Americans more safe and secure. I 
express gratitude on behalf of all Kansans for what you do.
    Madam Secretary, let me focus on an issue that has received 
some attention but in my view less than what we normally talk 
about in safety and security. We are often talking about 
transportation--airports, railroads, those kinds of things.
    There has been this genuine concern. In fact, the Graham-
Talent Weapons of Mass Destruction Commission talked about 
agro-bioscience, the threat that comes from animal disease. 
Unfortunately, they gave us an F in their report on our 
preparation for that occurrence.
    In my view, a real threat exists in our ability to deter, 
detect, and quarantine the introduction of any kind of disease 
into our food supply.
    We have a hearing this afternoon on this topic in which one 
of your officials from your Department will testify, but I 
would like to know your perspective 10 years later after 9/11. 
I think in fact slightly before 9/11, the President of Kansas 
State University, Jon Wefald, testified in front of an emerging 
threats hearing here in Washington, DC, about this issue. It 
was not something that a lot of us thought about.
    I would like to have you bring me up to date on where you 
think we are in regard to that threat.
    Secretary Napolitano. I think that threat is one of the 
many evolving threats that we continue to confront. One of the 
challenges, Senator, that we have been working on these last 
few years is to actually improve and replace our laboratory and 
diagnostic capability because one of the problems with these 
kinds of threats is exactly that. It is diagnostic, it is 
quarantine, and decisions need to be made on a very rapid basis 
if one of the sources of our food supply is beginning to be 
infected.
    We have been working with Kansas on the NBAF. One of, quite 
frankly, the concerns I have is that in the fiscal year 2012 
budget--somebody will correct me if I am wrong, I am sure--I 
think the Department asked for $150 million for fiscal year 
2012. The House mark was $75 million. The Senate mark was zero. 
I hope that can be explored, and perhaps in the conference 
between the House and the Senate, we can rectify that.
    That facility is, I think, necessary for really the next 
generation, not just for now but also for the future. And we 
need to always be thinking not only what is happening now but 
what we could be confronting, indeed, 10 years from now.
    Senator Moran. I certainly appreciate your comments in 
regard to the scientific aspect of this. In addition, is there 
any sense across the country of how we are now prepared, or 
better prepared, or less prepared to respond to the 
introduction of some contaminate?
    Secretary Napolitano. I would say overall we are better 
prepared. It obviously involves more departments other than 
just DHS, but there has been a lot of cross-departmental work. 
Some exercises have been done. Also, importantly, Customs and 
Border Protection, with respect to inspecting what can come 
into the country, has done a lot of work in this arena.
    Senator Moran. Thank you very much. Mr. Chairman, thank you 
very much.
    Chairman Lieberman. Thank you, Senator Moran. You are next, 
Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses for their service, and Director 
Mueller, thank you very much for your willingness to continue 
to serve.
    Madam Secretary, are you aware of the Government 
Accountability Office report of September 12, 2011, addressed 
to Chairman Levin and me on the subject ``Observations on the 
Costs and Benefits of an Increased Department of Defense Role 
in Helping to Secure the Southwest Land Border''?
    Secretary Napolitano. I am not sure I am familiar with that 
particular report, Senator.
    Senator McCain. Well, I would refer it to you for your 
reading.
    In the report it says, agency officials identified a number 
of broad issues and concerns surrounding expansion of DOD 
assistance in securing the Southwest border. Specifically, DOD 
officials expressed concerns about the absence of a 
comprehensive strategy for Southwest border security and the 
resulting challenges to identify and plan a DOD role.
    Are you aware of the Department of Defense concerns about 
the absence of a comprehensive strategy for Southwest border 
security?
    Secretary Napolitano. As I said, I do not know that report, 
but I have spoken both with Secretary Gates and Secretary 
Panetta about the fact that we do have a comprehensive border 
strategy, what it is and what roles DOD can play to assist us 
there.
    Senator McCain. So you disagree with the DOD officials' 
expressed concerns about the absence of a comprehensive 
strategy for Southwest border security.
    Secretary Napolitano. Vehemently.
    Senator McCain. Well, I would be glad to hear about your 
strategy because I have failed to see one yet, nor have those 
residents of my State.
    Secretary Napolitano. Senator, we have been trying to find 
a date to brief you over the last several months, and we just 
have not been able to arrive at one. But I am more than happy 
to come in and sit down with you again and go through what is 
happening.
    Senator McCain. Madam Secretary, I would be glad to receive 
that briefing. We have had one meeting, which was highly 
unsatisfactory, and you might want to broadcast your strategy 
to the residents of the Southwest who also, certainly the 
governors and Senators, agree that there is no comprehensive 
strategy, along with the DOD officials who expressed concern.
    I am sure you are familiar, Madam Secretary, with Operation 
Fast and Furious. Given the high level of information sharing 
between the departments, were you made aware of the operation 
while it was underway?
    Secretary Napolitano. No.
    Senator McCain. Let me be very clear for the record. You 
were unfamiliar with Operation Fast and Furious while the 
operation was underway.
    Secretary Napolitano. That is accurate.
    Senator McCain. While weapons were transported from the 
Southwest and the State of Arizona to Mexico, obviously, as we 
know, with serious flaws in the operation, you were not aware 
of it.
    When was the first time you or someone within DHS was made 
aware of the operation?
    Secretary Napolitano. Senator, I would have to go back and 
check, but it was, I think, around the time of the death of our 
agent in Southern Arizona.
    Senator McCain. And what action did you take at that time, 
once you were informed?
    Secretary Napolitano. Well, first of all, we want to make 
sure that the investigation into the cause of the death and 
prosecution was pursued vigorously, and that was being done. I 
did meet with the FBI agent in charge in Arizona at the time, 
and I was told that DOJ was referring the entire matter to the 
Inspector General. So we have reserved judgment until that 
report comes out.
    Senator McCain. When were you made aware that guns, which 
were allowed to walk during Operation Fast and Furious, were 
used in the murder of Border Patrol Agent Brian Terry?
    Secretary Napolitano. Sometime thereafter. I do not know a 
specific date, Senator.
    Senator McCain. Maybe you could supply that for the record. 
We would be interested.
    Have you come to any conclusions, Director Mueller, as to 
who was responsible for this operation? You are doing the 
investigation, right?
    Mr. Mueller. Senator, we are doing the investigation of the 
killing of the Border Patrol Agent, and that has been pursued. 
There have been submissions made in court pursuant to that 
investigation.
    The investigation with regard to the approval of the 
operation itself is being conducted by the Inspector General's 
Office of the Department of Justice.
    Senator McCain. And have you reached any conclusion so far?
    Mr. Mueller. I am not privy to what the Inspector General's 
investigation has shown at this juncture.
    I was concerned as I would be in terms of the extent to 
which there was FBI involvement, and I have reached the 
conclusion to believe that there was not FBI involvement in 
that particular operation.
    Senator McCain. So your conclusion is, who was involved?
    Mr. Mueller. Well, I mean, the fact of the matter is it is 
ATF, which was the principal agency involved.
    If you are asking about who was involved beyond ATF and the 
agents on the ground, or the others in the supervisory line, 
that is being investigated by the Inspector General's Office, 
and I am not privy to their findings to date.
    Senator McCain. So we leave it all to the Inspector 
General's Office as to their conclusions. You, as Director, do 
not have any role.
    Mr. Mueller. Well, we do not have a role in that particular 
aspect of the investigation. We have a very important role in 
bringing to justice those persons responsible for the death of 
the agent.
    Senator McCain. But you are awaiting an Inspector General's 
report.
    Secretary Napolitano. No.
    Mr. Mueller. Not on that. We are pursuing that 
investigation as to who is responsible, what weapons were used 
in the killing of the Border Patrol Agent, and we are working 
with the prosecutor to make that----
    Senator McCain. And what conclusions have you arrived at?
    Mr. Mueller. I believe that there are submissions made in 
court in support of--I would have to get back to you on where 
it is in terms of charging somebody.
    Senator McCain. It would be nice for you to get back to me, 
but we have a dead Border Patrol Agent. We have a situation 
which at least for a period of time was out of control. It has 
been now a number of weeks since this happened. And you would 
be glad to get back to me?
    Mr. Mueller. Well, I do not know the specifics of what 
charges have been brought in Arizona with regard to that 
particular shooting.
    Senator McCain. Well, can you share with us what 
information you have?
    Mr. Mueller. We have information relating to individuals 
who were there. We have individuals identified as a result of 
interviews we have conducted. We have done the forensics of the 
scenes. We have identified the weapons. We are pursuing the 
weapons.
    Senator McCain. And when will all of that information be 
made privy to the American people?
    Mr. Mueller. Well, it is an ongoing criminal investigation. 
My expectation is that much of that information will be made 
available in the criminal proceedings that are brought against 
the individuals responsible for that killing.
    Senator McCain. I thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator McCain. Next is 
Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman, for 
holding this hearing.
    I join all Americans across the world in mourning the loss 
of the thousands who died as a result of the terrorist attacks 
a decade ago. As we commemorate this solemn anniversary, we 
must acknowledge the tremendous progress over the past decade 
to secure our Nation against terrorist attacks.
    I want to commend both Administrations' resolve and 
successful strategy to prevent another attack. We must also 
commend the men and women who serve bravely in the military, as 
well as the Federal, State, and local workers in homeland 
security, law enforcement, intelligence, and other fields who 
have made essential contributions to combating the terrorist 
threat.
    This anniversary is an opportunity to reflect on how the 
attacks still affect our lives today. We must remain vigilant 
so that privacy and civil liberties are not sacrificed in the 
name of security. As we reaffirm that we will never forget 
those who died 10 years ago, let us resolve to continue to take 
steps to ensure that such a tragedy will never happen again and 
to strengthen the principles upon which our Nation was founded.
    The former Chairman of the 9/11 Commission just released a 
report listing nine of their recommendations that remain 
unfinished, including the absence of a functioning Privacy and 
Civil Liberties Oversight Board. In April, I joined Senators 
Lieberman and Collins in a letter to the President, asking that 
he nominate a full slate of members so the board could operate.
    And I would like to ask these questions to the panel, and 
if any of you can comment, fine. Otherwise, if you can provide 
it for the record, that will be fine, too.
    What is the status of the board being formed and how are 
counterterrorism efforts reviewed--and this is the important 
part--for privacy and civil liberty concerns, given that the 
board is dormant?
    Madam Secretary.
    Secretary Napolitano. Senator Akaka, I do not know the 
status of the board itself. I can say that at the Department, 
we have a presidentially appointed Privacy Officer who runs a 
Privacy Office. They are integrated into all of our program 
planning, particularly with respect to information sharing and 
how that is done--making sure, for example, that when we enter 
into MOUs with the NCTC on the exchange of information, we 
include within those limitations on uses and users, audit, 
training and also that we, with respect to U.S. persons, put 
some special limitations on time of retention of certain types 
of records so that those kinds of privacy concerns we think 
about before we move forward. They are important to protect.
    Mr. Mueller. Senator, we have three ways.
    The first is, we have attorney general guidelines--we have 
had them for a number of years--that guide our investigative 
activities.
    Second, we do also have an individual responsible for 
overseeing our particular initiatives from the perspective of 
impact on privacy and civil liberties.
    And third, again, when we have some form of initiative that 
is being undertaken, we have a panel review of that initiative, 
which has a person certainly from our legal counsel's office 
but also from the Department of Justice that oversees that 
particular undertaking as being reviewed by the panel.
    Mr. Olsen. Senator, I do not know the status of the board, 
but I would say that at NCTC, we really have what I would 
consider to be three layers of oversight that consider our 
activities from a civil liberties and privacy perspective.
    First, internally, we have a Civil Liberties and Privacy 
Officer assigned to NCTC. The sole purpose of his role is to 
review our activities from that perspective. We also have 
attorneys within the General Counsel's Office of the DNI who 
conduct somewhat the same activities with respect to our work.
    Second, all of our handling of U.S. person information is 
done pursuant to attorney general guidelines as Director 
Mueller made reference to. As well, when we handle information 
that was obtained under the Foreign Intelligence Surveillance 
Act, the FISA Court has a role in overseeing that activity.
    And then finally, I would mention that we are subject to 
very robust congressional oversight through the House and 
Senate Intelligence Committees.
    Senator Akaka. Thank you.
    Secretary Napolitano, as you know, the Asia-Pacific 
Economic Cooperation leaders' meetings will be held in 
Honolulu, Hawaii, in November. This high profile event has 
raised concerns that Hawaii could be a target of a terrorist 
attack. Local residents have also expressed concerns about the 
Island of Oahu being locked down as a result of security 
measures.
    How are the U.S. Secret Service-led security plans 
progressing and how will they inform the public about areas to 
avoid and businesses impacted by security measures?
    Secretary Napolitano. Thank you, Senator. The meeting you 
reference has been designated a National Special Security 
Event, a meeting for which the Secret Service will provide lead 
organizational responsibilities, but we will work very closely 
and are integrated with officials in Hawaii and local law 
enforcement. They are an integral part of planning and 
execution in any NSSE event.
    As the event gets closer, there will be a public relations 
plan, for lack of a better phrase, to make the public aware of 
what areas will be closed down and the like.
    One thing I would say to reassure the residents of Oahu is 
when we do these NSSEs, we are very conscious of the fact that 
people actually live in these cities and they still need to get 
to work and school, and so forth. For example, next week, we 
will have the U.N. General Assembly convene, and we will have 
many national leaders in New York City, and still New York City 
will work and people will be able, and have been able, to get 
to where they need to go for the most part.
    So we are very sensitive to that. We acknowledge that. I 
just use the General Assembly as an example of an event that is 
perhaps even more complex than the one in Oahu to say that we 
have some experience here and we will deploy our best efforts 
in Hawaii.
    Senator Akaka. Thank you. Thank you very much, Mr. 
Chairman.
    Chairman Lieberman. Thanks, Senator Akaka. Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Thank you, and thank you to the panel for 
coming today and these presentations.
    Secretary Napolitano, we have admitted about 70,000 Iraqis 
over the past 3 years. Two of which I think Senator Collins 
brought up earlier were arrested recently in Bowling Green on 
accusations of conspiring to be involved with terrorism.
    I can kind of understand that after we lost the war in 
Vietnam, the communists took over and people who sided with us 
or fought with us would be executed. But my understanding is we 
won the war in Iraq, and we are admitting 70,000 Iraqis when we 
won the war and there is a democracy over there.
    What reason do we have to be admitting so many, and is the 
policy of the Administration to continue to admit so many, and 
is it not a danger to our country and overwhelming us with 
numbers of folks who have to be screened and apparently 
sometimes are not screened properly?
    Secretary Napolitano. Well, Senator, as I explained 
earlier, we have now gone back and rescreened the Iraqi 
population who were admitted as refugees against all of the DHS 
databases, the NCTC databases, and the Department of Defense 
biometric databases, and for any future refugees, we will 
continue to do the same.
    And then, if there are particular hits or particular 
concerns on individuals, we refer them sometimes to the FBI to 
do further investigation or checking.
    Senator Paul. Does the Administration have a position 
though on admitting so many people and continuing to admit so 
many people from Iraq?
    Secretary Napolitano. Well, the refugee program was begun 
under the prior Administration, Senator, and many of the 
individuals who have been rechecked were admitted then.
    With respect to the current time, if people qualify for 
refugee status under the law, they will be permitted to come 
in, but they will be vetted.
    Senator Paul. I understand the number though is determined 
by the Administration. Your Administration determines the 
number, and if you decided you wanted to have 3,000 next year, 
my understanding is under the law you could.
    Secretary Napolitano. My understanding, Senator, is that is 
being done primarily by the State Department and a number of 
considerations are taken into account.
    Senator Paul. The argument is that it is unsafe in Iraq, 
but I think it is sort of an insult to our soldiers who are 
over there to say that it is unsafe. Our soldiers are still 
there protecting their country, but it is so unsafe that Iraqis 
get to leave and come over here.
    I guess really to add insult to injury is not only do we 
bring them over here, but both of these people who are accused 
of terrorism in our country were living in government housing 
and on food stamps.
    Now in the 1996 Welfare Reform Act, we said that if you 
come here legally through immigration, you would not qualify 
for welfare. I think we should change that.
    Does the Administration have a position on refugee status 
and whether or not they should be coming here and immediately 
put on welfare?
    Secretary Napolitano. Senator, I cannot answer that 
question right now. I will get back to you.
    Senator Paul. Bowling Green seems to have been in the 
news--Bowling Green, Kentucky, where I am from. We had a little 
girl from Bowling Green, who was on Good Morning America, who 
had a TSA agent do an invasive search inside of her clothing, 
inside of her pants. We had an 8-month-old who had his diaper 
inspected. Then we had a 95-year-old who had his diaper taken 
off and inspected and stayed, I presume, for hours waiting to 
get through the TSA.
    Earlier this year, TSA Administrator Pistole said that we 
need to do these invasive searches, and he said that we may 
slow down or we may not do them as much.
    But then he sent me a letter and said that we absolutely 
have to because an 8-year-old in Kandahar exploded a bomb.
    To me, I think that shows a bit of naivete to think that 
somehow there is a similarity between an 8-year-old in Kandahar 
and an 8-year-old in Bowling Green, Kentucky. I mean, the only 
similarity is their age, and I would not consider age to be a 
risk factor. If anything, age might argue against a risk. But 
to say that she is the same age as someone who exploded a bomb 
in Kandahar--I mean, we have to bring some sense to what we are 
doing in this country.
    After 10 years, why do we not have a frequent flyer 
program?
    A big bulk of those traveling are traveling two to three 
times a week, and yet, we treat everybody equally as a terror 
suspect. In doing so, we take away time that could be spent on 
those who would be.
    I would have a frequent flyer program. I would have it in a 
month, and I would take half of the TSA agents, and I would 
have them looking at the manifests of those flying from foreign 
countries. I would want to know who is on every flight.
    I do not know how far in advance we are doing this, or if 
we are doing it, I would like to know a month in advance.
    I would make strict rules on those flying internationally. 
I think that is the biggest risk.
    With those 70,000 people coming from Iraq, we say that we 
are going to vet them, but we missed fingerprints that they had 
on an IED. Even if we do things perfectly, the haystack is too 
big.
    Think of our army. We have people about once every couple 
of months in Iraq or Afghanistan who we admit into the Army to 
help us. They are supposedly our allies, and they turn around 
and shoot us. It is hard to vet these people.
    This was an extraordinary circumstance that we had a 
fingerprint and we missed it, but most of the time they could 
be completely lying to us as they go through the vetting 
process. We bring them here, put them on government welfare, 
and then they are here to attack us.
    We have enough problems in our country. We have a lot of 
poverty in our country. We do not need to be admitting the 
world's poverty problems, and I think the Administration needs 
to take a position to lessen the numbers of people coming in 
from Iraq.
    You need to take a position and move forward on a frequent 
flyer program, and we need to not just be told there is some 
day going to be risk assessment. We need to start doing risk 
assessment and paying attention to the people who could attack 
us, and not wasting and diverting our time and resources and 
insulting the dignity of those who are traveling.
    Secretary Napolitano. If I may, Mr. Chairman, I will simply 
say with respect to the movement to a risk-assessed based 
strategy in the TSA, that is exactly what we are doing. And as 
I said earlier in the hearing, we will be rolling out slowly 
because you have to train agents as you do this. We move almost 
1.8 million passengers a day, and we always have to have a 
certain amount of randomness and unpredictability in the system 
because the minute you say an entire group is exempt from 
screening, they can be exploited as a possibility.
    But your point about travelers who are low risk is 
something that we accept. We are moving to expand the global 
entry, which is for international travelers. We just passed our 
1 millionth traveler. We are moving to expand that.
    We are moving to loosen restrictions on children under the 
age of 12 and also to amend the pat-down procedures that are 
used.
    So these improvements are underway, but I would caution, 
Senator, that when you say do it in a month, we need to move on 
a deliberate pace but a careful pace. Our adversaries are very 
determined, and they are very determined with respect to the 
aviation system. We want to make sure that we do it right.
    Senator Paul. One quick follow-up to that. Really, I agree 
with you. It is probably not that smart to say absolutely that 
we are never going to search anyone under 12 years old. But for 
goodness sake, could we not make a difference between an 8-
year-old from Bowling Green and an 8-year-old from Kandahar?
    I do not mind if someone is coming from Pakistan or 
Afghanistan next week, that you spend a little more time, but 
we need to understand and use more common sense with what we 
do. And it really would, in practical purpose, mean that 
probably 99 percent of kids under 12 would not be patted down, 
and that would be a lot better for most of us who are insulted 
by what they are doing now.
    Chairman Lieberman. Thanks, Senator Paul. Thank you. 
Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you very much, Mr. Chairman. Sorry 
that I could not be here for most of this because I was 
chairing, as you know and Senator Collins knows, the Armed 
Services Committee hearing on the confirmation of Ash Carter.
    Let me welcome you all. I join my colleagues in doing that.
    Director Olsen, let me start with you. I think you note in 
your prepared testimony that the homegrown violent extremist 
activity remains elevated with U.S.-based extremists taking 
inspiration and instruction from al-Qaeda's global efforts in a 
wide range of its English language propaganda. Part of that 
propaganda was a recent online video released by an American-
born confirmed al-Qaeda operative in which he urges al-Qaeda 
followers and sympathizers to exploit U.S. gun laws and to 
purchase firearms.
    Now, under current gun laws, individuals are allowed to 
purchase a firearm without an FBI background check if they are 
buying from a private seller, such as those at gun shows. Does 
that loophole make it easier, in your judgment, for homegrown 
extremists to purchase firearms for use in a terror attack?
    Mr. Olsen. Senator, I have not looked at the gun laws and 
after 4 weeks in my position would be reluctant to comment on 
that.
    Senator Levin. Will you comment on that and get us a 
report?
    Mr. Olsen. Yes, sir.

            MR. OLSEN'S RESPONSE TO SENATOR LEVIN'S QUESTION

    Response: As Senator Levin points out, individuals who 
purchase firearms from federally licensed firearms dealers are 
subject to background checks. Individuals who purchase firearms 
from private sellers are not subject to FBI background checks. 
Federal law makes it unlawful for certain categories of 
persons, such as convicted felons, to transport, possess, or 
receive any firearm or ammunition. See 18 U.S.C. Sec. 922. It 
is my understanding that the FBI uses the National Instant 
Criminal Background Check System (NICS) to determine whether 
individuals seeking to purchase firearms from federally 
licensed firearms dealers are eligible to make such purchases.

    Senator Levin. Thank you. Director Mueller.
    Mr. Mueller. Yes.
    Senator Levin. And with that FBI background check of 
individuals purchasing a firearm from private individuals, in 
your judgment, would that help reduce the threat to us from 
U.S.-based violent extremists?
    Mr. Mueller. I would have to put it like this: A background 
check is important in identifying those persons who have some 
reason for being in the databases, and enhanced coverage of the 
purchase of weapons would give us a greater ability to identify 
persons who should not have weapons and prevent them from 
getting weapons.
    Senator Levin. That would include the purchase from private 
sellers such as at gun shows?
    Mr. Mueller. Yes.
    Senator Levin. Thank you.
    Fifty States now form nearly 2 million new corporations 
each year without knowing who really owns them. The failure to 
collect ownership information--the actual owners, so-called 
beneficial owners--invites wrongdoers to misuse U.S. companies 
for terrorism, money-laundering, tax evasion, and other crimes. 
It is a subject this Committee has been examining now for some 
years.
    In August, Senator Grassley and I introduced S. 1483, the 
Incorporation and Transparency in Law Enforcement Assistance 
Act that would require disclosure of beneficial ownership 
information in the company formation process.
    At that time, the Treasury Department was very supportive 
and announced the following: ``The bill would substantially 
advance the Administration's fundamental interest in ensuring 
the availability of meaningful beneficial ownership information 
about companies created in the United States.''
    And they went on: ``Such legislation is critical to the 
Administration's objective of protecting the global financial 
system and strategic markets from abuse.''
    So we want to first of all thank the Treasury Department 
for that support, and we are wondering, Secretary Napolitano, 
whether or not the Department of Homeland Security takes the 
same supportive position that we need to know for law 
enforcement purposes, just for law enforcement purposes, who 
the beneficial owners of the corporations are in order to 
prevent terrorists and other malfeasers from misusing shell 
corporations to launder money or for other nefarious purposes.
    Secretary Napolitano. Yes, we support it.
    Senator Levin. I would hope, Mr. Chairman, that we can take 
up this bill again. I know you have had it on the agenda a 
couple times, and it has, for various reasons, been on and off 
our markup.
    But I think it is important that we have the testimony from 
law enforcement here this morning that we need to do what other 
countries do, by the way. We go after these tax havens for 
allowing their jurisdictions to be used to avoid taxes from 
being paid, but one of the things they do at least is they get 
the beneficial owners of corporations on record so that they 
know who actually owns the shell corporations, at least in many 
cases.
    And I would hope that, again, we would be able to take that 
up, and the support of the Treasury Department and the 
Department of Homeland Security is very helpful. I just wanted 
to get that on the record for us.
    On the Northern border, the GAO in February reported that 
there are serious security threats to the Northern border and 
that the risk of terrorist activity is high. It said that DHS 
reports--now this is the GAO saying that the DHS reports--that 
the terrorist threat on the Northern border is higher than on 
the Southern border, given the large, expansive area with 
limited law enforcement coverage. That was on page one of that 
report.
    However, even with that high risk of terrorist and other 
illegal activity on the border, the Border Patrol reports that 
``only 32 of nearly 4,000 Northern border miles in fiscal year 
2010 had reached an acceptable level of security.''
    I am wondering if you would tell us here today or for the 
record, Secretary Napolitano, whether that number of Northern 
border miles has increased.
    Secretary Napolitano. I believe it has, and as we have 
discussed in other contexts, that use of the phase operational 
control is a term of art.
    We have a Northern border strategy. It had to be cleared by 
OMB. It now has been completed, but we want to update it with 
the full fiscal year's statistics prior to publishing. It will 
be published shortly.
    The other change I think that is very significant is what 
is called the Beyond the Border strategy that we now have with 
Canada, which is a law enforcement information sharing 
perimeter-oriented strategy that really did not exist 2 years 
ago when I think a lot of that report was probably researched. 
That is going to be of enormous importance because it takes 
pressure off of the physical U.S.-Canadian border and allows us 
to expand the border outward.
    Senator Levin. If you could, in your own words, get us the 
number of miles of border that have an acceptable level of 
security. I do not mean now. Get it to us for the record, if 
you would.
    Very quickly, if I could, Mr. Chairman, I know my time is 
up, but I just have one more question and then I have a thank 
you.
    The Urban Areas Security Initiative has a very complex 
funding allocation formula, and one of the questions is whether 
or not a location is on an international waterway. For reasons 
which are totally incomprehensible, Detroit is not listed as 
being on an international waterway when it is. The Detroit 
River is an international waterway between the United States 
and Canada, and not only that, it has more commerce crossing 
that river at Detroit than any other place probably in the 
world, much less in the country, in terms of commerce crossing 
that bridge particularly in Detroit.
    Will you take a look at that, Madam Secretary, that issue 
of whether or not Detroit is on an international waterway? Find 
out for us why the City of Detroit is not listed because it 
makes a difference in terms of allocation of resources. So will 
you take a look at that?
    Secretary Napolitano. Yes, I will drill down on that for 
you, Senator Levin.
    Senator Levin. Finally, a thank you. Two days ago we 
remembered 9/11. And following 9/11, there was a small group of 
people in Detroit representing the Arab-American community and 
representing law enforcement that came together and formed a 
group called BRIDGES.
    And there has been a really strong connection between the 
law enforcement community under the leadership of the U.S. 
Attorney in Detroit, but including also elements of the 
Homeland Security Department, so that the communication is far 
better. The trust is far better. They work shoulder to shoulder 
now against violence and hatred. It is an important group 
because if you have the support of community, whatever 
community it is, working with law enforcement, it is a great 
source of American security.
    And that kind of support in the Arab-American community, in 
the Muslim-American community is reflected in that group where 
law enforcement--Federal law enforcement and State and local 
law enforcement--are represented for frequent meetings. They 
also memorialized their anniversary the other day with their 
annual dinner.
    And it is a very reassuring thing to see law enforcement in 
our communities, period, whatever the community is, working so 
closely together. That is where security is really enhanced. It 
is not just the typical law enforcement security, which is 
important--protecting borders and doing other things--but it is 
also having the support of the people in our neighborhoods, in 
our communities working shoulder to shoulder with law 
enforcement.
    I just want to commend you both. The FBI is actively 
involved in that. The Justice Department, U.S. Attorney, and 
also your elements of DHS are very much involved. And it was 
kind of heartwarming to see that, and we all feel a lot more 
secure when that is true. Thank you.
    Thank you. I am sorry I went over.
    Chairman Lieberman. No, thank you. I join you in that thank 
you. The Bureau actually was out there right after 9/11, and 
that probably surprised a lot of people, in outreaching to the 
Muslim-American community, and it continues to do that. We 
appreciate that.
    Senator Collins and I would like to ask just one or two 
more questions. You are a very steadfast, resilient group, and 
I am sure that you have faced worse challenges than the two of 
us, and just for a few minutes more.
    I want to ask you a wrap-up question. We have had a lot of 
good testimony, good discussion. Of course, I feel very 
positively about what we have accomplished over the last 10 
years. Looking to the next year, let me know what your top one 
or two priorities are of what is not done to your satisfaction 
yet in terms of your Department, your Bureau, and your Center.
    Secretary Napolitano. Mr. Chairman, our Department has so 
many elements to it, but I think over the next year, we will 
continue to improve and expand information sharing and analytic 
capability with the FBI, NCTC, and other agencies within the 
Department and outside the Capital Area to the rest of the 
country.
    I believe that cybersecurity will be an increasing area of 
focus for us as we deal with, as Director Mueller said, really 
that emergent threat in the cyber world.
    I think we will see over the next year a movement toward a 
more risk-based screening process for passengers, particularly 
in the air environment.
    And last, we want to move toward, we call it--and you heard 
it in the video that you began the hearing with--one DHS. We 
are still in the building process, the knitting together 
processes involved with putting 22 agencies together, and I 
think we will see even more progress in the year ahead.
    Chairman Lieberman. All right. You have a busy year ahead 
of you. Director Mueller.
    Mr. Mueller. First would be the federated searches 
capability, both internally and externally, so that while we 
have to keep, for a variety of reasons, different database 
structures, there has to be the ability to pull information 
very easily from those databases.
    Chairman Lieberman. Give us a little background for people 
listening.
    Mr. Mueller. If we have information off a FISA intercept, 
there are minimization procedures, or procedures about to whom 
that information can be disseminated----
    Chairman Lieberman. Right.
    Mr. Mueller [continuing]. Which requires us to keep it in a 
separate database. But what you want to do is give the analysts 
the ability to understand if there is anything in that database 
on a particular individual, email address, or the like.
    Chairman Lieberman. Right.
    Mr. Mueller. While for a variety of reasons we have to keep 
separate databases, whether it be from security or from 
statutory direction, there has to be the ability to do the 
federated searches across those databases, both internally as 
well as externally, which is where NCTC is putting a great deal 
of its effort.
    So we all have to get our own houses in order in order to 
be the platform for the government as a whole to be able to do 
this kind of search capability.
    Chairman Lieberman. Do you need statutory changes to do 
that?
    Mr. Mueller. It would be difficult, if you take the FISA 
statute, for instance.
    Chairman Lieberman. Yes.
    Mr. Mueller. We have just gone through the update of the 
PATRIOT Act, and I am not certain it is something that would 
easily get through. So while conceivably you could do it, it is 
unlikely to happen very shortly, and consequently, we have to 
utilize technology.
    Second, as pointed out earlier, is the cyber arena. 
Adjusting our organizations to address the cyber threat in new 
ways that will make us more effective as a united entity is 
going to be a huge issue.
    Third, is the necessity for assuring that new mechanisms of 
communication that are being developed daily by the new 
entrepreneurial information technology capabilities by various 
companies--I do not want to necessarily name them here--but it 
is not just the communications carriers that carry 
communications now. It is Google, Facebook, all of them.
    Chairman Lieberman. Right.
    Mr. Mueller. And the necessity of assuring that in response 
to a court order giving us the right to obtain those 
communications, there is the capability of those persons or 
those entities to respond to those court orders is something 
that I will be addressing. We cannot afford, as we say, to go 
dark.
    The last thing I would say very quickly is with enhanced 
information technology comes additional administrative burdens. 
One of the challenges we have is to make certain that our 
agents or people are spending their time on the substance----
    Chairman Lieberman. Right.
    Mr. Mueller [continuing]. And removing some of the 
administrative burdens and obstacles to getting out there and 
doing the work that we want to pay them to do. That, for us, is 
an issue that we continuously fight.
    Chairman Lieberman. So it is a substantive list. On that 
third one, about gaining access to information from the 
unconventional, the new communications media, that might 
require legislation?
    Mr. Mueller. I think it will. I think you may see some 
suggestion with regard to legislation. And I would say most of 
the companies are very patriotic and working on capabilities, 
but we have to make certain that they have the capability to 
respond to the court orders.
    Chairman Lieberman. Right, because a lot of times those 
recipients of court orders want the statute to make clear their 
obligations.
    Mr. Mueller. True.
    Chairman Lieberman. Mr. Olsen.
    Mr. Olsen. Thank you, Mr. Chairman.
    Picking up on the theme of information sharing, it is 
similar at NCTC. As you both know very well, the founding 
principle of NCTC was to break down the silos of information 
and provide a place where information from the CIA, DHS, the 
FBI, and NSA could be brought together. We have made 
significant progress in doing that, largely through bringing 
people together in one place from each of those organizations.
    I think the next step in that process is to have that 
information. We have much of it but to continue to gather that 
information, ingest it, have it available at NCTC where we then 
can do exactly what Director Mueller talked about at NCTC--
search across databases, not have an analyst go to one 
database, go to another database, and go to a third, but be 
able to find the connections that are so elusive by being able 
to search seamlessly across all those databases. So that is 
one, and that is a significant priority for us.
    Second, I mentioned the Pursuit Group. I think that there 
is a lot of potential there. This was something started in 2010 
to fill a gap by looking for less obvious connections among 
pieces of information, among people, and then to be able to tip 
those leads off to the operational entities that can follow up, 
whether that is CIA, FBI, or DHS. I think there is a lot of 
potential there, and I am going to continue to focus on that.
    And third is an area I know that is of significance to both 
of you, and that is countering violent extremism. This is an 
area where NCTC has played a vital role, and I think we will 
play an increasingly important role in the next year in 
particular as we do a couple of things, but the one I will 
highlight right now is to develop the implementation plan for 
the Administration's new framework, a strategy for countering 
violent extremism.
    We have done a number of things on the intelligence side 
and on the operational planning side to prepare law enforcement 
to understand the radicalization process, to help communities 
understand where to look for threats within their neighborhoods 
and their communities, but there is a significant amount of 
work to do in this area, and I think NCTC is going to play an 
important role.
    Chairman Lieberman. We agree. As you may know, Senator 
Collins and I just sent a letter to Mr. Brennan, expressing 
disappointment with a lot of that report, and a lot of the 
disappointment had to do with the lack of detail, a lack of 
clarity, at least as we read it, about who was in charge but 
also what is going to happen.
    Insofar as you are going to put some flesh on the bones, or 
whatever the metaphor is, clarify that urgently, that would be 
very important.
    I thank all three of you. It is interesting how much cyber 
comes up. And also, these remarkable instruments of data 
analysis retention, which have helped us enormously, just were 
in play in the last week with the latest threat stream. But we 
can yet do better at that, as you have all said. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Olsen, let me take up where you just left off because I 
was going to talk to you about who is the lead for countering 
violent extremism.
    I know that the White House is the lead for policy and put 
out what is in our view a disappointingly sketchy strategy. But 
is the NCTC going to be the operational lead for 
implementation?
    Mr. Olsen. We will not be the lead for the operational 
implementation. The National Security Staff and the National 
Security Council at the White House has the lead for developing 
the policy. And we at NCTC play a role and will be front and 
center in developing the implementation plan, putting the flesh 
on the bones for that broad policy, but the agencies and 
departments with specific authorities and responsibilities in 
each area will be responsible for operationally implementing 
that plan.
    I think the overall picture, as I understand it, is 
centralized policy development but decentralized operational 
implementation because there is a number of agencies and 
departments that have a particular expertise or role or set of 
authorities that they can take advantage of.
    Senator Collins. I share the concern of the Chairman that 
we do not have one person who is accountable to Congress, who 
is in charge of the strategy. I mean one of the problems of 
running it out of the White House is the individuals on the 
President's staff are not accountable to Congress. So for us to 
exercise oversight in this extremely important area becomes 
impossible.
    I am going to push with the Chairman to continue to argue 
that we need one person accountable to Congress who is clearly 
in charge of the strategy for CVE and for homegrown terrorism. 
I am glad that NCTC is involved, but it sounds like everybody 
has a piece of it. I understand why that can be desirable, but 
there has to be one person in charge.
    Let me, because I know we are wrapping up, switch to two 
other issues I want to touch on before we adjourn. I, too, am 
pleased to hear the priority placed on cyber security. When I 
look at the threats that we face that I feel we are least 
prepared for, cyber attacks, homegrown terrorism, and chemical/
biological weapons top my list.
    I read just recently a very interesting piece that General 
Michael Hayden wrote in which he argued that government is 
being too secretive about cyber security vulnerabilities, 
which, in turn, prevents the private sector from sufficiently 
addressing the threat and how to address it.
    He says, ``Let me be clear: This stuff is overprotected. It 
is far easier to learn about physical threats from U.S. 
Government agencies than to learn about cyber threats.''
    And that is one reason the Chairman and I, along with 
Senator Carper, have introduced a bill. It mirrors many of the 
recommendations of the Department of Homeland Security and the 
Administration to require the government to share actionable 
cyber information with the private sector.
    I would like to ask the Secretary and you, Director 
Mueller, what you see as the biggest impediments to the timely 
sharing of cyber threat information and also cyber breaches 
with the private sector and with other agencies. I will start 
with you, Director Mueller.
    Mr. Mueller. On the one hand, there is some reluctance of 
the business community to share breach information with the 
government. That, I think, is going to be addressed, and we 
would want that to go to DHS and the FBI, so we can act very 
quickly on it.
    It is interesting to see General Hayden articulating this 
particular view. He probably could answer the other side of it, 
and if he were here 2 years ago, he would have been answering 
the other side of it.
    Senator Collins. That is true. I appreciated the irony 
also.
    Mr. Mueller. Yes, there is a very substantial imperative 
that to the extent possible, we share the information that will 
allow the private industry to protect itself from cyber 
intrusions to the extent that it does not disclose capabilities 
that we need elsewhere.
    It is not only a criminal case for an intrusion in the 
United States, it is also often a national security risk, which 
we have to treat as a national security risk, and there are 
capabilities out there that you do not want to be disclosed 
because you would lose that capability.
    And so, it is sometimes a difficult balancing act to make 
certain we push out as much information as we can, and we 
should. But there are some good reasons often that you cannot 
give as much detail as you would like, but you can give a 
generalized warning.
    But there are some equities on the other side that we 
cannot go into here. I do believe--and I think the Secretary 
can probably address it--we are making great strides in trying 
to make available information that 2 or 3 years ago we would 
not have been able to do and are currently doing.
    Senator Collins. Madam Secretary, do you have anything to 
add?
    Secretary Napolitano. Well, first of all, I hope the 
legislation moves forward. I think it is a good piece of 
legislation and necessary to establish authorities and 
jurisdiction, and the like. So we will work with you in that 
endeavor.
    We need to keep focused on building out our information 
sharing capabilities at DHS through the US-CERT, through the 
NCIC facility and others. We have worked with the DOD on our 
ability to use some of the assets of the NSA under appropriate 
circumstances.
    But the whole cyber arena, from a DHS perspective, is going 
to be a growth area. The information sharing with the private 
sector, particularly critical infrastructure aspects of the 
private sector, will be key for us, and then as Director 
Mueller said, getting information back in a timely fashion. And 
all of this needs to move very quickly.
    Senator Collins. Thank you. Finally, I want to touch on the 
decision to make public the threat of last weekend.
    The Sergeant at Arms sent out an email message to, I 
believe, all employees of the Senate as well as to all Senators 
in which he talks about the announcement and says that the 
announcement was ``well intentioned, perhaps helpful, but not 
very well coordinated.'' This obviously worries me because the 
Sergeant at Arms is a key player when it comes to protecting 
the Washington, DC, area.
    We followed up with the Sergeant at Arms. First, let me say 
that he said that coordination is 100 percent better than it 
used to be, that the FBI's local office had worked very closely 
with them.
    But here is what he said happened. First, he was told--as 
we were, I might add--that the information was classified and 
closely held, and as he said, that is pretty typical and an 
understanding approach.
    But then he said that the decision to go public caught them 
off guard. They were out of the loop, and essentially, it 
sounds like they learned about it on television. What is your 
response to this critique?
    And again, so that I am not taking this out of context, he 
did praise the local FBI office, he did say that coordination 
is 100 percent better than it used to be, but he said the 
decision to go public took them by surprise. And that, it seems 
to me, should not have happened, given what a key player the 
Sergeant at Arms is since he controls the Capitol Police. Madam 
Secretary.
    Secretary Napolitano. It is kind of difficult to respond 
out of context. The decision was made to share the threat 
because it was credible and specific and to share it out 
through joint bulletins. There was a Joint Intelligence 
Bulletin with the FBI, to share it out through law enforcement, 
particularly in the affected areas, which were Washington, DC, 
and New York, which were the targets of the threat stream.
    There was not a public elevation of the threat because the 
information was already getting out and actions were already 
being taken in response so that when he says he did not know it 
was going public, if he means there was some kind of public 
press release, there was not. There was information that was 
shared through law enforcement channels, as it should have 
been, for law enforcement to be more aware of what the threat 
was and what to watch for.
    So whether or not he received that information, I do not 
know, but the information was put out through law enforcement 
channels.
    Senator Collins. Director Mueller.
    Mr. Mueller. We take the position from September 11. To the 
extent that we have threat information and imminent threat 
information that is specific to a particular jurisdiction--New 
York, Washington, Dubuque, it does not make any difference--the 
persons responsible for securing those communities should have 
the information. And we find a way to get it to them, whether 
it be a bulletin or through the Joint Terrorism Task Force.
    Inevitably, that opens the circle of persons who have 
information on that threat.
    Inevitably, the person responsible, whether it be in New 
York or Washington, DC, the police chief or otherwise, says, I 
have to respond to this threat. And so, you will have actions 
taken in each of the jurisdictions that are affected that raise 
the public's consciousness.
    And often, as a result of the raised public consciousness, 
there has to be an explanation of why you are doing car stops 
or why you have more people on the street.
    And it is that cycle where the information comes out 
without a conscious decision at one particular point in time--
we are going to go public. The reports come in. The questions 
come in. And the decision is made that you have to give as much 
information as you can to put it in particular context.
    If it has happened once, it has happened 50 times since 
September 11.
    And if I get one criticism from State and local law 
enforcement officials, it is always: Director, why do I have to 
hear about it on CNN?
    And the fact of the matter is the combination of wanting to 
inform people who are immediately affected by it with the 
understanding, as you open the circle, it is going to get on 
CNN probably sooner rather than later. It is a fact of life.
    Senator Collins. It is, and I do not disagree in any way 
with the decision to go public because I think you want more 
people on the alert. I think you want the average citizen 
watching for suspicious activity. But it does trouble me if a 
person such as the Sergeant at Arms, in such a key position, 
did not know that there was going to be a decision made to go 
public.
    So I would be happy to share the email that he sent to all 
of us with you.
    Mr. Mueller. I would like to see it, and we will be 
talking.
    Senator Collins. And he does an excellent job.
    Mr. Mueller. He is terrific. He is terrific and a great 
partner with us.
    Senator Collins. Let me just be clear on that, which is why 
I brought up his concern. Thank you very much.
    Chairman Lieberman. Thank you, Senator Collins.
    And of course, he was previously the Chief before he became 
the Sergeant. So he has the background.
    So it is interesting. I do not want to keep you any longer 
really, but there was not a decision really made, for instance 
in the White House, to go public with this information. There 
was a decision made, for all the factors you indicate, to 
disseminate part of the information that you had on the threat 
to State and local law enforcement at a for-official-use-only 
level, not classified. But the presumption is, based on 
experience, that once you do that, people are going to start 
talking and it is going to find its way to the media.
    So have I got it right?
    Mr. Mueller. Yes, and the person, the recipient, the police 
chief, or others responsible for public security in that 
community, has to take steps.
    Chairman Lieberman. Yes.
    Mr. Mueller. If you take steps to respond to that threat, 
the question is going to be asked, why are you taking these 
steps?
    Chairman Lieberman. Right.
    Mr. Mueller. So it is a response to questions that 
inevitably build up as you go forward and the local communities 
or the Federal community take the steps necessary to address 
the threat.
    Senator Collins. But, Mr. Chairman----
    Chairman Lieberman. Go right ahead.
    Senator Collins. Was there not a press statement actually 
put out by the Department of Homeland Security? When we were 
briefed by John Brennan, he told us that DHS was going to be 
the lead on the public announcement.
    Secretary Napolitano. Yes, but that was later on in the 
sequence. That was not at the immediate time that we put out 
the FOUO document, as I recall.
    Chairman Lieberman. Good enough. Incidentally, I think 
Senator Collins already said this. We discussed this. We both 
felt that this was a case where the balance of public interest 
and safety was in putting this information out, not everything, 
but that there had been a specific, credible, unconfirmed 
threat.
    Before we close, Senator Rockefeller has filed a statement 
with the Committee, which I want to include, without objection, 
in the record, in which he discusses the importance of 
allocating the D-block to first responders, and I agree with 
him totally.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Rockefeller appears in the 
Appendix on page 994.
---------------------------------------------------------------------------
    I want to thank all of you again. It is just very 
impressive what you and all the people who work with you have 
done over the last 10 years.
    We are at a time of national pessimism, and a lot of it is 
understandable because of the economy. But it just seems to me 
if people in the country will think back to 9/11 and think what 
we have done since. We stood up two new organizations here, and 
the third, the FBI, was dramatically transformed. The benefit 
is an enormously improved homeland security.
    I do not think there is another country in the world that 
could have done it as well as we did. Frankly, without being 
too explicit, there are other countries in the world, close 
friends of ours, who probably should have done a lot of what we 
did and have not yet.
    But in any case, really, I think we all have reason to be 
grateful to you and, again, everybody who works with you on our 
behalf. So I thank you.
    It has been a very informative and encouraging hearing. And 
the work is not over, as we all know, and I look forward to 
continuing to work with you all.
    The record of the hearing will be held open for 15 days for 
any additional questions or statements.
    With that, the hearing is adjourned.
    [Whereupon, at approximately 12:38 p.m., the hearing was 
adjourned.]


      TEN YEARS AFTER 9/11: A STATUS REPORT ON INFORMATION SHARING

                              ----------                              


                      WEDNESDAY, OCTOBER 12, 2011

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:34 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, presiding.
    Present: Senators Lieberman, Carper, and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order.
    Good morning and welcome to all of our witnesses, who I 
thank very much for coming here today to help us review the 
status of information sharing among law enforcement 
intelligence communities at all levels of government in the 
United States and to determine what, if anything, we still 
should be doing to achieve yet better information integration 
and, therefore, a higher level of homeland security.
    Just yesterday, we witnessed the stunning outcome of 
brilliant information sharing when the Department of Justice 
announced it had uncovered a plot to assassinate the Saudi 
ambassador to the United States here in the United States. The 
case began apparently with the Drug Enforcement Administration 
in Texas and Mexico before it was handed off to the FBI, and 
eventually to the Attorney General's Office, I presume, though 
it has not been explicitly said. The components of the 
intelligence community were also involved at various points. 
The system really worked brilliantly and the men and women in 
the field did exactly what they were supposed to do, and as a 
result, we are all safer, including the Saudi ambassador.
    This has not always been the case, which is why we are 
holding this hearing. This is the ninth in a year-long series 
of hearings, this year being the 10th anniversary, so to speak, 
of 9/11, in which we are assessing progress made on key 
government functions that the 9/11 Commission recommended we 
overhaul. Information sharing was a particularly important 
matter to the Commission because it concluded, as we all 
remember, that the attacks of 9/11 might have been prevented 
had our intelligence and law enforcement agencies shared 
intelligence they had gathered and had in their possession 
separately to create an overall picture of what was to come on 
9/11. Agencies were mired in what the Commission described as a 
``need to know'' culture for sharing information, whereas the 
Commission said what we should be aspiring to is a ``need to 
share'' rule.
    Immediately after the 9/11 attacks, with the focus on this 
problem, Congress moved to strengthen information sharing among 
critical Federal agencies in the Patriot Act of 2001 and the 
Homeland Security Act of 2002. Once the 9/11 Commission 
released its report and its recommendations, we worked on a 
bipartisan basis coming out of this Committee to enact the 
Intelligence Reform and Terrorism Prevention Act of 2004, which 
tackled the problem in a comprehensive way, particularly by 
establishing the National Counterterrorism Center to analyze 
and share information to and from all agencies to better 
protect our homeland and by requiring the President to appoint 
a Program Manager in the Office of the Director of National 
Intelligence to coordinate information sharing across the 
Federal Government.
    In my opinion, there is little question that our government 
now operates on a need to share basis much more than it did 10 
years ago. As barriers of information have been taken down over 
the last decade, the quality, and, in fact, the quantity of 
information have improved and grown significantly. I think we 
have also integrated important new partners into the 
information sharing stream, and in that I mean particularly 
State and local agencies and the private sector, as well.
    The results of these efforts are visible in game changing 
military and counterterrorism successes that have really 
protected our security. Shared information, for instance, 
between the intelligence community and the military led to the 
strikes that killed Osama bin Laden and Anwar al-Awlaki. 
Information sharing among Federal, State, and local agencies 
has played a critical role in recent arrests of homegrown 
terrorists, some of these really quite remarkable cases of 
information sharing and creativity, innovation, just plain hard 
work, including particularly Najibullah Zazi, the al-Qaeda 
trained operative who was plotting to bomb the New York City 
subway in 2009, and then the arrest in Seattle in June of this 
year of two homegrown Islamist extremists who were planning to 
attack a military recruiting station there.
    Unfortunately, we have seen missteps, as well. Even when 
government officials and agencies have shared information, 
failure to share enough information, combined with human error 
and technological limitations, for instance, prevented the 
detection of Umar Farouk Abdulmutallab before he boarded a 
plane Christmas Day 2009 and tried to detonate explosives.
    This Committee's January report of the murders at Fort Hood 
exposed more serious and ultimately deadly failure of the 
Departments of Defense and the FBI to share information about 
the growing radicalization of the alleged killer, Major Nidal 
Hasan, despite what our Committee investigation found were 
multiple red flags about his behavior.
    There are other new factors that further complicate efforts 
to share information. For instance, the WikiLeaks disclosures 
exposed the risks of what might be called over-sharing without 
necessary safeguards. New communications technologies have made 
it more difficult to ensure that critical information is 
retained for appropriate use by law enforcement. And, of 
course, we have to ensure that information is shared in a way 
that adequately protects the privacy and civil liberties of our 
citizens.
    Last week, President Obama issued an Executive Order that 
acknowledged that effective information sharing is critical to 
both national and homeland security, of course, but that in the 
aftermath of WikiLeaks, information must be shared in a secure 
manner. I think the Executive Order strikes a sensible balance 
between protecting information from unauthorized disclosure and 
coordinating information sharing across all levels of 
government. Now, we need to make sure the Executive Order is 
implemented fully and expeditiously.
    So, bottom line as we meet today on this subject, I think 
we have come a long way since the failures of information 
sharing that helped to enable the attacks of 9/11, but 
obviously we have to continue to build on that progress if we 
are to maintain our security. That is what we hope this hearing 
this morning will help us do and why we are so grateful to have 
a truly excellent panel of witnesses before us. Senator 
Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. I, too, am very 
impressed with the caliber of the panel before us, so as you 
were delivering your opening statement, I was trying to cut 
mine down so that we could get to them, since you said many of 
the same points.
    Certainly, the results of information sharing and 
collaboration within the intelligence community and the law 
enforcement community have been evident in the operations that 
located, tracked, and killed Osama bin Laden and Anwar al-
Awlaki in the recent months, and just yesterday in the 
disruption of a plot by elements of Iran's government which 
plotted to kill the Saudi ambassador to the United States right 
here in Washington. This appears to be yet another victory for 
cooperation across departmental boundaries.
    When the Chairman and I were working on the Intelligence 
Reform Act of 2004, we understood that it would be challenging 
to change the culture in the intelligence and law enforcement 
communities from ``need to know'' to ``need to share.'' It is 
gratifying, therefore, that many intelligence and law 
enforcement professionals have embraced this change. In a 
recent op-ed, the Director of National Intelligence, Jim 
Clapper, observed that the intelligence community now starts 
``from the imperative of responsibility to share in order to 
collaborate with and better support its intelligence consumers 
from the White House to the foxhole.''
    U.S. Attorney Patrick Fitzgerald put it more colorfully 
when he told an audience last month that intelligence and law 
enforcement operators now ask themselves, if it is found out 
that I have information that I did not share with someone, how 
am I going to justify to myself that I sat on it? He could have 
added, how will that failure to share be justified to 
congressional overseers, or far worse, to the victims of a 
successful attack.
    I believe that the influx of new analysts that have joined 
the intelligence community after 9/11 has had a very beneficial 
impact on information sharing because this new generation of 
intelligence officers is much more comfortable sharing 
information. It is their life. Social media and collaborative 
information technology have been a daily part of their lives 
and it is much more natural for them to share in the workplace, 
as well.
    Notwithstanding, the many recent successes and the thwarted 
plots for which the intelligence and law enforcement 
communities deserve great credit, the GAO continues to rank 
terrorism-related information sharing as a high-risk area. As 
this Committee saw in the Fort Hood attacks and the attempted 
airplane bombing on Christmas Day 2009, when information is not 
shared, our Nation's security is placed at risk.
    The Bowling Green, Kentucky, case is another recent example 
of information apparently not being shared and remains very 
troubling to me. It is unsettling that a suspected bomb maker 
whose fingerprints we had for many years was able to enter our 
country on humanitarian grounds. I have raised this issue 
repeatedly with the Department of Homeland Security as well as 
with the FBI. Both have told this Committee that the 58,000 
individuals who have been resettled in the United States have 
been vetted now against existing databases, but what we found 
is the problem is that information has not been uploaded into 
those databases because of resource constraints. So if you are 
vetting people against databases that do not have all the 
information, you are obviously going to miss people who may 
want to do us harm.
    But in some respects, that case demonstrates an evolution 
of information sharing. Originally, this information--these 
fingerprints that were collected from IEDs--was collected with 
the warfighter in mind, not with the idea of sharing them with 
Immigration or State Department officials to vet those who were 
seeking asylum. That teaches us that it is increasingly 
important for agencies to think creatively about other 
potential uses of information that we collect and how best to 
prioritize, analyze, and act upon that information.
    Our investigation of the Fort Hood shootings demonstrated 
that the Department of Defense and the FBI collectively had 
ample information that Major Hasan had radicalized to the point 
where he was a serious threat, but they failed to act 
effectively on the many red flags.
    The Chairman mentioned the WikiLeaks breach. That 
demonstrated that we also need to improve the security of our 
data from internal threats. But in doing so, we have to be 
vigilant that we do not recreate the old stovepipes in order to 
guard against the internal threat. But it is baffling to me 
that the individual involved in the WikiLeaks case had easy 
access to such a wide variety of highly classified information. 
Just last week, the President signed a new Executive Order on 
responsible information sharing prompted in part by the 
WikiLeaks situation. This hearing will help us assess the 
President's new Executive Order.
    As we explore the issue of information sharing, we must 
also ensure that our Homeland Security partners like local and 
State law enforcement and fusion centers are receiving and 
sharing information that is useful and that adds value, and it 
needs to be a two-way street. Last year, this Committee passed 
a law that was written by former Congresswoman Jane Harman to 
try to guard against over-classification, and I will be 
interested to ask our State and local representatives whether 
you have seen any benefits from that new law yet.
    The public should be able to share its information, too. 
After all, the Times Square bombing was averted by an alert 
sidewalk vendor, and that is one reason that Senator Lieberman 
and I have introduced our ``See Something, Say Something'' 
bill, which would broaden the protections from lawsuits from 
citizens who in good faith report suspicious activity.
    Finally, I would be remiss if I did not express my concern 
over this Administration's inexplicable failure to fully 
appoint and staff the Privacy and Civil Liberties Oversight 
Board that we created as part of our 2004 Act. I am truly 
baffled by the Administration's slowness in this regard because 
it is an important check as we seek to expand information 
sharing.
    From the most sophisticated intelligence collection methods 
to the police officer on the street to the observant sidewalk 
vendor, information sharing is clearly key to keeping our 
fellow citizens safe.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    I thank the panel not only for being here, but for the work 
and thought that you put into the statements that you have 
prepared for this morning. The full text of all your statements 
will be printed in the record as if read, and we will now go to 
your testimony before the Committee.
    First is John McLaughlin, former Deputy Director of Central 
Intelligence, and, for an interim period, Acting Director.
    He is currently a professor at the School of Advanced 
International Studies at Johns Hopkins. In 2010, Director 
McLaughlin led an internal review for the Director of National 
Intelligence and Admiral Dennis Blair of the intelligence 
community's role with respect to the Christmas Day and Fort 
Hood attacks. We appreciate both your past service and the fact 
that you are here this morning and welcome your testimony now.

    TESTIMONY OF HON. JOHN E. MCLAUGHLIN,\1\ DISTINGUISHED 
  PRACTITIONER-IN-RESIDENCE, PAUL H. NITZE SCHOOL OF ADVANCED 
        INTERNATIONAL STUDIES, JOHNS HOPKINS UNIVERSITY

    Mr. McLaughlin. Thank you, Senator Lieberman and Senator 
Collins. Great to see you both again.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McLaughlin appears in the 
Appendix on page 1065.
---------------------------------------------------------------------------
    Chairman Lieberman. Thank you.
    Mr. McLaughlin. The requirement to share information has 
been around since time immemorial, but the key thing about our 
time is that we are long past the moment when you can rely on a 
single individual or a single brain to sort through the complex 
problems that we deal with. In fact, today's world requires an 
unprecedented level of cooperation among people with varied 
expertise, supported by information systems that make that 
easier, and legal systems and procedures that take all of that 
complexity into account.
    In formulating my thoughts on this, I am relying on two 
things, the experience Senator Lieberman referred to when I was 
Deputy Director and Acting Director in the period after 9/11, 
and also the work I did for Admiral Blair in 2010.
    So let me begin with three positive trends, and I think 
both of you have alluded to some of these. First, the desire 
and willingness to share information is dramatically greater 
than it was at the time of 9/11. There are still some who 
resist, but the momentum is clearly in the other direction.
    Second, the capabilities for sharing information have grown 
notably within agencies. Many are world class, but they do not 
operate as effectively across agency lines yet. The notable 
exception to this might be the National Counterterrorism 
Center.
    Third, there is an improved policy foundation for access to 
and sharing of data, and I am referring to Intelligence 
Community Directive 501, which allows officers to discover what 
relevant data exists, request access to it, and have such 
requests professionally and fairly adjudicated. Implementation 
of this is moving along, though not yet complete.
    But there are at least three countervailing negative 
trends, and again, I think you hinted at these. First, the 
volume of data keeps going up with no end in sight. These days, 
it is not uncommon at all for an analyst to see his or her 
daily take of messages go from hundreds to thousands overnight, 
ensuring that those who would do us harm do not really have to 
work that hard to hide. They are sometimes just lost in the 
noise.
    Second, the breakdown in security discipline in our own 
government works against sharing of information, and you both 
alluded to this. Leaks, authorized and unauthorized, reinforce 
arguments made by those who stress the risks of sharing and 
pose obstacles to doing so.
    And third, despite the progress represented by Intelligence 
Community Directive 501, broader policy procedure and law have 
been a little slow to keep pace with the challenge.
    So given that complicated picture, what is the way forward? 
Above all, we need finally to break through the barriers that 
have for years kept us from bringing the most advanced 
information technology to bear on the problem. Information 
technology can prompt humans to look in the right places, 
consider pieces of data that might otherwise be missed, expose 
relationships that are buried in all the noise that the 
avalanche of data represents. What stands in the way? There are 
three major issues.
    First, there is in the national security community limited 
visibility into data that is distributed across multiple agency 
systems housed in different agencies.
    Second, existing search capabilities do not allow for 
exploitation of existing data.
    And third, I am not sure there is a common and widely 
shared vision among national security specialists on the end 
state they want to achieve here.
    There are a number of things that deserve attention in the 
near and medium term. In the near term, it is important to 
strengthen online instruction for national security specialists 
on what data exists. Sometimes, they do not know.
    In the medium term, we should work to improve search 
capabilities and training in how to use them.
    And in the longer term, and once basic capabilities are 
improved, we need more software capable of exposing the 
underlying relationships in large bodies of data.
    Faced with challenges like this, one key need is a common 
standard across the intelligence community for access to data, 
essentially, the virtual equivalent of a community badge that 
now allows officers to move physically from agency to agency. 
This would mean, for example, that when someone logs on in one 
agency, other agencies whose data that person is seeking would 
confidently know who this person is and what they are 
authorized to access. It is easier to say than do, but it is 
achievable over time.
    Another broad problem likely to complicate our efforts, 
especially the need to identify people involved in terrorism, 
is that so many of them are turning out to be Americans. Names 
like al-Awlaki, Najibullah Zazi, David Headley, Faisal Shazad, 
and just yesterday, Manssor Arbabsiar, are familiar ones in 
this room. This is a problem with at least three dimensions.
    First, I suspect there is still an inconsistent 
understanding of the laws and regulations that govern the 
acquisition and sharing of data that touches Americans--these 
are complicated laws.
    Second, there is an understandable concern not to violate 
the laws protecting our citizens' privacy, and this can inspire 
a subtle kind of risk aversion in dealing with such data. We 
saw this in some cases I have looked at.
    Third, terrorists, in my personal view, have figured all 
this out. Faisal Shazad, the unsuccessful Times Square bomber, 
got his citizenship here within the year before he attempted to 
carry out that act. This tells me that these people know that 
complicates our task in detecting them.
    Finally, I would just say that any misgivings we have about 
counterterrorism stand out, and I think you both alluded to 
this because they are so at odds with the broad pattern of 
success we have experienced since 9/11. Our law enforcement, 
intelligence, and military officers have really delivered. As 
always, intelligence successes are rarely apparent, not only 
because we cannot talk about them, but because they are often 
woven kind of invisibly into the fabric of successful policy.
    Those are my opening thoughts on this. I thank you for the 
opportunity. There is a fuller statement in the record, but 
these are the basic points I wanted to make. Thanks.
    Chairman Lieberman. Thank you very much. Those were 
excellent opening thoughts.
    Ambassador Ted McNamara served as Program Manager for the 
Information Sharing Environment from 2006 to 2009, where he had 
lead responsibility for coordinating the Federal Government 
efforts with respect to information sharing. It is a pleasure 
to welcome you back to the Committee and we look forward to 
your testimony now.

  TESTIMONY OF HON. THOMAS E. MCNAMARA,\1\ ADJUNCT PROFESSOR, 
  ELLIOTT SCHOOL OF INTERNATIONAL AFFAIRS, GEORGE WASHINGTON 
                           UNIVERSITY

    Mr. McNamara. Thank you, Mr. Chairman. Thank you very much. 
Let me start by saying that during my 3\1/2\ years as a Program 
Manager for the Information Sharing Environment, I had the 
pleasure to work very closely with Members of this Committee 
and the staff and I received nothing but encouragement, 
constructive criticism, and strong bipartisan support, and for 
that, I want to thank the Committee, especially the Chairman 
and Senator Collins. The two of you are unsung heroes of what 
we got done downtown.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McNamara appears in the Appendix 
on page 1073.
---------------------------------------------------------------------------
    I think what you probably would like to see from me is the 
view from the trenches. I will try and do that.
    Two years ago, in my final appearance before the Committee 
as the Program Manager, I stated that we had built a strong 
foundation for the ISE, but that a fully functional and mature 
ISE was still in the future. I am delighted to observe that 2 
years later, we have gone well beyond that point.
    A truly mature and functioning ISE can only exist when we 
have fully standardized and harmonized rules, procedures, and 
operating systems to manage the ISE. To get from the start 
point to that fully mature system, we now know, as we were not 
fully aware of back in 2005, is a long, complex, and difficult 
process. Today, 10 years after 9/11 and 5 years after I sent 
the required Program Manager's first implementation plan to the 
Congress, we are well beyond the foundation, but we are not 
near the finish.
    What I find most encouraging in the last 2 years is that 
the pace and breadth of the change are stronger, more 
widespread, and exist among all stakeholders. Concepts and 
programs that were hard-fought struggles in those first years 
are conventional wisdom now. I will give as one example, the 
Controlled Unclassified Information program. It was met with 
widespread skepticism and open opposition in 2006 when we set 
the goals for building it. Today, there is not a single agency 
I know of that opposes the CUI or believes that the old way was 
better. From my perspective, that is a huge progress.
    At the macro level, my observation is that the ISE is 
alive, well, and growing stronger. We spent a lot of time 
getting buy-in from the stakeholders. I would equate what 
happened with the proverbial supertanker that takes so much 
time initially to start turning, but once it turns, the turning 
is quite forceful. The problem for the manager, or in this 
analogy the captain, is to make sure the turn winds up on 
course. I think that we are on course. We still have, however, 
incomplete standardization and harmonization. They are central 
problems, still, today.
    We also have another problem which I did not face, and that 
is as the ISE grows, it begins to bump into other programs and 
priorities which are out of step with it and which have major 
conflicting priorities. A growing ISE interferes with other big 
rice bowls. I would say that the incomplete standardization and 
harmonization, and the bumping into other priorities are two of 
the major causes of the WikiLeaks problem. There are a couple 
of others.
    What happens, and what happened in the past, I believe, has 
been a transformation of attitudes. We have all seen the 
absolute necessity now of managing information in the new 
information age in a way that responds to the need of that new 
age. Let me list just a couple of things that I think were 
important to what we have done: A national network of fusion 
centers, the Controlled Unclassified Information that I have 
already mentioned, Suspicious Activity Reporting, National 
Information Exchange Model, and what I am particularly proud 
of, the privacy and civil liberties protections. All of those 
are accomplished, they are functioning programs.
    Let me list a few things that I believe are high 
priorities, which still remain. Although all of them have 
started down a path, they have a much longer way to go. First 
of all is monitoring and auditing. We are not monitoring and 
auditing the system with the technology that is available and 
in the manner in which we need to do it, which is another 
reason for the WikiLeaks.
    Second is discovery and authorized use. It is beginning in 
the various communities, those stakeholders that I mentioned 
earlier, but it is not yet a unified and standardized system.
    Interoperability across networks--again, it has begun, but 
there is a long way to go. The technology is there; we just 
have to spend the time and the resources to get it implemented.
    And finally, we need to expand the mandate, something I 
said in my last address to this Committee and to other 
congressional committees. It is time to expand the mandate of 
the Program Manager. It is not possible to set up an 
Information Sharing Environment only for terrorism information. 
It will not work.
    I will close by summing up what I think can be the future 
of the ISE. We have built the foundation. Two years ago I 
borrowed the Churchillian phrase that we were not at the 
beginning of the end, but we were at the end of the beginning. 
I think we have gone beyond that now. I would estimate that we 
are about halfway there. Quite a bit of progress.
    It took us 5 years to get to this point. Fortunately, 
because of the changed attitudes, because of the increased pace 
and breadth of the changes that are going on, I do not think we 
need another 5 years to get to our goal of a fully functioning 
and fully mature ISE.
    And with that, I will close my remarks. Thank you.
    Chairman Lieberman. Thanks very much, Ambassador. That is 
very encouraging. Thanks for the part that you played in the 
progress that we have made in this area.
    Chief Cathy Lanier is, of course, the Chief of Police of 
the D.C. Metropolitan Police Department. As such, she has been 
a leading advocate for the importance of effective information 
sharing with State and local law enforcement and has had direct 
experience on the effectiveness of information sharing 
regarding various terrorist threats in Washington, DC.
    Chief, thanks for taking the time to be here. Good morning.

TESTIMONY OF CATHY L. LANIER,\1\ CHIEF OF POLICE, METROPOLITAN 
            POLICE DEPARTMENT, DISTRICT OF COLUMBIA

    Chief Lanier. Thank you for having me here. Good morning, 
Chairman Lieberman, Senator Collins, Members of the Committee, 
staff, and guests. Thank you for the opportunity to present 
this statement on the status of information sharing among 
Federal and local partners.
---------------------------------------------------------------------------
    \1\ The prepared statement of Chief Lanier appears in the Appendix 
on page 1078.
---------------------------------------------------------------------------
    Of course, I am the Chief of Police here in Washington, DC, 
of the Metropolitan Police Department. I would like to remind 
everybody, that is the primary law enforcement agency here in 
Washington, DC. As the chief of police of a major city police 
department, I am very pleased to be able to brief you on the 
significant progress that has been made in the Federal and 
local information sharing and how that has improved our ability 
to safeguard the public.
    In my testimony, I will elaborate on why it is even more 
important now, 10 years later, to recognize the vital role of 
law enforcement in our homeland security efforts. With threats 
to the Nation constantly evolving, local law enforcement 
officers who are on the street every day are uniquely 
positioned to detect and prevent terrorist incidents.
    There are more than 700,000 law enforcement members across 
the Nation that know and are well connected to the communities 
that they serve, placing them in the best position to detect 
and investigate criminal activity that might be connected to 
terrorism or violent extremism. Clearly, information sharing 
with local police is essential to countering the threats that 
we face going forward.
    The success of local law enforcement in fulfilling our role 
hinges on the cooperation and support of our Federal partners. 
Ten years after the September 11 attack on the United States, 
the partnership between Federal and local authorities is very 
robust and continues to improve. The 10-year anniversary of 9/
11 presented an excellent case study to illustrate how the 
infrastructure and relationships that we have built operates in 
a critical situation.
    Important groundwork for the anniversary preparations was 
established in 2010. With a significant increase in American 
residents aligned with violent Islamist extremists who are 
arrested or convicted in 2009, the Department of Homeland 
Security launched a broad working group on countering violent 
extremism. From the outset, the working group included local 
law enforcement. Following that effort, the Department of 
Homeland Security and the FBI committed to a partnership with 
the Metropolitan Police Department to go out and engage and 
educate our partners in the private sector and the community. 
Beginning in 2010, we jointly briefed literally thousands of 
government and private sector partners around the National 
Capital Region on recognizing and reporting suspicious activity 
as well as responding to potential terrorist incidents. Those 
briefings certainly paid off, as you will see, when we entered 
the high-threat period of the 9/11 10-year anniversary.
    Let us fast forward to last month. Early on the morning of 
September 8, 2011, I received virtually simultaneously calls 
from both my own official on the Joint Terrorism Task Force and 
my counterpart at the Department of Homeland Security urging me 
to attend a classified briefing on an emerging threat to 
Washington, DC, and New York. Within an hour, both the FBI and 
DHS provided me with unfettered access to the actual cable 
outlining the threat. I continued to receive up-to-the-minute 
briefings from the FBI over the next several days. This was 
critical, as I continually had to make staffing and deployment 
decisions on a shift by shift basis. This shows that not only 
have we built strong relationships in the region, but more 
importantly, the institutional structures that we have created 
are ensuring the flow of information.
    What perhaps was even more important was the quality of the 
information that was made available to me. The details in the 
briefings were far greater than we had received in the past and 
enabled me to focus our officers very specifically on threats.
    Equally important, within 24 hours, the intelligence 
community collectively decided that the public needed to be 
informed of this credible threat, a significant departure from 
previous experience. This decision helped law enforcement in 
several ways. For one, many of the actions of local law 
enforcement, as you know, are much more visible than that of 
our Federal partners, and in many cases, they are intended to 
be. In other words, our community members notice when we take 
steps in relation to heightened threats. They see us on the 
street, they see us around critical infrastructure, and they 
know something unusual is happening. Although this may only be 
a local concern, announcing the threat helps local authorities 
explain, and sometimes justify, our actions to the public. 
Local partners really appreciate that support.
    More importantly, making this potential threat public 
helped us focus our community on reporting the types of 
suspicious activity that may help us detect and deter those who 
may be interested in carrying out this threat. Obviously, when 
we can effectively harness and direct the attentions of the 
public, we can get much more useful information to help us 
counter that threat.
    In this case, just after the announcement to the public, 
our calls for suspicious activities jumped significantly. Most 
importantly, this announcement calls many of our private sector 
partners that we had educated in the joint briefings much 
earlier to start reporting suspicious activity that warranted 
further investigation.
    For example, on September 10, the Metropolitan Police 
Department was contacted by the general manager of a local 
hotel who advised that six males from various Middle Eastern 
countries had checked into the hotel between September 8 and 
10. The last to arrive paid cash for the room, asked for a 
specific view of a notable landmark. All six placed ``Do Not 
Disturb'' signs or placards on their doors.
    A manager at another hotel contacted the MPD on September 
11 to report that cleaning personnel had found suspicious items 
left in a hotel room. The occupant had departed early without 
checking out and leaving cash for the room. In this instance, 
the activity was linked to suspicious financial transactions 
that had been reported to the MPD earlier in the week. The MPD 
and the FBI determined that the case did not have an actual 
nexus to terrorism. However, it was linked to criminal 
activity.
    Although neither instance was related to the 9/11 threat or 
to terrorism at all, the hotel managers in both cases took the 
right steps in calling the police to report these indicators. 
As you can see, providing some of the information to the public 
helps our efforts in the long run. It is a recognized principle 
in policing that sometimes you need to give a little 
information to get information.
    With  the  information  about  the  threat  on  the  
anniversary  of 9/11 and the visible government mobilization to 
it, the public is reminded of the importance of sharing 
information about suspicious activities. It also reinforces the 
significance of our ``See Something, Say Something'' campaign, 
which has been strongly supported by Federal and local 
partners.
    Fortunately, our experience here in the District of 
Columbia during the threats of 9/11 highlighted several areas 
where information sharing has improved. However, in recognizing 
that my experience here in Washington, DC, does not represent 
all police chiefs, I did reach out to the major city chiefs and 
former Chief of the MPD, Commissioner Charles Ramsey, who is 
now the current Commissioner in Philadelphia, to see what other 
chiefs around the country are seeing. What we are seeing across 
the major cities is that there has been significant progress 
since 9/11. One person simply and aptly described the fusion 
centers and the FBI's field intelligence group as game changers 
for local police departments. We would not be able to prepare 
for and work together to prevent significant threats facing our 
communities without this sea change in government cooperation. 
In addition, these cornerstones of Federal-local information 
sharing, we continue to work on new links between levels of 
government and the private sector.
    In the interest of time, I will stop there and you have my 
full statement on record.
    Chairman Lieberman. Thanks, Chief. That was great. Just a 
quick question. Is your main point of contact with the Federal 
Government, the Department of Homeland Security?
    Chief Lanier. Typically, most of my information comes in 
through the FBI.
    Chairman Lieberman. OK.
    Chief Lanier. We have heavy participation on the JTTF and I 
have daily conversations and twice-a-week briefings from the 
JTTF.
    Chairman Lieberman. Good. Thank you.
    Our next witness is Ron Brooks, another important part of 
this newly established framework for information sharing and 
homeland security, the Director of the Northern California 
Regional Intelligence Center, which is the fusion center for 
the San Francisco Bay area. Mr. Brooks is also the Chairman of 
the Criminal Intelligence Coordinating Council, which is a 
State and local advisory group to the Federal Government on 
information sharing issues, so he is uniquely qualified to 
testify today.
    Thank you for coming across the country to be with us.

TESTIMONY OF RONALD E. BROOKS,\1\ DIRECTOR, NORTHERN CALIFORNIA 
                  REGIONAL INTELLIGENCE CENTER

    Mr. Brooks. Thanks, Mr. Chairman and Senator Collins. I 
appreciate your continued attention to this important issue and 
for inviting the National Fusion Center Association to provide 
our views.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Brooks appears in the Appendix on 
page 1085.
---------------------------------------------------------------------------
    Mr.  Chairman,  we  are  light  years  ahead  of  where  we 
 were  on  9/11. In fact, we have moved really beyond 
information sharing to create a true homeland security 
enterprise. Providing for the common defense is a Federal 
constitutional responsibility, and in post-9/11 America, the 
national network of fusion centers plays a pivotal role in 
helping the Federal Government achieve that important goal.
    Fusion centers are much more than information sharing hubs. 
They embody a process, the fusion process, that has 
fundamentally changed how information is gathered, transformed 
into actionable intelligence, and shared over both classified 
and unclassified networks. They are about putting national 
threat information in a local context for action by leveraging 
the 840,000 law enforcement officers on the ground to support 
the national security mission. Without fusion centers, there is 
no mechanism that allows us to do this across all 50 States.
    Last month, less than 24 hours after high-level national 
intelligence indicated a 9/11-inspired threat, detailed 
information was sent through DHS and FBI to the fusion centers 
and was put in the hands of local law enforcement. Fusion 
center analysts across the Nation worked around the clock 
alongside FBI and DHS personnel to review suspicious activity 
reports and leads associated with the New York and Washington, 
DC, threats and to share actionable intelligence with decision 
makers at all levels.
    This is much more than information sharing. It is deep 
collaboration, and it is essential to effective homeland 
security and it is impossible to do without the National 
Network of Fusion Centers. In addition to information sharing, 
fusion centers give us complex analytic capabilities. Fusion 
centers have the ability to catalog critical infrastructure, 
leverage a large network of trained terrorism liaison officers 
to report suspicious activity, overlay that SAR data on 
critical infrastructure and layer in national threat 
information. The result is high quality actionable 
intelligence.
    None of this was possible on 9/11. Even at the Federal 
level, agencies do not have the manpower, local knowledge, or 
trusted partnerships to handle such an effort, yet it is 
happening every day at fusion centers and that adds tremendous 
value to the Federal Homeland Security Enterprise.
    Last October, an advisory was distributed by the New York 
Police Department concerning a suspicious truck whose driver 
reportedly diverted its route toward Times Square in exchange 
for $10,000. After DHS informed several fusion centers in the 
region, analysts at the Rhode Island Fusion Center discovered 
that the owner of the truck was a California native and 
coordinated with my fusion center to conduct background checks. 
Within 2 hours of the initial advisory, information from those 
two fusion centers was used to coordinate with the Connecticut 
Fusion Center, which enabled the State Police to locate and 
stop the truck before it reached New York. If not for the 
National Network of Fusion Centers, the dedicated personnel 
from DHS and the FBI, we could not have moved from alarming SAR 
to a threat resolution within just hours.
    Not only do fusion centers enable the Federal 
counterterrorism mission, the all crimes approach generates 
value in communities every day. This past July, an alert from 
the Oklahoma Fusion Center referenced a suspect wanted in 
connection with a double homicide who was trying to escape to 
Canada. The North Dakota Fusion Center analyzed the suspect's 
vehicle and information and connected with the Arkansas Fusion 
Center, which quickly provided a photo of the suspect. The 
fusion center released the information in an alert to law 
enforcement, who apprehended the suspect that same day. Again, 
fusion centers were essential to a quick resolution.
    The National SAR Initiative is being implemented across the 
National Network to gather and analyze tips and leads for 
analysis of suspicious activity that might be linked to 
terrorism. Fusion centers are linchpins in the implementation 
of the Nationwide Suspicious Activity Reporting Initiative. 
Without fusion centers, we would not have a portal for the SAR 
process or a system that provides SAR-related front-line 
officer and analyst training. We would not have a way to share 
or request information among the JTTFs, DHS, and local public 
safety partners. We would not have the ability to vet SARs 
through a national standard that protects civil rights and 
civil liberties according to the ISE-compliant privacy policies 
that are now enforced in every fusion center.
    The value of fusion centers is clear, but that value is at 
serious risk. Urban Areas Security and State Homeland Security 
Grant programs, the primary DHS programs that support fusion 
centers, have been slashed. Each fusion center is operated by 
State and local governments. Some centers rely heavily on 
Federal funding while others rely on funding from their own 
States. In all cases, State and local agencies make major 
contributions of full-time personnel that are not reflected in 
that budget data.
    After 9/11, much of the Federal assistance to State and 
local partners supported enhancements to response capabilities. 
It is time to reinvest in enhancements to prevention 
capabilities in a more focused way, and that includes 
supporting fusion centers. Unless Congress and DHS take 
measures to focus State and local assistance on fostering 
prevention capabilities, the forward progress that we have made 
on information sharing and SAR reporting could be reversed.
    Mr. Chairman, we have learned some tough lessons. It is 
easy to focus on mistakes when they are made, and 
unfortunately, we probably will not stop 100 percent of the 
threats to this Nation. But the grassroots development of this 
decentralized national network of fusion centers, really, that 
distributed and decentralized system that was called for in the 
Intelligence Reform and Terrorism Prevention Act, is a 
tremendous accomplishment. It is generating value every day and 
has become a true national homeland security asset.
    On behalf of the National Fusion Center Association, we 
commend your leadership and the leadership of this Committee 
and ask for your continued support, and I have submitted my 
full remarks to the Committee.
    Chairman Lieberman. Thanks, Captain Brooks. I am a strong 
supporter of the fusion centers. I appreciate the case you made 
for them, as it were, and I have one or two questions in that 
regard when we get to that point.
    Finally, Jeff Smith is a partner at the law firm of Arnold 
and Porter, former CIA General Counsel, a familiar and trusted 
source of counsel for this Committee and me personally. Mr. 
Smith is testifying on behalf today of the Markle Task Force 
for National Security, which released a series of reports over 
the last decade that played a really seminal role in shaping 
the policy debate on information sharing.
    So, counselor, we welcome you back.

  TESTIMONY OF JEFFREY H. SMITH,\1\ PARTNER, ARNOLD AND PORTER

    Mr. Smith. Thank you, Mr. Chairman, Senator Collins, and 
Senator Carper, for holding this hearing and for your 
leadership on this critical issue. I appear this morning on 
behalf of the Markle Task Force on National Security in the 
Information Age. My prepared statement is jointly submitted 
with Zoe Baird Budinger, the President of the Markle 
Foundation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Smith appears in the Appendix on 
page 1107.
---------------------------------------------------------------------------
    I want to begin, as my colleagues have, by commending this 
Committee and your staff for the significant time and energy 
you have devoted to making information sharing a top national 
priority. The work of your Committee has helped make this 
Nation safer.
    Since 2002, the Markle Task Force has worked hard to 
provide policy makers, including this Committee, with 
recommendations to help accelerate our government's use of 
information technology to better understand the threats we 
face, to make better decisions, and at the same time protect 
our national and vital civil liberties. I am pleased to say 
that many of our recommendations have been accepted.
    As a result of all of these efforts, substantial change has 
occurred throughout government. Information sharing has become 
more widespread. That said, progress has been too slow in some 
places and has lacked adequate guidance or oversight in others. 
Information sharing is like the blocking and tackling in 
football. It is not as sexy as a 60-yard pass to a wide 
receiver, but at the end of the day, it wins games.
    Ten years ago, there was a failure to adapt to a network 
world. Our law enforcement and intelligence communities were 
driven by the ``need to know'' culture that stovepiped 
information. This was in part because of the so-called wall 
between law enforcement and intelligence. This failure to 
connect the dots has become famous since 9/11, but that phrase 
oversimplified a fundamental problem, not only with the sharing 
of information, but with the way in which departments and 
agencies worked together.
    Where are we today? Washington can work, as demonstrated by 
the changes that we have talked about and this panel has talked 
about. We have had three dramatic successes: The attack that 
led to the death of Osama bin Laden; Najibullah Zazi was 
arrested on September 29, 2009, in connection with an al-Qaeda 
plot to bomb the New York City subway system; and on May 1, 
2010, because of improved watchlisting procedures, Faisal 
Shazad was successfully apprehended after his attempt to 
detonate a car bomb in Times Square. He was arrested 53 hours 
and 20 minutes after he left Broadway, largely as a result of 
better sharing and cooperation with State and locals.
    But we still fall short. The task is enormous. Where should 
we be going?
    The Markle Foundation Task Force has four critical steps 
that we recommend. One is strong leadership from the highest 
levels of government is required to sustain the progress since 
9/11. There is a risk that this virtual reorganization of the 
government will be eroded as a result of bureaucratic turf 
battles and fears about information security.
    Two, the adoption of discoverability and authorized use 
must be expanded. It is possible for relevant data to be 
discovered in an automated manner that allows both human users 
and data itself to find relevant information. This is often 
referred to as data finding data. The concept of authorized use 
is being adopted, but it must be expanded. An important 
Intelligence Community Directive, ICD 501, was issued in 2009 
that represents a substantial step toward enhanced 
discoverability and authorized use. Ambassador McNamara talked 
about that and the importance of that needs to continue to be 
pressed.
    Three, privacy and security protections must be increased 
simultaneously. WikiLeaks is not an argument for less 
information sharing. Doing that would compromise our national 
security. As we improve our capabilities to better share 
information, we should simultaneously deploy better policies 
and technologies to control its access and use. I am pleased 
with the new Executive Order the President signed on Friday. It 
was a significant step in the right direction and I look 
forward to discussing it with the Committee.
    I also share Senator Collins' concern about the failure to 
appoint persons to the Privacy and Oversight Board. It is a 
frustration, and I am happy to talk about that.
    Developing this trust is critical so that the American 
people will trust that the government will protect its civil 
liberties. It is important so that government officials will 
share information with one another, confident that it can be 
kept confidential.
    The fourth point is one that a couple of people have made, 
including Ambassador McNamara. Information sharing is a tool 
that can help make the entire government more efficient. The 
trusting sharing of information in government decisionmaking is 
not a unique attempt to counter terrorism. Successful 
information sharing is a model that can be used across many 
areas of government to improve the effective functioning of 
government.
    Mr. Chairman, that concludes my remarks. I look forward to 
your questions.
    Chairman Lieberman. Thanks very much for that testimony and 
for your work with the Markle Task Force.
    We will do 7-minute rounds of questions.
    Ambassador McNamara, let me pick up where Mr. Smith ended. 
I wonder if you could just say a bit more about why you think 
it would be valuable to expand the authorities of the Program 
Manager for the Information Sharing Environment and how you 
would do it.
    Mr. McNamara. Well, let me go back to the very first year I 
was on the job. It was apparent that we were not going to be 
able to, for example, create a Controlled Unclassified 
Information system, which only handled terrorism information. 
No agency managed their data in that manner. So when we sat 
down to do CUI, we created CUI for all controlled unclassified 
information.
    I only had the authority to mandate it to the agencies for 
terrorism. Fortunately, terrorism was a high enough priority 
that they had to pay attention to me. But, in fact, only a very 
small portion of CUI information, I would say a single-digit 
percentage, is terrorism information. Most CUI, and it goes all 
the way down to State and local authorities, is unrelated to 
terrorism. Yet the system works for all of it. We had to build 
it that way or it would have failed.
    Another example is the Suspicious Activity Reporting. When 
I picked that up off the ground, and turned it into--I should 
not say ``I,'' I should say ``we,'' because there was an awful 
lot of partners that were helping us. We had to do it for 
terrorism information. But as I have said so many times, if you 
take the Suspicious Activity Reporting mechanisms and you 
unplug the database that says ``terrorism information'' and 
plug in one that says ``serial killers,'' or unplug that and 
plug one in that says ``drug violence,'' or unplug that, you 
name it, it works for all suspicious activities. In fact, we 
constructed that knowing that if it only worked for terrorism 
information, it was not going to last. It would be too small 
and disappear.
    Another example is the fusion centers. There is only one 
fusion center in the United States that handles only terrorism 
information and that is the National Counterterrorism Center. 
The others all handle all crimes and all hazards.
    Chairman Lieberman. So how far would you expand the----
    Mr. McNamara. I would like to see that an Information 
Executive be created, probably in the Office of the President, 
as a manager, not a crisis manager, as I was, in the Program 
Manager position.
    Chairman Lieberman. Right.
    Mr. McNamara. Not doing just a program, but managing 
information the way a Chief Information Officer does it, across 
the board, with complete authorities. You have to give that 
individual some budget clout. I had virtually no budget clout--
--
    Chairman Lieberman. Right.
    Mr. McNamara [continuing]. So I had to appeal for agencies 
to do it. And the person needs to work very closely with OMB 
and with the agencies as an overseer, not a doer.
    Chairman Lieberman. That is helpful. Is your preference 
that this be done by executive action, or do you think it 
requires legislation?
    Mr. McNamara. It does not require legislation, as far as I 
am concerned.
    Chairman Lieberman. Good. I say good because----
    Mr. McNamara. But it may require some congressional push to 
get the executive action.
    Chairman Lieberman. Well, we are glad to do that. We 
generally categorize that as oversight.
    Director McLaughlin, in your testimony, you note the growth 
in the number of Americans participating in terrorism, which 
has been a focus of our Committee, and that reality creates a 
set of challenges for the intelligence community given rules in 
place related to the acquisition and sharing of data that 
touches U.S. citizens, and I am quoting from your testimony. We 
have strong rules in place to protect such U.S. persons' 
information within the intelligence community, but you note 
that this can lead, and I agree, to, and I quote again from 
your testimony, ``a subtle kind of risk aversion in dealing 
with such data.''
    So talk to us in a little more detail about that. What kind 
of risk aversion are you worried about, and do you think the 
intelligence community needs to clarify the framework that it 
is operating under now for dealing with information regarding 
U.S. persons?
    Mr. McLaughlin. I do, Senator. This comes directly out of 
the study we did for DNI Blair in 2010.
    Chairman Lieberman. Yes.
    Mr. McLaughlin. We talked to people in a dozen agencies and 
carried out about 70 interviews, and one of the things that 
came out of that, because in both the Christmas bombing and in 
the Fort Hood shootings you had the involvement of an American 
citizen at some level--that was Anwar al-Awlaki having inspired 
the Christmas bomber and having played a role in his 
communications with Major Hasan--what we discovered was that as 
you went agency to agency, you got different interpretations of 
what was allowed and not allowed when you encountered U.S. 
persons' data. And people, frankly, were very careful, 
particularly at the National Security Agency, where this is 
most likely to occur, and this results, in part, from some of 
the controversies involved with their collection programs and 
so forth that you are familiar with.
    Chairman Lieberman. This is the risk aversion----
    Mr. McLaughlin. This is the risk aversion part of it.
    Chairman Lieberman. In other words, to avoid the risk, they 
may not be going some places we would actually want them to go 
in terms of----
    Mr. McLaughlin. Well, the way I would put it is that we 
certainly were not pushing them to violate anyone's privacy.
    Chairman Lieberman. Understood.
    Mr. McLaughlin. What we came away believing, and I had a 
civil liberties attorney on my task force, was that in many 
cases, intelligence agencies were not going to the limit of 
what the law allowed them. In other words, they wanted to err 
on the side of not ever crossing that line. And some, frankly, 
confessed worrying about punishment of some sort if they did 
cross that line.
    Chairman Lieberman. Sure.
    Mr. McLaughlin. And without going into the classified 
details of that study, I think we came to the conclusion that 
this was one of two big reasons why we did not anticipate or 
detect Abdulmutallab's intentions here--because as a former 
intelligence officer, I know how these things can get kind of 
oversimplified, but I came away reluctantly convinced that had 
we been more aggressive on this particular score and had we 
also had information technology that helped the human brain 
connect things up----
    Chairman Lieberman. Right.
    Mr. McLaughlin [continuing]. We would have found this guy 
and we would have known pretty much what he was intending to 
do.
    Chairman Lieberman. Well, that is a very important 
conclusion.
    Mr. McLaughlin. Another part of this, if I could just add 
this final point----
    Chairman Lieberman. Go ahead.
    Mr. McLaughlin [continuing]. Is that sometimes, and this, I 
have to be a little careful with because there is some 
sensitive stuff involved, but sometimes foreign partners 
encounter information about American citizens and they are 
often confused about what do we do with that because it is 
sensitive. So that is another area that needs to be clarified.
    Chairman Lieberman. Do you know whether any changes have 
been made as a result of your report?
    Mr. McLaughlin. I know the recommendations were taken 
seriously and I have been told by people at the White House 
that they are working on this. I checked within the last 24 
hours and I think people are sensitive to the question, but I 
would say that it probably is something that still needs to be 
worked on, primarily by someone like the DNI and the Department 
of Justice convening people throughout the intelligence 
community who have the job of interpreting these regulations to 
the workforce and making sure, as a first step, that they are 
all on the same page, that everyone is getting the same 
message.
    Chairman Lieberman. That is very helpful and I promise you 
that we will take this on in the Committee as another kind of 
oversight responsibility because of the rising significance of 
terrorism committed by American citizens or legal residents of 
one kind or another. My time is up. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I am going to continue with Director McLaughlin exactly 
along the lines of what you just started because we have now 
talked a little bit about the Abdulmutallab case, and by the 
way, I am informed that he pled guilty today. But our Committee 
also looked at the Major Hasan case and the information sharing 
or lack thereof in that case, and it was fascinating to talk to 
the members of the Joint Terrorism Task Forces both in 
Washington and in San Diego and to learn that they chose not to 
share all the information that they had due to the requirements 
for FBI approval for sharing under the JTTF guidelines and the 
Memorandum of Understanding. And thus, you had a situation, 
without going into classified information, but let me say it 
was widely reported, of contacts with al-Awlaki that were not 
passed on to the Army, because even though there was a member 
of the Department of Defense represented on the JTTF, because 
it could not be passed on without explicit approval by the FBI.
    Did your committee, in looking at these cases, take a look 
at whether those guidelines and Memoranda of Understanding that 
applied to the JTTF's information sharing with the home 
agencies need revision, as well?
    Mr. McLaughlin. We did. We were a little limited in what we 
could do on the Fort Hood case because there were some ongoing 
legal questions that inhibited our ability to interview 
everyone who was involved, but we did speak with enough members 
of both San Diego and Washington to come to similar 
conclusions, and the main conclusion we came to was that no 
single person had looked at all of the information. Some of it 
had been seen in San Diego. Some of it had been seen in 
Washington. And there were some follow-up issues that you are 
probably familiar with that were not as aggressively pursued as 
should have been.
    The main thing I was concerned about was if someone has 
done something about this, and I got assurances from both the 
FBI and the Department of Defense that they now have a way when 
something like this occurs to pass information that was not--
the kind of information that was not passed in the Major Hasan 
case--to counterparts in law enforcement, or vice-versa, from 
law enforcement to counterparts in the Defense Department.
    I think I came away as pretty much assured that they have 
figured that out. Now, that is always fighting the last war, so 
you always have to ask, are there other realms, other 
circumstances in which that same issue might arise, and I think 
we need to keep our eye on that across the board.
    Senator Collins. Thank you.
    Ambassador, we have just talked about policy obstacles in 
the form of restrictions through guidelines or Memoranda of 
Understanding that may restrict information sharing. From your 
perspective, how much of this is a policy problem versus a 
technical problem? I remember the first hearing that we held 
after the Abdulmutallab case, and the deputy from the National 
Counterterrorism Center told us, much to my amazement, that 
they lacked the technology to do the kind of federated searches 
that were needed, which amazed me because all of us who go on 
Google know that if you type in a name and it is not quite 
right, you get the question, ``Did you mean X?'' and any of us 
who have ordered on Amazon have seen how information of, you 
might like this, that is similar. So it seems like the 
technology is out there to be used.
    What is your assessment? Is this a technology problem? Is 
it a policy problem? Is it still a cultural problem? A 
leadership problem?
    Mr. McNamara. That is an excellent question. First of all, 
it is not a technology problem, strictly speaking, if you mean 
by technology the availability of the technology. That is 
there.
    The policy problem is that the policy does not allow the 
technology to work or to be employed because of policy 
restrictions. Then, the attitudinal problem (``in the 
trenches'' problem) comes when, even though you change the 
policy, the work habits and the ingrained methodologies of 
those working do not change.
    So, I have not seen, in all of the years I have been 
involved in this, a true technological problem. In addition to 
these problems you have the resource problem. So if NCTC says 
that it does not have the technology to do the integration of 
the data, it is not because integration technology does not 
exist, which can be either taken off the shelf or modified and 
used. It is because policies do not allow them to use that 
technology, or resources are such that they cannot afford to 
put it in until later.
    To move out from the Federal Government, I found, and I 
cede to both Ms. Lanier and Mr. Brooks as to whether or not my 
vision of this is still accurate, but I believe it is. There 
are ingrained habits that persist. I am not going to pick on 
the FBI or DEA or law enforcement, but if you think about the 
need to integrate the activities of the fusion centers with 
other fusion center-like activities out there, such as JTTFs 
and HIDTAs, there is no reason why those organizations should 
not be collocated. As Mr. Brooks referred to, he was having 
what he called ``deep collaboration.'' But that only comes with 
collocation and with some form of integration of activities.
    I looked at the statistics. There is fewer than one full-
time FBI agent, on average, at fusion centers around the United 
States. That is liaison. That is not full collaboration. Now, I 
know in the large cities--possibly here in Washington, DC, New 
York, and other places--that is not the case. It is a much 
closer collaboration. But the habits, the ingrained habits, 
when not changed by the policy, the resources, or not changed 
by the leadership, results in situations where the information 
does not get shared. I know of no tech problem that stands in 
the way.
    Senator Collins. Thank you.
    Chairman Lieberman. Thank you, Senator Collins. We will do 
one more round of questions.
    Chief, I was interested when you said that your main point 
of contact with the Federal Government is the FBI. From our 
perspective, there is nothing wrong with that, of course. I 
will say that when we created the Department of Homeland 
Security, and particularly creating within it the Intelligence 
and Analysis Section and watching it evolve, one of our hopes, 
and I think Secretary Napolitano's hopes now, for I&A was that 
it would play a very important role, unique role in the 
intelligence community in both transferring and receiving 
intelligence from State and local law enforcement.
    In fact, DHS and FBI have been working very well together, 
but I want to ask you this. One of our visions here, and it was 
not just ours alone, was that we have hundreds of thousands of 
State and local law enforcers, etc., across the country, that 
they, if properly informed, alerted, or involved, would become 
hundreds of thousands of additional eyes and ears in our effort 
to protect the homeland, particularly from terrorist attack. 
And, of course, if that was true anywhere because of the 
centrality of Washington, DC, it would be here.
    So my question is whether you think, as the Chief of Police 
here in Washington, DC, enough has been done to encourage 
information sharing from your force, up as opposed to from the 
Federal Government down?
    Chief Lanier. Yes.
    Chairman Lieberman. I think you have testified in very 
encouraging ways to the way in which there has been cooperation 
and more sharing from the Federal Government down, but how 
about from the local level up?
    Chief Lanier. That is actually a very good point, and 
particularly with the threat that we see evolving now of so 
many American citizens and people living in the United States 
becoming part of this threat because people call the police and 
report all kinds of strange behavior by neighbors or people in 
the communities and they call us with that.
    Chairman Lieberman. Right.
    Chief Lanier. So the way that works, and I want to back up 
and clarify a little bit--I have a large contingency of 
officers assigned to the JTTF and I receive twice-a-week 
briefings from them, and they have full access to cases they 
are working here in the NCR--which are most important to me--or 
anything relevant to Washington, DC. So that is why I say that, 
primarily, the information I get on the counterterrorism side 
comes from the FBI.
    However, when there are threats or different things that 
are going on, DHS does a very good job, and I&A, in putting out 
those intelligence bulletins. They have an analyst in my fusion 
center who works with all of our other analysts that 
continually produce products for us and for us to share with 
our forces to do what you described, updating our local police 
officers to know what to report.
    In terms of two-way information, we started the SAR 
Initiative that was talked about by Mr. McNamara 3 years ago 
and has now evolved so that we have a way to receive suspicious 
activity reporting through text messages, 911 calls, email, and 
we just launched iWatch, which is a community public reporting 
tool, so people can report suspicious activity. We also have 
engaged with Trap Wire, so when those SARs or those suspicious 
activities come in, they come into the fusion center, enter 
into the system that we have, Trap Wire. They are first 
reviewed by analysts in the fusion center. Then there is an 
analytical software that also analyzes those suspicious 
activity reportings and there is a decision made there whether 
it should be bumped up into eGuardian, which is shared space--
--
    Chairman Lieberman. Right.
    Chief Lanier [continuing]. So we can connect the dots with 
suspicious activity reporting around sensitive sites or 
critical infrastructure around the country. But also, it bumps 
it up to the Federal level so that it goes in that shared 
eGuardian space. I mean, that is significant progress.
    Chairman Lieberman. Yes, that is good to hear because 
Senator Collins mentioned earlier the bill that we put in 
encouraging the See Something, Say Something approach, which is 
really an important idea, talking about expanding our forces. 
Then you are involving everybody. But the natural place that a 
citizen who sees something and wants to say something will call 
is the local police department. They are not going to know, 
generally speaking, how to get to the JTTF or the fusion 
center. Maybe they will call the FBI, but I doubt it. They will 
probably dial one of the easy codes that they can dial to get 
to a dispatcher.
    So your dispatchers are trained as you described, just to 
take that suspicious activity report and send it through the 
chain of analysis and verification, and then ultimately it will 
go up to the Federal Government, I assume, if it is a----
    Chief Lanier. If there is a counterterrorism nexus, it will 
go into the shared space. If there is a criminal nexus, it will 
go in for investigation externally to the law enforcement 
community. So there is pretty extensive vetting before it is 
pushed into shared space, but it does--if there is a potential 
connection to counterterrorism, it goes into shared space, 
usually within a short period of time, a couple hours.
    Chairman Lieberman. Give me a status report, I suppose, on 
this question. At various times, we have talked about the fact 
that if a local police officer stops somebody and is suspicious 
of them and checks them, goes to the laptop that a lot of them 
now carry in their cars and checks the name on databases, we 
know that they will naturally plug through the criminal 
information database, but it is routine now that they also will 
plug into terrorism watch lists?
    Chief Lanier. That is correct. We get hits back all the 
time----
    Chairman Lieberman. Good.
    Chief Lanier [continuing]. Of all three levels on the 
terror watch list, and notifications are made. The officers are 
very familiar with it. And in fact, if there is a connection or 
a hit, there are instructions for the dispatcher and the 
officer in the computer as to who to call and how to make that 
call.
    Chairman Lieberman. Good. That is great.
    Captain Brooks, let me ask you this. You talked about it a 
little bit. In this time of budgetary stress, there are some 
people, and we have already heard voices who are going to say--
and I want to give you an opportunity on the record to respond 
to this--well, do we need both JTTFs and fusion centers? We 
really cannot afford them both, so maybe we should either cut 
back on or even eliminate the fusion centers. I want to give 
you an opportunity to respond to that kind of offensive.
    Mr. Brooks. Thank you, and that is a great question. It is 
one that comes up all the time. JTTFs are an investigative 
body. They are the FBI, and in partnership with their local law 
enforcement counterparts, that is the FBI's ability to 
investigate terror in this country.
    Fusion centers play a much different role. They are not 
only the information sharing hub. The fusion centers are the 
place where we build a cadre of terrorism liaison officers, 
where we train not only the 840,000 cops around the country, 
but more than a million firefighters around the country and the 
EMS workers and our private sector partners on indicators and 
warnings and the seven signs of terror. That is where we have 
the ability to catalog our critical infrastructure, and as 
Chief Lanier talked about, then be able to analyze incoming 
suspicious activity reports against the national threat picture 
and against what we know about our critical infrastructure. It 
is the ability to share, as you saw in a couple of the examples 
I gave, between the whole network of fusion centers and then 
with the FBI.
    Our HIDTA, our fusion center, and our threat squad, our 
JTTF are one entity. We are collocated together.
    Chairman Lieberman. Interesting. Is that typical or 
atypical?
    Mr. Brooks. Is it not typical, but there are a lot of 
people that have looked at our model.
    Chairman Lieberman. Right.
    Mr. Brooks. And so we have the ability to sit eyeball to 
eyeball, our analysts with the JTTF agents and investigators, 
as SAR information is coming in. But as often happens, as Chief 
Lanier mentioned, many times, that SAR information has no nexus 
to terrorism. It is about drug dealing or gang activity or 
firearms trafficking, mortgage fraud. I mean, it could be about 
a variety of things. And so the all crimes approach, as 
Ambassador McNamara talked about, gives us the ability to take 
that information and funnel it to the right place, and we know, 
sir, oftentimes, activity that at first blush appears to be 
criminal in nature--the Torrance gas station robberies, the 
smuggling of the cigarettes in North Carolina----
    Chairman Lieberman. Right.
    Mr. Brooks [continuing]. The sale of pseudoephedrine in 
California--that money is funneling back, or that is a 
precursor to a terrorist act. We cannot really separate crime 
and terror. We have to knock that wall down. If we are really 
going to be effective, we have to make sure that we understand 
that the sharing of information makes communities safe. Our end 
state is to prevent terrorism, but in my own community, right 
across the bay from San Francisco where I work, the City of 
Oakland, they have had 740 shootings to date. That is a city of 
400,000. That is terror right there in our own community, and 
that kind of terror is one that is experienced in big cities 
and in small towns across the country.
    And so I really think when people are concerned about the 
money spent on fusion centers, we are in tough budget times and 
we certainly get that. But fusion centers are uniquely situated 
to do things that JTTFs or no other program can. They can bring 
together disparate resources. In my center, I have emergency 
managers, firefighters, EMS workers, public health workers, 
cops, and analysts, Federal, State, and local, and private 
sector, and we can bring all of that data together. We can 
share information on terror, crime, or other threats. We can 
make sure that the JTTF gets the information they need, but 
that the DEA and the ATF and the local law enforcement gets the 
information they need, as well.
    Chairman Lieberman. Thanks for that excellent answer. 
Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Captain, I, too, want to thank you for a terrific answer to 
that question. The Chairman and I have been fighting off 
efforts by some of our colleagues to do away with fusion 
centers. There is this argument that they are redundant with 
the Joint Terrorism Task Forces or that they are ineffective or 
they are really not playing much of a role, and your answer 
distinguishing among the various roles was just what we need to 
counter it. We may send you to see a couple of our colleagues 
to better educate them about the differences, but thank you 
because that is exactly the question I was going to ask, as 
well.
    Chief, I want to ask you a question about over-
classification of information. We passed a law last year. It 
started out on the House side, as I mentioned in my opening 
remarks, with Representative Jane Harman who introduced the 
Reducing Over-Classification Act. The House bill only applied 
to the Department of Homeland Security. It was intended to 
prevent the unnecessary classification of information at a 
higher level than was warranted. Once it passed the House, 
Senator Lieberman and I, in my view, improved the bill by 
expanding it beyond the Department of Homeland Security to 
cover all Executive Branch agencies, and it became law a year 
ago this month.
    One of the concepts is to encourage greater use of tear-
lines so a lower level of classification of a report that is 
highly classified can be disseminated more widely. Has it made 
any difference in the past year?
    Chief Lanier. Actually, I followed that through and was 
glad to see it pass, and I have seen a significant difference. 
The example I gave of the information I was provided during 
this last threat, and, in fact, the information I was provided 
during the threat that was uncovered yesterday, or at least the 
arrest that was revealed yesterday, is a significant 
difference.
    Back in 2004, when preparing for the fall IMF conference 
here in the District--this is where you have 8,000 world 
delegates that come here for the IMF-World Bank conference--
there was some specific information that was recovered from a 
computer in Pakistan about surveillance that had been done on 
the sites, and I was given a briefing that contained little to 
no information that would help me to put adequate security in 
place based on what information I had. I was briefed initially 
2 months before the event. I was planning the event. I was 
putting the security plans in place. And it took weeks of 
arguing to get access to the information. And when I did 
finally get access to the information, which was completely 
over-classified, it changed my entire security plan. There were 
details in there that were critical to how I planned my 
security and I would have never known it if I relied on what I 
was briefed.
    I do not see that anymore. I actually in this past threat, 
during the anniversary, was amazed at how open both the FBI and 
DHS were with sharing the information, and then, also, in the 
process as the days went on about including me in briefings as 
the deliberative process went on about what would be released 
and how it would be released and what updates on the 
investigation.
    So I have seen a significant change here in Washington, DC, 
and from talking to Chuck Ramsey and major city chiefs, I 
think, at least in major cities, they are seeing a big 
difference across the country.
    Senator Collins. That is great to hear.
    Chief Lanier. Thank you for that.
    Senator Collins. Well, thank you for the feedback. It is 
nice to know that it has made the kind of difference that we 
were looking for, so thank you very much.
    Mr. Smith, my final question is for you and it has to do 
with the issue I referenced in my opening remarks, and that is 
the strange failure of the Administration to appoint a full 
complement of people to the Privacy and Civil Liberties 
Oversight Board. Obviously, this board has gone through sort of 
a difficult time with members resigning in the previous 
Administration, and I continue to believe that as we expand 
information sharing, which I think is absolutely critical, that 
this board is an important check on the process, just to make 
sure people are considering the privacy implications. So what 
do you think is the problem?
    Mr. Smith. I agree completely with you, Senator, about the 
importance of the board. I cannot speak, obviously, for the 
White House. I do not know exactly why they have had such a 
problem. To some extent, the confused and unfortunate history 
of the board may factor into that.
    I think two other factors may be involved, and this is 
speculation on my part. One is that, by statute, the members 
and the chairman serve a 6-year statutory term. That is a long 
time to ask somebody to serve----
    Senator Collins. Good point.
    Mr. Smith [continuing]. Particularly the chairman, and I 
understand they want the chairman to be full-time.
    A second concern may be whether it is adequately funded. I 
do not know what the current plans for funding are, but I did 
recently happen to look at the statute and it is pretty 
modestly funded for an extraordinarily broad set of 
responsibilities. So perhaps the Committee should look at some 
aspects of this.
    I mean, it would be presumptuous to suggest what you might 
do, but asking the White House why they have not filled it, I 
do not believe it is inattention. I do think they want to do 
it, but there may be some structural problems that perhaps the 
Committee could look at.
    When you contrast that, by the way, with the President's 
Intelligence Advisory Board----
    Senator Collins. Right.
    Mr. Smith [continuing]. Which is not subject to Senate 
confirmation, reports directly to the President, has 
extraordinarily high-powered people on it, and has an awful lot 
of influence within the Executive Branch, that may be, frankly, 
a better model than the one that is currently in statute.
    Senator Collins. That is a great idea and I think we should 
look at revamping it. We have written to the Administration 
repeatedly on this issue without any notable effect, but I 
think a 6-year term is too long and probably we should be 
looking at a 3-year term. I personally opposed the move to a 
full-time chairman. I do not think that is necessary, and I 
think that makes it difficult to get someone. We might want to 
have a full-time executive director, but not a full-time 
chairman.
    Ambassador McNamara.
    Mr. McNamara. Just a brief interjection. I strongly 
recommended to the former Administration and to this 
Administration before I left government that I, as Program 
Manager, really wanted that privacy board to be alive, well, 
working, and cooperating with me. It is a necessary place, I 
feel, for the Program Manager to go to bounce ideas off, to get 
an independent view. Sometimes you get so wrapped up in the 
problem that you forget that there are other aspects that have 
to be taken into account.
    I was very disappointed that the good initiative, within 6 
months, in fact, had deteriorated, and for all practical 
purposes, was moribund.
    Senator Collins. Exactly. Thank you, Mr. Chairman. I think 
this was an excellent hearing because of the extraordinary 
witnesses that we have, not to suggest that it would not have 
been a good hearing without them. [Laughter.]
    But I very much appreciate the expertise that you 
assembled.
    Chairman Lieberman. Thanks, Senator Collins. I agree with 
you totally. It has been very productive. I am going to end up 
coming away with a good feeling that we have made significant 
progress in information sharing over the last decade. I think 
it was you, Ambassador McNamara, who said that we had built a 
foundation but we are not finished with what we have to do. In 
that regard, you have given us, I think, some very timely 
information and counsel and some suggestions that I promise you 
the Committee will follow up on to continue to improve the 
already improved situation.
    Chief Lanier. Can I just add one thing I wanted to get on 
the record before we close?
    Chairman Lieberman. Chief, you have the full First 
Amendment rights. [Laughter.]
    Chief Lanier. Thank you. One of the things that is in my 
testimony, but I did not get a chance to get to it, is still a 
problem with information sharing, is the D-Block.
    Chairman Lieberman. Yes.
    Chief Lanier. During the earthquake that happened here in 
Washington, as you know, just a few weeks ago, literally, there 
was no phone service for anyone. I was on the street. I was 
with two other police chiefs in downtown Washington. None of 
our cell services worked. Using the GETS Card is great. You can 
get the GETS emergency service up.
    Chairman Lieberman. Right.
    Chief Lanier. It takes time. I do not think we should have 
that situation 10 years after 9/11, where you cannot make a 
phone call when there is a disaster that is unfolding. So any 
help you could give us on the D-Block would be really important 
for us.
    Chairman Lieberman. Thanks for bringing that up and 
relating it to this. You cannot share information if you cannot 
get information. We both are strong supporters of the D-Block 
auction and the commitment of the D-Block to public safety. 
There is growing support for it. There still is opposition to 
the auction from people who would have to pay, but I think we 
have the majority and we have to find a vehicle to get this 
through. It almost, believe it or not, got into one of the 
versions of the debt ceiling extension over the summer. I hope 
and believe that there will be an attempt to put it into the 
report of the Joint Special Committee, the so-called 
supercommittee created by the Budget Control Act. So I am more 
optimistic than not that we are going to find a way in this 
session to both have the auction, raise the money, commit the 
D-Block to public safety, give you some funding to implement 
that, and then also have some money left over to go toward 
deficit reduction.
    Chief Lanier. Thank you very much. It is very important.
    Chairman Lieberman. Thanks very much for your lifetime of 
service and for your testimony this morning.
    We are going to leave the record open for 15 days for any 
additional questions or statements that Members may have.
    With that, the hearing is adjourned.
    [Whereupon, at 12:08 p.m., the Committee was adjourned.]


                  TEN YEARS AFTER 9/11 AND THE ANTHRAX



                      ATTACKS: PROTECTING AGAINST



                           BIOLOGICAL THREATS

                              ----------                              


                       TUESDAY, OCTOBER 18, 2011

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Collins, Brown, and 
Moran.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. The hearing will come to 
order. Thanks to our really excellent panel of witnesses for 
coming today to discuss this topic, which is our Nation's 
record over the past decade in improving our defenses against a 
biological attack or a pandemic.
    Today's hearing is part of our ``Ten Years after 9/11'' 
series assessing the status of a number of government homeland 
security operations that were singled out as inadequate or 
dysfunctional by the 9/11 Commission. The impetus for our 
review today, as everyone will remember, actually came a week 
after the 9/11 attacks, long before there ever was a 9/11 
Commission, when our already traumatized Nation was shaken anew 
by the mailing of anthrax spores to five news media 
organizations and two U.S. Senators.
    All told, five people died from anthrax inhalation. Two 
were postal workers. And one close to my home was a 94-year-old 
woman from Connecticut. Twenty-two others were sickened, and 
thousands--including a lot of Members of Congress and our 
staffs--took a course of powerful antibiotics to ward off 
possible infection.
    We remember those days well around here because one of the 
letters was sent to Senator Daschle's office in the Hart 
Building, where my office was and is located. The building was 
evacuated and closed for months while HazMat teams scoured the 
area. We were fortunate that no additional anthrax was found 
and that no attacks, of course, have occurred since. But that 
is unlikely to remain the case.
    Three years ago, the Graham-Talent Commission on the 
Prevention of Weapons of Mass Destruction Proliferation and 
Terrorism concluded that a biological weapon was more likely 
than any other weapon of mass destruction to be used in an 
attack against our country that causes mass casualties. The 
Commission predicted that such an attack would probably occur 
somewhere in the world within the 5 years after its report, 
which was 3 years ago, and concluded then that the Federal 
Government was not prepared to respond adequately.
    Just last week, the Bipartisan WMD Research Center, which 
was a follow-on to that Graham-Talent WMD Commission, reported 
that the threat of a bioterror attack remains as strong as 
ever. We have no specific credible evidence, I want to make 
clear, that terrorists are now plotting such a specific attack. 
But they certainly have made it clear in words and action that 
they aspire to do so, and technological advances, I am afraid, 
are making it easier, faster, and cheaper to carry out such an 
attack.
    So our question today is: Has the Federal Government 
developed the tools we need to respond effectively to a 
bioterror attack or naturally occurring pandemic disease, to 
develop and disseminate vaccines and antibiotics, and to 
respond to the medical consequences that would result from such 
a biological disaster?
    Over the past several years and past decade, we have spent 
billions of dollars on biodefense research; on strengthening 
first responder capabilities; and on developing new vaccines, 
biosurveillance systems, and forensic science techniques. 
Really we have done a lot more than, I would say, the average 
American knows we have done to protect their security.
    These investments, in my opinion, have made us a Nation far 
more prepared to deal with a biological disaster than we ever 
have been. Just yesterday, for example, I noticed in the news 
that the Connecticut Children's Hospital, which is located in 
Hartford, conducted an exercise to test if it could immunize 
its employees within a 24-hour period in the event of a virus 
outbreak or a bioterror attack. This is typical of preparedness 
at the local level which is going on all over the country and 
is absolutely key. Communities across the country have 
significantly improved their disaster planning since 2001.
    But it is also clear from the reports that have been issued 
that we are not prepared for a catastrophic biological 
incident. We are much better prepared for a smaller WMD 
biological attack although there, too, are gaps remaining in 
our capabilities, which I would like to talk about during this 
hearing.
    Since 9/11, Congress has created a remarkable number of new 
offices to deal with this bioterror threat, so we have not sat 
back.
    The Biomedical Advanced Research Development Authority, 
established at the Department of Health and Human Services to 
fund WMD medical countermeasures--that is what products and 
programs do we have to address the questions: What do you do if 
there is an outbreak? How do you stop it and protect people? It 
has helped greatly increase our preparedness by delivering 
medical countermeasures to the National Strategic Stockpile, 
which now contains millions of doses of smallpox and anthrax 
vaccines; post-exposure therapeutics for anthrax, smallpox, and 
botulism; and some basic radiation treatments. As a result, our 
ability to treat victims with medical countermeasures has 
improved dramatically since 2001.
    At the Department of Homeland Security, the National 
Bioforensics Analysis Center studies new bioforensic methods 
and identifies the DNA of biological agents so that criminal 
investigators can pinpoint their source.
    The Obama Administration is also tightening security at 
laboratories that use the most dangerous pathogens and those 
most likely to be capable of being weaponized. I am pleased to 
note that legislation, which this Committee produced in October 
2009, has helped to facilitate this Administration action.
    The government has also deployed--and, again, I mention 
this for the benefit and hopefully the greater sense of 
security of the public--a network of aerosol sensors called 
BioWatch in cities around the country that is designed to 
detect anthrax and other biological agents. New technology is 
on the horizon that would shorten the amount of time that it 
takes these sensors to detect a biothreat.
    These are significant advances, in my opinion, in our 
biodefense, but they do not tell the whole story. Last week, 
the Bipartisan WMD Research Center concluded: ``Although 
[government] efforts have yielded considerable progress over 
the past decade, the Nation does not yet have adequate 
bioresponse capability to meet fundamental expectations during 
a large-scale biological event.'' And I stress ``biologial 
event.''
    We still, as far as I can determine, lack a strategy for 
dispensing vaccines and antibiotics in a mass crisis. We do not 
have the ability to track the spread of disease in realtime 
through a community or quickly reclaim contaminated areas to 
get people back to their homes and critical infrastructure up 
and running again.
    And 10 years after the anthrax attacks of 2001, as far as I 
can tell, we still do not have a modern anthrax vaccine that is 
more effective than the one developed in the 1950s. Medical 
countermeasures for other chemical, biological, radiological, 
and nuclear threats have also not yet been developed.
    Tight budgets now have led to an understaffed medical surge 
force to respond to a biological attack in communities around 
the country. In fact, right now discussions are underway in 
Congress to eliminate funding for programs that coordinate the 
overall medical response to a bioattack, such as the 
Metropolitan Medical Response System, and for centers that 
train public officials in emergency response.
    So the Department of Homeland Security, the Department of 
Health and Human Services, and the FBI, working together and in 
coordination with State and local governments and the private 
sector, have an enormous responsibility to continue to work to 
increase our capability to protect the public from biological 
attacks. This Committee has been working with those Federal 
agencies to make sure that they can fulfill that 
responsibility, and we will continue to work with them in that 
direction to make sure they can do so in a way that is ever 
more effective.
    So, bottom line, as I look back over 10 years, we have come 
a long way. Perhaps we will never be as fully protected as we 
would like to be, but we still have a ways to go. I would like 
to focus with the witnesses on both elements of that story. 
What have we done since 2001? And what are the most pressing 
unmet needs that we have? So I look forward to the thoughts of 
this excellent panel of expert witnesses today.
    Senator Collins, I really appreciate you coming. I know you 
are involved in the appropriations bill on the floor, and you 
are probably not going to be able to be with us very long. But 
thanks for coming by for an opening statement.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    It has been a decade since the anthrax attacks that left 5 
people dead and 17 sickened. It has been just 2 weeks since the 
operation in Yemen killed Anwar al-Awlaki, who reportedly 
sought poisons, including cyanide and ricin, to attack the 
United States.
    The new leader of al-Qaeda has a medical background, which 
raises concerns that he may have an even greater interest in 
pursuing chemical and biological terrorism.
    Since 2001, more than $65 billion in Federal funds have 
been invested in biodefense, but progress has been difficult to 
quantify.
    With the growth of new technologies and online road maps, 
terrorist groups may soon be able to threaten nation states 
with biological weapons. And some countries, like Syria, have 
never ratified the Biological Weapons Convention.
    As the Chairman mentioned, former Senators Graham and 
Talent issued a report in 2008 on the prevention of WMD 
proliferation and terrorism. They predicted the use of a weapon 
of mass destruction, most likely a biological weapon, in a 
terrorist attack by the year 2013. Just last week, they issued 
a report card grading improvements in detection and diagnosis 
capabilities, medical countermeasures availabilities, and 
communications.
    Their report card is troubling. While it does show progress 
in some areas, they found stagnation on medical management and 
on the development, approval, and dispensing of medical 
countermeasures. The Members of this Committee have only to 
think of our extensive investigation into the difficult time 
the Administration had in distributing the flu vaccine to 
respond to the naturally occurring H1N1 outbreak.
    The Administration received F's from the Commission in 
areas such as the attribution of even small-scale events and 
the environmental cleanup of large-scale incidents. That is not 
acceptable.
    To safeguard our citizens against bioterrorism, we must 
have the ability to respond effectively after an attack has 
occurred. But this is no easy matter. We do not yet have 
adequate bioresponse capabilities to meet fundamental 
expectations during a large-scale attack. The WMD Prevention 
and Preparedness Act that Senator Lieberman and I introduced in 
2009 would have required the establishment of a detailed plan 
for preventing and responding to such an attack.
    A biological attack is especially worrisome because we 
likely would not immediately know that we had been attacked. 
That is why I remain concerned about the effectiveness of the 
BioWatch Program. Secretary Janet Napolitano has touted this 
nationwide environmental monitoring system designed to detect 
the intentional release of aerosolized biological agents. But 
according to the GAO, a threat agent may not be identified 
until more than a day after its release.
    While the next generation of BioWatch technology could 
bring this down to just 4 hours, we are not yet certain that 
this technology will be viable.
    In addition to the technological upgrades, better 
coordination between DHS and HHS is necessary to enhance our 
ability to identify a threat agent quickly and to increase the 
speed and reliability of attribution so that we can help 
prevent follow-on attacks.
    Ultimately, our best hope of detecting and containing an 
attack is the low-tech, unglamorous, but critically important 
system of intelligence combined with a robust public health 
surveillance network. This still remains the most effective 
system, and we must be careful not to look for technological 
magic bullets to relieve us of the duty to maintain and 
strengthen our public health surveillance infrastructure.
    The Graham-Talent Commission also found serious flaws in 
the security of biological labs in this country. A GAO report 
in 2009, which I requested, reported alarming deficiencies in 
basic perimeter security at facilities that house the world's 
most dangerous pathogens, like the Ebola and smallpox viruses. 
GAO also found that laboratory regulation ``for the most part 
relies on self-policing.''
    I was pleased to hear the Chairman say that the 
Administration has taken some steps to improve security at 
these labs. I look forward to hearing what those are.
    While security controls must be improved within our own 
country, global security problems are even more daunting. I 
mentioned Syria earlier, but the crossroads of terrorism and 
proliferation, biology, and technology, in volatile countries 
such as Pakistan are also troublesome.
    A multitude of Federal agencies--DHS, EPA, HHS, CDC, USDA, 
and the FBI, among others--all have some responsibilities for 
bioterrorism. I will tell you, it concerns me that so many 
different Federal entities could be scrambling to respond 
during and after an attack. And that is, of course, in addition 
to State and local health officials and first responders that 
are a critical part of the system as well.
    Yet the Executive Branch does not have one agency or one 
official that is the clearly designated leader on all elements 
of biodefense, especially the coordination and dissemination to 
both law enforcement and public health stakeholders of critical 
information.
    This appears to me to be a major gap in our prevention and 
response capability. If we cannot tell our health providers 
what to look for when there is a potential threat, we cannot 
properly trigger the public health surveillance system that is 
our best hope for early detection, containment, and response.
    We need a leader who can direct the response and eliminate 
overlap or redundancy. This official should also have the 
ability to coordinate across Federal agencies and harness the 
assets and expertise of State and local governments, first 
responders, and the private sector.
    Although, as the Chairman has indicated, I am going to have 
to leave early from this hearing to manage a bill on the floor, 
I can assure the witnesses that I will follow with great 
interest your testimony, and I look forward to reading the 
questions and answers.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins, and if you are 
not able to return, as I presume you will not because you are 
managing the bill, I am going to make sure to ask the witnesses 
to respond particularly to your last couple of questions about 
coordination among the many Federal agencies involved here.
    Senator Collins. Thank you.
    Chairman Lieberman. Thank you.
    Our first witness is Dr. Tara O'Toole. Dr. O'Toole was 
before us in an earlier incarnation as a noted biodefense 
expert and founder, in fact, of the Center for Biosecurity at 
the University of Pittsburgh Medical Center. It is a pleasure 
to welcome you back as the Under Secretary for Science and 
Technology in the Department of Homeland Security and to 
welcome your testimony at this time.

   TESTIMONY OF HON. TARA J. O'TOOLE,\1\ UNDER SECRETARY FOR 
  SCIENCE AND TECHNOLOGY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Dr. O'Toole. Thank you, Mr. Chairman, Senator Collins, and 
Senator Moran. As you have both already eloquently stated, 
there really has been a lot of significant cumulative progress 
in many of the areas of this complex landscape of biodefense 
over the past decade, and I will highlight some of the S&T 
Directorate's contributions in understanding the threat, 
detection and characterization, response, recovery and 
decontamination, bioforensics, and last but not least, defense 
against agro-bioterrorism, which is very important even though 
we have not experienced such an event before.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. O'Toole appears in the Appendix 
on page 1150.
---------------------------------------------------------------------------
    Senator Collins, as you both noted, at the Federal level 
biodefense is an intensely interagency activity. I think the 
subject represents such irreducible complexity that at some 
level there is no help for learning how to coordinate across 
multiple Federal agencies and, indeed, as you said, State and 
local governments, the private sector of health care, and 
public health.
    In particular, in austere budget environments I think 
collaboration among the Federal agencies is going to become 
even more imperative as we try to conserve resources and make 
sure our priorities are correct.
    What you see before you today is the beginning of an actual 
community of biodefense experts in the government, which we 
certainly did not have, at least not as robustly as we do 
today, in 2001. I would caution you, however, that some of the 
budget cuts being contemplated will do great damage to that 
community, and if people do not see career paths in 
biosecurity, then this complex melange of technical subjects 
may suffer, and so will the Federal Government's expertise in 
this area in time to come.
    And, finally, I just want to commend this Committee for 
your continuing interest in this topic. This Committee is 
really one of the only places in Congress that the entire 
landscape of biodefense is overseen and examined, so this, I 
think, is a very important hearing.
    First of all, what is different since 2001? We have a much 
better understanding of the risks associated with specific 
biothreat agents under particular scenarios. Part of this 
understanding comes from S&T's Biothreat Risk Assessment, which 
is done biannually. We have done three of these major 
probablistic risk assessments, which are strategic assessments, 
models, which identify and prioritize the relative risk, as I 
say, of different agents and serve as the starting point for 
biodefense priorities and investment decisions.
    The BTRA, as it is known, also identifies knowledge gaps 
that are then pursued by the National Biothreat Center at Fort 
Detrick and provides a systematic, science-based framework for 
asking ``what if '' questions. What if it was a lot easier to 
get hold of this agent? What would that do to the risk? And so 
forth.
    Every other year when we are not doing this elaborate risk 
assessment, we conduct what are called tailored assessments 
which focus on more detailed evaluation and hypothesis testing. 
For example, what is the impact on producing agents given a 
range of judgments from the intelligence community about how 
easy that might be to accomplish?
    We are also in S&T pursuing detailed and empirical risk 
studies on the effects of releasing a biological agent or a 
chemical agent in metro systems. We have done this in Boston 
and in Washington, using both biological and chemical simulants 
to understand what would happen to these structures under 
attack and how to recover them quickly.
    Chairman Lieberman. What kind of metro systems are you 
referring to?
    Dr. O'Toole. The Massachusett Bay Transportation Authority 
in Boston and the Washington Metro, the oldest and the newest.
    Chairman Lieberman. Actual metro transportation.
    Dr. O'Toole. Exactly. Subways, as we call them in Boston.
    In the category of detection and characterization, as you 
noted, in 2001, once it was recognized that letters containing 
anthrax had been mailed to media outlets and Congress, there 
was an avalanche of reports of suspicious powders causing 
thousands of first responder requests and a tsunami of samples 
being sent to State labs for analysis. The response was very 
disorganized, confused. It engendered a lot of alarming 
speculation and repeated calls and responses that ranged from 
building evacuations, to stripping people who had been in the 
buildings and washing them down, and to closing buildings for 
years at a time.
    I think the reaction would be much different today. S&T has 
led an interagency working group with the same alphabet--CDC, 
FBI, HHS, and NIST--to create the Standard Field Protocol for 
Rapid Resolution of Suspicious Powders. This guidance basically 
walks first responders through how to deal with a visible 
powder they suspect of being a bioagent, protecting themselves 
and also yielding a sampling strategy that would stand up to 
reliable testing and prosecution if necessary. These are also 
much more effective and efficient procedures. They are already 
being used by the FBI in several States, and they are now being 
incorporated into first responder training curricula.
    We are also in S&T evaluating the ability of commercially 
available technology which would rapidly test powders in the 
field to be reliable. These technologies were available in 2001 
and were not reliable. There were a lot of false positives 
which caused a lot of mayhem.
    Because S&T and others have developed reliable standards 
for doing assays of microbiological agents, we can now 
effectively evaluate these commercial options and tell first 
responders what works and what does not.
    As Senator Collins says, the Lab Response Network is 
critically important to our biodefense. This is a State-
sponsored network of public health labs which are the ones that 
carry out the assays that would come to them via the first 
responders. They, too, are much more organized and capable than 
they were in 2001. They, too, are using standardized assays 
developed by S&T and the interagency, and we are working on 
technologies that would allow them to surge more effectively if 
they were suddenly, again, to encounter large swaths of tests.
    I will point out, however, that the robustness of this 
important leg of our response is also in peril. Since 2008, we 
have lost about 50,000 public health staff in the State and 
local public health agencies due to economic pressures.
    I will mention a final technology in detection and 
characterization category that S&T is working on. This is an 
outcome of our work on metro studies. We called it ``Detect to 
Protect.'' We are concerned that we need to be able to respond 
faster to detection, so we are looking at a two-tiered system, 
first, of very fast detectors that would automatically trigger 
low-impact action, such as turning off HVAC systems, and at the 
same time would trigger a slower but more reliable detector 
that would then confirm whether or not this was a true 
positive.
    We are also working on many other things, including 
advanced diagnostics. We have done a lot of work in recovery 
and decontamination. We do have initial guidance out there for 
how we would do that rapidly. I would point out that 
decontamination is really an issue mostly with anthrax, which 
is especially hearty. It may not be an issue with other 
bioagents, at least not in the long term. And DHS along with 
other agencies, in particular DTRA, are now conducting the 
aerosolization studies at Dugway Proving Ground to find out 
exactly whether or not and to what extent anthrax would come 
back up into the air and pose a risk to health after an attack.
    We have made great progress in bioforensics, which is one 
aspect of attribution. I think this is an area where the WMD 
report card was a little bit harsh. I would be happy to talk 
about that. But NBAF at Fort Detrick is an enormous national 
capability that we are very proud of.
    And, finally, agrodefense is also moving forward thanks to 
great work at the Plum Island Disease Center off the coast of 
Long Island. We are very close and, in fact, are doing field 
trials of a new foot-and-mouth disease vaccine, which would 
allow us to distinguish animals who were infected from a 
disease versus those who were vaccinated. And DHS is very 
committed to building the National BioAgro Facility in 
Manhattan, Kansas, a BSL-4 facility which Secretary Napolitano 
and I believe is essential for U.S. agrodefense. That is 
problematic in the fiscal year 2012 budget, and I would be 
pleased to take questions on that during the question period.
    Thank you very much.
    Chairman Lieberman. Thanks, Secretary O'Toole, for that 
excellent beginning. I cannot control myself from asking 
whether there is a benign form of the foot-and-mouth vaccine 
that you will have available to Members of Congress. 
[Laughter.]
    Dr. O'Toole. Given the budget, Senator, we would be----
    Chairman Lieberman. I apologize, really. But thank you for 
laughing quietly.
    Our next witness is Hon. Alexander Garza, Assistant 
Secretary for Health Affairs and the Chief Medical Officer of 
the Department of Homeland Security. Dr. Garza prior to coming 
to this position was involved in many aspects of practice, 
including serving in the U.S. military in battlefield 
circumstances with great honor and effect. He heads the 
biodefense strategy and planning effort at Homeland Security 
and runs operational components such as the biological 
surveillance system I mentioned, BioWatch. So we are very glad 
to have you back, and please proceed with your testimony.

 TESTIMONY OF HON. ALEXANDER G. GARZA,\1\ ASSISTANT SECRETARY 
 FOR HEALTH AFFAIRS AND CHIEF MEDICAL OFFICER, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Dr. Garza. Thank you, sir. Chairman Lieberman, Ranking 
Member Collins, and distinguished Members of the Committee, 
thank you for inviting me to testify before you today. 
Secretary Napolitano, in submitting the 2011 Progress Report, 
highlighted a number of activities that DHS has instituted to 
prepare for and protect against biological attacks. The Office 
of Health Affairs works on several of these efforts, so I 
welcome the opportunity to discuss these with you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Garza appears in the Appendix on 
page 1161.
---------------------------------------------------------------------------
    I am pleased as well to testify with my counterparts here 
from the FBI, HHS ASPR, and the Science and Technology 
Directorate. As was mentioned before, biodefense requires a 
multidimensional approach if we are to protect the American 
people, and we very much value the partnerships with these and 
other Federal agencies.
    The Committee is also very familiar with OHA's role and 
responsibilities. We are the principal medical and health 
authority for DHS, including acts of terrorism, and are the 
legislative coordinator for biodefense within the Department. 
These are responsibilities that I take very seriously as our 
mission is imperative to the overall mission of homeland 
security.
    As has been mentioned already, the risk of a biological 
agent being used as a weapon against the United States is both 
real and concerning. Just last week, the Bipartisan WMD 
Terrorism Research Center released its 2011 bioresponse report 
card stating that the threat of biological attack was real and 
growing.
    Furthermore, rapid advances in biotechnology have lowered 
the potential barriers once thought to inhibit would-be 
bioterrorists. The Amerithrax incident of 10 years ago, 
although significant, was a small-scale attack with limited 
casualties. It nonetheless showed that one does not necessarily 
need a weapon of mass destruction but only a weapon of mass 
disruption to effect severe consequences, and our adversaries 
have learned from this model.
    The Department has made great strides in protecting and 
preparing the Nation to respond to biological attacks since 
this incident. We have improved our ability to detect 
biological agents, mitigate their effects, speed our recovery, 
and, most importantly, to save lives. I will discuss our 
initiatives that are instrumental to biodefense for the Nation, 
including BioWatch, biosurveillance, and our planning and 
exercise efforts.
    One of DHS's most significant contributions in biodefense 
is in early detection. The prompt identification of a bioattack 
accelerates the detect, decide, deliver, and dispense sequence. 
Put another way, it buys time, and time saves lives.
    Now in its ninth year, OHA's BioWatch program is a 
federally managed, locally operated nationwide environmental 
surveillance system designed to detect biological agents. 
BioWatch is strategically deployed to more than 30 high-risk 
metropolitan areas and at national special security events such 
as the upcoming APEC summit.
    However, BioWatch is much more than a machine. BioWatch has 
evolved to become a robust network of Federal, State, and local 
individuals that together form the nexus of decisionmakers in 
the event of a biological attack.
    In 2010, DHS began testing and evaluating the next 
generation of biodetection systems, which we call Generation-3, 
or Gen-3. The Gen-3 program's goals are to decrease the time to 
detection from 4 to 6 hours, increase our population coverage, 
and provide greater cost-effectiveness all without losing any 
accuracy. We are currently in the process of a rigorous and 
well-controlled testing and evaluation program validating this 
technology.
    Early detection through BioWatch is but one element of an 
overall biosurveillance and situational awareness system. OHA 
also manages the National Biosurveillance Integration System, a 
consortium of Federal partners established to detect and 
monitor biological events of national concern.
    DHS has developed and continues to refine an integrated, 
multidisciplinary, common biosurveillance capability to provide 
the Federal Government, State, and local partners with 
information and assessments of potential and unfolding 
biological events.
    Furthermore, understanding that all events are local, we 
work directly with State and local public health, emergency 
management, and emergency medical services leaders to develop 
response capabilities for health security threats, including 
biological threats.
    For example, we are expanding local public health 
participation in the national network of fusion centers, and 
OHA together with FEMA conducted a series of anthrax response 
exercises in each of the 10 FEMA regions. These exercises were 
designed to help coordinate roles, responsibilities, and 
critical response actions following a wide-area anthrax attack.
    Last, OHA coordinates routinely with our Federal partners, 
including those at this hearing, on various medical 
countermeasure issues. These efforts include the interagency 
development of a Federal rapid response capacity and the DHS 
effort to stockpile medical countermeasures for our personnel, 
which my office has led.
    As demonstrated by these multiple examples, DHS has made 
substantial investments and improvements since the 2001 anthrax 
attack, and we are much better prepared than we were a decade 
ago. There still, however, remains much work to do in 
biodefense going forward.
    I thank you for your time and look forward to answering 
whatever questions you may have. Thank you, sir.
    Chairman Lieberman. Thank you, Dr. Garza, for that 
excellent testimony.
    Next we have Dr. Nicole Lurie, who we are again glad to 
welcome back--we have four doctors on this panel, and it is 
reassuring. She is the Assistant Secretary for Preparedness and 
Response at the Department of Health and Human Services. Dr. 
Lurie heads the biodefense strategy and planning efforts at HHS 
and in that regard oversees efforts to develop vaccines and 
therapeutics under the Project BioShield in BARDA. So thank you 
for your work, and we look forward to your testimony now.

  TESTIMONY OF HON. NICOLE LURIE,\1\ ASSISTANT SECRETARY FOR 
PREPAREDNESS AND RESPONSE, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Dr. Lurie. Thank you. Mr. Chairman, Ranking Member Collins, 
and Senator Moran, as you heard, I am Dr. Nicole Lurie. I am 
the Assistant Secretary for Preparedness and Response, and I am 
pleased to talk with you about our Nation's public health 
preparedness for a biological event.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Lurie appears in the Appendix on 
page 1167.
---------------------------------------------------------------------------
    As we all know, 10 years ago, on the heels of the World 
Trade Center attacks, we all dealt with the anthrax letters, 
which we have talked about this morning. While we were ill 
prepared at the time to face those attacks, today I am pleased 
to tell you that our public health preparedness has made steady 
and really significant progress. With each emergency, from 
hurricanes and tornadoes to a pandemic and an oil spill, we 
have continually improved in our planning and our operations. 
We now have strategies in place to coordinate our efforts and 
have built truly all-hazards capabilities from the local to the 
Federal level to ensure that our responses are flexible and can 
save lives.
    One area of progress is in the medical countermeasures 
enterprise, beginning with surveillance running all the way 
through to dispensing and evaluating a countermeasure. Yet I 
will be the first one to tell you that, despite the gains, 
progress has not been fast enough.
    In December 2009, Secretary Sebelius requested a review of 
the medical countermeasures enterprise to ensure that the 
Nation really has a forward-looking, 21st Century system. We 
have made many improvements in response to that review, 
including strengthening surveillance, laboratories, and 
countermeasure distribution plans.
    Critical to the success of the whole Public Health 
Emergency Medical Countermeasure Enterprise is an integrated 
approach with a formal governance structure. And you should 
know that this includes all of the components of HHS plus DHS, 
VA, DOD, USDA. So it is truly an interagency effort. And that 
all parts now of HHS, CDC, FDA, NIH, and the Biomedical 
Advanced Research and Development Authority work together with 
companies from the outset of a contract rather than at the end 
of the pipeline.
    In this arena, active partnerships with industry have 
become really critical, and we have created new opportunities 
to communicate our priorities and help companies, especially 
new ones, learn how to work more effectively with us.
    We have also strengthened our internal processes, making 
the government an easier partner to work with, and I am pleased 
to report, for example, that we have decreased the time it 
takes to announce, review, and award new contracts for our 
broad agency announcements by almost 25 percent in the last 
year, to under 6 months.
    The medical countermeasure review also prioritizes 
regulatory science at FDA and proposes innovative partnerships 
with industry to support promising new companies and ideas.
    Thanks to the BioShield special reserve fund, we have 
procured and stockpiled more critical life-saving 
countermeasures than at any time in our Nation's history, 
including for smallpox, anthrax, botulism, and radiological and 
nuclear threats, as you mentioned. Through work in BARDA, we 
now have a pipeline of new products, including over 80 
candidate products that, if successful, have the potential to 
transition to the stockpile. And we continue to make progress 
in preparedness for the next influenza pandemic.
    Through a long-term partnership with Novartis, for example, 
the first U.S. cell-based influenza manufacturing plant will 
become operational in the next couple of weeks. This plant will 
expand significantly our domestic surge capacity for a pandemic 
vaccine and could also make vaccines for other novel emerging 
pathogens in an emergency.
    Chairman Lieberman. Just tell us a little more about that, 
because our Committee was so focused on that during the H1N1 
hearings we held. Tell us where it is going to be. This will be 
the first inside the United States now.
    Dr. Lurie. This is the first cell-based facility inside the 
United States. It is in Holly Springs, North Carolina, and it 
has been a long-term partnership with Novartis.
    Chairman Lieberman. Right.
    Dr. Lurie. Then, in addition, we are reviewing applications 
now for the Centers for Advanced Development and Manufacturing 
called for in the Secretary's medical countermeasure review 
which will provide core services to companies and then 
additional surge manufacturing capacity. I do not know where 
those will be yet because that is still in process.
    Chairman Lieberman. Well, that is really good to hear. I 
remember during the outbreak that we were very concerned that 
we were dependent on foreign manufacturers, and they would 
naturally feel pressure to give first to their local 
populations, and quite understandably. So that is very 
significant. I am glad to hear that.
    Dr. Lurie. Yes. Thanks. I think the progress has really 
been remarkable, and I congratulate both Congress for funding 
and our team and our partners for really pulling it off.
    Yet, as we all know from the WMD Terrorism Research Center 
report card, while we have made important progress--and that is 
some of it--our preparedness is not yet sufficient. In 
particular, they noted that the medical countermeasures 
enterprise lacks sufficient and sustained funding. The 
reauthorization of the Pandemic and All-Hazards Preparedness 
Act is one opportunity to provide some new authorities and 
resources called for in that report.
    On the response side, we are using new technologies, 
including electronic medical records to match demand with need, 
geographic information systems to identify the needs of 
affected populations and available resources, and social media 
to communicate and observe developing health trends.
    We have also made impressive strides in our Nation, in our 
core State, and local public health capabilities. So there was 
a time in the not too distant past, in fact, when you and I had 
a chance to speak, when getting Internet access for a local 
health department was a challenge, and blast fax was a 
breakthrough technology. We can all laugh about it now. It was 
not very long ago.
    Two-thousand-eleven has seen a number of natural disasters 
that were ably managed by our State and local partners with 
limited or no Federal assistance, and we have heard repeatedly 
from them that this would not have been possible 10 years ago.
    Two critical tools that underpin State and local response 
are the Hospital Preparedness Program and the Public Health 
Emergency Preparedness Program, which are being aligned for 
greater efficiency. However, without continued support and 
funding for our public health and medical systems, the 
infrastructure will degrade. In fact, as you heard from Dr. 
O'Toole, we are seeing this already in this loss of almost 
50,000 jobs. My fear is that as State and local capacity 
diminishes, we will see an increase once again in the call for 
Federal assistance, but, furthermore, this really puts our 
Nation's response capability and community recovery at risk. 
Sustaining our community-based response capabilities has to 
remain a top priority.
    Ultimately, all of our investments and efforts have the 
same goal: Building a resilient Nation and saving lives when a 
disaster does occur. We have made great strides in the last 
decade. I am very proud of what we have accomplished in the 
last 2\1/2\ years, but in truth, we have miles to go before we 
sleep.
    Thank you for the opportunity, and I am happy to answer any 
questions you may have.
    Chairman Lieberman. Thanks very much, Dr. Lurie.
    Last on this panel is Dr. Vahid Majidi, who is the 
Assistant Director at the FBI in charge of the Weapons of Mass 
Destruction Directorate. It says a lot that Dr. Majidi, who has 
a very distinguished background as a chemist and worked at the 
National Laboratories, now finds himself at the FBI where he is 
responsible for investigating suspected cases of WMD terrorism 
and proliferation. So I am very glad you are here, and please 
proceed with your testimony.

   TESTIMONY OF VAHID MAJIDI, PH.D.,\1\ ASSISTANT DIRECTOR, 
  WEAPONS OF MASS DESTRUCTION DIRECTORATE, FEDERAL BUREAU OF 
           INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Majidi. Thank you, sir. Good morning. It is my pleasure 
to discuss what the FBI has done over the last 10 years and 
what we are doing to protect the United States against 
bioterrorism threats.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Majidi appears in the Appendix on 
page 1186.
---------------------------------------------------------------------------
    The FBI's number one priority is to protect the United 
States from terrorist attacks, and within that priority, the 
use of weapons of mass destruction is simply unacceptable to 
us. In fact, to clearly demonstrate our commitment and to 
ensure that we rigorously address WMD issues, the FBI 
established a Weapons of Mass Destruction Directorate in 2006. 
The Directorate consolidates WMD investigations and prevention 
efforts, creating a unique combination of law enforcement 
authorities, intelligence and analysis capabilities, and 
technical subject matter expertise focused on chemical, 
biological, radiological, nuclear, and explosive matters. My 
Directorate's primary mission is prevention of WMD terrorism 
and proliferation.
    The FBI has the responsibility to investigate WMD threats, 
and often we have to use our strong response capabilities to 
collect evidence in contaminated areas, disarm hazardous 
devices, and provide command and control support for critical 
incidents.
    Threats are identified through products from the U.S. 
intelligence community, which includes FBI's collections 
efforts, and leads are provided through the local law 
enforcement community as well. Domestic and international 
terrorist groups, such as al-Qaeda and its affiliates, have 
shown unwavering interest in using biological agents and 
toxins. It is not unusual for these groups to openly seek 
scientists to join their ranks and support their cause.
    The FBI addresses bioterrorism threats by identifying 
points of vulnerability for biological agents acquisitions, 
weapons development, and ultimately the execution phase. This 
systematic approach allows for resources prioritization in 
light of potential gaps in our biosecurity program. We have a 
well-defined framework to design and implement countermeasures 
focusing on our outreach and indicators.
    There are challenges mounting an effective response to an 
act of bioterrorism. These events may go undetected for a long 
period of time until victims seek medical treatment or other 
key evidences are discovered. As such, the FBI and CDC 
developed the Joint Criminal and Epidemiological 
Investigations. This is an interactive training program to 
improve public health and law enforcement efforts to jointly 
identify and investigate intentional or naturally occurring 
threats.
    As you mentioned earlier, a recent bioresponse report card 
published by the Bipartisan WMD Research Center provides an 
overall negative view of U.S. Government accomplishments in 
bioterror readiness. Nonetheless, they do highlight that CDC 
and FBI have made considerable progress in building 
partnerships between public health and law enforcement that 
will significantly improve cooperation during investigations.
    I must emphasize that FBI's program in combating 
bioterrorism is based on prevention concepts, which is much 
more expansive than leading-edge investigative protocols, 
advanced traditional forensics, and microbial forensics 
familiar to all. Amongst the pantheon of activities centered on 
WMD issues, the FBI is keenly focused on safeguarding 
biological organisms and the security of individuals with 
access to these materials. We developed the Biological Sciences 
and Academic Biosecurity Workshop Initiative to build 
partnerships between the FBI and academic research communities. 
This initiative improves situational awareness for all 
participants and develops a mechanism to report suspicious 
activities to prevent emerging national security threats.
    As you are aware, the FBI is a Federal partner in the 
Select Agent Program with HHS and USDA, and this program is 
designed to safeguard entities that store or conduct research 
with biological select agents and toxins. The FBI supports this 
program by properly vetting individuals prior to access against 
any of the 10 prohibitors defined in the USA PATRIOT Act and 18 
U.S.C. 175(b).
    The FBI has at least one highly trained special agent in 
each of our 56 field offices who manages and addresses WMD 
threats and events. These special agents are known as WMD 
coordinators. The FBI laboratory has developed an extensive 
protocol and strong national relationship with U.S. Government 
components, including DHS's National Bioforensic Analysis 
Center, to deal with WMD evidence. Biologically contaminated 
evidence is evaluated by the Laboratory Response Network 
established by FBI, CDC, and associated public health 
laboratories.
    Additionally, the FBI created the Hazardous Evidence 
Analysis Team, a cadre of highly trained forensic examiners who 
are capable of safely performing traditional forensic analysis 
on contaminated evidence in our partner laboratories.
    Advancements in science and technology have led to 
significant progress in synthetic biology. The FBI has 
established a synthetic biology initiative, a proactive 
approach to mitigate current and over-the-horizon risks posed 
by exploitation of advancements in this arena. In a partnership 
with private industry, we have implemented the Screening 
Framework Guidance for Providers of Synthetic Double-Stranded 
DNA. This framework codifies a notification process for DNA 
sequence providers to contact their local WMD coordinator, 
which I mentioned earlier, when encountering alarming orders.
    Moreover, growing public interest in biological science has 
led to the development of an amateur biology movement. In this 
community, science and biotechnology is pursued at home or 
shared meeting places. The FBI has developed a partnership with 
the amateur biology community to garner collaborations in 
preventing, detecting, and responding to potentially nefarious 
incidents. In short, the FBI is dedicated to protecting our 
Nation and will continue to collaborate with the U.S. 
Government and scientific community to proactively address new 
biological threats on the horizon.
    Since the establishment of the Weapons of Mass Destruction 
Directorate, the FBI has successfully managed hundreds of cases 
involving biological substances and suspicious powders, leading 
to numerous convictions and lengthy sentences.
    Thank you for your time. I look forward to answering your 
questions.
    Chairman Lieberman. Thanks, Doctor.
    We will do 7-minute rounds of questions. Senator Moran is 
here, and Senator Brown said he would try to come back from 
another committee hearing.
    Dr. O'Toole, let me begin with you, and thank you for the 
work that Science and Technology has done. I want to ask you to 
talk to us a little more about the strategic risk assessments 
that you have carried out, and tell us in a little more detail 
what they show.
    Dr. O'Toole. These risk assessments are models. They are 
computer models based upon the best scientific data and the 
judgments of professionals--including intelligence community 
professionals and law enforcement experts--that we can find. 
``All models are run, some are useful'' is the rule of thumb, 
and the same goes for BTRA.
    I would be happy to tell you how the agents themselves rank 
and what scenarios we are most worried about in a classified 
session. I cannot talk about that now. But what the models 
produce is information of that sort: What agents really could 
create a mass casualty situation and under what conditions.
    It allows you to say, well, if I change this variable, so, 
for example, if I made it impossible to get a bioagent such as 
smallpox, then that scenario goes away or is greatly mitigated.
    What happens if you could have medical countermeasures 
against a certain agent under reasonable expectations of 
distribution and efficacy and so forth? How many lives would 
you save?
    So you can ask questions of these models and probe them, 
and then take the uncertainties that you uncover and actually 
investigate those in laboratories, which we do, and back, in 
Frederick, Maryland.
    They act in practice as the starting point for decisions 
about which biothreat agents do we need to be most worried 
about.
    Chairman Lieberman. That is the important point. This is a 
unique function that you are carrying out.
    Dr. O'Toole. Yes.
    Chairman Lieberman. And the results of these strategic risk 
assessments are then shared across the board in our government, 
and presumably State, local government, and the private sector, 
in terms of how the attacks are most likely to come and, 
therefore, I presume, how we should work to develop 
countermeasures.
    Dr. O'Toole. Yes. The last is particularly important. The 
bioagents of greatest concerns are then further studied in 
detail. We validate the original assumptions. We make sure we 
have up-to-date intelligence. And then the results of that 
second analysis are forwarded to HHS, where they consider them 
in their own framework in terms of public health impacts.
    First of all, the design of the Biological Terrorism Risk 
Assessment is an interagency process, and the results are 
disseminated through the interagency and find their way into an 
array of activities, from what kind of exercise are we going to 
pursue in terms of decontamination to what countermeasures are 
we going to pursue to a myriad of other things.
    Chairman Lieberman. Let me go back to the baseline. I 
obviously respect and support your conclusion that you do not 
want to describe this in detail in a public setting. But I take 
it, generally speaking, that the result of the strategic risk 
assessment is that you continue to consider the threat of a 
bioterrorist attack to be real. In other words, there is a 
second look here around the tenth anniversary of 9/11 where 
some people are beginning to say that in general, not just in 
terms of bioterrorism, we have overreacted over the last 10 
years.
    Dr. O'Toole. Can I address that directly?
    Chairman Lieberman. That is what I would like you to do.
    Dr. O'Toole. The biothreat is real, as Dr. Majidi said. We 
know our adversaries are pursuing biological weapons. The 
potency and the accessibility of these weapons, as you said, 
will increase as the bioscience revolution proceeds.
    Just as an example of how fast we are learning how to 
manipulate biological organisms, in the 1990s it took a decade 
and $1 billion to decode the human genome. We could now do that 
for $1,000 in about a week. And that is only one technique.
    At the same time, this progress is happening globally. It 
is not owned by the U.S. Government or any government. It is 
being pursued avidly by huge amounts of capital in biopharma, 
biofuels, and all kinds of places, including amateur biologists 
and kids who are interested in extracting DNA for fun, similar 
to the computer revolution that began the IT industry. So this 
is going to proceed apace, and the appeal of asymmetric weapons 
is not going to go away either among terrorist groups or among 
sovereign states, I would suggest. This threat is not going to 
go away. It is going to grow.
    Chairman Lieberman. Yes. Dr. Majidi, you agree with that, I 
assume. For instance, the Graham-Talent Commission, as you 
probably know, said that they considered a biological attack to 
be the most likely of the various forms of weapons of mass 
destruction attack because of the relative ease of developing 
biological agents and moving them into the country. Do you 
agree?
    Mr. Majidi. Yes, that is correct, sir. In fact, if you look 
at a historical perspective as well as the current case trend, 
biological cases tend to be the largest portion of our WMD 
cases that we investigate. Many of them tend to be hoaxes, but, 
nonetheless, the cases that have real material involved in them 
tend to be biologically centered.
    Chairman Lieberman. Yes, I mean, I can tell you that we 
have a warning system now in the Capitol, usually on our 
BlackBerrys or cell phones, and there is actually a remarkable 
number of occasions where the Capitol Police are called to 
investigate some kind of substance that they do not identify. I 
think every one of them since 2001 has turned out to be benign, 
but that is not always going to be the case.
    I think it is clear from your testimony that--Dr. Garza or 
Dr. Lurie, do you want to add anything about the reality of the 
threat?
    Dr. Garza. I would concur with both of my partners up here. 
Dr. O'Toole hit on this earlier. There is such a thing as the 
curve on how quickly biotechnology is growing, and as I 
mentioned in my opening statement, this is very concerning. And 
she made the analogy to computer technology. There is a law in 
computing called Moore's law where you increase the capacity of 
your capacitor and the price decreases. Well, the curve for 
biotechnology is much steeper than Moore's law, and so that 
barrier that a would-be bioterrorist would have in being able 
to develop a biological weapon is becoming much easier than it 
was in the past.
    Chairman Lieberman. Dr. Lurie.
    Dr. Lurie. Nothing really to add. I would say that for some 
years I participated as a judge in a contest for high school 
students who did epidemiology projects. What they did was 
remarkable and, in fact, sometimes much more sophisticated than 
many of the other modelers I know.
    I think if we were to have such a kind of contest now in 
the amateur biology sphere, we would be pretty terrified with 
what they would come up with.
    Chairman Lieberman. That is sufficient warning in itself.
    I want to go back very briefly, Dr. O'Toole. Obviously, 
intelligence in the war we are in with the terrorists is more 
critical than it has ever been in any other war because of the 
nature of the enemy not striking in any conventional way and 
also not hesitating--in fact, focusing on civilian populations. 
So I take it that the intelligence community is fully and 
directly involved certainly in the strategic risk assessments 
that your Directorate is doing.
    Dr. O'Toole. Yes, they are, more and more actually, and the 
intelligence community itself is rethinking its own approach to 
the biothreat and putting new emphasis on collection techniques 
and so forth.
    I would urge all Members of Congress to get a classified 
briefing on the biothreat from the intelligence community. I 
think that would be very helpful to biosecurity.
    Chairman Lieberman. That is a good idea, and I am going to 
ask Senator Collins, but it might be good for our Committee to 
begin that and do that in a classified setting.
    Let me ask you one more question, and then I am going to 
yield to Senator Akaka, who I welcome here this morning, and 
this picks up in a way from Senator Collins' last statement in 
her opening statement, which is here are four different 
agencies--well, three with two from DHS--represented and a lot 
of other agencies clearly involved. Who is in charge? In other 
words, who is coordinating the efforts of the various 
departments of the Federal Government involved in both trying 
to prevent and respond to a biodisaster? Let me begin with 
that. Dr. O'Toole, do you want to start?
    Dr. O'Toole. Well, I would have to ask, in charge of what? 
I understand the longing for a strong leader, somebody who can 
take decisive action in a crisis, and there is an argument for 
that. I do think that biosecurity is so complex and involves 
equities from so many agencies that a coordinator in the White 
House may be of some use, but I think the question is to some 
extent a red herring.
    In a catastrophic attack, the President is going to be in 
charge in about 30 seconds.
    Chairman Lieberman. That is what I was going to ask. Who is 
in charge in a crisis? Is there somebody within the White House 
who will take the key role in coordinating your effort and 
advising the President----
    Dr. O'Toole. Yes, I mean, I think that would be within the 
National Security staff, either John Brennan or his Deputy, 
Heidi Avery.
    Chairman Lieberman. Right.
    Dr. O'Toole. But we would all have roles to play very 
intensely. The interagency approach brings strengths as well as 
liabilities, and as we saw in 2001 and during the flu pandemic, 
you need a lot of very detailed, specialized knowledge to have 
an informed, coherent response to these kinds of events. And we 
are going to have more and more of them in this society, like 
Deepwater, like Fukushima. We are not going to be able to 
predict in advance exactly what constellation of experts we 
need. We need to have an agile capacity to assemble and 
reassemble and restructure the capacities of the U.S. 
Government as needed. That is what we have to learn how to do, 
and we have to get very efficient at that.
    Chairman Lieberman. Maybe I will turn to you, Dr. Lurie. 
What assurance can we give the public, particularly at this 
time of tremendous budgetary stress, that there is not a 
redundancy that is necessary, in other words, that there is not 
an overlap of public investment because of the many agencies 
involved in the whole field of preparing for, preventing, and 
responding to bioterrorism?
    Dr. Lurie. Thank you for that. This is an area where I 
actually feel quite comfortable. I think the governance 
structure for the countermeasures enterprise is very robust. As 
I testified, it includes high-level membership from across the 
interagency. So Dr. O'Toole and Dr. Garza both sit on the 
PHEMCE steering committee, as do others. We have pretty full 
visibility into what people are working on and developing, 
whether it is in different HHS components, whether it is in 
DOD, whether it is in DHS.
    The good part is that we all share expertise and problem-
solve around it. We look and say, well, if you are doing X, I 
need to do Y instead. Or for example, in the case of FDA, how 
can FDA be at the table earlier with a DOD issue?
    So the coordination I think has really grown tremendously 
over the past couple years and is quite robust. So going back 
to your first question to Dr. O'Toole, we learn from DHS and 
get information from DHS about which agents are the threat 
agents. We do our own public health assessment of how those are 
likely to make people sick and how many people are likely to 
either get sick or die. We look at the kinds of products that 
we need to make to counteract those. And with that, we work 
across the whole interagency, so we want to know how would a 
product be used before we even go ahead and make it. Does that 
make sense? Is it usable? Is it needed? How would it be 
deployed in the field, for example?
    In this space, I actually feel quite comfortable that we 
have worked very hard to wring redundancy out of the system. In 
our Centers for Advanced Development, for example, DOD has sat 
at the table with us, helped put the RFP together, will help 
provide core funding for it. Again, tremendous opportunities 
exist for coordination and collaboration that we have taken 
full advantage of.
    I want to go back to your question for a minute also to Dr. 
O'Toole about this, the sort of ``who is in charge'' piece, 
because I think, as she said, this capabilities-based piece is 
really important, and we have now a number of structures for 
governance and coordination across all of us. But I should also 
point out that at the end of the day, with each of the 
emergencies that we have faced, whether it was pandemic, 
whether it was Deepwater, whether it was the effects of the 
Fukushima crisis, we all sat together in the situation room, 
led by National Security Council staff, and worked it out, 
worked through plans and operational responses. And because we 
work so closely together now day to day on all of these other 
issues, that has actually been really easy. It is not like you 
have needed to corral people to sit them down at the table and 
make them talk to each other. We do that all the time.
    Chairman Lieberman. I am going to leave it at that now, but 
I think your answer, both of your answers, says that you are 
working together regularly and that the person in charge is in 
the National Security Council, probably Mr. Brennan or his 
Deputy, which makes as much sense as anything else. OK. It 
makes sense, in other words.
    Senator Akaka, thanks for being here.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you. Thank you very much, Mr. 
Chairman, for holding this hearing. I want to add my welcome to 
our witnesses here today.
    I have long been concerned about biological attacks, 
especially against our food and agriculture systems. The 
difficulty in tracking the source of the recent E. coli 
outbreak in Germany and France reinforces my concerns.
    A bioterror attack committed anywhere in the world could 
easily spread to the United States. We must detect an attack 
early and limit its impact, which is why we need to continue to 
strengthen domestic and overseas surveillance capabilities.
    Dr. Majidi, last month I held a hearing on how the United 
States would respond to an attack on our food and agriculture 
systems, and an issue that was raised at the hearing was the 
lack of indicators of emerging threats to food and agriculture 
within the intelligence community.
    How are the Bureau's intelligence activities targeting 
biological threats and, in particular, biological threats to 
U.S. food and agriculture?
    Mr. Majidi. Sir, like most of the intelligence community, 
what we have is that annual gap review and ultimately 
production of what we call an intelligence requirement. That is 
based on what we feel has the highest risk associated with it 
and the information that we need to know more about that 
particular item.
    What we do is to disseminate that particular gap through 
the intelligence requirement to our field offices. We share our 
concern with our brethren in the intelligence community, and in 
many instances we work collectively together to push those gaps 
out for additional collection.
    The issue of agroterrorism and biological attacks has been 
on the forefront of many of our activities, and these gaps have 
already been disseminated, and we are still requiring 
additional information on many of the items.
    Senator Akaka. Dr. Lurie and Dr. Garza, as you know well, 
effective global disease surveillance can provide early warning 
to the public health community of emerging infectious diseases 
in other countries that could potentially threaten the United 
States. Would you please comment on what steps your departments 
have taken to make sure our Nation is aware of possible threats 
overseas?
    Dr. Garza. Yes, thank you for that question, Senator. In 
terms of biosurveillance, in particular the global reach of 
biosurveillance, most of the work that we have done within the 
Office of Health Affairs has been through our National 
Biosurveillance Integration Center, and in that capacity we 
work with many of our Federal partners, many of whom are seated 
here today, including the FDA, USDA, HHS, and others. DOD 
actually has a fairly substantial global reach in 
biosurveillance due to their deployment activities. And so we 
work with them to bring that information together into one 
place where we can take a look at the data to make sure that 
there are no signals coming out that would impart something of 
concern to the United States.
    I think we work very well with our partners at HHS, DOD, 
and others to make sure that we are not missing anything and to 
make sure that we are covering the different aspects of 
biosurveillance.
    Senator Akaka. Dr. Lurie.
    Dr. Lurie. I will maybe add that CDC, in particular, has a 
very robust global disease detection program, is one of the WHO 
coordinating centers for influenza, and has subject matter 
experts virtually all over the world helping build capacity in 
countries to do surveillance, working on reporting, having the 
relationships that give you the earlier heads up that something 
is coming. They also have greatly strengthened laboratory 
capacity in that regard.
    In addition, we work through a number of organizations. The 
Global Health Security Initiative, which is a constellation of 
a number of developed countries, is actually meeting here next 
week. We do a lot of work and coordination with them around 
surveillance, preparedness, and response.
    Similarly, the international health regulations promulgated 
by the WHO are regulations that we support, that we work 
through, and a lot of our efforts to strengthen detection and 
surveillance in countries around the world are also in support 
of these international health regulations.
    And, finally, just because you arrived here late and did 
not have an opportunity to hear more discussion about this, we 
also have to remember that novel infectious diseases certainly 
know no borders and can arise anywhere in the world, and we saw 
with H1N1 that they arose in this hemisphere. We talked earlier 
about the fact that we have lost almost 50,000 jobs in local 
and State public health around this country, many in the 
surveillance area. So we have to be really careful to have our 
guard up and surveillance networks up in every community and 
all over the world.
    Senator Akaka. Thank you.
    Dr. Garza, Customs and Border Protection is primarily 
associated with its mission to prevent terrorists, drugs, and 
unauthorized individuals from entering the United States. Too 
often the agency's important mission of protecting American 
agriculture from the accidental or deliberate introduction of 
diseases or pests is overlooked. I have introduced legislation 
that would elevate the agriculture mission in CBP to match the 
significance of the biological threats approaching our borders.
    Do you believe that enhancing agricultural inspection 
operations will improve our Nation's biodefenses?
    Dr. Garza. Well, I cannot speak for CBP, but I certainly 
feel that you are correct, that if there is an increase in the 
inspection capacity, that will increase our preparedness for 
biodefense for the Nation.
    There are many aspects of biodefense that I think get 
overlooked somehow in their one-off effects on how they provide 
added deterrence or added protection, even outside of the 
biodefense world. The technologies and the information that we 
get from these different activities absolutely improve 
different sectors of both the U.S. Government, but also in our 
homeland security posture. So I absolutely think that if we 
improve that posture, it will pay dividends for the biothreat.
    Senator Akaka. Thank you. Mr. Chairman, may I ask another 
question?
    Chairman Lieberman. Go right ahead.
    Senator Akaka. An important potential source of information 
is animal health professionals. They are the first line of 
response to outbreaks in animal populations. These outbreaks, 
whether deliberate or natural, often pose a direct threat to 
human health.
    How are your departments working with veterinarians and the 
animal health community to ensure early and rapid detection of 
disease outbreaks? Dr. O'Toole.
    Dr. O'Toole. Senator, S&T operates the Plum Island Animal 
Disease Center off the coast of Long Island, and among other 
things, we regularly train veterinarians in the recognition and 
diagnosis of foreign animal diseases that hopefully they do not 
see in their regular practice.
    In addition, Plum Island is working on developing 
diagnostic tests for these more exotic diseases that are not 
endemic to our shores, including pen-side tests that we could 
use to rapidly screen a lot of animals in the field.
    I think your concern about agroterrorism and agriculture 
security is well founded. Agrodefense really is the stepchild 
of biosecurity. I would argue that the country is 
underinvesting in agricultural defense, and we need to make 
sure that we have a strategic plan going forward.
    I will repeat, I think we should build the National BioAgro 
Facility in Kansas. If we do not have such a facility, we will 
not be economically competitive in this field, we will not 
maintain scientific eminence in this field, and we will not 
have the capacity to diagnose or respond to a foreign animal 
disease should one occur either through natural causes or 
through a deliberate attack.
    Senator Akaka. Dr. Garza.
    Dr. Garza. Yes, Senator, I think that is an excellent 
question. I completely agree with what Dr. O'Toole has just 
stated. Within my office we do have our food, agriculature, and 
veterinarian branch, which is led by a group of veterinarians, 
and they do a couple of things within Homeland Security.
    First, they lead a homeland security working group which 
spans across the different components on all of these food, 
agriculture, and veterinarian issues.
    In addition, we have brought Customs and Border Protection 
into our information cycle, our National Biosurveillance 
Integration System cycle, so that we can share this information 
on the effects on animals and plants and things like this.
    CBP is currently performing risk-based inspections, and I 
know from reading newspaper articles in the last week about 
some of the challenges that they have had. I know that you have 
been an advocate for improving that service, and I certainly 
applaud that. But it is something that the Department of 
Homeland Security takes very seriously. We work with many of 
our Federal partners, with our Infrastructure Protection 
Directorate, and with many other people in the private sector 
to try and improve that sort of capability.
    Senator Akaka. Thank you. Dr. Lurie.
    Dr. Lurie. Thanks. Your question is important for a whole 
host of reasons, including, as we have just talked about, 
agroterrorism, but also because so many--in fact, the 
preponderance of new emerging diseases in humans, as you 
probably know, come one way or another from animals. And so our 
vigilance in this area is particularly important.
    I think many of our Federal agencies, certainly my office, 
CDC, and FDA, our Strategic Information Office, etc., all 
employ a number of animal health professionals both to help 
with the situational awareness sets of issues and to look at 
areas where there are synergies. Not only are there tremendous 
synergies in surveillance, such as some of the things Dr. 
O'Toole talked about, but also synergies in the countermeasure 
development area where many of the same techniques, platforms, 
and mechanisms for making countermeasures, for making vaccines, 
for example, in humans and animals are shared. We need to, and 
do, really work hard to exploit those kinds of defense 
synergies as well.
    In addition to the surveillance areas, there is that whole 
countermeasure development sphere that is just so important.
    Senator Akaka. Thank you. Dr. Majidi.
    Mr. Majidi. Thank you. Our activities are actually 
multifold in this area. One, the FBI really accomplishes all of 
its tasks through its field offices. Every year, we have a 
large symposium called International Symposium on Agroterrorism 
where we bring some of the largest manufacturers to this 
symposium, as well as our local field office WMD coordinators, 
to make sure that there is sufficient interactions between 
folks who work in the field as well as the major producers.
    We work with USDA to make sure of their awareness of 
potential outbreaks as well as working with cattle ranchers and 
farmers across the United States as a point of interaction. 
Much of our work is done through our partner agencies, but we 
want to make sure that our involvement is clearly beneficial to 
both parties there.
    And, last, our WMD coordinators in the field offices are 
really responsible for one-on-one contact with all those points 
of interest, and that is as part of their requirements, sir.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Akaka. Thank you very 
much for your questions.
    Let me just ask a couple more questions because we have 
another panel we want to get on to. I want to get a reaction 
from each of you quickly to the Bipartisan WMD Terrorism 
Research Center report, which was generally positive about 
progress in this area of biodefense, but essentially said that 
we are not prepared to handle a large biodisaster, whether it 
is an attack or a naturally occurring disaster. Since I have 
been calling on Dr. O'Toole first all the time, Dr. Majidi, 
give us a quick response whether you think there is any truth 
to that.
    Mr. Majidi. Well, sir, I am not necessarily sure what is 
the definition of a large-scale biodisaster because in my book, 
while five individuals were killed by the Bacillus anthracis 
attack, the response that was required to deal with that so-
called small scale was quite tremendous from a U.S. Government 
perspective.
    Chairman Lieberman. That is true. That was the anthrax 
attack you are talking about.
    Mr. Majidi. Exactly.
    Chairman Lieberman. Right.
    Mr. Majidi. So the financial effects as well as the 
resources by every government organization was quite 
substantial in that case.
    From that perspective, while the scale is perceived as 
large or small, the overall consequence management is 
significant in totality.
    Chairman Lieberman. So are we prepared?
    Mr. Majidi. Sir, I do not think we will ever be prepared 
for a pandemic on an incredibly large scale.
    Chairman Lieberman. A pandemic or a large-scale attack.
    Mr. Majidi. Exactly.
    Chairman Lieberman. Well, I think the point you are making 
is that though the anthrax attacks of 2001 were in a 
comparative sense relatively small, they caused enormous 
dislocation and, of course, psychological fear throughout our 
country.
    Mr. Majidi. Absolutely.
    Chairman Lieberman. And that is quite different from the 
kind of metro, in terms of subways, modeling that you have 
done.
    Dr. Lurie, what do you think of what the Bipartisan Center 
said?
    Dr. Lurie. Well, one area in which they recognized 
tremendous progress actually was in the area of communications.
    Chairman Lieberman. Right.
    Dr. Lurie. And I want to highlight that communicating with 
the public and bringing the public along and having them have 
confidence in what the government is doing to help mitigate the 
effects of such an attack is absolutely critical.
    Chairman Lieberman. How communication is during a crisis?
    Dr. Lurie. Communications during a crisis I think have 
gotten orders of magnitude better. We have a lot of planning, 
pre-prepared work, and mechanisms for communication.
    Chairman Lieberman. That is very important. That is one of 
the things that this Committee, I think, has learned most about 
response to a WMD attack, including even a nuclear attack, that 
the ability to communicate with people and to tell them what to 
do--which may be counterintuitive. The reflex may be to get out 
of your house or office and run, which may be exactly the worse 
thing to do. So we are much better prepared to communicate to 
the public in a crisis, aren't we?
    Dr. Lurie. Right. Absolutely. And so the good news first.
    I think their observations particularly about the major 
large-scale attacks are what have made us focus. One, in the 
medical countermeasures area on shifting to this nimble, 
flexible capacity to make countermeasures quickly against 
something we have never seen before--would that we could all 
work at ``Contagion'' speed in getting a vaccine--and to have 
that surge manufacturing capacity. We talked about Holly 
Springs being the start of that, but to be able to make 
countermeasures very quickly in terms of an emergency, and a 
huge amount of work going on that sphere. And then we have been 
placing a lot of emphasis on the distribution and 
administration of those medical countermeasures, being sure 
that we have a much faster capability to do that, and that we 
are able to support with additional personnel communities that 
need additional personnel support and may be overwhelmed.
    I think we have made progress there. We are not all the way 
there, and particularly because each community is a little bit 
different. Again, it is those capabilities and the nimble 
adaptable plans that have to be put in place.
    And, finally, I would be remiss again if I did not point 
out that our ability to respond on the countermeasure side and 
have the countermeasures on time is very much tied to our 
ability to detect early and that early warning, early 
detection, surveillance components that all of our departments 
are working on so hard.
    Chairman Lieberman. Dr. Garza, how about ready for a 
relatively small incident, not ready for a major biological 
attack?
    Dr. Garza. Right. I agree with everything that has been 
said so far, but I especially agree with Dr. Majidi where it is 
not going to take a large event to cause a lot of disruption in 
society. We saw examples of this in the past during the 2001 
attacks, but also as recently as Fukushima where the country 
was basically depleted of potassium iodine within a week. And 
so if you use that as a model for what would happen at a 
deliberate biological attack, you can understand the sort of 
rush to countermeasures that would happen not just within the 
area that was affected, but I think nationwide. So I think that 
is something that we really need to consider, and that is where 
the communication strategy plays a large part on how we would 
deal with this.
    Second, I am, I guess, somewhat pleased that nothing went 
down in the report, so at least we are not sliding back. I 
think we have improved a lot on different issues such as 
surveillance and detection. And so I am pleased with that.
    One of the things, though, that has been mentioned up here 
a couple of times is the capacity of the health care industry 
to be able to withstand a large-scale attack, I think, is very 
troubling. I can just tell you from being an emergency room 
physician, I have trouble handling the emergency department 
every day just on a regular workload. And so if we take the 
Minnesota case from a couple of months ago, a person who had a 
case of inhalational anthrax, and the amount of resources that 
it took to keep that one person alive, including intensive 
care, multiple different physicians, and multiple different 
medications, and if you multiply that by the effects of a 
large-scale attack, the health care industry is going to be 
overwhelmed very quickly. Unfortunate, the paradigm for the 
health care industry is just-in-time care, and so there is very 
little surge capacity capability.
    Chairman Lieberman. That obviously in a difficult time in 
our economy, but nonetheless that is high on the list of things 
we need to try to do better at, that surge capacity. Dr. 
O'Toole.
    Dr. O'Toole. Well, no, we are not ready for a global 
catastrophe involving a deadly pathogen, whatever its origin. 
President Obama implicitly acknowledged this last month when he 
called for an international effort in the surveillance and 
management of infectious disease, whatever the origin of the 
plague.
    But in government, one is forced to focus on actionable 
priorities, and if I had a magic wand, I would wish for three 
things--although Dr. Garza's wish for fewer vulnerabilities and 
more surge capacity all across the board in terms of the 
response communities is a good start. We know that 
communication is improved, and we also know from past 
experience that the community's expectations of what they ought 
to be doing, of what might happen, are very important. There is 
recent research that shows just having a single person assigned 
to outreach with the community can make a big difference in 
terms of resilience and response. We ought to fund those people 
and make sure every State and local health department has 
somebody whose job is to do that. That could have a big impact. 
We talk about it, but we mostly wave our hands at resilience 
thus far.
    I also think that having rapid, even point-of-care 
diagnostic tests that say you are infected, you are not, in an 
outbreak of disease, particularly at scale, is going to be 
critically important. The technology for this exists. There is 
wondrous technology that might be just within reach that would 
be even better. We have got to build these diagnostic tests.
    And, finally, I would just offer a caution on the 
interagency process and the complexity of biodefense. I do 
believe that we have made very significant incremental progress 
over the past decade, but the interagency process is inherently 
slow and cautious. That might be the right approach when we do 
not know what we are doing and we do not want to make major 
missteps and we want to carefully husband limited resources. On 
the other hand, I think this is an area where the threat is 
growing, where the consequences are potentially so dire that 
the United States of America ought to make a few big bets and 
think about in what areas could we invest where a leap ahead 
would make a huge difference. Having a way to rapidly make 
medicines and vaccines, to surge, to do that cheaply and with 
fidelity, would change the world. We ought to think about that.
    Creating a biosurveillance system instead of talking about 
it, which would start with electronic links between public 
health and hospitals, would make a big difference. NBAF would 
make a big difference. If we leave it to the interagency and 
biodefense is continuously peanut-buttered across all of these 
very hard-working agencies, we are not going to make any leap-
aheads, and that worries me.
    Chairman Lieberman. Well, that is a good challenging note 
to end this on.
    Do you have any more questions for this panel, Senator 
Akaka?
    Senator Akaka. No. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks for your service, thanks for 
your testimony. Just putting it all together, really we have 
come a long way, but as Dr. Majidi said, in this case even a 
relatively small biological incident can have enormous effects. 
And when you put that together with what we all acknowledge is 
all the evidence we have of the work that our enemies--and then 
the people who, as we found out in the anthrax case, apparently 
a researcher uses these pathogens for hostile purposes, this is 
really something to be concerned about. As we look at the list 
of priorities and, as you know, in a big, open, free country 
such as ours--and we want most especially to stay that way--it 
is very hard to protect against all attacks. But if you started 
to list the probabilities with consequences, I would say that 
this is an area--that is, biodefense--that really comes right 
to the top of certainly my priority list. So in that sense I 
thank you for what you are doing, and we will continue to look 
forward to working with you to get more and more secure. Thank 
you for being here.
    We will call the second panel now: Dr. Thomas Inglesby, Dr. 
Robert Kadlec, and Dr. Jeff Levi. This means we have a total of 
five M.D.'s and two Ph.D.'s testifying today. Thanks to the 
three of you for being here and for your patience as we 
listened to the first panel.
    Our first witness today is Dr. Thomas Inglesby, who is 
Chief Executive Officer and Director of the Center for 
Biosecurity at the University of Pittsburgh Medical Center. He 
was one of the center's founding members, served as its Deputy 
Director and Chief Operating Officer. Whatever happened to the 
first director?
    Dr. Inglesby. She rose in the world a bit.
    Chairman Lieberman. And I know you were recently named 
chair of the Board of Scientific Counselors to CDC's Office of 
Public Health Preparedness and Response. Thanks for being here, 
and we welcome your testimony.

 TESTIMONY OF THOMAS V. INGLESBY, M.D.,\1\ DIRECTOR AND CHIEF 
   EXECUTIVE OFFICER, CENTER FOR BIOSECURITY, UNIVERSITY OF 
                   PITTSBURGH MEDICAL CENTER

    Dr. Inglesby. Mr. Chairman and Members of the Committee, 
thank you for the chance to speak to you today about U.S. 
biopreparedness 10 years after the anthrax attacks. My name is 
Tom Inglesby. I am the director of the Center for Biosecurity 
of UPMC, and as you requested, I will focus my testimony on 
medical countermeasure development, biosurveillance, and other 
issues raised in our recent center report, ``Crossroads in 
Biosecurity.''
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Inglesby appears in the Appendix 
on page 1196.
---------------------------------------------------------------------------
    The potential biological threats to the United States are 
serious. We could face a new flu pandemic that spreads like 
H1N1, but kills like H5N1, or a novel virus that jumps from 
animals to humans and spreads across the world quickly, or 
another biological weapon.
    The anthrax letters of 2001, as shocking as they were, were 
a very small case of the use of biological weapons. Attacks in 
the future could affect extraordinary numbers of people.
    In 2009, President Obama's National Security Council said: 
``The effective dissemination of a lethal biological agent 
within an unprotected population could place at risk the lives 
of hundreds of thousands of people. The unmitigated 
consequences of such an event could overwhelm our public health 
capabilities, potentially causing an untold number of deaths.''
    One of the most important components of our defense against 
biological threats is the development of medical 
countermeasures. DHS has issued 12 Material Threat 
Determinations for top biological threats to the American 
public. Countermeasures for just three of those--anthrax, 
smallpox, and botulism--have so far received the majority of 
funding in advanced development and procurement. Here are my 
suggestions for making more progress in the future on 
countermeasure development.
    First, BARDA should convey its specific priorities, 
predicted budget requirements, and timelines for delivering 
them. Right now it is not clear, or at least it is not clear 
from the outside, what the top priority products are, how long 
it will take to develop them, or how much it will cost. And for 
each priority product that is to be developed, it should be 
made clear to what extent its development requires more basic 
science versus more advanced development, and the funding for 
this work should be allocating accordingly. If specific 
regulatory problems are the problem, then funding should be 
directed to FDA to resolve them.
    When decisions are made to purchase a particular 
countermeasure in the National Stockpile, an explanation should 
be provided, to the extent possible in the public, that 
explains the choice and the quantity and the way it will be 
used in crisis.
    BARDA's recent Strategic Plan places a priority on broad 
spectrum antimicrobials and multi-use platforms. In the long 
term, we absolutely do need to develop multi-use platforms and 
broad spectrum products. But we also need to make sure 
expectations are not unduly raised in the short term. There are 
few experts who think a shift like this is likely in the short 
term. So in the short term, we need very applied, very directed 
advanced development of products that address the greatest 
material threats to the country. And we should certainly 
stretch our biosecurity resources in the smartest possible 
ways, for example, by extending the shelf life of products 
already in the stockpile, wherever possible, and by 
investigating the feasibility of shortening the course of 
antibiotics for various diseases that we might be exposed to, 
and by completing dose-sparing studies that could help us 
vaccinate more people while decreasing costs.
    In the realm of countermeasures, there are serious funding 
issues. There has not been enough advanced development funding 
as compared to basic science funding in the Federal budget for 
this mission, and BARDA has received a small fraction of what a 
private company would have required to make the same number of 
products. It is also our understanding that the BioShield fund 
will be depleted this year, and without a BioShield fund, we 
will not get new products procured.
    And, finally, FDA was funded properly to deal with medical 
countermeasures for the first time this last year, but that 
program's budget was reduced from $170 million to $19 million 
in the Senate and to zero in the House. Its work would be 
significantly set back if the FDA got that budget allocation.
    Biosurveillance is also another critical area of U.S. 
biopreparedness, and there have been gains but much work 
remains to be done. In many places biosurveillance is still too 
slow to discover or keep up with fast-moving epidemics. A few 
recommendations to improve it:
    First, a small portion of the $18 billion that is now going 
into the electronic health record incentive program should be 
moved to public health in order to allow them to be able to 
process and analyze information related to outbreaks.
    We also need to improve electronic laboratory reporting. 
All notifiable diseases should be automatically reported from 
the lab to health departments and continue to be transmitted 
throughout the course of an outbreak, and that does not happen 
now, although all in public health agree it is a top priority.
    In addition, as Dr. O'Toole said, we should place higher 
priority on rapid diagnostics. Right now we are investing 
heavily in the basic science side of diagnostics, but it trails 
off as we get to commercialization and development, and we 
could change that and make a big difference.
    And, finally, I want to emphasize how important public 
health preparedness is to U.S. biosecurity. Prior to 2001, many 
health departments lacked even the most basic expertise and 
infrastructure, and after 2001, incredible things have happened 
in the public health arena. New Federal funding has built a lab 
network, funded epidemiologists around the country, developed 
24/7 response capacity, and much more. But recent declines in 
public health funding have directly, and very directly, 
threatened public health gains around the country. Federal 
funding for public health preparedness programs has declined by 
27 percent since 2005 with a cut of more than $100 million 
since fiscal year 2010 alone.
    If the proposed cuts take place in this year's CDC 
preparedness budget and preparedness efforts around the country 
will suffer. For example, the cuts would diminish or eliminate 
CDC's ability to prepare for nuclear or radiological terrorism, 
CDC's diagnostic program for emerging infectious diseases, 
their chemical laboratory and response programs, the Laboratory 
Response Network, and all of the academic centers for public 
health around the country, which is the only CDC external 
funding for preparedness research. I think this would be a real 
loss for the country, and I really would urge Congress to 
consider reversing the funding cuts that are planned.
    So, in conclusion, the country has made real strides in 
preparedness over the last 10 years. I have detailed them in my 
written testimony--some of them, I should say--but a lot of 
work remains to be done. I hope the Committee and its 
colleagues working on the reauthorization of the PAHPA bill now 
in the Senate and the House will ensure we continue to make 
progress in the time ahead.
    Thank you.
    Chairman Lieberman. Thanks very much, Dr. Inglesby. That 
was very direct, in some cases provocative, and some 
interesting ideas. I appreciate it.
    Dr. Robert Kadlec was a career military officer physician 
in the U.S. Air Force--we thank you for your service--and also 
served in a number of senior positions at the White House, 
Senate, and Department of Defense, and now is a biodefense 
consultant to industry and government agencies. His most recent 
government position was Special Assistant to the President and 
Senior Director for Biological Defense Policy on the Homeland 
Security Council.
    We are grateful that you are here and welcome your 
testimony now.

    TESTIMONY OF ROBERT P. KADLEC, M.D.,\1\ FORMER SPECIAL 
  ASSISTANT TO THE PRESIDENT FOR HOMELAND SECURITY AND SENIOR 
             DIRECTOR FOR BIOLOGICAL DEFENSE POLICY

    Dr. Kadlec. Chairman Lieberman, thank you. I am evidence of 
a red herring, I guess is the way to start off my comments 
today. I would like to thank Members of the Committee, as well 
as staff, and it is really a privilege to testify before you 
today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Kadlec appears in the Appendix on 
page 1205.
---------------------------------------------------------------------------
    One issue to put in historical context is that the efforts 
to prepare our country for bioterrorism predated 9/11. And, in 
fact, the progress that we have to date is really a testimony 
to three consecutive presidential administrations and several 
congresses in tandem. The Executive and Legislative Branches 
established bipartisan policies, passing vital authorizing 
legislation, and appropriating funds over the last dozen years. 
And, sir, I would note your leadership in this area. During my 
tenure on the Hill, working with Chuck Ludlam, your BioShield 
II legislation served as being, if you will, the father of the 
PAHPA legislation that ultimately passed.
    So it really has been an achievement of bipartisanship over 
that period of time, and in many ways Congress has led the way 
to ensure improvements in State and local emergency service and 
public health preparedness, in research, development, and 
procurement of medical countermeasures, and improved hospital 
and first responder preparedness.
    Despite the progress, I think as has already been 
discussed, we are far from being entirely prepared. I think the 
point in the question you made earlier, sir, about the 
difference between a small and large attack, I think, is worthy 
of noting the difficulty discerning the difference between 
wide-scale disruption and wide-scale devastation. And, quite 
frankly, one of the leaders that you did not have here today, 
Dr. Peggy Hamburg, the current Director of the FDA, really 
identified the dilemma back in 2005, that if the spores of one 
anthrax envelope had been put in the air shaft of the World 
Trade Center, there would have been a far larger number of 
casualties that died in those towers as they fell.
    Chairman Lieberman. That is right. I remember when she said 
that. That was chilling.
    Dr. Kadlec. And so when you look at today's environment, 
and particularly the remarks of the former National 
Counterterrorism Center Director Michael Leiter, where he 
expressed his concern about the risk from chemical and 
biological terrorism, particularly after he left his position 
as Director in July 2011, where he said, ``The potential threat 
from al-Qaeda in the Arabian Peninsula is very real. The most 
likely . . . are simple forms of chemical or biological weapons 
attacks (rather than a nuclear attack).''
    I am reminded daily, looking in the papers, as I look at 
the casualty list of young Americans who have died in either 
Iraq or Afghanistan, to understand that we continue to be at 
war with these individuals and groups who are intent on using 
these weapons. And I think it is worthy to note, sir, and you 
have already commented on the Graham and Talent report, that we 
have a long way to go but have covered a lot of ground in terms 
of some of our specific capabilities. But I am going to 
identify two major obstacles and one critical missing 
ingredient leading to improved preparedness. The beauty about 
them is, quite frankly, they do not cost a lot of money.
    The first obstacle we have to overcome is our understanding 
of the difference between bioterrorism, biowarfare, and natural 
disease pandemics. Quite frankly, Mother Nature is not a 
thinking enemy intent on inflicting grievous harm to our 
country, killing our citizens, undermining our government, or 
destroying our way of life. Mother Nature does not develop 
highly virulent organisms that are resistant to our current 
stockpiles of antibiotics or disseminate them in high doses to 
result in more rapid onset and a more virulent clinical course 
of disease than seen in nature.
    Mother Nature does not target our military forces to 
undermine our capability, or our civilian population, 
undermining our willingness to protect our national interest. 
And certainly Mother Nature does not use biological agents to 
achieve the lethal equivalence of nuclear weapons.
    The second obstacle confronting us is embracing the greater 
role for the Federal Government that is inherent in our 
Constitution in responding to the risk particularly from 
deliberate biological threats. While all disasters are local, a 
biological attack is just that--an attack on our Nation--and 
our Federal Government needs to commit to a greater role in 
supporting and assisting State and local authorities.
    And, finally, I firmly believe that the missing critical 
ingredient, the secret sauce, to continued progress and future 
success is leadership. It was the finding of the 2010 National 
Biodefense Science Board report to the Secretary of HHS, as 
well as one of the three principal recommendations of the 
Graham and Talent report card. Without strong leadership that 
emanates from the White House, that is propagated through the 
Federal departments to State and local authorities, no amount 
of money will make us sufficiently prepared. We saw some of the 
leaders that sat on the first panel here today.
    The White House has already demonstrated such leadership 
with its commitment against the threat from nuclear 
proliferation and cyber attacks, but biological weapons can 
kill more than cyber attacks and are easier to develop, as you 
noted, sir, than nuclear weapons. Without the President's 
visible concern and commitment, the best efforts of many 
capable people of his Administration will be wanting. White 
House involvement is essential to ensure that departments and 
agencies live up to their interagency obligations under the 
National Response Framework and emergency support functions.
    Just to highlight two in particular, the role of the 
Department of Defense and the role of the Department of 
Veterans Affairs in the response to surge capacity, for 
example, the involvement and contribution of those two agencies 
have not been entirely optimized.
    Visible leadership is not only a requisite for the 
Executive Branch, but as you know, sir, Congress has a vital 
leadership role as well. Congress can and has effectively 
advanced preparedness through legislative initiatives, 
oversight, and appropriations, and I understand, sir, your 
Committee is considering legislation to complement the bill 
created by your colleagues in the House. And I also understand 
there are efforts in the Health, Education, Labor, and Pensions 
Committee to reauthorize the Pandemic All-Hazards Act to 
complement the bill passed out of the House Energy and Commerce 
Committee. Hopefully, Congress will act to pass one or, 
ideally, both bills before the end of this session.
    Finally, I offer one last observation and thought. The 
grades issued by Senators Graham and Talent are useful to 
assess where we stand, but they are, frankly, abstract to the 
grim reality they represent. As a military physician who served 
in two conflicts, Desert Storm and Iraqi Freedom, I know too 
well that in war, grades do not matter. Combat is a pass-fail 
test. Simply stated, accepting getting a D or F grade means 
many Americans may die needlessly in the event of an attack. 
This is not only unacceptable, but as public servants, we would 
be derelict in our duty if we did not do everything in our 
power to prepare our country and protect our citizens from this 
risk.
    I look forward to your questions. Thank you.
    Chairman Lieberman. Thank you, Dr. Kadlec. That was 
excellent and also raised some good questions, which we will 
come back to.
    Dr. Jeffrey Levi is Executive Director of the Trust for 
America's Health.
    In January of this year, President Obama appointed Dr. Levi 
to the Advisory Group on Prevention, Health Promotion, and 
Integrative and Public Health. In April, he was appointed chair 
of that group. He is also a professor of health policy at the 
George Washington University's School of Public Health, where 
his research is focused on HIV/AIDS, Medicaid, and integrating 
public health with the health care delivery system.
    That is an impressive resume, and thanks for being here 
today.

TESTIMONY OF JEFFREY LEVI, PH.D.,\1\ EXECUTIVE DIRECTOR, TRUST 
                      FOR AMERICA'S HEALTH

    Mr. Levi. Thank you, Mr. Chairman, and I am grateful for 
the opportunity to testify before the Committee on the progress 
and challenges we face on the 10th anniversary of the terrorist 
attacks on our Nation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Levi appears in the Appendix on 
page 1213.
---------------------------------------------------------------------------
    I am going to focus on public health's role, which is 
crucial, in emergency preparedness and response. Health 
departments perform the surveillance that detects the first 
cases in an outbreak. Laboratories test the samples. 
Epidemiologists conduct the investigation and pinpoint the 
source. And public health workers coordinate the medical 
response, advise and communicate to the public, and distribute 
vaccines or drugs that help save lives.
    The anthrax attacks were a great wakeup call to the need 
for greater investment in public health preparedness, and over 
the last decade we have made dramatic progress in meeting this 
responsibility. But, unfortunately, it seems that we have hit 
the snooze button because that progress is greatly threatened 
by recent funding cutbacks at the Federal, State, and local 
level, and we could face the sad irony that if another attack 
were to occur today, we may be better prepared than we were 10 
years ago, but possibly not as well prepared as 3 years ago.
    Last month, Trust for America's Health and the Robert Wood 
Johnson Foundation released a new report, ``Remembering 9/11 
and Anthrax: Public Health's Vital Role in National Defense.'' 
In developing this report, we learned that the public health 
system mounted an extraordinary response to these events 
despite limited familiarity with bioterrorism and decades of 
underfunding that left it with a deficit in technology, 
workforce, and training.
    For example, in 2001, there was not a clear public health 
response system in place for handling unexpected emergencies; 
thus, much of the response was developed on the fly.
    There was little to no experience in countermeasures 
research and development, and CDC and health departments faced 
a crushing demand for information and recommendations that had 
not been prepared in advance.
    Despite these challenges, public health rose to the 
occasion. The Laboratory Response Network, which is now an 
integral piece of the BioWatch program, tested 350,000 
environmental samples and clinical specimens over an extended 
period. CDC provided national surveillance, laboratory 
diagnostic support, treatment recommendations, and advice on 
post-exposure prophylaxis. And public health helped to calm a 
Nation by putting science first in risk communications.
    Since fiscal year 2003, Congress has invested over $12 
billion in State and local public health preparedness, hospital 
preparedness, and State and local pandemic capacity. This 
outlay has led to tremendous progress in our ability to prepare 
for and respond to an emergency. Now we recognize that 
bioterrorism and emergency preparedness are integral to the 
role of public health and that public health is integral to 
disaster preparedness and response. We have fully developed 
rapid response capabilities so that health impacts are 
considered and mitigated from day one of an emergency.
    Unfortunately, these improvements cannot be maintained with 
one-time investments. Training of our public health workforce 
must be ongoing; vaccines and antivirals in the Strategic 
National Stockpile are expiring; technology is quickly becoming 
outdated; and health departments need predictable funding to 
operate laboratories, respond to emergencies, and investigate 
outbreaks. And yet Federal support for public health 
preparedness has been cut by 37 percent since fiscal year 2005. 
Moreover, the cuts at the Federal level have been matched or 
exceeded at the State and local level. As a result, I worry 
deeply, as do my colleagues on the front line of public health 
agencies, that our capacity to respond to a new emergency will 
be severely diminished in the near future.
    These budget cuts are not just about money to purchase 
supplies and equipment. They are about the people who are 
essential to an effective public health response. Were a major 
public health emergency to occur today, even compared to the 
demands of the pandemic H1N1 just 2 years ago, there might not 
be enough workers to effectively respond. Forty-four thousand 
State and local public health positions were lost since 2008. 
We simply cannot quickly hire and train a 21st Century public 
health emergency workforce after an attack occurs.
    There is one silver lining here. Since the creation of the 
Prevention and Public Health Fund, we have put over $60 million 
in epidemiologial and lab capacity across the country at the 
State and local level, but that funding is also at risk, and if 
we lose that money as well, we will be in even worse shape.
    We also need to fundamentally rethink how we do 
surveillance for both emergencies and routine public health 
issues. Our disease surveillance system has been built one 
disease or crisis at a time, resulting in archaic and static 
silos of information. The particular challenge in the field of 
preparedness is that we do not necessarily know in advance what 
we will need to know. And, thus, the most comprehensive 
approach to data collection is needed.
    We must also harness the opportunities afforded by the 
Nation's transition to health IT systems with electronic health 
records at their core, and I think you heard from previous 
witnesses the degree to which public health needs to be at the 
table in the design and development and implementation of these 
processes, or else they will not help us in the area of 
preparedness.
    Our report found that the United States often takes a band-
aid approach to public health preparedness. As new emergencies 
and concerns emerge and attention shifts, resources are 
diverted from one pressing priority to another, leaving other 
ongoing areas unaddressed. I am encouraged to see this 
Committee is taking these threats seriously, and I thank you 
again for the opportunity to be here today and look forward to 
your questions.
    Chairman Lieberman. Thanks, Dr. Levi, very much. I was 
really struck by one line from your testimony, which is the 
effect of funding cuts: ``. . . the sad irony is that if 
another anthrax attack were to occur today, we may be better 
prepared than 10 years ago--but possibly not as well as 3 years 
ago.'' And this is part of the effect of the budget deficit 
crisis we have gotten ourselves into. We have to be very 
mindful of it.
    I want to ask you at the beginning what you think of, to 
me, an interesting idea that Dr. Kadlec mentioned, which is, at 
least in part, to try to ameliorate this problem with regard 
the need for a public health surge in response to a biodisaster 
or a bioattack by being prepared to utilize personnel from the 
Department of Defense and/or the VA.
    Mr. Levi. I think Dr. Kadlec was referring to health care 
personnel, and that is certainly----
    Chairman Lieberman. Correct. That was my assumption.
    Mr. Levi. Right, and that certainly is appropriate, and I 
think there are plans on the table, and how well they have been 
exercised is another question. But I think all of those 
agencies are committed to doing that kind of collaborative 
work.
    That is once we have identified what is going on, but my 
concern with personnel is that the day-to-day public health 
capacities of detecting, identifying a pathogen, communicating 
with the public, disseminating countermeasures, those kinds of 
things that are a core public health function. We have lost 
44,000 workers. We have lost people who are trained. It 
requires special expertise, and it requires expertise that is 
exercised over and over again so we keep improving. That 
capacity is dramatically diminished compared to 3 or 4 years 
ago, and if the budget cuts that seem to be on the table now go 
forward, it will even be worse.
    Chairman Lieberman. I wish I could be encouraging about 
that. In the short run, it is very hard to be. Hopefully we 
will get the economy going again. But, of course, particularly 
in the stress that we are under now in terms of our budget, 
this should force us to make priority judgments, and by any 
number of standards this is a priority for us. To me it is part 
of the constitutional responsibility to provide for the common 
defense, really.
    Dr. Inglesby, you pointed out something that I think there 
is not enough awareness of. It is a fact that over the last 10 
years, the Federal Government has made significant progress, 
building on progress before, and developing medical 
countermeasures such as vaccines and therapeutics to anthrax, 
smallpox, and botulinum. But as you point out, those are just 3 
of the 12 agents that the Department of Homeland Security 
identifies as representing a material threat to our country, 
and that does not even include the emerging threats of someone 
manipulating substances, for instance, in a laboratory.
    Dr. Inglesby. Right.
    Chairman Lieberman. So I wanted to ask you, first off, if 
you accept the rationale behind the listing of these 12 and 
whether you think the prioritization of the medical 
countermeasures, that is, on behalf of the Federal Government, 
is clear enough.
    Dr. Inglesby. I do think the material threat determination 
process is very rigorous. As an outsider, I have seen a couple 
of the processes play through, and I have been very impressed 
with the rigor and the science. The details of the specific 
ordering right now I think is not public, so I cannot comment 
on that.
    Chairman Lieberman. Right.
    Dr. Inglesby. But, in general, I think that it is a very 
rigorous process, and it is like what is done in other parts of 
the government. You set requirements and then the government 
reacts accordingly, and you set requirements as scientifically 
and rigorously as possible.
    So I think it is the right place to start with, actual 
requirements that there is wide agreement on in the government, 
and then to work backwards from that.
    Chairman Lieberman. Good. In the medical countermeasure 
review that Health and Human Services released last year, they 
pointed out a number of things that they are going to do to 
improve the development of medical countermeasures such as 
including particularly the one that Dr. Lurie talked about, 
creating government manufacturing centers, partnering with the 
private sector and strategic investment firms, as well as 
moving to products that address multiple threats and, finally, 
to streamline FDA regulation.
    Give us your reaction to those recommendations, and how 
would you prioritize those? Which do you think offer us the 
most hope of making more rapid progress?
    Dr. Inglesby. Well, starting with the last first, I think 
there is total agreement in and out of the government that FDA 
needed more resources and a lot more heft behind its program, 
and it has gotten it in the past year. So I think that was a 
really important development.
    I think there was also a part of that review that said 
there should be more integration between the various parts of 
government, NIH, BARDA, FDA, and CDC. I think that is very 
important.
    Chairman Lieberman. Right.
    Dr. Inglesby. When we have a requirement on the table, have 
we sorted out exactly what is required in the realm of basic 
science? Does that relate to advanced development? Does it 
relate to what is going to go in the stockpile, its regulatory 
problems? I think that is a very important facet of the 
strategy.
    As regards the Centers for Innovation and Advanced 
Development, I certainly believe in the principles behind that 
program, and we were supportive of that for a number of years 
as it was being discussed. In principle, it is a way to engage 
large pharmaceutical companies, which would be great for the 
country. It is actually probably crucial in the years ahead to 
get the talent of large pharmaceutial companies. And, in 
principle, it was a way to consolidate the costs and reduce the 
costs and concentrate expertise. And, in principle, I think it 
was a way to foster innovation.
    I do not know how it will play out. I have to say, in terms 
of making my conflicts available to your Committee, our mother 
institution was a potential competitor for that program and has 
decided not to compete.
    Chairman Lieberman. Right.
    Dr. Inglesby. But I hope that it succeeds. I certainly 
favor its original principles, and we will have to see how it 
ends.
    Chairman Lieberman. Dr. Kadlec, let me bring you into this 
because you mentioned Chuck Ludlam who used to work with me. He 
is really creative, and he had an idea which I thought was a 
great idea. What do we do to get the big pharmaceutical 
companies into this field? Because it is not a naturally 
attractive market. So, Mr. Ludlam had the idea--and I put it 
forward; I think Senator Orrin Hatch was with me on that one--
to say to big pharmaceutical companies, if you develop a 
medical countermeasure that HHS determines has some promise or 
passes a threshold, then go ahead with it, and we will give you 
the right to choose one of the array of drugs you have and 
extend the patent for 2 years.
    Well, it was as if we had sounded the trumpet for battle, 
and the generic drug manufacturers came marching with great 
force over the Hill and killed that idea.
    I am not saying it is the only idea out there, but it was, 
I think, a creative attempt to deal with this problem. I wonder 
with the passage of years whether you have any other thoughts 
about how to make sure that we develop medical countermeasures, 
beginning with those nine other agents that the Department has 
said we have to worry about.
    Dr. Kadlec. Well, sir, I certainly was around during the 
time of the wild card and certainly do remember. I think I have 
a few trample marks on me from the generics. [Laughter.]
    But the issue is really about the role of big 
pharmaceutical companies here, and their interest and appetite 
to be involved seems to involve two areas. One is the issue of 
risk and, quite frankly, the other one is the issue of profit. 
Obviously, the ``wild card'' option certainly was an incentive 
on the profit side, and there has been much, I think, to 
address the risk side subject such as the Public Readiness and 
Emergency Preparedness Act, which had to do with liability. So 
in some ways, that barrier has been lowered.
    The other part of risk is technological risk and, if you 
will, where I think the government is trying, and appropriately 
so, to establish that there are opportunities for big and small 
pharmaceutical companies to get involved in places where co-
development of new technologies. Platform technologies that 
could be used for biodefense that have direct commercial 
relevance and applicability and the assurance that the FDA 
would consider these as not only commercial but also national 
security-viable technology approaches is certainly another 
incentive. The question is whether that is enough, and, quite 
frankly, I think we still face the challenges with big 
pharmaceutical companies where they still view the profit 
incentives to be somewhat limited.
    I do not know if we will ever get over that hurdle, but I 
do believe that in some ways engaging them in terms of 
opportunities where they can expand their technology set, where 
they can defer the risk of development particularly of platform 
technologies goes a long way. And there may be other sweeteners 
involved subject to some of the orphan drug status that could 
be given particularly to biodefense countermeasures. But it is 
a very difficult balance to entice them to the table.
    Now, the ``wild card'' option here in another sense is the 
evolution or natural evolution of the big pharmaceutical 
company blockbusters where they seem to be kind of going away, 
where they are looking for smaller products.
    Chairman Lieberman. That is true.
    Dr. Kadlec. And so in some ways there may be a new 
landscape to engage them.
    Chairman Lieberman. Interesting. Yes, good idea.
    Dr. Kadlec. So I would say do not give up the ``wild card'' 
option just yet.
    Chairman Lieberman. But the reality is that if we were 
attacked by one of those nine other biological agents, we do 
not really have medical countermeasures for those now, do we?
    Dr. Kadlec. That is correct. I think the answer is that the 
pipeline has been focused deliberately on some of the highest 
threats--anthrax, smallpox.
    Chairman Lieberman. Yes, sure. Right.
    Dr. Kadlec. But, yes, the sequencing of other things that 
are less notable--tularemia, for example, and other threats on 
that list--have not probably been given the appropriate 
recognition or resources.
    Chairman Lieberman. Did you want to add something, Dr. 
Inglesby.
    Dr. Inglesby. I was just going to agree with what you just 
said, yes.
    Chairman Lieberman. That ought to get our attention, and 
some of those--am I right?--are not that complicated to make, 
to bring together.
    Dr. Inglesby. Well, I think any drug or vaccine is 
complicated----
    Chairman Lieberman. No, I mean the threat.
    Dr. Inglesby. Sorry, the threat.
    Chairman Lieberman. Yes.
    Dr. Inglesby. Yes, I mean, the things on the list--all of 
those agents are available in the world to acquire.
    Chairman Lieberman. Right.
    Dr. Inglesby. And many of them are causing outbreaks in the 
world in any given month.
    Chairman Lieberman. Dr. Garza was kind enough to stay, so 
there is always a danger inherent in that, but I am going to 
quote something from your testimony--Dr. O'Toole is here, too--
and ask the witnesses for a response.
    Dr. Garza indicated in his testimony that, following some 
kinds of biological attacks, ideally we would need to detect 
and start mass dispensing treatments in as little as 1 to 2 
days. And I wanted to ask you--and I really should have asked 
Dr. Garza, too--whether, to the best of your knowledge, there 
is any city, for instance, that is able to meet this 
expectation for a wide-area attack for even just one of the 
biological threats we face. Dr. Levi, do you know?
    Mr. Levi. I cannot answer that question with specificity, 
but I think it speaks to the incredible importance of not 
losing more of our public health workforce, because you cannot 
create this kind of pop-up capacity.
    Chairman Lieberman. Right. Good. Anybody else?
    Dr. Kadlec. Sir, I would just comment I think that there is 
still a lot of doubt and concern about it. I know during my 
tenure in the White House in late 2008 we had serious concerns. 
Just to note that President Obama signed an Executive Order in 
December 2009 mobilizing Federal assets to help assist in the 
dispensing effort, particularly the role of the U.S. Postal 
Service, the Department of Defense, as well as trying to use 
other Federal employees and other agencies to also assist.
    Quite frankly, there are two challenges here. One is, if 
you will, the tyranny of time that is created by, one, the 
natural epidemiologies of diseases and the potential effect of 
high dose exposures that basically change the normal incubation 
period, resulting in some of these diseases to appear much 
faster.
    The second issue is what will be the public demand and 
outcry. You can vividly imagine the CNN moment when this 
becomes first realized, an attack has happened, either through 
a BioWatch detection or the first case. There will be an 
incredible demand on the system for these antibiotics and other 
protective measures.
    So the sooner the better, and, quite frankly, it is clear 
that we are probably not fast enough yet.
    Chairman Lieberman. Dr. Garza, we allow audience 
participation here. Do you want to respond to the question, 
which is: Is there any city or metropolitan area able to meet 
that standard that you raised?
    Dr. Garza. I think, Senator, that is an excellent question. 
There has been tremendous work that has been done in the past 
couple of years, both with the CDC as well as the Federal 
interagency, in trying to develop that capacity. Dr. Kadlec is 
entirely correct on those challenges to getting the medical 
countermeasures out to the population. But we view it as 
multidisciplined approach, so you have, for instance, the 
postal model; we are trying to engage more to get the private 
sector involved. As part of the Executive Order, the President 
directed his Administration to develop ways of dispensing 
countermeasures to mission-essential people. So it is a multi-
dimensional approach to this problem.
    Chairman Lieberman. While I have you there, because we are 
focused on the Postal Service, unfortunately, in other ways, 
take a minute and tell us where we are in the exploration of 
using this remarkable national network of the Postal Service to 
help in terms of biodefense.
    Dr. Garza. Yes, sir. To my knowledge--and HHS ASPR runs 
most of the programs to do this--the program that has been 
developed and is the most widely known is the one in 
Minneapolis. If I believe correctly, I believe there are three 
or four other cities that are exploring the options or have 
developed plans to use the postal option. But, again, I would 
emphasize that it is one part of a multilayered approach, 
albeit an important one, but it has to be thought of as a 
multilayered approach.
    Chairman Lieberman. And there, just to be specific, we are 
looking at the postal men and women delivering vaccines, for 
instance, or distributing vaccines.
    Dr. Garza. They would be distributing medical 
countermeasures, so antibiotics.
    Chairman Lieberman. I am sorry. Antibiotics, right.
    Dr. Garza. Yes, sir. So they would be delivering 
antibiotics to the population's homes.
    Chairman Lieberman. I think that is important to continue 
to explore.
    Dr. Kadlec. Just to put a finer point on that, because 
there are three cities that are in line to basically follow 
Minneapolis: San Diego, Boston, and Philadelphia. Those cities 
have received grants from HHS through the Cities Readiness 
Initiative to do so. So it is, again, as Dr. Garza has said, 
part of a multipronged approach, but the postal option really 
represents a first strike capability, which can in 12 hours to 
basically delover a limited supply of antibiotics to every 
residence within designated zip codes.
    Chairman Lieberman. So obviously the Postal Service is in 
real financial trouble, but part of what we are trying to do--
it happened to come under the jurisdiction of this Committee--
with the Postmaster General is to look at ways we can 
capitalize on the unique national network they have. As you 
probably know, for instance, FedEx and UPS use the U.S. Postal 
Service for the last mile of delivery in a lot of cases where 
it does not make financial sense for those very successful 
companies to do so. And in the same way, this is an existing 
network which, as you say, can deliver antibiotics in a crisis 
very quickly.
    Dr. Inglesby, you made a really interesting suggestion, and 
I want to ask you to develop it a bit. It begins with the fact 
that in the so-called stimulus act, the American Recovery and 
Reinvestment Act of 2009, there was appropriated $18 billion 
for the improvement and modernization of health recordkeeping, 
a general description. So you are suggesting today--and, again, 
I presume this is all about priorities--that some part of that 
ought to be reallocated to this particular problem. So talk in 
a little more detail about what you have in mind.
    Dr. Inglesby. So right now, if there is an outbreak in 
Washington, DC, the health department, who is going to be asked 
to figure out what is going on, has to actually walk over or 
phone somebody to try and go through the medical records one by 
one on paper. And this new program holds out the hope that you 
could connect health departments and clinical outpatient 
offices or inpatient in the hospital in an electronic way where 
people from their desks in the health department could try and 
actually go in and understand what is happening in a hospital 
or in a clinic automatically and analyze it and try and figure 
out if there are patterns going on in the hospital of this new 
outbreak.
    The $18 billion is set up to provide incentives to the 
hospitals and to the doctors to develop electronic health 
records, and there is a series of criteria that are laid out in 
order to get that money. If we changed, even modified a few of 
those criteria a little bit to say they have to be able to be 
read by public health departments in a crisis, then we could 
use a little bit of that money to help solve a very big divide 
between public health and clinical medicine.
    We had a meeting about this recently in our center, and the 
public health officials who see all this happening are upset 
about it because there has not been a dollar provided. They see 
that these electronic health records are being created, but 
public health is basically on the sidelines. They do not have 
any money to build their own IT systems to receive it. They do 
not have any incentive to connect nor any database management 
capacity. So a little bit of money could go a long way.
    Chairman Lieberman. Excellent idea.
    Mr. Levi. If I could add to that, Mr. Chairman?
    Chairman Lieberman. Yes, go ahead.
    Mr. Levi. I think it is important to think about the money 
that is being invested for electronic health records in the 
context of health reform--it is certainly a critical piece--and 
that the system we are designing is responsive to public health 
needs as well. But I think I would also add that we do have a 
receipt question as well, which is whether existing 
infrastructure in a lot of health departments even with those 
requirements would be able to receive and properly analyze the 
date. And I think that is a standard-setting and a training 
issue for public health agencies.
    And I think I would add that we spend, just in the core 
work of CDC and the money they send out to the States, a lot of 
money on public health surveillance. That whole system needs to 
be redesigned, and with the redesign of that system, we may 
actually find the capacity and the resources to do a lot of the 
things that are needed on the preparedness side as well.
    Chairman Lieberman. Those are very constructive 
suggestions, and we will see if the Committee cannot move them 
into the system.
    Dr. Kadlec, a final question. In your testimony you put a 
lot of emphasis on leadership, and, of course, I agree with 
you. It is always a critical component, sometimes overlooked 
because we get focused on details of what you want to do and 
forget the leadership. So is there a criticism there? Do you 
think we lack effective leadership in this biodefense area 
right now?
    Dr. Kadlec. Well, I would just put it in--use a football 
analogy--we have a lot of great assistant coaches. You saw many 
of them. Some are still here.
    Chairman Lieberman. Right.
    Dr. Kadlec. Where is the head coach? And where is the head 
coach basically making this a cause celebre--not to make a 
rhetorical statement around this, but as I did in my tenure at 
the White House. Someone needs to be the advocate and educate 
around this issue, particularly at the political level where 
there is little familiarity with it. I think there are many in 
the current White House who are experts on the nuclear issues. 
Certainly the pressing issues around cyber warfare and cyber 
attacks on our country and our economy have driven it in a 
different way.
    The risk of bioterrorism and biowarfare is one area that, 
quite frankly, needs similar kinds of leadership. I think Dr. 
O'Toole identified some of the leaders there now. That is very 
important. But, literally, you have to have someone 24/7 whose 
only job is this. I am convinced, having lived it and breathed 
it for a period of time, where you can basically go into those 
meetings and fight toe to toe with OMB to ensure that they do 
not necessarily decrement your program because they just do not 
understand the national security component to it.
    A quick example. In the recent budget alignments where OMB 
went through the exercise to basically significantly decrement 
a variety of different accounts, clearly homeland security and 
national security were treated differently. But health programs 
were not, and, quite frankly, the biodefense program, 
particularly within OMB, is buried in the Centers for Medicare 
and Medicaid Services. And so in some ways it takes a greater 
haircut than maybe some of the other programs would because 
just simply the recognition is not there that this small amount 
of money, even though it is not, about $7 billion, is like any 
other billion dollars that are devoted to health and other 
related programs. And I think that is the challenge that you 
have, and unless you have someone at that level to advocate and 
to educate--and, literally, I had to bring people sometimes 
kicking and screaming to the White House and interagency 
meetings, to ensure that they understood the equities for the 
country and national security.
    Chairman Lieberman. So you are talking about not somebody, 
for instance, in the Department of Homeland Security but 
somebody in the White House, presumably in the National 
Security Council, who would be designated as the person in 
charge of biodefense.
    Dr. Kadlec. I think that is necessary but not sufficient, 
to get to Dr. O'Toole's point. I mean, I think the fact that if 
you have the right constellation of leaders across the 
interagency, that is also critical. But it also helps to have 
someone at the White House level where particularly for some of 
these intractable problems, subject to the integration of our 
biodefense medical countermeasure portfolio, or the issue of 
basically leveraging Department of Defense or VA to make their 
medical capabilities available in case of surge, or security 
for medical countermeasure distribution by the Postal Service, 
those are things that sometimes are best done at a level above 
that. But you need all of it. You just cannot have some of it.
    Chairman Lieberman. I think we have taken enough of your 
time, and I am going to go on to another meeting. This has been 
a very constructive hearing. The first panel was excellent. You 
built on the first panel with some very good suggestions that I 
think will guide the Committee as to where we can try to be 
supportive here. I appreciate your testimony and all the work 
that you do in this area very much.
    We are going to keep the record of the hearing open for 15 
days for any additional questions or statements for the record.
    With that, I thank you again, and the hearing is adjourned.
    [Whereupon, at 12:29 p.m., the Committee was adjourned.]


        TEN YEARS AFTER 9/11: THE NEXT WAVE IN AVIATION SECURITY

                              ----------                              


                      WEDNESDAY, NOVEMBER 2, 2011

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:33 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, presiding.
    Present: Senators Lieberman, Akaka, Carper, Pryor, 
Landrieu, Collins, Paul, and Moran.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins [presiding]. Good morning. The hearing will 
come to order.
    Senator Lieberman, the Committee's Chairman, has been 
unavoidably delayed. He will be joining us shortly, but he has 
asked me to proceed to convene the hearing and delivery my 
opening statement. In fact, he suggested that I give a very 
lengthy opening statement in order to allow him to proceed with 
his before we call on our first witness. [Laughter.]
    Nevertheless, we will proceed as normal.
    By targeting our airplanes, al-Qaeda succeeded in killing 
nearly 3,000 people a decade ago. Aviation security is clearly 
critical to homeland security. We Americans have demonstrated 
our willingness to endure enhanced security measures at our 
airports if those measures appear to be reasonable and related 
to real risks. But travelers become frustrated when security 
measures inconvenience them, apparently without cause, or when 
they appear to be focused on those who pose little or no 
threat.
    Next month, it will be 10 years since the shoe bomber 
failed to take down his flight from Paris bound for Miami, yet 
we still take our shoes off. In 2006, British and American 
intelligence thwarted an effort to conceal explosives in liquid 
bottles. We still cannot carry on a regular-sized tube of 
toothpaste onto an airplane. The Christmas Day bomber hid 
explosives in his underwear and media reports indicate that 
terrorists have shown interest in having explosive devices 
surgically implanted in their bodies. These threats have led to 
more intrusive pat-down searches, and one wonders what more 
will be required of airline passengers in the future.
    We see TSA putting the very young and the very old through 
intrusive and, in most cases, unnecessary screenings. At the 
same time, it troubles many Americans to learn that a young man 
was able to fly cross-country without a valid government ID and 
with an expired boarding pass that was not even issued in his 
name. If we continue to give extra screening to individuals who 
appear to pose no threat, yet others who should arouse 
suspicion can get past checkpoints without being questioned, 
our systems still are not as finely calibrated as they need to 
be.
    Since our June hearing, the Administration has implemented 
a risk analysis to improve the screening process, a welcome 
change. This effort should provide a more effective and 
efficient use of the government's limited screening resources. 
I am encouraged, for example, that this new risk-based approach 
is designed to permit TSA to learn more about travelers through 
information they choose to provide. Some of the changes will 
also respond to several of our most common airport screening 
complaints. Secretary Janet Napolitano said in September that 
frequent flyers who opt in to a known traveler program will 
often be able to keep their shoes on and their laptops in their 
bags. TSA, to its credit, and Administrator John Pistole 
deserves credit for this, also has changed the screening 
procedures for children under 12, a common sense decision that 
was overdue.
    Nonetheless, questions remain regarding how some security 
procedures affect Americans' privacy, their health, and whether 
or not the procedures are as effective as they should be. In 
August, TSA began installing new software in passenger 
screening machines designed to enhance traveler privacy. Using 
a generic outline of passengers, Automated Target Recognition, 
detects items that could pose a potential threat. I first saw 
this less-invasive technology in Amsterdam in 2010 and I 
repeatedly raised this issue with Administrator Pistole and 
Secretary Napolitano. This technology was implemented at 
Schiphol Airport in the wake of the Christmas Day bomber who 
was able to go through that airport with his explosives 
undetected.
    I would parenthetically note that I assumed that this was 
some cutting-edge technology that had been developed in 
Germany. I asked where it had been developed and was told in 
Massachusetts. So, clearly, there are opportunities within our 
own country to take advantage of new technology.
    I urged consideration of this software, which better 
respects travelers' privacy, eliminates the need for a separate 
screener in a booth, relies less on human judgment, and 
eliminates the inconsistencies associated with human reviewers. 
I am very pleased that TSA is rolling out and testing this 
technology.
    While the ATR technology is currently being used with so-
called Millimeter Wave Machines which use radio frequency 
energy to generate images, I would note that other Advanced 
Imaging Technology, screening machines use backscatter X-ray 
radiation that have continued to raise health concerns. This is 
an issue that I hear about from my colleagues all the time 
because most of us travel every single week. I also hear about 
it from pregnant passengers who are concerned about the 
exposure to the babies that they are carrying. DHS, in my view, 
should independently evaluate the health effects of that 
technology and establish a goal of using radiation-free 
screening technology.
    Let me underscore my appreciation of the fact that no 
single screening technology can ensure our safety. There is no 
magic bullet. There is no perfect system. And that is why a 
layered system of security is so essential, involving watch 
lists, intelligence, and all the tools at our disposal.
    The fact is that we face a determined, innovative foe, and 
no machines can substitute for good intelligence, well-trained 
screeners, and an observant public. The passenger screening 
process has received both attention and sometimes anger from 
the traveling public. It became clear last year, however, from 
the printer cartridge plot, that cargo security is also a 
threat that terrorists are investigating. That is why Senator 
Lieberman and I intend to introduce an air cargo screening 
security bill later this year. Our successes in risk-based 
screening of maritime cargo should provide a road map for risk-
based screening of air cargo, and that is what our legislation 
is intended to do.
    And, of course, just in the past 24 hours, we have learned 
of gaps in our security related to certain catering operations 
at Atlanta's main airport. Those are very serious concerns 
because, obviously, the catering personnel have direct access 
to materials that are put on airplanes, and I am sure that is 
an issue that we will be talking about this morning.
    Our government's first priority is to protect against 
terrorism and the public will accept a certain level of 
intrusion and inconvenience at our airports, as long as we are 
convinced that it is enhancing our safety. But DHS should 
continue to expand the use of risk-based approaches to 
screening with technology and techniques that are safer, more 
effective, and that minimize privacy and health concerns.
    Now, at this point, I would usually say, ``Thank you, Mr. 
Chairman,'' but in this case I would be thanking myself.
    We are going to move to our first witness today. We are 
very pleased to have with us John Pistole. He is the 
Administrator of the Transportation Security Administration 
within the Department of Homeland Security.
    Mr. Pistole, we welcome you back to the Committee. I, for 
one, want to commend you for your hard work and for being very 
open to our suggestions and to the recommendations of the 
public as you seek to protect the traveling public. Please 
proceed with your testimony.

     TESTIMONY OF HON. JOHN S. PISTOLE,\1\ ADMINISTRATOR, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Pistole. Well, thank you, Senator Collins, and thank 
you for the Committee for your support of our Risk-Based 
Security Initiative in terms of how we try to work to provide 
the most effective security in the most efficient way.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Pistole appears in the Appendix 
on page 1230.
---------------------------------------------------------------------------
    So when I last appeared before this Committee, as you 
noted, our plans to deploy aspects of this Risk-Based Security 
Initiative were still being formulated. I am pleased to report 
that we have begun actually implementing several aspects of 
risk-based security in some airports and testing other aspects 
in other airports around the country, again, with the goal of 
providing the most effective security in the most efficient 
way.
    As this initiative progresses, we must ensure that each 
step strengthens security as intelligence informs us of 
terrorists' ongoing interests in attacking aviation, and as 
noted, because most air travelers present little risk of 
committing an act of terrorism, the goal is to focus on those 
who present the greatest risk. Anecdotally, we still find four 
to five guns at airport security checkpoints every day. 
Yesterday, we found six, including one at Chairman Lieberman's 
Bradley Airport in Hartford, Connecticut, a loaded gun with 
seven rounds in it in a checked bag that was going to try to 
get through.
    Our success in discovering other non-metallic items is 
significantly enhanced through the use of Advanced Imaging 
Technology, as you noted, because these machines give us the 
best opportunity to find non-metallic threats such as we saw on 
Christmas Day 2009 and have successfully detected items as 
small as a coin or even a small individual piece of gum that is 
wrapped. AIT, of course, is not perfect, as you know, and we 
continue working closely with manufacturers to improve its 
detection capability, but again noting that it does give us the 
best available opportunity from a technology perspective of 
detecting those Christmas Day-type bombs.
    Additionally, as part of Risk-Based Security Initiative, we 
recently deployed TSA Pre-Check, a voluntary passenger pre-
screening initiative with a small known traveler population in 
four U.S. airports, placing more focus on pre-screening 
individuals who volunteer information about themselves prior to 
flying. Because we know more about them, TSA Pre-Check 
travelers may move more swiftly through the standard screening 
process and be able to divest fewer items, such as leaving 
their shoes, belt, and a light jacket on along with keeping 
their laptop in their briefcase and keep their liquids, 
aerosols, and gels in their carry-on bag. Of course, we will 
always incorporate random and unpredictable security measures 
throughout the airport. At no point is a traveler guaranteed 
expedited screening.
    Initial feedback for TSA Pre-Check has been very favorable, 
with approximately 40,000 travelers having gone through this 
expedited screening process so far. Our first two partner 
airlines, American and Delta, have successfully demonstrated 
the required technical capabilities and we are working with 
other airlines and other airports to expand the program as they 
become operationally ready and as more and more people sign up 
through Customs and Border Protection's hugely successful 
Global Entry Program.
    Efforts to expand identity-based screening are also evident 
in a new crew member screening system which helps positively 
verify the identity and employment status of airline pilots. 
Under this program being tested at seven airports currently, 
tens of thousands of airline pilots have processed through this 
expedited screening, again, all with very positive feedback.
    We are also evaluating an expanded Behavior Detection 
Initiative that began this fall at Boston Logan Airport and now 
Detroit Metropolitan Wayne County Airport. In this new 
initiative, behavioral analysis techniques are used by 
specially trained officers to determine if a traveler should be 
referred for additional screening. This additional interaction 
used by security agencies worldwide enables officers to better 
confirm or dispel suspicious behavior and anomalies. 
Preliminary analysis from Boston shows an increase in detecting 
high-risk passengers, but additional data is required, both to 
understand if that trend is statistically significant and to 
measure it against our return on investment.
    In August, we implemented, as you noted, a new screening 
procedure for children 12 and under, allowing them to leave 
their shoes on and go through a less intrusive security 
screening, recognizing that intelligence indicates that these 
travelers pose little risk to aviation security, although, of 
course, it can be used by those who might want to cause harm. 
These changes give our officers more options to resolve any 
alarms that may occur during the screening process. The results 
from this nationwide enhancement to screening show a sharp 
reduction, although not elimination, of the need for a physical 
pat-down for children and families have responded very 
favorably to these changes.
    Combined with TSA Pre-Check and known crew member 
screening, these new processes help us free up resources to 
focus on higher-risk travelers. In essence, risk-based security 
helps us strengthen security by reducing the size of the 
haystack in which a terrorist might be hiding. I am dedicated 
to further identifying additional groups as part of the High-
Risk Security Initiative and I look forward to updating this 
Committee as these efforts progress.
    So in closing, innovation, partnerships, and a commitment 
to the pursuit of excellence, these are the watchwords of TSA 
as we move into 2012.
    Thank you, Senator Collins and Members of the Committee, 
for the opportunity to appear before you today. I look forward 
to answering your questions. Thank you.
    Senator Collins. Thank you very much, Mr. Pistole.
    As we have seen over the years, terrorists continue to look 
for gaps in our aviation security procedures and that is why I 
was particularly disturbed to read of a local TV report in 
Atlanta, Georgia, where lax airline catering security 
procedures were identified through an investigative report and 
an undercover video. And specifically, press reports indicate 
that the video showed catering employees piggybacking through 
security checkpoints. There were unsealed catering carts, which 
obviously would allow explosives or weapons to be concealed 
among the food in those carts, that were in the staging area 
before they were being loaded onto the plane.
    What is TSA doing in response to this report? Have we 
identified yet another vulnerability, or do you believe this is 
an isolated incident?
    Mr. Pistole. Thank you, Senator, and clearly, this is 
something that we take seriously and is a concern under the 
umbrella of the insider threats. So those who have some type of 
special access, either through their work, employment, and 
their backgrounds, allow them access in a way that the general 
public does not have is something that we focus on. We set 
standards for catering companies and airports around the 
country, that they have to meet these standards. We inspect to 
those standards. So when we get a report such as this, that 
there has been some type of breach or vulnerability identified, 
we move very quickly.
    So in this instance--this was brought to our attention in 
the last month--we immediately sent a team to Atlanta to work 
with the airport but also the catering company to assess what 
vulnerabilities there may be. We are continuing to follow up on 
that in terms of an investigation as to what actually happened, 
and that is ongoing. The bottom line is you will have all the 
facts as to what may have happened and what other 
vulnerabilities may need to be addressed, but we are moving 
forward in concert with the catering company and the airport on 
that.
    Senator Collins. Could you explain to the Committee what 
kind of vetting TSA does of airport employees and others who 
have access to airplanes but are not passengers?
    Mr. Pistole. Yes. There is a series of background checks 
and a fairly robust system in place to assess whether anybody 
who wants access to either the sterile area of the airport or 
even the vendors who work in the non-sterile area, and so one 
of the first checks, obviously, to do is to make sure they are 
not on some type of terrorist watch list. So that is the first 
step, obviously. A criminal background check is also done, and 
then we do vetting that is recurrent for all those, especially 
those who have that additional access to the sterile area.
    We work closely with the companies and the airports for all 
450 airports around the country to determine from a risk 
mitigation perspective, do they see any vulnerabilities in 
their employees, and then based on what the U.S. Government 
knows, both within TSA and obviously FBI background checks and 
the U.S. intelligence community, are there those who may pose a 
problem.
    The challenge comes, frankly, from the clean skins, those 
who have no criminal background. They have not come up on a 
terrorist watch list in any way. So that is the challenge that 
we are presented. And so we also include random and 
unpredictable security checks both for the catering companies, 
for example, and for the employees. So we will do random 
surprise checks, if you will, on an unpredictable basis so 
terrorists cannot game that system. But it is clearly something 
that we focus on.
    Senator Collins. I would like to now switch to the issue of 
cargo security in the final time that I have left, now that our 
Chairman, the true Chairman, has joined us. As you may recall, 
at a hearing that we held in November of last year, I asked you 
the question that if our government had not received the 
intelligence tip about explosives hidden in air cargo that was 
shipped to Yemen, would our current security systems have 
detected those package bombs, and you very candidly replied 
that, in your professional opinion, we have not. Could you 
bring us up to date on what has been done since that time so 
that we have better screening in place for cargo? We are always 
going to need intelligence information. That is absolutely 
critical and it is part of the layered approach to security. 
But it does worry me that if not for the intelligence tip, 
these explosives would have made it to their destination, most 
likely.
    Mr. Pistole. Thank you, Senator. A great deal has been 
done, both by the U.S. Government, foreign governments, foreign 
carriers, cargo carriers, and the International Civil Aviation 
Organization, along with the National Maritime Organization, 
the World Customs Organization, and the Universal Postal Union, 
all those groups working together. As you may recall, I was in 
Sana'a, Yemen, 5 days after this took place to work with the 
Yemeni authorities, but the day that the intelligence came in, 
I immediately issued a Security Directive Emergency Amendment 
that put a ground stop on any cargo coming out of Yemen, of 
course, as a first step.
    What we have done, I believe, very collaboratively is work 
with industry to assess from a very pragmatic standpoint, what 
can you do today, what can you do in the short term, mid-term, 
and long term in working with us? I mean, we can issue 
regulations day in, day out. The question is, what can they 
practically do that does not put a halt to the global supply 
chain, which was significantly impacted when I issued those 
Security Directive Emergency Amendments?
    So what we have done is work with industry to establish 
standards well beyond--much more rigorous than ours that 
addresses risk mitigation from a business perspective in 
addition to the government's perspective. And so, as you know, 
100 percent of all cargo coming in on passenger planes from 
overseas is now screened. All high-risk cargo is screened. And 
we are working with industry as to the other portions that as 
we divide, and we work very closely with Customs and Border 
Protection, their Advance Targeting System, to say there are 
categories of known shippers and known shipments. For those 
that are in the unknown category, we need to apply additional 
scrutiny, and have that applied before it comes to the United 
States.
    So that is what we are working through with carriers around 
the world, frankly. There are 20 countries that account for 80 
percent of all the cargo coming into the U.S. We are working 
with countries on national cargo security programs. We have 
already recognized several of those and look to recognize 
another handful of those here in the not-too-distant future. So 
a number of steps have been taken.
    Senator Collins. That is good to hear. GAO, as you know, 
has been critical that there are still problems with screening 
palletized cargo and that is a scenario that we are going to 
need to work on.
    I want to turn the hearing back over to the Chairman, but 
tell the Chairman that Mr. Pistole brought out in his public 
testimony that the TSA is still capturing four to five guns per 
day as part of its screening of carry-on luggage and 
passengers, and he mentioned that just yesterday, the total was 
six, and one of those guns was at Bradley International 
Airport, and it was a fully-loaded gun.
    So I think that is a very good reminder to us that there 
still is a need for screening.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Chairman Lieberman [presiding.] Thanks, Senator Collins. 
First, apologies to you, Mr. Pistole. I had to be on the floor 
when it convened at 9:30, and thanks to Senator Collins. I was 
just thinking about who is the chairman. I said it has been a 
real pleasure to work with Senator Collins here, regardless of 
who was in the majority or minority, and I said before that all 
that would change in this session would be the titles we had, 
so I appreciate her holding the gavel and bringing the hearing 
to order.
    And I agree with what she just said. I know that a lot of 
people are taking their shoes off, taking their coats off, 
going through the lines who say, well, this is a nuisance, for 
what? But when you tell us and the American people that an 
average of four or five weapons are found every day at airports 
around the country, it reminds us why.
    Incidentally, I hasten to say that a traveler can carry a 
weapon in a checked bag so long as it is declared and checked, 
but these are people who are boarding the plane with a weapon 
in their luggage, four or five every day. So thanks for what 
you and your folks are doing.
    The rule of our Committee is that the first Senator to 
arrive goes first, and I think the Chairman ought to apply that 
rule to himself, so I am going to call on Senator Paul, and 
then I will come after him.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Thank you for your testimony, Mr. Pistole. 
Does the TSA examine flight manifests?
    Mr. Pistole. Yes.
    Senator Paul. So when people come through, you have already 
looked at whoever is flying that day? Someone has looked at 
that?
    Mr. Pistole. Yes. It is under our Secure Flight Program.
    Senator Paul. So there are specific searches then targeted 
toward someone you have looked at on the flight manifest and 
determined if they may need extra scrutiny?
    Mr. Pistole. Yes. That is the whole basis of our watch 
list; it is predicated on knowing who is coming. These are 
individuals coming to the United States, or flying from the 
United States. So I start every day with an intelligence 
briefing that looks out 72 hours in advance to say, who are 
those individuals who are known as selectees on terrorist watch 
lists, where there is some derogatory information about them, 
or clearly the no-flys who may want to fly but will not be 
allowed to fly, either from the last point of departure to the 
United States or in the United States.
    Senator Paul. I was just thinking more of people who have 
been to Yemen three times and Somalia twice and they are not on 
your watch list, but you might want to spend a little more time 
with them.
    Mr. Pistole. Yes.
    Senator Paul. That kind of screening is occurring, also?
    Mr. Pistole. Yes, and I would be glad to go into some more 
detail in a closed setting, Senator, in terms of some of the 
work that we do with the intelligence community.
    Senator Paul. I would just like to know that it is 
occurring in general terms.
    Mr. Pistole. Yes.
    Senator Paul. If you fly from Islamabad into Kennedy 
Airport and then you are going to fly on to Chicago, do you go 
back through any screening or are you just relying on what 
happened in Islamabad?
    Mr. Pistole. No. You go back through additional screening 
here.
    Senator Paul. You do go back?
    Mr. Pistole. Yes.
    Senator Paul. So you go back out of the secure area when 
you have an international flight, and then you come back 
through the TSA screening?
    Mr. Pistole. Yes. If you are talking about transiting from 
one point in the United States to another?
    Senator Paul. Yes.
    Mr. Pistole. Yes, clearly, the enabling legislation 
requires us to screen every passenger here in the United 
States.
    Senator Paul. And with regard to setting up a frequent 
traveler program, you say there are a couple of airports we are 
doing it in now?
    Mr. Pistole. Four right now, Senator, right.
    Senator Paul. And what is the plan for expanding that 
program?
    Mr. Pistole. We are working very closely with both the 
airlines and the airports. I have met with and talked to two 
airline CEOs in the last 2 weeks who are very interested, and 
so right now, we are doing it with American and Delta and we 
are in four of their key airports. So the goal is to, as 
quickly that we can do it in an efficient way, expand that with 
airlines and other airports, and so, clearly, there will be 
some more airports added in the next several months, but more 
so as we get into 2012.
    Senator Paul. Right. Nashville Airport is not one of those, 
is it, because I have noticed there are pilots going through a 
separate line now.
    Mr. Pistole. Yes. As part of the Known Crew Member 
Program----
    Senator Paul. That is a separate program----
    Mr. Pistole [continuing]. That is a separate part of the 
Risk-Based Security Initiative, separate from and apart from 
passengers. We have the pilots who, of course, are the most 
trusted persons on there. Actually, we are doing that at seven 
airports, but as I mentioned, we have had over--well, it is 
approximately 80,000 pilots have gone through on this expedited 
screening process.
    Senator Paul. But it is going to be on an airport-by-
airport basis, is how it works?
    Mr. Pistole. Yes, it is, simply because of the checkpoint 
configuration layout and if there is an area for either a 
dedicated lane or near the exit lane or something that we can 
configure for it. But it is in close association with the 
Pilots Association and ATA, who are doing all this--at no 
taxpayer expense, I would add.
    Senator Paul. I would just encourage that we continue to 
expand this, that it is long overdue----
    Mr. Pistole. Thank you, Senator.
    Senator Paul [continuing]. And that the smaller we make the 
haystack of what we are looking in, the easier your job is to 
find people----
    Mr. Pistole. Agreed.
    Senator Paul [continuing]. And that involves more of making 
priority and targeting folks who are more risk to us. And 
anything we can do to have fewer pat-downs of 6-year-old 
girls--in fact, I do not really think there is any reason why 
we should be doing that--we need to get to that point. With an 
adult, when an adult goes through and the image is blurred, can 
the adult request to go back through again?
    Mr. Pistole. Our policy has not been that. That is what we 
changed with children, simply because----
    Senator Paul. I would change it with adults, too. Ninety-
nine-point-nine percent of us are not terrorists. Let us go 
back through the machine rather than get a pat-down. You will 
get rid of a lot of the anger an animosity toward the TSA and 
toward what you are doing and give us a little more dignity 
when we travel. Just let us go back through the screener again. 
People do not want to have a pat-down.
    Mr. Pistole. Yes. I will take that back, Senator.
    Senator Paul. We are made to feel like criminals and we do 
not want to be made to feel like criminals when we fly on a 
plane.
    Mr. Pistole. Obviously, the only down side is it slows down 
the line and then people--you obviously want to keep moving 
along, and so it is a----
    Senator Paul. I am not sure it slows it down that much just 
to send them back through, particularly if they give them a 
choice, they can do a pat-down or a walk back through. But I 
think what happens is when you ask any questions, you are 
treated like you are guilty of some crime and you are treated 
roughly and it is, like, do anything, ask any questions, and we 
will pat you down more, or we will be more invasive. That is 
sort of what you get sometimes as you go through the airport. 
But I think we need to try to continue to do what we can to 
isolate and target who could attack us and to try to make it 
easier on those who are not going to attack us, which is 
recognizably 99.99 percent of us are not terrorists. So we need 
to figure out how to get them through in an expedited fashion 
and in the most dignified way. Thank you.
    Mr. Pistole. Thank you, Senator. That is exactly what this 
whole Risk-Based Security Initiative is designed to do, so 
thank you.
    Chairman Lieberman. Thanks, Senator Paul.
    Thank you, Administrator Pistole, for all the good work 
that you are doing. I am so struck by the example of the four 
to five weapons a day that are seized in the lines and I think 
it is very important, to the extent that you are able without 
jeopardizing security to regularly announce to the public, 
generally speaking, what you are finding because there is a 
level of impatience. I think people have resigned themselves to 
it, but the average person going through the line--I speak for 
myself--does not see somebody get stopped with a weapon and it 
is very important to remind people why we ask them to go 
through this, which is for their own security.
    I know you mentioned in your opening statement the ability 
of the whole body imaging machines to actually find a Nicorette 
in somebody's back pocket. I know from having talked to you 
there have been occasions when you found things concealed on a 
person which would not show up in a metallic scanner that could 
be very dangerous to the other people on the plane. So I do not 
know if you want to respond at all to that----
    Mr. Pistole. Well, I appreciate it, Mr. Chairman. It is a 
good reminder. We do post some things on our TSA Web site and 
we have a fairly active blog that people interact with us on.
    Chairman Lieberman. Right.
    Mr. Pistole. One of the keys is not providing too much 
detail so the terrorists can go to school on what are the 
detection capabilities and not, but clearly, just the fact that 
we are getting four to five guns every day indicates that there 
are people who are not focused on the security protocols.
    Chairman Lieberman. Good enough. Thank you.
    Yesterday, as you probably know, ProPublica, an independent 
news reporting organization, in conjunction with Public 
Broadcasting, published an investigative report on backscatter 
machines, one that has become acceptable to use in airports, 
but the article summarizes health concerns raised by experts 
over the past 15 years about these machines. I wanted to give 
you an opportunity, because I know this has been in the news 
the last 24 hours, if you choose to respond to these concerns 
at this time.
    Mr. Pistole. Yes. Thank you, Mr. Chairman. I did see the 
article yesterday and it does contain a lot of information. I 
am not sure all of it is accurate from the standpoint of 
documenting all the different perspectives. Clearly, it is an 
issue that we have looked at and continue to look at and work 
with safety and health officials to ensure that these 
backscatter invasive technology machines are as absolutely safe 
as can be, and all the independent studies that we have had 
done indicate that they are well below any of the minimum 
dosages recommended.
    I take Senator Collins's recommendation to heart, to have 
DHS do an independent study, and we will take that up and do 
that because of these lingering concerns about any additional 
exposure. Of course, what the scientific studies that we have 
seen indicate is that it is about the same amount of radiation 
as approximately 3 minutes of flight at elevation, just 
naturally occurring radiation. It is one-one-thousandth of a 
time, for example, of a chest X-ray. But that being said, I am 
concerned that there is a perception that they are not as safe 
as could be, and since we are using different technology, that 
would be millimeter wave, that does not have that same 
perspective, I will take that back and we will conduct 
another--an independent study to address that.
    Chairman Lieberman. Thank you.
    Let me ask you about another matter that has been in the 
news. I am sure you know that over the weekend, during the 
Winter Storm Alfred, there was a nightmarish series of events 
at Bradley Airport. To make a long story short, I and others 
have been asking questions of Jet Blue, the FAA, and Bradley 
Airport. The reality was that a lot of planes could not land 
where they were heading. They were running out of fuel and they 
were being diverted to three airports, one of which was Bradley 
Airport, which became very crowded and all the gates were full. 
They were making judgments about keeping the runways open.
    In the worst cases, I am sure, passengers on that Jet Blue 
plane stayed 7 hours, no water, no food, no bathrooms working, 
really a nightmare. And finally, Jet Blue was able to get a bus 
to go out to take the passengers off, and the airline may well 
be subject to considerable fines as a result of all that.
    That is not directly in TSA's area of responsibility, but I 
did want to ask whether you might have contingency plans, or 
should, for dealing with an unexpected influx of passengers and 
maintaining security at an airport when flights are 
unexpectedly diverted from another airport to that airport.
    Mr. Pistole. Thank you, Chairman. We do, within TSA, have 
contingency plans. Obviously, with a little bit more head's up, 
for example, if there is a hurricane, something like that 
coming in, we have a National Deployment Force that we can 
actually move individuals on an expedited basis, within hours, 
to an affected area that may need additional security regimen, 
either for the passengers, pilots, crew, or the workers.
    Chairman Lieberman. Yes.
    Mr. Pistole. So we do have that capability and we use that. 
We used that in Hurricane Irene. But it is something that was 
started going back to Hurricane Katrina, which actually is 
where it stemmed from. So, yes, we do have that.
    Chairman Lieberman. That may preface an answer to my next 
question. It happened that one of the diverted flights to 
Bradley Airport was an international flight, and it raised an 
interesting question and I want to ask Customs and Border 
Protection about it. If the passengers on that international 
flight were forced to stay on the plane so long that it was 
just humanely impossible and they had to be taken off the plane 
and brought into the Bradley Airport, which of course, has a 
sizeable contingent of TSA personnel--whether there is any way 
TSA and CBP can work together in those unusual circumstances to 
process passengers more quickly so that they are not forced to 
stay on the plane for an enormous amount of time simply because 
they happen to be on an international flight?
    Mr. Pistole. I know there are some provisions. I do not 
know the details, so I would have to look into that and get 
back with you and the Committee on that. For example, if it is 
a situation where international travelers are trying to get out 
of the country----
    Chairman Lieberman. Right.
    Mr. Pistole [continuing]. They have already been processed. 
If it is a matter of them then being reprocessed, and because 
their flight is not going to depart, there are some options, 
but they are, frankly, somewhat limited if there is not a good 
CBP presence there.
    Chairman Lieberman. Yes. I mean, Bradley Airport is an 
international airport, but all of the scheduled international 
arrivals currently originate from countries with CBP pre-
clearance stations, so there may not be adequate clearance to 
handle some unexpected international arrivals--it may be a rare 
circumstance. On the other hand, we have had some extreme 
weather lately, so I just ask you to think about that.
    Mr. Pistole. I will follow up with Commissioner Alan Bersin 
on that and to see what the options may be.
    Chairman Lieberman. OK. Thanks. My time is up. Senator 
Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman, for 
holding this hearing on ``The Next Wave in Aviation Security.''
    Mr. Chairman, because Hawaii is located 2,500 miles from 
the mainland, we have, of course, unique transportation needs. 
Hawaii residents and our many visitors rely heavily on air 
transportation when traveling between islands and also to the 
mainland or even abroad. Although protecting the public is our 
primary goal, we must ensure that security procedures and 
technologies safeguard privacy rights and are not so burdensome 
that they discourage air travel.
    I applaud the Federal employees who have worked tirelessly 
to secure our commercial aviation system since September 11, 
2001. As we approach the busy holiday travel season, I hope 
this hearing will allow us to review whether the workforce has 
the tools they need to meet today's security challenges.
    Administrator Pistole, your testimony mentioned that TSA is 
in the first phase of the expedited passenger screening pilot. 
I understand that Honolulu Airport and Hawaiian Airlines are 
being considered for the second phase of the pilot. In Hawaii, 
many people who take frequent short flights between islands 
could benefit from the expedited security procedures. How are 
the decisions being made about which additional airports and 
airlines will be selected for the second phase of the pilot, 
and when will those selections be announced?
    Mr. Pistole. Well, thank you, Senator Akaka, and thank you 
for your support for Federal employees. Clearly, the goal is to 
move out as quickly and efficiently as possible. There are a 
number of variables that we are working through and those 
include things such as the airlines' capability, their 
information technology systems. Because the way this expedited 
traveler, if you want, TSA Pre-Check works is that we take 
information that is embedded on the bar code of the boarding 
pass, which the airlines, of course, produce, and so it shows 
up in that bar code as the person is a known or trusted 
traveler, if you will. Several airlines are going through 
mergers right now and they are waiting until those systems are 
merged as opposed to having disparate systems that do not talk 
and then trying to merge those into a new one. So those will be 
after the first of the year. So that is one criteria. Is the 
airline ready, capable, and all that.
    The second is the airports themselves, and the 
configuration of the checkpoint is a key aspect. One of the 
goals of this is to have a dedicated lane for those known, 
trusted frequent travelers, such as in Global Entry or these 
elite tiers and others that we will look at down the road, so 
they can go to a dedicated lane, they can be identified through 
that bar code on the boarding pass, and then we can have a 
separate screening lane for them where they keep a light jacket 
on, they keep a belt on, they keep their shoes on, they keep 
their laptop in their briefcase, keep their liquids and aerosol 
gels in their carry-on bags, and again, keeping random and 
unpredictable checks as part of that.
    So to directly answer the question, there are a number of 
airports and airlines that we are working with to try to get to 
that point, so I want to manage expectations as best I can to 
say there have been no decisions made. I am waiting on a 
presentation for that second round, if you will. I will say 
that I met with the CEO of one of the major airlines going 
through a merger here the week before last and they are 
committed to doing it in the first quarter of 2012, and so we 
will use one of the very largest airports in the country as the 
basis for that airline, that merged airline, probably in the 
February-March time frame. So as soon as we get some additional 
information, I will get back with you on that.
    Senator Akaka. Thank you so much.
    Administrator Pistole, I applaud TSA's increased use of 
Automated Target Recognition software, so that whole-body 
scanners no longer generate sensitive images of passengers' 
bodies. However, I am concerned that the backscatter machines, 
which are not currently compatible with the ATR, are still used 
in many airports, including some in Hawaii. Does TSA plan to 
implement the privacy-enhancing ATR feature for all whole-body 
scanners, and what is the time line for doing so?
    Mr. Pistole. Yes, Senator. In fact, we just were approved 
to acquire 300 more additional AIT machines and all of those 
will have that Automatic Target Recognition. So no new 
acquisitions will be without that privacy feature built in. We 
should know sometime this month from the manufacturer of the 
backscatter whether their technology upgrades, if you will, are 
successful in terms of the depiction through the ATR rather 
than through the traditional means. But any new acquisition 
will have that privacy filter of the ATR as part of that.
    Senator Akaka. As you know, the APEC summit will be held in 
Honolulu, Hawaii, next week. The high-profile event will 
feature President Obama and his fellow APEC leaders from the 
Asian region. I recently met with the security steering 
committee and toured the command center and event sites. I was 
very impressed by the planning. Would you please discuss TSA's 
role in securing the safe travel of the 20,000 dignitaries and 
guests flying to Hawaii.
    Mr. Pistole. Thank you, Senator. Obviously, the U.S. Secret 
Service, the Diplomatic Security Service, and the State 
Department have the lead as far as the dignitaries themselves 
and their entourage. It is our responsibility, honestly, to 
ensure that everybody traveling to the summit, other 
passengers, other attendees, and things, have been thoroughly 
screened, whether they are coming from the mainland or from 
those last points of departure to the United States that have 
to meet our standards. So that is our responsibility, and then, 
of course, on the departure, all those people will go through 
the TSA security screening.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Akaka. 
Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Mr. Chairman, and thank you, Mr. 
Pistole, for being here.
    Let me start by asking about a March 2010 DHS Inspector 
General report entitled, ``Transportation Security 
Administration's Acquisition of Support Services Contracts.''
    It is DHS IG Report 10-72. The DHS IG made some 
recommendations in the report, and I am curious about whether 
your agency has made the changes and is now complying with the 
recommendations in that report.
    Mr. Pistole. Senator, I think I am going to have to be 
refreshed on the specifics of that particular report----
    Senator Pryor. The three main recommendations that I am 
concerned about are: First, a review of inherently governmental 
functions as part of contract administration. Second, to 
establish evaluation factors and a review process for 
requirements identified in the statements of work. And third, 
assign dedicated, trained, and certified contracting officers, 
technical representatives to manage and oversee the contract 
administration function.
    Mr. Pistole. Thank you, Senator. I appreciate that 
refresher. So we have taken a number of steps as it relates to 
support services and contractors, and working within the 
framework of the Department of Homeland Security overall, we 
have conducted a review of all of our contractor services and, 
frankly, eliminated a number of positions. A number of other 
positions that were deemed inherently governmental services 
were converted to Federal employees. So the idea is to achieve 
greater efficiencies in our use of contractor dollars and 
services.
    As to the specifics of the acquisition, I think we 
identified some areas of improvement, or that were identified, 
some areas of improvement that we have implemented. I would 
have to get back to you on some of the specifics.
    Senator Pryor. When you talk about efficiencies, does that 
mean savings?
    Mr. Pistole. Savings, yes.
    Senator Pryor. And do you have a dollar figure on how much 
you are able to save?
    Mr. Pistole. I do not offhand. I will be glad to get back 
with you on that. I would also say that as a part of an 
internal initiative that I started 6 months ago to look at 
efficiencies that we could achieve within the agency beyond any 
IG, GAO recommendation----
    Senator Pryor. Right.
    Mr. Pistole [continuing]. We have come up with a number of 
opportunities to create efficiencies, savings, and cost 
avoidance and things that are all important to us and still 
provide the same critical security services. It is largely a 
headquarter-focused efficiency review, so, for example, I have 
put a freeze on hiring in most positions. I have required 
additional information about anybody who is at a mid- or 
senior-level supervisor position to make sure that they have 
requisite subordinates that they are supervising, merging some 
IT functions, and doing some other things internally.
    Additionally, from the field perspective, I recently 
implemented a decision to change our overall structure, where 
we had 12 area directors that oversaw the work of the 120 
Federal Security Directors for the 450 airports, and I reduced 
that from 12 down to six Regional Directors to create some 
additional efficiencies in that regard.
    Senator Pryor. That is good. I would like to get more on 
that in terms of how much you think you can save and how those 
efficiencies will work. That would be great.
    And the next question would be whether, in the past, TSA 
has invested in technology that did not yield the predicted 
results, such as puffer machines. So I am curious about what 
criteria you all use as you are evaluating technology, and then 
how you measure whether the technology is going to achieve the 
anticipated goals that you are trying to achieve.
    Mr. Pistole. Yes, thank you, Senator. The first criteria is 
what does intelligence tell us about how the terrorists are 
trying to hurt us, and so with that as a starting point, then 
we work with industry to say, what detection capabilities do 
you have currently and what are you working on that either 
others are incentivizing worldwide because if somebody comes up 
with a gold standard, it is a very important and valuable 
commodity. So we use those two criteria and then always push 
industry to improve the detection capabilities.
    For example, on the AIT, we are working very closely with 
industry. The GAO and IG both have reports coming out about 
some of the detection capabilities, and there is a distinction 
between what is the capability of the machine vice what may be 
seen as performance testing. So covert testing versus 
performance testing, and so we always try to make that 
distinction.
    But it has to be intelligence-driven, risk-based, and then 
to make sure that it is properly tested and validated, not only 
in the lab, as happened with those puffer machines, but then in 
the airport environment itself, which did not happen. And so 
after the puffer machine issue, we actually created a 
Transportation Security Integration Facility, which I know some 
staffers and some Members of Congress have visited. It is just 
on the South side of the Reagan Airport in Virginia. I would 
like to invite all Members and staffers to come out and tour 
where we test each new piece of technology in an airport 
environment to make sure that it works not only properly, but 
rigorously and all those standards that--not just in the lab 
setting.
    Senator Pryor. It sounds like a lot of that has to do with 
training and to making sure the officers are properly trained 
on the machines.
    Mr. Pistole. That is a good point.
    Senator Pryor. Let me ask you another question that relates 
to training. You are expanding your Behavior Detection Pilot 
Program and I would like to know more about that. It seems 
common sense, that behavior obviously would be a strong 
indicator, but does it accommodate cultural differences, 
language barriers, and physical and mental disabilities? How do 
you balance those needs, compared to trying to single out 
erroneous folks, who for whatever reason TSA is picking up 
erroneously?
    Mr. Pistole. Right. So, clearly, training is a key aspect 
of this expanded Behavior Detection Initiative that we are 
trying, and it is a proof of concept that we are doing in 
Boston and Detroit right now, and I want to get the data from 
those two airports before I make any decision whether to expand 
it or not. But we have, of course, our core Behavior Detection 
Officers that we have been using for several years now and we 
have taken those individuals who showed the most aptitude and 
give them additional training based on some form behavior 
detection models, and those individuals then engage in just a 
simple question and answer with passengers in these two 
airports to make some assessments and judgments as to whether 
that person poses any additional risk.
    Now, in Boston, we have had over 150,000 people go through 
and, just again, answer these basic questions, and we have had 
probably a dozen or so people who were referred to law 
enforcement because of their response and it turned out some of 
these individuals had outstanding warrants for them. Some were 
illegal immigrants. So they are not necessarily TSA security 
issues, but there was something about the person that we needed 
to resolve why are they acting nervously or strangely or 
whatever.
    So as I get that additional information, I will look 
forward to reporting back to the Committee and say, here is 
what we are finding and here is what I think would be the best 
thing to do moving forward, recognizing that it is simply one 
layer of security, that I do not want to have a single point of 
failure in any of our layers. If this helps us identify that 
one putative terrorist, then I would like to use that.
    Senator Pryor. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Pryor.
    The late, great Ted Kennedy--I watched him in the Armed 
Services Committee and we have a rule, first come, first called 
on, so he would arrive a minute or two before the hearing 
convened. The Chairman would gavel it down, and then he would 
disappear. And, like, 30 seconds before it came his turn, he 
would reappear. So he was maximizing his time.
    Administrator Pistole, I thank you. We have a second panel 
and I think it is probably best that we go on. You are doing a 
great job. I think you certainly convinced me that all the 
effort we are making continues on a daily basis to be 
necessary, and I cannot stress enough, and I know I speak for 
Senator Collins, your people are finding four to five weapons 
every day, not in checked bags where they are legal, but people 
going on the plane. And just think about what could be done to 
the other passengers. So what the TSA officers are doing is for 
the protection of the general public.
    Obviously, we want you--and I know you want--to do your 
mission in the most cost effective way that you possibly can 
and in the most technologically progressive and imaginative way 
that you can. But we thank you for what you are doing. It has, 
just point blank, made the American people safer than we would 
otherwise be.
    Some of us may have questions for you that we will submit 
which we did not get a chance to ask you today and ask for your 
answers. Thank you very much.
    Mr. Pistole. Thank you, Mr. Chairman.
    Chairman Lieberman. Have a good day.
    Mr. Pistole. Thank you.
    Chairman Lieberman. We will call the second panel, which is 
Roger Dow, President and Chief Executive Officer of the U.S. 
Travel Association; Kenneth Dunlap, Global Director of Security 
and Travel Facilitation at the International Air Transport 
Association; and Charles M. Barclay, President of the American 
Association of Airport Executives.
    Thank you all, gentlemen, for being here. We look forward 
to your testimony. Each of you has unique experience and 
perspective to add to this discussion. As you just heard me 
say, I am grateful for the work that TSA does, but as somebody 
said in another capacity, this is a journey without a 
destination point. In other words, we are just going to have to 
keep getting better and better and better as time goes on.
    So let us begin with Mr. Dow.

  TESTIMONY OF ROGER J. DOW,\1\ PRESIDENT AND CHIEF EXECUTIVE 
                OFFICER, U.S. TRAVEL ASSOCIATION

    Mr. Dow. Thank you. Chairman Lieberman, Ranking Member 
Collins, and Senator Moran, thank you very much for this 
opportunity to testify.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dow appears in the Appendix on 
page 1235.
---------------------------------------------------------------------------
    Senator Lieberman, first of all, we want to thank you for 
your dedication as you are about to retire. You have pursued 
bipartisan support for aviation security and we are going to 
miss you.
    So thank you very much.
    Chairman Lieberman. Thank you.
    Mr. Dow. U.S. Travel is a nonprofit organization that 
represents every sector of the $1.8 trillion travel industry, 
which employs one in nine Americans. Our mission is simple: To 
increase travel to and within the United States.
    As you all know, travel is a very powerful engine for 
increasing economic growth and improving our economy and jobs. 
Just in Connecticut, 62,000 Americans work in the industry, and 
travel generates $8.8 billion in revenue and $1.4 billion in 
taxes. In Maine, 30,000 citizens work in our industry, and 
travel generates $2.7 billion in revenue and $334 million in 
taxes. But in every city and State, travelers support the 
salaries of policemen, firemen, and teachers, all around 
America. And I think it is also important to point out that 
travel attracts private sector investment, whether it be 
airports, hotels, convention centers, or attractions, that 
really help the communities build.
    When we talk about aviation security, we often talk in 
terms of terrorism, personal privacy, and technology, and less 
attention gets paid to the economic damage that is inflicted by 
the current inefficiency in our passenger screening process. 
For the travel community, which supports urban and rural 
communities, inefficient screening really causes staggering 
costs to the economy, hampering job creation, hampering growth, 
and the data suggests the problem is actually getting worse.
    A 2008 survey of air travelers showed that of the people 
that take more than one flight a year, 28 percent said they 
avoided a flight because of the door-to-door hassle of getting 
through the airport and delays, etc. That resulted in 41 
million flights not taken, or $26 billion in lost spending to 
our U.S. economy and $4 billion in lost taxes.
    You compare that $26 billion loss with a 2010 survey that 
was conducted by Consumer Research and asked travelers, if you 
knew that you had a predictable screening system, would you 
take more flights. Respondents said they would take two or 
three more flights per year, which is $85 billion in revenue 
and would support 900,000 jobs.
    The costs of TSA's budget are ballooning at a time when we 
are trying to find fiscally responsible ways of cutting costs 
in government. For example, in 2004, 618 million people went 
through an airport. In 2010, it was 623 million, a scant one 
percent improvement of the numbers, but yet during the same 
time period, TSA's budget increased 68 percent. This trend 
cannot continue or security screening is going to fall in on 
itself on sheer costs and manpower. The FAA is predicting that 
in 10 years we will have a billion travelers. So just think if 
the costs keep raising at that rate, what would happen.
    Beyond the empirical numbers, there is other evidence. You 
all, as Senator Collins said, travel every single week. You see 
the inefficiencies and the need for reform in the security 
system and it could really stimulate economic growth. Our 
current system, while it reduces threats and ensures 
passengers' safety, has also been inefficient and there is a 
huge hassle factor.
     We brought together in 2009, a blue ribbon panel of 
bipartisan aviation security experts and travel industry 
experts. It was chaired by former Homeland Security Secretary 
Tom Ridge, former Congressman Jim Turner, and Sam Gilliland of 
Sabre. The goal of the panel was to review the present process 
and recommend some reforms in creating a more efficient and 
secure and travel-focused system. They had over 20 meetings and 
we issued the report called ``A Better Way,'' \1\ and you have 
a copy of it, which presents a comprehensive review of what 
could be done.
---------------------------------------------------------------------------
    \1\ The report referenced by Mr. Dow appears in the Appendix on 
page 1241.
---------------------------------------------------------------------------
    The report lays out a checklist with 14 recommendations so 
the Congress and TSA could really have a road map for creating 
a secure and efficient system. I am going to focus on three of 
those recommendations in my remarks. First, we must create a 
risk-based trusted travel program, which Administrator Pistole 
spoke about. Second, we must take steps to decrease the number 
of carry-on bags. And third, TSA must reconstitute the Aviation 
Security Advisory Committee.
    Let us go to the first one. The blue ribbon panel said they 
wanted Congress and TSA to create a risk-based system, and the 
need for that is very clear. The current one-size-fits-all 
screening really does not meet the needs of the traveling 
public. Currently, travelers have no choice in how the system 
works. We have to have security, of course, but in our view, a 
trusted traveler program would allow travelers to opt in 
voluntarily and provide background information to qualify for a 
predictable expedited screening system as long as they meet 
certain criteria that are established for these low-risk 
passengers, which would be just about everybody in this room, 
if you think about it.
    The blue ribbon panel recommended three elements of a 
trusted traveler program. First, a trusted traveler program 
must be secure and accessible program that encourages 
reverification and encourages a large number of enrollees, not 
just a small number. Having a dedicated screening lane for 
trusted travelers, as Administrator Pistole said, is important. 
And a confirmation process ensures that these enrollees are 
able to use those lanes is also important. And third, the 
program should have a screening process that provides 
efficiency, security benefits, and an acceptable level of 
predictivity. We strongly believe that those three elements can 
take place.
    Not long after our release, our team met with Administrator 
Pistole's team to review these recommendations and get their 
feedback. At that meeting, we learned of several initiatives 
that are underway at TSA to create a risk-based, intelligence-
based system. For example, Administrator Pistole and TSA are 
creating the Pre-Check program. I applaud him for his vision, 
his leadership, and undertaking an effort to launch Pre-Check, 
which is an important first step. Pre-Check is one of the 
critical reforms that is very important. I also applaud all of 
you for taking an interest in this area and hope that we can 
work with you to begin to oversee the implementation of a 
process that is efficient, yet still provides great security.
    As the Administrator mentioned, they recently started Pre-
Check and it is going forward with putting passengers in that 
program who qualify through their airline or through the CBP 
program, Global Entry. Pre-Check allows people to share 
information from their frequent traveler program, whether it is 
Delta or American Airlines, that qualifies them for expidited 
screening.
    What we basically would like to see for this to succeed 
would be for Pre-Check to allow more people to get into the 
program, allows people to take their information from multiple 
airlines, not just two airlines, and also use other methods of 
enrollment, such as commercial data, criminal history, and the 
private registered traveler programs that other people are 
administrating.
    The second area of improvement is to have dedicated 
security lanes. We have talked about that. And also, as 
Administrator Pistole said, have random security, which is very 
important, but if you are randomly pulled out, you should still 
be expedited and have predictability.
    The next key area of reform we want to assess is to have 
passengers be able to check one bag at no additional cost. Now, 
we are not saying at no cost to the passenger. The airline 
should be able to put in their standard fee for their airline 
ticket a cost for that bag. But if we could reduce the number 
of bags, we would reduce those guns that you talked about. We 
would reduce the hassle and the ability to quickly go through 
the checkpoint. The New York Times said 59 million more bags 
came through TSA checkpoints in the past year. TSA estimates an 
increse of 87 million carry-on bags in the past year and 29 
million more bags next year. So if we could get one bag per 
passenger, people would check them and it would improve the 
system greatly.
    And the last thing I would like to highlight today is the 
reinstatement of the Aviation Security Advisory Committee. This 
has been in place for two decades with the FAA and TSA, but it 
really brought in a broad base of people to advise the 
government. But unfortunately, as we have seen, since 2006, the 
ASAC has not met. Therefore, you cut off valuable input from 
the private sector, from the travel community, etc. In July 
2011, the TSA Administrator announced they are going to 
reconvene that committee and we think that is great and we 
would hope that we would have the travel community involved so 
we can have the input of the travelers because we do not 
believe that having great security and great customer service 
and an efficient system are mutually exclusive. You can have 
both.
    So we are asking your support to allow us to work with you 
to have a system that is secure, has trusted travelers, has a 
way that we can reduce the number of bags going through the 
system, and that we reinstate the broad spectrum of people 
providing advice to TSA.
    Thanks for what you do. We appreciate your support.
    Chairman Lieberman. Thanks, Mr. Dow, for an excellent 
opening statement and for your kind words.
    Mr. Dow. Thank you.
    Chairman Lieberman. Next will be Kenneth Dunlap on behalf 
of the International Air Transport Association.

 TESTIMONY OF KENNETH J. DUNLAP,\1\ GLOBAL DIRECTOR, SECURITY 
     AND TRAVEL FACILITATION, INTERNATIONAL AIR TRANSPORT 
                          ASSOCIATION

    Mr. Dunlap. Chairman Lieberman, Senator Collins, and 
distinguished Members of the Committee, thank you very much for 
this opportunity to testify at this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dunlap appears in the Appendix on 
page 1278.
---------------------------------------------------------------------------
    The International Air Transport Association, appreciates 
the leadership of the Senate in addressing this critical issue. 
It is our hope that today's hearing accelerates the much needed 
dialogue on the future of passenger screening post-9/11 in the 
United States.
    IATA and our 230 U.S. and foreign member airlines have a 
vision of future passenger screening that is based on a 
paradigm shift in the principles behind checkpoint operations. 
We believe next-generation checkpoints must focus on looking 
for bad people and not just bad things, and I would ask that 
you consider for a moment our vision of an effective airport 
checkpoint. Security is enhanced with higher probabilities of 
detection. Babies and children with names similar to adults on 
the no-fly list pass through screening uneventfully. Harmless 
objects, such as toenail scissors and nail clippers, do not 
trigger alarms.
    In this scenario, the airport security checkpoint is no 
longer a stand-alone line of defense against terrorism but 
rather part of an integrated system that uses risk-based 
analysis as well as advanced screening technology to improve 
security and the travel experience for the passenger. We call 
this vision, the checkpoint of the future, and many of the key 
components are available today. But let me stress, this is a 
vision, this is not the vision of moving forward, and we 
certainly want to encourage a dialogue on what the next future 
checkpoint should look like.
    I think the obvious question is, why develop a future 
checkpoint? First, as we have heard, aviation remains a target, 
and this was demonstrated by the December 2009 attempted 
bombing of a Northwest Airlines flight bound for Detroit.
    Second, air travel is forecast to continue growing and 
today's checkpoints are showing their age. IATA expects an 
additional 90 million passengers will travel within North 
America between now and 2014, and 659 million new passengers 
will travel in the entire world. Our long-range projections are 
that by 2050, as many as 16 billion people will fly annually. 
But the evidence shows that the throughput of today's 
checkpoints is decreasing. Our systems just cannot handle the 
traffic. At some places across the globe, we have seen a drop 
in throughput by as much as 50 percent in the last 2 years.
    And third, the aviation security system needs to maintain 
the confidence of the traveling public, and unfortunately, the 
signs of discontent are growing. Passengers are becoming 
increasingly vocal about the inconvenience of security measures 
and the threats to their personal privacy. But let me stop and 
let me be clear about one thing. We have good systems and the 
flying public is safe. But we also need a confident public that 
trusts the authorities. If you have good systems combined with 
distrustful passengers, you create a toxic combination and a 
less secure system.
    So what lessons have we learned in the past decade 
concerning passenger screening? First, dropping new technology 
into an old checkpoint just will not work. That is akin to 
placing a new radio in an old car and saying you have a new 
car. Essentially, you just still have that same old car.
    Second, object finding has served us well, but it does not 
represent the future. If we have learned anything in the last 
decade, it is that a passenger with toenail clippers is not 
automatically a threat to aviation. Alternatively, if you find 
toenail clippers, you have not necessarily found a terrorist.
    And third, one-size-fits-all screening has outlived its 
usefulness. Over 2.8 billion passengers are screened per year 
and we cannot continue at this pace without using risk-based 
screening measures. IATA strongly supports Secretary Napolitano 
and Administrator Pistole's calls for risk-based screening.
    So IATA has been working for the last year and a half on 
developing a more efficient, more effective and relevant 
passenger screening checkpoint, and let me just spend the last 
few minutes remaining discussing the core principles and 
explain how we propose turning these into a checkpoint.
    The checkpoint of the future concept described here relies 
on two basic concepts. The first is the introduction of risk-
based screening, using data from travel documents and airline 
tickets that is already being used by the U.S. Government and 
other governments for customs and immigration purposes. And let 
me just stop again and emphasize, this does not involve 
profiling of passengers of any kind. We are simply proposing 
that rather than using this data only at the end of a journey 
for purposes of border control and immigration, we should use 
it at the beginning of the journey for security purposes.
    And the second concept is the use of advanced screening 
technology to enable a seamless journey through screening lanes 
without removing items of clothing or unpacking luggage. So, 
you might ask, what does this look like at an airport? Well, 
for a passenger arriving at an airport checkpoint, the 
passenger will biometrically identify himself or herself and 
have a brief encounter with a behavior analyst. The passenger 
is assigned to a lane based on the results of their electronic 
pre-screening or random selection. The passenger proceeds 
through the lane and is screened while in motion. Passengers 
who voluntarily opt into a known traveler program and agree to 
provide additional information about themselves would proceed 
through a known traveler lane. Those about whom little is known 
or those randomly selected would go through an enhanced 
security lane. But let me emphasize, all passengers are 
screened to a baseline, and in this concept, no one--no one--
gets a free pass.
    So where are we and what have we done? IATA has developed a 
high-level blueprint and a road map. We are working with like-
minded associations, manufacturers, academics, and airlines to 
refine this concept, and this certainly needs to be a global 
effort. To date, ICAO has endorsed the need for a global effort 
to study a future checkpoint. Interpol and 12 States have 
signed statements of principle that we are headed in the right 
direction.
    Now, we certainly expect that in 7 to 10 years, all the 
necessary components for a walk-through screening process will 
be available, but we can repurpose and reintegrate existing 
technology into an intermediate checkpoint. That is possible 
within the next 2 to 3 years. And this reworked checkpoint uses 
existing hardware and combines several essential elements of 
the checkpoint of the future, including passenger data already 
being used by governments, behavior analysis, and the creation 
of new screening lanes.
    IATA is committed to making air travel safe, secure, and 
more enjoyable, and in summary, we believe the foundation of 
the checkpoint  of  the  future  should  be  based  on  the  
lessons  learned  since 9/11 and the next generation checkpoint 
should use passenger data, use behavior detection, screen 
passengers based on risk, provide for an uninterrupted journey 
from curb to aircraft door, and preserve our investment in our 
existing checkpoints. We will not settle for anything less than 
a revolution in the way our passengers are treated at the 
airports.
    Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks, Mr. Dunlap. That was really 
fascinating. You have helped us to, no pun intended, look over 
the horizon here, at least in terms of security at the 
airports, so I have some questions I will ask you when we get 
to that.
    Finally, Charles Barclay on behalf of the American 
Association of Airport Executives. Thanks very much for being 
here.

    TESTIMONY OF CHARLES M. BARCLAY,\1\ PRESIDENT, AMERICAN 
               ASSOCIATION OF AIRPORT EXECUTIVES

    Mr. Barclay. Thank you, Mr. Chairman, Senator Collins, and 
Members. It is always a privilege to be here. I am just going 
to take a very brief time and make two general points from our 
testimony.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Barclay appears in the Appendix 
on page 1285.
---------------------------------------------------------------------------
    The first is that Airport Executives strongly support risk-
based security. We congratulate Administrator Pistole and his 
team for bringing that concept forward. It is something that is 
essential for the future, as you have heard.
    We support Pre-Check and encourage its expansion. Airports 
are eager to, as well as airlines, be sponsors of that program 
in local areas. We would ask the Committee to encourage TSA to 
move as quickly as they can from the pilot programs into 
further deployment of Pre-Check.
    The rationale behind risk-based security, we think, is 
pretty simple. You have to look for dangerous people, not just 
dangerous things, in the future. We have to identify the vast, 
vast majority of people traveling who are not a threat to the 
system so we can focus our limited resources on the people we 
do not get to vet in advance. And then, finally, the resources 
and facilities. If we continue the current system of treating 
everyone the same, they are going to be simply overwhelmed by 
passenger growth. So we have to make changes and modernize.
    Risk-based security is not a compromise in our point of 
view. When you think about the philosophy, a dangerous person 
with nothing on them that we vet for, that we screen for, is a 
danger to the system while a person with no bad intent with 
lots of dangerous things on them is not a threat to the system. 
So we need a future security system that implements that 
understanding.
    My second general point is that airports are unique 
partners of TSA. They are all branches of local government, 
local or State creatures. They all have local police powers and 
they all have branches, divisions, or special units that have 
people with precisely the same incentives as the agents of 
Federal law enforcement.
    My point for emphasizing that is that we have today a 
division of responsibilities. Local governments, airports, and 
local law enforcement are responsible for things like perimeter 
security, the front line of employee vetting and credentialing, 
incident response, and other areas that we mentioned in our 
testimony. We strongly believe those things should stay with 
local law enforcement. The TSA should not take over those areas 
because you do have a partnership between Federal law 
enforcement and local law enforcement. We need both of them to 
avoid focusing on each other. You do not want the good guys 
spending lots of time and energy watching each other as a 
regulator and a regulated entity.
    You want them both pointed outwards looking for bad guys, 
and we think that is a key element of having a partnership on 
security between local law enforcement and TSA, as opposed to 
having the agency take over more areas. TSA has its hands full 
with vetting and screening both passengers and cargo, and we 
want to see them do that well. It keeps our commerce moving. It 
keeps our system moving. We look forward in a future system to 
being partners with TSA and hope to carry out that mission as 
well as we can. Both groups will make mistakes. We will both 
have to learn from those mistakes and get better as time goes 
on. But local law enforcement and airports are there to be of 
assistance, and there is no higher priority in their view than 
the safety of the local citizens they work for.
    So thank you and I would be glad to answer any questions I 
can from our testimony.
    Chairman Lieberman. Thanks very much, Mr. Barclay. Very 
interesting testimony.
    All of you, and Administrator Pistole, as well, used the 
term ``risk-based security.'' Does everybody agree that what we 
are saying is that risk-based tends to focus on looking for 
dangerous people as opposed to dangerous things, which is the 
focus of the current system, right? But I presume that none of 
you would say that we should stop looking for dangerous things, 
is that correct?
    Mr. Dow. Yes. I think, personally, that we have to look for 
dangerous things, but there are ways to do that. If you take 
trusted travelers and they go through a machine that detects 
explosives, that is fine.
    Chairman Lieberman. Right.
    Mr. Dow. But the question is how do you make the system 
much more efficient so you can focus on the dangerous people 
and the dangerous things.
    Chairman Lieberman. Yes. I mean, this is a real challenge, 
because let us just go to the point of Administrator Pistole's 
testimony that both Senator Collins and I responded to. So you 
have an average of four to five guns found in baggage that 
people are sending through the line to carry on, not check. And 
I presume most of those are not terrorists. They are, for one 
reason or another, people who wanted to carry the gun on with 
them, maybe because it was their sense of how they protect 
their own security. But, presumably, if you did not have that 
kind of screening for dangerous things, somebody who was, in 
fact, a terrorist would be able to carry a weapon on.
    So what I am getting at is, and I know it is hard to do 
everything, and I support moving toward risk-based, which looks 
for the dangerous people, but we are not at a point where we 
can ignore looking for dangerous things, are we? Mr. Dunlap.
    Mr. Dunlap. Mr. Chairman, I think that the presumption is 
everybody does, in fact, get screened----
    Chairman Lieberman. Yes.
    Mr. Dunlap [continuing]. So those guns will be found. But 
in the new paradigm, some people will get screened more, and 
that if you have the opportunity to do things like enhanced 
security lanes, you can screen a population of people a little 
bit more thoroughly.
    So if we start with the presumption that there is a 
baseline, then to address your point, those bad objects are 
going to be found, as well, but they will not be the entirety 
of the focus of the checkpoint screening experience, because, 
again, if you spend your resources on looking for toenail 
clippers and scissors----
    Chairman Lieberman. Right.
    Mr. Dunlap [continuing]. You are not spending enough time 
looking for IED components.
    Chairman Lieberman. No, that is a good approach. In other 
words, the risk-based is in some sense on top of a more 
efficient application of the existing system. I mean, I noticed 
in the vision of the future you have that even the known 
travelers who have been pre-checked, etc., they go through a 
metal detector in that walk-through, that particular tunnel.
    Go back a little bit, because it is intriguing to look at 
your vision of the future here. I know you quoted some numbers, 
but how close are we to that? It looks pretty attractive. I 
mean, you have three lines that people walk through. 
Presumably, that is it. How close are we technologically to 
that?
    Mr. Dunlap. So, Senator, if you take a look at the 
intermediate checkpoint that was the last slide depicted----
    Chairman Lieberman. Right.
    Mr. Dunlap [continuing]. We are within 2 to 3 years of 
that.\1\ Everything that we need to deploy a more effective 
security system and a more efficient security system using 
existing equipment is there today. So we think within about 2 
years, we can have that deployed to any airport, and it will 
use passenger data, which we have today, behavior detection, 
here today, screening passengers based on risk, we can do it 
today. And then if you push the future out and you look at the 
tunnels of technology that we are developing, the one thing 
that we need is explosives detection that is performed while 
the person is in motion. That is probably 7 to 10 years on the 
horizon----
---------------------------------------------------------------------------
    \1\ The slide referenced by Mr. Dunlap appears in the Appendix on 
page 1284.
---------------------------------------------------------------------------
    Chairman Lieberman. Right.
    Mr. Dunlap [continuing]. And we certainly cannot do that 
today. But what we are encouraged is that the manufacturers we 
are working with are telling us that vision is far closer than 
what we realize. So, obviously, technology grows exponentially 
and we think if we have a plan that preserves the current 
capital investment in our checkpoints, rearranges a little bit 
better, that when the time comes for the TSA to make a 
decision, what will we spend money on next, that all the 
technology and all the pieces for that tunnels of technology 
and checkpoint of the future will be there. So we think it is 
realistic. It is science fact, not science fiction, Mr. 
Chairman.
    Chairman Lieberman. Is there a lot of work going on in the 
private sector to develop these new technologies? This is a 
very significant global market, so I would think that people 
would be investing in it. Are they?
    Mr. Dunlap. Absolutely. We know from our experience with 
the manufacturers that all these advance technologies are 
currently under study. But the problem that we have right now 
globally is that every regulator has different technology 
standards. So something certified in the United States might 
not be accepted in the European Community.
    Chairman Lieberman. Right.
    Mr. Dunlap. It may not be accepted in Australia. So there 
is a good effort, and I would like to pay a lot of credit to 
TSA for working with like-minded countries to come up with the 
global standards. So if we have global standards of detection, 
that will accelerate and incentivize the manufacturers to 
invest in the technologies that we need. And then also, I 
think, having a common vision, what does the future look like, 
that can also incentivize dollars to be directed into a more 
predictable vision and a more compact vision of what we need to 
have in our airports.
    Chairman Lieberman. I appreciate that.
    Mr. Barclay, let me ask you this question. As you know, 
TSA's Pre-Check pilot program has led to a separate line for 
trusted travelers. At this point, the line is managed by either 
Delta or American Airlines. Do you think this format will be 
successful if it expands to incorporate more passengers and 
airlines or should TSA be looking for another administrative 
means to expedite the screening of people?
    Mr. Barclay. You have totally different facilities in each 
of the 450 airports, so airports have been concerned about 
continuing to have the ability to manage queues and lines. If 
you have been through Denver, they have a great big hall and 
the airport actually needs to manage those queues and lines 
because of the nature of the facilities. And that is going to 
be true at other airports, particularly as passenger levels 
grow. So we are going to need to have a partnership to figure 
it out as to how do we make a lane available. Our members 
strongly support the idea of Pre-Check. We are going to do our 
best with facilities, but there is going to be queue management 
and airports are going to have to be central to that.
    Mr. Dow. Mr. Chairman, if I can add one comment----
    Chairman Lieberman. Go right ahead, Mr. Dow.
    Mr. Dow [continuing]. I believe that just having an airline 
frequency program is not enough. Through the registered 
traveler programs that are out there, the data, the criminal 
records, all that, we can build a much broader base, and that 
is what we are saying must be done. We need to get a lot of 
travelers, folks like us that are trusted and able to get out 
of the system, because if you have a long line, that is what 
produces the problem. When you are trying to push people 
through during the peak times, that is when you have problems. 
So if you eliminate that, you have a much better chance of 
finding that needle in the haystack.
    Chairman Lieberman. Good point. Thanks. My time is up. 
Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Dunlap, I am very intrigued by your proposal for the 
security screening based on risk and I do think that we need to 
move toward a more risk-based system and TSA is doing that, to 
Administrator Pistole's credit. I am, however, somewhat worried 
about the proposal and it is for this reason. If there is 
anything we know about al-Qaeda, it is that its members have 
demonstrated extraordinary patience over the years. So I am 
wondering, if we move to this system, what would prevent an al-
Qaeda operative, perhaps someone like the Times Square would-be 
bomber, who was an American citizen, from traveling a lot, 
registering for the known traveler program, passing the 
background check, which he would have from everything we know, 
and just biding his time. And then, if he is only going through 
a lane that X-rays his carry-on bag and has him go through a 
metal detector, he could be lining his arms and legs with PETN, 
which would not show up.
    And that is my worry. We know the patience. I mean, think 
of the number of years that elapsed between the first attack on 
the World Trade Center and the second. And we know the careful 
planning. So what is your response to that?
    Mr. Dunlap. Senator, we are acutely aware of the patience 
of our adversary and that is why we believe that, regardless of 
the concept, every passenger needs to be screened. They need to 
be screened for explosives. They need to be screened for 
weapons, as well.
    So we establish a fairly high baseline within our concept 
to make sure that no one gets a free pass. Everyone is going to 
get screened.
    You know, one of the interesting things about the proposal, 
whether you look at the lanes or you look at the tunnels, all 
of that incorporates processes that have been demonstrated to 
work already. So we have a known traveler lane. We have the 
Pre-Check plan that the TSA is piloting right now, which is an 
analog. We have Global Entry, which is an analog, and you can 
go through SENTRI and NEXUS programs, as well. So there is a 
demonstrated history that those type of programs work.
    On the other hand, if you take a look at the high-security 
lane, that occurs in every airport in the world right now. In 
the U.S., you may see a glass booth, and within that glass 
booth, you will have a passenger getting swabbed down or have 
some other extraordinary security measure being taken to them. 
So our concept, it may look a little bit far forward, but that 
is what happens when you try to integrate things that are 
happening today in one place.
    But certainly, we do not want anybody to get a free pass 
and we do not want anybody to walk through not getting 
screened. Everybody needs that when they get on an airplane.
    Senator Collins. But although the known traveler gets 
screened, assuming I am reading your passport correctly, the 
baggage is screened through the X-ray machine and the passenger 
goes through a metal detector, but there would not be the kind 
of screening that is done with an AIT or an ATR, where you 
would see non-metallic explosives concealed on the body. Is 
that correct?
    Mr. Dunlap. Well, if you look at our concept over the next 
7 years, it is to, in fact, develop walk-through explosive 
screening, walk-through imaging, so that can be done without a 
person having to spend 45 seconds of their time with their 
hands in a position like this getting screened and then going 
through the resolution process.
    If you take a look at what we are proposing in 2 to 3 
years, we are just talking about taking existing equipment, 
reordering it, and making it a little bit more efficient, 
because in the end, the efficiencies to be gained are by not 
having shout-outs in the airport checkpoint saying, take this 
bag, take this passenger and move them aside, because that 
slows down the lane.
    So I think--and I confidently believe in this--is that we 
can establish a high enough baseline to ensure security, but 
also to do something, and that is to take the level of 
detection that we have right now, whatever that number is that 
the Committee has, and we can raise it even higher because we 
can direct our screening resources on those people that we know 
less about, least about, or those who appear on watch lists or 
another type of security list that the TSA has.
    Mr. Dow. Senator Collins, if I could add one point----
    Senator Collins. Yes, Mr. Dow.
    Mr. Dow. One of the things that all security people tell us 
that deters this long-range planning is randomness, and when 
you have a randomness in the system, which Administrator 
Pistole adds, that enables us to thwart that in a very big way. 
So we are exploring, again, being able to go through this and 
having randomness, but when you have the random trusted 
traveler go through, just make sure you are able to get them 
through that secondary and third screening very efficiently. So 
the randomness is very critical.
    Senator Collins. Thank you.
    Mr. Barclay, my last question is for you. Earlier this 
year, Administrator Pistole decided not to approve an expansion 
of the Screening Partnership Program, which allows private 
screeners to operate at 16 airports. What is your assessment of 
that decision?
    Mr. Barclay. Well, our members support a viable and 
voluntary SPP program, so we would like to see revisiting that 
decision revisited. Most of the airports are not in the 
program. It is only 16 out of 450. There are a few others 
interested. But having it out there as an option is something 
that our members support.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins. 
Senator Moran.

               OPENING STATEMENT OF SENATOR MORAN

    Senator Moran. Mr. Chairman, thank you.
    Mr. Dow, you indicated that peak times is when there are 
problems. I just wanted you to tell me what the problems are. 
Are we talking about that it is more likely that someone who is 
a security risk will make it through security, or are the 
problems more related to the traveling public?
    Mr. Dow. No, the problem actually is both. One, when you 
have an unpredictable system, you take the efficiency and the 
productivity of the American workforce away because you have to 
go through DCA an hour and a half in advance. But if you knew 
it would take 15 minutes, you would get there 40 minutes in 
advance.
    But what happens during the peak time periods is the crowds 
get big, and you can see the urgency among the TSA sciences of 
how do we handle the crowd and move the lines. So if you are a 
bad person, you probably would want to go during one of those 
peak times. So we are saying, let us not have those large lines 
and create the incentive to try and get people through fast 
because it just does not work. Let us get an efficient system 
at all hours.
    Senator Moran. Thank you.
    Mr. Dunlap, are there countries that we need to have 
concerns about the standards when passengers are screened and 
security procedures occur that are traveling around the globe, 
but particularly to the United States? How uniform are the 
standards by which the travelers are having to comply?
    Mr. Dunlap. Well, let me start with what I think is a very 
positive story that needs to be discussed. Globally, the level 
of security across the board has been increased immeasurably 
because of the investments of organizations such as the 
International Civil Aviation Organization and their efforts to 
raise aviation standards. But individually, countries have 
looked at the United States, have looked at other regulators, 
and have increased their own levels. So in terms of are we much 
safer globally than what we were immediately after 9/11? 
Unequivocally, yes, Senator.
    And what I would say is if there are countries that are of 
worry, the best source of who they are and who their names 
would be would be with the intelligence community, and we trust 
that the men and women of the TSA have identified those 
countries and have put in place procedures to deal with those 
additional threats that they might have. I would not be the 
intelligence specialist that would be able to name those 
countries.
    Senator Moran. Thank you, Mr. Dunlap.
    And Mr. Barclay, I want to follow up on Chairman 
Lieberman's question that he raised with you about American and 
Delta, and I think your answer was, airports would like to have 
a lot of authority on those decisions, how we manage that 
program. You all have worked out the public-private partnership 
in regard to airport employees and their passage through 
security. Has that worked well, and is that what you were 
referring to when you were answering Senator Lieberman's 
question?
    Mr. Barclay. No. They are really separate, but related to 
the extent that airports are experienced and do know how to do 
employee vetting. They would like to be sponsors of local Pre-
Check programs so that Dulles Airport could have a program 
where in addition to the airline signing up people through 
frequent flyer programs, the airports could have an opportunity 
to have passengers show up, do the vetting necessary, and help 
people get enrolled who are not part of the frequent flyer 
programs. So airports have experience in how to get that 
information into TSA and we have eager members. After 9/11, you 
may remember that there was a privately-run registered traveler 
program that was sponsored by airports, and over 20 airports 
signed up for that and enrolled over a quarter of a million 
people. So airports would like to be part of Pre-Check.
    The item that you mentioned on the clearinghouse is one 
that before 9/11, only about 10 percent of employees had to get 
criminal history record checks from the FBI and it was a 
nightmare. It was taking over 50 days to get a background check 
through the process because they were going through OPM. OPM 
was not set up to deal with entities outside of the Federal 
Government. They were losing accounting records.
    Pre-9/11, we had research that the Bankers Association was 
doing criminal history record checks for banking employees. 
They had a clearinghouse to make those checks work smoothly for 
their industry.
    That is what we set up in cooperation with FAA at the time 
and the airports. We have since vetted eight million 
backgrounds. It has not cost the Federal Government a penny, 
compared to the TWIC program, which has cost hundreds of 
millions and has vetted two million backgrounds. We have 
reduced that 50 days to minutes, which is what is important to 
an industry that is 24/7, needs to get employees vetted and out 
on the front lines as quickly as possible, to do that in a safe 
fashion. And it has really been a model of a public-private 
partnership that has worked very well.
    The reason that AAAE got involved in that originally was 
that FAA ran security back then and Jane Garvey, who was the 
Administrator, selected us to do that because it was a co-op 
model. The customers of the clearinghouse are also the owners 
of the clearinghouse. Airport executives run the clearinghouse, 
make the decisions about its charges and operations, and they 
are also the customers on the other end. So that was the reason 
that we got into that program to begin with.
    Senator Moran. And that program has worked well?
    Mr. Barclay. Very well.
    Senator Moran. And TSA is satisfied?
    Mr. Barclay. They are, and they have moved in the last year 
to introduce competition so airports will have a choice of 
other vendors that can also provide those clearinghouse 
services, and we want to compliment TSA because they have moved 
on that carefully to make sure you did not undo a program that 
was working while you introduced more competition to it. So 
aviation workers, unlike truckers or port authority workers, 
who only have one program to go through and it is federally 
controlled, aviation workers are going to continue to have a 
variety, three options to go through, and they are in a program 
that costs about a third for the employee of what it costs a 
Haz-Mat trucker to get their vet done or a port worker to get 
their vet done. So it is a very efficient system and one that 
we would like to see TSA certainly continue.
    Senator Moran. Thank you, Mr. Barclay. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thanks, Senator Moran.
    Senator Landrieu, good morning. Thanks for being here.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Good morning. Thank you all. I think this 
is a very important hearing and I just wanted to highlight for 
the Committee's attention five items that are in the Homeland 
Security appropriations bill that will help expedite some of 
these initiatives.
    We added in the Senate bill, Mr. Chairman, $10 million for 
TSA to begin to implement the trusted traveler program. It is 
in the Senate bill, not, unfortunately, in the House bill. A 
requirement for TSA to improve its response to passenger 
complaints, along with GAO review of existing procedures, is in 
the Senate bill, not in the House bill. Report language 
directing TSA to improve training to address passengers with 
physical or mental disabilities like autism, is not in the 
House bill but in the Senate bill. Eleven million dollars above 
the 2011 level to add 175 new Behavior Detection Officers, 
again, it is in the Senate bill, not the House bill. And there 
is a requirement that the fiscal year 2013 budget request 
documents resource allocation on the basis of risk, which is 
very important.
    There may be others, but this is just a short list that I 
had my staff put together because the authorization, which 
happens in this Committee, is extremely important, but if it is 
not funded, it does not get done. And so I want to just thank 
Mr. Dow and Mr. Dunlap particularly for the input that your 
organizations have given us both in this Committee and in our 
appropriations process. I believe that your associations can 
really help us lead the way to the future, where we can have a 
very secure system but also a system that is much less 
intrusive than the one we have now so we can reduce the 
inconvenience and the frustration that is associated with 
traveling today.
    And just for the record, Mr. Chairman, a 2010 survey by 
Consensus Research concluded that American travelers would take 
two to three additional flights each year if the hassles of 
security screening were eliminated. That would translate into 
an additional $85 billion in consumer spending and 900,000 jobs 
created in the United States.
    So this is an area of interest to us all from a variety of 
perspectives. It is for security and the safety of our Nation 
to prevent important attacks. But for the State that I 
represent that is in large measure dependent on the traveling 
public--we are an international destination, and we, like many 
communities, rely on those international travelers to sustain 
our economy--it is just imperative that we quickly develop the 
checkpoint of the future.
    So I want to thank you all and I look forward to working 
with you.
    My first question is on checked baggage, because I intend, 
Mr. Chairman and Ranking Member Collins, to file a bill to 
require the airlines, for every ticket purchased to allow one 
checked bag for free. If the airlines want to write it into 
their ticket costs, that is fine. But this is pushing so many 
bags into, as you all testified, carry-on luggage.
    I understand that the cost, and if my staff will find this 
document, when Secretary Napolitano testified before our 
Committee, she testified that their internal study indicated 
that it cost TSA about $260 million more because of the 
baggage, Mr. Chairman, not being checked and being carried on. 
Is that your understanding? Do you have independent data? I 
will start with you, Mr. Dunlap and Mr. Dow.
    Mr. Dunlap. Well, Senator, that is certainly a very 
interesting question. What we do is we look at global trends. 
If you take a look globally at what is happening to 
checkpoints, the fact that they are slowing down, the fact that 
you are getting passengers more inconvenienced, that is 
happening regardless of whether or not the local business model 
there includes some sort of a la carte pricing, which is always 
being blamed for driving more bags into the checkpoints.
    If you take a look at what is happening over time, IATA as 
far back as August 2005 sounded the alarm that our checkpoints 
were slowing down. So as you recall, in 2005, a la carte 
pricing or any kind of other pricing models that were 
discussed, they really did not exist in any major business 
models at all.
    And then I think the last thing that you need to consider 
is what has been happening at security checkpoints over the 
last several years. Shoes have been coming off. Computers have 
been coming out. Liquids are being set aside. And now you have 
the body scanners where passengers have to take absolutely 
everything out of their pockets.
    So I think, in all deference to the DHS report, I think 
that there are many other factors that are responsible for what 
is happening at the checkpoints rather than whatever or not the 
passenger puts the bag in the cabin or puts the bag into the 
belly of the aircraft.
    Senator Landrieu. Mr. Dow.
    Mr. Dow. Yes, Senator. You made two very important points. 
One was on the checked bags. Our research says that if people 
knew they could check a bag, if it was included in the price of 
their ticket, two-thirds would do so, and your point is right. 
You cannot dictate pricing to an airline, but we certainly can 
dictate that they should include that in the price of an 
airline ticket and it would help.
    The second point you made, I thought was outstanding, is on 
customer service. TSA has to measure not only security, but 
customer satisfaction and efficiency, not on an average but at 
peak times, and have those measurements so we can look at them 
and know that we are satisfying the customers while improving 
security. So we agree.
    Senator Landrieu. And Mr. Chairman, I really am very 
focused on this issue because I think it is increasing the 
public's anxiety and dissatisfaction with government generally. 
But Mr. Chairman, and I know it is not the purview of this 
Committee but rather the Commerce Committee, but if we do not 
do something, the airlines are going to sell a ticket to a 
flyer and you are not going to get a seat, you are going to 
stand on the airplane and then have to pay extra for the 
cushion, and I have about had it, OK? You do not get anything 
to eat. You get virtually nothing to drink. At least they give 
you water and a Coke or a 7-Up. Everything else costs.
    So I think the American people deserve, when they purchase 
a ticket from an airline, they get one bag that they can check 
and a carry-on item in that ticket price and they absolutely 
get a seat and a glass of water. I mean, that should be the 
minimum Federal requirement, and I am going to push very hard 
to see that it gets done.
    But in addition, let me just ask one final question to the 
airlines. Mr. Barclay, I flew in from Israel last week and got 
to the Newark Airport and was unable to use my cell phone from 
the time I exited the plane until I got, I guess, outside the 
building. Is that a rule of each individual airport or is that 
a TSA rule or where did that rule come from and are you aware 
of it?
    Mr. Barclay. I will check on that and get back to you with 
the folks at Newark Airport. I presume it was just a cell usage 
problem that they----
    Senator Landrieu. No, absolutely not. It was a restriction.
    Mr. Barclay. Oh, you were told you could not----
    Senator Landrieu. No one could use a cell phone from the 
time they got off the plane until they got their luggage 
through Customs and then out into the daylight, which, to me, 
when you are trying to manage business travel, the first thing 
people want to do when they have been traveling 13 hours on an 
international flight is check in with the office, see what they 
missed, etc. I wish, Mr. Dow and Mr. Dunlap, you would look at 
this. I do not know what the security requirement is for not 
being able to use cell phones. And, by the way, Mr. Chairman, 
we waited an hour and 10 minutes for our luggage after a 13-
hour flight. And so the airports are going to be hearing from 
me about this baggage handling issue, as well, because it is 
very disappointing.
    So as much as we can make the travel experience safe and 
convenient, it has to do with both the way people board their 
flight and the way they de-plane, and the exit portion is 
getting worse, just as the entrance portion is, so we have a 
long way to go.
    I know I have exceeded my time. I thank you, Mr. Chairman.
    Mr. Barclay. Senator, if I could just briefly, I am told 
that is a CBP rule that you are not allowed to use cell phones 
in the arrival area. So you could go back to them on that.
    Chairman Lieberman. We will take that up. I was going to 
tell you that if we are on the same flight together, I will 
give you my seat. I will not make you stand.
    Mr. Barclay. You are going to stand?
    Chairman Lieberman. Yes. [Laughter.]
    Senator Landrieu. You can stand up and hold on to the 
lavatory----
    Chairman Lieberman. Yes, and the cushion.
    Mr. Dow. Senator Landrieu, I want to also thank you and the 
Appropriations Committee for what you are doing to help improve 
the visa process, because it starts when people start planning 
to come here, and the work you are putting forward there is 
going to make a huge difference in our economy. Thank you.
    Chairman Lieberman. Thanks, Senator Landrieu. Senator 
Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. To our witnesses, thanks so much for 
joining us today.
    Senators Lieberman, Collins, Brown, and myself have a press 
conference in about 5 minutes on the U.S. Postal Service, so I 
am going to be very brief. In fact, I am going to pose a couple 
of questions and ask you to respond to them for the record.
    The first question, Mr. Dunlap, is for you. I was intrigued 
by your discussion and images of the checkpoint of the future. 
The concept seems simple enough, and that is risk-based 
screening driven by information that we already collect from 
passengers, the use of advance screening technology, and 
separate lanes for different types of passengers. This kind of 
checkpoint, I think, could save travelers countless hours and 
ultimately increase the travel industry and our local 
economies.
    Given the financial challenges that we face as a Nation, 
what would the checkpoint of the future likely cost taxpayers 
and are there programs and technologies in place right now that 
can be seamlessly integrated into your vision? That is a 
question for the record.
    And maybe one more question for the record. This would be 
for all of our witnesses. In your testimonies, you discussed 
how the current one-size-fits-all screening process at 
America's airports does not meet the needs of our traveling 
public, and I think you also noted that we need to move to a 
system that detects dangerous people instead of dangerous 
things. And as you know, this Committee has continually 
challenged government officials to work smarter with Federal 
dollars and to find efficiencies in our government programs 
without compromising security. Our credo is how to get better 
results for either less money or the same amount of money 
without sacrificing security.
    To this end, I understand that TSA has delivered a pilot to 
help expedite the flow of trusted travelers--you have had some 
discussion of that here today--but there is still much room for 
growth and improvement. Could you all discuss on the record for 
me the challenges that TSA faces as it looks to expand that 
pilot and how industry can help find solutions to these issues?
    And I will have one more question, and I am not going to 
mention it today, but will submit another question or two for 
the record, as well, and if you could respond to those 
promptly, I would be most grateful. Thank you, sir.
    Chairman Lieberman. Senator Carper, I appreciate that very 
much.
    I thank Mr. Dow, Mr. Dunlap, and Mr. Barclay. Your 
testimony has been very helpful.
    We have come a long way. I mean, we are in a new age, and 
it is no fun, but as we have all said, the enemy is out there. 
The enemy is persistent and they continue to be attracted to 
air travel as a way to attack us and hurt us. We are trying 
very hard to protect the American people when they travel 
because the worst thing of all for airline business would be 
obviously if people felt unsafe.
    But I think, increasingly, under Administrator Pistole, we 
are both trying to leverage new technologies but also move 
into, on top of the basics, a more risk-based approach, and 
that is exactly what I think all three of you are asking.
    Your statements are in the record in full. We are going to 
keep the record of this hearing open for another 15 days for 
any additional questions or statements on either side of the 
bench here.
    But I thank you very much for what you do every day and for 
the thought and effort that you put into your testimony this 
morning.
    With that, the hearing is adjourned.
    [Whereupon, at 11:30 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7123.001

[GRAPHIC] [TIFF OMITTED] T7123.002

[GRAPHIC] [TIFF OMITTED] T7123.003

[GRAPHIC] [TIFF OMITTED] T7123.004

[GRAPHIC] [TIFF OMITTED] T7123.005

[GRAPHIC] [TIFF OMITTED] T7123.006

[GRAPHIC] [TIFF OMITTED] T7123.007

[GRAPHIC] [TIFF OMITTED] T7123.008

[GRAPHIC] [TIFF OMITTED] T7123.009

[GRAPHIC] [TIFF OMITTED] T7123.010

[GRAPHIC] [TIFF OMITTED] T7123.011

[GRAPHIC] [TIFF OMITTED] T7123.012

[GRAPHIC] [TIFF OMITTED] T7123.013

[GRAPHIC] [TIFF OMITTED] T7123.014

[GRAPHIC] [TIFF OMITTED] T7123.015

[GRAPHIC] [TIFF OMITTED] T7123.016

[GRAPHIC] [TIFF OMITTED] T7123.017

[GRAPHIC] [TIFF OMITTED] T7123.018

[GRAPHIC] [TIFF OMITTED] T7123.019

[GRAPHIC] [TIFF OMITTED] T7123.020

[GRAPHIC] [TIFF OMITTED] T7123.021

[GRAPHIC] [TIFF OMITTED] T7123.022

[GRAPHIC] [TIFF OMITTED] T7123.023

[GRAPHIC] [TIFF OMITTED] T7123.024

[GRAPHIC] [TIFF OMITTED] T7123.025

[GRAPHIC] [TIFF OMITTED] T7123.026

[GRAPHIC] [TIFF OMITTED] T7123.027

[GRAPHIC] [TIFF OMITTED] T7123.028

[GRAPHIC] [TIFF OMITTED] T7123.029

[GRAPHIC] [TIFF OMITTED] T7123.030

[GRAPHIC] [TIFF OMITTED] T7123.031

[GRAPHIC] [TIFF OMITTED] T7123.032

[GRAPHIC] [TIFF OMITTED] T7123.033

[GRAPHIC] [TIFF OMITTED] T7123.034

[GRAPHIC] [TIFF OMITTED] T7123.035

[GRAPHIC] [TIFF OMITTED] T7123.036

[GRAPHIC] [TIFF OMITTED] T7123.037

[GRAPHIC] [TIFF OMITTED] T7123.038

[GRAPHIC] [TIFF OMITTED] T7123.039

[GRAPHIC] [TIFF OMITTED] T7123.040

[GRAPHIC] [TIFF OMITTED] T7123.041

[GRAPHIC] [TIFF OMITTED] T7123.042

[GRAPHIC] [TIFF OMITTED] T7123.043

[GRAPHIC] [TIFF OMITTED] T7123.044

[GRAPHIC] [TIFF OMITTED] T7123.045

[GRAPHIC] [TIFF OMITTED] T7123.046

[GRAPHIC] [TIFF OMITTED] T7123.047

[GRAPHIC] [TIFF OMITTED] T7123.048

[GRAPHIC] [TIFF OMITTED] T7123.049

[GRAPHIC] [TIFF OMITTED] T7123.050

[GRAPHIC] [TIFF OMITTED] T7123.051

[GRAPHIC] [TIFF OMITTED] T7123.052

[GRAPHIC] [TIFF OMITTED] T7123.053

[GRAPHIC] [TIFF OMITTED] T7123.054

[GRAPHIC] [TIFF OMITTED] T7123.055

[GRAPHIC] [TIFF OMITTED] T7123.056

[GRAPHIC] [TIFF OMITTED] T7123.057

[GRAPHIC] [TIFF OMITTED] T7123.058

[GRAPHIC] [TIFF OMITTED] T7123.059

[GRAPHIC] [TIFF OMITTED] T7123.060

[GRAPHIC] [TIFF OMITTED] T7123.061

[GRAPHIC] [TIFF OMITTED] T7123.062

[GRAPHIC] [TIFF OMITTED] T7123.063

[GRAPHIC] [TIFF OMITTED] T7123.064

[GRAPHIC] [TIFF OMITTED] T7123.065

[GRAPHIC] [TIFF OMITTED] T7123.066

[GRAPHIC] [TIFF OMITTED] T7123.067

[GRAPHIC] [TIFF OMITTED] T7123.068

[GRAPHIC] [TIFF OMITTED] T7123.069

[GRAPHIC] [TIFF OMITTED] T7123.070

[GRAPHIC] [TIFF OMITTED] T7123.071

[GRAPHIC] [TIFF OMITTED] T7123.072

[GRAPHIC] [TIFF OMITTED] T7123.073

[GRAPHIC] [TIFF OMITTED] T7123.074

[GRAPHIC] [TIFF OMITTED] T7123.075

[GRAPHIC] [TIFF OMITTED] T7123.076

[GRAPHIC] [TIFF OMITTED] T7123.077

[GRAPHIC] [TIFF OMITTED] T7123.078

[GRAPHIC] [TIFF OMITTED] T7123.079

[GRAPHIC] [TIFF OMITTED] T7123.080

[GRAPHIC] [TIFF OMITTED] T7123.081

[GRAPHIC] [TIFF OMITTED] T7123.082

[GRAPHIC] [TIFF OMITTED] T7123.083

[GRAPHIC] [TIFF OMITTED] T7123.084

[GRAPHIC] [TIFF OMITTED] T7123.085

[GRAPHIC] [TIFF OMITTED] T7123.086

[GRAPHIC] [TIFF OMITTED] T7123.087

[GRAPHIC] [TIFF OMITTED] T7123.088

[GRAPHIC] [TIFF OMITTED] T7123.089

[GRAPHIC] [TIFF OMITTED] T7123.090

[GRAPHIC] [TIFF OMITTED] T7123.091

[GRAPHIC] [TIFF OMITTED] T7123.092

[GRAPHIC] [TIFF OMITTED] T7123.093

[GRAPHIC] [TIFF OMITTED] T7123.094

[GRAPHIC] [TIFF OMITTED] T7123.095

[GRAPHIC] [TIFF OMITTED] T7123.096

[GRAPHIC] [TIFF OMITTED] T7123.097

[GRAPHIC] [TIFF OMITTED] T7123.098

[GRAPHIC] [TIFF OMITTED] T7123.099

[GRAPHIC] [TIFF OMITTED] T7123.100

[GRAPHIC] [TIFF OMITTED] T7123.101

[GRAPHIC] [TIFF OMITTED] T7123.102

[GRAPHIC] [TIFF OMITTED] T7123.103

[GRAPHIC] [TIFF OMITTED] T7123.104

[GRAPHIC] [TIFF OMITTED] T7123.105

[GRAPHIC] [TIFF OMITTED] T7123.106

[GRAPHIC] [TIFF OMITTED] T7123.107

[GRAPHIC] [TIFF OMITTED] T7123.108

[GRAPHIC] [TIFF OMITTED] T7123.109

[GRAPHIC] [TIFF OMITTED] T7123.110

[GRAPHIC] [TIFF OMITTED] T7123.111

[GRAPHIC] [TIFF OMITTED] T7123.112

[GRAPHIC] [TIFF OMITTED] T7123.113

[GRAPHIC] [TIFF OMITTED] T7123.114

[GRAPHIC] [TIFF OMITTED] T7123.115

[GRAPHIC] [TIFF OMITTED] T7123.116

[GRAPHIC] [TIFF OMITTED] T7123.117

[GRAPHIC] [TIFF OMITTED] T7123.118

[GRAPHIC] [TIFF OMITTED] T7123.119

[GRAPHIC] [TIFF OMITTED] T7123.120

[GRAPHIC] [TIFF OMITTED] T7123.121

[GRAPHIC] [TIFF OMITTED] T7123.122

[GRAPHIC] [TIFF OMITTED] T7123.123

[GRAPHIC] [TIFF OMITTED] T7123.124

[GRAPHIC] [TIFF OMITTED] T7123.125

[GRAPHIC] [TIFF OMITTED] T7123.126

[GRAPHIC] [TIFF OMITTED] T7123.127

[GRAPHIC] [TIFF OMITTED] T7123.128

[GRAPHIC] [TIFF OMITTED] T7123.129

[GRAPHIC] [TIFF OMITTED] T7123.130

[GRAPHIC] [TIFF OMITTED] T7123.131

[GRAPHIC] [TIFF OMITTED] T7123.132

[GRAPHIC] [TIFF OMITTED] T7123.133

[GRAPHIC] [TIFF OMITTED] T7123.134

[GRAPHIC] [TIFF OMITTED] T7123.135

[GRAPHIC] [TIFF OMITTED] T7123.136

[GRAPHIC] [TIFF OMITTED] T7123.137

[GRAPHIC] [TIFF OMITTED] T7123.138

[GRAPHIC] [TIFF OMITTED] T7123.139

[GRAPHIC] [TIFF OMITTED] T7123.140

[GRAPHIC] [TIFF OMITTED] T7123.141

[GRAPHIC] [TIFF OMITTED] T7123.142

[GRAPHIC] [TIFF OMITTED] T7123.143

[GRAPHIC] [TIFF OMITTED] T7123.144

[GRAPHIC] [TIFF OMITTED] T7123.145

[GRAPHIC] [TIFF OMITTED] T7123.146

[GRAPHIC] [TIFF OMITTED] T7123.147

[GRAPHIC] [TIFF OMITTED] T7123.148

[GRAPHIC] [TIFF OMITTED] T7123.149

[GRAPHIC] [TIFF OMITTED] T7123.150

[GRAPHIC] [TIFF OMITTED] T7123.151

[GRAPHIC] [TIFF OMITTED] T7123.152

[GRAPHIC] [TIFF OMITTED] T7123.153

[GRAPHIC] [TIFF OMITTED] T7123.154

[GRAPHIC] [TIFF OMITTED] T7123.155

[GRAPHIC] [TIFF OMITTED] T7123.156

[GRAPHIC] [TIFF OMITTED] T7123.157

[GRAPHIC] [TIFF OMITTED] T7123.158

[GRAPHIC] [TIFF OMITTED] T7123.159

[GRAPHIC] [TIFF OMITTED] T7123.160

[GRAPHIC] [TIFF OMITTED] T7123.161

[GRAPHIC] [TIFF OMITTED] T7123.162

[GRAPHIC] [TIFF OMITTED] T7123.163

[GRAPHIC] [TIFF OMITTED] T7123.164

[GRAPHIC] [TIFF OMITTED] T7123.165

[GRAPHIC] [TIFF OMITTED] T7123.166

[GRAPHIC] [TIFF OMITTED] T7123.167

[GRAPHIC] [TIFF OMITTED] T7123.168

[GRAPHIC] [TIFF OMITTED] T7123.169

[GRAPHIC] [TIFF OMITTED] T7123.170

[GRAPHIC] [TIFF OMITTED] T7123.171

[GRAPHIC] [TIFF OMITTED] T7123.172

[GRAPHIC] [TIFF OMITTED] T7123.173

[GRAPHIC] [TIFF OMITTED] T7123.174

[GRAPHIC] [TIFF OMITTED] T7123.175

[GRAPHIC] [TIFF OMITTED] T7123.176

[GRAPHIC] [TIFF OMITTED] T7123.177

[GRAPHIC] [TIFF OMITTED] T7123.178

[GRAPHIC] [TIFF OMITTED] T7123.179

[GRAPHIC] [TIFF OMITTED] T7123.180

[GRAPHIC] [TIFF OMITTED] T7123.181

[GRAPHIC] [TIFF OMITTED] T7123.182

[GRAPHIC] [TIFF OMITTED] T7123.183

[GRAPHIC] [TIFF OMITTED] T7123.184

[GRAPHIC] [TIFF OMITTED] T7123.185

[GRAPHIC] [TIFF OMITTED] T7123.186

[GRAPHIC] [TIFF OMITTED] T7123.187

[GRAPHIC] [TIFF OMITTED] T7123.188

[GRAPHIC] [TIFF OMITTED] T7123.189

[GRAPHIC] [TIFF OMITTED] T7123.190

[GRAPHIC] [TIFF OMITTED] T7123.191

[GRAPHIC] [TIFF OMITTED] T7123.192

[GRAPHIC] [TIFF OMITTED] T7123.193

[GRAPHIC] [TIFF OMITTED] T7123.194

[GRAPHIC] [TIFF OMITTED] T7123.195

[GRAPHIC] [TIFF OMITTED] T7123.196

[GRAPHIC] [TIFF OMITTED] T7123.197

[GRAPHIC] [TIFF OMITTED] T7123.198

[GRAPHIC] [TIFF OMITTED] T7123.199

[GRAPHIC] [TIFF OMITTED] T7123.200

[GRAPHIC] [TIFF OMITTED] T7123.201

[GRAPHIC] [TIFF OMITTED] T7123.202

[GRAPHIC] [TIFF OMITTED] T7123.203

[GRAPHIC] [TIFF OMITTED] T7123.204

[GRAPHIC] [TIFF OMITTED] T7123.205

[GRAPHIC] [TIFF OMITTED] T7123.206

[GRAPHIC] [TIFF OMITTED] T7123.207

[GRAPHIC] [TIFF OMITTED] T7123.208

[GRAPHIC] [TIFF OMITTED] T7123.209

[GRAPHIC] [TIFF OMITTED] T7123.210

[GRAPHIC] [TIFF OMITTED] T7123.211

[GRAPHIC] [TIFF OMITTED] T7123.212

[GRAPHIC] [TIFF OMITTED] T7123.213

[GRAPHIC] [TIFF OMITTED] T7123.214

[GRAPHIC] [TIFF OMITTED] T7123.215

[GRAPHIC] [TIFF OMITTED] T7123.216

[GRAPHIC] [TIFF OMITTED] T7123.217

[GRAPHIC] [TIFF OMITTED] T7123.218

[GRAPHIC] [TIFF OMITTED] T7123.219

[GRAPHIC] [TIFF OMITTED] T7123.220

[GRAPHIC] [TIFF OMITTED] T7123.221

[GRAPHIC] [TIFF OMITTED] T7123.222

[GRAPHIC] [TIFF OMITTED] T7123.223

[GRAPHIC] [TIFF OMITTED] T7123.224

[GRAPHIC] [TIFF OMITTED] T7123.225

[GRAPHIC] [TIFF OMITTED] T7123.226

[GRAPHIC] [TIFF OMITTED] T7123.227

[GRAPHIC] [TIFF OMITTED] T7123.228

[GRAPHIC] [TIFF OMITTED] T7123.229

[GRAPHIC] [TIFF OMITTED] T7123.230

[GRAPHIC] [TIFF OMITTED] T7123.231

[GRAPHIC] [TIFF OMITTED] T7123.232

[GRAPHIC] [TIFF OMITTED] T7123.233

[GRAPHIC] [TIFF OMITTED] T7123.234

[GRAPHIC] [TIFF OMITTED] T7123.235

[GRAPHIC] [TIFF OMITTED] T7123.236

[GRAPHIC] [TIFF OMITTED] T7123.237

[GRAPHIC] [TIFF OMITTED] T7123.238

[GRAPHIC] [TIFF OMITTED] T7123.239

[GRAPHIC] [TIFF OMITTED] T7123.240

[GRAPHIC] [TIFF OMITTED] T7123.241

[GRAPHIC] [TIFF OMITTED] T7123.242

[GRAPHIC] [TIFF OMITTED] T7123.243

[GRAPHIC] [TIFF OMITTED] T7123.244

[GRAPHIC] [TIFF OMITTED] T7123.245

[GRAPHIC] [TIFF OMITTED] T7123.246

[GRAPHIC] [TIFF OMITTED] T7123.247

[GRAPHIC] [TIFF OMITTED] T7123.248

[GRAPHIC] [TIFF OMITTED] T7123.249

[GRAPHIC] [TIFF OMITTED] T7123.250

[GRAPHIC] [TIFF OMITTED] T7123.251

[GRAPHIC] [TIFF OMITTED] T7123.252

[GRAPHIC] [TIFF OMITTED] T7123.253

[GRAPHIC] [TIFF OMITTED] T7123.254

[GRAPHIC] [TIFF OMITTED] T7123.255

[GRAPHIC] [TIFF OMITTED] T7123.256

[GRAPHIC] [TIFF OMITTED] T7123.257

[GRAPHIC] [TIFF OMITTED] T7123.258

[GRAPHIC] [TIFF OMITTED] T7123.259

[GRAPHIC] [TIFF OMITTED] T7123.260

[GRAPHIC] [TIFF OMITTED] T7123.261

[GRAPHIC] [TIFF OMITTED] T7123.262

[GRAPHIC] [TIFF OMITTED] T7123.263

[GRAPHIC] [TIFF OMITTED] T7123.264

[GRAPHIC] [TIFF OMITTED] T7123.265

[GRAPHIC] [TIFF OMITTED] T7123.266

[GRAPHIC] [TIFF OMITTED] T7123.267

[GRAPHIC] [TIFF OMITTED] T7123.268

[GRAPHIC] [TIFF OMITTED] T7123.269

[GRAPHIC] [TIFF OMITTED] T7123.270

[GRAPHIC] [TIFF OMITTED] T7123.271

[GRAPHIC] [TIFF OMITTED] T7123.272

[GRAPHIC] [TIFF OMITTED] T7123.273

[GRAPHIC] [TIFF OMITTED] T7123.274

[GRAPHIC] [TIFF OMITTED] T7123.275

[GRAPHIC] [TIFF OMITTED] T7123.276

[GRAPHIC] [TIFF OMITTED] T7123.277

[GRAPHIC] [TIFF OMITTED] T7123.278

[GRAPHIC] [TIFF OMITTED] T7123.279

[GRAPHIC] [TIFF OMITTED] T7123.280

[GRAPHIC] [TIFF OMITTED] T7123.281

[GRAPHIC] [TIFF OMITTED] T7123.282

[GRAPHIC] [TIFF OMITTED] T7123.283

[GRAPHIC] [TIFF OMITTED] T7123.284

[GRAPHIC] [TIFF OMITTED] T7123.285

[GRAPHIC] [TIFF OMITTED] T7123.286

[GRAPHIC] [TIFF OMITTED] T7123.287

[GRAPHIC] [TIFF OMITTED] T7123.288

[GRAPHIC] [TIFF OMITTED] T7123.289

[GRAPHIC] [TIFF OMITTED] T7123.290

[GRAPHIC] [TIFF OMITTED] T7123.291

[GRAPHIC] [TIFF OMITTED] T7123.292

[GRAPHIC] [TIFF OMITTED] T7123.293

[GRAPHIC] [TIFF OMITTED] T7123.294

[GRAPHIC] [TIFF OMITTED] T7123.295

[GRAPHIC] [TIFF OMITTED] T7123.296

[GRAPHIC] [TIFF OMITTED] T7123.297

[GRAPHIC] [TIFF OMITTED] T7123.298

[GRAPHIC] [TIFF OMITTED] T7123.299

[GRAPHIC] [TIFF OMITTED] T7123.300

[GRAPHIC] [TIFF OMITTED] T7123.301

[GRAPHIC] [TIFF OMITTED] T7123.302

[GRAPHIC] [TIFF OMITTED] T7123.303

[GRAPHIC] [TIFF OMITTED] T7123.304

[GRAPHIC] [TIFF OMITTED] T7123.305

[GRAPHIC] [TIFF OMITTED] T7123.306

[GRAPHIC] [TIFF OMITTED] T7123.307

[GRAPHIC] [TIFF OMITTED] T7123.308

[GRAPHIC] [TIFF OMITTED] T7123.309

[GRAPHIC] [TIFF OMITTED] T7123.310

[GRAPHIC] [TIFF OMITTED] T7123.311

[GRAPHIC] [TIFF OMITTED] T7123.312

[GRAPHIC] [TIFF OMITTED] T7123.313

[GRAPHIC] [TIFF OMITTED] T7123.314

[GRAPHIC] [TIFF OMITTED] T7123.315

[GRAPHIC] [TIFF OMITTED] T7123.316

[GRAPHIC] [TIFF OMITTED] T7123.317

[GRAPHIC] [TIFF OMITTED] T7123.318

[GRAPHIC] [TIFF OMITTED] T7123.319

[GRAPHIC] [TIFF OMITTED] T7123.320

[GRAPHIC] [TIFF OMITTED] T7123.321

[GRAPHIC] [TIFF OMITTED] T7123.322

[GRAPHIC] [TIFF OMITTED] T7123.323

[GRAPHIC] [TIFF OMITTED] T7123.324

[GRAPHIC] [TIFF OMITTED] T7123.325

[GRAPHIC] [TIFF OMITTED] T7123.326

[GRAPHIC] [TIFF OMITTED] T7123.327

[GRAPHIC] [TIFF OMITTED] T7123.328

[GRAPHIC] [TIFF OMITTED] T7123.329

[GRAPHIC] [TIFF OMITTED] T7123.330

[GRAPHIC] [TIFF OMITTED] T7123.331

[GRAPHIC] [TIFF OMITTED] T7123.332

[GRAPHIC] [TIFF OMITTED] T7123.333

[GRAPHIC] [TIFF OMITTED] T7123.334

[GRAPHIC] [TIFF OMITTED] T7123.335

[GRAPHIC] [TIFF OMITTED] T7123.336

[GRAPHIC] [TIFF OMITTED] T7123.337

[GRAPHIC] [TIFF OMITTED] T7123.338

[GRAPHIC] [TIFF OMITTED] T7123.339

[GRAPHIC] [TIFF OMITTED] T7123.340

[GRAPHIC] [TIFF OMITTED] T7123.341

[GRAPHIC] [TIFF OMITTED] T7123.342

[GRAPHIC] [TIFF OMITTED] T7123.343

[GRAPHIC] [TIFF OMITTED] T7123.344

[GRAPHIC] [TIFF OMITTED] T7123.345

[GRAPHIC] [TIFF OMITTED] T7123.346

[GRAPHIC] [TIFF OMITTED] T7123.347

[GRAPHIC] [TIFF OMITTED] T7123.348

[GRAPHIC] [TIFF OMITTED] T7123.349

[GRAPHIC] [TIFF OMITTED] T7123.350

[GRAPHIC] [TIFF OMITTED] T7123.351

[GRAPHIC] [TIFF OMITTED] T7123.352

[GRAPHIC] [TIFF OMITTED] T7123.353

[GRAPHIC] [TIFF OMITTED] T7123.354

[GRAPHIC] [TIFF OMITTED] T7123.355

[GRAPHIC] [TIFF OMITTED] T7123.356

[GRAPHIC] [TIFF OMITTED] T7123.357

[GRAPHIC] [TIFF OMITTED] T7123.358

[GRAPHIC] [TIFF OMITTED] T7123.359

[GRAPHIC] [TIFF OMITTED] T7123.360

[GRAPHIC] [TIFF OMITTED] T7123.361

[GRAPHIC] [TIFF OMITTED] T7123.362

[GRAPHIC] [TIFF OMITTED] T7123.363

[GRAPHIC] [TIFF OMITTED] T7123.364

[GRAPHIC] [TIFF OMITTED] T7123.365

[GRAPHIC] [TIFF OMITTED] T7123.366

[GRAPHIC] [TIFF OMITTED] T7123.367

[GRAPHIC] [TIFF OMITTED] T7123.368

[GRAPHIC] [TIFF OMITTED] T7123.369

[GRAPHIC] [TIFF OMITTED] T7123.370

[GRAPHIC] [TIFF OMITTED] T7123.371

[GRAPHIC] [TIFF OMITTED] T7123.372

[GRAPHIC] [TIFF OMITTED] T7123.373

[GRAPHIC] [TIFF OMITTED] T7123.374

[GRAPHIC] [TIFF OMITTED] T7123.375

[GRAPHIC] [TIFF OMITTED] T7123.376

[GRAPHIC] [TIFF OMITTED] T7123.377

[GRAPHIC] [TIFF OMITTED] T7123.378

[GRAPHIC] [TIFF OMITTED] T7123.379

[GRAPHIC] [TIFF OMITTED] T7123.380

[GRAPHIC] [TIFF OMITTED] T7123.381

[GRAPHIC] [TIFF OMITTED] T7123.382

[GRAPHIC] [TIFF OMITTED] T7123.383

[GRAPHIC] [TIFF OMITTED] T7123.384

[GRAPHIC] [TIFF OMITTED] T7123.385

[GRAPHIC] [TIFF OMITTED] T7123.386

[GRAPHIC] [TIFF OMITTED] T7123.387

[GRAPHIC] [TIFF OMITTED] T7123.388

[GRAPHIC] [TIFF OMITTED] T7123.389

[GRAPHIC] [TIFF OMITTED] T7123.390

[GRAPHIC] [TIFF OMITTED] T7123.391

[GRAPHIC] [TIFF OMITTED] T7123.392

[GRAPHIC] [TIFF OMITTED] T7123.393

[GRAPHIC] [TIFF OMITTED] T7123.394

[GRAPHIC] [TIFF OMITTED] T7123.395

[GRAPHIC] [TIFF OMITTED] T7123.396

[GRAPHIC] [TIFF OMITTED] T7123.397

[GRAPHIC] [TIFF OMITTED] T7123.398

[GRAPHIC] [TIFF OMITTED] T7123.399

[GRAPHIC] [TIFF OMITTED] T7123.400

[GRAPHIC] [TIFF OMITTED] T7123.401

[GRAPHIC] [TIFF OMITTED] T7123.402

[GRAPHIC] [TIFF OMITTED] T7123.403

[GRAPHIC] [TIFF OMITTED] T7123.404

[GRAPHIC] [TIFF OMITTED] T7123.405

[GRAPHIC] [TIFF OMITTED] T7123.406

[GRAPHIC] [TIFF OMITTED] T7123.407

[GRAPHIC] [TIFF OMITTED] T7123.408

[GRAPHIC] [TIFF OMITTED] T7123.409

[GRAPHIC] [TIFF OMITTED] T7123.410

[GRAPHIC] [TIFF OMITTED] T7123.411

[GRAPHIC] [TIFF OMITTED] T7123.412

[GRAPHIC] [TIFF OMITTED] T7123.413

[GRAPHIC] [TIFF OMITTED] T7123.414

[GRAPHIC] [TIFF OMITTED] T7123.415

[GRAPHIC] [TIFF OMITTED] T7123.416

[GRAPHIC] [TIFF OMITTED] T7123.417

[GRAPHIC] [TIFF OMITTED] T7123.418

[GRAPHIC] [TIFF OMITTED] T7123.419

[GRAPHIC] [TIFF OMITTED] T7123.420

[GRAPHIC] [TIFF OMITTED] T7123.421

[GRAPHIC] [TIFF OMITTED] T7123.422

[GRAPHIC] [TIFF OMITTED] T7123.423

[GRAPHIC] [TIFF OMITTED] T7123.424

[GRAPHIC] [TIFF OMITTED] T7123.425

[GRAPHIC] [TIFF OMITTED] T7123.426

[GRAPHIC] [TIFF OMITTED] T7123.427

[GRAPHIC] [TIFF OMITTED] T7123.428

[GRAPHIC] [TIFF OMITTED] T7123.429

[GRAPHIC] [TIFF OMITTED] T7123.430

[GRAPHIC] [TIFF OMITTED] T7123.431

[GRAPHIC] [TIFF OMITTED] T7123.432

[GRAPHIC] [TIFF OMITTED] T7123.433

[GRAPHIC] [TIFF OMITTED] T7123.434

[GRAPHIC] [TIFF OMITTED] T7123.435

[GRAPHIC] [TIFF OMITTED] T7123.436

[GRAPHIC] [TIFF OMITTED] T7123.437

[GRAPHIC] [TIFF OMITTED] T7123.438

[GRAPHIC] [TIFF OMITTED] T7123.439

[GRAPHIC] [TIFF OMITTED] T7123.440

[GRAPHIC] [TIFF OMITTED] T7123.441

[GRAPHIC] [TIFF OMITTED] T7123.442

[GRAPHIC] [TIFF OMITTED] T7123.443

[GRAPHIC] [TIFF OMITTED] T7123.444

[GRAPHIC] [TIFF OMITTED] T7123.445

[GRAPHIC] [TIFF OMITTED] T7123.446

[GRAPHIC] [TIFF OMITTED] T7123.447

[GRAPHIC] [TIFF OMITTED] T7123.448

[GRAPHIC] [TIFF OMITTED] T7123.449

[GRAPHIC] [TIFF OMITTED] T7123.450

[GRAPHIC] [TIFF OMITTED] T7123.451

[GRAPHIC] [TIFF OMITTED] T7123.452

[GRAPHIC] [TIFF OMITTED] T7123.453

[GRAPHIC] [TIFF OMITTED] T7123.454

[GRAPHIC] [TIFF OMITTED] T7123.455

[GRAPHIC] [TIFF OMITTED] T7123.456

[GRAPHIC] [TIFF OMITTED] T7123.457

[GRAPHIC] [TIFF OMITTED] T7123.458

[GRAPHIC] [TIFF OMITTED] T7123.459

[GRAPHIC] [TIFF OMITTED] T7123.460

[GRAPHIC] [TIFF OMITTED] T7123.461

[GRAPHIC] [TIFF OMITTED] T7123.462

[GRAPHIC] [TIFF OMITTED] T7123.463

[GRAPHIC] [TIFF OMITTED] T7123.464

[GRAPHIC] [TIFF OMITTED] T7123.465

[GRAPHIC] [TIFF OMITTED] T7123.466

[GRAPHIC] [TIFF OMITTED] T7123.467

[GRAPHIC] [TIFF OMITTED] T7123.468

[GRAPHIC] [TIFF OMITTED] T7123.469

[GRAPHIC] [TIFF OMITTED] T7123.470

[GRAPHIC] [TIFF OMITTED] T7123.471

[GRAPHIC] [TIFF OMITTED] T7123.472

[GRAPHIC] [TIFF OMITTED] T7123.473

[GRAPHIC] [TIFF OMITTED] T7123.474

[GRAPHIC] [TIFF OMITTED] T7123.475

[GRAPHIC] [TIFF OMITTED] T7123.476

[GRAPHIC] [TIFF OMITTED] T7123.477

[GRAPHIC] [TIFF OMITTED] T7123.478

[GRAPHIC] [TIFF OMITTED] T7123.479

[GRAPHIC] [TIFF OMITTED] T7123.480

[GRAPHIC] [TIFF OMITTED] T7123.481

[GRAPHIC] [TIFF OMITTED] T7123.482

[GRAPHIC] [TIFF OMITTED] T7123.483

[GRAPHIC] [TIFF OMITTED] T7123.484

[GRAPHIC] [TIFF OMITTED] T7123.485

[GRAPHIC] [TIFF OMITTED] T7123.486

[GRAPHIC] [TIFF OMITTED] T7123.487

[GRAPHIC] [TIFF OMITTED] T7123.488

[GRAPHIC] [TIFF OMITTED] T7123.489

[GRAPHIC] [TIFF OMITTED] T7123.490

[GRAPHIC] [TIFF OMITTED] T7123.491

[GRAPHIC] [TIFF OMITTED] T7123.492

[GRAPHIC] [TIFF OMITTED] T7123.493

[GRAPHIC] [TIFF OMITTED] T7123.494

[GRAPHIC] [TIFF OMITTED] T7123.495

[GRAPHIC] [TIFF OMITTED] T7123.496

[GRAPHIC] [TIFF OMITTED] T7123.497

[GRAPHIC] [TIFF OMITTED] T7123.498

[GRAPHIC] [TIFF OMITTED] T7123.499

[GRAPHIC] [TIFF OMITTED] T7123.500

[GRAPHIC] [TIFF OMITTED] T7123.501

[GRAPHIC] [TIFF OMITTED] T7123.502

[GRAPHIC] [TIFF OMITTED] T7123.503

[GRAPHIC] [TIFF OMITTED] T7123.504

[GRAPHIC] [TIFF OMITTED] T7123.505

[GRAPHIC] [TIFF OMITTED] T7123.506

[GRAPHIC] [TIFF OMITTED] T7123.507

[GRAPHIC] [TIFF OMITTED] T7123.508

[GRAPHIC] [TIFF OMITTED] T7123.509

[GRAPHIC] [TIFF OMITTED] T7123.510

[GRAPHIC] [TIFF OMITTED] T7123.511

[GRAPHIC] [TIFF OMITTED] T7123.512

[GRAPHIC] [TIFF OMITTED] T7123.513

[GRAPHIC] [TIFF OMITTED] T7123.514

[GRAPHIC] [TIFF OMITTED] T7123.515

[GRAPHIC] [TIFF OMITTED] T7123.516

[GRAPHIC] [TIFF OMITTED] T7123.517

[GRAPHIC] [TIFF OMITTED] T7123.518

[GRAPHIC] [TIFF OMITTED] T7123.519

[GRAPHIC] [TIFF OMITTED] T7123.520

[GRAPHIC] [TIFF OMITTED] T7123.521

[GRAPHIC] [TIFF OMITTED] T7123.522

[GRAPHIC] [TIFF OMITTED] T7123.523

[GRAPHIC] [TIFF OMITTED] T7123.524

[GRAPHIC] [TIFF OMITTED] T7123.525

[GRAPHIC] [TIFF OMITTED] T7123.526

[GRAPHIC] [TIFF OMITTED] T7123.527

[GRAPHIC] [TIFF OMITTED] T7123.528

[GRAPHIC] [TIFF OMITTED] T7123.529

[GRAPHIC] [TIFF OMITTED] T7123.530

[GRAPHIC] [TIFF OMITTED] T7123.531

[GRAPHIC] [TIFF OMITTED] T7123.532

[GRAPHIC] [TIFF OMITTED] T7123.533

[GRAPHIC] [TIFF OMITTED] T7123.534

[GRAPHIC] [TIFF OMITTED] T7123.535

[GRAPHIC] [TIFF OMITTED] T7123.536

[GRAPHIC] [TIFF OMITTED] T7123.537

[GRAPHIC] [TIFF OMITTED] T7123.538

[GRAPHIC] [TIFF OMITTED] T7123.539

[GRAPHIC] [TIFF OMITTED] T7123.540

[GRAPHIC] [TIFF OMITTED] T7123.541

[GRAPHIC] [TIFF OMITTED] T7123.542

[GRAPHIC] [TIFF OMITTED] T7123.543

[GRAPHIC] [TIFF OMITTED] T7123.544

[GRAPHIC] [TIFF OMITTED] T7123.545

[GRAPHIC] [TIFF OMITTED] T7123.546

[GRAPHIC] [TIFF OMITTED] T7123.547

[GRAPHIC] [TIFF OMITTED] T7123.548

[GRAPHIC] [TIFF OMITTED] T7123.549

[GRAPHIC] [TIFF OMITTED] T7123.550

[GRAPHIC] [TIFF OMITTED] T7123.551

[GRAPHIC] [TIFF OMITTED] T7123.552

[GRAPHIC] [TIFF OMITTED] T7123.553

[GRAPHIC] [TIFF OMITTED] T7123.554

[GRAPHIC] [TIFF OMITTED] T7123.555

[GRAPHIC] [TIFF OMITTED] T7123.556

[GRAPHIC] [TIFF OMITTED] T7123.557

[GRAPHIC] [TIFF OMITTED] T7123.558

[GRAPHIC] [TIFF OMITTED] T7123.559

[GRAPHIC] [TIFF OMITTED] T7123.560

[GRAPHIC] [TIFF OMITTED] T7123.561

[GRAPHIC] [TIFF OMITTED] T7123.562

[GRAPHIC] [TIFF OMITTED] T7123.563

[GRAPHIC] [TIFF OMITTED] T7123.564

[GRAPHIC] [TIFF OMITTED] T7123.565

[GRAPHIC] [TIFF OMITTED] T7123.566

[GRAPHIC] [TIFF OMITTED] T7123.567

[GRAPHIC] [TIFF OMITTED] T7123.568

[GRAPHIC] [TIFF OMITTED] T7123.569

[GRAPHIC] [TIFF OMITTED] T7123.570

[GRAPHIC] [TIFF OMITTED] T7123.571

[GRAPHIC] [TIFF OMITTED] T7123.572

[GRAPHIC] [TIFF OMITTED] T7123.573

[GRAPHIC] [TIFF OMITTED] T7123.574

[GRAPHIC] [TIFF OMITTED] T7123.575

[GRAPHIC] [TIFF OMITTED] T7123.576

[GRAPHIC] [TIFF OMITTED] T7123.577

[GRAPHIC] [TIFF OMITTED] T7123.578

[GRAPHIC] [TIFF OMITTED] T7123.579

[GRAPHIC] [TIFF OMITTED] T7123.580

[GRAPHIC] [TIFF OMITTED] T7123.581

[GRAPHIC] [TIFF OMITTED] T7123.582

[GRAPHIC] [TIFF OMITTED] T7123.583

[GRAPHIC] [TIFF OMITTED] T7123.584

[GRAPHIC] [TIFF OMITTED] T7123.585

[GRAPHIC] [TIFF OMITTED] T7123.586

[GRAPHIC] [TIFF OMITTED] T7123.587

[GRAPHIC] [TIFF OMITTED] T7123.588

[GRAPHIC] [TIFF OMITTED] T7123.589

[GRAPHIC] [TIFF OMITTED] T7123.590

[GRAPHIC] [TIFF OMITTED] T7123.591

[GRAPHIC] [TIFF OMITTED] T7123.592

[GRAPHIC] [TIFF OMITTED] T7123.593

[GRAPHIC] [TIFF OMITTED] T7123.594

[GRAPHIC] [TIFF OMITTED] T7123.595

[GRAPHIC] [TIFF OMITTED] T7123.596

[GRAPHIC] [TIFF OMITTED] T7123.597

[GRAPHIC] [TIFF OMITTED] T7123.598

[GRAPHIC] [TIFF OMITTED] T7123.599

[GRAPHIC] [TIFF OMITTED] T7123.600

[GRAPHIC] [TIFF OMITTED] T7123.601

[GRAPHIC] [TIFF OMITTED] T7123.602

[GRAPHIC] [TIFF OMITTED] T7123.603

[GRAPHIC] [TIFF OMITTED] T7123.604

[GRAPHIC] [TIFF OMITTED] T7123.605

[GRAPHIC] [TIFF OMITTED] T7123.606

[GRAPHIC] [TIFF OMITTED] T7123.607

[GRAPHIC] [TIFF OMITTED] T7123.608

[GRAPHIC] [TIFF OMITTED] T7123.609

[GRAPHIC] [TIFF OMITTED] T7123.610

[GRAPHIC] [TIFF OMITTED] T7123.611

[GRAPHIC] [TIFF OMITTED] T7123.612

[GRAPHIC] [TIFF OMITTED] T7123.613

[GRAPHIC] [TIFF OMITTED] T7123.614

[GRAPHIC] [TIFF OMITTED] T7123.615

[GRAPHIC] [TIFF OMITTED] T7123.616

[GRAPHIC] [TIFF OMITTED] T7123.617

[GRAPHIC] [TIFF OMITTED] T7123.618

[GRAPHIC] [TIFF OMITTED] T7123.619

[GRAPHIC] [TIFF OMITTED] T7123.620

[GRAPHIC] [TIFF OMITTED] T7123.621

[GRAPHIC] [TIFF OMITTED] T7123.622

[GRAPHIC] [TIFF OMITTED] T7123.623

[GRAPHIC] [TIFF OMITTED] T7123.624

[GRAPHIC] [TIFF OMITTED] T7123.625

[GRAPHIC] [TIFF OMITTED] T7123.626

[GRAPHIC] [TIFF OMITTED] T7123.627

[GRAPHIC] [TIFF OMITTED] T7123.628

[GRAPHIC] [TIFF OMITTED] T7123.629

[GRAPHIC] [TIFF OMITTED] T7123.630

[GRAPHIC] [TIFF OMITTED] T7123.631

[GRAPHIC] [TIFF OMITTED] T7123.632

[GRAPHIC] [TIFF OMITTED] T7123.633

[GRAPHIC] [TIFF OMITTED] T7123.634

[GRAPHIC] [TIFF OMITTED] T7123.635

[GRAPHIC] [TIFF OMITTED] T7123.636

[GRAPHIC] [TIFF OMITTED] T7123.637

[GRAPHIC] [TIFF OMITTED] T7123.638

[GRAPHIC] [TIFF OMITTED] T7123.639

[GRAPHIC] [TIFF OMITTED] T7123.640

[GRAPHIC] [TIFF OMITTED] T7123.641

[GRAPHIC] [TIFF OMITTED] T7123.642

[GRAPHIC] [TIFF OMITTED] T7123.643

[GRAPHIC] [TIFF OMITTED] T7123.644

[GRAPHIC] [TIFF OMITTED] T7123.645

[GRAPHIC] [TIFF OMITTED] T7123.646

[GRAPHIC] [TIFF OMITTED] T7123.647

[GRAPHIC] [TIFF OMITTED] T7123.648

[GRAPHIC] [TIFF OMITTED] T7123.649

[GRAPHIC] [TIFF OMITTED] T7123.650

[GRAPHIC] [TIFF OMITTED] T7123.651

[GRAPHIC] [TIFF OMITTED] T7123.652

[GRAPHIC] [TIFF OMITTED] T7123.653

[GRAPHIC] [TIFF OMITTED] T7123.654

[GRAPHIC] [TIFF OMITTED] T7123.655

[GRAPHIC] [TIFF OMITTED] T7123.656

[GRAPHIC] [TIFF OMITTED] T7123.657

[GRAPHIC] [TIFF OMITTED] T7123.658

[GRAPHIC] [TIFF OMITTED] T7123.659

[GRAPHIC] [TIFF OMITTED] T7123.660

[GRAPHIC] [TIFF OMITTED] T7123.661

[GRAPHIC] [TIFF OMITTED] T7123.662

[GRAPHIC] [TIFF OMITTED] T7123.663

[GRAPHIC] [TIFF OMITTED] T7123.664

[GRAPHIC] [TIFF OMITTED] T7123.665

[GRAPHIC] [TIFF OMITTED] T7123.666

[GRAPHIC] [TIFF OMITTED] T7123.667

[GRAPHIC] [TIFF OMITTED] T7123.668

[GRAPHIC] [TIFF OMITTED] T7123.669

[GRAPHIC] [TIFF OMITTED] T7123.670

[GRAPHIC] [TIFF OMITTED] T7123.671

[GRAPHIC] [TIFF OMITTED] T7123.672

[GRAPHIC] [TIFF OMITTED] T7123.673

[GRAPHIC] [TIFF OMITTED] T7123.674

[GRAPHIC] [TIFF OMITTED] T7123.675

[GRAPHIC] [TIFF OMITTED] T7123.676

[GRAPHIC] [TIFF OMITTED] T7123.677

[GRAPHIC] [TIFF OMITTED] T7123.678

[GRAPHIC] [TIFF OMITTED] T7123.679

[GRAPHIC] [TIFF OMITTED] T7123.680

[GRAPHIC] [TIFF OMITTED] T7123.681

[GRAPHIC] [TIFF OMITTED] T7123.682

[GRAPHIC] [TIFF OMITTED] T7123.683

[GRAPHIC] [TIFF OMITTED] T7123.684

[GRAPHIC] [TIFF OMITTED] T7123.685

[GRAPHIC] [TIFF OMITTED] T7123.686

[GRAPHIC] [TIFF OMITTED] T7123.981

[GRAPHIC] [TIFF OMITTED] T7123.982

[GRAPHIC] [TIFF OMITTED] T7123.983

[GRAPHIC] [TIFF OMITTED] T7123.984

[GRAPHIC] [TIFF OMITTED] T7123.985

[GRAPHIC] [TIFF OMITTED] T7123.993

[GRAPHIC] [TIFF OMITTED] T7123.987

[GRAPHIC] [TIFF OMITTED] T7123.988

[GRAPHIC] [TIFF OMITTED] T7123.687

[GRAPHIC] [TIFF OMITTED] T7123.688

[GRAPHIC] [TIFF OMITTED] T7123.689

[GRAPHIC] [TIFF OMITTED] T7123.690

[GRAPHIC] [TIFF OMITTED] T7123.691

[GRAPHIC] [TIFF OMITTED] T7123.692

[GRAPHIC] [TIFF OMITTED] T7123.693

[GRAPHIC] [TIFF OMITTED] T7123.694

[GRAPHIC] [TIFF OMITTED] T7123.695

[GRAPHIC] [TIFF OMITTED] T7123.696

[GRAPHIC] [TIFF OMITTED] T7123.697

[GRAPHIC] [TIFF OMITTED] T7123.698

[GRAPHIC] [TIFF OMITTED] T7123.699

[GRAPHIC] [TIFF OMITTED] T7123.700

[GRAPHIC] [TIFF OMITTED] T7123.701

[GRAPHIC] [TIFF OMITTED] T7123.702

[GRAPHIC] [TIFF OMITTED] T7123.703

[GRAPHIC] [TIFF OMITTED] T7123.704

[GRAPHIC] [TIFF OMITTED] T7123.705

[GRAPHIC] [TIFF OMITTED] T7123.706

[GRAPHIC] [TIFF OMITTED] T7123.707

[GRAPHIC] [TIFF OMITTED] T7123.708

[GRAPHIC] [TIFF OMITTED] T7123.709

[GRAPHIC] [TIFF OMITTED] T7123.710

[GRAPHIC] [TIFF OMITTED] T7123.711

[GRAPHIC] [TIFF OMITTED] T7123.712

[GRAPHIC] [TIFF OMITTED] T7123.713

[GRAPHIC] [TIFF OMITTED] T7123.714

[GRAPHIC] [TIFF OMITTED] T7123.715

[GRAPHIC] [TIFF OMITTED] T7123.716

[GRAPHIC] [TIFF OMITTED] T7123.717

[GRAPHIC] [TIFF OMITTED] T7123.718

[GRAPHIC] [TIFF OMITTED] T7123.719

[GRAPHIC] [TIFF OMITTED] T7123.720

[GRAPHIC] [TIFF OMITTED] T7123.721

[GRAPHIC] [TIFF OMITTED] T7123.722

[GRAPHIC] [TIFF OMITTED] T7123.723

[GRAPHIC] [TIFF OMITTED] T7123.724

[GRAPHIC] [TIFF OMITTED] T7123.725

[GRAPHIC] [TIFF OMITTED] T7123.726

[GRAPHIC] [TIFF OMITTED] T7123.727

[GRAPHIC] [TIFF OMITTED] T7123.728

[GRAPHIC] [TIFF OMITTED] T7123.729

[GRAPHIC] [TIFF OMITTED] T7123.730

[GRAPHIC] [TIFF OMITTED] T7123.731

[GRAPHIC] [TIFF OMITTED] T7123.732

[GRAPHIC] [TIFF OMITTED] T7123.733

[GRAPHIC] [TIFF OMITTED] T7123.734

[GRAPHIC] [TIFF OMITTED] T7123.735

[GRAPHIC] [TIFF OMITTED] T7123.736

[GRAPHIC] [TIFF OMITTED] T7123.737

[GRAPHIC] [TIFF OMITTED] T7123.738

[GRAPHIC] [TIFF OMITTED] T7123.739

[GRAPHIC] [TIFF OMITTED] T7123.740

[GRAPHIC] [TIFF OMITTED] T7123.741

[GRAPHIC] [TIFF OMITTED] T7123.742

[GRAPHIC] [TIFF OMITTED] T7123.743

[GRAPHIC] [TIFF OMITTED] T7123.744

[GRAPHIC] [TIFF OMITTED] T7123.745

[GRAPHIC] [TIFF OMITTED] T7123.746

[GRAPHIC] [TIFF OMITTED] T7123.747

[GRAPHIC] [TIFF OMITTED] T7123.748

[GRAPHIC] [TIFF OMITTED] T7123.759

[GRAPHIC] [TIFF OMITTED] T7123.760

[GRAPHIC] [TIFF OMITTED] T7123.761

[GRAPHIC] [TIFF OMITTED] T7123.762

[GRAPHIC] [TIFF OMITTED] T7123.763

[GRAPHIC] [TIFF OMITTED] T7123.764

[GRAPHIC] [TIFF OMITTED] T7123.765

[GRAPHIC] [TIFF OMITTED] T7123.766

[GRAPHIC] [TIFF OMITTED] T7123.767

[GRAPHIC] [TIFF OMITTED] T7123.768

[GRAPHIC] [TIFF OMITTED] T7123.769

[GRAPHIC] [TIFF OMITTED] T7123.770

[GRAPHIC] [TIFF OMITTED] T7123.771

[GRAPHIC] [TIFF OMITTED] T7123.772

[GRAPHIC] [TIFF OMITTED] T7123.773

[GRAPHIC] [TIFF OMITTED] T7123.774

[GRAPHIC] [TIFF OMITTED] T7123.775

[GRAPHIC] [TIFF OMITTED] T7123.776

[GRAPHIC] [TIFF OMITTED] T7123.777

[GRAPHIC] [TIFF OMITTED] T7123.749

[GRAPHIC] [TIFF OMITTED] T7123.750

[GRAPHIC] [TIFF OMITTED] T7123.751

[GRAPHIC] [TIFF OMITTED] T7123.752

[GRAPHIC] [TIFF OMITTED] T7123.753

[GRAPHIC] [TIFF OMITTED] T7123.754

[GRAPHIC] [TIFF OMITTED] T7123.755

[GRAPHIC] [TIFF OMITTED] T7123.756

[GRAPHIC] [TIFF OMITTED] T7123.757

[GRAPHIC] [TIFF OMITTED] T7123.758

[GRAPHIC] [TIFF OMITTED] T7123.778

[GRAPHIC] [TIFF OMITTED] T7123.779

[GRAPHIC] [TIFF OMITTED] T7123.780

[GRAPHIC] [TIFF OMITTED] T7123.781

[GRAPHIC] [TIFF OMITTED] T7123.782

[GRAPHIC] [TIFF OMITTED] T7123.783

[GRAPHIC] [TIFF OMITTED] T7123.784

[GRAPHIC] [TIFF OMITTED] T7123.785

[GRAPHIC] [TIFF OMITTED] T7123.786

[GRAPHIC] [TIFF OMITTED] T7123.787

[GRAPHIC] [TIFF OMITTED] T7123.788

[GRAPHIC] [TIFF OMITTED] T7123.789

[GRAPHIC] [TIFF OMITTED] T7123.790

[GRAPHIC] [TIFF OMITTED] T7123.791

[GRAPHIC] [TIFF OMITTED] T7123.792

[GRAPHIC] [TIFF OMITTED] T7123.793

[GRAPHIC] [TIFF OMITTED] T7123.794

[GRAPHIC] [TIFF OMITTED] T7123.795

[GRAPHIC] [TIFF OMITTED] T7123.796

[GRAPHIC] [TIFF OMITTED] T7123.797

[GRAPHIC] [TIFF OMITTED] T7123.798

[GRAPHIC] [TIFF OMITTED] T7123.799

[GRAPHIC] [TIFF OMITTED] T7123.800

[GRAPHIC] [TIFF OMITTED] T7123.801

[GRAPHIC] [TIFF OMITTED] T7123.802

[GRAPHIC] [TIFF OMITTED] T7123.803

[GRAPHIC] [TIFF OMITTED] T7123.804

[GRAPHIC] [TIFF OMITTED] T7123.805

[GRAPHIC] [TIFF OMITTED] T7123.806

[GRAPHIC] [TIFF OMITTED] T7123.807

[GRAPHIC] [TIFF OMITTED] T7123.808

[GRAPHIC] [TIFF OMITTED] T7123.809

[GRAPHIC] [TIFF OMITTED] T7123.810

[GRAPHIC] [TIFF OMITTED] T7123.811

[GRAPHIC] [TIFF OMITTED] T7123.812

[GRAPHIC] [TIFF OMITTED] T7123.813

[GRAPHIC] [TIFF OMITTED] T7123.814

[GRAPHIC] [TIFF OMITTED] T7123.815

[GRAPHIC] [TIFF OMITTED] T7123.816

[GRAPHIC] [TIFF OMITTED] T7123.817

[GRAPHIC] [TIFF OMITTED] T7123.818

[GRAPHIC] [TIFF OMITTED] T7123.819

[GRAPHIC] [TIFF OMITTED] T7123.820

[GRAPHIC] [TIFF OMITTED] T7123.821

[GRAPHIC] [TIFF OMITTED] T7123.822

[GRAPHIC] [TIFF OMITTED] T7123.823

[GRAPHIC] [TIFF OMITTED] T7123.824

[GRAPHIC] [TIFF OMITTED] T7123.825

[GRAPHIC] [TIFF OMITTED] T7123.826

[GRAPHIC] [TIFF OMITTED] T7123.827

[GRAPHIC] [TIFF OMITTED] T7123.828

[GRAPHIC] [TIFF OMITTED] T7123.829

[GRAPHIC] [TIFF OMITTED] T7123.830

[GRAPHIC] [TIFF OMITTED] T7123.831

[GRAPHIC] [TIFF OMITTED] T7123.832

[GRAPHIC] [TIFF OMITTED] T7123.833

[GRAPHIC] [TIFF OMITTED] T7123.834

[GRAPHIC] [TIFF OMITTED] T7123.835

[GRAPHIC] [TIFF OMITTED] T7123.836

[GRAPHIC] [TIFF OMITTED] T7123.837

[GRAPHIC] [TIFF OMITTED] T7123.838

[GRAPHIC] [TIFF OMITTED] T7123.839

[GRAPHIC] [TIFF OMITTED] T7123.840

[GRAPHIC] [TIFF OMITTED] T7123.841

[GRAPHIC] [TIFF OMITTED] T7123.842

[GRAPHIC] [TIFF OMITTED] T7123.843

[GRAPHIC] [TIFF OMITTED] T7123.844

[GRAPHIC] [TIFF OMITTED] T7123.845

[GRAPHIC] [TIFF OMITTED] T7123.846

[GRAPHIC] [TIFF OMITTED] T7123.847

[GRAPHIC] [TIFF OMITTED] T7123.848

[GRAPHIC] [TIFF OMITTED] T7123.849

[GRAPHIC] [TIFF OMITTED] T7123.850

[GRAPHIC] [TIFF OMITTED] T7123.851

[GRAPHIC] [TIFF OMITTED] T7123.852

[GRAPHIC] [TIFF OMITTED] T7123.853

[GRAPHIC] [TIFF OMITTED] T7123.854

[GRAPHIC] [TIFF OMITTED] T7123.855

[GRAPHIC] [TIFF OMITTED] T7123.856

[GRAPHIC] [TIFF OMITTED] T7123.857

[GRAPHIC] [TIFF OMITTED] T7123.858

[GRAPHIC] [TIFF OMITTED] T7123.859

[GRAPHIC] [TIFF OMITTED] T7123.860

[GRAPHIC] [TIFF OMITTED] T7123.861

[GRAPHIC] [TIFF OMITTED] T7123.862

[GRAPHIC] [TIFF OMITTED] T7123.863

[GRAPHIC] [TIFF OMITTED] T7123.864

[GRAPHIC] [TIFF OMITTED] T7123.865

[GRAPHIC] [TIFF OMITTED] T7123.866

[GRAPHIC] [TIFF OMITTED] T7123.867

[GRAPHIC] [TIFF OMITTED] T7123.868

[GRAPHIC] [TIFF OMITTED] T7123.869

[GRAPHIC] [TIFF OMITTED] T7123.870

[GRAPHIC] [TIFF OMITTED] T7123.871

[GRAPHIC] [TIFF OMITTED] T7123.872

[GRAPHIC] [TIFF OMITTED] T7123.873

[GRAPHIC] [TIFF OMITTED] T7123.874

[GRAPHIC] [TIFF OMITTED] T7123.889

[GRAPHIC] [TIFF OMITTED] T7123.890

[GRAPHIC] [TIFF OMITTED] T7123.891

[GRAPHIC] [TIFF OMITTED] T7123.892

[GRAPHIC] [TIFF OMITTED] T7123.893

[GRAPHIC] [TIFF OMITTED] T7123.894

[GRAPHIC] [TIFF OMITTED] T7123.895

[GRAPHIC] [TIFF OMITTED] T7123.896

[GRAPHIC] [TIFF OMITTED] T7123.897

[GRAPHIC] [TIFF OMITTED] T7123.898

[GRAPHIC] [TIFF OMITTED] T7123.899

[GRAPHIC] [TIFF OMITTED] T7123.900

[GRAPHIC] [TIFF OMITTED] T7123.901

[GRAPHIC] [TIFF OMITTED] T7123.902

[GRAPHIC] [TIFF OMITTED] T7123.903

[GRAPHIC] [TIFF OMITTED] T7123.904

[GRAPHIC] [TIFF OMITTED] T7123.905

[GRAPHIC] [TIFF OMITTED] T7123.906

[GRAPHIC] [TIFF OMITTED] T7123.907

[GRAPHIC] [TIFF OMITTED] T7123.908

[GRAPHIC] [TIFF OMITTED] T7123.909

[GRAPHIC] [TIFF OMITTED] T7123.910

[GRAPHIC] [TIFF OMITTED] T7123.911

[GRAPHIC] [TIFF OMITTED] T7123.912

[GRAPHIC] [TIFF OMITTED] T7123.913

[GRAPHIC] [TIFF OMITTED] T7123.914

[GRAPHIC] [TIFF OMITTED] T7123.915

[GRAPHIC] [TIFF OMITTED] T7123.916

[GRAPHIC] [TIFF OMITTED] T7123.917

[GRAPHIC] [TIFF OMITTED] T7123.918

[GRAPHIC] [TIFF OMITTED] T7123.919

[GRAPHIC] [TIFF OMITTED] T7123.920

[GRAPHIC] [TIFF OMITTED] T7123.921

[GRAPHIC] [TIFF OMITTED] T7123.922

[GRAPHIC] [TIFF OMITTED] T7123.923

[GRAPHIC] [TIFF OMITTED] T7123.924

[GRAPHIC] [TIFF OMITTED] T7123.925

[GRAPHIC] [TIFF OMITTED] T7123.875

[GRAPHIC] [TIFF OMITTED] T7123.876

[GRAPHIC] [TIFF OMITTED] T7123.877

[GRAPHIC] [TIFF OMITTED] T7123.878

[GRAPHIC] [TIFF OMITTED] T7123.879

[GRAPHIC] [TIFF OMITTED] T7123.880

[GRAPHIC] [TIFF OMITTED] T7123.881

[GRAPHIC] [TIFF OMITTED] T7123.882

[GRAPHIC] [TIFF OMITTED] T7123.883

[GRAPHIC] [TIFF OMITTED] T7123.884

[GRAPHIC] [TIFF OMITTED] T7123.885

[GRAPHIC] [TIFF OMITTED] T7123.886

[GRAPHIC] [TIFF OMITTED] T7123.887

[GRAPHIC] [TIFF OMITTED] T7123.888

[GRAPHIC] [TIFF OMITTED] T7123.926

[GRAPHIC] [TIFF OMITTED] T7123.927

[GRAPHIC] [TIFF OMITTED] T7123.928

[GRAPHIC] [TIFF OMITTED] T7123.929

[GRAPHIC] [TIFF OMITTED] T7123.930

[GRAPHIC] [TIFF OMITTED] T7123.931

[GRAPHIC] [TIFF OMITTED] T7123.932

[GRAPHIC] [TIFF OMITTED] T7123.933

[GRAPHIC] [TIFF OMITTED] T7123.934

[GRAPHIC] [TIFF OMITTED] T7123.935

[GRAPHIC] [TIFF OMITTED] T7123.936

[GRAPHIC] [TIFF OMITTED] T7123.937

[GRAPHIC] [TIFF OMITTED] T7123.938

[GRAPHIC] [TIFF OMITTED] T7123.939

[GRAPHIC] [TIFF OMITTED] T7123.940

[GRAPHIC] [TIFF OMITTED] T7123.941

[GRAPHIC] [TIFF OMITTED] T7123.942

[GRAPHIC] [TIFF OMITTED] T7123.943

[GRAPHIC] [TIFF OMITTED] T7123.944

[GRAPHIC] [TIFF OMITTED] T7123.945

[GRAPHIC] [TIFF OMITTED] T7123.946

[GRAPHIC] [TIFF OMITTED] T7123.947

[GRAPHIC] [TIFF OMITTED] T7123.948

[GRAPHIC] [TIFF OMITTED] T7123.949

[GRAPHIC] [TIFF OMITTED] T7123.950

[GRAPHIC] [TIFF OMITTED] T7123.951

[GRAPHIC] [TIFF OMITTED] T7123.952

[GRAPHIC] [TIFF OMITTED] T7123.953

[GRAPHIC] [TIFF OMITTED] T7123.954

[GRAPHIC] [TIFF OMITTED] T7123.955

[GRAPHIC] [TIFF OMITTED] T7123.956

[GRAPHIC] [TIFF OMITTED] T7123.957

[GRAPHIC] [TIFF OMITTED] T7123.958

[GRAPHIC] [TIFF OMITTED] T7123.959

[GRAPHIC] [TIFF OMITTED] T7123.960

[GRAPHIC] [TIFF OMITTED] T7123.961

[GRAPHIC] [TIFF OMITTED] T7123.962

[GRAPHIC] [TIFF OMITTED] T7123.963

[GRAPHIC] [TIFF OMITTED] T7123.964

[GRAPHIC] [TIFF OMITTED] T7123.965

[GRAPHIC] [TIFF OMITTED] T7123.966

[GRAPHIC] [TIFF OMITTED] T7123.967

[GRAPHIC] [TIFF OMITTED] T7123.968

[GRAPHIC] [TIFF OMITTED] T7123.969

[GRAPHIC] [TIFF OMITTED] T7123.970

[GRAPHIC] [TIFF OMITTED] T7123.971

[GRAPHIC] [TIFF OMITTED] T7123.972

[GRAPHIC] [TIFF OMITTED] T7123.973

[GRAPHIC] [TIFF OMITTED] T7123.974

[GRAPHIC] [TIFF OMITTED] T7123.975

[GRAPHIC] [TIFF OMITTED] T7123.976

[GRAPHIC] [TIFF OMITTED] T7123.977

[GRAPHIC] [TIFF OMITTED] T7123.978

[GRAPHIC] [TIFF OMITTED] T7123.979

[GRAPHIC] [TIFF OMITTED] T7123.980

                                 <all>

</pre></body></html>
